<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED 
                        AGENCIES APPROPRIATIONS
                      CHET EDWARDS, Texas, Chairman
 SAM FARR, California               ZACH WAMP, Tennessee
 JOHN T. SALAZAR, Colorado          ANDER CRENSHAW, Florida
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PATRICK J. KENNEDY, Rhode Island   JOHN CARTER, Texas       
 SANFORD D. BISHOP, Jr., Georgia    
 MARION BERRY, Arkansas             
 STEVE ISRAEL, New York             
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Carol Murphy, Tim Peterson, Walter Hearne, Donna Shahbaz, and Mary C. 
                       Arnold, Subcommittee Staff

                                ________

                                 PART 7

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

 Part 7--MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2010

     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED 
                        AGENCIES APPROPRIATIONS
                      CHET EDWARDS, Texas, Chairman
 SAM FARR, California               ZACH WAMP, Tennessee
 JOHN T. SALAZAR, Colorado          ANDER CRENSHAW, Florida
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PATRICK J. KENNEDY, Rhode Island   JOHN CARTER, Texas       
 SANFORD D. BISHOP, Jr., Georgia    
 MARION BERRY, Arkansas             
 STEVE ISRAEL, New York             

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Carol Murphy, Tim Peterson, Walter Hearne, Donna Shahbaz, and Mary C. 
                       Arnold, Subcommittee Staff

                                ________

                                 PART 7

                                   S

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 50-526                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New   
 JOSE E. SERRANO, New York          Jersey
 ROSA L. DeLAURO, Connecticut       TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia           ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts       TOM LATHAM, Iowa
 ED PASTOR, Arizona                 ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina     JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island   MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York       JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California  MARK STEVEN KIRK, Illinois
 SAM FARR, California               ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois    DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania         KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey      JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia    STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas             TOM COLE, Oklahoma             
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)



                             C O N T E N TS

                               __________
                                                                   Page

Quality of Life..................................................     1

Review of VA Challenges..........................................   127

Family and Troop Housing.........................................   235

Pacific Command..................................................   315

European Command.................................................   373

DoD/VA Medical Transition........................................   487

Base Realignment and Closure.....................................   555

Outside Witnesses................................................   653

Court of Appeals.................................................   917

American Battle Monuments Commission.............................   930

Cemeterial Expenses, Army........................................   941

Armed Forces Retirement Home.....................................   962

Central Command..................................................   985

Army Budget......................................................  1059

Navy and Marine Corps Budget.....................................  1103

Veterans Affairs.................................................  1185

Budget Overview..................................................  1275

Air Force Budget.................................................  1361

Testimony Submitted for the Record...............................  1407

                                 (iii)


     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2010

                              ----------                              --
--------

                                       Wednesday, February 4, 2009.

                           UNITED STATES ARMY

                                WITNESS

KENNETH O. PRESTON, SERGEANT MAJOR OF THE ARMY

                       Statement of the Chairman

    Mr. Edwards [presiding]. I would like to call the committee 
to order. I want to welcome everyone here, the witnesses, the 
members of the committee, and all the others for your 
attendance here today at our first subcommittee meeting of the 
111th Congress.
    Our ranking member, Congressman Wamp, is back with us. I 
want to thank you personally, Mr. Wamp, for your tremendous 
leadership and a lot of the very positive accomplishments of 
this subcommittee last year. And as I recall, our last bill 
passed by--that was about 424-4 or something close to that. So 
I really appreciate the bipartisan manner in which this 
committee has been dedicated to supporting our veterans and our 
troops and their families.
    I would like to just start out with a few organizational 
comments and points before we get into the witnesses' 
testimony.
    I would like to say at the very beginning here that I think 
we are literally blessed to have one of the finest staffs of 
any committee or subcommittee in the House. They work on a 
bipartisan basis. They know their business. And I think they 
are the real reason why we have had such great successes in 
this committee in the last few years, as well as previous 
years.
    We have Carol Murphy as the clerk, she will be back as the 
clerk for this subcommittee. We also have Mary Arnold.
    And if you could all raise your hand when I introduce you. 
Tim Peterson, Donna Shahbaz, Walter Hearne, all on the majority 
side. And on the minority side, we have Martin Delgado, Liz 
Dawson, and Kelly Shea.
    And while I introduced them as majority and minority side, 
this committee will continue its tradition of working on a 
bipartisan and nonpartisan basis on behalf of our veterans and 
our troops and their families.
    I would like to just very briefly, for the record, since 
this is the first meeting of the subcommittee for the year, 
review some of our efforts and achievements from last year.
    For the Veterans Administration, we followed up on the 
largest single-year increase for veterans with an additional 
$4.5 billion increase. We provided funds to hire an additional 
2,000 claims processors to reduce the serious V.A. backlog 
claims.
    We increased veterans' funding by $16.3 billion during the 
110th Congress, an unprecedented increase and something that I 
believe the troops and our veterans earned--these were dollars 
and programs that they earned through their service to the 
country.
    On the military construction side, we provided over $25 
billion in new funding for 2009. We were also able to make 
progress on a couple of areas where we identified a great need.
    Between the 2008 and the 2009 supplemental bills, we were 
able to secure nearly $975 million for new military hospital 
construction, an initiative of this subcommittee and something 
I think has been long overdue.
    And we secured $200 million in additional money for new 
training barracks, something that hasn't been the highest of 
priorities coming out of budgets from OMB.
    While our new recruits aren't expecting to be trained and 
live in Hilton Hotels, we ought to have them living in the kind 
of housing conditions that show respect from our country for 
their choice to sign up and serve our country.
    So I am very proud of our bipartisan effort to make new 
inroads in improving our training barracks. Not many lobbyists 
out there are lobbying for 18-, 19-, 20-year-old recruits to 
the military forces, but this subcommittee intends to continue 
being a lobbyist for them in partnership with you, who has been 
such an eloquent voice on their behalf.
    Before I proceed, I would like to recognize again Mr. Wamp, 
who had such a tremendous impact on the success that I have 
mentioned.
    The time is yours.

                Statement of the Ranking Minority Member

    Mr. Wamp. Well, Mr. Chairman, thank you. Good morning.
    I think it is really appropriate to start here with the top 
enlisted leaders of our combined Armed Forces. Probably the 
only better way we could do this is if we had your family 
members up here--heart is where this committee's work is. 
Quality of life is really everything for us.
    And it is still a tough world to serve in out there, and we 
know that, and we want to make sure we do everything we can 
here at this table--I want to thank the chairman, because I 
think he is exactly right. We have a lot to be grateful for, 
first and foremost, your service and all the men and women that 
you represent. This subcommittee has, in a bipartisan way, 
really kicked it in and stepped it up.
    And I tell people that at home and everywhere I go how 
committed, in a bipartisan way, we are to your families and to 
those men and women who volunteer to serve at a very difficult 
time. And I think we have made progress, but I think we can 
still make progress.
    A little housekeeping here. I have Major Juan Alvarez that 
is now on my staff, and Erin Fogleman. I have been through a 
little transition.
    But I want to tell you something that maybe sounds a little 
strange to say, but I am now up to seven on our side in the 
seniority of the ranking members. And unlike the Democrats, who 
base their seniority on the particular subcommittee that they 
choose, we can move.
    We had three retirements ahead of me on our side, and I 
could have gone to a number of other committees. I said, ``I 
want to stay right here, because this is the most important 
work that I can be engaged in.'' And I am actually doing two 
jobs right now. I am running for governor of our state and 
serving here in Congress.
    But as long as I am here, it is absolutely the highest 
privilege of my professional life to serve those that serve our 
country in uniform, our Armed Forces in a volunteer capacity, 
with two wars in Iraq and Afghanistan, and trouble in 25 
countries. It is a volatile time. It is a tough time. But there 
is no greater service to our country than the people that you 
represent.
    And I especially appreciate you four men, because just 
about every one of you has some real, direct connection to the 
state of Tennessee. So I just want to thank you for that. 
[Laughter.]
    And I know the chairman is going to find all those nexus to 
Texas, but it is undeniable how much they know about where I 
live. And I, too, have been out there.
    I was with President Bush in November on the ground at Fort 
Campbell, listening to our soldiers, many of whom are single. 
We have housing needs for those single troops that are serving 
us. We have a host of needs, still, in the area of childcare 
centers. And I know that the chairman is trying any vehicle 
passing through town here to help us. And that is important, as 
well.
    But we are so very grateful. And it is such a privilege. 
Our numbers shrank over here. We had four members of the 
subcommittee besides me. Now we have three. And Mr. Carter will 
be here, but the same team, which is a strong Republican team 
over here is committed to our men and women in uniform.
    We stand ready over the next 2 years to do everything we 
can to help our chairman and to help the majority and the 
President of the United States honor your sacrifice and 
service. I am really looking forward to it. We will do all that 
we can at a time of great challenge and difficulty, both on the 
budget front and around the world, to honor what you're doing--
and I just want you to know that going in.
    It is going to be a great year. And thank you for your 
presence here today. I hope that you will tell us what we need 
to hear and not what we want to hear as we go through this 
process. I know you are in charge of doing that to the 
generals, and I hope you will be the same way with us this 
morning.
    Thank you, Mr. Chairman.
    Mr. Edwards. Great. Thank you, Zach.
    And let me just say, as a Texan, having studied the Alamo, 
even we Texans are appreciative of Tennesseans--as long as I am 
chairman of this committee and as long as Chairman Young 
chooses to be on this subcommittee, it is going to be my 
tradition to recognize him for an opening statement, as well, 
because he has done as much or more than any single member of 
Congress to support our troops and our veterans.
    And the former chairman of the full Appropriations 
Committee, former chairman of the Defense Appropriations 
Committee, now the partner.
    And, Chairman Young, we are honored to have you again in 
this Congress on our subcommittee. And I would like to 
recognize you for any opening comments you would care to make.
    Mr. Young. Well, Mr. Chairman, thank you very much. And I 
fought hard to stay on this subcommittee when we were having to 
downsize somewhat. But when it comes to the well-being of the 
men and women who serve in our military, there are no 
Republicans and no Democrats, especially on this committee, the 
chairman has conducted this subcommittee in just a tremendous 
bipartisan way, in the best interests of our country. And Mr. 
Wamp has done the same.
    And we are here--I know you hear this as a joke on 
occasion--but we are here to help, actually. I am not sure 
whether you have seen your specific budget for your service or 
not, but I don't think we have, have we, Mr. Chairman?
    Mr. Edwards. No.
    Mr. Young. We haven't gotten the budget yet. But we know 
that--regardless of what the budget is, there are needs that 
our men and women need. And we are counting on you to tell us 
what those needs are, because I can guarantee you that this 
subcommittee, the members of this subcommittee are going to do 
whatever we can possibly do to meet the needs to improve the 
quality of life and to take care of some of those little 
problems that are out there that sometimes we don't hear about.
    So I am going to ask, Mr. Chairman, that, as they go 
through their testimony, just pretend like we have a magic wand 
up here and tell us some of the things that we might not have 
read or we might not have heard about. Tell us some of the 
things that we need to be doing in the interests of our 
military personnel.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Young.
    Let me welcome two new members to our subcommittee, 
Congressman John Salazar and Congressman Steve Israel. We are 
thrilled to have both of you here.
    And let me just give you a brief background. Congressman 
Salazar was first elected in 2004. He is a new member of the 
Appropriations Committee, but he is not new to defense issues. 
He served in the United States Army, a distinguished career 
there from 1973 to 1976. He also reflects his values by having 
served on the Veterans Affairs Committee. He was born and 
raised on a farm, still an active farmer, and a Blue Dog 
Democrat.
    John, we are very thrilled to have you. Would you care to 
make any statement in your first subcommittee hearing?
    Mr. Salazar. Well, I thank you, Mr. Chairman.
    First of all, it is really an honor to be able to serve on 
this subcommittee. It was one of my first choices. And I want 
to thank you for the opportunity.
    As many of you know, the Salazar family has had a long 
history of serving this country. My father was a World War II 
veteran, asked that he be buried in his staff sergeant World 
War II uniform, and he was. And many times--we don't ask much 
of our country, but we ask what we can do for our country.
    Thank you for your service.
    And thank you, Mr. Chairman. This is truly an honor for me 
to be able to serve on this committee.
    Mr. Edwards. Thank you, John. We are honored that you are 
on this subcommittee.
    Steve Israel is a member of Congress from the great state 
of New York. He was first elected in 2000, became a member of 
the Appropriations Committee in 2007. He is also not new to 
defense issues on several points.
    He previously served on the House Armed Services Committee, 
founded the bipartisan House Center Aisle Caucus, and very 
importantly, has been chairman of the House Democratic Caucus 
Task Force on Defense and the Military. He is particularly 
known for his leadership on professional military education 
issues, in addition to other areas of interest to him.
    Welcome to the committee, Steve.
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Edwards. And I would like to recognize you for any 
comments you would care to make.
    Mr. Israel. Thank you, Mr. Chairman and colleagues. I truly 
am honored to be on this subcommittee.
    If there was only one regret in coming to the 
Appropriations Committee, it was that I had to leave the Armed 
Services Committee. And I told the speaker, my heart remains 
with the Armed Services Committee. My wallet is with the 
Appropriations Committee. [Laughter.]
    And I have always had a longstanding interest, working with 
Chairman Skelton, on the issue of professional military 
education and how we are equipping our forces with the software 
that they need to become effective and remain effective 
warriors. I look forward to continuing to work with you--thank 
you all.
    Mr. Edwards. Thank you, Steve. Welcome back.
    And welcome back--welcome, as a new member of the 
subcommittee. And welcome back, also, to all the returning 
members today. It is an honor. I think this is a great, great 
subcommittee.
    Let me make a fairly brief opening statement. This is our 
first hearing of the year. I think it is a reflection on our 
respect for your leadership and the difference that you have 
made from your previous year's testimony.
    We felt, as Mr. Young alluded, we felt it wasn't even 
important to wait until we have an official administration 
budget request, that whatever the needs are that are out there 
that you have identified--our troops and their families need to 
be heard now, as we begin our--our budgeting process.
    Members, today's hearing is on the quality of life for 
enlisted soldiers, sailors, Marines, airmen, and their 
families. The four witnesses at the table are the senior 
enlisted members of their respective branches. Members should 
know--and this is amazing--that these four witnesses represent 
roughly 124 years of distinguished military service and 
experience.
    This hearing is a great opportunity to identify areas where 
we can do more to serve those who serve us. And as I mentioned 
to some of you I met with yesterday, literally, if you ever 
wonder all the trouble you go to testify on Capitol Hill, does 
it make a difference?
    Literally, the comments you made about the need for child 
development centers over the last several years is the reason 
why we have added several hundred million dollars to those 
programs, and particularly the point being that we have a lot 
of single moms and dads, while their spouses are serving in 
Iraq and Afghanistan on a first, second, or third tour that 
deserve and need that daycare.
    So you have made a difference. And we know you will 
continue to.
    Our witnesses today are, first, Sergeant Major of the Army 
Kenneth Preston. He is no stranger this subcommittee.
    Welcome back, Sergeant Major.
    He was sworn in to his present position on January 15th of 
2004 with over 33 years of service in the United States Army. 
He was command sergeant major for Combined Task Force 7 in 
Baghdad prior to becoming sergeant major in the Army.
    And I anticipate Sergeant Major Preston will introduce him 
formally, but I also wanted to pay special tribute to Command 
Sergeant Major John Gipe of the National Guard and also Command 
Sergeant Major Leon Caffie of the Army Reserve.
    Thank you. Thank you both for your leadership and for being 
here today, as well.
    Sergeant major of the Marine Corps is Carlton W. Kent. 
Sergeant Major Kent is a returning witness and became sergeant 
major of the Marine Corps on April 25th of 2007. He also has 33 
years of military service.
    And we thank you for those distinguished years of service, 
Sergeant Major. He served as sergeant major of the Marine 
Forces, Europe, and the 1st Marine Expeditionary Force at Camp 
Pendleton prior to his current position.
    Master Chief Petty Officer of the Navy Rick D. West, Master 
Chief West is a first-time witness here. And this is a friendly 
committee. [Laughter.]
    Mr. Young meant it when he said we are here to help. We are 
not like some of these committees trying to make points with 
cameras or reporters. We are here to hear from you, and we do 
welcome you to our subcommittee.
    Master Chief West has about 28 years of service in the 
Navy, entered the Navy straight from high school in 1981. And 
he is a submariner. His assignments include service on the 
staff of the commander, Submarine Force of the U.S. Pacific 
Fleet, and chief of the boat aboard the USS Portsmouth.
    Most recently, he served as fleet master chief of the U.S. 
fleet forces--and I will let Master Chief West introduce him 
formally, but I want to note that Force Master Chief Ronney 
Bright from the Navy Reserve is also with us. Wright. I am 
sorry, Wright. He is a bright Wright. [Laughter.]
    Thank you for that. Well, welcome. It is good to have you 
here, also.
    Chief Master Sergeant of the Air Force Rodney J. McKinley. 
Chief McKinley is a returning witness, as well.
    Chief, welcome. Welcome back to our subcommittee in your 
present position since 2006, June 30th. He has served in the 
Air Force for 30 years, beginning in 1974 with a 5-year break. 
He served as Command Chief Master Sergeant at the wing, 
Numbered Air Force, and major command levels and deployed to 
southwest Asia in support of OEF and OIF.
    Thank you again for all being here. And if you can just be 
patient for 1 or 2 more minutes, I would like to just lay out a 
couple of ground rules as we have agreed to them for this new 
Congress for our subcommittee.
    First, I will do everything I can to begin the committee 
hearings on time. I respect your schedules. We are not going to 
have you sitting here for 20 minutes waiting for a 10 o'clock 
hearing to begin at 10:30.
    For the members present in the room, when I gavel at the 
beginning of the hearing to open the hearing, I will recognize 
the members for questions in order of seniority, alternating 
between the majority and minority.
    For those who arrive after the hearing has started, I will 
recognize those members solely in order of arrival, not in 
order of seniority. And then the order will continue through 
all rounds of questioning.
    I will do my best to try to enforce the 5-minute rule on 
questions and answers. We will do this out of the hope that in 
this subcommittee, unlike the Armed Services Committee, Steve, 
we will have opportunities to have multiple rounds of 
questioning. And that might work better if we tried to not have 
our members make a 5-minute statement and ask 20 questions in 
the last 15 seconds of that.
    So what I am going to do is I will gavel once when there is 
a minute left. I will gavel twice, and I would ask the 
witnesses to finish your sentence when I have gaveled follow-up 
questions for the members.
    With that, we would like by tradition to begin with 
Sergeant Major Preston.

             Statement of Sergeant Major Kenneth O. Preston

    Sergeant Major Preston. Mr. Chairman, thanks very much.
    Congressman Wamp, Congressman Young, all the committee 
members, thanks very much. It is a great honor to be here and 
to testify again before this distinguished committee. I 
represent all the men and women of America's Army.
    I will start out by saying that your support this past year 
and your continued support today has had a tremendous impact on 
our soldiers and our families. On behalf of all them, I want to 
thank you for all your work and effort.
    I also want to recognize Command Sergeant Major John Gipe, 
who is the command sergeant major for the Army National Guard. 
He is the senior enlisted adviser for Lieutenant General Vaughn 
for the Army National Guard.
    And then Command Sergeant Major Leon Caffie, who is the 
command sergeant major for the Army Reserve. He works as the 
senior enlisted adviser for Lieutenant General Jack Stultz. 
These gentlemen represent 518,000 citizen-soldiers that serve 
every day.
    Today, the Army has more than 245,000 soldiers forward-
deployed to 80 countries around the world. We have more than 
139,600 soldiers currently deployed in support of Operation 
Iraqi Freedom and Operation Enduring Freedom.
    General Casey, early in his tenure as our Army chief of 
staff, searched for a way to describe the state of the Army. 
And he uses the term ``out of balance,'' not broken or hollow, 
but the era of persistent global conflict has strained our Army 
resources, our soldiers, our Army families, and our equipment, 
to a point where we are consumed by the demands of the current 
fight.
    The Army has four strategic imperatives to restore this 
balance. We must Sustain our all-volunteer force, our soldiers, 
our Army civilians, and their families. We must Prepare our 
forces for success in the current conflict. We must Reset our 
soldiers and their equipment returning from the deployment. And 
we must Transform to meet the demands of the future and provide 
our soldiers, our Army civilians, and their families with the 
predictability and stability that they need.
    With your support, we intend to restore this balance to the 
Army. Our recruiting and retention programs are a success. Last 
year, we recruited over 169,000 young men and women, all great 
soldiers. We re-enlisted 120,000 soldiers to retain in our 
units. This past July, we celebrated the 35th anniversary of 
the all-volunteer force.
    And your support is directly attributed to our success, and 
it is greatly appreciated.
    We are seeing indicators of stress on the force as we enter 
the eighth year of the global war on terror. The Army had an 
increase in suicide rates for the fourth consecutive year. 
There were 128 suicides last year, with 15 additional cases 
still pending determination. The total number of suicides is 
potentially 143. We continue to look for initiatives to 
increase resources and enhance our efforts to identify, 
intervene and prevent suicidal behavior.
    The plan for this year is the implementation of a 
comprehensive soldier fitness program. The vision of this 
program is an Army whose resilience and total fitness enables 
soldiers to thrive in an era of high op-tempo and persistent 
conflict.
    Child care is a top quality of life issue. Our goal is to 
achieve the OFC standard of providing 80 percent childcare and 
35 percent of the youth program demand by the end of fiscal 
year 2009. We currently can provide about 72,500 childcare 
spaces in support of our anticipated need of about 87,500 by 
fiscal year 2013.
    Our residential communities initiative is a successful tool 
in our efforts to eliminate inadequate family housing. At the 
end of this year, we will complete privatization on 44 of 45 
installations, with over 89,000 homes. By 2011, we will 
complete privatization of about 98 percent of our stateside 
family housing inventory.
    Our permanent-party soldier barracks goal is about 170,000 
adequate soldier spaces funded by the end of fiscal year 2013. 
Allowing 2 years for construction, we will not complete the 
barracks building plan until fiscal year 2015 for our 
permanent-party soldiers.
    We have a plan to maintain safe living conditions in our 
old Korean War-era barracks until enough new facilities are 
built to house our permanent-party soldiers.
    Our training barracks goal to support soldiers attending 
initial entry and professional development schools across the 
Army is 115,413 adequate soldier spaces funded by the end of 
fiscal year 2013. Allowing 2 years for construction, we will 
not complete the barracks building plan until fiscal year 2017.
    And, of course, when you look at some of our facilities 
that are out there, you know, the soldiers attending the 
Noncommissioned Officer Academy at Fort Bragg, North Carolina, 
live in World War II wooden barracks.
    We completed standing up and manning 36 warrior transition 
units and nine community-based warrior transition units to 
support 12,000 soldiers. These facilities have a singular focus 
on warrior healing and support to families.
    We hired 191 of the needed 254 new behavioral health 
providers this past year, which adds about 16,000 additional 
appointments a month. Shortages of medical providers in 
military treatment facilities is one of the top five issues 
identified by soldiers and families in our most recent Army 
family action plan conference last week.
    I want to thank the committee for the increased focus on 
our aging health care facilities over this last year. Our 
medical facilities are well maintained and operated, but many 
are more than 50 years old and not configured, nor constructed 
to provide the range of treatments available in modern medical 
facilities.
    I am proud that this year we will--2009 as the year of the 
noncommissioned officer. During this year, we will accelerate 
previously approved strategic noncommissioned officer 
development initiatives that enhance training, education, 
capability, and utilization of our noncommissioned officers.
    Mr. Chairman, committee members, thank you, and I look 
forward to your questions.
    [Prepared testimony of Sergeant Major Kenneth O. Preston 
follows:]

[GRAPHIC] [TIFF OMITTED] T0526A.001

[GRAPHIC] [TIFF OMITTED] T0526A.002

[GRAPHIC] [TIFF OMITTED] T0526A.003

[GRAPHIC] [TIFF OMITTED] T0526A.004

[GRAPHIC] [TIFF OMITTED] T0526A.005

[GRAPHIC] [TIFF OMITTED] T0526A.006

[GRAPHIC] [TIFF OMITTED] T0526A.007

[GRAPHIC] [TIFF OMITTED] T0526A.008

[GRAPHIC] [TIFF OMITTED] T0526A.009

[GRAPHIC] [TIFF OMITTED] T0526A.010

[GRAPHIC] [TIFF OMITTED] T0526A.011

[GRAPHIC] [TIFF OMITTED] T0526A.012

[GRAPHIC] [TIFF OMITTED] T0526A.013

[GRAPHIC] [TIFF OMITTED] T0526A.014

[GRAPHIC] [TIFF OMITTED] T0526A.015

[GRAPHIC] [TIFF OMITTED] T0526A.016

[GRAPHIC] [TIFF OMITTED] T0526A.017

[GRAPHIC] [TIFF OMITTED] T0526A.018

[GRAPHIC] [TIFF OMITTED] T0526A.019

    Mr. Edwards. Sergeant Major Preston, thank you very much.
    Sergeant Major Kent.
                              ----------                              --
--------

                                     Wednesday, February 4, 2009.  

                       UNITED STATES MARINE CORPS


                                WITNESS

CARLTON W. KENT, SERGEANT MAJOR OF THE MARINE CORPS

              Statement of Sergeant Major Carlton W. Kent

    Sergeant Major Kent. Thank you, Chairman Edwards, Ranking 
Member Wamp, and all of the subcommittee members for an 
opportunity to testify on all important issues that are 
affecting our Marines and their families today.
    The well-being of Marines and families is the most 
important priority for our corps. Your Marines are serving at 
every U.S. embassy throughout the world. They are engaged on 
several fronts. They are serving aboard the U.S. ships with our 
brothers and sisters in the Navy, and they are waiting on the 
call to go in harm's way.
    Marines are very proud to serve their country and their 
Corps. I am pleased to report that the Marine Corps is making 
positive changes for Marines and their families that will 
benefit them for generations to come.
    We are making strides--quality of life of our families. We 
like to thank you all, you know, for what you have done for our 
BEQs, for our housing, and, I mean, across the whole spectrum. 
And we see that in our Corps.
    As a matter of fact, I have a quick story that I told 
Congressman Edwards yesterday. I was standing talking to a 
young corporal on a visit recently. And I said, ``Are you 
planning on staying in the Marine Corps?'' The young corporal 
was getting ready to answer it. Then his wife jumped right in. 
She said, ``Yes, he is staying in the Marine Corps, because I 
like the housing, I like the commissary, I like childcare, I 
like everything that comes with the Corps.''
    So it is the families just keeping these Marines around. So 
thank you very much, you know, for what you do for our Corps. 
And, again, I am available to answer any questions.
    [Prepared statement of Sergeant Major Carlton W. Kent 
follows:]

[GRAPHIC] [TIFF OMITTED] T0526A.020

[GRAPHIC] [TIFF OMITTED] T0526A.021

[GRAPHIC] [TIFF OMITTED] T0526A.022

[GRAPHIC] [TIFF OMITTED] T0526A.023

[GRAPHIC] [TIFF OMITTED] T0526A.024

[GRAPHIC] [TIFF OMITTED] T0526A.025

[GRAPHIC] [TIFF OMITTED] T0526A.026

[GRAPHIC] [TIFF OMITTED] T0526A.027

[GRAPHIC] [TIFF OMITTED] T0526A.028

[GRAPHIC] [TIFF OMITTED] T0526A.029

[GRAPHIC] [TIFF OMITTED] T0526A.030

[GRAPHIC] [TIFF OMITTED] T0526A.031

[GRAPHIC] [TIFF OMITTED] T0526A.032

[GRAPHIC] [TIFF OMITTED] T0526A.033

[GRAPHIC] [TIFF OMITTED] T0526A.034

[GRAPHIC] [TIFF OMITTED] T0526A.035

[GRAPHIC] [TIFF OMITTED] T0526A.036

[GRAPHIC] [TIFF OMITTED] T0526A.037

    Mr. Edwards. Great. Thank you very much, Sergeant Major.
    Master Chief West.
                              ----------                              --
--------

                                       Wednesday, February 4, 2009.

                           UNITED STATES NAVY


                                WITNESS

RICK D. WEST, MASTER CHIEF PETTY OFFICER OF THE NAVY

          Statement of Master Chief Petty Officer Rick D. West

    Master Chief West. Yes, sir. Thank you very much.
    Mr. Chairman, Congressman Wamp, distinguished members of 
the subcommittee, thank you for the opportunity to appear 
before you and represent our Sailors and their families in this 
forum.
    On December 12th, the day I took the job, I told our young 
men and women that nothing would be more important to me than 
providing them the avenues to succeed as Sailors and as 
Americans. I view this time with you as an unparalleled 
opportunity to speak on behalf and uphold the promise that I 
made to them.
    Joining me today is Force Master Chief Ronney Wright, who 
represents our Reserve Force, the finest group of citizen-
sailors that this nation has ever seen.
    Force Wright and I believe that three traditional pillars 
are critical to the success of our service: Strong decisive 
leadership, consistent and clear communications up, down and 
across the chain of command, and education to our fleet and 
their families regarding the quality of life and family support 
programs that are available to them.
    Consistent support from Congress and a continued emphasis 
on these pillars will ensure all of our sailors are ready for 
any mission any time, anywhere. Your commitment to our Sailors 
and the unconditional support to the families both contribute 
equally to our Navy's success and our ability to protect 
America's strategic interests around the world.
    Over the last few years, cooperation between this 
subcommittee and our Navy leadership has led to impressive 
progress in health care, childcare, family housing, and many 
other support programs. However, we will need your support as 
we focus on upgrading our existing barracks and providing more 
quarters to support our Sailors. Approximately 9,000 of my 
sailors today live on board ships.
    Before I took this job, I had the privilege of leading 
Sailors as Master Chief in both the Pacific and the Atlantic 
fleets. I have met and talked with thousands of our great 
Sailors. They inspire me daily, and I am happy to report morale 
is high and retention is strong.
    Our Navy mission is more diverse than ever before. I have 
seen Sailors operate on and below the oceans of the world, in 
the air, or boots on the ground with our expeditionary forces 
or as individual augmentees as we prosecute the global war on 
terror.
    And I am continually amazed to see the caliber of these 
Sailors working side by side with our Marine Corps brothers and 
alongside our Army and Air Force counterparts.
    They may not have joined with that job in mind, but every 
day they are redefining their role as a United States Sailor. 
Your Sailors stand ready.
    But sadly to say, some of these Sailors never return to 
their families. They present us with a serious national 
responsibility. As a Navy and through your leadership, we are 
continually improving the support and care that we provide our 
wounded warriors. Our commitment to the heroes and their 
families will never waver.
    But today I come before you not only as the nation's senior 
enlisted Sailor, but also as a Navy dad. I saw my eldest son 
graduate from Navy boot camp, and a few months later, I 
attended his graduation from Navy dive school.
    In the near future, his younger brother plans to follow. I 
am proud to tell you that these young men elected to follow in 
my footsteps out of patriotism and sense of selfless service to 
our nation, but I will also tell you another fact is they have 
chosen to join our Navy. The reason they joined our Navy is the 
lifelong exposure that they have had to the Navy way of life 
and to the military quality of life that this subcommittee is 
chartered with.
    And they have seen my wife, Bobbi, a former Navy Seabee, 
who doesn't have to worry too much about my safety, but now she 
understands firsthand what so many of our American parents have 
discovered, that a child in harm's way is a kind of stress you 
can never prepare yourself for.
    Mr. Chairman, committee members, it is not lost on me that 
you and I share very similar responsibilities. I know that your 
dedication to our military is stronger than ever before, and 
that your loyalty to our families is limitless. You have my 
most profound respect for that and for your continued 
dedication to each of them.
    I look forward to working with and alongside each of you 
today and in the future. Thank you for the opportunity to 
address you today, and I look forward to your questions. Hooah.
    [Prepared statement of Master Chief Petty Officer Rick West 
follows:]

[GRAPHIC] [TIFF OMITTED] T0526A.038

[GRAPHIC] [TIFF OMITTED] T0526A.039

[GRAPHIC] [TIFF OMITTED] T0526A.040

[GRAPHIC] [TIFF OMITTED] T0526A.041

[GRAPHIC] [TIFF OMITTED] T0526A.042

[GRAPHIC] [TIFF OMITTED] T0526A.043

[GRAPHIC] [TIFF OMITTED] T0526A.044

[GRAPHIC] [TIFF OMITTED] T0526A.045

[GRAPHIC] [TIFF OMITTED] T0526A.046

[GRAPHIC] [TIFF OMITTED] T0526A.047

[GRAPHIC] [TIFF OMITTED] T0526A.048

[GRAPHIC] [TIFF OMITTED] T0526A.049

    Mr. Edwards. Thank you. Master Chief West, thank you for 
your eloquent first statement before our subcommittee.
    Master Chief West. Thank you very much.
    Mr. Edwards. And thanks on behalf of all of us for your 
entire family's service to our country.
    Master Chief West. Thank you very much.
    Mr. Edwards. Chief McKinley, welcome back to our 
subcommittee. I would like to recognize you now for your 
opening statement.
                              ----------                              --
--------

                                     Wednesday, February 4, 2009.  

                        UNITED STATES AIR FORCE


                                WITNESS

RODNEY J. McKINLEY, CHIEF MASTER SERGEANT OF THE AIR FORCE

         Statement of Chief Master Sergeant Rodney J. McKinley

    Chief Master Sergeant McKinley. Thank you very much.
    Mr. Chairman, Congressman Wamp, Congressman Young, members 
of the committee, thank you for this opportunity to speak with 
you today about issues important to America's Airmen and our 
Air Force.
    I am honored to be here alongside my fellow warriors as we 
collaborate on quality-of-life issues impacting all of our 
service members and their families. I want to take this 
opportunity to thank the members of this committee and the 
entire House of Representatives for your incredible support.
    Your Air Force appreciates greatly the expansion of pay, 
health care, and retirement benefits for service members and 
veterans and visits by the House members to our personnel in 
the field and to our wounded warriors.
    Thank you also, Mr. Chairman and committee members, for 
recommending additional Air Force infrastructure funding in the 
House Appropriations Committee's economic stimulus package. 
Quality facilities and services directly impact our mission and 
retention efforts, so we especially appreciate this 
recommendation to invest in our future.
    Mr. Chairman, we also thank you for your continued 
sponsorship of the Military Child College Affordability Act in 
which states offer resident rate college tuition to our 
military families.
    Recently, our Air Force has had some challenges in our 
nuclear enterprise. We learned we needed to improve in many 
areas. But under the leadership of our Secretary and Chief of 
Staff, we have met those challenges head-on to ensure we have 
the right focus.
    We have stood up the Air Force Global Strike Command 
Provisional to handle our nuclear missions. We now have the 
right organizational emphasis as we steward this very important 
national resource.
    America's Airmen continue to deliver outstanding 
capabilities to the battlefield. In the war on terrorism, more 
than 208,000 total force Airmen are engaged in the joint and 
coalition fight. We are supporting daily operations in the air, 
on the ground, in space, and in cyberspace.
    We are filling joint expeditionary taskings, formerly known 
as in-lieu-of taskings, where our deployed Airmen work 
alongside Soldiers, Sailors, Marines, and Coast Guardsmen on 
missions in Iraq, Afghanistan, and around the globe.
    We are focused on cyberspace, unmanned aerial systems, and 
the United States African Command. Security of cyberspace is of 
great importance not only to our Air Force, but also to our 
joint partners in our nation. Security of the nation's net-
centric information architecture requires more than Department 
of Defense (DoD) emphasis, so we have committed to working 
transparently with our interagency partners, as well.
    Our unmanned aircraft systems (UAS) are directly supporting 
warfighters on the ground. Air Force Predators, Reapers, and 
Global Hawks are finding, fixing, tracking, and attacking our 
enemies. The intelligence, reconnaissance, and surveillance 
capabilities these systems provide are critical to battlefield 
operations.
    We have increased from 12 UAS combat air patrols in 2007 to 
33 today. To further support United States African Command, we 
have a new numbered Air Force, 17th Air Force. We are gearing 
up to support the extensive airlift requirements of that new 
command, as well as humanitarian assistance, security 
operation, improved aero-safety and security, and assisting our 
African partners with their efforts in these areas.
    We are constantly expanding care for our wounded warriors. 
Our warrior and survivor care program cares for Airmen and 
their families through treatment, recovery, and into the post-
separation period.
    We are also working with our joint partners on special 
monthly compensation, which will assist the families that have 
catastrophically wounded service members toward maintaining 
financial balance with their loved ones during recovery. This 
compensation is intended to help family caregivers in meeting 
recurring monthly expenses, such as rent, credit card, and car 
payments while they are at the bedside.
    Our recruiting efforts continue to be successful, despite 
the decreasing eligibility pool due to increases in the 
nationwide school dropout rate, a more obese youth population, 
and other reasons. We met our 2008 recruiting goals and met 
recruiting goals in all three areas of our total force: Active 
Duty, Air Force Reserve, and Air National Guard.
    We have experienced a few decreases in our retention 
numbers. In fiscal year 2008, overall Active-Duty Air Force 
retention rates finished slightly below annual goals, while 
Guard and Reserve officer enlistment rates met or exceeded 
their retention goals.
    Although overall Active-Duty retention is trending slightly 
upward for this fiscal year, 2009, some of our critical and 
stressed specialties continue to experience significant 
shortfalls.
    We continue to use selective re-enlistment bonuses and 
quality of service initiatives to resolve these shortages. We 
appreciate continued congressional support for these incentive 
efforts.
    Childcare continues to be important to our Airmen and our 
families. With the current economic situation, many of our 
spouses must work to supplement the family income. We have made 
good progress in providing affordable childcare, and we will 
continue these efforts. Right now, we have need for about 1,900 
childcare spaces and would like to cut that to zero.
    Thank you all again for your continued support for our 
Airmen. On behalf of America's Airmen, thank you for this 
opportunity to testify before you today. I look forward to your 
questions.
    [Prepared statement of Chief Master Sergeant Rodney J. 
McKinley follows:]

[GRAPHIC] [TIFF OMITTED] T0526A.050

[GRAPHIC] [TIFF OMITTED] T0526A.051

[GRAPHIC] [TIFF OMITTED] T0526A.052

[GRAPHIC] [TIFF OMITTED] T0526A.053

[GRAPHIC] [TIFF OMITTED] T0526A.054

[GRAPHIC] [TIFF OMITTED] T0526A.055

[GRAPHIC] [TIFF OMITTED] T0526A.056

[GRAPHIC] [TIFF OMITTED] T0526A.057

[GRAPHIC] [TIFF OMITTED] T0526A.058

[GRAPHIC] [TIFF OMITTED] T0526A.059

[GRAPHIC] [TIFF OMITTED] T0526A.060

[GRAPHIC] [TIFF OMITTED] T0526A.061

[GRAPHIC] [TIFF OMITTED] T0526A.062

[GRAPHIC] [TIFF OMITTED] T0526A.063

[GRAPHIC] [TIFF OMITTED] T0526A.064

[GRAPHIC] [TIFF OMITTED] T0526A.065

    Mr. Edwards. Chief Master Sergeant McKinley, thank you for 
your testimony. And thank you all for beginning this year's 
subcommittee hearings in a very positive way.
    Mr. Wamp, I want to personally thank you for choosing to 
remain as ranking member of this subcommittee. I think that is 
a reflection upon your values and commitment to this 
committee's work. And I would like to recognize you to begin 
this year's meetings.
    Mr. Wamp. Thank you for your courtesy and your leadership, 
Mr. Chairman. You are a class act.
    This is an impressive lot here. I have to tell you, it is 
emotional and kind of charges you up about the men and women 
that you represent just to hear your passion and your 
commitment to them.

                             SUICIDE RATES

    I would like to start on the troop side. This suicide rate 
issue is the canary in the mine, in a sense. I know this is the 
toughest place to start, but it speaks to the overall health 
and wellness of our men and women.
    Is it just more the tempo, the deployment stress? Is it 
battle and the asymmetrical nature of the battle? From each of 
your perspectives, representing those men and women who are at 
risk and that take us to this place of looking at 143 potential 
suicides, what are the primary factors? And is the family and 
our quality-of-life issues connected to it?
    This tempo has to be driving a lot of stress, but tell me.
    Sergeant Major Preston. Sir, I will start. As I look at it, 
I say it is the tempo. It is the pace, and it is the dynamics 
of all the things that are occurring in young people's lives.
    We track all the statistics and the analysis behind, why a 
young person felt obligated to commit suicide and what pushed 
them over the edge. A lot of it is failed relationships.
    As I travel around the Army, the biggest question that I 
get from young soldiers and families is, Sergeant Major, ``when 
are we going to start to see something--12 months of dwell time 
between deployments?'' It is those who are deployed, those that 
are coming back that ask this question.
    But even those, when you look at the numbers a third of our 
suicides have never been deployed. It is those units that are 
left behind, they are also working very hard, as well.
    And it is the pace. It is the tempo. It is society. It is 
packing up and moving from one location to another. It is 
selling their house, trying to get out of an upside-down 
mortgage. It is moving their children from one school to 
another school. And it is transferring the school credits from 
one school to another school.
    It is all of those dynamics mixed in that add to the stress 
in a young person's life. You could look at from how many have 
been deployed or not deployed versus the majority of suicides 
are married, more than 50 percent of those who have deployed 
that commit the suicides have been back from a deployment well 
over a year.
    So there are a lot of dynamics. And, of course, we look at 
every one of those cases very seriously. It is a tragedy. In 
each one of their families, it is a crisis because their 
families are directly affected.
    And we are doing a number of things to get at, impacting 
that this year.
    Mr. Wamp. Before we go down the table, Sergeant Major, you 
have the Guard and Reserve leadership behind you. Is there a 
differential between the Guard and Reserve and the active 
component in this suicide issue?
    Sergeant Major Preston. The numbers that I gave you include 
the Guard and Reserve. This is all Guard and Reserve, as well 
as active-duty soldiers, that are serving on active duty. And 
that is how we capture those.
    Mr. Wamp. Right. And, is there an abnormal ratio of active 
versus Guard and Reserve? Or is it just across the board?
    Sergeant Major Preston. Across the board. In fact----
    Mr. Wamp. It could indicate how much the tempo and the 
stress are is the primary factors, not necessarily the battle 
or the nature of the battle.
    Sergeant Major Kent. We are concerned, also, sir. We went 
from 33 fiscal year 2007 to 41, so we increased by eight. What 
we are doing, we think that the small-unit leaders are the one 
closer to these young Marines. So we are educating our 
corporals and sergeants so they will know the symptoms and they 
know how to get help for these young warriors.
    But we are concerned about it. And we are keeping an eye on 
it.
    It is a combination of things. And that is why we want to 
grow the force fast, and we are, so we can get the Marines more 
dwell time back in the rear, you know, because right now they 
are 7 months deployed and they are 7 months back.
    Mr. Wamp. Just to interrupt you, the Marine Corps is 
recruiting gangbusters. What do you attribute that to right 
now, sir?
    Sergeant Major Kent. We are not recruiting gangbusters, 
sir. I would tend to say that we are not--excuse me, sir?
    Mr. Farr. You can have all my gang members, if you----
    [Laughter.]

                               RECRUITING

    Sergeant Major Kent. Now, sir, let me tell you about the 
process of recruiting. Right now, we are at a 97.8 percent high 
school graduate average. The way the process works, if they 
need a waiver, you know, if they have a criminal record and 
they need a waiver, it just doesn't start at the recruiting 
station. It is forward all the way up to the commanding general 
of the recruiting command.
    And let me give you an example of the waivers we grant. If 
you have a young person, 13 years old, go out and they see a 
tractor and they decide to jump in this tractor, and this 
tractor is worth $20,000, and they get pulled over by the local 
authorities, when they are 18, although they were pulled over 
when they were 13, that is a felony.
    But as they went from 13 to 18, they did great things and 
they graduated. They were a star in football. But it was a 
felony, and they need a waiver for that, you know, and that is 
the kind of people that we would be recruiting with a felony.
    But as far as gangbangers, sir, you probably saw them maybe 
some slipped through the cracks.
    Mr. Wamp. I just meant you are meeting your goals--that is 
what I am talking about.
    Sergeant Major Kent. Oh, sorry, I misunderstood sir. I am 
just rattling on when you said ``gang,'' ``gang''--okay, okay, 
sir, yes----
    Mr. Wamp. But you are meeting your recruitment goals.
    Sergeant Major Kent. Sorry about that, sir. I am just 
rattling on, sir.
    Mr. Wamp. The Marine Corps is at a time of incredible 
stress. And these guys are looking, and they are talking to 
their peers that are already serving, and they know it is hard 
and tough.
    Sergeant Major Kent. I misunderstood you, sir.
    Mr. Wamp. I know.
    Sergeant Major Kent. Yes, we are, sir.
    Mr. Wamp. There is a lot of pride in being a Marine, and it 
is a good product to sell, right?
    Sergeant Major Kent. Well, actually, sir, we are going to 
make our end-strength of 202,000 2 years early. We are going to 
hit it in 3 years, sir, which is amazing.
    Mr. Wamp. Master Chief.
    Master Chief West. Yes, sir. As far as suicides, we had a 
slight increase this year. When we dug into it, financial 
responsibility was an issue.
    What I found out that was I guess an interesting stat was 
39 percent of our suicides were facing disciplinary action 
already, so that gave us another indicator. That is 39 percent 
of them.
    We had 39 this past year, all of them are serious, but we 
put things in place, such as the Operational Stress Control. We 
have really ramped up the financial counseling for these 
individuals and tried to ease some of the pressure from payday 
lenders.
    Everything is serious with that, but overall our numbers 
are fairly steady, sir.
    Mr. Wamp. Chief Master Sergeant.
    Chief Master Sergeant McKinley. Yes, sir, our Air Force 
leadership, is very concerned about this. For the last 10 
years, our average is 9.7 per 100,000. But right now, it is up 
to 12.3. So that is a significant rise of us. And so we are 
very concerned.
    If you peel all that back and look at the reasons why, a 
big percentage of that is these marriage issues, relationship 
issues that lead to suicides. I think the stresses that each 
one of us are talking about, not only with deployments, with 
mission, but also with the financial crisis going on in America 
that affects every person, not only civilians, but also gets 
into the military families.
    And I think that adds to the stress that is out there, not 
only our military members, but to the spouses and to the 
children. And more stress on the family leads to things like 
this.
    And so I think that is kind of like I said, our Air Force 
leadership is very concerned, very committed that we lower 
this. We want it to be zero. That is probably unrealistic, but 
we are going to do everything we can to combat this and take 
care of our members, sir.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Zach----
    Mr. Kennedy. I have trouble believing there is not a 
differential between the Guard and Reserve and the standing 
military in terms of the percentage of suicides. At least with 
the standing military, you have embedded support systems, 
whereas with the Guard and Reserve you don't.
    They are just dumped back after they come back from, a 
mission, and they don't have--they are spread out. They don't 
have their colleagues, their counterparts, their peers around 
them to give them the care, support and everything.
    So does that just bear out in the statistics at all?
    Sergeant Major Preston. In fact, the numbers--talk to that, 
but I think it was----
    Audience. None so far this year. Our numbers were up last 
year, sir. They are up a little bit more for the first quarter 
of this year.
    Mr. Dicks. Is this Guard or Reserve?
    Audience. Guard, sir. There are other influences on the 
reserve components--active components--like the economy. So--
overseas--lose their jobs. They lose their jobs while they are 
back home, things like that--active component doesn't see.
    But, overall, there is not a huge difference between what 
we see and what they see. The rates are up, and we are 
addressing this.
    Mr. Edwards. Sergeant Major, could I interrupt and ask the 
transcriber--can you hear the testimony from the first row?
    Transcriber. Yes.
    Mr. Edwards. You can pick that okay? If you can't, you let 
me know. Raise your hand or something.
    Appreciate that.

                 GUARD AND RESERVE MORALE AND COHESION

    Mr. Kennedy. Sorry, Mr. Chairman--we have this whole issue 
of whether state commandants could call up their Guard and 
reservists so as to keep the morale and the cohesion of the 
unit together when they weren't off on duty so as to build 
that--morale, which was precluded under the previous law, so 
when--during their mission, they were precluded from calling up 
there.
    Sergeant Major Preston. They are doing that when they come 
back from deployment. It is allowing the leadership to put eyes 
all on those soldiers who are deployed to make sure that they 
are doing okay and they are with their battle buddies again.
    But, that is the commander on the ground. That is 
leadership making that----
    Mr. Edwards. Let me just say, before I recognize Mr. Farr, 
Mr. Kennedy kind of foreshadowed what I would like to do.
    I am going to wait for my question until the end of the 
first round, but I would like to say to Master Chief Wright and 
Sergeant Major Gipe, Sergeant Major Caffie, if you could be 
thinking, my question will be of each of the three of you is, 
are there are some particular quality-of-life issues that you 
would like to talk about that may not be unique to the Guard 
and Reserve, but they are a little bit different than those 
quality-of-life issues being faced by the active-duty 
servicemen and women?
    Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman. And thank you 
for your leadership and that of Congressman Zach Wamp in 
increasing last year's bill. It is the largest in history and I 
think it is having some beneficial effect.
    You know, it is interesting, this committee not only deals 
with active-duty military, but we deal with the veterans. So 
if, indeed, problems are caused, we are going to end up picking 
up the pieces. And I think what we are trying to do is make 
sure that the entire experience in service of our country is so 
much better integrated, both in uniform and out of uniform, and 
I think even more work needs to be done to include our 
community support services.
    I echo everybody's appreciation for your incredible years 
of service. And I thank everybody in uniform for their service. 
When you join, you build the esprit de corps.
    We provide assistance to the families--community housing, 
childcare, recreational centers--I mean, you build a community 
of support that is second to none.
    It seems to me where we fail in our society in general are 
our the mental health programs.

                     POST TRAUMATIC STRESS DISORDER

    But we have still not made it very acceptable to get 
counseling. It seems to me there are two cases here of how we 
try to deal with what we think might be PTSD. How do we 
integrate in the counseling, quality counseling?
    But at the same time, it seems to me what we are forgetting 
is that we need to engage the community, because you have this 
town-gown relationship, but not with the soldier in the mental 
health field.
    That is a real struggle because when military personnel 
muster out they get sent back to their community. And they may 
be a heck of a long way from a veterans clinic or a veterans 
hospital. And there may be mental health services in that 
community, but nobody in the Veterans Administration or the 
military knows about that.
    It seems to me we need a better integration in our town-
gown relationship for mental health services. And I just 
wondered if you could list for us some of the needs you may 
have along these lines of counseling, and PTSD, and continuing 
support systems?

              ACCESSIBILITY AND AVAILABILITY OF HEALTHCARE

    Sergeant Major Preston. Sir, I will start. We have made a 
lot of progress in this area. And when you talk to soldiers, 
and especially their families, and their concerns and when you 
look at the medical health care professionals working on an 
installation, those medical professionals deploy along with 
units and organizations on that installation, as well.
    So, their biggest complaint, when it comes to medical 
health care--and that is across the board for all services--is 
the accessibility and availability to be able to get an 
appointment. Very satisfied with the quality of care that is 
being provided, but it is just accessibility and availability.
    Now, one of the things that, our medical command and 
specifically the Army surgeon general, Lieutenant General 
Schoomaker, has done is to expand that, as you were talking 
about, into the communities to partner more with off-the-
installation medical facilities to be able to open up and 
provide more appointments.
    But the challenges, too, specifically in the area of mental 
health care is--there is just not a lot out there in the 
community. We have been working to increase those numbers in 
our recruiting efforts, but, we still have a long ways to go.
    Mr. Farr. Other services?
    Sergeant Major Kent. Pretty much, yes, sir.
    Mr. Farr. Are there any needs that aren't there and we need 
to put some more resources--
    Master Chief West. Sir, from the Navy perspective, we have 
come a long way, similar to all the other services, through our 
Safe Harbor Program. It is phenomenal. Last week I looked at 
the Safe Harbor Program and how it integrated with the local, 
state community governments in the San Diego area.
    Mr. Edwards. I know I am going to end up cutting off some 
good answers, but I think, as long as the committee supports 
this, we are going to stick to the 5-minute rule and then that 
will allow each member a second and third round. And if at any 
point the committee wants to talk about doing it differently, I 
will certainly respect that.
    Thank you, Mr. Farr, and for your leadership on mental 
health issues, both for the active duty and--you have been a 
real leader on those issues, among others.
    Our order will be Mr. Young, based on when they came in to 
the meeting after starting, Mr. Young, Mr. Crenshaw, then Mr. 
Bishop.
    Mr. Young.
    Mr. Young. Mr. Chairman, thank you very much--
conversation----
    Mr. Dicks. I want to ask a question.
    Mr. Edwards. Yes.
    Mr. Dicks. We are going to not go back and forth?
    Mr. Edwards. Well, what we had said for this first 
meeting--I was just talking to Walter about that, we are going 
to--after the meeting begins, Norm----
    Mr. Dicks. You always go back and forth from one side to 
other.
    Mr. Edwards. And I think we may go to that in a second 
meeting, but since I had announced before you came in----
    Mr. Dicks. I didn't hear you announce that.
    Mr. Edwards. Yes, what I announced might have been before 
you came in. After the meeting----
    Mr. Dicks. Oh, I listened to what you said. That is not 
what you said.
    Mr. Edwards. We will go by seniority first and then, after 
we go by seniority, we will go based on when members come in. I 
think what I may add to the second meeting is, once we get 
beyond seniority, it is based on who comes in, we will go back 
and forth, but I am going to stick with what our intention was 
today.
    If I didn't make that clear, I apologize to you and the 
other members, as well.
    Mr. Young.

                        MENTAL HEALTH COUNSELING

    Mr. Young. Mr. Chairman, thank you very much.
    The conversations have evolved around an issue that is 
extremely important to our military, to our country. When our 
oldest son was finished with his time in the military and his 
deployment to the Mideast, he said, ``Dad--our troops need 
psychological help, and there is just not enough professional 
care available.''
    So when he was discharged, he came and he has just--he is 2 
months away from becoming a psychologist. And his intention is 
to re-enlist in the military to be available to help some of 
these kids, because he saw the troubles.
    Now, my question then is, where are we, as it relates to 
the young troop that needs counseling, needs psychological 
help? Where are we on the availability of that type of help in 
your services?
    Sergeant Major Preston. Sir, I will start. This past year, 
we hired 191 of the 254 mental health professionals that we had 
planned for, on our installations.
    But the challenge, is finding medical professionals. There 
is a shortage of medical health care professionals across the 
nation. It is doctors and nurses, across the board. But, we are 
working very hard to recruit medical health care professionals 
to fill the vacancies that we have.
    The other piece of that is tied in with the other types of 
counseling that is done within organizations. It is the 
chaplains and those types of community counselors to take care 
of our families that are either at home or through the Army 
OneSource or Military OneSource, to be able to provide an 
outreach for those soldiers like the Guard and Reserve that are 
serving in remote sites, as well as their families.
    Sergeant Major Kent. We are actually doing okay right now, 
sir. We are actually putting specialists in units that are 
forward deploying right now. And we are doing good, but we 
still have a shortage of them. And we think that is the key, 
you know, to put somebody in there. When they forward deploy, 
they would have somebody for counseling.
    Master Chief West. Yes, sir, we are also doing well 
overall. This is the first year in a while that we have met our 
medical recruiting. We did that through a very aggressive push, 
but it takes a while, as you know, to grow those specialists.
    But we are out there. We are using all available assets. 
Our chaplains play a big part in that. And we include training 
in different areas of leadership so we can see that, along with 
those folks that are funneling in to go do those missions.
    Mr. Young. You are right about how long it takes to prepare 
them. I know how long it has taken our son to get this degree 
and to become a psychologist. So you are right about that.
    Chief Master Sergeant McKinley. Congressman Young, for the 
Air Force, we have 400 mental health professionals that are 
trained by national PTSD experts in advanced PTSD treatment 
techniques. So we have, you know, a good amount out there.
    We also have a lot of other programs, like 
afterdeployment.org. We have Military OneSource. But I really 
think probably the best thing is that--out there--the people 
that they work with and being able to recognize when someone's 
behavior has changed and be able to take that through the chain 
of command and get that person help.
    Mr. Young. Well, I am glad to hear that the services are 
aware of the problem and doing something about it. Well, I 
think we have a lot--we do have a lot more to do. And the 
availability of the professional counseling is really a major 
problem.
    Mr. Chairman, the Intrepid Foundation--I think most of us 
know about the Intrepid foundation--has volunteered to raise 
money to build a facility in Bethesda to deal with post-
traumatic stress issues. And the money is going to be--the 
money to build the building is going to come from private 
donations.
    In fact, I am going to ask the--if I can be excused in 
about 10 minutes, because I am going to meet with Mr. Arnold 
Fisher, who is the head of the Intrepid foundation, to get the 
details on where they are on raising the money. And I believe 
he is about to report that all of the money that is necessary 
for the construction is now committed. When I get up and leave, 
that is where I am going. But we appreciate--this is not a 
pleasant subject, dealing with suicides and dealing with these 
stress issues, but it is real and we can't--I think even 
Congress has probably overlooked it for too long and hoped that 
it would go away. But it is not going to go away.
    And I am surprised that Sergeant Major Preston--bit of that 
himself, because when my wife finds problems in the Army, he is 
one of the first ones she goes to, to say, ``Hey, here is a 
problem. You fix it.'' So I am surprised he doesn't have a lot 
of grey hair. And Beverly gave that message to Sergeant Major 
Chen last night.
    Mr. Edwards. Can you say it in a sentence?
    Master Chief West. Yes, sir. I was just down at Balboa. And 
what I was really impressed with, there were Army, Marines and 
Sailors out there at the Balboa hospital. I could not be more 
impressed with the interaction with all those groups, doing the 
right thing.
    Mr. Edwards. Good. Thank you.
    Thank you, Mr. Young----
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Edwards [continuing]. For your meeting with Mr. Fisher.
    So we are clear, members, the order of questioning will be 
Mr. Crenshaw, Mr. Bishop, Mr. Dicks, Mr. Israel, and then Mr. 
Kennedy.
    Mr. Crenshaw, welcome back to the subcommittee. Thank you 
for your past leadership. It is great to have you back.
    Mr. Crenshaw. Well, thank you, Mr. Chairman. And, you know, 
I have been on the Appropriations Committee for eight--this is 
my eighth year. And I have been on this Subcommittee for 8 
years--Mr. Young put me on this Committee. It is the only real 
Subcommittee I have ever been asked to be on.
    So I am glad to be back, Mr. Chairman, working with you.
    Mr. Edwards. Good to have you.
    Mr. Crenshaw. Mr. Wamp, glad you are still the ranking 
member. As he said, the way the Republicans work, you get to be 
a ranking member based on your seniority on the Full Committee. 
The Democrats, have a pretty good way, because it is based on 
the seniority on your subcommittee.
    And in that case, I would be more encouraging to Mr. Wamp 
to leave. But, unfortunately, I will be sitting here next year 
under a new guy--the ranking member.
    But I want to welcome you all back. I have not met our Navy 
Master Chief Petty Officer of the Navy yet. I have two Navy 
bases and a Marine base in my district, so welcome. And great 
to see you all again.

                     HOMEOWNERS ASSISTANCE PROGRAM

    I always think of this as a time where we just sit down and 
talk. Mr. Chairman, when I travel around to different naval and 
military installations around the world, I try to take some 
time and just quietly talk to the men and women and say, 
``Look, if you had a chance, just between you and me, what 
would you say to a Member of Congress, if you could talk about 
what you like and what you don't like?''
    And you get mixed reactions sometimes. Sometimes they are 
very straightforward; sometimes they are a little nervous. But 
I look at this meeting as one of those meetings. It is not 
quite as private as those conversations that we have in South 
Korea or Iraq or wherever.
    But I really appreciate you all's candor and 
straightforwardness when you come here and talk about the 
things that are important to you and the men and women you 
represent.
    And so the big issue I wanted to talk about is--and I think 
it affects everybody in our country, and that has to do with 
this overall economic crisis. You all touched on it in your 
testimony about how that affects the quality of life.
    But in particular, I was just thinking that, in terms of 
housing, because we have the three bases in our communities--
and in most places, when people buy a house, they think that is 
a great investment and it is an important investment.
    And if people are in the military, they decide to move, 
they can sell their house. In today's world, they find out 
their house probably is not worth as much as when they first 
bought it. And so folks in the private sector can say, ``Maybe 
I won't move. Maybe I will just stay right here.''
    But as you know, the men and women you all represent get a 
new assignment, they have to leave a community. And I just 
wonder if--Florida and California and Texas, some places where 
the real estate market has been hit pretty hard, and they don't 
have a luxury of waiting, I would love to hear from you all if 
you have any firsthand experiences of how that has impacted 
people that you represent and how they deal with it.
    Are there foreclosures taking place? Are people walking 
away from their homes? Are they trying to rent their houses?
    And I know we passed legislation dealing with BRAC, if you 
moved--and there was a BRAC impact, and there was an assistance 
program, Mr. Chairman, that you and the ranking member were 
really helpful with getting that started, is something that is 
needed? Are we getting to that point?
    I would love to hear kind of firsthand what you all are 
seeing.
    Sergeant Major Preston. Sir, I just--and we don't know the 
exact numbers out there that, you know, with the current 
economic crisis and the impact right now on those homeowners, 
but what we do know is--and this is just from experience from a 
lot of the soldiers out there that I have talked to that have 
had to pack up families and move.
    In many cases, they are leaving their families in place 
because they can't afford to sell their house. They can't 
afford to move out. So now what you end up with is a lot of 
geographical bachelors. You have the soldier moving to the next 
installation or to the next duty station and leaving their 
families behind.
    We are working to really understand the dynamics. And one 
of the things that we want to do in the Army is to take the 
homeowners assistance program, which was really designed to 
help those affected by BRAC.
    And because of posts--that are closing down, you have a 
glut of housing that is in that area, to really help them sell 
their houses and move, they are now looking at expanding the 
homeowners assistance program to take care of our wounded, ill 
and injured soldiers that potentially have to move and 
relocate, live at Walter Reed or wherever they may be, and also 
to affect those that are affected by permanent change of 
station, when they have to move to Texas to Colorado or, their 
next duty station.
    Mr. Edwards. I think we have 1 minute left, if others of 
you would like to----
    Sergeant Major Kent. Well, we are actually keeping an eye 
on this problem. Out in California where--the mortgage crisis 
is most costly. I would tell you right now, sir, what we are 
looking at is not to move someone with a financial hardship 
every couple of years from California.
    But if--actually working with the families to try to keep 
them on base here.
    Master Chief West. Sir, I would echo what the Sergeant 
Major says. We are working that real hard.
    Mr. Farr. Is there enough RCI housing to get them on base?
    Sergeant Major Kent. We are working but it is not enough.
    Sergeant Major Preston. We provide housing for 67 percent 
of those that need housing that live off-post, so it is really 
33 percent on base, a very small percentage.
    Chief Master Sergeant McKinley. Chairman, can I have 15 
seconds on this?
    Mr. Edwards. Please.
    Chief Master Sergeant McKinley. Sometimes, sir all branches 
of the service have to make a very difficult decision to maybe 
even separate and leave the military that they love because 
otherwise they would be taking a $200,000 loss on their home. 
That is real. But we don't have the numbers on exactly how many 
people there are.
    Mr. Crenshaw. Mr. Chairman, I would--I think this is an 
important problem that I am sure we are going to address. And 
maybe if you have any thoughts about how we could help, we 
would love to hear that, as well.
    Mr. Edwards. Thank you, Mr. Crenshaw. I think that is an 
important issue that we need to talk about.
    Mr. Bishop, with your okay----
    Mr. Bishop. I would be happy to----
    Mr. Edwards. Thank you.
    Mr. Bishop. I would be happy to yield to Mr. Dicks. He 
indicated he has another----
    Mr. Edwards. 5 minutes, Dicks----
    Mr. Dicks. No, it is going to be much quicker than that.

                   WEB-BASED PSYCHOLOGICAL COUNSELING

    Gentlemen, in your opinion, what is the potential utility 
of Web-based service to assess psychological counseling? We 
have some people that are doing this, where--and I think this 
would be particularly good for the Guard and Reserve, where 
they can get online and get counseling from a psychiatrist when 
they need it.
    And to me, I think this helps us with the problem of people 
not wanting to admit that they have a problem. If they can go 
online and do it confidentially, I think this should be done. 
We put the money in the Defense Subcommittee to do this, and we 
are still trying to get the Army to do it.
    And we are working with General Chiarelli and others to get 
this thing moving. But why does it--what is your reaction to 
that?
    Chief Master Sergeant McKinley. Congressman Dicks--great 
opportunity. Any time that we can give more tools out there for 
our military----
    Mr. Dicks. At least we ought to try it.
    Chief Master Sergeant McKinley. Absolutely.
    Mr. Dicks. Sir, you have some people that, no matter what, 
they have this pride factor. They are not going to go to the 
supervisor or first sergeant and say, ``I am having issues.'' 
But if they can do something privately, we may save somebody. 
So the more opportunities, the better for all our military.
    Master Chief West. Sir, I would just like to echo that. I 
think using the advanced technologies is a great thing.
    Mr. Dicks. Especially these younger kids. They understand 
this stuff.
    Master Chief West. That is what they do, sir. You give a 
young Sailor or Marine or a young adult a computer and a 
connection, and they are happy. They are happy there for hours.
    With that said, I think leadership, communications, and 
education play huge into that. We have to have balance.
    Mr. Dicks. I am not saying that is the only thing, but just 
as another tool, another way----
    Sergeant Major Kent. OneSource also has something on the 
Web site. They can actually go onto the OneSource, and they can 
work the counseling through there, sir.
    Mr. Dicks. What about the Guard and Reserve guys back 
there? What do you think?
    Audience. Yes, sir, we currently have--program--and this is 
indicative of what they are doing today. It gives that--for 
soldiers to discreetly express their desire. They feel----
    Mr. Dicks. Thank you. There is another question here about 
the Pacific Northwest--special problem up there--I ask you that 
for the record. Well, I didn't want to take Sanford's time. But 
I will just do it for the record. I will just do it for the 
record.
    I have to get back. Thank you, gentlemen.
    Mr. Edwards. Mr. Bishop.

                           SUICIDE PREVENTION

    Mr. Bishop. Thank you very much.
    Let me take this opportunity to welcome all of you 
gentlemen and let you know that I appreciate what you do for 
our enlisted men and women.
    I am particularly concerned, though, about the suicide 
problem, particularly in the Army. I represent Fort Benning. 
And, of course, I have a Marine Corps Logistics Base in Albany. 
I don't think that the Marine Corps suicide rate is quite as 
bad, although it does bother me.
    I wanted to share an anecdotal experience that I had just 
yesterday. I received a call from a family member whose nephew 
was an 18-year veteran of Fort Benning, two tours in Iraq, and 
was in the emergency room after having been taken there by a 
friend who is also a sergeant, who went to another state, and 
retrieved him. He had blacked out, been AWOL--found out that 
this soldier, after his two tours, had gone through divorce, 
had not immediately put in the papers for change of the 
quarters allowance, and as a consequence was disciplined.
    And in the recoupment of the housing allowance that was 
overpaid, his paycheck was cut in half, which sent him into a 
financial tizzy. Obviously, he was suffering PTSD, but after 
serious, serious discipline, losing rank, as well as losing 
pay, he ended up being out of touch with reality. He didn't 
know where he was, and now is hospitalized after being in the 
emergency room yesterday.
    His discipline and the loss of the funds accelerated the 
onset of the stress, which obviously, this sergeant, with whom 
I spoke yesterday, who is his friend who is looking after him 
says that PTSD is absolutely a factor.
    But this man apparently was not screened and he was 
disciplined. According to the sergeant, he was probably singled 
out and leaned on very heavily, which could have had the result 
of a suicide.
    How are you getting the word down to the commanders of 
these units that they have to be sensitive to the wounded 
warriors? What will be the scope of the comprehensive soldier 
fitness program now?
    It is a serious situation. I understand from talking with 
many of the families of Iraqi veterans and Guard and Reserve 
families that they bring a lot home with them in the way of 
PTSD.
    Sergeant Major Preston. Sir, I will start. First, for the 
immediate future, between 15 February and 15 March, the Army 
will conduct a mandatory stand-down day for every unit and 
organization across the Army. It is designed to go back in and 
re-look at intervention and identification of those Soldiers 
potentially on the edge of committing suicide.
    We will then follow up with a mandatory chain-teaching 
program, which, we have had a lot of success with the chain-
teaching program in October of 2007 on PTSD. It is designed to 
start at the senior level, with the chief of staff of the Army, 
and allows commanders at the senior level to take their 
subordinate commanders and, from a commander's perspective, 
teach the case of PTSD, teach what PTSD is, the symptoms, and, 
of course, how soldiers receive help.
    And then that permeates all the way down through the 
organization to every level of command. So down at the company 
command level, for our 3,000 companies across the active, 
Guard, and Reserve, every one will do a chain teach--their 
leadership within the organization of, what are, the symptoms 
of suicide and what are the things that we should be looking 
for?
    If you go back 4 years ago, we were doing something right. 
Chain teaching is designed to make sure that we are still doing 
all the right things.
    Sergeant Major Kent. The most important----
    [The information follows:]

    All Soldiers redeploying from the Theater of Operations are 
required to complete the Post-Deployment Health Assessment (PDHA), 
either before leaving Theater or shortly after redeployment. This 
policy has been in place since October 1998. The PDHA screens for Post-
Traumatic Stress Disorder (PTSD), major depression, concerns about 
family issues, and concerns about drug and alcohol abuse. A primary 
care provider reviews the form, interviews the Soldier as required, and 
refers the Soldier to a behavioral health care provider when indicated.
    Since January 2006 (retroactive to March 2005), all Soldiers have 
been required to complete the Post-Deployment Health Reassessment 
(PDHRA) in the 90-to-180 day interval after redeployment. If the PDHRA 
identifies PTSD-related healthcare needs, Soldiers are offered care 
through DoD military treatment facilities, Veterans Affairs medical 
facilities, or by private healthcare providers through the TRICARE 
network.
    The Army Surgeon General directed in August 2007 that all 
recommendations for a personality disorder (PD) discharge be reviewed 
by the military treatment facility's Chief of Behavioral Health. The 
Surgeon General will be issuing additional guidance to ensure (1) 
accuracy of diagnosis and (2) appropriate screening for PTSD takes 
place prior to completion of separate actions.
    All Soldiers pending discharge for selected administrative reasons 
are required by Army Regulation 635-200 to receive a mental status 
evaluation. A new policy published in May 2008 directs that Soldiers 
discharged for any reason related to misconduct must be specifically 
screened for PTSD and mild Traumatic Brain Injury.

    Mr. Edwards. I need to continue--second round. This is 
obviously very important.
    Sergeant Major Kent. The most important thing, sir, is the 
stigma. And they actually come from the leadership. They have 
to get rid of the stigma that it is a problem if you come 
forward with these issues. And that is the key right there, 
sir.
    So I know our commandant has been pushing it hard to the 
leadership that it is not a problem. You know, if they come 
forward, we need to get them help.
    Mr. Bishop. Sometimes they don't recognize their need for 
help because they haven't been screened.
    Mr. Edwards. Mr. Israel.
    Mr. Israel. Thank you, Mr. Chairman.

                           EDUCATION BENEFITS

    I want to focus for a moment on educational benefits and 
opportunities. Each of the witnesses alluded to educational 
benefits as a retention tool, as a recruitment tool, as a 
quality-of-life enhancement. As I noted earlier, I focused on 
this as a member of the Armed Services Committee with Ike 
Skelton.
    I don't really need to explain the importance of it to you, 
but the importance of it was explained to me by a young Marine 
officer, Chris Myers, who was a military fellow serving in my 
office, several years ago. Chris, who, when I have talked with 
him about the importance of linguistics and cultural awareness 
and preparation, said to me, ``Congressman, I know exactly what 
you mean. After you kick in the door, you have to know what to 
say.'' He was a highly decorated Marine who was injured in 
Fallujah.
    I visited West Point several years ago and talked to a 
group of soldiers who told me that they were deployed in Iraq, 
fought, and came back. During their dwell time, they went to 
Columbia University, got graduate degrees, then were deployed 
to Afghanistan, where they thought that they were far more 
effective having gained a strategic understanding and those 
type of skills.
    Chief McKinley talked about the educational mobile program 
that you have, as well as distance learning, and in-state 
tuition. And I would add to that, in terms of the level of 
importance--talking about the tragedy of suicide rates. When 
people don't believe that they have a future or broader 
horizons, they believe there are no alternatives.
    So my question to each of you is, what can we be doing to 
enhance accessibility and educational opportunities, 
particularly at the junior levels?
    Sergeant Major Preston. And I think I can speak for all of 
us Mr. Chairman, I will leave this for the record, but there 
are currently 35 states that support in-state tuition for 
servicemembers in other states. And I really would like to see 
the rest of the states also come on board to support, you know, 
our servicemembers that are serving out there in all those 
states.
    In-state tuition is not only for the servicemember, but 
also their children that are going to school. Education is very 
important.
    When you look across the Army, there are 450,000 soldiers 
right now going to school. And this is not just brick-and-
mortar professional development schools, but it is also online 
education. It is Army correspondence courses. It is amazing how 
much education is a very important part of all of our 
servicemembers' careers. So you are exactly right.
    Sergeant Major Kent. Education is very important, sir. 
And--spoke with you last weekend--we are actually standing up 
our first--enlisted PME course, which is kicking off the 
ground. And it is going to be speaking on an operational level 
and--things, so that is going to be a good thing for us in the 
future, sir. So we are really pushing on the PME----
    Mr. Israel. Thank you.
    [The information follows:]

    As part of the Year of the Noncommissioned Officer, the Army is 
accelerating changes to how the Army trains, educates and assigns 
noncommissioned officers (NCOs). The NCO Lifelong Learning Strategy is 
the capstone NCO cohort initiative that synchronizes all aspects of 
development through a holistic/integrated development approach that 
fosters continuous learning; synchronizes training and education with 
the requirements of an Army at war.
    Central to this strategy is Warrior University (WU) which affords 
Soldiers access to information through a single interface, the Army 
Career Tracker (ACT). ACT is a portal serving as an information service 
broker for Soldiers to plan and track their own career development. ACT 
allows every Soldier to view Army training, experiential learning, and 
education data from a single interface. It provides every Soldier with 
an accurate picture of their completed training and life-long training 
transcript. Leaders will be able to provide more effective mentoring 
and develop actionable recommendations for their Soldiers by using ACT 
to identify training and learning opportunities. WU facilitates 
commonality and currency of learning materials to ensure training and 
education resources are maximized. ACT's course catalog helps to 
synchronize training and education and significantly reduces the time 
and effort that previously went into scheduling and resourcing.
    Another aspect of WU is the College of the American Soldier (CAS). 
CAS is a partnership between the Army and participating colleges and 
universities to expand civilian educational opportunities for NCOs. CAS 
links the NCO Education System (NCOES) course evaluations with specific 
degree requirements and allows Soldiers to determine which NCOES 
courses will transfer as equivalent college credit. When fully 
implemented, CAS will provide a specific map Soldiers can follow in 
order to pursue and attain a college degree. The Army is also working 
with partner colleges and universities to create an advanced degree 
program for career NCOs.

    Master Chief West. Yes, sir, I would say the same. We are 
pushing hard in the Navy too. Naval Education and Training, is 
looking for all opportunities and all venues to get to our 
Sailors out there. We even take, as you probably know, sir, 
courses which go afloat with our ships when we go. Education 
onboard our bigger ships has been a huge success for us.
    We are making headway. Do we have room to go? Yes, sir, we 
do. But we are making a lot of headway.
    Chief Master Sergeant McKinley. Sir, we have the Community 
College of the Air Force since about 1974. We have graduated 
over 350,000 Airmen. The last two years, we have graduated the 
most we have ever had per year. We just started last summer the 
associate to bachelor program where you take your Community 
College of the Air Force degree, and we can apply that toward a 
bachelor's degree. We have now 35 colleges on board that you 
can take all 64 credit hours from the Air Force degree, and 
apply that toward a bachelor's degree.
    We believe education is very important to keep our people 
pointed in the right direction. And when they do choose to 
leave our Air Force, they are going to be better citizens.
    Mr. Israel. Mr. Chairman, one of the most fascinating 
things I was involved in as a member of the Armed Services 
Committee was doing an all-day conference on professional 
military education that General Petraeus attended--and, after--
this conference, the conclusion was everybody understands the 
value of education, but we may be too busy to learn, and 
operation tempo really is the obstacle to that.
    And so it is important that we put value into this, but we 
also have to put budgets in and we have to put scheduling in. 
And I hope--each of our witnesses and--all interested parties--
figure out ways we can make this happen----
    Thank you, Mr. Chairman.
    Mr. Edwards. That is right. Thank you, Mr. Israel.
    And I am glad we took a step in the right direction. I 
think I had asked Mr. Miller, and he agreed, to put into an 
amendment in the higher education bill last year to say, if you 
have a son or daughter who started school in, say, Tennessee 
and your country has asked the family to move to Fort Hood in 
Texas, in Mr. Carter's district, then that son or daughter will 
continue their in-state tuition until they finish.
    I know there are other steps to take, but I think that was 
an important step forward to stop punishing military families, 
because our country asks them to move from one state to 
another.
    And, Mr. Israel, your leadership on this subcommittee and 
working with the Defense Appropriations Committee will make a 
real difference on that issue.
    Mr. Israel. Thank you, Mr. Chairman.

                GUARD AND RESERVE QUALITY OF LIFE ISSUES

    Mr. Edwards. Thank you.
    Let me just finish the first round of questioning. Let me 
ask Master Chief Wright and Sergeant Major Gipe and Sergeant 
Major Caffie if each of you--and I am going to stick to the 5 
minutes here--if each of you could just add any additional 
points on quality-of-life issues that you think perhaps maybe 
need special attention for members of the Guard and Reserve.
    Sergeant Major.

                         DEMOBILIZATION PROCESS

    Sergeant Major Caffie. Thank you, Mr. Chairman. My name is 
Leon Caffie. I am the command sergeant major for the U.S. Army 
Reserve. Let me please address something that was said earlier 
about our Reserve and National Guard soldiers, that once they 
return home, they are left pretty much alone. We have changed 
that, Mr. Chairman.
    The Warrior and Family Assistance program is where the Army 
Reserve starts counseling families--once the soldier receives a 
letter of intent that they will be mobilized and deployed, we 
start counseling at that stage. This consists of counseling 
when they return from the theater.
    We continue to work closely with the families. We have 
hired 127 family readiness assistants throughout the Army 
Reserve in all 50 states and four territories. I have Army 
Reserve soldiers in--issues that we are dealing with that--when 
we passed the bill last year that--for our National Guard and 
Army Reserve soldiers still capped at age 60.
    One component of that, if you were deployed for 90 days, 
you could--so many days from that particular year. What we 
failed to do is make it--soldiers that were deployed in 2001 
and 2002. It is one of the major concerns that I am getting 
pushback from my soldiers.
    As we continue to transform the Army Reserve, we still run 
into difficulty with--we will work our way through that. I 
think last year I brought to your attention about IDT travel, 
some forms----
    Mr. Edwards. Right.
    Sergeant Major Caffie. But other than that, I think we have 
made tremendous progress since last year. And thank you for 
what this committee have done to support my organization.
    Mr. Edwards. Great. Thank you, Sergeant Major.
    Sergeant Major Gipe.
    Sergeant Major Gipe. Thank you, Mr. Chairman.
    Mr. Edwards. If you could just--out of the respect for the 
Navy, take about a minute-and-a-half. We will give the Navy----
    Sergeant Major Gipe. I will do that, sir.
    Mr. Edwards. Thank you.
    Sergeant Major Gipe. I am from Kentucky, but I can speak 
fast when I need to. I do want to correct one error. I said we 
had nine suicides the first quarter. It was only six. So that 
is an improvement. It is still way too many.
    A couple of things that we need. I appreciate all of this 
committee's support. Some of the things that we need to 
continue to work is the funding for the yellow ribbon 
legislation that was passed last year. It is critical to 
support our soldiers' pre-deployment, during deployment, and on 
return with regards to some of the issues we have been dealing 
with here today, as well as their families.
    TRICARE providers is where we end up having the biggest 
issue when our soldiers come back home. For instance my 
daughter attended college in Bowling Green, Kentucky, she had 
to go 48 miles to find a gynecologist that would accept 
TRICARE. So we have to work that.

               EMPLOYER SUPPORT FOR THE GUARD AND RESERVE

    One thing that I think we really need to work--it is not 
really the committee thing here, it is more of a congressional 
thing--is employer support. We don't do enough to support the 
employers out there that support our troops.
    And 50 percent of the Army has employers outside of their 
active-duty time. And we have to do something that rewards 
those employers who do support us for--because it is extremely 
critical.

                                 MILCON

    And then the last thing I would suggest is military 
construction. Over 69 percent of our buildings are 50 years or 
older.
    Mr. Edwards. Sixty-nine percent are 50 years or older?
    Sergeant Major Gipe. Yes, sir. So we have a lot of 
opportunities out there and things that would go well with an 
economic stimulus.
    So I will turn it over to my----
    Mr. Farr. Can I follow up on that question?
    Mr. Edwards. Sure.
    Mr. Farr. What is happening--we have a big RCI project, but 
now that the community housing prices have dropped so much, 
even though these houses are primo houses, a lot of the 
families will opt to live in a community where they never would 
have before because the rents were too high.
    So it is more than just building new housing on base. It is 
sort of getting that culture of living back on base--to think 
about. Why are you are not using the housing we have built? You 
can't complain about it. It has everything, childcare----
    Mr. Edwards. That is an interesting--I hadn't thought about 
people moving off-base because of lower housing. So we will 
look into that.
    Master Chief Wright.
    Master Chief Wright. Chairman Edwards, thank you for the 
opportunity, gentlemen.
    Really, I just want to say that the Sailors that are coming 
back, once we start the mobilization process, education is 
provided all the way through. And I have to echo what the fine 
gentleman before me said.
    The process that the Navy is using is the Returning Warrior 
Program. And what happens with that is, once these Sailors 
return home, they have an opportunity to go away to a resort. 
It is a nice place for the family to go where they want to 
attend. It is totally volunteer.
    And they have an opportunity to sit down and get guidance 
from leadership, the colonels, generals that walk in and say, 
``I have had a problem with post-traumatic stress,'' and they 
go through their leadership, where the message is coming from 
the top, that it is okay for that young Sailor--to say, ``I 
have an issue.''
    The opportunities are there for them to get counseling, get 
financial counseling, Military OneSource, and information on 
mental health issues. From this point on, we have conducted 
about 31 events since fiscal year 2007. And we have had over 
2,200 participants.
    I have attended one of those. And we have leadership ensure 
they attend. But I have seen folks that walk in with their arms 
crossed, saying, ``You can't do anything for me.'' And by 
Sunday afternoon, when they leave, they are saying, ``Thank 
you. I didn't know that the Navy and military really cared 
about me.''
    And there has been outstanding opportunities, especially 
when they are able to sit down at the roundtable. The military 
member has dealt with a lot of issues while they are deployed, 
while their spouse has dealt with the heating blowing out, the 
car blowing out. And once they had the opportunity to interact, 
it all comes together and there is a lot of healing that goes 
on.
    And the other side of it is the TRICARE, making sure we 
have the providers for that. The distance and travel are areas 
of concern. I have Sailors that are traveling from one coast to 
another because they love the Navy. They are losing money. When 
I have a Sailor that is doing it, and they are actually losing 
money that weekend, but--every weekend, I can't ask for any 
more, sir.
    I mean, they are there because they are doing relevant 
work, and we know they are making a difference.
    Mr. Edwards. Okay.
    Master Chief Wright. They are volunteering to keep doing 
that.
    Mr. Edwards. Thank you, Master Chief.
    Master Chief Wright. Thank you, sir.
    Mr. Edwards. To begin the second round, we will begin with 
Mr. Wamp, Mr. Farr, and then Mr. Crenshaw.
    Mr. Wamp.

                     FINANCIAL ASSISTANCE PROGRAMS

    Mr. Wamp. Well, I have several questions in different 
directions, but picking up on what Ander Crenshaw raised and 
the Master Sergeant just talked about on the financial side of 
the troops, do we have more payday lending and predatory 
lending? You talked about their cars breaking down.
    How many of them are still turning to finance vehicles that 
are not good for them? Do we know if we are moving toward 
alternatives? This is such a hard time for everybody, and last 
year, gas prices went through the roof. That becomes an issue, 
and people are upside-down.
    What are you seeing? Is there anything we need to do, in 
terms of predatory activity around our troops that might be 
upside-down, to take some of the stress off the family, because 
it is all about staying ahead?
    Sergeant Major Preston. Sir, I don't have any specific 
numbers, but talking with soldiers and their families when the 
gas prices were very high, it was very, very tough on them. And 
you have 67 percent of married soldiers living off the 
installation. That means that they are commuting back and forth 
everyday to work. And, it is just the cost of living every day 
that has gone up.
    And I also sit on the Board of Directors for the Army Air 
Force Exchange Service (AAFES), along with Chief Master 
Sergeant McKinley. One of the things we noticed were the 
financial statistics. The sales in AAFES actually went up.
    And when you look at the rest of the economy, Wal-Mart was 
the only other one going up. So obviously, the soldiers and 
servicemembers are shopping at those places where, they can get 
the best buy.
    Sergeant Major Kent. It is some hard times out there, sir. 
Payday lenders was a big problem out in California in the Camp 
Pendleton area. It assisted our marines/sailors when California 
passed a state law for payday lenders. And the lenders have I 
mean, they pretty much are going out of business because of the 
law that they passed in California.
    And, also, we have been very active down at Camp Pendleton, 
you know, teaching them, you know--about the financial 
management.
    Master Chief West. Sir, we have held both lectures, 
seminars, training on not only predatory lending, but the 
financial responsibilities for our Sailors and we have seen a 
decrease in it. And what we have, with the Navy-Marine Corps 
Relief Society is called the Quick Assist Loan. It is QAL. It 
is a fund of about $300 in one shot. And when I say one shot, 
it is you walk in, you walk out with a check. It is a huge 
success for us.
    What we have seen is an increase, but they pay them back. 
It gets them past what they need to get to, to get on course 
again. We have really hit that hard and I think that we are 
headed in the right direction.
    Our Fleet and Family Support Centers have made that a 
priority. And they have gone proactive on the waterfronts, as 
well. I don't have the numbers, but we have gotten 137,000 of 
our Sailors touched this past year, which is a 51 percent 
increase over 2007. So we are more out.
    Chief Master Sergeant McKinley. Sir, with the Air Force, it 
starts in the recruiting office. We make sure that, before we 
recruit somebody, that they don't have a debt ratio that is 
going to set them up for failure for the future.
    Once we get them to basic training, even in basic training 
we teach them financial counseling and how to manage a budget 
and be smart about the future. They get that when they arrive 
at their first duty location and hopefully set them up for 
success in the future to spend wisely.
    And the bill we passed on predatory lending, I think, was a 
tremendous success. Thank you very much for making that happen.

                            HOME PORT ASHORE

    Mr. Wamp. Maybe we are running out of time, but, Master 
Chief West, on the home port ashore provision, because I know 
when I went out on the USS HARRY TRUMAN, I told you about that 
this morning, it was pretty tight quarters.
    Master Chief West. Yes, sir.
    Mr. Wamp. They are out there for a long period of time, 
unlike the other services when they get in. Give us a little 
bit more detail about what we can do to help you when soldiers 
are home so that quality of life is good enough for them to go 
back out to sea for 6 months.
    Master Chief West. Yes, sir. As I pointed out we have about 
9,000 of our Sailors that are on a ship. Until you have done 
that and experienced it, it is a pretty tough environment out 
there for sailors. My hat is off to them every single day.
    So now we have a master housing plan that we are presenting 
to the CNO in a couple of weeks which will provide I guess a 
landscape on what we can do. Through a Public-Private Venture 
(PPV), one of which is out in California, Pacific Beacon. I 
will take you if you haven't seen that. I would welcome you to 
come. I will even show you the great quality-of-life living, 
which is going to put about 2,900 spaces. And then, down in 
Virginia, in Hampton Roads, about 3,600 spaces.
    Our challenge right now is really in three locations, but 
we certainly do need that help. But our three locations are 
Norfolk, Virginia. We have, again, about 5,700 of our Sailors 
living on board the ships. In Yokosuka, Japan, about 700 and in 
California, about 700.
    Even with the plan in place, it is going to be very tough 
for us to get these folks ashore. One of the things that we are 
asking to do is double up, go through the Marine Corps model 
and the college model, for that matter, sort of the one-plus-
one, put a couple of our young Sailors in there. I will tell 
you this is a success story out in Japan, even though we have a 
shortfall there, we have had a significant decrease in the 
amount of incidents out on the economy. And you know as well as 
I do, it is a big deal anywhere, but more so in Japan with 
American Sailors.
    I do have a couple of slides that do show that, sir. And I 
just don't want to get too deep into it, but it shows the 
number of beds the number of our Sailors because, again, as I 
pointed out earlier to Congressman Dicks, I do believe that you 
give a Sailor WiFi and a computer, that is what they want, 
really just to get away, get away from that ship.
    So I would ask this committee for support. And I am sure 
the bachelor housing area really needs some support there. And, 
also, go in and view a lot of our buildings are aging, as well. 
That is one thing that we have to tackle.
    Mr. Edwards. Thank you, Mr. Wamp. [Laughter.]
    We will go with Mr. Farr, Mr. Crenshaw, and then Mr. Berry.
    Mr. Farr.

                        CROSS-CULTURAL TRAINING

    Mr. Farr. Thank you very much.
    Again, thank you for all this good, lovely dialogue. I have 
a lot of questions, one I would like to follow up on is 
something that I am very interested in, and that is really 
trying to integrate the capabilities of the services and the 
interagency with our allies--partners across the full spectrum 
of operations.
    We have learned in this committee that our military are the 
best in the world at being able to go anywhere at any time, 
kick down any door, do anything we have to do. But we have not 
done a very good job at winning hearts and minds. And we can 
get in, but we can't get out.
    My whole experience was in the Peace Corps where you 
actually had to work yourself out of a job. What I have seen is 
that soldiers, a lot of them, get really interested in cross-
cultural experiences, young kids parachuting into another 
culture and other languages, the conditions of poverty, and so 
on, and develop an interest in sharing American values with 
host country folks.
    I think that is a much longer and stronger effort. But the 
only people I think are going to do effective nation-building 
are our military, because they are on the ground. You can do 
wells. You can do schools. You can do things like that.
    I am concerned that we have 33,000 U.S. contractors 
performing for the Army. And I wonder, is that getting in the 
way--is there a way that we can do that? Can the military 
decrease violence and leave it better than they found it?
    What are we missing in this? Because it is the soldiers on 
the ground--embassies are all locked up and nobody can go out 
without being guarded, and same with USAID. But I have heard 
out at conferences at the Naval Postgraduate School that the 
international nongovernmental organizations are on the ground 
with the soldiers.
    And the one thing they and the military have in common, 
they are both getting shot at. And they are both trying to do 
the same--the military for security purposes, but in the end, 
to make it secure for what?
    Sergeant Major Preston. Sir, I would encourage you to get 
out and visit with our soldiers. And I will give you a couple 
of examples, because the Army has done a magnificent job at 
working itself out of a job. As I travel around, I get a lot of 
questions from young soldiers about--in Iraq and Afghanistan, 
but historically we have done a magnificent job.
    In Bosnia, December 1995, 20,000 soldiers went there. 
November of 2004, when we pulled out, there were less than 900 
soldiers there. So it took us 8 years to go from 20,000 
soldiers to less than 900, and then we handed that mission over 
to the European Union.
    Mr. Farr [continuing]. Bosnia now?
    Sergeant Major Preston. Just a couple of people in the 
headquarters. That is it.
    Kosovo, spring, summer of 1999, 14,000 soldiers that were 
part of that campaign. Today, the Army National Guard has about 
1,400 there. And, they have done a magnificent job over there 
at building. It is helping the government become operational, 
and it is the government at all levels. It is at the national 
level. It is the county, province, down to all the small towns 
and villages.
    But you have to get the government operational. And then it 
is training the security forces to take our place. And as those 
security forces become competent, that allows us--and I will 
give you a couple of quick stories from Iraq and Afghanistan.
    Mr. Farr. Do our soldiers need more language training, 
cultural training?
    Sergeant Major Preston. We have worked very hard. The last 
couple of years, across the board, cultural training comes 
before any one deploys, as well as language training.
    And when we look at the different language schools that are 
out there, we are leveraging that right now. And there are 
soldiers in every unit and organization that are deploying 
right now that are taking language training.
    I will give you a quick story. I was just at Fort Polk with 
the 56th Stryker Brigade out of the Pennsylvania Guard. And he 
was one of their trainers. And I asked him how long he had been 
and he said, ``Sir, I have only been here about 7 months.''
    And I said, ``Where were you at before that?'' He said, ``I 
was in Iraq. I was in Baghdad. I was on a training team.''
    And I said, ``Well, what did you think of that?'' And he 
said, ``Sir, I would go back in a minute.'' And I said, ``Well, 
why do you say that?'' And he said, ``Because I was able to 
make a difference and it was the friendships that were 
developing.''
    And he said that, ``I was out everyday with a squad of 
Iraqi soldiers that I helped train. And one day, we came under 
fire. There was a sniper that was firing at us. We took cover 
behind a concrete barrier. And as I came up to shoot my weapon, 
Sergeant Oman, who was--I was, you know, his teacher, he pushes 
me back down behind the concrete barrier and he says, `Stay 
down.' ''
    ``And, of course, I told him, `Oman, I have to get up. I 
have to be able to shoot.' And Oman told him, `Stay down. Today 
is not your day to die.' '' And that was the kind of close 
bonding relationships between us and the Iraqi soldiers.
    I was just there in November. I spoke with Command Sergeant 
Major Adel, who is the sergeant major of the Iraqi army, a 
close, personal friend of mine. And I was there for their third 
annual senior NCO conference and there with all of his division 
command sergeant majors, across the Iraqi army, and we are all 
brothers, and we are very close friends in what we are doing 
right now to help each other.
    In Afghanistan, the sergeant major of the army is Rashan. 
He is a graduate of class 56 at our--United States Army--
Sergeants Major Academy. He is half-American and spent an 
entire year down there going through the school.
    And, when you look at the relationships and what he and 
with the chief of staff of the Afghan army, General Bishmail 
Kahn, who spoke at their conference in November; I told General 
Casey that, when he sat up there and spoke, if he had been 
wearing one of our uniforms and speaking English, you would 
have thought he was one of our American generals, because he 
was saying all the right things.
    We have done a lot of things. And I can tell you about----
    Mr. Farr. How about contractors?
    Sergeant Major Preston. We have contractors out there, but 
they are really in support of the soldiers there on the ground. 
And, we don't have enough of the combat support, service 
support kind of functions that those contractors right now are 
doing.
    Mr. Edwards. Brief statement?
    Master Chief West. Sir, as that question was asked, I was 
coming up out of my chair, because, I will tell you, it is a 
great question. We are working almost every day with NGOs, or 
nongovernmental organizations.
    We have deployed COMFORT and MERCY. You talk about winning 
the hearts and minds of all these countries. It is an 
incredible thing to see, the capability those ships bring, and 
more importantly, how many people line up and want us back.
    We use our amphibs in that way, but we also have over 
12,000 of our Sailors right now on the ground over there in 
Iraq and Afghanistan, up in the hills, and in the provisional 
reconstruction teams.
    I was just out there with our CNO. And we got to fly out to 
a place where they are building some schools and all that 
stuff. It is incredible. It is incredible the way those 
countries and those people come to us and want our help.

                            REBUILDING IRAQ

    So I have to tell you, your Navy is out there. We are 
engaging every single day with those NGOs. And it is just an 
incredible feeling.
    But if you are ever either in San Diego or able to come 
down to the COMFORT or the MERCY, please, I will give you a 
personal tour.
    Sergeant Major Kent. Can I make a 30-second comment, sir?
    Mr. Edwards. Sure, go ahead.
    Sergeant Major Kent. Western Iraq used to be a bloody 
place. I was there in 2004 and 2005. And the Marines today over 
there are able to turn off kicking in the doors and they are 
out there actually helping the locals each and every day.
    That is the young PFCs on the ground. They know when to 
turn it on and kick down doors and when to turn it off and help 
the Iraqi people.
    Mr. Edwards. That is great.
    Chief Master Sergeant McKinley. Sir, just a second?
    Mr. Edwards. Yes.
    Chief Master Sergeant McKinley. It is not only Iraq and 
Afghanistan, sir, but we are doing capacity-building in many 
countries, whether it be in the Pacific, to South America, from 
the African continent to all over Europe. And more funding to 
help with this would be fantastic.
    But to build the military through professional military 
education and so forth through our Combatant Commands (COCOMs) 
and each one of our services is a great thing. And it is going 
to make us all safer in the long run.
    Mr. Edwards. Okay. Thank you all.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.

                     QUALITY OF MILITARY HEALTHCARE

    Yes, that whole discussion--that--you really can't surge 
friendship, and the things that you are doing in the front end, 
such as Southern Command (SOUTHCOM), in the Caribbean, those 
potential hotspots I think what your men and women are doing, 
just to build relationships, you just don't walk in one day and 
say, ``Now we are your friend''--let me go back to--we started 
the conversation about a specific part of health care, suicide 
prevention--big picture, health care is so important, the 
quality of life of not only the men and women who serve, but 
the families.
    And I know we have done a lot--the Chairman has been real 
active in the military construction projects. We have built 
some new facilities, new clinics, new hospitals. And we want to 
keep on doing that.
    But I want to ask you all, just in terms of overall health 
care, just the delivery of health care, what would you say are 
the good things that we do? What are some of the things that we 
ought to do better?
    And what do you hear--what do your troops say when they 
talk about health care? What are some of the, when people are 
sitting around talking, ``We wish you did a little better,'' 
or, ``We are really thankful for this part or that part,'' can 
you touch on that, just some real-world examples that you see? 
Because I have to believe that is so important for families, 
particularly.

                        ARMY FAMILY ACTION PLAN

    Sergeant Major Preston. Sir, I will start. Last week, we 
had the Army Family Action Plan. And this is a conference that 
we did here in D.C., but it stems out and it starts all around 
the Army, overseas, as well.
    And it starts with the soldiers and families at 
installations and they raise issues to those representatives at 
the installation level to present to the annual conference. And 
then to the leadership.
    The Secretary of the Army and the chief of staff of the 
Army are there--and one of the top five issues that was raised 
this last week that has now been added is there is a shortage 
of medical providers in military treatment facilities.
    And that is hands down, has always been a concern out there 
as you travel around. It is accessibility and availability. The 
quality of the care is very good, once you get into it, but it 
is accessibility, it is availability.

                                TRICARE

    And, of course, we have tried to stem that by partnering 
with medical communities and facilities off post as well, but 
there is still not enough. The Army is very big, and being able 
to get out there into all those remote sites, as Command 
Sergeant Major Gipe, Command Sergeant Major Caffie said, it is 
to TRICARE providers--to travel to get somebody that takes 
TRICARE. And that is a concern.
    Sergeant Major Kent. The quality of medical service is very 
good, sir, but the shortage of doctors is the issue.
    Master Chief West. Sir, the same here. I will tell you, I 
could not be happier with our Navy medicine and Marine Corps 
aspect. They do a lot of good things.
    I would say if there is any one thing, it is continue to 
keep that ball in the air for us. You know, sir, you drop that 
ball, and we start missing things, but, you know, you see the 
assistance you could provide, that would really be of value.
    Chief Master Sergeant McKinley. Sir, I think we have come a 
very long way since 1995 when we started TRICARE. But I think 
one of the big improvements we can do to make it more 
attractive for civilian health care providers is to take out a 
lot of the bureaucracy that we can right now.
    You may have someone who goes to visit a doctor's office--
Blue Cross-Blue Shield in just a matter of a few minutes--to 
see the doctor, and the paperwork is taken care of. You go to 
the doctor with TRICARE and it is an hour's worth of paperwork. 
And a lot of doctors just don't want to put up with it.
    We need to clear up the bureaucracy and make it easier and 
more attractive for civilian doctors that want to take----
    Mr. Crenshaw. Thank you, sir.
    Mr. Edwards. Thanks. Before I recognize Mr. Berry, I want 
to take the privilege of welcoming to our subcommittee Mrs. 
Zach Wamp, Kim Wamp, and their son, Weston.
    And as chairman of the committee, let me--I don't want to 
embarrass the ranking member of the committee in your presence, 
but I want to thank you both for the sacrifices you have made, 
for the time Zach often has to spend away from family, to his 
leadership in this committee. We are thrilled to have you both. 
The subcommittee is very privileged to have Zach as our ranking 
member.
    Zach, would you like to----
    Mr. Wamp. I am going to rat out my son, who is a senior at 
the University of Tennessee and about to graduate magna cum 
laude May the 1st. He and Kim are here for the National Prayer 
Breakfast, which I am very involved in each week, and they just 
came into town.
    But they had not been to a committee hearing in this room 
since I joined as ranking member. I have to tell you that my 
son, when you were under consideration as Vice President, 
started rooting for that ticket just because of our 
relationship. So you had one Republican working for you, so--at 
least we would have somebody in the White House that we know.
    Mr. Edwards. And my Republican campaign opponent was 
rooting for me, as well. But, Weston, thank you--thank you very 
much. [Laughter.]
    And it is great to have you both here.
    I think the top enlisted leaders of our services that are 
here symbolize the people making a difference for our country, 
and our military aren't only those that have on the uniform or 
wear the title of member of Congress, but spouses and the 
children. So we welcome you.
    Mr. Berry.
    Mr. Berry. Well, I would just thank all of you for your 
service and the great job you do. I think this committee is 
committed to doing the best that we can to see that you have 
what you need to do that job and do it well.
    Master Chief West, you are from the same neck of the woods 
as our colleague, Mr. Wamp. I am wondering, what made you turn 
out so well? [Laughter.]
    Master Chief West. Sir, I just have to say that I am just 
across the Georgia line.
    Mr. Berry. That explains it. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Berry.
    And welcome back to the subcommittee. You have been a great 
member of the subcommittee. And you are here personally at 
every committee hearing unless you have an absolute conflict 
with other hearings. And we thank you for that. Thank you for 
being here.

                       TOP QUALITY OF LIFE ISSUES

    Let me continue a tradition of this subcommittee, if I 
could, and just ask each of you really two questions. First 
would be, in terms of quality-of-life morale issues, would it 
be fair for me to say, or to conclude from your comments, that 
time away from family is number-one right now? Would that be a 
yes--let the record show that time away from family is the 
number-one quality-of-life issue right now.
    Moving beyond that and putting aside pay, because we know 
that is always crucial to those serving our country, if we were 
to be arbitrary and to, say, take education, whether it is for 
the serviceman or woman or their family, education, health 
care, housing, and daycare, while we have a responsibility to 
address all of those four areas, could I ask you to make your 
own judgment and say, speaking for your respective servicemen 
and women and their families, which would you rank as the 
number-one challenge where we need to put more resources? What 
would be number two, number three, if you want to?
    Sergeant Major Kent [continuing]. Marine barracks?
    Mr. Edwards. Yes.
    Sergeant Major Kent. I would--sir.
    Mr. Edwards. So barracks improvement----
    Sergeant Major Kent. Yes, sir.
    Mr. Edwards. Okay.
    Sergeant Major Kent. As we grow the force, we are going to 
need other space.
    Mr. Edwards. Okay. How about second, Sergeant Major?
    Sergeant Major Kent. Second would be daycare, sir.
    Mr. Edwards. Okay. Daycare after barracks?
    Sergeant Major Kent. Yes, sir.
    Mr. Edwards. Okay.
    Sergeant Major Preston.
    Sergeant Major Preston. Childcare which is working in the 
right direction and is a priority right now, but childcare, 
barracks are the top two, and then health care.
    Mr. Edwards. Okay. The two of you, the sense is we have 
made progress on family housing. It is not that we need to 
stop, draw a line in the sand and stop improving military 
family housing, but we at least--our servicemen and women--and 
they are seeing real change, so we are behind the curve more on 
barracks versus family housing?
    Master Chief West.
    Master Chief West. Sir, I have to agree over here. I will 
tell you, the bachelor housing is absolutely the number-one 
priority. With that said, the family housing, what this 
committee has done and through our PPV partnerships, is 
phenomenal. In my 28 years in the Navy, I have never seen 
better housing and daycare is another one. I know we have made 
huge strides. We have a very successful rate as we roll out, so 
we are making headway there.
    And also with health care, we have to keep all three of 
those up in the air, but my number-one priority without a doubt 
is housing.
    Mr. Edwards. Okay.
    Master Chief West. Bachelor housing.
    Mr. Edwards. Okay, bachelor housing.
    Master Chief West. Yes, sir.
    Mr. Edwards. Chief Master Sergeant McKinley.
    Chief Master Sergeant McKinley. Sir, I don't think that I 
would really necessarily put them as a one-two-three. I think 
it is a package deal. You know, I think each one of them are 
equally important. And you can't really have one without the 
other, so we have made tremendous strides in each one of those. 
But each one of those is still very important.
    Mr. Edwards. Sure. And I don't want to make the third or 
fourth list on the priority list seem less important, because 
they are very important. But if you only had enough money to 
put into one of those four areas, where would you put that 
money?
    Chief Master Sergeant McKinley. Continue with housing. I 
think housing is very----
    Mr. Edwards. Family housing or barracks?
    Chief Master Sergeant McKinley. Both.
    Mr. Edwards. All right, if you could only put money into 
barracks or family housing, where would you put it?
    Chief Master Sergeant McKinley. I would right now put it 
into barracks, because we still have Airmen out there living in 
barracks that are very old. The infrastructure needs to be 
redone. You can't put lipstick on a pig.
    Mr. Edwards. Right. Right.
    Chief Master Sergeant McKinley. You have heard that one 
before. So you have to go in and work with infrastructure. And 
that takes money.
    Mr. Edwards. Okay. And forgive me for trying to put you in 
a box, but I think just trying to get that sense of priorities, 
with limited resources--we don't have an unlimited check here. 
We should not ignore any of those areas. We want to keep making 
the kind of progress we have had in the last several years in 
all of these areas, but that is good to know.
    Mr. Farr. Is your BAH for a barrack the same as for a 
house? If you stay in a barrack, you still receive a housing 
allowance, don't you? Or if you stay in a house on base, you 
pay your----
    Master Chief West. You forfeit, at that point, your BAH, if 
you stay. However if you have a public-private venture, then 
you do get paid the BAH, but then you turn around and hand it 
back to the PPV.
    Mr. Farr. Are the economics better for the private venture, 
better in building housing than in building barracks?
    Master Chief West. We have a few barracks that are going 
PPV.

                      BASIC ALLOWANCE FOR HOUSING

    Sergeant Major Preston. What you have to look at is that, 
for a married soldier, they receive a basic allowance for 
housing. And they have a choice. They can----
    Mr. Farr. On-base or off-base?
    Sergeant Major Preston. On-base or off-base. But they pay 
either way. But for the single soldier, they don't receive a 
housing allowance if they are living in a barracks. And, of 
course, if you want them to live off-base--and we have done 
that to free up space in the barracks we have taken some of our 
senior noncommissioned officers who are single and paid them an 
allowance for housing to allow them to go off and find an 
apartment, but, that is a cost, as well.
    Mr. Edwards. Could I ask Master Chief Wright and Sergeant 
Major Gipe and Sergeant Major Caffie. Starting with you, Master 
Chief Wright, could you come up to Mr. Carter's seat again? And 
you don't have to choose from those same 4, because housing, 
health care, education are obviously different sometimes in 
terms of the challenges for the members of the Guard and 
Reserve.
    But the quality-of-life issues, what would be the first, 
second, and third priorities that Congress needs to take a look 
at, in terms of supporting quality of life and morale for our 
members of the Guard and Reserve?
    Master Chief Wright.
    Master Chief Wright. Thank you, sir. Just trying to do some 
quick thinking here. But I think the distance and travel, I 
think that is a main one.
    Number one.
    Mr. Edwards. Any other of the concerns you hear?
    Master Chief Wright. The other is TRICARE, a follow-on with 
that. I know they are paid at the Medicaid levels. And a lot of 
times, when you are dealing with the medical facilities and the 
providers, it is all about the patriotism. They are looking at 
the flag, and that is wonderful, but there is not a lot of 
incentive there for it.
    And on the other side of it, just making sure we have good, 
quality facilities for these folks to come and train, too. A 
majority of that time, they are training with the units and 
doing everything they have to. But when they are at the reserve 
site, or the NOSC, Navy Operational Support Center, they have 
quality facilities to work in.
    Mr. Edwards. Okay.
    Master Chief Wright. These are my top 3, sir.
    Mr. Edwards. Thank you, Master Chief.
    Sergeant Major Gipe.
    Sergeant Major Gipe. Again, sir, without a doubt, health 
care is our number-one issue. Education is up there, but with 
the G.I. Bill and most states providing tuition assistance for 
Guard and Reserve members, so without a doubt it is the TRICARE 
and the yellow ribbon piece of the health care that relates to 
post-traumatic and those kind of----
    Mr. Edwards. What training equipment----
    Sergeant Major Gipe. We are doing very, very well on the 
equipping course. We are not where we need to be yet, but there 
is a plan to get there. And the funding is dedicated long term 
to get there.
    The military construction to improve the facilities that we 
have to train in would have to be up there, as well. But there 
is a great plan in place for--up there. And the Army has done a 
phenomenal job with getting this, as well as Congress, funding 
the money for that.
    Mr. Edwards. Thanks, Sergeant Major.
    Sergeant Major Gipe. Thank you. Yes, sir. That is really 
what the issue is. It is the provider issue. And then we 
alluded to Military OneSource for counseling sessions and the 
online things.
    Things are getting better all the time, but TRICARE 
providers is a huge issue for us, because they are just not out 
there and available and where they should be. If we could get 
that fixed, that would be huge.
    Mr. Farr. Military clinic are for the uniformed military 
personnel, but the spouses and children have to go to the 
private sector, and they don't want to take TRICARE 
reimbursements----
    Sergeant Major Gipe. Of course, we have many soldiers that 
don't live anywhere near a military facility, so----
    Mr. Edwards. Thanks, Sergeant Major.
    Sergeant Major Caffie.
    Sergeant Major Caffie. Thank you, Mr. Chairman.
    Priority number one for me would be health care. I think we 
have already addressed the issues with bureaucracy and paper 
flow. We need to enhance the--physicians and nurses within that 
program.
    Second for me would be the distance. As we transform--
primary concern. I have soldiers driving excess to 250 to 300 
miles--that we do not compensate them for.
    And third would be equipment and renovating the 
installations that I have--Reserve.
    Mr. Edwards. Thank you all.
    Any members--any of you want to follow up on that? Okay.
    Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Edwards. Welcome back to the subcommittee----
    Mr. Carter. I would like to thank these fine gentlemen for 
being with us, and I apologize for being late. I had to go to a 
meeting with the leadership.

                          AGING FAMILY HOUSING

    Sergeant Major Preston, I want to talk to you a little bit 
about this Army Family Covenant you talked about. Chairman 
Edwards has played a major role in establishing RCI, the 
housing program. We have made great strides in military 
housing. We are all well aware of it, as all of you are.
    However, I visit Fort Hood many times each year and have 
toured several times a housing area called Chaffee Village. Are 
you familiar with Chaffee Village?
    I don't know what year it was built, but it had to be in 
the 1950s, because it looks old. Chaffee Village has 674 units 
for enlisted soldiers and their families, and is part of the 
RCI program. We are spending about $40,000 a unit to make them 
more livable, but, quite frankly, this is, in my opinion, like 
putting lipstick on a pig.
    I mean, these are old units. We are patching them up, but 
in reality, there is nothing around here that old that is 
patched up like that.
    And the real issue is we have to provide the quality of 
life that we promised them, that we keep this Army Family 
Covenant.
    Now, even if these additional funds are provided to patch 
it up, it is not going to be to the standard it ought to be, as 
compared to the other housing that we are providing on Fort 
Hood and other installations.
    I know that Chairman Edwards is well aware of this, as are 
quite a few others. I guess my question to all of you is, do 
you have housing issues like Chaffee Village on other 
facilities you visit that are still in use. They are old and 
being patched rather than completed?
    Have you informed the powers-that-be, this committee and 
others, of your needs for housing areas like Chaffee Village so 
that they can be in the next budget that we have to deal with? 
Because I think this is something that it is time for us to put 
a spotlight on. It is livable, but it is not quality living.
    Sergeant Major Preston. Mr. Carter, I know Chaffee Village 
very well. And having been there as a battalion sergeant major 
and I sponsored Comanche II. For those houses that did not meet 
the quality of life, the private partners have gone in and 
completely torn them down and built a new house. And 
specifically at Fort Hood, you can go around and see out on 
West Ford Hood, hundreds of brand-new houses that have been 
built.
    I get asked by a lot of soldiers that are living in the old 
houses like Chaffee or Comanche II why they have to live in the 
older house while somebody else has the newer house. And it 
really gets down to, what is the capitalization plan for that 
housing?
    Before privatization, we as an Army did not do very good at 
planning for the capitalization for housing as well as our 
barracks. And that is why we have a lot of old stuff out there 
that we are now trying to play catch up.
    But with our private partner, they have a capitalization 
plan so that, you know, as those houses reach the end of their 
life cycle, you know, they will be torn down and those 
soldiers, you know, as--either as they leave or as they, you 
know, transition away from the installation, will be moved 
into, you know, new and upgraded housing.
    So the good thing now with the private partners--
capitalization plan, and you rotate through, and you eliminate 
the oldest stuff, and you build new.
    Mr. Carter. Well, almost every visit I make to Fort Hood, I 
get brought through Chaffee Village when there is a change of 
command. The first place I go is for a drive through Chaffee 
Village. This is something that really is on the minds, 
especially of the enlisted men.
    Sergeant Major Preston. And, sir, the private partners--for 
a lot of money----
    Mr. Carter. They have.
    Sergeant Major Preston [continuing]. Chaffee Village and 
fixed them up. And, when I was at Fort Campbell when we first 
started the capitalization process, these old ranch-style 
houses, very, very old, and Command Sergeant Major Hill, who is 
now with General Petraeus down in CENTCOM, he was still the 
installation sergeant major there.
    And he and I have walked in and taken a look at this brand-
new house that they have renovated. And he and I both looked at 
each other and said that, you know, if we were both 
specialists--the rank that was looking at those houses now, we 
would re-enlist, to live in a house--so the private partners 
have really done, a very good job at renovating and fixing up 
the old places, to provide the quality of life that we want.
    Mr. Carter [continuing]. Other response from anybody?
    [The information follows:]

    The Army's Residential Communities Initiative (RCI) 
privatized housing projects are developed, operated, managed, 
and maintained in accordance with a detailed community 
development management plan (CDMP). Project-specific CDMPs 
define the plan for housing recapitalization efforts during the 
3 to 11 year initial development phase (IDP) and the remainder 
of the 50-year project, including housing renovations, 
demolitions, and new construction.
    During the IDP, RCI housing recapitalization is funded 
through a combination of private debt, private equity, and/or 
government equity. Following the IDP, RCI housing 
recapitalization is funded from a project reinvestment account. 
The project reinvestment account is funded through the project 
cash waterfall at a sufficient level to sustain project housing 
at contemporary standards throughout the 50-year project.
    One of the biggest advantages of military housing 
privatization is the speed at which houses can be renovated and 
constructed during the IDP, and the high quality of housing and 
housing maintenance that can be sustained over the project 
life.

    Sergeant Major Kent. Well, we have a plan to fix housing. 
Thanks to all of you, the funding that we get for our quality 
of life I will tell you, we have some great housing on our 
military installations.
    Mr. Carter. Well, I am aware we have some great housing 
units.
    Master Chief West. Yes, sir. With the Navy, we are on track 
to eliminate anything that is out there in fiscal year 2011, 
but what is important is our private companies. They are 
working real well with our family housing--naval installations.
    So like I told the members earlier, sir, it is the best 
housing I have seen in 28 years of service.
    Chief Master Sergeant McKinley. Sir, I am very passionate 
about this, and so are all of us here. And I have used this 
comparison before, but I think it is very valid. As you walk 
through Arlington National Cemetery, we have a standard. We 
take care of the fallen. They have the same markers; they have 
the same plot, so there is a standard, no matter what service 
you are in.
    It is a shame we don't do this while we are wearing the 
uniform. We have some that we take care of, some that we don't. 
We need to make sure we provide that standard while we are 
wearing the uniform.
    Mr. Carter. Thank you, Mr. Chairman.

                         HOUSING PRIVATIZATION

    Mr. Edwards. You know, Mr. Carter, if I could jump in, I 
think generally we would all agree that privatized, public-
private partnership programs work very, very well. That doesn't 
mean this subcommittee couldn't, you know, expend some effort 
reviewing it and seeing where it is working better than other 
areas.
    And the question I couldn't answer--is, how do you make a 
decision that at what point that developer at Fort Hood gets to 
put more money in his pocket as a profit? We want him to make a 
reasonable profit.
    Mr. Edwards. And it seems that we ought to--if nothing 
else, we ought to use the bully pulpit of this subcommittee to 
pressure the developers, salute them where they are doing well, 
but if in some cases they are, you know, renovating a 50-year-
old house rather than building a new one, and yet they are 
making very, very solid profits, maybe we ought to let them 
know we are going to keep an eye on them.
    Mr. Carter. That is the thing. You know, if you are a 
soldier, and, you know, one guy is living in a brand-spanking-
new house and his wife and kids have this really nice house, 
the other guy comes back, he is coming to a clean, refurbished 
house built in probably 1955, and then refurbished, you can't 
help but saying he is in a substandard housing, even if it is 
perfectly clean, perfectly functional, and everything works. It 
is not what the other guy has.
    Refurbishing costs a lot of money. Fixing up all the houses 
costs a lot of money. Maybe our money would be better spent if 
we started going in and tearing these things down and building 
new houses.
    Sergeant Major Preston. Mr. Chairman, I would recommend 
that you take a look at it. And the best analogy I have for RCI 
housing is that it is just like getting a haircut. We are 
halfway through the haircut right now, so depending on which 
side of the head that you look at, one side looks good, but 
there is a plan that they are working through.
    Mr. Edwards. In some cases they are spending $40,000 or 
$50,000 renovating the unit where they could spend $150,000 
just rebuilding a brand-new--and, again, I don't know that I 
have an answer to that. I don't know if any other members do.
    I assume it is done again on an installation-by-
installation basis where they negotiate an agreement. But I 
think it might be healthy. You know, we have all talked about 
exercising oversight. And maybe we could bring the developers 
in and others--again, salute them for the good work they are 
doing, but also let them know we are going to look over their 
shoulder and make sure that they are in a time of war and 
multiple deployments and the sacrifices--representing are 
making that we are going to expect them to err on the side of, 
you know, putting that extra dollar into unit housing.
    Mr. Carter. I think our partners would give us a fair 
analysis of what they see as needed.
    Mr. Edwards. Might be a good basis for a future 
subcommittee hearing.
    Mr. Wamp.
    Mr. Wamp. I think we are almost through. I asked Mr. 
Crenshaw. He has no more questions.
    Judge Carter, do you have any more questions?

                CROSS-CULTURAL EXCHANGE--HORN OF AFRICA

    I just have a couple of points and then we will be through 
on our side. I know time is getting late.
    Going back to Mr. Farr's question, I want to publicly say 
how much I appreciate and was so impressed with his insight 
into things around the world.
    But this issue of hearts and minds. Chief Master Sergeant 
McKinley, you mentioned AFRICOM earlier. I was so impressed 
with General Kip Ward, who is the commander.
    I wanted to ask you if we have any permanence there? I know 
that there was a temporary status in Djibouti and we really 
haven't established permanent base for AFRICOM headquarters.
    But I want to tell you this. One of our guests for the 
prayer breakfast is a former general who is now in the top 
civilian leadership of Kenya, and I was with him last night. 
And I asked him about this. He told me how impressed he was 
with General Kip Ward and the fact that our military presence 
there, while it is not permanent yet, is about making peace and 
winning the hearts and minds of people in northern Africa.
    Now, of those 25 countries I mentioned earlier, quite a few 
of them are on the continent of Africa. And I am asking you, 
because I was in Tanzania to the south not too long ago, and I 
asked him about that former Arab coast, Mombasa particularly. 
Actually, I think some things are turning in a better 
direction.
    Part of it is because our presence is welcomed. I know, 
from Kenya's standpoint, this is a Maasai general who is now in 
civilian leadership, and he was really impressed with the U.S. 
presence in northern Africa, which I think bodes well for this 
hearts and minds issue.
    Chief Master Sergeant McKinley. Sir, I was just in Djibouti 
in November. The leadership there is very committed, but they 
are dealing wih the tyranny of distance of Africa. You can 
basically put the United States of America in Africa three 
times.
    So when you are looking at how we get from Point A to Point 
B, we have to work that out. But the goodness that we can do 
there, winning the hearts and minds, it is just astronomical. 
So we have to stay committed and make sure that we take care 
and have a plan in how we can get from Point A to Point B to 
Point C.
    Mr. Edwards. Sergeant Major, you wanted to say something?
    Sergeant Major Preston. You know, sir, I was Djibouti. And 
we have a lot of stuff there for the--army to help train them, 
as well as--in Kenya.
    But I flew up into Ethiopia. This is a great kind of joint 
team--flew into Ethiopia, the city of Dire Dawa. It is the 
second largest city in Ethiopia. It is a city of about 300,000.
    And I was met there on the ground by Staff Sergeant Colson, 
who is an Army Reserve staff sergeant, who was the NCOIC or 
noncommissioned officer in charge of a 17-member team. And his 
commander was on leave so he was gone. So this staff sergeant 
was in charge.
    And he had a team of Navy Seabees as well as a squad of 
artillery soldiers from Fort Sill, Oklahoma, that are doing 
force protection. He had an airman and a signal NCO who was 
doing the comms to keep him in touch with Camp--but we traveled 
around the city.
    And he took me out and showed me the 21st and 22nd water 
point that the Seabees have put into place for the locals to 
draw water from, fill up their water jugs.
    They took me out to a $200,000 school project, primary, 
secondary school that they were putting into place for first 
grade through eighth or ninth grade.
    And while we drove around the city, it was--you could tell 
the relationship that he had built with all the locals, because 
they were all--they all knew him. They were all waving at him.
    But here is a young, staff sergeant with 7 or 8 years in 
the Army, and then he is helping to build a city. You know, he 
built a school and, helped to provide water, to the citizens. 
And, it is just amazing out there to see the things that are 
being done.
    I visited the chief of staff and sergeant major of South 
Africa. I was went around to their training facilities. And 
they are trying to build a noncommissioned officer corps like 
ours.
    And that is one of the reasons why we are celebrating the 
year of the NCO. And, South America has some unique challenges 
down there, as well. But, we are partnering with every one of 
those countries.
    Master Chief West. Sir, if I could just add one quick point 
to that, it is not necessarily the 30-, 40-, 50-year-olds that 
are making a difference. We are having 19- and 20-year-olds 
going out there, negotiating deals, and working with these 
tribal leaders or these leaders of those communities. It is 
just an incredible thing.
    Sergeant Major Kent. And we are actually doing that with 
the Navy every day, sir. We are actually--port--and we win 
hearts and minds each and every day.
    Mr. Wamp. And one other closing thing that I want to bring 
up through several hearings as we go forward, Mr. Chairman, and 
that is that what we heard from the deputy chief of staff of 
the Army and Mrs. Casey, when they met with us after the 
election and they said that the Congress still needs to change 
the law so that outside foundations can support our soldiers. 
We talked about Fisher House, an example, but there are still 
some impediments of our free enterprise system to support the 
military.
    We need to look at ways to take those walls down, 
especially with the needs that we hear about and the stress 
that is there with multiple deployments. If our private sector 
is willing to help and in any way the law keeps that from 
happening, we need to take those things down.
    They brought that to us in December at that dinner I 
attended 2 weeks after the election. I thought, ``That is 
something we need to bring up over and over again until we 
figure out exactly how to take down these barriers to get all 
the support.'' I know they wanted help, and they know that 
there are stress points, and let's let them do that. We will 
look into that every time.
    Mr. Edwards. Good suggestion--bring in our authorizer 
friends, but it would certainly be something that would be 
important to do.
    Mr. Wamp. Mr. Chairman, thank you.
    Mr. Edwards. Thank you.
    Do any members have any additional questions? And, 
obviously, you can all turn in written questions.
    Mr. Farr.

                           TRICARE PROVIDERS

    Mr. Farr. I wasn't going to have one, but I want to get 
back to this TRICARE issue. As I understand TRICARE, it 
essentially models the Medicare reimbursement rate. It 
establishes rates by region.
    The problem is that providers don't want to take that rate 
because it is too low or the process is too much of a hassle. 
It is very difficult to change the rate.
    How much of this problem is rate? And how much of it is 
bureaucracy? Because we contract out a huge multibillion-dollar 
contract, and then process blows up, and with a new provider 
every 6 years, all the forms, telephone numbers, and contacts, 
and appeals change.
    Do you have any suggestions of how to improve this?
    Chief Master Sergeant McKinley. Sir, I think a lot of the 
health care providers out there, they are dedicated Americans. 
They love our military, like everybody else, and they are 
probably willing to take that little less money. But if the 
bureaucracy, if the paperwork was much easier for them, I think 
that would help a lot.
    Mr. Farr. Do you have a memo on that?
    [The information follows:]

    The question is a good one because reimbursement rates are, indeed, 
sometimes part of the problem. I should explain that when we say 
TRICARE is tied to or as you say ``modeled'' on Medicare rates. It 
doesn't mean that we match those rates dollar for dollar. In some 
locations we actually pay more than Medicare, but if those Medicare 
payments go up or down, our rates tend to match the same rate of 
increase or decrease.
    Does TRICARE pay enough? TRICARE participation is voluntary. If we 
pay too little, providers do not participate. We have been able to find 
ample TRICARE-accepting providers in most markets. We interpret this as 
meaning we pay acceptable market rates. It is a delicate balance.
    You also mention that providers feel that the TRICARE process is a 
``hassle.'' Providers deal with numerous private insurers, plus the 
Department of Veterans' Affairs (VA), TRICARE, Medicare, etc. It is 
difficult to deal with multiple billing systems, but we do not perceive 
the TRICARE billing process to be more onerous than other payers. 
TRICARE has an excellent record of paying on time and paying 
accurately. We monitor timely payment continuously and have an 
excellent history of rapid payment. We also strive to minimize changes 
for beneficiaries while giving them the greatest choice.
    Our benefit is excellent and TRICARE is rated the best health plan 
in the nation. An independent healthcare research firm polled 71,000 
American households and found that TRICARE had higher customer 
satisfaction rates than any other healthcare insurance carrier in the 
United States. It exceeded Aetna, Blue Cross Blue Shield, CIGNA, Kaiser 
Permanente, the VA, and others. (Independent research was conducted by 
Wilson Health Information. Third party information source found on 
Business Wire: http://findarticles.com/p/articles/mi_mOEIN/
is_2009_Jan_16/ai_n31198561)

    Chief Master Sergeant McKinley. We can get back to you on 
that, sir.
    Mr. Farr [continuing]. The specifics.
    Chief Master Sergeant McKinley. Yes, sir--about what that 
bureaucracy is?
    Sergeant Major Preston. I know for the health care 
providers out there, they have a kind of balance. They are very 
patriotic, and they try to balance the number of people that 
they are seeing between the high end and the low end. So they 
have a balance.
    But there is a stigma, but I have to give them credit. They 
have been working very hard to improve their process of 
paperwork and make it more automated.
    But there is also a stigma out there. A command sergeant 
major of the Texas National Guard was living in Midland or 
Odessa, and to find a health care provider, the specialist his 
family needed, they had to go all the way to Fort Worth.
    And that is the challenge. It is now working through and 
demonstrating that some of the processes have improved. They 
have gotten better. And it is getting more of the civilian 
health care folks out there now to sign up and take TRICARE.
    [The information follows:]

    To date there are more than 325,000 providers in the TRICARE 
network with over 1 million non-network providers accepting TRICARE 
patients. In order to make TRICARE more attractive to health care 
providers, the TRICARE Management Activity (TMA) has a variety of tools 
to include: reducing the administrative burden, increasing the number 
of providers willing to accept TRICARE patients, and lastly, exercising 
an active outreach program.
    TMA is engaged in a comprehensive effort to reduce the 
administrative burden on TRICARE providers. Efforts include expediting 
the claims process for providers. Currently more than 99% of retained 
claims are being processed to completion within 30 days. Additionally, 
more than 97% of claims are now filed electronically. Providers have 
online capability to check beneficiary eligibility, update their 
information for beneficiaries appearing in TRICARE provider 
directories, check claim status, and submit referrals. Lastly, monthly 
provider bulletins and quarterly provider newsletters are used by 
providers to communicate important facts about the TRICARE medical 
benefit and business processes to the various TRICARE beneficiaries.
    TMA conducts surveys to determine the numbers of healthcare 
providers accepting new patients under TRICARE. TMA's fiscal year (FY) 
05-07 surveys covered network/non-network providers in various 
geographic areas nationally, including remote areas. Together, the 
three year findings across all states and health service areas reveal 
that approximately 87% of all physicians surveyed are aware of the 
TRICARE program and about 81% of physicians accepting new patients 
would also accept new TRICARE patients. For physicians who do not 
accept new TRICARE patients, the most commonly single cited reason is 
due to ``reimbursement'', which accounts for approximately 25% of all 
comments received. Reimbursement concerns include low and insufficient 
fees, fee schedules that do not cover overhead costs, or reimbursements 
that take too long to receive. The remaining reasons for not accepting 
TRICARE include a variety of other non-reimbursement factors such as 
providers accepting no new patients, inconvenience, and other 
miscellaneous reasons. The FY08 National Defense Authorization Act has 
directed DoD to continue this survey process through 2011.
    Title 10 U.S.C. 1079(h)(1) requires the TRICARE program to follow 
the reimbursement rates of Medicare to the extent practicable, unless 
DoD can justify a deviation. TRICARE rates and Medicare rates are 
identical for most services. Medicare rates are adjusted each year. 
These rates will vary by location and service provided. In areas where 
access to care is severely impaired because of low reimbursement rates, 
TMA can use its authority to increase TRICARE reimbursement rates by 
issuing locality waivers that increase rates above the TRICARE 
reimbursement rate for specific procedures in specific localities. 
Secondly, TMA can issue network-based waivers that increase some 
network civilian provider reimbursements up to 15% above the maximum 
TRICARE reimbursement rate to ensure adequate numbers/mix of civilian 
network providers. Directors of the TRICARE Regional offices work with 
their managed care support contractors to address requests for 
reimbursement waivers. A variety of stakeholders can request a waiver 
to include providers, beneficiaries, managed care support contractors, 
or military treatment facilities.
    Expanding the network through outreach is a top priority of TMA. 
TMA is reaching out to state officials, medical associations, and 
individual physicians to educate them and appeal to their sense of 
patriotism in accepting TRICARE. This outreach is showing promising 
results. For example, the Oregon legislature approved incentives 
including a one-time tax credit for new providers in the TRICARE 
network, plus an additional annual credit for treating patients 
enrolled in TRICARE. Since 2004, Oregon's TRICARE provider network has 
increased by 35%. In addition, the governors of 20 western states have 
supported TRICARE's efforts to encourage more health care providers to 
accept new TRICARE patients. Their combined efforts led to an overall 
increase in western region TRICARE network doctors from approximately 
80,000 in 2004 to more than 125,000 today.

    Mr. Edwards. Important issue. Thank you, Sam.
    Let me finish as Mr. Wamp began the meeting. We are 
privileged and humbled to be at the table with you and to have 
an opportunity to thank you with a word for what you have done 
for our country and all of those men and women that you 
represent so ably have done.
    And we want to thank you with our deeds, as well, with 
better health care and housing and quality-of-life support that 
the servicemen and women you represent deserve.
    So this is a great way. I can't think of a better way to 
start up the new Congress than to have this, our first 
subcommittee hearing. Again, that is a testament of our respect 
to you.
    Thanks to each of you for your leadership. We look forward 
to working with you in the months and years ahead.
    With that, we will stand adjourned subject to the call of 
the chair.
    Let me just say to all the members, my staff just sent me a 
note that said there is a bill scheduled for vote any moment 
now. So before you can go running back to your office building, 
you might want to check on the floor.
    Thank you very much.
    [Questions for the record submitted by Congressman Dicks:]

    Army:
    Question: Are there any special challenges to supporting quality of 
life for the military at installations in the Pacific Northwest region? 
What changes or improvements would have the greatest impact on 
improving facets of quality of life in the Pacific Northwest region?
    Answer: There are no challenges specific to supporting quality of 
life for Soldiers and their Families stationed in the Pacific Northwest 
region. Fort Lewis serves as home to approximately 25,000 Soldiers and 
civilians, 29,000 Family members, and 120,000 retirees. Fort Lewis 
delivers on the Army Family Covenant--the Army's expression of 
commitment to quality of life commensurate with service; recognition of 
the mutual bond between the Army, Soldiers, and their Families; and 
dedication to improving Family Readiness. We are continually improving 
quality of life across all components--Active, Guard, and Reserve--
through implementation of the Army Family Covenant, regardless of 
geographic location.
    Marine Corps:
    Question: Are there any special challenges to supporting quality of 
life for the military at installations in the Pacific Northwest region? 
What changes or improvements would have the greatest impact on 
improving facets of quality of life in the Pacific Northwest region?
    Answer: There are no special challenges to supporting quality of 
life (QOL) for the military installations in the Pacific Northwest. 
Housing, child care, school and single Sailor programs are all 
important elements to improving quality of life for sailors. In the 
Pacific Northwest, these programs are resourced consistent with the 
rest of the Navy's QOL programs in CONUS.
    The PB09 FYDP contained one Physical Fitness Center project for NAS 
Whidbey Island at a cost of $24.4M that would improve facets of QOL in 
the Pacific Northwest region.
    Navy:
    Question. Are there any special challenges to supporting quality of 
life for the military at installations in the Pacific Northwest region? 
What changes or improvements would have the greatest impact on 
improving facets of quality of life in the Pacific Northwest region?
    Answer. There are no special challenges to supporting quality of 
life (QOL) for the military installations in the Pacific Northwest. 
Housing, child care, school and single Sailor programs are all 
important elements to improving quality of life for sailors. In the 
Pacific Northwest, these programs are resourced consistent with the 
rest of the Navy's QOL programs in CONUS.
    The PB09 FYDP contained one Physical Fitness Center project for NAS 
Whidbey Island at a cost of $24.4M that would improve facets of QOL in 
the Pacific Northwest region.
    Air Force:
    Question. Are there any special challenges to supporting quality of 
life for the military at installations in the Pacific Northwest region? 
What changes or improvements would have the greatest impact on 
improving facets of quality of life in the Pacific Northwest region? .
    Answer. There are no specific challenges to supporting quality of 
life at installations in the Pacific Northwest region that are unique 
to McChord AFB, Mountain Home AFB and Fairchild AFB. The Air Force will 
continue to improve the investment in our people to avoid unacceptable 
risk to combat capability and to people and family programs. Quality of 
Life projects are a priority at these bases and include quality 
housing, fitness centers and child care centers.

    [End of questions submitted for the record by Congressman 
Dicks.]

    [Questions for the record submitted by Congressman Bishop:]

                           Suicide Prevention

    Question. Last week it was reported that suicides among soldiers in 
2008 rose for the fourth year in a row, reaching the highest level in 
nearly three decades. At least 128 soldiers killed themselves last 
year, and the Army suicide rate surpassed that for civilians for the 
first time since the Vietnam War. This suicide count, which includes 
soldiers in the Army Reserve and the National Guard, is expected to 
grow. Fifteen deaths are still being investigated, and the vast 
majority of them are expected to be ruled suicides according to Army 
officials. Gen. Peter W. Chiarelli, the vice chief of staff of the 
Army, who is leading suicide-prevention efforts has stated, ``We [the 
Army]-- need to move quickly to do everything we can to reverse the 
very disturbing number of suicides we have in the U.S. Army.'' What is 
the Army doing to address the problem?
    Answer. Since my testimony in February 2009, the Army has taken 
major steps to address the tragedy of suicides within our ranks.
    From February 15 to March 15, 2009, the Army conducted a service-
wide Suicide Prevention Stand Down and Chain Teaching, a first 
according to the Center for Military History. During the stand down, 
the Army trained every Soldier on suicide risk identification and 
intervention, and addressed the stigma associated with behavioral 
health counseling, using an interactive video titled ``Beyond the 
Front.'' Feedback from Soldiers about the video was so positive that 
new, similar videos are being created for Families and DA civilians; 
and the Army National Guard and Reserve plans to tailor these videos 
for their Soldiers as well. Also during the stand-down, the Army 
distributed thousands of ``ACE'' (Ask, Care, Escort) wallet cards to 
Soldiers; these cards provide a quick reference on how to identify and 
care for a potentially suicidal buddy. Follow-up to the stand down 
included chain teaching on suicide prevention tactics. Chain teaching 
remains underway through July 1.
    In March and April 2009, General Chiarelli conducted an eight-day, 
six-installation fact finding visit. He also organized a 
multidisciplinary team of experts from across the Army Staff, which 
conducted a review of those findings and Army programs and policies 
relating to suicide, behavioral health, and suicide risk factors. The 
team developed over 200 separate actions to be taken to improve 
existing systems and programs. Those actions form the nucleus of the 
Army's strategic approach to the suicide issue: the Army Campaign Plan 
for Health Promotion, Risk Reduction, and Suicide Prevention.
    The Army issued the Plan in mid-April. A senior level Council, 
chartered by General Chiarelli, meets twice a month to review and 
refine the action plans for his approval and implementation. Some of 
those plans include efforts to combat the problem of stigma; expand the 
number of Army Chaplains and behavioral health providers to improve 
access to care; and ensure funding for popular resources such as the 
``Strong Bonds'' Program, a family-relationship initiative of the 
Chaplain Corps which fosters relationship-building skills. The Council 
review process will continue for several months while the Council 
develops recommendations for strategic, enduring changes Army-wide. 
Another part of the Plan directed Army leaders and medical treatment 
facilities to immediately optimize existing policies and resources to 
prevent suicides and set the stage for the longer-term strategic 
changes.
    Another long-term effort by the Army in this area is the October 
2008 agreement with the National Institute of Mental Health for a five-
year longitudinal study of suicides, designed to assess factors 
contributing to suicide and identify training to reduce suicides and 
other mitigation techniques.
    General Chiarelli holds frequent, periodic briefings with 
commanders and a Senior Review Group on Army suicides. This ensures top 
Army leadership maintains appropriate focus on this important issue. It 
also allows for information sharing and learning from individual cases.
    The bottom line, however, is that Soldiers have always taken care 
of Soldiers. The Army team is an unbroken chain from the Chief of Staff 
to the newest recruit, and the team has been mobilized to help one 
another. I firmly believe that ultimately, it is our Soldiers who will 
turn this problem around.

                        Army Medical Action Plan

    Question. Last April GEN Casey stated that ``at the core of the 
Army's strategy to maintain an all-volunteer force lie in two programs 
that the Army leadership had developed''-one of those was the Army 
Medical Action Plan (AMAP) which deals with the Army's initiative to 
develop an ``integrated and comprehensive continuum of care for 
Warriors and their families at home and in battle.'' How has that 
program initiative fared and how has the money to that program been 
used to deal with the suicide crisis in the Army?
    Answer. The transformation of US Army Warrior Care began in April 
2007 with the development of the Army Medical Action Plan (AMAP), which 
outlined an organizational and cultural shift in how the Army cares for 
its wounded, ill, and injured Soldiers. Over the past two years, the 
AMAP has evolved and changed its name to the Army Warrior Care and 
Transition Program (WCTP), fully integrating Warrior Care into 
institutional processes across the Army, and achieving many of the 
Army's goals for enhancing care and improving the transition of wounded 
warriors back to duty or into civilian life as productive veterans. The 
Army has made tremendous progress in transforming how it provides 
health care to its Soldiers, with improvements impacting every aspect 
of the continuum of care. During this period, overall Soldier and 
family satisfaction with the care and support they receive as a result 
of the efforts of the WCTP has increased significantly. Two years ago, 
only 60% of those in the legacy medical hold units were satisfied with 
the care they receive. Today, 80% of Soldiers and Families who now 
receive the focused and comprehensive care and support provided by 
Warrior Transition Units indicate satisfaction with the care they 
receive.
    Funding for the Army's suicide prevention efforts is separate and 
distinct from funding for the WCTP. The money directed to the AMAP/WCTP 
is used to provide the necessary care, support, and infrastructure that 
wounded, ill, and injured Soldiers require. Part of this support, 
however, includes staffing the Warrior Transition Units with one 
behavioral health provider for every 100 Warriors in Transition. In 
addition, Warrior Transition Units conducted a ``safety stand-down'' 
starting on January 30, 2009, to review unit compliance with the 18 
preventive measures that were implemented in February 2008 after an 
Army assessment team completed a comprehensive review of suicides and 
accidental deaths in Warrior Transition Units. Finally, the WCTP 
complies with guidance promulgated by the Army Suicide Prevention Task 
Force and the Army Suicide Prevention Council.

                     Comprehensive Soldier Fitness

    Question. For the fourth consecutive year, the Army has seen an 
increase in suicide rates. There were 128 suicides last year in the 
active Army, with another 15 cases still pending a determination, 
according to data compiled by Army human resources officials. This was 
up from 115 suicides in 2007. The Army stated that over the past two 
years, it has increased its efforts and has enhanced resources and 
initiatives aimed at identifying and mitigating the causes of suicidal 
behavior; however, the suicide rates continue to increase. How does the 
Army plan to change its past strategy in order to stop this increasing 
trend? What is the Comprehensive Soldier Fitness program and how will 
it enhance Soldier's resiliency and total fitness in this era of 
persistent conflict? What other programs are being offered to Soldiers 
to deal with the difficult situations which are the results of repeated 
deployments?
    Answer. The Army is implementing the Army Campaign Plan for Health 
Promotion, Risk Reduction, and Suicide Prevention. The Plan represents 
a strategic change because it is the first strategy to employ a 
comprehensive approach to suicide prevention across the spectrum of 
Army policy, doctrine, organization, training, materiel, leadership, 
personnel, and resources. Due to the breadth and nature of that 
strategy, the Plan widens the aperture of the Army's approach from a 
narrow focus on suicide to the broader context of risk reduction and 
health promotion. The Plan is also unique because it stems from efforts 
led from the top down by the Army's Vice Chief of Staff, as compared to 
earlier initiatives welling from lower-level Army Staff elements up to 
senior Army leadership. In short, General Chiarelli is leading this 
critical issue; it is too urgent to wait for resolution through normal 
Army channels.
    Comprehensive Soldier Fitness (CSF) is an Army strategy to provide 
each Soldier the opportunity to maximize his or her potential in life: 
socially, emotionally, spiritually, physically, and through a strong 
Family. The program assesses the holistic fitness of all Soldiers, 
encompassing all dimensions. It begins when you join the Army, and like 
physical fitness, includes re-assessment at routine intervals. The 
results of the assessment give each Soldier an individualized program 
of education and training as needed. CSF provides the training and 
tools to enhance Soldier resilience--the ability to grow and thrive in 
the face of challenges and bounce back from adversity.
    The Program will enhance Soldiers' resiliency and total fitness by 
systematically training each Soldier in positive life-coping skills and 
the ability to identify incipient behavioral health concerns before 
they seriously affect the Soldier's well-being and readiness. The 
Program includes training to encourage Soldiers to seek behavioral 
health and other counseling before problems arise. The training will 
also indirectly discourage stigma associated with seeking counseling, 
because all Soldiers will be accustomed to discussing psychological 
health issues.
    The Program's resiliency training will be initiated in training 
schools and will continue throughout each Soldier's career. For 
example, the Program includes BATTLEMIND training for major junctures 
in a Soldier's career from Basic Training to the Pre-Command Course. 
There are also pre- and post-deployment modules for both Soldiers and 
spouses. To date, BATTLEMIND is the only resilience training program 
demonstrated to reduce symptoms of Post Traumatic Stress upon 
redeployment. People who participate in BATTLEMIND also feel less 
reluctance to seek mental health counseling than people who have not 
had the training.
    Other programs offered to Soldiers to deal with the difficult 
situations arising from repeated deployments include the ``Strong 
Bonds'' Program, a family-relationship initiative of the Chaplain 
Corps, which fosters relationship-building skills; the Military and 
Family Life Consultant Program, which embeds counselors into units 
during post-deployment, and enables counselors to meet informally with 
Soldiers in non-clinical settings to avoid stigma; and the Yellow 
Ribbon Reintegration Program, which provides information, services, 
referral, and proactive outreach programs to Soldiers of the Army 
Reserve and their Families through all phases of the deployment cycle.

                            Family Programs

    Question. Can you discuss the state of Army and Marine Corps 
families, especially families that have had a service member go on more 
than one deployment? The recent suicide levels, divorces, and issues 
with reintegration point to a stressed force? What steps are the 
services taking to counter-balance these trends?
    Answer. Army Families remain resilient in the midst of 
extraordinary sacrifices as their loved ones advance the cause of 
freedom around the world. They have set aside careers, interrupted 
their education, and when living far from a military base, struggled to 
locate child care equal to the price and quality available at military 
installations. Quality of life programs continue to contribute to 
Soldiers' and Families' sense of belonging to a caring military 
community, which reinforces their desire to choose the Army as a way of 
life, despite the serious strains they experience as a result.
    The Department of Defense conducted two Status of Forces surveys of 
active duty service members in 2007 to assess the impact of frequent 
deployments on troops and their Families. Their top concerns were 
spouse employment and education, household repairs, yard work, personal 
vehicle maintenance, maintaining emotional connections with spouse or 
Family, safety of Family in the community, anxiety or depression, 
marital problems, and problem behavior at school. Although Soldiers 
cited marital problems as a concern, a recent RAND study found little 
support for the hypothesis that deployments caused an increase in 
divorce rates across the Services.
    Under the Army Family Covenant, the Army began to implement 
aggressive improvements to a broad range of family-oriented, quality of 
life programs and services to standardize and fund existing Family 
programs and services; increase accessibility to health care; improve 
Soldier and Family housing; ensure excellence in schools, youth and 
child services; and expand education and employment opportunities for 
Family members.
    Since the Covenant's inception, the Army has made significant 
progress and improvements in quality of life programs across a range of 
Family programs. Examples include implementation of the Yellow Ribbon 
Reintegration Program to minimize stresses of military service, 
particularly the stress of deployment and family separation; deployment 
of 200,000 training products to strengthen resilience in military 
children; increased staff for the New Parent Support Home Visit 
Program; additional funding for respite care; implementation of Soldier 
and Family Assistance Centers; and employment of thousands of spouses.
    The Army has also implemented plans and programs to address 
specific Soldier and Family issues. The Army Campaign Plan for Health 
Promotion, Risk Reduction, and Suicide Prevention is a comprehensive 
approach to suicide prevention across the spectrum of Army policy, 
doctrine, organization, training, materiel, leadership, personnel, and 
resources. Additionally, the Chaplain Corps expanded the Strong Bonds 
program, a research-based, Chaplain-led training initiative helping 
Soldiers and spouses strengthen their marital and family relationships. 
Strong Bonds began in 1999 with four events and 90 couples and has 
grown into a program with commanders planning 3,200 training events 
this year in order to provide nearly 130,000 participants with the 
knowledge and skills to sustain resilient relationships during multiple 
deployments.
    While we are moving in the right direction with the Army Family 
Covenant, we still have much work to do. The Army remains determined to 
provide a strong, supportive environment where Soldiers and their 
Families can thrive.
    Question. Can you discuss the state of Army and Marine Corps 
families, especially families that have had a service member go on more 
than one deployment? The recent suicide levels, divorces, and issues 
with reintegration point to a stressed force? What steps are the 
services taking to counter-balance these trends?
    Answer. Stress on the Force. There is no question that continued 
OPTEMPO puts stress on the force, not just for deploying Marines, but 
for those who remain behind and face increased workloads. There were 
year on year increases for 2008 in suicide incidents and divorces.
    Marine Corps commanders are fully engaged in promoting the 
psychological health of our Marines, Sailors, and family members. To 
enable leaders, individuals, and families to prepare for and manage the 
stress of operational deployment cycles, the Combat and Operational 
Stress Control (COSC) Program provides a set of policies, training, and 
tools to prepare for the upcoming deployment, recognize stress 
reactions early and manage them more effectively within operational 
units. Marine leaders are assisted by mental health professionals, 
chaplains, and COSC regional training coordinators in the operating 
forces, to detect stress problems in warfighters as early as possible, 
and are provided the resources to effectively manage these stress 
problems in theater or at home base. Resources are also provided for 
the family members left behind to provide support, communications, and 
information flow.
    This training is being incorporated in formal Professional Military 
Education schools for both officer and enlisted Marines, such as the 
Expeditionary Warfare School and the Staff Non-commissioned Officer 
Advanced Course. We have staffed full-time COSC training coordinators 
at each of our Marine Expeditionary Force headquarters.
    To assist with prevention, rapid identification, and effective 
treatment of combat operational stress, we are expanding the 
Operational Stress Control and Readiness (OSCAR) Program--our program 
of embedding mental health professionals in operational units--to 
directly support all active and reserve ground combat elements. This 
year, we begin placing mental health professionals organic to the 
active Divisions and Marine Forces Reserve. By FY11, full OSCAR teams 
will be fielded to the Infantry Regiment level. OSCAR will eventually 
be expanded to all deployed elements of the Marine Air-Ground Task 
Force.
    Our Marine Operational Stress Training (MOST) program was developed 
with Tri-Marine Expeditionary Force (TRI MEF) Commanders based on the 
USMC COSC stress continuum model, now adopted by OSD. Our program 
supports the full deployment cycle by focusing on Leaders, Marines and 
families from pre-deployment through post-deployment, providing 
information on what's to come, what to look for, and what to do when 
stress reactions appear. COSC concepts have also been incorporated in 
family readiness training.
    Stress on the Families: To mitigate the stress on military families 
and children facing the multiple challenges of having a loved one at 
war, we are partnering with the US Navy Bureau of Medicine and Surgery 
(BUMED) and UCLA's Center for Community Health and the National Center 
for Child Traumatic Stress to sponsor a program called Project FOCUS, 
``Families OverComing Under Stress'', at our major deploying bases. The 
family-oriented program is designed to work with Marines, spouses and 
children to improve family communications post deployment by through 
specialized resiliency training.
    FOCUS is founded on leading evidenced-based family intervention 
models for at-risk families which have demonstrated positive emotional, 
behavioral and adaptive outcomes for families over time. Working with 
the existing teams of dedicated military family services personnel, 
FOCUS staff will assist families to better understand how combat 
operational stress affects them and their service family member, how to 
manage it, and how to strengthen themselves and their children in 
readiness for tomorrow. This program is currently being provided at 
Camp Pendleton, Twentynine Palms, Camp Lejeune, MCB Hawaii, and MCB 
Okinawa. Next year it will be expanded to include MCB Quantico, the 
Wounded Warrior Regiment and Battalions, and Marine Corps Reserve units 
in the Los Angeles Basin.
    Suicides and Suicide Prevention Programs. Suicide prevention is a 
high priority. The loss of any Marine through suicide is a tragedy for 
the Marine's family and unit, and can never be accepted. With 42 
suicides recorded in 2008, the Marine Corps experienced its highest 
suicide rate since the start of Operation Enduring Freedom and 
Operation Iraqi Freedom. The number of confirmed Marine suicides has 
increased from 25 in 2006 to 33 in CY2007 to 42 in CY2008. Our suicide 
rate in 2008 of 19.5 suicides per 100,000 approaches the national 
civilian suicide rate for a demographic similar to the Marine Corps. 
Through April, there were 12 suspected or confirmed suicides in CY09.
    We are actively engaged in prevention and early identification of 
problems that may increase the risk of suicide. Marine Corps leadership 
is taking proactive action, focusing on the important role of leaders 
of all ranks in addressing this issue. Understanding that there is no 
single suicide prevention solution, we are committed to having an 
effect on the individual Marine through leadership and command 
involvement at all levels and we recognize that we must reduce the 
stigma sometimes associated with seeking help.
    Suicides are monitored monthly and annually for deployment related 
trends such as the number of deployments and dwell time. Although it is 
not unreasonable to assume that one or more deployments may cause an 
increase in suicides, to date we have been unable to establish a direct 
relationship between the two. The Marine Corps Combat Development 
Command Studies and Analysis Division is conducting further analysis of 
the data on dwell time and deployments. Additionally, we will 
participate in the Army longitudinal study being conducted by the 
National Institute for Mental Health.
    Regardless of duty station, deployment, or duty status, the primary 
stressors associated with Marine suicides are: problems in romantic 
relationships, physical health, work-related issues such as poor 
performance and job dissatisfaction, and pending legal or 
administrative action. This is consistent with other Services and 
civilian findings. Multiple stressors are almost always present in a 
suicide.
    The Commandant and Marine Corps leadership are taking proactive 
action to address this issue. I selected a senior enlisted Marine 
leader to add unique insight to our efforts in suicide prevention, and 
the Assistant Commandant (ACMC), through the Executive Safety Board, is 
directing a series of initiatives which are currently in accelerated 
development:
    <bullet> Training: An ACMC-directed all hands training on suicide 
prevention was conducted during the month of March. Since 90% of 
suicides have tended to occur in the ranks of El-E5 Marines, a half-
day, high impact, relevant workshop has been designed to reach the NCO/
FMF Sailor community and facilitate their work with junior enlisted 
Marines. This training is expected to be ready by this summer.
    <bullet> Leadership Suicide Prevention Video Messages: All 06 and 
higher commanding officers were directed to produce videos focusing on 
leadership and suicide prevention to set the tone for stigma reduction 
and an imperative of prevention.
    <bullet> Integration of Suicide Prevention and the Marine Corps 
Martial Arts Program (MCMAP): A prevention message was incorporated in 
the MCMAP program in a manner appropriate and engaging to reach all 
Marines.
    <bullet> Relationship Distress Hotline: Relationship problems, both 
romantic and marital, remain the number one associated stressor related 
to suicidal behavior. Suicide is complex and while this is not the only 
problem, it is the most common. A hotline by phone, email and live 
internet chat that is marketed specifically to assist with relationship 
distress and questions may reduce risk of suicide related behaviors 
that result from this type of stress. In the interim, we have partnered 
with Military OneSource to strategically market their relationship 
building resources to Marines and family members.
    The Marine Corps will continue to aggressively pursue suicide 
prevention initiatives; reevaluate existing programs designed to reduce 
the stressors most correlated with suicidal behavior; develop and 
distribute new prevention programs; and refresh and expand training 
materials.
    Reintegration Programs. The Yellow Ribbon Reintegration Program is 
a national combat veteran reintegration program that assists National 
Guard and Reserve members and their families throughout the entire 
deployment cycle: Pre-Deployment; Deployment; Demobilization; and Post-
Deployment. The program provides servicemembers and their families with 
information, services, referral, and proactive outreach opportunities 
which help them prepare for mobilization, sustain them during 
mobilization, and reintegrate servicemembers with their families, 
communities, and employers upon post-deployment. To provide 
servicemembers and their families with a wide range of options as close 
to home as possible and to leverage scarce community and state 
resources, Defense Department officials are working to unify efforts 
among the services, the reserve components, other federal agencies and 
nongovernmental organizations.
    The Department Of Veterans Affairs also provides services to 
returning Veterans (including those who are active duty), surviving 
spouses and dependents, disabled, minority, and women Veterans. The VA 
offers health care, mental health care, information about benefits and 
eligibility, job and business opportunities, and information about 
education, home loans, and more. The VA offers free care for combat-
related conditions for 2 years after returning from deployment. Mental 
health services, including care for PTSD and substance use treatment, 
are available and include individual and group treatment options. 
Outpatient and residential programs are available, depending on 
location. Treatment providers include psychologists, psychiatrists, 
social workers, and addictions counselors.

                              RCI Housing

    Question. How can use of privatized housing improve the overall 
quality of life and better family housing in the military?
    Answer. Use of privatized military Family housing has improved the 
quality of life for Soldiers and their Families by providing world-
class housing communities and amenities faster and at a higher standard 
than traditional methods. Since the start of Army housing 
privatization, we have built over 19,000 homes, renovated another 
14,000 homes, and built community centers, playgrounds, walking trails, 
and other amenities. Further, privatization is designed to ensure 
sustainment of the condition of the housing at those higher standards 
over the 50-year terms of the Army's privatization projects.
    Question. How can use of privatized housing improve the overall 
quality of life and better family housing in the military?
    Answer. In 2001 the Marine Corps had close to 17,700 inadequate 
housing units, with the majority of those units requiring significant 
revitalization or replacement. Based on Public Private Venture (PPV) 
contracts now in place, the Marine Corps will have successfully met the 
Department of Defense goal to have contracts in place by 2007 to 
eliminate inadequate housing and will complete the build-out by 2014.
    With ninety-six percent of our world-wide inventories privatized to 
date, we continue to see success from our PPV projects across Marine 
Corps installations. PPVs have not only improved the homes in which our 
families live by being built to modern standards, they are also 
providing community support facilities such as community centers, 
playgrounds and green spaces that help create neighborhoods and a sense 
of community.
    Congressional support of the PPV program allows us to continue to 
address the deficit requirement for additional family housing resulting 
from Grow the Force increases by providing seed money for new 
construction projects. The PPV program allows the Marine Corps to 
leverage private sector funds and buy more investment in family 
housing. The private sector contributes development capital for PPV 
projects in addition to the government funding. The ratio achieved to 
date is over 5 to 1. In turn, as homes are privatized, the requirement 
for government Operations and maintenance is lessened.
    With nearly our entire domestic inventory privatized, we will 
continue to build on our prior successes and use PPVs to help us 
address most of our remaining housing deficit requirement.
    Overseas we are engaged with the Government of Japan in developing 
a Special Purpose Entity (SPE) for Family Housing on Guam. Similar in 
concept to our domestic PPVs, this SPE will supply the housing for 
Marines and their families relocating to Guam from Okinawa, Japan.
    Question. How can use of privatized housing improve the overall 
quality of life and better family housing in the military?
    Answer. Privatized housing has brought about a dramatic improvement 
in housing conditions for service members and their families and has 
increased their quality of life, readiness, morale, and retention. 
Through privatization, the Navy is able to leverage a tremendous amount 
of capital (about 18:1) for a relatively small investment to reduce 
housing deficits, upgrade homes, and perform maintenance faster than 
traditionally using military Family Housing appropriations. Privatized 
housing is designed to market-based standards, which requires 
developers to include community centers and events, swimming pools, and 
family-oriented amenities to foster a sense of community and attract 
residents.
    Question. How can use of privatized housing improve the overall 
quality of life and better family housing in the military?
    Answer. Privatized housing is providing more new homes faster than 
ever before. Project Owners are bringing the best of private sector 
housing and community standards onto our bases. New homes with energy 
efficient appliances, programmable thermostats, two-car garages, 
spacious kitchens, and carpeting are creating on-base neighborhoods 
where Air Force families choose to live. Not only are we getting over 
200 new homes a month, but we now have a funding mechanism in place to 
maintain, renovate, and replace these homes over the 50-year life of 
the project. Today our Air Force members and their families are 
choosing privatized housing, not because they have to, but because they 
want to.

                    Housing for Redeploying Soldiers

    Question. President Obama has indicated that he wants to withdraw 
from Iraq in the next 16 months. Some senior commanders have expressed 
concerns regarding an overly aggressive withdrawal from Iraq. What are 
your views and what impact would that withdrawal and redeployment have 
on your ability to house returning service members? Would the reduced 
timeline significantly impact your ability to absorb the increase in 
troops onto your bases? Would there be any housing or infrastructure 
issues absorbing these service members?
    Answer. The acceleration of the drawdown plan for Operation Iraqi 
Freedom is expected to place stress on the Army's current facility 
support plan. The return of forces, coupled with unit modularization, 
requires the Army to address and improve unit operations and 
maintenance facilities, as well as barracks, Family housing, and 
quality of life requirements to support the All-Volunteer Force. Upon 
release of a drawdown plan, the Army will complete its barracks 
facility support analysis to gain greater fidelity on the impact on our 
installations and their ability to adequately house Soldiers and their 
Families.
    Question. President Obama has indicated that he wants to withdraw 
from Iraq in the next 16 months. Some senior commanders have expressed 
concerns regarding an overly aggressive withdrawal from Iraq. What are 
your views and what impact would that withdrawal and redeployment have 
on your ability to house returning servicemen? Would the reduced 
timeline significantly impact your ability to absorb the increase in 
troops onto your bases? Would there be any housing or infrastructure 
issues absorbing these servicemen?
    Answer. The Marine Corps is conducting detailed planning to develop 
potential force sourcing solutions which incorporate the potential 
drawdown of Marines from Iraq, as well as the potential increase of 
Marines deploying to Afghanistan. Were every Marine to return 
immediately, we would meet the increased bachelor housing demand with a 
combination of relaxed occupancy standards, interim relocatable 
billeting structures, and a greater reliance on the local economy 
through approval of Basic Allowance for Housing for noncommissioned 
officers and junior enlisted Marines.
    The reduced timeline should not significantly impact our ability to 
absorb the increase in troops to our bases. The Marine Corps had 
funding in place by FY 2005 to eliminate permanent party gang head 
barracks.
    Our robust FY 2009 Military Construction program will provide over 
12,000 new spaces on our installations. Many of these projects will be 
completed in 2010 and 2011. This new construction will mitigate many of 
the expected bachelor housing issues. However, temporary use of some 
gang head barracks has been and will be required while renovations take 
place in permanent facilities. We are using temporary facilities to 
support our immediate growth requirements with funding provided by 
Congress in the 2007 GWOT Supplemental as well as other measures (such 
as slowing down demolition of older facilities). Current deployment 
cycles are helping to alleviate ``space crunches'' at the 
installations.
    Question. President Obama has indicated that he wants to withdraw 
from Iraq in the next 16 months. Some senior commanders have expressed 
concerns regarding an overly aggressive withdrawal from Iraq. What are 
your views and what impact would that withdrawal and redeployment have 
on your ability to house returning servicemen? Would the reduced 
timeline significantly impact your ability to absorb the increase in 
troops onto your bases? Would there be any housing or infrastructure 
issues absorbing these servicemen?
    Answer. The Navy would not have any difficulty absorbing returning 
Sailors into housing. Sailors returning from deployments in Iraq are 
accommodated much like those returning from a ship's deployment.
    Question. President Obama has indicated that he wants to withdraw 
from Iraq in the next 16 months. Some senior commanders have expressed 
concerns regarding an overly aggressive withdrawal from Iraq. What are 
your views and what impact would that withdrawal and redeployment have 
on your ability to house returning servicemen? Would the reduced 
timeline significantly impact your ability to absorb the increase in 
troops onto your bases? Would there be any housing or infrastructure 
issues absorbing these servicemen?
    Answer. There will be no impact to Air Force housing or 
infrastructure. Air Force members deployed to Iraq are on ``temporary 
duty'' from their permanent duty station. Housing requirements at each 
Air Force installation are determined based on the full complement of 
Service members permanently assigned to an installation--this includes 
consideration of the suitable housing available in local communities. 
Military families continue to reside in family housing at the permanent 
duty station. For unaccompanied Airmen deployed to Iraq, dormitory 
rooms are kept available at their permanent duty station.
    Question. President Obama also stated that he would like to see a 
``surge'' in Afghanistan. Given recent lessons learned in Iraq and 
Afghanistan, is it your view that the U.S. can effectively win the 
fight in Afghanistan alone or will we need a like or similar commitment 
from our major allies--Germany, France and Great Britain--who are 
currently reducing the number of their troops? Will this create any 
further strain on our soldiers and what are the military plans to 
address this?
    Army:
    Answer. I defer judgment on these important questions to President 
Obama and Secretary Gates, who continue to work on how best to address 
the challenges you raise.
    Question. President Obama also stated that he would like to see a 
``surge'' in Afghanistan. Given recent lessons learned in Iraq and 
Afghanistan, is it your view that the U.S. can effectively win the 
fight in Afghanistan alone or will we need a like or similar commitment 
from our major allies--Germany, France and Great Britain--who are 
currently reducing the number of their troops? Will this create any 
further strain on our soldiers and what are the military plans to 
address this?
    Marine Corps:
    Answer. The Marine Corps defers judgment on these important 
questions to President Obama and Secretary Gates, who continue to work 
on how best to address the challenges raised by Congress.
    Question. President Obama also stated that he would like to see a 
``surge'' in Afghanistan. Given recent lessons learned in Iraq and 
Afghanistan, is it your view that the U.S. can effectively win the 
fight in Afghanistan alone or will we need a like or similar commitment 
from our major allies--Germany, France and Great Britain--who are 
currently reducing the number of their troops? Will this create any 
further strain on our soldiers and what are the military plans to 
address this?
    Navy:
    Answer. Respectfully defer judgment on these important questions to 
the President and Secretary of Defense, who continue to work on how 
best to address these specific challenges.
    Question. President Obama also stated that he would like to see a 
``surge'' in Afghanistan. Given recent lessons learned in Iraq and 
Afghanistan, is it your view that the U.S. can effectively win the 
fight in Afghanistan alone or will we need a like or similar commitment 
from our major allies--Germany, France and Great Britain--who are 
currently reducing the number of their troops? Will this create any 
further strain on our soldiers and what are the military plans to 
address this?
    Air Force:
    Answer: I defer judgment on these important questions to President 
Obama and Secretary Gates, who continue to work on how best to address 
the challenges you raise.

                  Single Soldier Housing Entitlements

    Question. Is the Army transferring the cost of not having 
sufficient barracks space to soldiers by giving them a certificate of 
non-availability to move off post but not providing them with a 
dislocation allowance? Why are soldiers forced to break their lease, 
pack up their home goods and shut off their utilities upon deployment?
    Answer. The Army is not transferring the cost of having 
insufficient barracks space to Soldiers by giving them certificates of 
non-availability to move off-post. The Army programs housing for single 
Soldiers in the ranks of Private through Sergeant in the United States 
and Private through Staff Sergeant overseas. For those ranks, a 
certificate of non-availability is provided to Soldiers to authorize 
payment of Basic Allowance for Housing at the ``without dependents'' 
rate when barracks space is not available. If a Soldier is authorized 
to reside in barracks, and that Soldier is denied accommodation due to 
lack of adequate space in the barracks, that Soldier is paid a 
dislocation allowance. The Army is not aware of any such instance where 
a Soldier has been denied a validated dislocation allowance.
    Garrison commanders develop local housing policies based on 
individual garrison needs that may require Soldiers living off-post to 
break a lease when being deployed. If a Soldier is required by the 
commander to break his or her lease prior to deployment, the Soldier 
returns to the barracks, and household goods are stored at government 
expense.
                                          Thursday, March 12, 2009.

                        REVIEW OF VA CHALLENGES

                               WITNESSES

JOHN D. DAIGH, JR., MD, CPA, ASSISTANT INSPECTOR GENERAL FOR HEALTH 
    CARE INSPECTIONS
RANDALL B. WILLIAMSON, DIRECTOR, HEALTH CARE, GAO
VALERIE C. MELVIN, DIRECTOR, INFORMATION MANAGEMENT AND HUMAN CAPITAL 
    ISSUES, GAO
BELINDA J. FINN, ASSISTANT INSPECTOR GENERAL FOR AUDITING
MAUREEN T. REGAN, COUNSELOR TO THE INSPECTOR GENERAL

                       Statement of the Chairman

    Mr. Edwards [presiding]. Good morning. I would like to 
begin the hearing and welcome our witnesses and everyone here 
in the room.
    When I had the privilege of becoming chairman of this 
subcommittee 2 years ago, I said I would have three goals in 
regard to veterans: one, that we would increase funding so that 
we provide the resources needed to provide the care and 
services that our veterans have earned by their service to the 
country; secondly, that we exercise more oversight of the V.A. 
and how those dollars are being spent; and, thirdly, that we 
work together with the V.A. and VSOs and others to find 
innovative new approaches to providing better care and get a 
bigger bang for the buck for our taxpayers.
    Today's hearing is going to focus on the second of those 
three goals, our responsibility as a subcommittee to exercise 
oversight of the V.A. I am proud of the fact that, by working 
together on a bipartisan basis, we have increased V.A. funding 
in the last 14 months by $17.7 billion, an unprecedented 
increase.
    But with that unprecedented increase comes responsibility 
to taxpayers and our veterans to see that those dollars are 
being spent wisely. So the specific purpose of this morning's 
hearing is--with the help of our witnesses--to evaluate some of 
the challenges being faced by the V.A.
    We all know we could have an entire week of hearings on all 
the good things going on in the V.A., but today we are going to 
make improvements. We have got to focus honestly and directly 
on challenges. And so that is what we are here to try to 
accomplish.
    I want to welcome both the Office of Inspector General for 
the Department of Veterans Affairs and the United States 
Government Accountability Office here to be part of this panel.
    The hearing this morning will be conducted in two panels. 
The first will focus on V.A. health care, and the second will 
review information technology and other challenges of the V.A.
    Let me just say very briefly that, in recent years, 
Congress has provided unprecedented increases, as I mentioned, 
to the Department of the V.A., $17.7 billion since the 
beginning of the 110th Congress.
    The Office of Inspector General and the GAO play a vital 
role in ensuring that these appropriated funds for the 
department are spent efficiently and for the highest 
priorities. Congress relies on both of these highly 
professional, nonpartisan offices to alert us to the problems 
with department operations and to recommend actions that can be 
taken to resolve these problems.
    I will be introducing our two witnesses in just a moment. 
But, again, welcome to our subcommittee.
    And with that, I would like to recognize our ranking 
member, Mr. Wamp, for any opening comments he would care to 
make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Mr. Chairman, the goals you stated are laudable. 
I think we are on the path to achieving those goals, and we 
have a great bipartisan team that is an absolute privilege and 
honor.
    I just want to say briefly before we hear the testimony and 
ask a lot of questions that need to be asked as we begin this 
budget cycle year and the appropriations that follow, the I.G. 
and the GAO are very helpful. And those statutes that created 
inspector generals and the fact that the GAO is a watchdog, 
birddog, the eyes and ears for the Congress, and it is very 
helpful.
    I appreciate the people that you represent when you come 
today that are doing the research and turning the rocks over to 
find out what is under them so that we can actually do our job 
more effectively, because this is the one piece of the 
congressional responsibility that neither party has a lot to 
brag about. The oversight of the Congress, in my opinion, in 
the modern era is not adequate.
    It is more complicated than it has ever been, so it is 
harder to oversee, but at the same time I think we are too 
inclined as a body to go do things and then just let it happen, 
as opposed to going back and deciding, are we still on the 
right road? Or do we even have any business doing this?
    We know we have business doing what you are here today to 
talk about. But the question is, is it done as efficiently as 
it possibly can be? And that is where you can really help us, 
because there are a lot of ways that we can tweak, improve, and 
rewrite language in our bill, which has to go forward.
    That is the difference between this committee and a lot of 
other committees. You might give testimony before the Veterans 
Affairs Committee and the legislation you are talking about 
never becomes law. Our bill will become law every year.
    Therefore, we really appreciate what you are bringing to 
it. I just want to re-state the value that it can bring to 
these professionals that will actually put our bill together 
soon, even though we don't have much idea of what the 
President's budget request says yet. That prescription is not 
there, but we have to go ahead and get started. I think I speak 
for both of us there.
    And with that, I look forward to the testimony and I yield 
back.
    Mr. Edwards. I just want to thank you very much for your 
very important, insightful, and appropriate comments.
    Let me first introduce Dr. John Daigh. Dr. Daigh was 
appointed assistant inspector general for health care, health 
care inspections in January of 2004 for the Department of 
Veterans Affairs. Colonel Daigh retired in 2001 after 27 years 
of active-duty service in the United States Army.
    And, Colonel, I thank you for that service, as well.
    Dr. Daigh earned his medical degree from the University of 
Texas Southwestern Medical School and wouldn't want to suggest 
that is why he is here today, but it is good to have a fellow 
Texan here today. And he actually graduated prior to that from 
the United States Military Academy, class of 1974.
    Let me also add an extra note. I am proud that this 
subcommittee, against the wishes of most administrations, 
Democrat and Republican alike, are not always the first to 
volunteer a request for additional spending for inspector 
generals.
    We felt that this was awfully important, given the 
unprecedented new money that we have put into the V.A., that 
the V.A. inspector general's office be adequately funded. So we 
actually plussed that up on a bipartisan basis. And I think 
that will help us in our oversight efforts.
    Mr. Randy Williamson is currently director in GAO's health 
care team and is a staff member of GAO's Seattle field office. 
He has been with GAO for over 40 years. He has managed audits 
covering a wide range of federal activities, most recently 
health care, transportation, and homeland security issues.
    He currently manages GAO's portfolio of work on health care 
issues for veterans and members of the Armed Services, two very 
important responsibilities, Mr. Williamson, and we thank you 
for that. He attended the University of Washington, where he 
received a bachelor's degree in accounting.
    To both of you, we will put your entire written testimony 
in the record, but we would like to ask you to take 5 minutes 
each to make your opening comments. I know there will be a lot 
of dialogue and questions and answers and discussion after your 
statement.
    Dr. Daigh.

                        Statement of John Daigh

    Dr. Daigh. Yes, sir.
    Mr. Chairman, members of the subcommittee, I would like to 
thank you for the opportunity to discuss with you the critical 
challenges facing the department. We appreciate your support of 
our efforts in the inspector general's office.
    First, I would like to state that I believe that V.A. 
provides high-quality health care to veterans. I do, however, 
believe, as I stated before the House Veterans Affairs 
Committee during the Marion, Illinois, hearings, that the 
internal controls do need to be improved to assure that there 
is a uniform high-quality benefit. Secondly, although our 
published work in this particular area of computerized medical 
records is limited, I am concerned that the rate of innovation 
of the V.A.'s computer medical records has not kept pace.
    And if that rate of innovation doesn't improve, I think it 
will be progressively more difficult for V.A. to address the 
challenges of the future.
    Thirdly, I believe that it is beneficial to review the 
current management structure of VHA, which emphasizes that all 
health care is local. This has resulted in the creation of 
business rules that vary too widely across the V.A. system.
    I would offer as an example of that policy, there are many 
copies of the medical record. It is not one set of code; it is 
50 or 80 different sets of code. So to change the medical 
record or to innovate is really quite a difficult issue.
    The VISNs are all organized quite differently. Hospitals 
are organized quite differently so that, to make a change or to 
manage this enterprise there is a burden that is unnecessary.
    Lastly, I would urge support for a project that is known as 
the DOD/V.A. Reporting and Analysis Data Mart. This data mart 
works to combine data from both DOD and V.A. It is an outgrowth 
of the efforts on transition to care, which would create a 
universe of veteran data that when fully implemented, I think, 
would make it easier to derive innovative performance metrics, 
improve budgeting and forecast modeling, and analysis of V.A. 
and DOD business processes.
    And with that, I am pleased to be here today and glad to 
answer your questions.
    Mr. Edwards. Thank you, Dr. Daigh.
    Mr. Williamson.

                   Statement of Randall B. Williamson

    Mr. Williamson. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss V.A. 
health-related budget issues as you consider V.A.'s 2010 budget 
request.
    The V.A. faces major budget challenges as it prepares to 
meet the needs of both an aging veteran population, as well as 
a growing number of veterans who have served their country in 
Afghanistan and Iraq.
    V.A. faces a major budget challenge in its budget 
formulation process to accurately estimate the cost of 
providing quality services to our nation's veterans. This will 
not be easy. By its very nature, budget formulation is 
challenging because it is based in part on imperfect data and 
assumptions, which is further complicated in the changing 
environment the V.A. faces.
    Budget execution will also be challenging. If the 
president's proposed budget increases are enacted, V.A. faces a 
prospect of hiring thousands of new health care providers and 
support staff, serving new veteran populations, and expanding 
current services and developing new programs to better serve 
our veterans.
    As V.A. moves forward to address these challenges this year 
and beyond, it must do so thoughtfully and with diligence. Our 
work over the past 3 years has shown weaknesses in V.A.'s 
budget formulation and execution processes, and I would briefly 
like to discuss a few of these areas. Many of these issues 
involve V.A.'s long-term care budget.
    Regarding budget formulation, we reported in 2006 that V.A. 
made unrealistic assumptions about the impact of some of its 
policies, made inaccurate calculations, and did not obtain 
sufficient data for useful budget projections.
    These factors were largely responsible for V.A. having to 
request supplemental funding totaling $975 million in fiscal 
year 2005 and amending its fiscal year 2006 budget to increase 
its request by almost $2 billion.
    Early this year, we again reported on budget formulation 
issues for the long-term care portion of V.A.'s budget. 
Specifically, in its 2009 budget request, V.A. may have made 
unrealistic assumptions about the cost of both its nursing home 
and non-institutional long-term care.
    For example, V.A. projected that the cost of a day of non-
institutional long-term care would not increase at all, when 
available data showed that it was increasing at a rate of 19 
percent. Assumptions like these call into question the 
credibility of V.A.'s budget information.
    Budget execution has been a problem in certain respects, as 
well, and this area poses a major challenge for V.A., as it 
faces a potential budget increase of about 10 percent in fiscal 
year 2010.
    For example, our work in 2006 on spending for V.A.'s mental 
health initiatives shows that V.A. allocated $300 million in 
fiscal years 2005 and 2006 for new mental health initiatives, 
but the agency was not able to spend all of this in those years 
due to delays in both hiring staff and locating space.
    Similarly, in our recent report on long-term care, we found 
that V.A. assumed in its 2009 budget request that it would 
increase its non-institutional long-term care by 38 percent 
over the previous year, which means that V.A. would have to 
hire and train significant numbers of staff in a one-year 
period. V.A. did not explain how it planned to achieve this 
increase.
    Tracking the use of funds for new initiatives has also been 
an issue. We reported in 2006 that the V.A. did not have 
adequate methods for tracking spending on its mental health 
initiatives and could not determine whether monies allocated 
were actually spent on those initiatives.
    This ability to track funds, especially for new initiatives 
and priorities, is critical for effective and cost-efficient 
budget execution and congressional oversight.
    Mr. Chairman, as I close, I would like to re-emphasize 
again the importance for V.A. to adopt a thoughtful, well-
planned approach to budget formulation and execution. To its 
credit, V.A. has implemented a number of our recommendations to 
address past budget issues, but continued vigilance is 
necessary.
    Anticipating and sufficiently planning for changes and 
proactively addressing workload and spending challenges are 
critical, including the need for forward-looking and careful 
strategic planning.
    Equally important is the need to keep the Congress well 
informed, including developing and reporting data that will 
help the Congress oversee and hold V.A. accountable for the 
funds entrusted to it to best serve our nation's veterans.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any questions.
    Mr. Edwards. Thank you.
    As we begin questions, members, let me say, out of respect 
to everyone's schedules, since we have two panels this 
morning--and actually two hearings, with a second hearing this 
afternoon--I am going to go on and gavel us all to close when 
we hit 5 minutes. And I will begin that process, asking staff 
to do that with me. And that way we can get through more rounds 
of questions.
    So if you are in the middle of an answer when I gavel, if 
you could finish that sentence. You can make it a long 
sentence----
    [Laughter.]
    Mr. Edwards. But--we would appreciate that.
    Mr. Williamson, let me begin by asking you, dealing with 
the issues, the problems that you mentioned, has GAO come out 
with specific recommendations about how to address those?
    Mr. Williamson. Yes, we have come up with a number of 
recommendations as far as long-term care programs, both in 
terms of strategic planning, as well as budget execution and 
formulation.
    One of the things that we found in looking in the strategic 
plan was that V.A. was not being totally transparent in looking 
at the total workload that it would serve by not fully 
communicating this information in its plan.
    Instead V.A. reported only workload for priority one vets 
that were going to receive nursing home care, but did not 
report the lion's portion of the workload in long-term care 
which is discretionary. We think it is important that the 
entire workload be reported. We made a recommendation to do 
that.
    On the budget formulation side, the important thing there 
is to come up with good cost assumptions. The cost assumptions 
for both nursing home care and non-institutional care were far 
below the current experience of the V.A. So we made 
recommendations that V.A. use better estimates in that regard.
    Mr. Edwards. Okay. Very good. Thank you.
    And we welcome additional--information. I am sure staff has 
copies of some of your reports. We could take a look at those--
--
    Mr. Williamson. Okay.
    Mr. Edwards. Dr. Daigh, you talked about the management 
approach of the V.A., that all health care is local. I would 
like to apply that to mental health care. I understand each 
hospital has a certain culture and individuals, and you respect 
that, but nevertheless--and mental health care is an example--I 
am worried about, do we have the best practices, particularly 
since the mental health problem is going to be the signature 
challenge of the Iraq and Afghanistan wars, we deal with 
veterans health care needs?
    Are we making any progress in terms of trying to find best 
practices and then apply those throughout the V.A. health care 
system, and particularly on mental health treatment for our 
vets?
    Dr. Daigh. Let me address that in a couple of thoughts 
here. First I think it is extremely difficult to treat PTSD, 
which would be the most common condition servicemen have. There 
is, in fact, a set of treatments that have been viewed as best 
practice in that data does support that they do work.
    We are saddened that these treatments have not been rolled 
out more aggressively and that the wars have gone on for a 
number of years and the treatment or the training of providers 
to provide that set of practices has not been rolled out as 
aggressively as we would like.
    Having said that, I think people who are psychologists and 
psychiatrists and social workers and properly trained in mental 
health can deal with these issues effectively. I think adding 
that extra arrow into their quiver helps their ability to treat 
these patients.
    The new plan that V.A. has to roll out a mental health 
services standard set of programs across the system, I think, 
is a good effort. I think it sets a very high mark, in terms of 
having every hospital--being able to provide a standard package 
of care.
    I am concerned that it is aggressive. In my view, V.A. is 
comprised of a series of hospitals that are low-volume 
providers. It is difficult for a low-volume provider to 
economically provide a complex set of treatment packages where 
you have individuals dedicated to only one program out of many. 
In our reviews of the millennium health care programs, we found 
that larger places in big cities could easily tap into 
resources and--smaller places had a more difficult time.
    So I think there does need to be the flexibility to allow 
local providers to pick which of these plans they think would 
be better suited to their population. And I think the plan does 
address that in its formulation.
    The other question with PTSD that we have looked at is, are 
veterans being treated well for PTSD? And I will say that we 
think they are being treated well. We have looked at this at 
Temple. We have looked at this in a variety of hospitals across 
the system.
    And although we find problems occasionally with the 
delivery of the care, I think that V.A. is trying to make the 
right diagnosis on the clinical side and in VBA a different 
stovepipe effort has to deal with the benefit side.
    Mr. Edwards. Okay. Thank you. Thank you very much.
    Mr. Wamp.

                     POST TRAUMATIC STRESS DISORDER

    Mr. Wamp. Well, Mr. Chairman, I have never seen a chairman 
gavel down like that. [Laughter.]
    Just keep on this line of thought about PTSD, because you 
talked about how hard it is to treat. How hard is it to 
actually bring mental health professionals in that have any 
experience in the battlefield or with multiple deployments, all 
of the things that we know contribute mightily to these mental 
health problems?
    It is one thing to know how to treat it, but I would think 
that it would be real important to also know what the veterans 
in some way, shape or form have been through.
    I have been worried about the rapid increase in funding 
because it doesn't always translate into efficiency, especially 
when you spend money really fast like in a stimulus bill. You 
come back 12 months later, 18 months later and say, ``Man, this 
is ugly. You know, we are not efficiently spending the money.''
    In this case with this ramp-up, I noticed in 2008 $319 
million directed at PTSD. You talk about the numbers in 
previous years but that is a lot of money. Do you think it is 
efficiently being spent? Do you think that these mental health 
care professionals are adequately meeting the needs of the 
veterans, and do they have the experience in the war, in 
serving? Where do they come from?
    How do you, over the next 3 to 5 years, keep ramping up? 
How would they, how should they ramp up their capabilities to 
meet these needs? The suicide rate is, like I said, the canary 
in the mine here. We know that that is the stress point, so 
mental health is a big topic of discussion as we go through 
these hearings.
    How do we try to help the V.A. ramp up this piece?
    Yes, sir, Mr. Daigh.
    Dr. Daigh. Well, sir, I would make the point that, although 
I agree that military PTSD, both whether it is sexual trauma or 
related to combat exposure, is by and large a military event, 
it is not totally a military event.
    For instance, police officers and firemen also, through the 
course of their life, see horrible things repeatedly. So the 
civilian trained and functioning psychologists and 
psychiatrists and social workers do have experience with the 
phenomena of PTSD that is not the same, but it is close.
    So I think one can then, where resources are constrained 
and where the population is relatively small, try to leverage 
people who are not fully employed by the V.A. to try to improve 
access.
    We have recently completed a report on access to mental 
health care in a state, which we plan to publish in the next 
week or 2. They leveraged community mental health care centers, 
I think, to great advantage. And I think it is possible to ramp 
up access to care, assuming that you have some metric to ensure 
that people see providers who are qualified to provide the care 
and you don't rely totally on the fixed facilities the V.A. 
seems to have.
    So I think there are some ways one could improve access 
that would be helpful.
    As to the efficiency and dollar values you talk about, I am 
not able to address that issue, sir.

                     VA MEDICAL PROCEDURE PROBLEMS

    Mr. Wamp. I don't know if I can get to this whole question 
in this 5 minutes, but I will come back, but in Tennessee, we 
have had a problem that has come out, beginning February the 
13th, about certain people in Murfreesboro's being exposed to 
body fluids of other people during colonoscopies.
    And 6,400 people were kind of put on notice that they may 
have been affected. And now this week, Johnson City, another 
health facility, notified some people that it might have bled 
over into their facility, as well, where patients are being 
treated at both places.
    Is this a systemic problem? Is it being addressed? Another 
canary in the mind. When it happens in one system, you have got 
to say, ``What do you know?'' And so we can come back after 5 
minutes, but let me know what you know.
    Dr. Daigh. Yes, sir, I think that repeatedly in health care 
there are going to be instances where instruments are defective 
or procedures are defective and patients are exposed to 
environmental contaminants.
    So we recently reported in Las Vegas where, in doing 
colonoscopies that were purchased care, a huge number of people 
were exposed to hepatitis and potentially to AIDS. There have 
been other instances where specific instruments were not--
either the instructions to clean them were not appropriate or 
the cleaning process done at the hospital broke down.
    V.A., through their patient safety program, aggressively 
tries to pre-emptively deal with these issues. When they find a 
problem, they notify veterans and try to get it addressed. In 
the last couple of years, the SPD--that would be the rules that 
pertain to how one cleans instruments and uses the infectious 
disease protocols to ensure that sort of thing doesn't occur--
have been rewritten and strengthened.
    So I think the problem is important. It will not go away.
    Mr. Edwards. Thank you, Dr. Daigh.
    Members, since this is our second hearing, I have 
incorporated some of the suggestions made at our first hearing. 
So let me just quickly reiterate what we are going to do in 
terms of the list of who asks questions.
    Those members that are here when we gavel the meeting into 
order will be recognized based on seniority, rotating between 
Republicans and Democrats. After the meeting has begun, members 
will be recognized based on the order in which they showed up--
again, rotating between Republicans and--and Democrats.
    With that, I would like to recognize Mr. Salazar.

                    COMMUNITY-BASED OUTREACH CLINICS

    Mr. Salazar. Well, thank you, Mr. Chairman. Now I know the 
importance of getting here 15, 20 minutes early. [Laughter.]
    I do appreciate it. But as many of you know, my district is 
one of the largest congressional districts in the country. It 
is all of the western and southern part of Colorado. Much of 
the services provided to veterans is in CBOCs, some that are 
contract-based CBOCs, some that are V.A.-run CBOCs.
    Can you tell me----
    Mr. Dicks. What is a CBOC?
    Mr. Salazar. Community-based outreach clinics. They are 
small clinics that are----
    Mr. Dicks. Thank you.
    Mr. Salazar. Don't have--with very basic services to 
veterans. Do you know or have you done any research as to who 
does a better job? Is it the contract-based CBOCs or V.A.-run 
CBOCs?
    Dr. Daigh. We think that is a very important question. And 
we brought that to the attention of this subcommittee last 
year, and we have been provided money to take a look at some of 
those issues.
    We will begin to review CBOCs like we currently review 
hospitals--and we will specifically have sorted CBOCs into 
those that are contract-run and those that are not contract-
run. There are about 800 CBOCs nationwide.
    We have sampled them. And we will try to come back with an 
answer to--both on the quality side and on the certain aspects 
of the budgetary side of that with an answer to that question.
    So I cannot answer it right now, but we will have reports 
this year that directly address it.
    Mr. Salazar. What percentage are contract-run versus--do 
you know that?
    Dr. Daigh. If you will allow me to--I think about a third 
or less are contract. Most are V.A.-run. I can get you the 
abstract data with numbers on that, if you would like that--get 
that back to you, sir.
    Mr. Salazar. Thank you. Appreciate that.
    [Clerk's note.--The responses are included with the 
questions for the record.]
    I yield back, Mr. Chairman, so somebody else can ask.
    Mr. Edwards. Thank you, Mr. Salazar.
    Mr. Crenshaw.

                            BUDGET ESTIMATES

    Mr. Crenshaw. Thank you, Mr. Chairman.
    Let me ask--you know, Mr. Williamson, when you talked about 
the--the V.A. and the budget process, it sounds like, you hit 
and miss from time to time. It seems to me you have got--to 
have the right kind of budget, you need--first, you have got to 
have the plan. Then you have got to have the correct estimates. 
And then you have got to timely execute it.
    And it sounds like they have been missing on, you know, 
some, if not all of those. What, like, when you sit down and 
talk to them, whether they underestimate it or overestimate, 
what has been the reaction? And do you see improvement from 
year to year? Or do you find that sometimes the same mistakes 
get made? Or are they just--is it just really difficult to do 
that?
    I mean, how does it fit in, when you sit down and say, 
``Here is a better way''? What is their attitude toward that? 
And do you find that the correction is being made?
    Mr. Williamson. The V.A. reacts positively to our 
recommendations. But, it seems to be a little different 
situation every time.
    Some of the answers we get, in terms of why they 
underestimated or why they came up with unrealistic cost 
estimates, for example, the answer we get would be, well, we 
wanted to be conservative. Well, that wasn't a very satisfying 
answer to me, because, you know, in the face of much higher 
estimates or experiences they have had, so there must be, you 
know, some other things going on that they are not telling us.
    I think the big thing in terms of planning is, whenever you 
get a fairly large infusion of money, it is very important that 
you have good goals and priorities ahead of time. And that is 
why strategic planning is so important, in terms of setting the 
priorities of the agency, the goals of the agency, setting 
strategies.
    And we haven't seen--at least in the long-term care 
budget--any thoughtful consideration of that. And I think, in a 
larger sense, as we harken back to our work on the mental 
health report in 2006, the same kind of thing.
    They decided to allocate money, $300 million in those 2 
years, 2005 and 2006, and yet didn't really have a good idea 
and didn't really carry through with distributing that money to 
their VISNs and to their health care facilities.
    When we did that work, a lot of the VISNs were not aware of 
the fact they were supposed to use those allocations for mental 
health. And as V.A. allocates money, it is really important 
that they communicate between headquarters, the VISNs, and 
their medical centers. And sometimes that communication is 
lacking.
    We point those things out, and they are very receptive, and 
they fix them, but other things then occur.
    Mr. Crenshaw. Well, like on the--what you are talking 
about, discretionary care and kind of the long-term care, that 
what they call discretionary seems to me it is really not 
really discretionary. It is part of the long-term care, but it 
is maybe an effort to shorten the stay to save money.
    When you point that out, do they recognize--I mean, that is 
like, fudging the numbers to say, well, this is--we are going 
to have a short-term stay, but the long-term stay is 
discretionary, but it really is not discretionary, because it 
is part of some, acute situation that is going on.
    Mr. Williamson. What I meant by that was that V.A. is only 
required by law to serve priority one vets in their long-term 
care facilities, but most of the vets they serve are not 
priority one. Two-thirds or more are lower priorities.
    So--and they only feel responsible for reporting the 
priority ones. And it is useful information to you as you 
deliberate. You need to know the total--you know, the total 
workload. And so we pointed it out. And they are going to--
well, we don't know what they are going to do yet, because 
while they agreed with our conclusions, they have not yet 
responded to our recommendations on that.

                             IDENTITY THEFT

    Mr. Crenshaw. I want to ask about identity theft, because I 
noticed that was something you are focusing on. And we used to 
see it in the big sense, like the big massive loss of data, 
when that laptop got stolen.
    But how is that working? In terms of individual identity 
theft, how do you find out when that takes place? Is it very 
common? How is the V.A. doing, trying to protect against that?
    Mr. Williamson. --anything about that? The identity theft?
    Dr. Daigh. I am unable to comment on how V.A. is doing. My 
office investigated Birmingham--one of the larger data losses. 
I would just say that I think they provide the ability for you 
to check whether or not your identity has been stolen through 
civilian providers of financial information, but I am unaware 
of it.
    Mr. Crenshaw. Got you. So not a great, big problem right 
now on an individual basis that you have seen?
    Dr. Daigh. I have no information.
    Mr. Crenshaw. I got you. Thank you.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Dicks.

                               VA AUDITS

    Mr. Dicks. Thank you, Mr. Chairman. And we appreciate your 
fairness in applying the rules. I just wanted to say that.
    Let me, first of all----
    [Laughter.]
    Mr. Edwards. I appreciate the gentleman's suggestions.
    Mr. Dicks. Since we have a University of Washington alumnus 
here, I want to--Bremerton--this is too good to be true.
    Let me ask you this. We have--on my subcommittee, we have 
been checking on whether an agency can pass an audit. Can the 
V.A. pass an audit on how they spend the money at the end of 
the year, financially?
    Ms. Finn. And I can tell you that V.A. has received--
    Mr. Edwards. Ms. Finn, for the record and for the 
transcription, could you please identify yourself?
    Mr. Dicks. Maybe you ought to just come up to the--
    Mr. Edwards. And maybe come up and sit here?
    Mr. Dicks. Thank you, Mr. Chairman.
    Ms. Finn. Okay.
    Thanks. I am Belinda Finn. I am the assistant I.G. for 
audits at the V.A.
    The V.A. has successfully passed and received a clean 
opinion on their financial statements for about the last 10 
years.
    Mr. Dicks. Good.
    Ms. Finn. It doesn't mean they don't have problems. They 
have three material weaknesses, one over their I.T. systems and 
their security, their need for better financial systems, and a 
third weakness that I cannot recall at this moment.
    Mr. Dicks. Don't they also have a problem communicating 
with the Department of Defense health care, that that is still 
an issue?
    Ms. Finn. They do, but that is not a financial statement.
    Mr. Dicks. Okay, that is a separate----
    Ms. Finn. Yes, weakness.
    Mr. Dicks. That is a separate problem?
    Ms. Finn. Yes.
    Mr. Dicks. Well, for the record, why don't you give us--and 
you can figure out what the third one was.
    Ms. Finn. I will do that.
    Mr. Dicks. Yes.

                              TELEMEDICINE

    Mr. Dicks. Dr. Daigh, let me ask you this question. I have 
been promoting this idea, and I am having a hard time with the 
Army getting this done. Now, maybe the V.A. could help them.
    When these kids come back--and this is not just for the 
Army and the Marine Corps, but this also could be for the Guard 
Reserve, the National Guard--we have had people come in who 
have this idea of online psychiatric care. In other words, with 
the concern people have about privacy--and even you could maybe 
even do this in country. If they had a problem, there could be 
a network of psychiatrists that they could go online and talk 
to and to try to help relieve their problems.
    And with this escalation in suicides, it seems to me that 
something needs to be done. Now, the Army is working its way 
through this methodically, and it is going to take 4 months to 
have a competition--an RFI on this.
    I just wonder, is there any way we can figure out to do a 
pilot project or something to see if this works while they are 
working out these competition rules and things of that nature? 
What do you think of that?
    Dr. Daigh. By online, you mean telephone or do you mean----
    Mr. Dicks. No, on computer.
    Dr. Daigh. On computer.
    Mr. Dicks. On the Internet.
    Dr. Daigh. Okay. So there----
    Mr. Dicks. And this has been done in some places already, 
but it is not being done on a systematic basis.
    Dr. Daigh. Right. So there is a nationwide V.A. suicide 
hotline which we were advocates of and--has been very 
successful. Online, if you mean video, would--under another 
rubric would be sort of mental video telehealth is a standard 
way that professionals provide medical consultation either 
directly to patients or to other providers with less 
experience.
    So, for instance, you might have an expert in--a 
psychiatrist sitting in a desk who you could go and project his 
image and conversation to a social worker at some other 
location with the patient, and you could talk about a mental 
health issue or you could talk about a skin disease or you 
could talk about a variety of issues.
    Mr. Dicks. Well, what about the troop--the person who is 
having mental problems, and he wants to--and maybe he wants to 
do this confidentially, can he talk to a psychiatrist and get 
some help?
    Dr. Daigh. I am always concerned about trying to understand 
the emotion that is in speech and information that is 
transferred.
    Mr. Dicks. Yes.
    Dr. Daigh. So I would think that either the telephone or 
seeing them and hearing them would convey a lot more 
information that would be useful to the mental health provider 
than simply a chat room or an Internet conversation.
    Mr. Dicks. Well, maybe you could--could that be done? I 
mean, could you do it so you could have the conversation on a 
video basis?
    Dr. Daigh. I believe that the military currently does it 
all the time now----
    Mr. Dicks. Yes, I mean----
    Dr. Daigh. --across the world to Walter Reed. The V.A. does 
it or telehealth in--for example and many other states. So the 
answer is, yes, I think it can be done, and I think fairly 
easily.
    Most people, if you have a computer and you have a video 
camera, then I would think you could do that.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Dicks. An important line of 
questioning.
    Mr. Berry.

                   COMMUNITY-BASED OUTPATIENT CLINICS

    Mr. Berry. Thank you, Mr. Chairman.
    As you addressed Mr. Salazar's question about CBOCs and 
outside contractors, I would think it should include a 
comparison about how small business set-asides that get these 
bids, that basically have no expertise or background in health 
care, get a bid and see how the care--which is all any of us 
care about on this committee--of course, we have all got to be 
concerned about money--but is to see that our veterans get the 
best possible care that they can get.
    And I would encourage you to compare that in the study that 
you do. And if you have any information about it at this point, 
I would like to know about it. But I would like to see that 
done.
    Dr. Daigh. That is not an element in our current plan, but 
we will look--I will go back. And when we have the data--
quality of care between those that are contracted and those 
CBOCs that are not contracted, we will look at that and get 
that back to you.
    Mr. Berry. Okay, thank you.
    Dr. Daigh. It may not be--since the samples weren't 
selected to answer that question, it may not be statistically 
significant, but I will give you the data we have on it.
    Mr. Berry. Okay.
    That is all, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Berry.
    Mr. Farr.
    Mr. Farr. Thank you very much, Chairman.
    Mr. Daigh, I want to just thank you for your public 
service. I think it is--we are very fortunate to have you with 
a medical program and CPA background being able to do this. And 
I think with this committee we are almost--we like to have 
these hearings in a conversational mode so that we can really 
kind of fix things that are broken.
    Do you have a chance--I mean, you are the inspector for, 
you know, health care inspections, but in that you get to see 
how things are--as you said in your opening comments. I think 
the policy of our committee--at least I have been saying ever 
since I have been in this committee--that our goal is to leave 
no veteran behind.
    My hope and feeling is that if there is any model in 
government that could really reach out and provide all those 
kinds of services that are needed to leave no person behind, no 
veteran behind, that it is the Veterans Administration.
    I am glad Mr. Wamp is here, because he may be a governor of 
a state, and it seems to me the Veterans Administration can be 
modeling for a lot of people, a lot of states, a lot of 
interests in this whole health care reform, which is also, 
hopefully, mental health reform, so that we have an 
accessibility of services.

                           HOMELESS VETERANS

    And I loved your statement that all health care is local. 
In that, I have lots of questions, but I am really concerned 
about what we are doing with the homeless veterans. We heard 
that we have 250,000 homeless veterans that are sleeping on the 
streets of America. That is a lot. And we ought to be, as a 
country, embarrassed.
    For some of them, there are no facilities. We have been 
trying to allow the civilian community to be contracted, 
particularly with PTSD, for local psychologists who are 
licensed and can treat these folks, so that the veterans don't 
have to go a lot of miles to get access to a clinic or a 
hospital.
    How we can close these gaps and what things we can do? I 
have a Vietnam veterans association that has received a bunch 
of houses from the closure of Fort Ord that are rundown and not 
up to code. They actually have homeless families that they are 
trying to put in these houses. And we don't have any--money to 
rehab the places and bring them up to code.
    How do we, in your position, bring the recommendations to 
how to close these gaps so that we can really have a much 
better, seamless delivery of care? You are pioneering. You are 
pioneering the medical records. You are pioneering these 
clinics and these community-based clinics.
    I think you are really pioneering a lot of things that the 
Department of Defense doesn't do, nor does the other deliveries 
of health care that we have in the U.S.
    So in your professional role, do you see a bigger picture 
of how we might be able to address the gaps?
    Dr. Daigh. Yes, sir, I do. The last effort that I asked for 
support for was the DOD/V.A. reporting and analysis tool. And I 
think if one understands who veterans are and understands their 
characteristics and where they live and has access and 
understands what their mental health needs or physical health 
care needs are, then one can begin actually to look at the V.A. 
care that is available, where they access the V.A. system.
    You can access and see where they access DOD. You could see 
where they access the Medicare or Medicaid, where they are 
getting their care from. You can begin to see if there are 
other HHS clinics out there that they are getting their care 
from.
    So you can build a picture of where they are getting care. 
And you can also build a picture of where they are not getting 
care and where you need care or you need to procure care of 
some type.
    Mr. Farr. We are not doing that?
    Dr. Daigh. I think that we are currently focused on and the 
metrics we submit with the budget are focused on transactions. 
If you show up at this hospital and ask for care, were you 
provided it? Not, if you live on the other side of the mountain 
and you are the same person are you provided that care?
    Mr. Farr. Thank you--
    Mr. Edwards. Thank you.
    Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman. Appreciate it.
    Welcome. I know the chairman got into this at the outset, 
but I would like to revisit it, and that is the standards. I am 
enormously impressed and what is so impressive about the V.A. 
is that it is the biggest public health system we have in our 
country and that it has scale and that we can measure outcomes 
on a scale basis and take what works and bring it to scale.
    But we have it for MRSA. We have it for cancer. We have it 
for every illness under the sun, but we don't have it for 
mental illnesses.
    Now, the big debate now in the mental health community is 
between clinical outcomes and functional outcomes. And the real 
meat and potatoes here are functional outcomes. You know, we 
can debate all day about clinical outcomes, but we know what 
functional outcomes are. We know what--people can get up and go 
to work, hold down a job, not drink as much, be able to stay 
compliant with their meds.
    There are pretty basic measures. And those aren't measures 
that are hard to get. We can get them from the NIDA, NIAAA, and 
NIH. And until we employ some basic measuring sticks, we are 
not going to know whether your methadone clinic or your out-
patient clinic in Chicago or your PTSD clinic combined with 
your methadone clinic in Houston or your Providence V.A. and 
whatever it is doing with their vet-to-vet program is, which 
program has had more success in terms of getting veterans back 
on their feet, going to the local community college, and having 
the greatest success academically and in the working world, so 
forth and so on.
    So I can't implore you enough. We have got to lay down 
standards. As, you know, rudimentary as they may initially be, 
we have got to start somewhere. And I am wondering, why haven't 
we?
    Dr. Daigh. Do you mean standards--population at risk or do 
you----
    Mr. Kennedy. Standards by which to measure how we are 
doing. We are never going to get anywhere knowing what is 
working and what is not working out there if we don't know 
first what the objective measuring stick is, what we are after.
    Dr. Daigh. I would agree with you that the current metrics 
that are used and submitted with the budget are usually 
transactional or process metrics, which I agree are what you 
are against. We are looking for, you know, functional outcome 
and----
    Mr. Kennedy. Right, functional.
    Dr. Daigh. So what I am suggesting is that, again, if you 
know who the population is, one can have outcome measures to 
apply to a population to see if folks are going where you would 
like them to go, the outcomes are what you would like.
    For instance, there might be a unit that comes back from 
Iraq that decides to demobilize in a way that they provide 
specific training to their soldiers or do specific things to 
try to ensure that they don't have PTSD or that----
    Mr. Kennedy. Right.
    Dr. Daigh [continuing]. Outcome. And there might be another 
unit that had similar activity that didn't take those steps or 
took a different set of steps. So if you know who was there and 
you then can go and look and see several years down the road 
what the outcome was, one can look back and see if one idea of 
how to deal with this on the battlefield or after the 
battlefield made a difference.
    So I am completely on board and advocating that this sort 
of data be put together so one can do the kind of analysis you 
are suggesting to ferret out which ideas seem to be working the 
best.
    Mr. Kennedy. So speaking of audits, we need to be tracking 
all the different data that is being--and employ it in terms of 
how it is being collected, so we know what is working and what 
is not working in a manageable way. And how do we propose--how 
do you propose we get about doing that?
    Dr. Daigh. In my office, I have to rely on psychiatrists or 
mental health professionals to identify what they think the 
best outcome metric would be for a mental health issue or on a 
cardiologist, for example, but DOD and V.A. are currently 
working to try to get this----
    Mr. Kennedy. Okay.
    Dr. Daigh [continuing]. Together.
    Mr. Kennedy. Well, that is what, Mr. Chairman, we need to 
work on, bring the mental health and DOD folks up here and get 
them to answer what they are doing in terms of mental health 
metrics.
    Mr. Edwards. Mr. Kennedy, may I interrupt?
    Mr. Kennedy. Sure.
    Mr. Edwards. I am going to stick to the 5-minute rule on 
this round, but we are going to go directly into a second 
round.
    Mr. Kennedy. Okay.
    Mr. Edwards. And recognize members. And let me just say, 
members, on a second round, the policy will be we will 
recognize members by seniority, as long as they were here when 
the second round began.
    So we will go with Mr. Wamp, and then we will go with Mr. 
Farr, Mr. Salazar, Mr. Kennedy, and then Mr. Berry.
    Mr. Wamp.
    Mr. Wamp. It may be Farr, Kennedy, Salazar, Berry, Salazar, 
in that order.
    Anyway, and this will be my last question for these two, 
because I know we have got to move on with the other panel in 
this.

                   COMMUNITY-BASED OUTPATIENT CLINICS

    The 30,000-foot view, Mr. Chairman, where I wonder often, 
having been in Congress for over 14 years and really worked at 
expanding our out-patient clinics' capabilities. Watching the 
whole CBOC process evolve, and now super-CBOCs, and watching 
the V.A. stiff-arm contracting care as much as they could, and 
certainly any kind of demonstrations where they might contract 
with local health care providers for in-patient care, which 
they have resisted I think all across the country, but 
certainly in my area they have.
    We don't have a hospital within 2 hours of where I live. So 
the CBOC becomes more and more important. And super-CBOCs can 
really fill that gap of care.
    So my question is, do you think from your studies--and 
every year we need to check--are the trends towards super-CBOCs 
and trying to keep as much care available to the veteran, 
without having to drive 2 or 3 hours to get in-patient care, is 
a good trend?
    I thought when care was the big thing that we were somehow 
going to take some of these older facilities in the Northeast 
that are not fully utilized, and maybe close them and redirect 
some of the resources to where the veterans had actually moved, 
which in many cases was the warmer climate where there might be 
a little water. A lot of it is in my backyard, but I haven't 
seen that happen.
    And I just wonder, are there regions of the country that 
are more efficient than others? Are there regions where we are 
spending money and doing things better? Or is it a uniform 
outcome across the country, I.G. and then GAO?
    Dr. Daigh. I would like to try to answer your question this 
way. One of the issues that arose after some adverse events in 
the last year or 2, where in trying to provide procedures at 
relatively small hospitals there were some catastrophes, V.A. 
has agreed to our recommendation to determine what procedures 
can be done at each hospital by the level of staffing that they 
have.
    So they have gone through and identified what sort of care 
they have for pre-op, op, post-op, and then ward care, if you 
will. And they have gone through and looked at the surgical 
procedures that they have done and categorized them into sort 
of three groups, you know, relatively straightforward, and 
complicated, and very complicated.
    So they have agreed with us that there are certain things 
that you just shouldn't do at a relatively small facility. So I 
think that the push to do too much at a facility, hopefully, 
will not occur, and therefore then one will have to come up 
with strategies to deal with patients who are distant from a 
CBOC, which has, frankly, you know, capability, but limited 
capability, or hospitals, which all have limited capability, 
depending--you know, there is always another bigger hospital 
someplace that can do more.
    So I am hoping that the V.A. will then be able to arrive at 
some practical solutions to address that issue that you are 
talking about.
    Mr. Williamson. A couple of issues you raised are 
interesting. I think, in the discussion of CBOCs, we shouldn't 
forget vet centers, because for mental health issues 
especially, vet centers are the entry point for more and more 
vets these days. I think close to 65 million vets a year use 
these facilities.
    And I just recently visited a couple vet centers in 
Southern California. And I think there are a number of issues 
relating to staffing, to training, especially for things like 
military sexual trauma, whether these folks are being 
adequately trained for all of these things that veterans are 
presenting, I think, is a question.
    The other issue you mentioned, in terms of cost comparison, 
V.A. has in place performance metrics which allow them to look 
at how efficient each hospital throughout the country--each of 
their hospitals are. And I think there is a question of whether 
the headquarters or the VISNs are actually looking at that 
data, looking at indicators, that maybe there are some 
outliers, and really saying, ``Why is that happening? Is there 
anything we can do about it?''
    I mean, some of it might just be due to the fact that 
health care costs are higher in certain locations. That is 
certainly true. But I would want to look at that process and 
something that we are interested in, in the work we are doing.
    Mr. Wamp. How many veterans you say go to VA medical 
facilities?
    Mr. Williamson. I think we are close to 65 million.
    Mr. Wamp. You mean----
    Mr. Williamson. I mean----
    Mr. Wamp. I heard that, and I said there are only, I think, 
23 million--so I was wondering where this number came from?
    Mr. Williamson. That is 65 million outpatient visits for VA 
healthcare. That is the visits, yes.
    Mr. Wamp. I understand. But I knew it wasn't 65 million.
    Mr. Williamson. No, no, no, I know.
    Mr. Wamp. Okay. I yield back.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr.

                       ELECTRONIC MEDICAL RECORDS

    Mr. Farr. There are 23 million veterans? Do we have the 
capacity to have them all in a computer? I mean, you have to 
know that they are a veteran if somebody comes in. There has to 
be records of it, right?
    Dr. Daigh. There are records of that.
    Mr. Farr. How do we develop an individual plan for each 
veteran, for what the options are?
    Dr. Daigh. There are----
    Mr. Farr. We want them to know that, hey, you are a 
veteran, you are in a priority. You are this priority. Oh, by 
the way, even in the county that you live in or community that 
you live in, there are these resources available and in the 
region there are others.
    Because what you are saying is, all we are doing is keeping 
track of sort of a check-off system, if somebody enters by 
asking for services. And we count the ones that are using the 
services. We are not keeping track of the unmet needs of 
veterans.
    Dr. Daigh. I have probably said it a little too harshly. I 
think that there is a view of all the veterans, and all 
veterans need care, but if you get down to the actual metrics 
that people apply, most are transactional. So there are 
limitations in going backward where data is not as well 
computerized as we would like, pay records, for instance, so 
you can identify people.
    But if you look at the different computer systems, the 
amount of data available degrades fairly quickly once you get 
back into the 1990s, and you can build it back, but only at the 
current level we are with limits.
    So I agree with you that we should try to identify where 
our folks are, what their priorities are, and then try to 
assist them to get the care they need.
    Mr. Farr. The reason I am asking is, I am on the 
Agricultural Committee, and we are looking at the school lunch 
programs, and I found out from California that we can find out 
where all the poor kids live who would qualify for the school 
lunch program better than the method the schools use. That 
method essentially requires the parent to come in and say, 
well, yes, I am poor, I want my kid to have a lunch. And I 
thought, well, we can do that by using the Medicare and census 
data.
    Dr. Daigh. Yes, sir, there----
    Mr. Farr. It tells you exactly where these people live and 
who they are. We need to do that with veterans. I mean, we are 
all so insular, and we can look at all these other resources 
that governments have, whether they are federal, state or 
local, but we have got that kind of data now. We just haven't 
arrayed that data in a way that makes it helpful.
    It is also not only the data, but are there, do we know, 
some proven results? What does it take to get the treatment you 
need? To make sure that you have some functional functionality. 
It seems to me that it is really a matter of knowing how good 
our records are and then using other resources that the federal 
and state governments have to put a list together--If it were 
good for one veteran in one community, it would be good for all 
the veterans in that community.
    All health care is local.
    Dr. Daigh. Yes, sir.
    Mr. Farr. What is that health care?
    Dr. Daigh. Well, sir, we are going to publish a report 
where we took the population of veterans living in a state, 
sampled them, geocoded where they lived, geocoded all the care 
providers that V.A. owned, V.A. contracted with, and that V.A. 
had fee basis----
    Mr. Farr. Yes.
    Dr. Daigh [continuing]. And then calculated drive time for 
all those folks, breaking the care up into those folks who 
could write prescriptions or those folks who could offer 
counseling----
    Mr. Farr. Yes.
    Dr. Daigh [continuing]. And then looked at what that care 
in that state looks like. So I am right there with you. I think 
that is exactly----
    Mr. Farr. How long is it going to take to do that?
    Dr. Daigh. I am going to publish that in a couple of weeks 
for one state.
    Mr. Farr [continuing]. Will you bring those back to this 
committee----
    Dr. Daigh. I would be----
    Mr. Farr [continuing]. What those recommendations are, as 
you look at that data?
    Dr. Daigh. I will. And I think that data exists and that it 
can be used to address needs for different areas. So the needs 
of this state might, in fact, be different than the needs of 
another.
    So I am right there with you. I encourage that. We have 
begun to look more at populations, at the needs of populations, 
driving down to individual care plans, which is what you are 
saying.
    Mr. Edwards. Thank you.
    Mr. Salazar.
    Mr. Salazar. Just one brief question. You mentioned that 
the V.A. had different codes for their electronic medical 
records and how they enter information, one of you did, I 
think. Have they taken your recommendations as to how they 
can----
    Mr. Williamson. In terms of medical----
    Mr. Salazar [continuing]. Record. Isn't that what you said? 
I thought that is what you had said, that they had different 
codes as to how they entered different material into the 
electronic medical records. Maybe----
    Dr. Daigh. My understanding is that there is a standard 
system of codes used across country for government and non-
government to describe the activities in a hospital. And the 
V.A. uses those standard codes in their medical records to 
define what care was provided.
    Now, there might be many, many codes in medical records, so 
I am not sure exactly what----
    Mr. Salazar. But didn't you say that that was one of the 
weaknesses----
    Dr. Daigh. What I was talking about, sir, was innovation in 
the medical records. For example, we went back and looked at 
how V.A. compared in their treatment of patients with deep 
venous thrombosis, so, for instance, you are admitted to the 
hospital. You have a broken leg. You are at risk of getting a 
clot that would then travel to your lungs.
    Are the outcomes for that specific entity for which there 
are standards of who should be anticoagulated, you know, out 
there, how did the V.A. compare? We found that the V.A. 
compared well with the rest of the country. Their rate of deep 
venous thrombosis, embolisms about the same.
    Where we had a problem was that the medical record, if it 
were more intelligent, could say, ``You are admitted with this 
diagnosis. Has this medication been ordered?'' So there are 
medical record systems that have that business intelligence in 
it. V.A.'s doesn't. So there is frustration by the physicians 
in the field that that innovation hasn't been put into it 
already, since everyone--since that would be one of the things 
that you would like to see.
    All I am saying is that that rate of innovation, the way 
that the medical record can change and keep up with science 
needs--is important. And if that rate of innovation doesn't 
keep up, then V.A. is going to fall behind.
    So I bring that to you as a risk for which I apologize I 
don't have a lot of work, other than what people tell me and 
this one piece on deep venous thrombosis. But I think that is a 
very important issue.
    Mr. Salazar. Thank you.
    Mr. Edwards. Thank you, Mr. Salazar.
    Mr. Berry.

                   COMMUNITY-BASED OUTPATIENT CLINICS

    Mr. Berry. Thank you. I will be very brief. And I thank all 
three of you for being here and for the work you do.
    Back to the CBOCs and the comparison study you are doing 
and all that. How long will it take to complete?
    Dr. Daigh. Well, we will begin actually going to CBOCs in 
April. We will, at the end of the fiscal year, roll up the data 
that we have in a cumulative report. We will report on the 
quality of care at each of the CBOCs on an every-other-month 
basis, and so it will be four or five CBOCs that will be 
visited.
    And then there will be a report on the financial issue of 
contracting that will--to be honest, I haven't figured out 
whether it is going to be a separate report or part of the 
roll-up report at the end of this fiscal year.
    Mr. Berry. It seems to me that it might be a reasonable 
thing to do to suspend further solicitations until we have the 
results of that report.
    Dr. Daigh. I can't comment, sir. I have no data. And----
    Mr. Farr. Can I follow up on that? Is this part of the 
other alternative way to get private financing through the 
health care center for facilities program, where you have a 
private developer build the facilities and then lease them 
back? Is that part of that?
    Mr. Berry. No, not that I am aware of, Sam. Thank you, Mr. 
Chairman.

                              TELEMEDICINE

    Mr. Edwards. Thank you.
    Let me just finish with one quick question. And let me say, 
also, I know we have just scratched the surface. I know a 
number of members will have additional questions in writing to 
send to you.
    Let me just ask--one better use of psychiatrists, 
psychologists, we have in the V.A. is the use of telemedicine. 
Is there any other way we can bring more psychiatrists and 
psychologists into the--tremendous competition--is out there in 
the marketplace. You have the private sector and the V.A.
    Anything we can do with loan forgiveness for young 
psychiatrists coming out of medical schools, anything else that 
either of you would recommend?
    Dr. Daigh. I haven't looked at that issue. I think you 
would be better to ask the mental health professionals at V.A. 
as to what difficulty they have hiring and what they think 
would work. We simply have not addressed that in our work.
    Mr. Edwards. Okay.
    Mr. Williamson.
    Mr. Williamson. No, I--we haven't addressed that, either.
    Mr. Edwards. Okay. Let me just conclude then to allow time 
for the second panel by thanking both of you.
    You know, I know that, given your responsibility, sometimes 
you are probably welcomed as warmly as a bank auditor by bank 
executives. But you are genuinely welcome to this subcommittee, 
and we see you as real partners and carrying out a 
responsibility that I think we all want to see Congress do more 
of, and that is the oversight responsibility.
    I am so impressed by the experience and the commitment that 
I see with your two positions and those others testifying with 
us in just a few moments. It is obvious to me it is a genuine 
commitment to help our agencies be better served, in this 
particular case, help our veterans receive the care that they 
have earned and so very much deserve.
    Thank you for the important role you play. Please consider 
yourselves partners with this committee. You are welcome to 
contact us at any point. From here forward, you would be 
returning our call. And so work closely with our staff on ideas 
and recommendations you have about how we can address some of 
the challenges that you have outlined today or challenges that 
we didn't have time to get into today.
    Thank you, Dr. Daigh.
    Thank you, Mr. Williamson.
    Members, I would like to call the second panel forward. And 
we have three witnesses in that panel.
    As they come forward, let me just say that the goal of this 
panel is to address issues regarding I.T. interoperability, the 
implementation of the new G.I. Bill. I think we are facing some 
real challenges trying to meet the deadlines there--issues 
regarding auditing, contracting, and claims processing, 
recognizing that the backlog of veterans waiting to have their 
claims processed has been a major issue of veterans and 
veterans organizations.
    To address these issues, we have three witnesses today. 
First, as introduced previously, Ms. Belinda Finn is with the 
Office of Inspector General. She was appointed assistant 
inspector general for auditing in the V.A. in January of 2007.
    Prior to joining the V.A., Ms. Finn was a deputy assistant 
inspector general for the Department of Homeland Security. She 
has also worked as an accountant and arbiter with the 
Department of Treasury, the Department of Defense I.G., the 
Department of Energy I.G., and the U.S. House of 
Representatives I.G., making very well the point to her service 
that I was just trying to make about the degree of 
professionalism and experience in these positions with 
inspector generals positions is very impressive to me.
    Thank you, Ms. Finn, for being here.
    Ms. Maureen Regan, welcome, Ms. Regan, to our subcommittee. 
Ms. Regan was appointment counselor to the inspector general in 
1989, once again showing a deep depth of experience and 
commitment to your position. She began her government career in 
1984 as a staff attorney with the Department of Veterans 
Affairs Office of District Counsel in Washington, D.C. Ms. 
Regan is a graduate of Columbus School of Law at the Catholic 
University here in Washington.
    Again, and welcome.
    Our third witness this morning is Ms. Valerie Melvin.
    Ms. Melvin, welcome to our subcommittee.
    She is the director of information management and human 
capital issues with the GAO's information technology team and 
is primarily responsible for issues concerning health 
information technology and I.T. human capital. And we have a 
lot of issues to discuss on that front.
    Ms. Melvin has led studies of information technology 
management issues at several agencies, including the V.A., the 
Department of Health and Human Services, and the Social 
Security Administration. Ms. Melvin is a graduate of the 
University of Maryland, with a bachelor of science degree in 
business administration and a master's degree in management 
information systems.
    Again, I thank the three of you for being here today. And I 
would like to recognize you for opening statement of 
approximately 5 minutes. Have you selected any order?
    Ms. Finn? Well, let's just begin with you, and then Ms. 
Regan, and then to Ms. Melvin.

                      Statement of Belinda J. Finn

    Ms. Finn. Thank you, Chairman Edwards.
    And thank you to the members of the subcommittee for having 
me here this morning. I am pleased to be here.
    I am going to be speaking on the issues related to the 
VBA's claims processing problems, their progress in 
implementing the new G.I. Bill, educational benefits, and 
finally the challenges involved in spending the stimulus funds 
and our oversight of those funds.
    My office has been tasked with monitoring V.A.'s progress 
in implementing the Post-9/11 Veterans Educational Act, now 
basically called the new G.I. Bill.
    We have found--V.A. has made some progress in the last few 
months, in that they weren't doing very much at all before. But 
they still have several challenges before they can get to a 
successful implementation.
    These include the inherent difficulty of fielding a new 
software, limited I.T. development resources, developing 
staffing requirements, and a really aggressive project 
schedule.
    Elsewhere in VBA, they are facing the challenge of large 
backlogs of pending claims for compensation and benefits. This 
has been a challenge for many years. Increases in funding at 
V.A. have enabled them to hire additional claims examiners, but 
this presents its own challenge in developing a productive 
workforce.
    We are currently working on a review where we are looking 
at claims over 365 days old, and we believe we will identify a 
number of ways that V.A. can help to improve their processing 
time over their claims. We expect to issue the final report on 
that work over the summer.
    We are currently also standing up an inspections unit that 
will be performing systematic reviews at individual regional 
offices. Our charge there is to review operations and the 
accuracy of claims processing to determine how well the R.O.s 
are providing accurate and timely benefits to veterans.
    In the I.T. area, I know your main focus is the sharing of 
information. I work in the area of I.T. security and management 
at V.A. V.A., of course, faces continuing challenges related to 
I.T. security and the management of their projects.
    Although the consolidation of functions and activities 
under the CIO has addressed some security issues, we continue 
to find problems related to access controls, configuration 
management, change management, and service continuity.
    We are also concerned greatly about the management of I.T. 
capital investment, because these projects present great risks 
and can become costly, risky, and unproductive, if not 
effectively managed.
    In the stimulus funding, V.A. is not a major player. They 
have received about $1.4 billion to do maintenance and repairs 
in VHA and the National Cemetery Administration, hire 
additional employees, and develop some new I.T. systems.
    Even though VA has not received as many funds as the rest 
of the government, it is still a challenge to spend $1.4 
billion wisely and efficiently, so we are going to be providing 
oversight upfront over the requirements definition and the 
controls over the spending of these funds.
    Chairman Edwards and the subcommittee, thank you again for 
the opportunity to be here today. And as Dr. Daigh said, thank 
you very much for the continuing support you have given the 
OIG. I will be happy to answer any questions.
    Mr. Edwards. Thank you, Ms. Finn, for your testimony, for 
being here and for what you are doing.
    Ms. Regan.

                     Statement of Maureen T. Regan

    Ms. Regan. Thank you.
    Mr. Chairman, members of the subcommittee, thank you for 
the opportunity to address issues and challenges facing V.A. 
and maintaining an effective and efficient acquisition program.
    Before I start, I would like to say that your entire panel 
here is University of Maryland graduates. I think it is the 
first time I have been on such a panel, so go Terps.
    Mr. Edwards. Well represented today.
    V.A. spends approximately $10 billion a year on procuring 
supplies, equipment, and services, and that number is growing 
every year. Despite efforts to implement policies and 
procedures to improve the acquisition program, procurement 
remains one of V.A.'s five major management challenges.
    In addition to more than 80 pre- and post-war reviews in 
contracting that are issued directly to contracting officers, 
in the past year, we have published more than 10 reports that 
have identified deficiencies in the manner in which V.A. plans, 
solicits, awards and administers procurement action.
    We attribute the problems to many factors, including the 
lack of sufficient personnel in those acquisition and program 
offices that have the knowledge, experience to develop awards 
and administer these contracts.
    In addition, there is little to no oversight--particularly 
conducted at the local levels, in the field. Our work has shown 
that requesting program offices are often not able to identify 
the requirements or properly administer a contract after award. 
We have also found that acquisition personnel are not always 
familiar with or fail to comply with procurement laws and 
regulations.
    The impact of these deficiencies is exacerbated by the 
decentralization of V.A. acquisition programs and the absence 
of a comprehensive system to accurately record and monitor 
contracts and purchases.
    With respect to the latter, in 2007, V.A. activated a new 
Electronic Contract Management System. It is called eCMS. And 
the purpose was to standardize the procurement process and to 
provide visibility regarding V.A. procurement.
    After it was initiated, V.A.'s Office of Acquisition, 
Logistics and Construction issued a policy telling everybody 
how to use this system to generate and issue contract documents 
to record relevant contract information on both new and 
existing procurements.
    We recently completed an audit that showed that contracting 
entities in V.A. were not complying with the policy. They are 
not inputting the data; they are not using the system as 
required. In fact, we found one VHA policy that they were 
following that was inconsistent with the overall policy as 
issued by the Office of Acquisition.
    One of the things it did was exempted all your prosthetics 
from using the system, and prosthetics is a large amount of VHA 
purchases and supplies.
    In addition to our work with the CBOCs that is ongoing, we 
are doing a review at the request of the Secretary of the 
interagency agreements between the Navy's Space Warfare Systems 
Command, otherwise known as SPAWAR, and an audit of disability 
examinations conducted by V.A. personnel and those conducted by 
contractors, a review and an audit of the award administration 
of V.A.'s federal supply schedule contracts for health care 
services, and we are also looking at the Medical/Surgical Prime 
Vendor Program that V.A. has in place.
    One area that V.A. has expended resources for considerable 
oversight is on the federal supply schedule contracts that V.A. 
awards. As you know, this is really a GSA program. But for 
about the last 40 years, the delegation has been to V.A. to do 
all health care contracts.
    V.A.'s programs--and that is for medical and surgical 
supplies, equipment, pharmaceuticals, and health care services. 
V.A. entities spend about $7.5 billion per year on V.A.'s FSS 
contracts. About 60 percent of that, those dollars are V.A. 
dollars, and so V.A. has a great interest in keeping the prices 
fair and reasonable, because a lot of our money is going to 
those contracts.
    Of great concern to us in the past year, GSA convened a 
Multiple Award Schedule Advisory Panel. Some people call it the 
blue-ribbon panel. And the purpose was to review the structure 
used in pricing of FSS contracts.
    On this panel are two representatives from industry 
organizations. At their request and the request of industry, 
the panel is considering removing key clauses from the 
contracts. These are clauses that we believe ensure not only 
that government gets fair and reasonable pricing at the time of 
award, but that pricing is maintained throughout the term of 
these contracts, which are 5 years or longer.
    We believe if these clauses are taken out of the contracts, 
and I know there was at least a vote on it at one point in time 
to take them out, V.A. will be paying significantly higher 
prices for these products than similarly situated commercial 
customers.
    This completes my oral statement. Thank you for the 
opportunity to address these issues, and I would be happy to 
answer any questions.
    Mr. Edwards. Thank you, Ms. Regan.
    Ms. Melvin.

                     Statement of Valerie C. Melvin

    Ms. Melvin. Thank you, Mr. Chairman and members of the 
subcommittee.
    I am pleased to be here today to comment on V.A.'s efforts 
to achieve interoperable electronic health records with the 
Department of Defense. The two departments have been working 
for over a decade to share electronic health data, and Congress 
has directed them to jointly develop and fully implement 
interoperable electronic health record capabilities by 
September 30, 2009.
    The department's experiences in this area are also relevant 
to the broader effort to advance nationwide health information 
technology initiatives. As current and past administrations 
have recognized, information technology has the potential to 
help improve the efficiency and the quality of health care by 
making patient information more readily available to providers, 
reducing medical errors, and streamlining administrative 
functions.
    Federal efforts to realize this potential are being led by 
HHS's national coordinator for health information technology. 
We have performed numerous studies of V.A.'s and DOD's efforts 
to share electronic health information, and my testimony today 
will describe some of the departments' achievements and 
challenges in this area. I will also briefly comment on how 
these apply to the broader national initiative.
    In summary, V.A. and DOD have made important progress, but 
they continue to face challenges in managing the activities 
required to achieve this inherently complex goal. Over the 
years, they have increased the types of information shared and 
succeeded in sharing computable data, that is, data in a format 
that a computer can understand and act on.
    For example, the departments are now exchanging computable 
pharmacy and drug allergy data on over 27,000 shared patients, 
permitting their health information systems to alert clinicians 
to drug allergies.
    Sharing computable data is considered the highest level of 
interoperability, yet achieving this level is not always 
necessary. Data that are viewable but not computable also 
provide important information, and the departments are sharing 
many types of health information in this manner.
    However, they have more to do since not all electronic 
health information is yet shared, and although health data at 
V.A. are all captured electronically, information is still 
captured on paper at many DOD medical facilities. One challenge 
facing any effort to share data is the need for clearly defined 
standards to allow different systems to work together.
    For example, technology standards must be agreed on. And a 
host of content issues must be addressed, such as the need for 
consistent medical terminology. V.A. and DOD continue to work 
on standards to extend their own data sharing, and they also 
participate in standards-related initiatives led by the 
national coordinator that are focused on transitioning to a 
nationwide health I.T. capability.
    Their involvement in these initiatives is important, both 
because of the experiences that these departments can offer and 
to help ensure that the standards they jointly adopt are 
consistent with applicable federal standards.
    Nonetheless, V.A. and DOD face challenges to effectively 
meeting the September 2009 deadline for full interoperability. 
While they have plans to further increase their electronic 
sharing capabilities by then, these plans do not effectively 
define the extent of data sharing expected to be in place to 
meet the interoperability goals or consistently identify 
results-oriented performance measures that are essential to 
assessing progress toward the delivery of that capability.
    Further constraining their effectiveness is their slow pace 
in setting up an interagency program office that is to be 
accountable for achieving the interoperable capabilities. 
Defining results-oriented performance measures and ensuring 
that they are met would be an important part of this office's 
mission.
    V.A. and DOD concurred with our recommendations that they 
give priority to these matters, but they have yet to be fully 
addressed. Until they are, however, the risk is increased that 
the departments will not achieve interoperable capabilities to 
the extent and in a manner that most effectively serves our 
nation's military servicemembers and veterans.
    Mr. Chairman, this completes my prepared statement. I would 
be pleased to respond to any questions that you or other 
members of the subcommittee may have.

                           PRESCRIPTION DRUGS

    Mr. Edwards. Thank you all.
    I want to be sure I understand one of the points that you 
were making. This came to my attention very briefly yesterday 
for the first time.
    Right now, the V.A. buys a massive amount of prescription 
drugs. And I have heard ballpark numbers that, compared to 
standard retail prices at pharmacies, maybe the V.A. gets and 
the taxpayers receive about a 40 percent discount. Is that in 
the ballpark? Is that approximately right?
    Ms. Regan. You can't compare to retail because you have to 
know what the pharmacy paid for it versus what you are paying 
for it as a consumer.
    Mr. Edwards. Right.
    Ms. Regan. VA is probably more comparable to what the 
pharmacies are paying for covered drugs. We are getting 
excellent prices because of the statute--public law which sets 
the price.
    Mr. Edwards. So millions of dollars in savings to taxpayers 
and to the V.A. by paying----
    Ms. Regan. That is correct.
    Mr. Edwards [continuing]. By negotiating? Okay.
    Ms. Regan. They are actually not negotiated prices. They 
are an established price by--there is a formula for covered 
drugs. And the formula is, I think, 26 percent below the non-
Federal Average Manufacturer's Price. There is a calculation 
that is used, so they use all the pharmaceuticals that go 
through a wholesaler, and they come up with a price.
    Mr. Edwards. Okay.
    Ms. Regan. And then once you have a contract, you can only 
increase the price each year by a certain percentage----
    Mr. Edwards. Right.
    Ms. Regan. That is not negotiated. It is part of a formula.
    Mr. Edwards. If I could jump in, I want to be sure about 
the GSA role. Is there a panel at GSA that is recommending 
changes in clauses that would--that would change that so the 
V.A. could be charged significantly higher prices for 
prescription drugs?
    Ms. Regan. The law requires, in order to get any money from 
any federal agency, including Medicare, even though they don't 
buy off the schedule, you have to have the drug on a federal 
supply schedule at what we call the federal ceiling price.
    Mr. Edwards. Right.
    Ms. Regan. So what their changes will do will not affect 
the calculation. But once an award is made, there is a clause 
in the contract called a price reduction clause, and you track 
certain customers. If the price to a customer goes below a 
certain price, then we get those discounts. That is the one 
clause that industry does not want in the contract.
    So the impact--with respect to covered drugs, there will be 
an impact on the covered drugs. There will be a bigger impact 
financially on generics and on all your Med/Surg items and 
equipment.
    Mr. Edwards. And this is--you said there are two industry 
representatives on a panel or a board at GSA?
    Ms. Regan. It is called the Multiple Award Schedule 
Advisory Panel, and it is made up of various people from 
various agencies. In fact, V.A. was not even invited to be on 
the panel until the House Veterans Affairs Committee, I 
believe, wrote a letter and asked that Mr. Frye, the deputy 
assistant secretary for acquisition----
    Mr. Edwards. And this is an advisory panel? Who will make 
the final decision on this?
    Ms. Regan. I am not sure. I think when they make the 
recommendations, it goes to another body within GSA to be 
reviewed and then up to the administrator.
    Mr. Edwards. Okay.
    Ms. Regan. We do know they have voted to remove the price 
reduction clause both from services contracts, where maybe it 
doesn't have that big an impact, to the other commodities 
schedules. And there would be----
    Mr. Edwards. So it could affect prescription drug prices?
    Ms. Regan. It will affect definitely generics. I think 
there will be an impact. And what you will have is that you may 
have a fair and reasonable price the day of award on all of 
these Med/Surg, all of these items that are on federal supply 
schedule contracts. You will not have a fair and reasonable 
price the next day.
    What we found in industry is that they will wait to award 
better contracts until after ours gets awarded. And then the 
discounts start coming in.
    I presented to the panel in August, and basically that was 
part of my presentation, is the impact it will have.
    Mr. Edwards. Well, we are going to see that that decision 
isn't made behind closed doors without public attention. Thank 
you for bringing that to our attention, and I believe all sides 
ought to have a chance to present their facts, but I don't want 
anyone making a decision without great public knowledge and 
taxpayer understanding of what the implications could be to 
them, in terms of increased cost for hundreds of millions of 
dollars in prescription drugs purchased by the V.A.
    Mr. Wamp.

                            INTEROPERABILITY

    Mr. Wamp. Thank you, Mr. Chairman.
    A two-part question, Ms. Melvin. If not September 30th, 
when? Second, on the medical records piece of the 
interoperability, if the V.A. still has the premiere reputation 
for medical records and information technology and health care, 
which I assume they still do from year to year, what about DOD? 
Is it a problem with one side not being up to par with the 
other? What are the problems? I know organizationally and 
funding and all that, but is there a disconnect between the two 
systems' quality?
    Ms. Melvin. In answer to your first question relative to 
when, if not by September 30th, that is a question that I don't 
have an answer for you on, the reason being we have repeatedly 
reported on what V.A. has been doing, V.A. and DOD, in terms of 
interoperability.
    And one of our concerns is that, as they move forward with 
this initiative, we have not seen the level of planning that 
would articulate specifically what the final outcomes will be 
by this September 30th date.
    Now, having said that, I think it is important to note that 
V.A. and DOD do have, as I mentioned in my earlier statement, 
levels of interoperability that they have achieved, they have 
achieved at the highest level in terms of the computable data 
for the pharmacy and drug allergy data.
    They also have lower levels of interoperability relative to 
having viewable data that is structured, for example, to have 
lab reports that are in place within their records. And they 
also are able to see unstructured data that perhaps is scanned 
in, like clinical notes.
    The bigger question on our part is, when you get to 
September 30th, what has been defined as the end result for 
that date? And today we have not seen from V.A. any specifics--
or from DOD--any specifics as to what that ultimate end state 
will look like.
    We do know that they intend to continue increasing their 
sharing. They have indicated, for example, that they will 
continue to include scanning and imaging in what they are 
doing. Our concern and what we would like to see more of--and 
we think is necessary for accountability--is for them to set an 
end state for what at September 30th and then what more beyond 
September 30th.
    There is sure to be a need for more beyond September 30th. 
I think laboratory data, for example, is data, computable data 
that they are trying to achieve, but it would be beyond 
September 30th.
    And then, to the extent that there are other data that are 
defined by their board that has been put in place to set those 
priorities, we would assume that would also occur much beyond 
September 30th.
    As far as why the two departments have not been able to 
come together yet, I would go back, actually, to the very 
beginning with the systems. One of the things that is important 
to recognize is that, even though V.A. and DOD are both 
modernizing their health information systems and they have over 
time stated that these systems would be the platform for 
achieving this integrated capability that they were working 
towards, it is important to recognize that as these systems 
were developed--they went down separate tracks.
    There wasn't a plan that we have seen that was ever 
intended to bring those two systems together in quite the way 
that would be necessary. So I think that where they stand 
today, and certainly through our work and what we have been 
able to discern, there are issues still relative to reaching 
agreement on what such a system would like.
    There are significant questions that would have to be 
answered relative to what capabilities would be needed to serve 
each department's mission. I think there are cultural issues 
relative to really being able to overcome those barriers, to 
step outside and say, ``Is my system better than the other?''
    They are both modernizing. They are both at different 
stages in their modernization. And while we have not looked 
specifically at the system that DOD is modernizing, we do know 
that V.A. is working on it. We have had concerns with some of 
the progress with what they are doing relative to overall 
planning and the integration efforts that are necessary to make 
that system come to fruition.
    So there are many challenges to--really being able to 
decide, I think, first and foremost, what it is that they want 
to accomplish and to start the dialogue. And to Secretary 
Shinseki's credit, if I understand, there has been some recent 
dialogue in that regard, but much more, in our view, is 
necessary for them to come to agreement on what would be 
necessary and how to meet the needs of both of those 
departments, especially those unique needs that each would 
have.
    Mr. Wamp. Mr. Chairman, I have two questions for Ms. Finn. 
I will wait for the next round.
    Mr. Edwards. Okay. Thank you, Mr. Wamp.
    Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. [Laughter.]
    Are I.T. standards worked out so that the I.T. standards in 
veterans is compatible with I.T. standards in Medicare and 
Social Security?
    Ms. Finn. In the area of I.T. security, generally the 
government agencies all try to follow the NIST standard----
    Mr. Farr. One standard?
    Ms. Finn. Yes.
    Mr. Farr. And then in the president's stimulus budget--
recovery package, there is a lot of money for medical records, 
for going to electronic records. And I imagine they are going 
to have companies bidding for that, hospitals bidding. 
Everybody is going to be bidding. Are they going to the follow 
the model? I mean, you are way ahead of this--V.A. was sort of 
the beginning of all this, wasn't it, in having the best 
medical records?
    Ms. Finn. That is my understanding.
    Mr. Farr. So does that become kind of a standard that 
everybody will try to achieve? Are we now going to get a 
million different software programs out there that aren't 
compatible and----
    Ms. Melvin. I could share a perspective on that.
    Mr. Farr. Because you are talking about interoperability, 
and that is----
    Ms. Melvin. Yes, the key is the standards that have to be 
developed. You are correct that V.A. and DOD have been out 
there and, as I mentioned, should be able to provide some 
experiences in those areas, and they have set standards to 
achieve the levels of interoperability that they have.
    However, moving forward, one of the critical things from a 
national perspective, the standard-setting process is not a 
fast process. It is an extremely complicated process that is 
involving many, many players----
    Mr. Farr. Well, we are going to be letting the money out 
before the standards are developed.
    Ms. Melvin. You are correct in a lot of respects. There are 
standards that have been defined, but at the same time there 
are many more that still need to be defined.
    The critical factor relative to V.A. is that while, yes, 
they could pursue standards for their own interoperability--and 
they have to certain degrees--the question is, how far out 
ahead of the national standards do they want to get from the 
standpoint of being able to make sure that, once a national 
initiative is in place, that they, in fact----
    Mr. Farr. What is our priority here? What is the one thing 
we as a committee in dealing with the budget for V.A., what is 
the highest priority, your recommendations to this committee 
that we need to focus on, put some money in, or some language 
in?
    Doctor, you talked about the I.T. systems haven't kept up 
with demand, with the workload, and, in fact, the financial 
systems haven't kept up. Dr. Daigh said that we were pioneers, 
but we are falling behind. What is it that this committee 
should be focusing on?
    Ms. Regan. I would say one issue--there are a lot of 
issues--but one of them I think we are seeing is personnel that 
can do the work. And there is increasing contracting out for 
different things that they--maybe they should be doing in house 
because they lack the number and the quality of the people to 
be able to do it.
    What we hear everywhere we go is that V.A. can't hire the 
personnel whether--it may be financial, it may be some other 
rules that are in place. I mean, for example, we need to go out 
to the hospitals. V.A. is doing a lot of contracting for 
positions, but they are not personal services, so you can't 
supervise them while you are in your facility.
    So even an authority for personal services authority like 
DOD has would be an advantage, if you have to hire outside 
doctors----
    Mr. Farr. Among that personnel, is there a priority of the 
type of personnel?
    Ms. Regan. I think if you ask each part of the agency, they 
all need personnel. The health care needs to be able to hire 
more personnel to take care of the patients. That would be V.A. 
employees. I.T. needs more personnel who can develop systems 
who have the knowledge even how to develop a contract to go out 
and contract for somebody to develop the system, the 
acquisition workforce needs to be built up so that you have 
contracting officers. V.A. needs more VBA examiners to come in 
and be trained.
    Mr. Farr. So the money is there, because we appropriated a 
lot of money. And the money is there to hire the people, but 
then we can't acquire them in the federal service for whatever 
reason, so we are using that money to contract out to the 
private sector to provide what we can't do on our own?
    Ms. Regan. We understand there are some FTE ceilings and 
that they can't surpass the FTE ceiling, so they have to go out 
and hire people. So that would be one issue to look at. And I 
think the department can answer that question.
    I mean, right now, I think with hiring, we are getting more 
applicants for jobs than we have seen in years, so it is not 
the number of people. It is whether or not we can hire 
sufficient numbers of qualified people and pay----
    Mr. Edwards. Thank you very much.
    Mr. Berry.
    Mr. Berry. Thank you, Mr. Chairman.

                MULTIPLE AWARD SCHEDULE ADVISORY PANELS

    It looks like we once again are uncovering more snakes than 
we can kill. [Laughter.]
    And I share your concern about this procurement of 
pharmaceuticals. I think that might be worth a hearing all by 
itself sometime.
    Mr. Edwards. With your background, I would like to follow 
up.
    Mr. Berry. Some of those--do you call them advisory panels?
    Ms. Regan. It is a Multiple Award Schedule Advisory Panel. 
It was published in the Federal Register because it includes 
non-government employees.
    Mr. Berry. The V.A. doesn't have anyone that sits on that 
panel?
    Ms. Regan. They have one person. After a letter from the 
House Veterans Affairs Committee, they put person from the 
V.A., even though the only agency other than GSA that awards 
schedules is V.A., and we do $7.5 billion worth of business a 
year.
    Mr. Berry. All right.
    Mr. Edwards. Seven-and-a-half billion?
    Ms. Regan. Yes. And that is growing every year, too.
    Mr. Berry. That used to be a lot of money. [Laughter.]
    Do you ever have any problem getting a company to 
participate?
    Ms. Regan. Yes, in fact, there are certain product lines, 
for example, cardiac stents, where I don't believe there are 
any on the federal supply schedule program. It is voluntary for 
companies to come in, but none of the manufacturers have come 
in and put stents on contract.
    Cardiac devices, such as pacemaker, they were on contract 
up until only one company, I think, was left by about 2004. 
V.A. then did a competitive award, national contracts that went 
to two companies in 2004. One failed because there was a big 
recall, and the other company, I guess the contract expired. 
They just now awarded another one in November.
    So they do some national competitive contracts for some 
items, but there is a lot of items they haven't done that on. 
And like I said, stents is a big one.
    Mr. Berry. I bet recalling stents is an interesting 
process.
    Ms. Regan. Yes, V.A. has a fairly good program for the 
recalls that it gets out to the facilities. And they actually 
have a pretty good database telling you what patients and what 
stents were used.
    Mr. Berry. Thank you once again for your service.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Berry. And I look forward to 
leveraging off your expertise in health care, to follow up on 
the issue that we discussed there regarding that advisory 
panel.
    Mr. Wamp.
    Mr. Wamp. Mr. Chairman, it looks like you all are efficient 
enough, we might actually get a lunch break here between these 
two hearings. And I am grateful.
    Ms. Finn----
    Ms. Finn. Yes?

                               ENROLLMENT

    Mr. Wamp [continuing]. In 2007, we had 23.6 million 
veterans--number is up somewhat, but we all know that not every 
veteran is enrolled in the V.A. What is that percentage?
    And as the economy continues to weaken--and I don't want to 
scare anybody, but I heard testimony yesterday that we may be 
in the 15th month of a 60-month recession, based on the global 
economic picture right now, if we are in the 15th month of a 
60-month recession, what does that do to V.A. enrollment?
    I would expect it to increase as more and more veterans 
that aren't enrolled in the V.A. system have no choice but to 
come to the V.A. system?
    Ms. Finn. Mr. Wamp, I do not have any statistics at hand on 
how many veterans are enrolled in the system.
    Mr. Wamp. Even with Iraq and Afghanistan?
    Dr. Daigh. That is correct, sir.
    Mr. Wamp. Okay. Did you say 5 million users? So it is only 
about 20 percent?
    Mr. Edwards. About 5.5 million, 5.8 million were the 
projections I think this year.
    Mr. Wamp. So 25 percent is a better number? Which leads me 
to my second question, because I don't think we have had the 
kind of rapid redeployment, downsizing that we are going to 
expect under President Obama. What does that do? We are talking 
the next 16 months or thereabouts, you should see more people 
entering the veteran pool.
    Are we ramping up or ready for that? Or is it going to be 
this great influx of new veterans enrolling in the V.A. system 
as they come home?
    Ms. Finn. I don't think V.A. is ramping up for that, and I 
am not sure what their expectation or their projections are for 
enrolling those veterans. You know, just as a layman in this, I 
would anticipate that, as the economy has worsened, if people 
cannot obtain health care through other means, they may look to 
the V.A.
    Mr. Wamp. You and Mr. Daigh both can answer this question. 
I am speaking to a statewide National Guard convention this 
Saturday in Tennessee. And so from the Guard and reservist 
perspective, do you know anything to report relative to the 
V.A.? Because, obviously, their use of the V.A. is kind of like 
their service to our country. It ain't what it used to be. It 
is a whole lot tougher.
    Ms. Finn. Yes, sir.
    Mr. Wamp. And more and more, I assume, have access to the 
V.A. and are using the V.A. when they come home. Anything you 
all would add as I prepare to speak to probably a couple 
thousand of them Saturday? Great. I don't think most I.G.s are 
as nice as you are. [Laughter.]
    Ms. Finn. I would say that the V.A. offers people 
returning, the reservists and the National Guard a lot in 
benefits, other than health care. The new G.I. Bill provides 
payments based on time on active duty. Other benefits include 
educational benefits, and rehabilitation.
    We did an audit of the transition for benefits and found 
that many of the reservists were not necessarily getting 
notices that they were eligible for benefits. And so we 
recommended that VBA put in some new controls. And I believe 
they have done that. So hopefully they should be getting 
notification.
    Mr. Wamp. Thank you.
    Mr. Edwards. Thank you.

                             NEW G.I. BILL

    Ms. Finn, let me ask you: Is there any risk that, because 
of the slowness of implementing software system and the 
management issues involving contracting out versus doing work 
in-house, the new G.I. Bill implementation, is there any 
significant risk that veterans will be denied the G.I. 
educational benefits they are supposed to begin receiving this 
fall?
    Ms. Finn. I believe V.A. will be paying benefits. I think 
the question is, will they be able to handle the volume of 
claims that will come in between now and when they start making 
payments in August and will they be able to process all of 
those for timely payment?
    So I think the risk is that, if someone were to file a 
claim late, they may not get payment right on time, although I 
can't say that for certain. I think there will be a risk of 
improper or erroneous payments, because this process will 
likely be largely manual at this point.
    Mr. Edwards. That is what I understand for the first year, 
so----
    Ms. Finn. Yes. And we won't have the built-in edit and 
control that we would put into an automated system.
    Mr. Edwards. Well, I hope, given some of the abuses of the 
original G.I. Bill and the risk that posed to the credibility 
of what I considered one of the greatest pieces of legislation 
ever passed by any Congress, I hope we can keep an eye on the 
check-and-balance system to be sure that there are not people 
qualifying illegally for G.I. benefits. And if you have any 
insights on that in the months ahead, please follow my request 
and contact us and let you and I and our V.A. MILCON staff----
    Ms. Finn. I will add that----
    Mr. Edwards [continuing]. Tell us about that.
    Ms. Finn. I will add that to the charge of my team.

                      HIRING OF CLAIMS PROCESSORS

    Mr. Edwards. Nothing could undermine our ability to fight 
for improved benefits and funding for veterans more than abuse 
of a major program such as the G.I. education bill. So we would 
welcome your input there.
    Let me ask you about the new hiring for addressing the 
claims backlog. We have provided enough funding in the last 14 
months to hire--if you count the stimulus bill--as many as 
7,000 new claims processors. How would you rate the V.A.'s 
training program at this point for those new hires?
    Ms. Finn. We took a look at the hiring practice last year. 
And the one area we didn't look at specifically was the 
training program, because GAO had just done some work on the 
training programs. And I think they had some issues mainly with 
the administration of it.
    We do know that they are deploying the new hires in a team 
approach, where they work in a specific team with a group of 
other more experienced employees doing incoming triage, which 
is the incoming processing, or various things.
    And I think that would probably be a reasonable way to 
implement that many new people. We are going to be starting up 
work again, going back and looking at a second year now of the 
influx of new employees and hope to get a lot more information 
on how they are being used, how they are being trained, and 
what the end result is.
    Mr. Edwards. Can we look at the turnover rate, too----
    Ms. Finn. Yes, absolutely. Last year when we took a look at 
it, the attrition and the turnover rate was relatively low, 
especially compared to other employees. But that was fairly 
early in the hiring process.
    Mr. Edwards. Is the V.A. keeping account of data that would 
allow us to look now, a year from now, 2 years from now, to see 
what kind of rate they have of decisions overturned so we could 
determine how effective they have been in that job?
    Ms. Finn. I am not sure--that is a good question. I am not 
sure if they will have that by employee, but we will endeavor 
to find out how they will address that.
    Mr. Edwards. Okay. That would be helpful to look at.
    Ms. Finn. Sure.

                           V.A. DATA SECURITY

    Mr. Edwards. Let me ask you very, very quickly. I have got 
half a minute. Is there any chance that--any significant chance 
that we could have another problem where a V.A. computer is 
taken out of the office and, maliciously or otherwise, used to 
compromise the privacy of a large number of veterans?
    Ms. Finn. That chance still exists, yes.
    Mr. Edwards. How would you compare the V.A.'s privacy 
protection security systems to corporate America, as good as, 
better than, or worse than?
    Ms. Regan. I would say, since the 2006 data loss, V.A. has 
really shored up their ability. If you remember, every big data 
loss we have had has not been intrusion into a system; it has 
been employees with access losing something or whatever.
    They have now put out a series of rules they didn't have 
before, where you can't use your home computer, if you have a 
laptop, it has to be encrypted.
    So I think the risk has diminished. You are still going to 
have rogue employees out there that aren't going to follow the 
rules, but I think the risk is diminished significantly and 
that V.A. would be able to more swiftly take action because 
there are strict policies out there.
    Mr. Edwards. I would welcome any recommendations either of 
you has in terms of steps the V.A. hasn't taken that they 
should take. Thank you. Thank you both.
    Mr. Farr.

                          ACCOUNTABILITY GOALS

    Mr. Farr. I don't know if I have any other question, other 
than--for each one of you, if we had one thing that we could--
this committee could do, what would it be, in your opinion?
    Ms. Melvin. From my perspective, because we have looked 
across a number of V.A.'s I.T. initiatives, there is one common 
concern that always stays on the books with us, and that is in 
terms of their overall project management, their ability to 
really, as I said earlier, to establish goals, to really follow 
through with results-oriented measures for making sure that 
they are holding themselves accountable for what they are 
doing.
    We would like to certainly see more in the way of an 
emphasis by the department on making sure that it is holding 
itself accountable, that it has established really defined 
measures for its success and that it can report against those 
measures. So from our perspective----
    Mr. Farr. Is that a lack of skilled managers?
    Ms. Melvin. It is not--no, it is not contracting, per se. 
It is really in the--it is in the management, overall project 
management aspects of what the agency does. They certainly do 
put out a lot of plans. I don't want to, you know, say that 
they don't have documentation, they don't have plans. They do.
    What we would like to see is a greater degree of 
discipline, more rigor in the planning efforts that the 
department undertakes to make sure that it really is setting 
specific goals, that it is not a matter of saying, ``We are 
going to just increase our--what we can share or we are going 
to increase the number of patients,'' but to really set 
defined, concrete measures of, when we get to this level, we 
feel that will, at least in the short term or in the midterm or 
the long term, that we have positioned ourselves to handle some 
percentage of our staff----
    Mr. Farr. A greater degree of discipline in creating 
measurable outcomes?
    Ms. Melvin. Yes, rigor in--in the processes that they are 
using to really manage and monitor and hold themselves 
accountable for their initiatives.
    Mr. Farr. Ms. Regan?
    Ms. Regan. Can I give you two?
    Mr. Farr. Yes.
    Ms. Regan. One of them is on the federal supply schedules 
that I would consider, because V.A. has had these schedules for 
almost 40 years, just giving them to V.A. and not playing 
``Mother May I'' with GSA. We know our products. We have had 
better oversight than GSA has. We know our industries.
    There are clauses in the contract that maybe need to be in 
ours and not theirs. That would be one.
    On the internal V.A. side, as I said in my testimony, 
decentralization is a huge problem to having an efficient 
acquisition program, and that V.A. needs to take steps to 
centralize.
    V.A. did a study last year, PricewaterhouseCoopers did a 
study and came up with the model that hasn't been implemented.
    Mr. Farr. So the second is what?
    Ms. Regan. Pardon me? The second was to centralize V.A. 
procurement. Right now, you basically have two procurement 
activities. You have VHA, and you have everybody else. You are 
not going to have a procurement program that functions 
efficiently if it is not more centralized or centralized. And 
that probably should be done in steps, as opposed to doing all 
at once, because most of your people are out in the field in 
VHA.
    Ms. Finn. I would second both of those suggestions greatly. 
My thought would be to hold V.A. accountable for the integrity 
of the data that they use to report their performance and their 
outcomes.
    V.A. has a lot of data, and it comes from a lot of 
different sources. And as it is rolled up, I can't be certain 
that it is always collected and recorded really in a consistent 
manner across the organization.
    So that situation creates a lot of concerns in my mind, 
over measuring their performance, because I am just not sure 
how well we can rely on the data, whether it is the number of 
claims processed or the medical treatments or the number of 
patients seen in the clinic or the appointments available.
    Mr. Farr. That is all.
    Mr. Edwards. What an excellent question, Sam. I am glad you 
asked that.
    Zach, would you like to finish off any questions?
    Mr. Wamp. Well, speaking of that, I am going to ask three 
quick questions, one to each of you, and I hope we can get 
quick answers.
    Ms. Regan, how many billions are contracted out under fee-
for-service care? And is that an efficient way to go forward to 
expand that or not?
    Ms. Finn, there is a category called miscellaneous 
obligations. How much is that? And is that kind of an end run 
around the normal process?
    And, Mrs. Melvin, we talked about the complete 
interoperability, but what is GAO's definition of complete 
interoperability?
    Ms. Regan.
    Ms. Regan. By fee-for-service, I would assume you are 
talking about the health care resource contracts, where we hire 
physicians to come into our hospital?
    Mr. Wamp. Yes. Yes.

                          FEE-FOR-SERVICE CARE

    Ms. Regan. There is no system in V.A. that can tell you 
exactly how many dollars were spent on that, because, as I have 
testified, there is no system that records all of that data as 
to what is spent and being spent on.
    I do know it is an increasing number, because one of my 
groups does the pre-awards for those contracts. We expected 
when you increased physician pay, comparability pay, that that 
would go down, but we haven't seen that. And it is becoming 
even increasing for, like, support services and things like 
that, so----
    Mr. Wamp. So you can't tell if it is efficient because you 
don't know how much it is?
    Ms. Regan. Right. Nobody knows how much it is. I can 
probably tell you that we are overpaying for the services, but 
I can't tell you how many dollars are actually spent, because 
there is no place that tells you that.
    Mr. Wamp. Ms. Finn, miscellaneous obligations?
    Ms. Finn. I don't know the number. I will get that for you 
for the record.
    We have seen at times other documents, rather than purchase 
orders or your regular procurement documents, being used to 
record miscellaneous obligations. And sometimes we have seen 
that possibly used, yes, to record and obligate funds where it 
is not going through the correct process.

                            INTEROPERABILITY

    Mr. Wamp. Ms. Melvin, complete interoperability means what?
    Ms. Melvin. We do not have a definition of complete 
interoperability. However, what I would state is that it 
depends significantly on the agencies involved and the 
priorities that they establish. In V.A.'s case, relative to the 
clinicians, that is what they have used thus far in setting the 
priority for the drug allergy pharmacy data that is fully 
computable. It really depends on what the needs are and to be 
defined by those entities that are in involved with that, in 
particular the health care providers.
    Mr. Wamp. Mr. Chairman, I now am finished.
    Mr. Edwards. Okay, those are good questions all.
    Well, I want to thank each of you for your excellent 
testimony. And what this hearing does for me is it just reminds 
me and our committee of the important partnership you can play 
with us as you try to be more proactive in exercising our 
oversight responsibility.
    We have all been so busy over the last few years that it 
has been hard sometimes for committees to exercise the kind of 
oversight that I think all of us would like to do. So we see 
you as critical partners.
    Thank you. I thank each of you, Ms. Finn, Ms. Regan, and 
Ms. Melvin, Dr. Daigh--I tell you, and isn't it impressive, the 
years of commitment to your jobs and what you are doing? It 
says a lot about your values.
    Thank you very much, all, for being here. We will stand in 
recess until 1:30, at which time we will meet on family housing 
and troop housing. Thank you all.
    [Prepared statements follow:]

    [GRAPHIC] [TIFF OMITTED] T0526A.066
    
    [GRAPHIC] [TIFF OMITTED] T0526A.067
    
    [GRAPHIC] [TIFF OMITTED] T0526A.068
    
    [GRAPHIC] [TIFF OMITTED] T0526A.069
    
    [GRAPHIC] [TIFF OMITTED] T0526A.070
    
    [GRAPHIC] [TIFF OMITTED] T0526A.071
    
    [GRAPHIC] [TIFF OMITTED] T0526A.072
    
    [GRAPHIC] [TIFF OMITTED] T0526A.073
    
    [GRAPHIC] [TIFF OMITTED] T0526A.074
    
    [GRAPHIC] [TIFF OMITTED] T0526A.075
    
    [GRAPHIC] [TIFF OMITTED] T0526A.076
    
    [GRAPHIC] [TIFF OMITTED] T0526A.077
    
    [GRAPHIC] [TIFF OMITTED] T0526A.078
    
    [GRAPHIC] [TIFF OMITTED] T0526A.079
    
    [GRAPHIC] [TIFF OMITTED] T0526A.080
    
    [GRAPHIC] [TIFF OMITTED] T0526A.081
    
    [GRAPHIC] [TIFF OMITTED] T0526A.082
    
    [GRAPHIC] [TIFF OMITTED] T0526A.083
    
    [GRAPHIC] [TIFF OMITTED] T0526A.084
    
    [GRAPHIC] [TIFF OMITTED] T0526A.085
    
    [GRAPHIC] [TIFF OMITTED] T0526A.086
    
    [GRAPHIC] [TIFF OMITTED] T0526A.087
    
    [GRAPHIC] [TIFF OMITTED] T0526A.088
    
    [GRAPHIC] [TIFF OMITTED] T0526A.089
    
    [GRAPHIC] [TIFF OMITTED] T0526A.090
    
    [GRAPHIC] [TIFF OMITTED] T0526A.091
    
    [GRAPHIC] [TIFF OMITTED] T0526A.092
    
    [GRAPHIC] [TIFF OMITTED] T0526A.093
    
    [GRAPHIC] [TIFF OMITTED] T0526A.094
    
    [GRAPHIC] [TIFF OMITTED] T0526A.095
    
    [GRAPHIC] [TIFF OMITTED] T0526A.096
    
    [GRAPHIC] [TIFF OMITTED] T0526A.097
    
    [GRAPHIC] [TIFF OMITTED] T0526A.098
    
    [GRAPHIC] [TIFF OMITTED] T0526A.099
    
    [GRAPHIC] [TIFF OMITTED] T0526A.100
    
    [GRAPHIC] [TIFF OMITTED] T0526A.101
    
    [GRAPHIC] [TIFF OMITTED] T0526A.102
    
    [GRAPHIC] [TIFF OMITTED] T0526A.103
    
    [GRAPHIC] [TIFF OMITTED] T0526A.104
    
    [GRAPHIC] [TIFF OMITTED] T0526A.105
    
    [GRAPHIC] [TIFF OMITTED] T0526A.106
    
    [GRAPHIC] [TIFF OMITTED] T0526A.107
    
    [GRAPHIC] [TIFF OMITTED] T0526A.108
    
    [GRAPHIC] [TIFF OMITTED] T0526A.109
    
    [GRAPHIC] [TIFF OMITTED] T0526A.110
    
    [GRAPHIC] [TIFF OMITTED] T0526A.111
    
    [GRAPHIC] [TIFF OMITTED] T0526A.112
    
    [GRAPHIC] [TIFF OMITTED] T0526A.113
    
    [GRAPHIC] [TIFF OMITTED] T0526A.114
    
    [GRAPHIC] [TIFF OMITTED] T0526A.115
    
    [GRAPHIC] [TIFF OMITTED] T0526A.116
    
    [GRAPHIC] [TIFF OMITTED] T0526A.117
    
    [GRAPHIC] [TIFF OMITTED] T0526A.118
    
    [GRAPHIC] [TIFF OMITTED] T0526A.119
    
    [GRAPHIC] [TIFF OMITTED] T0526A.120
    
    [GRAPHIC] [TIFF OMITTED] T0526A.121
    
    [GRAPHIC] [TIFF OMITTED] T0526A.122
    
    [GRAPHIC] [TIFF OMITTED] T0526A.123
    
    [GRAPHIC] [TIFF OMITTED] T0526A.124
    
    [GRAPHIC] [TIFF OMITTED] T0526A.125
    
    [GRAPHIC] [TIFF OMITTED] T0526A.126
    
    [GRAPHIC] [TIFF OMITTED] T0526A.127
    
    [GRAPHIC] [TIFF OMITTED] T0526A.128
    
    [GRAPHIC] [TIFF OMITTED] T0526A.129
    
    [GRAPHIC] [TIFF OMITTED] T0526A.130
    
    [GRAPHIC] [TIFF OMITTED] T0526A.131
    
    [GRAPHIC] [TIFF OMITTED] T0526A.132
    
    [GRAPHIC] [TIFF OMITTED] T0526A.133
    
    [GRAPHIC] [TIFF OMITTED] T0526A.134
    
                                          Thursday, March 12, 2009.

                        FAMILY AND TROOP HOUSING

                               WITNESSES

WAYNE ARNY, DEPUTY UNDER SECRETARY OF DEFENSE, INSTALLATIONS AND 
    ENVIRONMENT
KEITH EASTIN, ASSISTANT SECRETARY OF THE ARMY, INSTALLATIONS AND 
    ENVIRONMENT
B.J. PENN, ASSISTANT SECRETARY OF THE NAVY, INSTALLATIONS AND 
    ENVIRONMENT
KEVIN W. BILLINGS, ACTING ASSISTANT SECRETARY OF THE AIR FORCE, 
    INSTALLATIONS, ENVIRONMENT, AND LOGISTICS

                       Statement of the Chairman

    Mr. Edwards [presiding]. Thank you for all being here. I 
want to call the subcommittee back to order and say good 
afternoon to everyone.
    I want to welcome you to today's hearing on the issue of 
family and troop housing in our military. The goal of today's 
hearing is to establish the current state of family and troop 
housing in our military and to ascertain additional resources 
or decisions that have to be made in order to ensure that every 
serviceman and woman, every family, has an adequate place to 
live.
    Several years ago the Department of Defense set a goal of 
having the funds in place to eliminate all inadequate housing--
family housing--by fiscal year 2009. This goal was to be 
accomplished primarily through the Military Housing 
Privatization Initiative.
    In the meantime, the Department of Defense has embarked on 
an expansion of the Army and Marine Corps, and the Air Force 
will begin to increase its numbers again after years of 
decline. This will certainly result in additional demands for 
both family housing and a greater requirement for barracks and 
dormitories. So our committee thought that it would be a good 
time to assess how far we have come in addressing quality of 
housing for both military families and single servicemembers 
and identify challenges as we move forward under a new 
administration.
    Before I introduce our witnesses, I would like to recognize 
our ranking member, Mr. Wamp, for any opening comments he would 
care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Mr. Chairman, our morning hearing was quite a bit 
cooler in this room, so I don't know if it is our witnesses or 
the topic, or just the afternoon sun coming through, but it is 
a little warm----
    Mr. Edwards. Running up and down those stairs, voting, may 
be it too.
    Mr. Wamp. In any event, Mr. Secretaries, thank you for your 
time. I look forward to this most important hearing, and I have 
no further opening statement. Just go straight to questions.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Wayne Arny is the Deputy Under Secretary of Defense for 
Installations and Environment, and no stranger to our 
subcommittee.
    Welcome back, Mr. Secretary.
    He was appointed to his current post in February of 2008. 
He previously served as Deputy Assistant Secretary of the Navy 
for Installations and Facilities. He is a 1964 graduate of the 
Naval Academy, and active duty naval aviator until 1981. How 
many hours?
    Mr. Arny. Three thousand.
    Mr. Edwards. 3,000 hours of flying time. In those 
responsibilities he ultimately achieved the rank of commander 
in the Navy. He served as a staff member of the Senate Armed 
Services Committee from 1981 to 1984 and was program associate 
director for national security and international affairs at OMB 
from 1986 to 1989.
    And I would note, as with so many who testify before our 
committee who have served our country in uniform, Secretary 
Arny has two sons currently serving in the Navy. Where are they 
stationed right now?
    Mr. Arny. They are both in Lemoore, California. One is 
coming east and going to----
    Mr. Edwards. Thank them on our behalf.
    Keith Eastin is the Assistant Secretary of the Army for 
Installations and Environment. Again, welcome back to our 
subcommittee. He has served in his current position since 
August of 2005. He previously served as Principal Deputy 
Assistant Secretary of the Navy, and as Deputy Under Secretary 
and Chief Environmental Council at the Department of the 
Interior.
    He worked as a senior consultant to the State Department in 
organizing a ministry of the Iraqi government. His private 
sector experience includes PricewaterhouseCooper, Deloitte & 
Touche, and the American Arbitration Association.
    Mr. B.J. Penn, Assistant Secretary of the Navy for 
Installations and Environment, is returning to the subcommittee 
once again, having been appointed to his current position in 
March of 2005. He previously served as director of the 
Industrial Base Assessments from October 2001 to March of 2005. 
He is a naval aviator of over 6,500 flight hours.
    So, over 9,000 hours between the two of you. That is 
impressive.
    His private sector experience includes having worked with 
Loral and Lockheed Martin.
    Mr. Kevin W. Billings, Assistant Secretary of the Air Force 
for Installations, Environment, and Logistics.
    Mr. Billings, welcome. You are no stranger to the Hill. 
Welcome to our subcommittee today.
    He was appointed as acting assistant secretary in 2008. He 
previously served as the Deputy Assistant Secretary of the Air 
Force for Energy, Environmental Safety, and Occupational Health 
from 2007 to 2008. He has extensive private sector experience, 
including Westinghouse, Alliance Group, and Interior Solutions. 
And notably, to former chairman, now ranking member of the full 
Appropriations Committee in the House, he worked as a special 
assistant to Representative Jerry Lewis, who has been such a 
champion on behalf of our military men and women.
    I again want to thank all of you for being here. As you 
well know, your full statements will be included in the record, 
and we would like to begin by asking each of you if you could 
make an opening statement of 5 minutes or less.
    And Secretary Arny, we will begin with you.

                        Statement of Wayne Arny

    Mr. Arny. Thank you, Mr. Chairman, Mr. Wamp, distinguished 
members of the subcommittee. I am pleased to appear before you 
today with my colleagues from the other services to discuss the 
housing initiatives for the department.
    First I want to thank this committee and your colleagues 
here in the House and in the Senate for the authorities that 
you provided us under the Military Housing Privatization 
Initiative. These authorities have allowed us to greatly 
improve the quality of housing available to our military 
families.
    We have been able to make these improvements much faster 
than through the use of traditional military construction, 
because we were able to leverage private capital to augment 
appropriated funding. And the rental streams created in these 
projects ensure sustainment and recapitalization of these 
houses well into the future.
    We have been extremely pleased with the performance of our 
development partners on the 94 existing projects across the 
department. Besides bringing great expertise to the 
construction and operation of our housing, our partners are 
proud to be serving military families and offer many services 
to enhance the sense of community on our bases.
    Our one underperforming partner, American Eagle, has been 
replaced in all six of our projects--in all six of its 
projects--by three experienced and solidly performing partners. 
While no government funds were put at risk in these projects, 
the bases involved have not yet seen the new construction they 
had expected. The new partners are quickly moving to get those 
projects back on track.
    In response to congressional direction, and consistent with 
the lessons we have learned from this experience, we have added 
increased oversight to the privatization program. This 
oversight includes on-scene procedures at the base level as 
well as increased program reporting to my office and to the 
Congress.
    Because of BRAC restructuring, global re-posturing, joint 
basing, and Grow the Force requirements, this is a time of 
great change in DoD installations. All of these efforts have 
significant effects on housing requirements at many of our 
bases for both families and unaccompanied servicemembers. The 
military departments are closely reviewing those requirements 
at all bases, and together we believe we can support our 
servicemembers and their families as we grow the force over the 
next 3 to 5 years with both military construction and with 
privatization.
    Unfortunately, however, the stagnation in the housing and 
overall financial markets has somewhat affected our use of the 
privatization program in addressing these changes. Market 
forces have led to increased costs and tightening of credit 
standards. While the effect on our 94 existing projects has 
been minimal, finding financing for future projects presents 
new challenges.
    The viability of military housing projects remains high in 
the view of the private sector, but lending is limited across 
the board due to the general lack of liquidity in the financial 
markets. Military departments have been meeting with the 
financial community to seek new sources of capital, and we have 
revisited some of our guarantee authorities in an attempt to 
make our projects even more attractive.
    Additionally, we are considering executing our new projects 
in such a manner that we will start the private sector 
operation while delaying taking down private sector debt until 
it is more efficiently priced. This will allow the department 
to stop the deterioration of the housing stock of our newer 
projects while waiting to maximize private capital available to 
the project's income stream.
    We also greatly appreciate your continued support of our 
unaccompanied personnel housing program. We are currently 
completing an inventory of all our unaccompanied housing to 
better identify the shortfalls and ensure proper funding to 
provide quality housing for our unaccompanied servicemembers. 
We plan to establish goals for improvement, as we did for 
family housing, and we will also continue to pursue additional 
use of our privatization authorities to improve our barracks, 
and also to learn from the Navy's first two pilot projects at 
Norfolk and San Diego. While we have had some limited success 
with unaccompanied projects for senior enlisted in the Army, 
the Navy pilot authorities include an ability to pay members 
partial housing allowances that make projects for junior 
enlisted more financially viable, which we will work to extend 
to the other Services.
    In closing, Mr. Chairman, I would like again to thank--to 
express--appreciation for the strong support of military 
housing programs that are crucial to a decent quality of life 
for our service members.
    [Prepared statement of Wayne Arny follows:]

    [GRAPHIC] [TIFF OMITTED] T0526A.135
    
    [GRAPHIC] [TIFF OMITTED] T0526A.136
    
    [GRAPHIC] [TIFF OMITTED] T0526A.137
    
    [GRAPHIC] [TIFF OMITTED] T0526A.138
    
    [GRAPHIC] [TIFF OMITTED] T0526A.139
    
    [GRAPHIC] [TIFF OMITTED] T0526A.140
    
    [GRAPHIC] [TIFF OMITTED] T0526A.141
    
    [GRAPHIC] [TIFF OMITTED] T0526A.142
    
    [GRAPHIC] [TIFF OMITTED] T0526A.143
    
    Mr. Edwards. I thank you, Secretary Arny.
    Secretary Eastin.

                       Statement of Keith Eastin

    Mr. Eastin. I don't want to feel left out here, but I have 
192 hours in a Cessna 172. [Laughter.]
    Mr. Edwards. Well, I have got my thousand in a 210, so 
between the two of us----
    Mr. Eastin. Let me try to be a little short with my opening 
remarks. I will give you a little overview: The Army's campaign 
plan is predicated on rebalancing the Force in an era of 
persistent conflict. A renewed focus and investment in our 
housing--single soldier and family--programs are key elements 
for finding that balance.
    Among the challenges we face are a high op tempo, frequent 
deployments, and aging barracks inventory that requires 
constant management attention, repairs, and maintenance until 
new construction projects are completed, the impact of the 
financial market turmoil on our ongoing privatization programs, 
and major stationing changes due to BRAC, Grow the Army, and 
global redeployments.
    In family housing, we have come a long way with our Army 
housing facilities in terms of quantity, quality, and adequacy. 
Inadequate family housing will be eliminated in 2016 for 
privatized housing, 2010 for government-owned CONUS housing, 
and 2012 for overseas CONUS government-owned housing. For major 
Grow the Army sites, where our housing market analysis show an 
insufficient in-state of available family housing, we are 
programming additional government equity contributions to our 
existing residential communities initiatives to build 
additional family housing units.
    With respect to barracks, our goal is to provide safe, 
clean, and functional barracks for all soldiers--permanent 
party, trainees, wounded warriors, and Guard and Reserve. Our 
overarching strategy is to buy out all inadequate permanent 
party barracks by 2013 by removing any barracks with common 
area latrines and improving our barracks complexes as a whole. 
The last inadequate buildings will be funded for construction 
and renovation in 2013 and occupied in 2015.
    We are buying out our training barracks requirements by 
2015, and those will be occupied in 2017. We are instituting 
improved procedures to assure that barracks are properly 
maintained, sustained, and renovated.
    With respect to privatization of our housing, our family 
RCI program is comprised of 45 installations which are 
comprised into 35 combined projects and a planned instate of 
about 90,000 homes. As of this January we have privatized 39 of 
45 installations, give or take 85,000 homes, we have built 
almost 18,000 homes and renovated another 13,000 homes. The 
last RCI projects will be awarded in 2010, and the remaining 
14,000 privatized inadequate homes will be replaced and 
renovated by 2016.
    Our private sector partners are not immune to the global 
financial industry turmoil affecting the entire credit market, 
but I am pleased to report that the Army has a proactive 
process and procedures in place to detect problems, and as 
issues arise we will work with our partners to mitigate the 
impacts.
    With respect to what we call warriors in transition--those 
returning from either Iraq or Afghanistan--we have about 85,000 
warriors in transition, and they are currently housed in 
interim facilities that have been modified to remove barriers 
to improve accessibility. Every warrior in transition is 
assigned a suitable room, preferably on-post, close to the 
medical treatment facility.
    W.T.s are assigned to the best available facilities we have 
at the post. The specific location is a decision reached by the 
senior mission commander at those posts. The new permanent 
warrior transition facilities we are programming will exceed 
the standards required by the Americans with Disabilities Act 
and other federal accessibility programs.
    In conclusion, the Army has put policies, procedures, 
leadership focus, and additional resources into place to ensure 
that we continue to make steady progress towards buying out our 
family housing, barracks, and warriors in transition 
requirements, then maintaining them to standards. I await your 
questions. Thank you.
    [Statement of Keith Eastin follows:] 

    [GRAPHIC] [TIFF OMITTED] T0526A.144
    
    [GRAPHIC] [TIFF OMITTED] T0526A.145
    
    [GRAPHIC] [TIFF OMITTED] T0526A.146
    
    [GRAPHIC] [TIFF OMITTED] T0526A.147
    
    [GRAPHIC] [TIFF OMITTED] T0526A.148
    
    [GRAPHIC] [TIFF OMITTED] T0526A.149
    
    [GRAPHIC] [TIFF OMITTED] T0526A.150
    
    [GRAPHIC] [TIFF OMITTED] T0526A.151
    
    [GRAPHIC] [TIFF OMITTED] T0526A.152
    
    Mr. Edwards. Thank you, Secretary Eastin.
    Secretary Penn.

                         Statement of B.J. Penn

    Mr. Penn. Chairman Edwards, Representative Wamp, members of 
the subcommittee, it is a privilege to come before you today to 
discuss the Department of the Navy's housing programs. I would 
like to begin by expressing our deep appreciation to the 
Congress and this subcommittee for your unwavering support of 
housing for our Sailors, Marines, and their families. With your 
support, we have made tremendous progress in improving the 
quality of life, and specifically the living conditions, for 
our personnel.
    I will briefly discuss those improvements, as well as the 
remaining challenges. The privatization of family housing 
within the Department of the Navy has been a resounding 
success. To date, we have executed 30 projects involving more 
than 61,000 homes for Navy or Marine Corps families. As a 
result of these projects, over 41,000 homes will be constructed 
or replaced.
    These authorities have allowed us to leverage $800 million 
in the Department of the Navy--to fund approximately $8 billion 
in investments. To put it another way, each dollar that the 
Navy has contributed will yield $10 of investment in better 
housing for our families.
    Military housing privatization has been the cornerstone of 
our efforts to eliminate inadequate family housing in the 
department. Where privatization is not feasible, such as the 
foreign locations where the U.S. authorities do not apply, we 
have continued to use traditional military construction.
    At the end of 2007, we met the OSD goal of having funds, 
programs, and contracts in place to eliminate inadequate family 
housing. The Navy currently expects that all work will be 
completed by 2011, and the Marine Corps by 2014. The latter 
period is extended because the Marine Corps plans to retain its 
housing in the interim to accommodate the increased 
requirements due to force structure initiatives, like Grow the 
Force, until sufficient additional housing can be built. We 
have made similar progress in unaccompanied housing.
    This committee's support of the Commandant's Barracks 
Initiative and the resulting fiscal year 2009 appropriation of 
$1.2 billion in MILCON funding for Marine Corps barracks will 
translate into approximately 12,300 permanent--party spaces at 
eight Marine Corps installations. The Marine Corps expects to 
satisfy the requirement by 2014.
    We have also focused on the needs of our wounded warriors 
through the construction of wounded warrior barracks at Camp 
Lejeune and Camp Pendleton. These projects will provide 
critical temporary housing for our healing wounded warriors.
    The Navy has successfully executed two unaccompanied 
housing privatization projects using the pilot authority 
provided by the Congress in 2003. These projects will result in 
a total of over 3,100 units, including over 2,100 new two-
bedroom apartments for unaccompanied Sailors stationed in the 
San Diego and Hampton Roads areas. The Navy is continuing to 
evaluate candidate locations for the third pilot project, 
including the Mayport-Jacksonville, Florida area, as well as 
additional phases at San Diego and Hampton Roads.
    Our unaccompanied program still has its challenges. The 
Navy's Homeport Ashore Program, to provide housing ashore to 
junior unaccompanied sailors currently living aboard ships, 
remains a priority to the department. The Navy has thought to 
address this requirement through both MILCON and the use of 
pilot unaccompanied housing privatization authority.
    However, there remain Sailors living onboard ships in our 
fleet concentration areas. The Navy continues to evaluate 
bachelor housing strategies to address this remaining 
requirement and enhance the quality of life for single sea-duty 
Sailors.
    Returning to the subject of military housing privatization, 
there has been a great deal of attention focused by Congress on 
the service's oversight of housing privatization projects in 
the wake of difficulties experienced by some partners. We take 
seriously our responsibility to the Munzert Privatization 
Agreement to ensure that the government's long-term interests 
are adequately protected.
    We have instituted a portfolio management approach that 
collects and analyzes financial, occupancy, construction, and 
resident satisfaction data to ensure that the projects remain 
sound and that the partners are performing as expected. We 
conduct meetings with senior representatives of our partners 
and, where necessary, resolve issues of mutual interest.
    Where our projects have encountered difficulties, 
appropriate corrective actions have been taken. For example, we 
had concerns regarding the performance of the private partner 
in our Pacific Northwest project. We worked with that partner 
to sell its interest to another company--with a good record of 
performance with military housing privatization projects. We 
are satisfied with the outcome.
    Additionally, we are not insulated from the difficulties 
affecting the nation's economy. We have seen a dramatic 
curtailment in the amount of private financing available for 
our future military housing privatization projects and phases. 
This, in turn, affects plans for constructions and renovations. 
We are working with the office of the Secretary of Defense, the 
other services, and the lending community on ways to mitigate 
such impacts and preserve our ability to leverage private 
capital on future phases.
    Mr. Chairman, that concludes my statement. I look forward 
to answering any questions that you or members of this 
committee may have.
    [Prepared statement of B.J. Penn follows:] 

    [GRAPHIC] [TIFF OMITTED] T0526A.153
    
    [GRAPHIC] [TIFF OMITTED] T0526A.154
    
    [GRAPHIC] [TIFF OMITTED] T0526A.155
    
    [GRAPHIC] [TIFF OMITTED] T0526A.156
    
    [GRAPHIC] [TIFF OMITTED] T0526A.157
    
    [GRAPHIC] [TIFF OMITTED] T0526A.158
    
    [GRAPHIC] [TIFF OMITTED] T0526A.159
    
    [GRAPHIC] [TIFF OMITTED] T0526A.160
    
    Mr. Edwards. Thank you, Secretary Penn.
    Secretary Billings.

                     Statement of Kevin W. Billings

    Mr. Billings. Thank you, Mr. Chairman, Congressman Wamp, 
distinguished members of the subcommittee. Thank you for the 
opportunity to address the Air Force unaccompanied and family 
housing, both key quality of life issues for our Airmen and our 
families.
    When Secretary Donley asked me to assume the role of Acting 
Secretary of the Air Force (Installations, Environment and 
Logistics) six months ago, I laid out four basic principles to 
guide our organization. First and foremost is compliance with 
the law. Second is to be good stewards of the environment, and 
equally importantly, to be good stewards of the taxpayers' 
dollars. The fourth is to do this all while remembering that 
taking care of our Airmen and their families is what allows us 
to accomplish our mission.
    Real quickly, though, I would also like to thank my 
colleagues before the committee here, because without the 
guidance of Mr. Arny and Mr. Eastin and Mr. Penn, I would have 
not been able to get up to speed as quickly on these issues as 
I have, and I want to publicly thank them.
    With that fourth principle I want to reiterate what Chief 
Master Sergeant of the Air Force McKinley told you a couple 
weeks ago about our housing and dorms, and that is that the Air 
Force is committed to ensuring our Airmen and their families 
have quality housing in which to live and raise their families. 
We have almost 43,000 Airmen living in unaccompanied housing, 
or what we refer to as dormitories, and over 65,000 families 
living in Air Force family housing.
    We truly appreciate the continued efforts of this 
subcommittee, the Congress, and the valuable support and 
leadership you have provided to the success of our housing 
program. First turning to unaccompanied housing, the Air Force 
continues our longstanding commitment to provide quality 
dormitories. As Chief McKinley also testified to this 
committee, dorms are not just a place where Airmen sleep; they 
are a place where we blue our newest and youngest Airmen, our 
future Air Force leaders.
    Enlisted Airmen are the backbone of our Air Force, and we 
are currently aware of the vital importance quality living 
conditions contributes to morale and retention. Since fiscal 
year 2000, we have demonstrated our commitment by providing 
quality dormitories for our Airmen by funding 95 construction 
projects totaling almost $1.3 billion.
    We continue to replace dormitories at the end of their 
useful life with our standard Air Force design, Dorms for 
Airmen Program. The Dorms for Airmen design capitalizes on the 
wingman strategy that keeps the dorm residents both socially 
and emotionally fit. This is accomplished by providing our 
Airmen privacy and respect with their own bedroom and head, yet 
encouraging them to interact with their fellow Airmen through 
shared kitchen, laundry, and entertainment space.
    The Air Force prides itself in saying that we recruit 
Airmen, yet we retain families, and we understand the 
importance of quality family housing to our members and their 
families. Our strategy for providing quality family housing 
uses the Defense Department ``off-base first'' policy to 
determine what the local community can support and the need for 
on-base housing.
    Where possible, we utilize the congressional authorities 
for privatization to meet our housing requirements. We will 
continue to privatize where it makes sense. However, when 
privatization is not feasible, such as at overseas bases, we 
rely on traditional military construction funding. We continue 
to make progress in the replacement or major improvement of our 
housing for Air Force families.
    Since last spring, the Air Force completed new construction 
or major improvements on 1,161 units in the United States and 
911 units overseas. Additionally, we have another 2,286 units 
under construction in the United States, and 2,783 units under 
construction overseas.
    Using privatization to accelerate our family housing 
improvement program, we have seen delivery of over 10,000 new 
or renovated homes, and are currently bringing on-line over 200 
quality homes a month. By the beginning of 2010 we will have 
privatized close to 38,900 housing units at 44 bases. Further, 
we plan to privatize 100 percent of our family housing 
inventory in the Continential United States, Hawaii, Alaska, 
and Guam by the end of fiscal year 2010. Current projections 
show by strategically leveraging more than $402 million in 
government investment, we will have brought in almost $6.3 
billion in private sector total housing development.
    Finally, I would like to thank you for your support of our 
Airmen in the American Recovery and Reinvestment Act of 2009. 
This important appropriation significantly supports the Air 
Force programs for providing quality housing for our Airmen and 
their families. Specifically, we thank you for providing the 
Air Force $80 million for family housing and military 
construction, $16 million for housing operations and 
maintenance, and $100 million for dormitories. While this 
appropriation will help the Air Force improve its housing 
inventory and stimulate the local job market surrounding our 
various Air Force bases, there are still critical requirements 
to fund in future appropriations.
    In closing, the Air Force would like to thank the committee 
for its continued strong support of the Air Force and 
unaccompanied and family housing. Through your support we are 
improving the quality of life for our Airmen and their families 
by bringing quality dormitories on-line faster than ever 
before, and at significant savings to the taxpayers through 
privatization.
    Thank you, Mr. Chairman. I look forward to answering your 
questions.
    [Prepared statement of Kevin W. Billings follows:]

    [GRAPHIC] [TIFF OMITTED] T0526A.161
    
    [GRAPHIC] [TIFF OMITTED] T0526A.162
    
    [GRAPHIC] [TIFF OMITTED] T0526A.163
    
    [GRAPHIC] [TIFF OMITTED] T0526A.164
    
    [GRAPHIC] [TIFF OMITTED] T0526A.165
    
    [GRAPHIC] [TIFF OMITTED] T0526A.166
    
    [GRAPHIC] [TIFF OMITTED] T0526A.167
    
    [GRAPHIC] [TIFF OMITTED] T0526A.168
    
    [GRAPHIC] [TIFF OMITTED] T0526A.169
    
    [GRAPHIC] [TIFF OMITTED] T0526A.170
    
    [GRAPHIC] [TIFF OMITTED] T0526A.171
    
    Mr. Edwards. Thank you, Secretary Billings, and let me 
thank each of you for what you do every day. One of the reasons 
I consider it a privilege to be on this subcommittee is, I 
don't think there is any shortage of lobbyists running around 
Capitol Hill supporting various multi-billion dollar weapons 
programs, but in my 18 years in the House I think maybe two or 
three times at the most have I had anybody come by my office 
asking that we do more to provide better housing for our troops 
and their families, so you are the voice and leaders making a 
difference in their quality of life, and I thank each of you 
for that commitment.
    I was going to recognize Mr. Wamp to start out the 
questioning, but do I understand that Mr. Crenshaw might have 
to leave after the next round of votes, and if that is 
necessary, I would be happy to----
    Mr. Wamp. Mr. Chairman, if you are going to rotate back and 
forth I would ask that you let him go first in the event that 
he has to leave after this series of votes.
    Mr. Edwards. You bet.
    Mr. Crenshaw.

                           PRIVATIZED HOUSING

    Mr. Crenshaw. Thank you, Mr. Chairman.
    And thank you all. I think privatized housing, as the 
chairman said, gives us all a sense of pride, and so often 
civilians look at military housing and say, ``Gee, you know, 
that is not so good.'' And now they look at the privatized 
housing with a sense of envy, saying, ``You know, we would like 
to live in those kind of houses.''
    I visited San Diego and saw the family housing, and I tell 
you what, it is awful nice. And I haven't seen the, the 
privatized bachelor quarters, but I think it is a great 
program. It leverages the money that we have and enables us to 
do good things that the private sector has been doing for a 
while. So I thank you all for working on this program.
    Two quick questions. One has to do with Navy Region 
Southeast.
    Secretary Penn, I know you have done Bachelor Privatized 
Housing in San Diego, you have done it in Hampton Roads, are 
you still on track to do the Southeast project, part of those 
at Mayport, part of those at Kings Bay?
    Mr. Penn. Yes, sir. We are looking at the options to 
provide fantastic homes for our troops, and we are doing an 
analysis, as you know, with a private program. We had three 
initial locations, and two of them fell out, and Mayport-Jax is 
in now, and we are doing the analysis on Mayport-Jax, based 
upon the requirements, yes, sir.
    Mr. Crenshaw. Is there anything you need--do we need to 
extend this program? As I understand it, it may expire at the 
end of this fiscal year.
    Mr. Penn. It expires in September of 2009, sir.
    Mr. Crenshaw. So it would be important for us to extend 
this program
    Mr. Penn. Yes, sir.
    Mr. Crenshaw. One of the things I wanted to ask you about 
Mayport: When you do a housing demand study, as you know the 
Navy has made a decision to homeport a nuclear carrier there, 
and the carrier may come sooner, may come later, but when you 
do the demand part of your housing study, do you take into 
consideration the fact that there is a plan to have nuclear 
carrier there with 3,000 Sailors? Does that go into your study?
    Mr. Penn. That may be part of our EIS, or environmental 
impact statement. We look at everything: schools, traffic.
    Mr. Crenshaw. But in taking into consideration it takes a 
little while to build a project, you don't want to end up with 
a shortage of housing.
    Mr. Penn. We do analysis on Mayport, that is correct. We 
do.
    Mr. Crenshaw. Got you. And on the other side, I ask the Air 
Force, no program is perfect, but my colleagues in Florida, we 
have been informed that Patrick Air Force Base, that project 
down there hasn't gone as well as some of the other ones, and 
there is a new developer, and we were told they are going to 
open the housing up tonon-defense people, and possibly living 
on base if you are not a military member could present 
problems.
    Do you sense that? Is that something you are aware of? And 
have you done everything you can, been as creative as you can, 
to make sure that there aren't enough folks in the military to 
kind of fill those?

                      NON-MILITARY ON BASE HOUSING

    Mr. Billings. Yes, sir. The issue with the waterfalls, as 
it is called, at Patrick Air Force Base, Florida is larger than 
the developer wanted. There were operations to make sure that 
there are the right number of folks in the buildings, but when 
it falls below 95 percent we open it up first to other military 
families, then unaccompanied military, then to the Guard and 
Reserve, then after that to contractors, and then it falls down 
to the local community.
    But before we let anybody from the local community in, we 
do background checks, we do financial checks, and we make sure 
the priority is to not have them on base. A lot of the 
privatized housing is off-base, and the civilians who are part 
of that privatized housing are in the off-base part first, as 
opposed to on the on-base part.
    And finally, the commander has sole authority of who he 
lets on his base and who he doesn't, so as you put the 
processes together to makes sure that these projects are 
viable--that is why we have the waterfall so that the 
developers can continue to do the work they need to do--we 
prioritize who can be part of that waterfall. The waterfall is 
in place in a number of other bases, and again, there are 
processes to make sure that anybody who is part of that is 
looked at very carefully.

                 HOUSING PRIVATIZATION STANDARDIZATION

    Mr. Crenshaw. Real quick, Mr. Chairman--also at Eglin. The 
Air Force is going to do a project there, and as I understand 
it they have put it out to bid at least twice, no developers 
said they want to do it, and do you coordinate with the other 
services on building family housing contracts? Is there kind of 
a standard or standardized way to do a privatized housing 
project? I wonder why it hasn't worked as well there at Eglin, 
which is over in northwest Florida. Any particular reason--does 
it still make sense?

                  EGLIN AFB, FL HOUSING PRIVATIZATION

    Mr. Billings. Privatization will make sense at Eglin Air 
Force Base, Florida. One of the issues at Eglin--a complicating 
issue at Eglin--is the bed-down of the F-35. And as we beddown 
the weapon system we were doing a supplemental environmental 
analysis so that we can move forward to beddown. The 
supplemental analysis will look at, perhaps, different runways 
and different flight patterns. So, we have actually put the 
privatized housing initiative at Eglin on hold until we have 
done the supplemental environmental impact statement on the 
overall F-35 bed-down of the integrated training facility 
there.
    Mr. Edwards. Thank you.
    Mr. Arny. I would like to make one comment. The thing to 
remember, too, is--which took me a while to figure out--anybody 
below an active duty military person that comes in on this 
waterfall, and the first levels are either reservists or Guard 
or military-related, or even on-base civilians, but anybody 
below that first level only gets a 1-year lease, so that if you 
are full a year later that person is out and one of your active 
duty people come in.
    Mr. Crenshaw. Got you. Got you.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you.
    Mr. Wamp, let me ask you, in terms of the procedure--we 
have a 15-minute vote going. Are you comfortable with us going 
till 2 or 3 minutes before this vote is over? There is one more 
vote after this, so----
    So if staff will let us know when it is down to 3 minutes 
before the votes, I would appreciate that.
    Thank you, Mr. Crenshaw.
    Mr. Salazar.
    Mr. Salazar. Thank you, Mr. Chairman. You cut it pretty 
short.
    Mr. Edwards. But you get your full 5 minutes.

                              PINON CANYON

    Mr. Salazar. Thank you.
    First of all, let me thank all of you for your service. And 
not to be outdone, but you have 182 hours, I have got----
    Mr. Eastin. Ninety. One hundred and ninety. Please, don't--
--
    [Laughter.]
    Mr. Salazar. I have got over 600 on a Piper Cherokee, so--
--
    I would like to discuss two more issues with Mr. Eastin. I 
know, first of all, let me just tell you that I have the 
greatest respect for all of you who have served in the military 
and for all of you who serve this country. But there was an 
article in ``The Pueblo Chieftain'' this week where ``The 
Chieftain'' reported that Secretary Eastin has reached a lease 
agreement with Denver businessman Craig Walker to acquire 
70,000 acres off the Pinon Canyon and would announce it in 
Trinidad.
    It really took me off-guard. I know that you and I have had 
some discussions before about maybe the auction. Last year, 2 
years ago, we passed an amendment to Mil-Con V.A. 
appropriations bill that actually prohibited the Army from 
utilizing any funding for future expansions of Pinon Canyon. 
And of course, that was only a 1-year prohibition.
    Last year it was included in the language, and I guess I 
would like to ask you if you think it was the intent of 
Congress to completely bar the expansion with the use of these 
funds. I think that you might have mentioned to others that 
there might be other sources of revenue or funding for that 
expansion. Could you maybe----
    Mr. Eastin. This is, as you and I have discussed before and 
I have discussed with the citizens of Trinidad in an 
interesting little--what do I want to say--availability in a 
gym down in Trinidad for people to make comments about what the 
Army was doing. We have no intention of violating what the 
prohibition is, but we have had, I believe, Senator Salazar has 
asked GAO to look at this, and they have found that we are not 
violating the law with respect to that.
    Our reading of the law--and you can't get around having 
lawyers even though you are at the Army; they are everywhere--
we asked them curtly about this. We are not acquiring, which 
would require military construction funding, but we are, if you 
will, investigating whether this will work and finding out how 
to make it work.
    Our opinion is that those preliminary steps to see what the 
citizenry thinks, to take surveys out there of basically--land 
and when the land might be available, that can be used with 
operation and maintenance funds, and not military construction 
funding. So it is not our intention to buy anything without 
coming back to the committee, and certainly discussing this 
with the Southeast Colorado delegation. So I think there is 
some confusion in what the source of the funds was, and what 
could be used with those funds and the other available funds 
for other purposes.
    Mr. Salazar. Do you think that maybe you may be cutting 
some of the funding that we use for housing for troops and 
utilizing some of those funds to begin the search and paying 
for some of the research that you are doing now to acquire 
these properties? Do you think that that is not taking money 
away from the housing?
    Mr. Eastin. Congressman, I don't believe so. We are using 
operation and maintenance funds, which comes out of a different 
account, so it is neither--family housing operations, which is 
one account, it is not in the construction funds. It doesn't 
come out of any RCR projects we have, and doesn't come out of 
any of the barracks upgrade programs either, or the training 
barracks upgrade programs. So in our opinion--and in any event, 
I would venture to say that what has been expended is something 
quite south of $1 million on this.
    Mr. Salazar. So you will say that there is actually no 
agreement right now?
    Mr. Eastin. ``The Chieftain,'' of course, is free to write 
whatever it likes, and my guess is you have seen that, but 
there is not agreement to do anything. We are looking at all 
sorts of options down there for acquiring land; we have, in 
fact, looked at that--it is a little, I believe it is between 
70,000 and 80,000-acre site that is the subject of our 
discussions--but no deal has been made. I don't even know if we 
can do it--certainly we couldn't do it without coming back to 
see you all.
    Mr. Salazar. Thank you.
    Mr. Edwards. Thank you, Mr. Salazar. We will have time for 
a second round of questioning, for those members who can stay 
here.
    Mr. Wamp.

                              INVESTMENTS

    Mr. Wamp. Thank you, Mr. Chairman. I have got a couple of 
questions for each witness, and I will come back the second 
round if I need to.
    Secretary Arny, one of the drumbeats that all of our 
witnesses will probably hear from me throughout the Mil-Con 
quality of life side of this subcommittee is, I have spent a 
lot of time with General Casey in the last year, and there are 
impediments to our military families receiving support from the 
private sector, from the philanthropic sector, and outside 
groups . . . all of the above. And we hear more and more of 
this, how people want to help but the law prohibits them to 
help.
    Is there anything that you know of today, relative to this 
testimony and the housing piece, that is still an impediment to 
outside groups helping our military families and I mean 
financially? They want to help, and there are impediments to 
investments and support for families, and we are scouring the 
countryside trying to find anything that is in the way of our 
extraordinary free-enterprise system, even in a recession, from 
helping our military. Do you know of any?
    Mr. Arny. Sir, this issue has not come up, in my knowledge, 
in terms of--I was trying to think through the various--we are 
getting support from the private sector, but it is all 
competitive, and we bid for it. Other than people giving our 
troops funds, which we don't permit, I think the law is 
prohibiting that, I would have to work with you----
    Mr. Wamp. Yes. If anything comes up like that, call me. I 
want to hear about it.

                             GROW THE FORCE

    Secretary Eastin, on the Grow the Army sites that have 
inefficient availability family housing, the RCI partnerships 
to build additional housing, can you tell the committee where 
these locations are, what the deficits are in those locations, 
and how long it will take before additional housing will be 
constructed?
    Mr. Eastin. There are basically nine of our installations 
that are involved in some sort of Grow the Army operations. I 
can list them quickly or furnish them for the record, but 
basically we are happy with all of our housing at each of 
these. Of course, we rely on the private sector to basically 
furnish about half of the housing. This is to protect the 
private sector developers, as development community as well as 
our own, so we don't see any deficits in those that have not 
been taken care of or planned on.
    Mr. Wamp. Mr. Chairman, I see your note.
    Mr. Edwards. If you would like to continue, you still have 
time left.
    We will stand in recess until we take both votes; then we 
will be through with voting for the day.
    [Recess.]

                            STIMULUS FUNDING

    Mr. Wamp. All right. Down to Secretary Penn.
    Sir, I was going to ask you about the Homeport Ashore 
Initiative and the stimulus bill, and how the stimulus funding 
ties into the progress that you are making on ramping up the 
Homeport Ashore Program. Didn't you use some of the stimulus 
money for that?
    Mr. Arny. We are going to come out with our list here 
pretty quickly, and most--we are still not sure what exactly 
will tie specifically to Homeport Ashore, but we have asked--we 
at OSD asked the Services to come up with fast spending 
program. If you recall, almost all of the--there is a little 
bit of MILCON in each of the Services, there is the hospital 
MILCON for TMA, so if it is tied to the stimulus it is going to 
be in the sustainment in the----
    So it wouldn't be, I don't think, directly tied to Homeport 
Ashore. It might benefit Homeport Ashore in that perhaps we 
are, you know, renovating some rooms, or fixing up some 
heating, or replacing windows, or that kind of smaller project 
that we usually push off to the back that we are able to do 
with the stimulus money.
    Mr. Wamp. You mentioned the dorms and $100 million, but how 
does the stimulus money tie into Tier 1 and Tier 2 deficiencies 
on dorms on the Air Force?
    Mr. Billings. Sir, all of the stimulus money will be spent 
on Tier 1 dorms or deficient dorms. One deficient and three 
Tier 1 dorms will be funded with the stimulus money.
    Mr. Wamp. That is it, Mr. Chairman, for now.

                           INADEQUATE HOUSING

    Mr. Edwards. Okay. Thank you.
    Let me ask each of you a traditional question of mine. In 
whatever way you define adequate and inadequate housing, can 
you tell me how many families in your respective service, how 
many families live in inadequate housing and how many single 
servicemen and women are living in inadequate housing?
    Unless, Secretary Arny, if you have the numbers for all the 
Services.
    If not, we could just begin with you, Secretary Eastin, if 
you have those numbers.
    Mr. Eastin. I can furnish more accurate ones to you, but, 
you know, the large part, with our family housing we probably 
have about a deficit of, I would say, about 9,000 or 10,000.
    Mr. Edwards. Nine thousand or 10,000.
    Mr. Eastin. Barracks, of course, we are looking at, in the 
training barracks, a large number--145,000 in training 
barracks. But permanent party barracks, as we said, we will 
have those filled out in 2015, and now the number, I think is 
around 30.
    Mr. Edwards. Thirty. And would you follow up, just to fine-
tune those numbers?
    Mr. Eastin. I will get those for you.
    Mr. Edwards. All right. I appreciate that.
    [The information follows:]

    There will be 19,208 permanent party barracks and 65,084 training 
barracks spaces that remain inadequate after executing fiscal year 2009 
military construction and renovation projects. Additionally, there will 
be 681 inadequate Army-owned Family housing units (homes and 
apartments) at one enduring site in Baumholder, Germany, as well as 
4,399 inadequate Family housing units that are surplus to the Army's 
needs, or at sites due to close. There will also be 19,659 inadequate 
Army privatized Family housing units.

    Mr. Penn. The Department of Navy, sir, has approximately 
5,000 families still living in inadequate housing. Maybe we 
will eliminate ours by 2011----
    Mr. Edwards. How many Marine families are living in 
inadequate housing? You said 5,000.
    Mr. Penn. That is total.
    Mr. Edwards. Maybe that is counting Navy and Marines, then, 
okay.
    Mr. Penn. And if we look at the bachelor quarters, the Navy 
has 15,600 Sailors, and the Marine Corps has 17,400 Marines.
    Mr. Edwards. Okay.
    Secretary Billings.
    Mr. Billings. We have 10,835 inadequate family houses with 
about 8,000 families living in those houses. Those will be 
eliminated by the end of fiscal year 2015. We have 106 
inadequate dormitories with approximately 3,200 enlisted 
personnel in 61 inadequate dorms, 400 contractors in 41 
inadequate dorms, mostly in remote locations.
    Mr. Edwards. When you say dorms, that could be a building 
with 200 barracks in it?
    Mr. Billings. Yes, sir. I mean, most----
    Mr. Edwards. How many individual barracks----
    Mr. Billings. Individual rooms, sir, I will take that for 
the record.
    [The information follows:]

    The Air Force has 106 inadequate dormitories with a total of 4,500 
rooms.

    Mr. Edwards. Okay.
    Let me ask you, with the challenges you have mentioned--
BRAC, global inflation, and construction, which we didn't 
control but we will all be affected by it--have any of the 
services changed your goals for providing full adequate housing 
or barracks since this time last year when you or your cohorts 
testified? Are these the same goals that you had a year ago, or 
have they slipped in any way?
    Mr. Eastin. Same with the Army, same year of buildup.
    Mr. Edwards. Same thing?
    Mr. Billings. Yes, sir.
    Mr. Penn. Yes, sir.
    Mr. Edwards. Okay. Thank you.
    Mr. Arny. One thing we are trying to do in the future is--
of all the barracks is, we would like to--specifically, all of 
us have concentrated on permanent party, and we now want to 
raise training barracks up to that same level to see what we 
need to do with that, and then move also on to----
    Mr. Edwards. Judge Carter brought to my attention some of 
the family housing down at Fort Hood that has been defined as 
adequate, but when he and I visited it several weeks ago I 
would be hard-pressed to say with a straight face that it is 
adequate housing. But we will leave that for further 
discussion, perhaps, Judge Carter's discussion.
    Judge.
    Mr. Carter. I think you are reading my mind, Mr. Chairman.

                          FINANCIAL CHALLENGES

    Before I get to the couple of questions I had--I am very 
interested in continuing to move through the current economic 
challenges, which Chet just asked a question about. I read in 
every one of your comments that this new financing challenge 
that we have in the private sector has created at least a 
hiccup in your plans. It says here in this statement, I believe 
this is by the Navy, that the Secretary of Defense and the 
other Services were working and finding out ways to work with 
the lending community to solve this problem. I assume that this 
means interim financing for construction.
    What have you come up with? Because from what we hear, the 
lending markets are sealed up and they are not making loans, 
and it is hard for people to find loans, and that is why we are 
all spending so much money trying to figure out a way to solve 
that problem. Do you all want to comment on what you have come 
up with to solve these problems?
    Mr. Arny. Well, I believe you there. One thing we have 
done, we have gone to the lending community, and they all 
agreed that our ratings are high. We have kept our debt service 
under control; the programs are very solid. So we are faced 
with the same liquidity problem as everyone. It is not like we 
had a bunch of sub-primes and now we----
    Mr. Carter. I understand that.
    Mr. Arny. So one of the things we are doing, and I 
mentioned it kind of peripherally in my testimony, is with our 
newer projects. Ordinarily we put in some military construction 
or some DoD value, and the lender would bring us--or the 
private sector partner would bring money to the table, go out 
and get a major loan so that we could do a bunch of new 
construction. Well, now we are postponing that new construction 
so we can get the private sector guy on board to do the 
maintenance for us, because one of the secrets of privatization 
is not just reconstruction on all these projects, it is also 
the maintenance over a 50-year period.
    One thing that we were never very good with, and those of 
us that have been around the Service for a long time, we would 
use what I call then 30-year MILCON approach. You would build 
something with MILCON, and then we would let it go for 30 
years, and the 30 years later we would have another MILCON 
project. We never were very good at maintaining it.
    So in the interim, until everybody gets some relief on the 
financing, we are keeping the projects going--the new ones--
trying to get those new ones, get the management on board so 
that we get better management of our projects, and then as the 
markets open up, then come back in with the loans.
    Mr. Carter. And I would agree, that is a good use of your 
time and your money. But I think going back to the question 
that the Chairman asked, doesn't that in some way throw you off 
the construction schedules? I think that was the gist of the 
Chairman's question. I mean, if it does, we want to know.
    Mr. Arny. It does. It does throw us off, but again, even 
before we had this credit crunch, other things would pop up. 
The beauty of this is we do have flexibility in each of these 
partnerships to adjust to whatever happens.
    Mr. Carter. The housing, of course, we are talking about at 
Fort Hood is Chaffee Village. Right now it is scheduled to be 
renovated, which would I guess mean basically gutted and 
rebuilt on the inside, but you are still going to have the 
basic structure of a two-bedroom, old house. And it is my 
understanding that we are quite some years off from going in 
and replacing Chaffee Village.
    Mr. Edwards. 2032, as I recall.
    Mr. Carter. 2032, I believe it was. These houses look old. 
They not only are old, but they look old too. There are a whole 
lot of strange things in those projects, and the Chairman and I 
both went through several units. We are just curious if there 
is any possibility of a mind change to speed up the replacement 
of those units. I realize it is not a popular thought with the 
Army right now, but it is a real concern. It is the concern of 
the Army families that are stationed there, and it is a concern 
that I have and I believe the Chairman shares with me. So I 
would like your comments about that.
    Mr. Eastin. Let me discuss that a little bit. This is part 
of a residential communities initiative program, where the--and 
the Army will get together and decide what the scope of that 
particular RCI project is in something called the initial 
development period, commonly called the IDP, where we phase 
in--there is some new houses, some houses have nothing done to 
them, some are renovated, and it is on a time schedule that is 
all carefully negotiated with both the partner and our 
financing source so that once that is locked in these schedules 
are driven by what the financing of it is.
    Unfortunately, the Chaffee Village homes--674, as I 
understand it--have minor renovations to them which, quite 
frankly, is paint and window seals, and things like that, but 
the major part of them will come at a prearranged schedule down 
the road a piece. How can you fix that? Dollars. You have to 
contribute--the Army would have to contribute some funding to 
it so that hopefully you can borrow some funding against that, 
and then basically double up on how much you can do----
    The financing market is not affecting this right now, but 
if we wanted to change one of the few parts of the mix, that is 
when you would get into, I would think, a little more 
difficult----
    Mr. Carter. Okay.
    Thank you, Mr. Chairman.
    Mr. Eastin. I don't disagree that these houses are not what 
we would all like.
    Mr. Edwards. Thank you. We will follow up on that.
    Mr. Kennedy, and then Mr. Dicks.
    Mr. Kennedy. Thank you, Mr. Chairman.

                                BARRACKS

    Welcome, all of you. Thank you for your service. I want to 
follow up with the Chairman's question about how many barracks 
are unsuited for use.
    I think that we would get ourselves in a lot of trouble if 
we were to leave this question unanswered for a long period of 
time. I know you are working with flexible budgets and trying 
to deal with timing, in terms of trying to keep O&M up and 
getting some of these more critical areas addressed, but when 
you have got the numbers--like quarter million barracks in the 
Army, over 100,000 in the Air Force, you know, tens of 
thousands in the Navy, just off the top of your head--of 
barracks that are, you know, insufficient for usage for our 
enlisted, it seems to me this is something that doesn't 
juxtapose well when at the same time you say, it has worked 
very well for family housing, and when the privatized housing 
has worked very well with the family housing we have managed to 
move things along quickly, a lot better than the past.
    So when it comes to moving the O&M along more quickly, 
doing the O&M better than the government used to do it, 
positioning construction so that when the money does come and 
the liquidity back to the market starts coming back we are 
ready to move on it, that we are in position to do that. It 
just seems to me--what I would like to know is, what is the 
hold-up to doing for our enlisted what we have done for our 
families?
    Mr. Arny. Let me comment overall. Having worked with Mr. 
Penn on the Navy side for 7 years--6 years--it is much easier 
to privatize the family housing than it was to privatize--than 
it is to privatize enlisted dorms. The Navy faced--all three 
Services have inadequate--a level of inadequate. That doesn't 
mean they are uninhabitable; they are inadequate by our 
standards.
    But what the Navy then faced was Homeport Ashore, when you 
had all these ships in port, you jumped another 30,000, so the 
Navy had to move quickly, and so reached out and tried 
privatization in Norfolk and San Diego. And in my humble 
belief, and I think Mr. Penn--it has been very successful so 
far. The housing that is up and about to run in San Diego is 
something that is better than most of our officers are living 
in, and even the enlisted housing that the partner took over, 
we have been doing satisfaction surveys and it was at 70 
percent, the private partner took over and they just have a 
better sense for service than we do--it is not our business--
and it went to 90 percent. And in Norfolk we are doing that.
    That doesn't work for all the Services. The Marine Corps 
requires E-5 and below to live in barracks. They need the 
barracks to be next to their units. They require their barracks 
to be built out of concrete block. That is their standards.
    The Army has, I believe it is E-5 and below as well. We are 
trying to work through some of those. Where we can't we are 
going to standard MILCON, and like I said, we are going out to 
survey and start to set goals like we did in family housing to 
get out----
    Mr. Kennedy. So are you piloting? We would like to see 
where you are piloting projects around the country.
    Mr. Arny. That, which we have authority to do--the two 
project at San Diego and at Newport News in the Norfolk area, 
and the third project in the Mayport-Jax area.
    Mr. Kennedy. And then how about Army?
    Mr. Arny. Let me----
    Mr. Kennedy. Yes.
    Mr. Arny. Let us divide up two things here. We are doing 
pilot projects on privatization at five separate installations, 
but for E-6s and above. If you do E-5s and below--the reason 
RCI projects work is there is an income stream. The income 
stream is the basic allowance for housing that you would pay a 
family for living off-post. So instead of paying him--off-post, 
you would bring it inside.
    Mr. Kennedy. Right, right.
    Mr. Arny. There is no such allowance for housing for single 
soldiers, so it presents some difficulties.
    Mr. Kennedy. That presents a difficulty, but it also 
presents a problem when these are the soldiers we are relying 
on to do multiple tours, and they need to be living in quality 
quarters irrespective of what their--the way this program is 
structured for purposes of allowance for housing, is what we 
are saying.
    Mr. Arny. I agree. So in areas where we can do it--first of 
all, we are fighting internally with our own personnel people 
who then have to pay that BAH. So if we can't do it with 
privatization, where it doesn't work--remember, it needs to be 
up near the fence, it needs to be isolated, there are lots of 
different restrictions--then we are focusing on permanent 
parties, getting rid of inadequate. We have got the funding to 
do that; we now need to move to training and others.
    We realize there is a gap and we are trying to get it a 
step at a time.
    Mr. Kennedy. Thank you.
    Mr. Edwards. Thank you, Mr. Kennedy.
    Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Chairman. Isn't that one of the 
problems we face with the Army growing by what, 67,000, and the 
Marine Corps by 22,000? I mean, that has changed the dynamic 
here of being able to have these barracks and other things in a 
reasonable period of time. Isn't that part of the problem?
    Mr. Arny. It is, but to be frank, and I think the Army did 
the same thing, but I know, working with Mr. Penn, the Navy, as 
opposed to the Department of Navy, coughed up money--what, two 
or three budgets ago--to the Marine Corps so that part of Grow 
the Force, Grow the Marine Corps, included many more barracks. 
And the one thing that we in the I&E world were able to do is 
get the Marines to buy them differently.
    While the Marines won't privatize, we did get them to go 
out and buy barracks in batches rather than one at a time. Now, 
you know, on these joint bases, there has been a little 
resistance--I am looking at the Air Force here--and I have 
heard, you know, there has been reticence about how this is 
going to be done. And it does make sense to me that--you know, 
there is a lot of things that can be joined, but you have got 
to protect the integrity of the missions.
    Mr. Dicks. How are you doing on that?
    Mr. Arny. We are doing superbly, thanks to Mr. Billings and 
his Air Force colleagues that are here today.
    Mr. Dicks. What about the ones that aren't here? 
[Laughter.]
    Mr. Arny. It has been a remarkable effort, and there--and I 
have been around the military since 1960. I was an infant at 
the time. But as I try and tell folks that you have--two or 
three bases that are right next to each other, a civilian 
driving by looks at it and assumes it is all Department of 
Defense. So it is hard to go to them to say, ``No, you have two 
different cultures.'' And they look at you like you are crazy.
    But it is cultural change that we are bringing to the 
Services, and we meet weekly and bi-weekly in my office with 
the Services and their reps banging this stuff out. And we are 
making tremendous progress. But we have to grow to get over 
those categories.
    But joint basing is bringing stuff together, but it is 
joint basing only for installation management, not for mission, 
and that is a message we have to deliver every week. The 
missions are still intact; what we are bringing into jointness 
is the mission support, the installation supports for that 
mission.
    So the mission----
    Mr. Dicks. So you think this is moving ahead now----
    Mr. Arny. Absolutely.
    Mr. Dicks [continuing]. And we don't have this resistance? 
Good. I am glad to hear that.
    Mr. Billings. Well, sir, and when I came on board in this 
job, Secretary Donley and General Schwartz made it a priority 
to work with Mr. Arny, to work with us, and we have signed our 
MOUs, we are very close to signing the last Phase 1 MOU, I 
think by the end of this month.
    Mr. Arny. I knew we were achieving victory when the biggest 
problem we had at one of the bases, who shall remain nameless, 
was the number of guard dogs. [Laughter.]
    Mr. Dicks. All right. Well again, I have enjoyed working 
with all four of you. I will just say one thing as I walk out 
the door, because I have a meeting: We still don't have base 
security where I think it ought to be. Every service has a 
different approach to this. Secretary Arny, you and I have 
talked about this--we have got to get this under control. 
Because every time we put in a system at, like, Andrews, or the 
Trident Submarine Base, or Fort Dix, we find that a lot of 
people are getting on these bases that shouldn't be getting on 
them.
    Somehow we have got to get this thing standardized and know 
what our protocol is. And up to this point I have been working 
on this--Secretary Penn knows this; he has been in my office 
three or four times trying to get this straightened out. 
Everybody points the finger at everybody else. There is no 
uniformity across the three Services about how to do this. So I 
hope this is something you can take on.
    Mr. Arny. Will do, sir.
    Mr. Dicks. Thank you.
    Mr. Edwards. Thank you, Mr. Dicks.

                           COMMITTEE SUPPORT

    We will begin the second round of questioning with Mr. 
Wamp, and then with Mr. Salazar.
    Mr. Wamp. Well, Sam Farr asked a good question this morning 
that I am going to ask of all the witnesses. If you could jump 
over on the other side of the table, tell us the one thing that 
we need to take away, that we need to hear today from you all 
on what we could do to help you best in this bill going 
forward--anything at all that is helpful. This morning it was 
very helpful. You might not have anything, but I wanted to give 
you that opportunity.
    Mr. Arny. Good question. And I discussed with members 
before, it would be nice if you all had the MILCON end to 
payment package too, because one of the issues that we are 
faced, I think we are--from the MILCON side, we could always 
use more. I mean, there is not a program that doesn't use more. 
But we are in decent shape with MILCON, and I think we have the 
program to look forward to the future, and we are measuring it 
better.
    Sustainment was a problem up until a couple of years ago. 
We now have established DOD standards at 90 percent sustainment 
across the board where we were down at 70 to 75 percent--90 
percent sustainment, and we at our office are working--my 
office is working with the services to look at, now that we 
have done housing--family housing--we have got a better handle 
on bachelor housing, I call it--unaccompanied housing--now 
admin space.
    Eight years ago we looked at, how do we privatize admin 
space, and there are all sorts of schemes floating around. None 
of them work, because as Mr. Eastin said, there is no income 
stream.
    So I think we have got a way to do that, and we are going 
to work it, and I think you need to ask us, ``How are you doing 
now in family housing and bachelor housing, but what are you 
doing for admin space? How do you measure whether it is 
sustained properly? How do you measure if it is modernized?'' 
And I think we have got a way to do that.
    And again, I want to set basic, simple--I know you didn't 
like our inadequate measure, but at least it was a measure that 
each Service understood. It wasn't necessarily translatable, 
but they all understood it, and we set goals to get there. And 
we missed them a little bit, but at least we had goals, and we 
are going to try to do that with admin--all the buildings, not 
just admin space, but hangars and all the stuff that falls out.
    Mr. Wamp. Secretary Eastin.
    Mr. Eastin. First let me say, it is rare that I don't 
comment on something up here, but you all have supported the 
Army's housing and our MILCON exceptionally well, and I thank 
the Chairman and the rest of you for that.
    And probably outside of your control is when the funding 
comes. Everything gets approved, and then we have 8 months left 
to go to try to build it all instead of 12 months. I just throw 
that out; Chairman Edwards has heard that comment from me for 
the last 3 or 4 years now, but I don't know how you fix this, 
but----
    Mr. Edwards. You were so persuasive last year we got the 
bill passed----
    Mr. Wamp. But timing is often more important than the 
funding, in terms of planning, and finality.
    Secretary Penn.
    Mr. Penn. If you just continue your support of the quality 
of life issues--Rep. Crenshaw mentioned the fact that we have 
an authority that is expiring in September. If you just 
continue to support us in that area, it is working great. And 
thank you so much for your support.
    Mr. Wamp. Secretary Billings.
    Mr. Billings. Well, sir, thank you. I just, again, 
reiterate what my colleagues have said: Thank you. As we move 
forward with eliminating Tier 1 dorms, we have $2.2 billion 
programmed for that, as the number one priority.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp. I think that is a great 
question to ask, both this morning and this afternoon.
    Mr. Salazar.
    Mr. Salazar. Well, I thank you, Mr. Chairman. I just wanted 
to follow up on Mr. Wamp's question, but I think it was--I 
guess I will pick on the Air Force a little bit today.
    All of you have pretty much the same standards when it 
comes to family housing and, you know, individual housing, but 
it always seems like the Air Force seems to have nicer 
buildings, nicer everything. Is that true or not?
    Mr. Arny. You haven't been to Lewis-McChord yet. 
[Laughter.]
    Mr. Eastin. I take the 5th on that.
    Mr. Salazar. Well, I am an Army guy, so I stand up for the 
Army.
    Mr. Penn. And I am sure when we were flying, we always 
landed on Air Force bases, everything was better. [Laughter.]
    The food, everything is better at an Air Force base.
    Mr. Salazar. I really think it is a case of what base you 
are on. And I think that--I will give you the example I heard 
as a comment at a Marine Corps who spoke at a--in Quantico 
where, as a second lieutenant, he was stationed down there, and 
he made the comment that he and his new wife moved into his 
house and they went and bought one bedside table for their bed, 
not because they couldn't afford two, but because there was no 
room in the bedroom for more. And he didn't like to cook, but 
he didn't have to worry about it because the kitchen was so 
small--this is officer housing--that only one person could fit 
in at a time.
    And if you could go back now, and I think you need to, to 
visit some of the enlisted--that is where our concentration is, 
is on our enlisted housing--at the housing at Quantico and all 
the bases where it is going in, you will see a standard that 
far exceeds anything we have had before for officers, let alone 
enlisted housing. The privatization has brought in an outside 
perspective.
    So the other thing too is, you could go anywhere in the 
world in the old days, it is the same house. Well, that same 
house may be perfectly adequate for one base, but inadequate--
we were building houses with big lawns in Key West where nobody 
could afford to buy lawns, but we were buying them. So in San 
Diego, where houses are closer together and land is more 
expensive, the houses are closer together and our enlisted 
barracks go vertical.
    In Norfolk, where there is plenty of land, our enlisted 
barracks are more spread out and our family housing is more 
spread out, so we have now--the privatization has done wonders 
for the family housing. We are trying to get that over to our 
other stuff.
    Mr. Billings. Sir, just quickly, I wanted to----
    Mr. Salazar. I am not picking on you.

                           AIR FORCE HOUSING

    Mr. Billings. No, I understand, but I mean, to put this in 
context, this is one of the things that I have learned since I 
have been in the Air Force, that our bases are our weapon 
systems fighting platforms and have been for the history of the 
Air Force. And so that has been one of the reasons that I think 
the Air Force has historically put a lot of emphasis on the 
housing and the base, in terms of where we have been. In my 
short tenure, this is one of the things I have learned.
    I do want to tell an anecdote, though. I was coming back 
from meeting at U.S. Southern Command last week, and I got to 
fly back with General Blum, and General Blum said, ``You are 
the installations guy, aren't you?'' and I said, ``Well, yes, 
sir,'' and he goes, ``You know, I am finally living on an Air 
Force base and I am being treated the way I have always wanted 
to be treated my entire life.'' [Laughter.]
    Mr. Salazar. And I just wanted to just, in response to Mr. 
Eastin's reference to that GAO study that was done in the Army, 
that study was actually one that was just supposed to justify 
the need for--Pinon Canyon; I don't think it had any reference 
to legalities or stuff like that. But I will just leave it 
there.
    Thank you, sir.
    Mr. Edwards. Judge Carter.

                                BARRACKS

    Mr. Carter. I have just about got all my answers, but I 
want to go back just for a minute to the privatization issue. 
And I understand we have got issues with capital, as does the 
whole country and the whole world, but going back to the Army 
and privatization, we have talked about this now at least twice 
since I have been on this Committee. About what the schedule is 
with the Army, and I didn't hear the answer of where we are 
going with barracks privatization. I know you have been working 
on getting pilot projects going----
    Mr. Eastin. I would be happy to furnish that for the 
record, because I don't have the exact figures of what is per 
year, other than the overall figure that we are going to have--
--
    [The information follows:]

    The Army does not currently have any Unaccompanied Personnel 
Housing (UPH) barracks privatization program or projects for single, 
junior Soldiers (Privates through Sergeants) planned.
    However, the Army does have a UPH privatization program and 
projects for single, senior Soldiers (Staff Sergeants and above, 
including officers) where there is a lack of adequate or affordable 
accommodations off post. There are five projects with the status of 
each indicated in the accompanying chart:

----------------------------------------------------------------------------------------------------------------
          Installation            # Apts   # Bedrooms    Date privatized      1st apts open      All apts open
----------------------------------------------------------------------------------------------------------------
Fort Irwin, CA.................      200          200  March 2004........  September 2008....  July 2011
Fort Drum, NY..................      192          320  July 2007.........  February 2009.....  May 2009
Fort Bragg, NC.................      312          504  December 2007.....  January 2009......  July 2010
Fort Stewart, GA...............      334          370  January 2008......  November 2008.....  January 2010
Fort Bliss, TX *...............      358          410  Late 2009.........  Non-applicable....  Non-applicable
                                ----------------------
                                   1,396       1,804
----------------------------------------------------------------------------------------------------------------
* Project financing expected in 2009, once the capital markets settle down.

    Mr. Carter. Mr. Edwards and I both went through and saw 
that we are in the process of modernizing several of our 
barracks at Fort Hood, as you mention in the report. Ultimately 
we have got to build some new barracks at Fort Hood that really 
fit the standards that the Army has set for maintaining 
soldiers. That is why I need to find out when we might be going 
that way, because ultimately that looks like the solution.
    Mr. Eastin. I will furnish you a schedule for Fort Hood, 
but the basic problem is a lot broader than Fort Hood. I think 
79-or-so percent of our barracks are ancient--some even 
acropolis-like, if you will--where you just keep dumping 
sustainment money through the hole in the roof, and there is 
just a point--you have seen these in old houses--that you just 
can't do it anymore and be effective. You need to either tear 
it down or rip the floors out and start again, and this is an 
expensive process.
    Mr. Carter. Yes, sir. I agree with that.
    Mr. Arny. And that is one of the reasons we look forward--
at least we are now working with--we tried to do restoration 
and modernization on--remember we used the old 67-year, which 
didn't work, because if you had a hurricane and dumped a bunch 
of money into Pensacola, which is what Mr. Penn and I saw, then 
all of a sudden your restoration modernization looked great 
Navy-wide, because you are measuring with two gross sets of 
standards.
    One thing we are looking at is to--we have Q-ratings for 
every facility in the Services. Now, some of them haven't paid 
attention to those Q-ratings, so what we are looking at is to 
say, ``Okay, how many with Q-2 and Q-1 are, you know, are above 
what we accept, adequate and excellent?''
    So we are looking at, ``Okay, guys. You have got the Q-
ratings. They had better be right, because we are going to 
start measuring you against that.'' Very simple, like I said.
    And each Service does it a little differently, but they all 
have it. That way we can--then the Army leadership can get down 
and say, ``Look, I have got half my barracks are Q-3 and Q-4,'' 
and point to Keith and me and say, ``Okay, when is the program 
to get them up?'' ``Well, we need money, and here is what we 
need, exactly, to get up there.''
    Because before it was all too squishy. We are trying to get 
it more finite without trying to over-control it with formulas. 
That is my hope for the future, anyway.
    Mr. Carter. Thank you.
    Chet.

               DOLLAR AMOUNT NEEDED FOR STANDARD HOUSING

    Mr. Edwards. Thank you, Mr. Carter.
    Let me ask you if each of you could put together some 
numbers and, you know, you don't have to sharpen the pencil 
down to the penny, but I would like to know in today's dollars 
how much money would each of you need to bring all barracks in 
your respective service up to your standards, and all on-post 
family housing. Is that something that you could do over a 2-
week period--just a broad number? Again, and I would say within 
a range of 10 percent--10, 15 percent, either way. Don't spend 
thousands of hours getting it down to the penny and dime, but 
could you give us a ballpark number? Would that be possible?
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0526A.172
    
    [GRAPHIC] [TIFF OMITTED] T0526A.173
    
    Mr. Arny. Two weeks might be a little tough, potentially. 
It is the crazy season right now with the budget, but we can 
get you--I think we can get you--at least to show you where we 
have got holes.
    Mr. Edwards. I would like to--I don't think I have ever 
heard that number, and I would like to just get a number of 
what that would actually be.
    Mr. Arny. Family housing for sure, permanent party barracks 
are next easiest; the others might be a little squishy, but we 
will definitely----
    Mr. Edwards. If our country just said, you know, ``By gosh, 
we are just going to see that every soldier, sailor, airman, 
and marine is going to live in quality housing, and what is it 
going to take to do it? We are going to do it.'' I would just 
like to know what that number is.
    Mr. Penn. You said on-post. Can we go off-post as well, 
because Navy doesn't----
    Mr. Edwards. Yes. I didn't want you to have to go out and 
evaluate every home that someone is living in on the private 
sector, or on BAH--family housing. Family housing, you bet, if 
it is on-post, off-post. Don't worry about the Basic Allowance 
for Housing number; that would be hard to get a handle unless 
you did an inventory of where everybody lived.

                     HOMEOWNERS ASSISTANCE PROGRAM

    Secondly, the Homeowners Assistance Program: Given the same 
economic problems that are creating liquidity problems for some 
of our private home partnerships, it is also creating problems 
for our servicemen and women when they are having to sell their 
home because their country asks them to be stationed in another 
community in another state. So many of them are having to sell 
their homes at absolute fire-sale prices.
    We have put $550 million in the stimulus bill to help the 
Homeowners Assistance Program. I am not sure, Secretary Arny, 
if that is under your jurisdiction or not, but do you, or any 
of you, have any thoughts about how that money will be used and 
how serious of a problem is this out there?
    Mr. Arny. We are working very closely with the Army; we 
have set up a working group with all the Services, but the Army 
is the lead agent for that. We should be back to you within a 
month as to how big the problem is and how we are going to 
control that, but that is a wonderful start towards--I mean, 
our top priority are the wounded warriors and the families of 
the fallen that have had to move.
    Mr. Edwards. So you could even--it applies even to widows, 
if somebody has----
    Mr. Arny. Absolutely.
    Mr. Edwards [continuing]. Lost his or her spouse in service 
to country in combat, they have got to move--not only go 
through the grieving process, but just get a shalacking in 
terms of their loss on their home if they----
    Mr. Eastin. What we are developing is guidelines on how 
this will work, because I think this is a worthy program, but 
you can start playing games, for lack of a better word, with 
how much I lost as account of this, and that is where I don't 
want--I don't want to get the foul of the same problems that we 
have seen around in the financing area, where, you know, you 
write something down and the somebody games it for you. So we 
have got to do this very carefully. It is a lot of money, and 
it couldn't go to a better place. We have gotten, I would say, 
a couple hundred inquiries--we have a Web site set up----
    Mr. Arny. It already has a Web site and we already have 
forms online.
    Mr. Eastin. A hundred hits a day.
    Mr. Edwards. I think it is important to send a message to 
our servicemen and women that when you buy a house it is not a 
riskless investment. They have to understand, if they want 
upside better than Treasury note interest rates, there is risk 
involved.
    So I know there is a balancing act. At the same time, we 
are in potentially the deepest, longest recession we have had 
since the Great Depression at a time where, with BRAC and 
global repositioning, we are moving a lot of people around at 
the country's request, and there ought to be some balance to 
help those.
    Mr. Carter. Mr. Chairman, can I----
    Mr. Edwards. Judge Carter.
    Mr. Carter. My friend brought this up to me: The way I 
understand the program, it is that you have to have--you can't 
have bought your house after June of 2006. Those people don't 
qualify if you bought your house after June of 2006, and there 
is an awful lot of folks that are moving from Hood to Carson 
that have homes that were purchased after June of 2006. I don't 
know the answer to that. We have been asked that question.
    Do you know, Mr. Chairman, if that applies to the HAP 
program?
    Mr. Edwards. The answer is yes.
    Mr. Carter. I thought so. And that is an issue, because, 
you know, we are moving to fourth ID to Carson, and that is 
going to be an awful lot of soldiers, and----
    Mr. Arny. It was tied to when the markets started dropping, 
is what I am told, but we will look at it. Again, we have got a 
working group together, and as you know, it was done fairly 
quickly, and we may need improvements to it as it goes on.
    Mr. Edwards. Will the highest priority be given to----
    Mr. Arny. Absolutely. Wounded warriors--that is the number 
one on everybody's list.
    Mr. Edwards. Okay.
    Mr. Arny. Also, I think our general philosophy is, we will 
not make you whole, but we will reduce the amount of pain. And 
we have got to figure out what that is, because I agree with 
you, we don't what to--and we also need to parse it down to 
look at, you know, who put no money down and lost a lot, who 
put 20 percent down, you know, how do you--and then lost their 
20 percent--how you balance that off. It is a lot of questions 
in there.
    Mr. Edwards. Okay. Thank you.
    Mr. Wamp.

                             KOREA HOUSING

    Mr. Wamp. Secretary Eastin, despite the fact the Reggie 
White was from my district and Usher is from my district, my 
most prominent constituent is a guy named General B.B. Bell, 
who is back home--and Katie is very sick, by the way; When he 
was here last year, and we will hear this later, the 
realignment on the Korean Peninsula was of interest and Camp 
Humphreys was a unique kind of a situation. Can you update us 
on those 2,400 housing units there?
    Mr. Eastin. Sir, I would be happy to, but I will refer this 
to my deputy, Joe Calcara, who knows this issue backwards and 
forwards, and I am only here----
    Mr. Calcara. We have reached an agreement--in December--
late December and early January. He is going to lay out the 
project using a private finance-type approach. The project is 
currently in underwriting. We expect to have a mock closing in 
early May, and then have an official closing in June.
    The first 1,200 units will--construction will start 
immediately on those sometime in July. That should be ready for 
the 2012--a thousand units will be in the second tranche, and 
we will probably have a second closing maybe 12 months after 
the first one, and that builds out the remaining number of 
units, the 2,400.
    Pinnacle is the master developer. It is an RCI and I think 
a Navy housing partner, and they perhaps--in the Air Force. It 
is a well known agent. Construction will be by Samsung, which 
is one of the largest Korean construction contractors. There is 
a huge amount of equity in the deal, so we feel very 
comfortable we will get to underwriting. We are dealing with 
the liquidity issues, but at last point we had 28 investor----
    We also have relatively conservative underwriting elements 
in the transaction, so I think the project will close. I am 
pretty confident of that.
    Mr. Wamp. Good report. Thank you.
    Thanks, Mr. Chairman.

                            MARKET LIQUIDITY

    Mr. Edwards. Could I ask a follow up on the liquidity issue 
that Judge Carter raised? Do we think that providing additional 
public capital would help open up private investment dollars? 
For example, if we had enough federal dollars to go in where 
there is 20 percent down, 30 percent down, or whatever number 
you want to use, is that how we address this, because this is a 
serious problem?
    Mr. Arny. Well, Joe--I would like my deputy to comment on 
that, because he has been working on this, if you don't mind.
    Mr. Edwards. Sure, absolutely. Have him come to the table, 
since Judge Carter is gone.
    Just for the record, if you would identify yourself.
    Mr. Sikes. I am Joe Sikes, the director for housing for Mr. 
Arny. And the answer to that would be that all of the Services 
have been talking to their individual financial people, and we 
think that maybe Fannie Mae and Freddie Mac coming into this 
with some guaranteed authorities might actually free it up. 
Putting more money at it would effectively just do more MILCON, 
if you will, and certainly that can help build some more 
houses, but I don't think it really helps free up the private 
sector lending.
    We are also looking at taking some of the guarantee 
authorities we used in the beginning of the program for base 
closure guarantees, turning those into some sort of 1-year debt 
service or a guarantee to eliminate having to put aside money, 
which is being required right now because that doesn't exist in 
the market anymore. So we are not totally sure how to get the 
market to move, but we are talking to all parts of it we can, 
and each of the Services privatization arms are going and 
talking to their partners about their specific projects to see 
what they need to do to get the----
    Mr. Edwards. I don't know if we could find the money, but 
if between now and our mark up you were to find that X number 
of dollars would, for whatever reason, open up Y number of 
dollars, eight in 10 times the kind of leverage that you 
testify to, that has occurred in the past. Additional dollars 
would really allow us to stay on track, in addition to other 
avenues that you are pursuing, please let us know.
    And again, I don't want to suggest we will be able to find 
the money, but all of us would like to see this family housing 
program stay on track and not have to be delayed because of 
something that was absolutely not the fault of the servicemen 
and women who, despite the recession, continue to get deployed 
to Iraq and Afghanistan, and as you know better than anybody, 
continue to make tremendous sacrifice.

                            GUARANTEED LOANS

    Mr. Billings. Mr. Chairman, one of the things that the Air 
Force is doing with our guaranteed loans is--they were 
originally structured for payments at the end, when they were 
complete.
    Now, as houses are completed, we are freeing up cash to 
continue to allow them to move forward during this time. We 
have restructured these loans--allowing partial payments for 
completed houses, as opposed to the end. This is allowing us to 
free up a little cash right now.
    Mr. Edwards. Do you audit the return on investment for 
these companies? I didn't realize when we first got into this--
and I am thrilled at the good things that have happened--we 
worked 8 years to put this plan in place--but they are very 
highly leveraged. They are putting up a relatively small amount 
of equity and then leveraging that greatly. Can you monitor, on 
an installation-by-installation basis, what kind of return on 
equity we are making?
    Mr. Sikes. Yes, sir----
    Mr. Edwards. What is their average return on equity?
    Mr. Sikes. It is going to vary greatly by project, but a 
lot of them are----
    Mr. Edwards. Okay. Just to pick a project, since that is 
the one where I looked at the housing with Mr. Carter recently, 
could you get me the numbers for Axis lend-lease at Fort Hood?
    Mr. Sikes. Yes, sir.
    [The information follows:]

    A typical housing project under the Military Housing Privatization 
Initiative (MHPI) includes a one to three percent private equity 
investment, with the private partner/owner earning a 12 percent return 
on investment. In addition, the private sector partner/owner earns fees 
for construction, development and property/asset management. MHPI 
project fees range from three to five percent of development and 
property/asset management costs, and four to six percent of 
construction costs, with up to 50 percent of the total fees being 
incentive based.
    Fort Hood military housing was privatized in October 2001 and was 
the first project negotiated under the Army's Residential Communities 
Initiative (RCI). The project finances in the Fort Hood deal structure 
reflect market conditions at that time, including the perceived risks 
of lender participation in projects under the relatively new MHPI 
program. The Fort Hood project features a two percent private sector 
equity contribution that earned a 12 percent preferred return during 
the initial development phase (IDP). The Ford Hood project features a 
five percent total fee (four percent base and one percent incentive) 
for developer and property/asset management costs, and features a 5.1 
percent total fee (3.6 percent base and 1.5 percent incentive) for 
construction.
    Additionally, following completion of the IDP, total return on 
equity is capped at 25% subject to financial performance of the 
project. These terms were consistent with market returns when the 
project closed in 2001. One of the lessons learned from the 
privatization program is that private equity is the most expensive form 
of capital and, as a result, requirements for private equity have been 
relaxed in later projects.

    Mr. Edwards. I would like to see--if a company is making a, 
you know, a responsible return on equity, then we have no right 
to ask them--we have no contractual right to ask them to do 
more. But if they were making a return on equity that were to 
be double or triple what investors are receiving out there in 
the private market, it would make me want to find a way to sit 
down at a table and talk to them about whether they should wait 
till 2034----
    Mr. Arny. I think you will find they are all conservative, 
because they also have management fees--their total income 
isn't coming off their investment. They have management fees 
that vary based on our satisfaction for them, too.
    Mr. Edwards. Does their return on equity count what they 
are making in management fees?
    Mr. Sikes. No. They are normally not----
    Mr. Edwards. Could you include that, just to pick one 
example so I can look at one that I am familiar with at Fort 
Hood, include how much they are also making in management fees? 
I don't represent it anymore, but I know the person that does.
    Mr. Sikes. Sir, we will get that for you. But one thing 
that Mr. Arny was indicating was, if you remember at the 
beginning of the program we were demanding 10 percent equity, 
and we backed off on that because we realized if we were paying 
12 percent on that we wouldn't be getting as many houses. So 
one reason why it is where it is is because they don't actually 
have that much equity in it; they mostly make their money off 
of fees, and that causes them to stay around, which is what our 
original intent was, that they would have partners that weren't 
trying to run out on us as soon as they get their equity back 
up, but partners that would stay for 50 years.
    We will get you that data, though.
    Mr. Edwards. Okay. I don't have any additional questions.
    Thank you for your testimony and for your service every 
single day. We will stand recessed at the call of the chair.
    [Questions for the record submitted by Chairman Edwards:]

                       Navy Unaccompanied Housing

    Question. I understand the Navy is working on a Bachelor Housing 
Master Plan to complete the Homeport Ashore initiative and provide all 
sailors with adequate housing. When will this plan be completed, and 
will it have an impact on the FY10 budget request?
    Answer. The Bachelor Housing Master Plan is expected to be 
completed in September 2009 and will not have an impact on the FY10 
budget request.
    Question. As part of this plan, will the Navy establish a standard 
for room configuration and living space?
    Answer. The Navy will be constructing 1 + 1E units (2 bedroom, 1 
bath apartments with kitchenette and laundry) to address our Homeport 
Ashore deficit.
    Question. How many training barracks spaces does the Navy currently 
have? Is the Navy able to determine how many of these spaces are 
adequate?
    Answer. The Navy has more than 100 facilities designated as 
training (dormitory) barracks. This provides approximately 10,000 rooms 
with 39,000 individual spaces in support of Navy training. Based on 
both the condition and configuration of facilities and their quality 
ratings (Q-Ratings), 40% of dormitory facilities are considered not 
mission capable (Q4).

         Marine Corps Barracks Modernization/Growing the Force

    Question. The Marine Corps is on track to meet its Growing the 
Force target end-strength of 202,000 by the end of fiscal year 2009. 
Even though the Marine Corps was provided an unprecedented amount of 
funding for barracks construction in FY09, clearly the MILCON program 
has not moved fast enough to accommodate all new unaccompanied marines 
while satisfying deficit and adequate barracks requirements for the 
pre-GTF force. Please explain the strategy you are using to house 
unaccompanied marines until the Commandant's barracks initiative is 
completed in 2014, with specific reference to the use of relocatable 
facilities and existing inadequate (including gang head) barracks.
    Answer. The Marine Corps is grateful for the support Congress has 
given us, especially your Subcommittee. Barracks are a critical 
facilities element in supporting our war-fighters and the Base Enlisted 
Quarters (BEQ) Campaign Plan is an integral part of efforts to improve 
the quality of life of our enlisted Marines and Sailors in our 
barracks. Because the Marine Corps has a significant and continuing 
barracks requirement, we have dedicated a large portion of our MILCON 
facility investment to barracks replacement projects. Our primary focus 
remains housing our junior enlisted bachelor personnel in pay grades of 
E1 through E5. When the Marine Corps undertook its Barracks Initiative, 
we intended to reach our goal of a 2+0 room standard by 2012 for an end 
strength of 180,000. With the direction to Grow the Force to an end 
strength of 202,000, we have had to push that goal to 2014. It should 
be noted that the Marine Corps has a permanent 2+0 waiver of the 1+1 
module DoD standard.
    The Marine Corps does not currently have existing excess barracks 
capacity at our installations to support this personnel increase. Given 
the expectation that in many locations Marines will arrive under the 
Grow the Force initiative before final construction of associated 
barracks is realized, we are relying on a variety of means to 
accommodate this growth. These means include use of relocatable 
barracks at specific locations, greater reliance on Basic Allowance for 
Housing (BAH), and maximizing the use of existing facilities through 
temporarily increasing densities, slowing the demolition of older 
facilities, and temporarily reducing the size of units we would 
normally require to be housed together under our unit integrity 
concept. For example, where BEQs are underutilized, we will billet 
Marines by unit below the battalion/squadron level (e.g. maintain 
company or platoon integrity) to maximize utilization of the barracks. 
In limited instances, barracks with gang heads that have been kept for 
use in surge conditions, have been utilized.
    All new and replacement BEQ spaces will be constructed to the USMC 
2+0 room standard, with shared rooms (1 Marine per ``space'') for E1-E3 
and private rooms (1 Marine per ``2 spaces'') for E4-E5. Where space is 
limited we are increasing authorization of BAH own-right for senior 
NCOs. This allows senior NCOs to live on the local economy, and helps 
ease the temporary room shortage. On some bases and stations we will 
maximize BEQ efficiency by billeting up to three junior Marines in a 
room and two corporals in a room. As a temporary measure, we will look 
to billet Marines in surge/overflow barracks during whole barracks 
renovations.
    At locations where relocatables are part of our temporary solution, 
we are ensuring they are of a quality and supportability to maintain 
adequate habitability and quality of life for the duration of their 
use, and built well enough to minimize any maintenance tail associated 
with them. They are much more durable, functional, and aesthetically 
pleasing than many previously used relocatable facilities. Use of these 
facilities is also limited to a length of service keyed to the 
completion of the MILCON project they are supporting--they will not be 
kept for future contingencies.
    Thank you again for your continued support of this program. Through 
the great work of our recruiters and outstanding retention efforts in 
the field we will reach our target end-strength ahead of our programmed 
BEQ construction plan; however, we do have a plan that provides 
adequate interim solutions for housing our Marines and will achieve the 
Commandant's desired end state of a 2+0 assignment standard by 2014.

                       Wounded Warriors Barracks

    Question. Please describe the configuration of Marine Corps Wounded 
Warrior barracks, how this differs from standard 2<plus-minus>0 
unaccompanied quarters, and how the layout serves the recovery and 
transition process.
    Answer. All Marine Corps barracks rooms in the Wounded Warrior 
barracks are configured to be fully accessible to the physically 
handicapped. Enhancements in the Wounded Warrior barracks include: 
wheelchair accessibility ramps; larger automated opening doors; 
elevators; Americans with Disabilities Act compliant laundry rooms; 
larger rooms; tilt mirrors; roll-in showers; low sinks and counters. 
Emergency call buttons will be provided to ensure a higher degree of 
safety for Marines who may experience unforeseen complications or 
difficulties during their recuperation. The larger rooms will 
facilitate storage and use of wheelchairs as well as adaptive 
equipment, extra prosthetic devices, and specialized athletic 
equipment. Specialized dietary requirements will be facilitated by the 
on-site common kitchen facility. On-site multipurpose rooms will be 
used for physical therapy, massage, and interactions with health care 
professionals as required. Counseling rooms will be used by a variety 
of transition specialists meeting with Wounded Warriors such as Career 
Retention Specialists; Veterans Administration counselors; Veterans 
Services Organization representatives and Physical Evaluation Board 
counselors. Lounges within the barracks provide the opportunity for 
recovering Wounded Warriors to provide and obtain peer support and 
interaction. The paved fitness trails will provide the degree of safety 
and trafficability required for our Marines who need a level, hard 
surface to recreationally rehabilitate. These enhancements will give 
Wounded Warriors greater mobility to move around and to use the 
facility independent of assistance, and for all our Wounded Warriors 
these enhancements will greatly increase their confidence and morale. 
Our standard barracks do not have all of these enhancements, although 
it is a requirement for all of our newly constructed standard barracks 
to have a minimum of 2 rooms on the ground floor designed as physically 
handicapped accessible rooms.
    Finally, the Wounded Warrior barracks will be part of the Wounded 
Warrior campuses at Marine Corps Bases Camp Pendleton and Camp Lejeune. 
Centralization of the Wounded Warrior population will facilitate 
communication of essential updates and ease accountability for Marines 
and sailors in residence. Consolidation of our Wounded Warriors will 
also reduce the transportation requirement. The many features of this 
robust facility are essential to support the recovery and transition of 
our Wounded Warriors.
    Question. What is the size and composition of a Wounded Warrior 
unit in the Marine Corps?
    Answer. The Wounded Warrior Regiment Headquarters and its 
Battalions are currently staffed as follows:

----------------------------------------------------------------------------------------------------------------
               #Staff:                  MIL     CIV     CTR                           TOT
----------------------------------------------------------------------------------------------------------------
Regiment Staff:.....................      70      19      33  122 (19 of military are mobilized 27%)
Bn East Staff:......................      75       7      21  103 (59 of military are mobilized 79%)
Bn West Staff:......................      61      10      13   84 (38 of military are mobilized 62%)
    Total:..........................     206      36      67  309 (116 of military are mobilized 56%)
----------------------------------------------------------------------------------------------------------------
(#Note: Staff number does not include Marine for Life program which is not dedicated to injured support
  mission.)

WWR Patients Tracked and Owned:

WWR HQ Owned: 10
LODs: 413
ADSW Medical Hold: 10
Medical Hold: 288
District Injured Support Cells: 647
BN East Owned: 362
BN East Tracked: 599
BN West Owned: 56
BN West Tracked: 873

WWR Total: 3,258

                        Family Housing--General

    Question. You state in your testimony that the Army will commit to 
a ``renewed focus and investment'' in housing. What specifically is 
meant by this statement? Do you feel that Army family housing efforts 
have been insufficient?
    Answer. What is meant by the statement is that the Army is 
constantly looking for opportunities to improve its Family housing and 
single Soldier housing programs. We are proud of our programs, but not 
so proud that we think they are perfect. We have standards and 
procedures that specify the conditions in which Soldiers and Families 
should be housed. But where we fall short, we try to learn what went 
wrong, and how to fix it in the future.
    The best way to understand the statement is to examine it in 
context with the portion of the testimony that covered barracks 
programs. In the aftermath of concerns about barracks conditions last 
year, the Army conducted a sweeping inspection of our barracks 
worldwide to ascertain the extent of the maintenance and facility 
issues we were facing. We took immediate actions to correct 
deficiencies whenever they were uncovered.
    We sought to learn from the situation last year by making important 
changes to the way we manage our barracks. The combination of changes 
we have made, under the broad mantle of the ``First Sergeants Barracks 
Initiative,'' exemplifies our overall approach of seeking opportunities 
to improve our housing programs whenever possible.
    Lastly, the Army is focused in our construction, sustainment, 
restoration, and modernization programs to buy out our barracks 
requirements for permanent party barracks by FY 2013 and training 
barracks by FY 2015.
    Housing Market Analyses have identified several Grow-the-Army 
installations that have shortfalls in available family housing.
    Question. Which specific installations have an insufficient end-
state of available family housing, and what is the deficiency at each 
installation?
    Answer. Based on the latest approved Housing Market Analyses (2007-
2008), the following installations are projected to have an 
insufficient supply of Family housing.

    Fort Bliss, TX--2,690 units
    Fort Bragg, NC--150 units
    Fort Campbell, KY--50 units
    Fort Carson, CO--952 units
    Fort Drum, NY--1,762 units
    Fort Gordon, GA--459 units
    Fort Knox, KY--246 units
    Fort Lewis, WA--1,272 units
    Fort Polk, LA--179 units
    Fort Riley, KS--313 units
    Fort Sill, OK--78 units
    Fort Stewart, GA--91 units
    Fort Wainwright, AK--230 units
    USAG Oahu, HI--1,056 units
    White Sands Missile Range, NM--793 units

    Question. Please provide a detailed plan of how the deficiency at 
each installation will be addressed.
    Answer. The Army relies on the local community to provide most of 
the housing for Army Families. All of the installation Family housing 
inventories with projected deficits are privatized or scheduled for 
privatization through the Army's Residential Communities Initiative 
(RCI). Where Housing Market Analyses project an insufficient supply of 
Family housing, the Army has engaged with local community leaders to 
see how we can help to encourage local housing development for 
Soldiers. In several cases, local development alone may be insufficient 
to supply the housing when needed, and therefore, the Army is 
programming additional funding to contribute to the RCI project to 
build additional Family housing units. The list below details the 
Army's strategy to meet Family housing requirements.

    Fort Bliss, TX--Use additional equity (FY08-09) and encourage local 
development.
    Fort Bragg, NC--Use additional equity (FY08).
    Fort Campbell, KY--Rely on local community.
    Fort Carson, CO--Use additional equity (FY08-09).
    Fort Drum, NY--Encourage local development.
    Fort Gordon, GA--Rely on local community.
    Fort Knox, KY--Seek additional equity and rely on local community.
    Fort Lewis, WA--Use additional equity (FY08) and encourage local 
development.
    Fort Polk, LA--Seek additional equity.
    Fort Riley, KS--Rely on local community.
    Fort Sill, OK--Seek additional equity.
    Fort Stewart, GA--Use additional equity (FY09).
    Fort Wainwright, AK--Privatize in FY09.
    USAG Oahu, HI--Rely on local community.
    White Sands Missile Range, NM--Seek additional equity and encourage 
local development.

                            Housing Services

    You state in your testimony that the fiscal year 2010 budget will 
support staff and facilities required to enhance housing assistance 
services for soldiers and families living off post.
    Question. What level of staff and funding increases are necessary 
for this purpose?
    Answer. Current staffing and funding levels are adequate. As Grow 
the Army initiatives are realized at Army garrisons, we will increase 
staffing as necessary. The Army recognizes the various stationing 
actions, combined with the housing market downturn, will result in many 
Soldiers and Families looking to receive help from our housing service 
offices. The Army is focused on improving the quality of the housing 
services we provide, and being responsive to the needs expressed by our 
service members and Families.
    Question. Please provide a specific list of new facilities that 
will be needed to support increased services.
    Answer. No new facilities are currently required to provide 
services. Existing housing offices will be utilized in their present 
locations. The American Recovery and Reinvestment Act of 2009 provides 
funding for the upgrade of three Housing Support Offices, and signage 
and flooring for another 56. We are currently reviewing requirements 
for all garrison housing offices for future programming of repair, 
upgrade, or replacement.

                 Fort Huachuca/Yuma Proving Ground RCI

    The Army recently indicated its intent to award a project for Fort 
Huachuca and Yuma Proving Ground in which the initial development cost 
would be $110.2 million, with the developer securing $90.4 million from 
the private sector and providing $1.8 million of its own equity. The 
balance of the funds, according to Army, would come from ``net 
operating income and interest earned on the construction escrow fund''.
    Question. Please explain in greater detail how this will work.
    Answer. Net Operating Income will be generated through rent 
collections by the RCI project in the process of providing housing to 
residents. This source of funds is the money that is left after the 
expenses of the project have been paid. The RCI project will receive 
rent from residents and will use a portion of these funds to pay for 
utilities, maintenance, and other operating expenses. The money that 
remains after paying project costs will be used as a source of funding 
for a portion of the project's development work, including the 
replacement and renovation of homes.
    Another source of development funds is the interest income that can 
be earned from construction escrow funds. Construction escrow funds are 
designated for building new homes and renovating existing homes over 
the next few years of the project and can be invested in an interest-
bearing account. These funds earn interest income for the project while 
in escrow accounts and the interest earnings add to the total funds 
available for project development.
    Question. Has the Army taken this approach on any other RCI 
projects?
    Answer. Every RCI project has included the Net Operating Income 
generated from the particular project as part of the funding for the 
development of new and renovated homes. This income from each RCI 
project, after covering project expenses, provides a payment to the 
accounts designated for that project's development. Also, each project 
maintains construction escrow accounts that earn interest payments on 
these invested funds until they are withdrawn to construct new and 
renovate existing homes. This interest income serves as another source 
of funds for the development.

                                Barracks

    Question. In May 2008, the Army informed Members of Congress that 
$10 billion in future investment would be necessary to eliminate 
inadequate barracks. Adjusting for fiscal year 2009 funding levels, 
what is the total investment (including military construction and O&M 
funds) that the Army now requires to eliminate inadequate barracks?
    Answer. As of fiscal year (FY) 2009 budget submission, the Army 
needs $8.3 billion from FY10-13 to provide quality barracks that meet 
Army standards for Soldiers in permanent party and training barracks to 
keep the buyout of inadequate barracks on track for FY 2015.
    Question. Please provide a year-by-year funding and project 
schedule that shows how Army will fund the buyout of inadequate 
permanent party barracks by FY 2013, and training barracks by FY 2015.
    Answer. The fiscal year (FY) 2009 President's Budget Request 
identified funding required each year to buyout is as follows:

    Permanent Party Barracks

    $725 million--FY10
    $1.9 billion--FY11
    $1.3 billion--FY12
    $1.6 billion--FY13

    Training Barracks

    $724 million--FY10
    $333 million--FY11
    $913.2 million--FY12
    $816 million--FY13

    Additional funding will be required in FY14-FY15 to complete the 
training barracks buyout. Once the FY10 President's Budget Request is 
released, these figures may change, and we can update you at that time.
    Question. You state that ``any soldier found living in a 
substandard room has been, and will be, relocated.'' For this purpose, 
what does ``substandard'' mean?
    Answer. The term ``substandard'' is defined as housing that does 
not provide a decent, safe, sanitary, and habitable accommodation in 
good repair; housing that does not meet minimum space and privacy 
standards; and housing that does not provide separate and secure male 
and female sleeping and bathroom facilities.
    Question. You state that ``we have transferred barracks ownership 
from deploying units to the garrison in order to better maintain them 
at an acceptable standard. We are now centrally managing our barracks. 
Why didn't IMCOM already centrally ``own'' and maintain barracks? 
Wasn't that part of the purpose for which IMCOM was created? What role 
does IMCOM play in barracks maintenance and repair?
    Answer. From the outset, the Installation Management Command 
(IMCOM) has owned and maintained barracks; however, the day-to-day 
barracks management was shared with the occupying units. The operating 
tempo of the Overseas Contingency Operations revealed that the units 
could no longer devote time to barracks utilization and management. To 
rectify this, IMCOM initiated the First Sergeants Barracks Initiative 
(FSBI), which provides room-by-room barracks accountability. Under 
FSBI, garrisons are now responsible to identify, report, and correct 
barracks deficiencies.
    Question. Under the First Sergeants Barracks Initiative, how does a 
given soldier take concerns about living conditions to the chain of 
command so that an official with the decision making and funding 
authority can correct the problem?
    Answer. Under FSBI, the Soldier takes their concerns about living 
conditions to the Garrison Commander's Housing Office. The Housing 
Office will then ensure the concern is addressed in a timely, 
effective, and economical manner.
    Question. What are the specific responsibilities of the sergeants 
major who have been placed at directorates of public works?
    Answer. The Directorate of Public Works (DPW) Sergeants Major (SGM) 
provide the Garrison Command Sergeant Major (GCSM) with critical 
insight into installation support requirements. DPW SGMs have 
installation engineering and infrastructure management expertise as 
well as vast operational experience that is very valuable to the 
installation. On larger installations, the DPW SGM is responsible for 
monitoring facilities renovations and duties to ensure that all life, 
health, and safety issues are identified and corrected.
    Some of the specific duties performed by the DPW SGM are:
    (1) Meet and foster positive working relationships with all of the 
unit command teams and civilian partners on the installation, 
especially with the installation grounds and maintenance teams and all 
Unaccompanied Personnel Housing (UPH) managers. DPW SGM is a member of 
the Installation Planning Board and a Master Planner with continuity of 
``Soldier Care'' in mind.
    (2) Monitor First Sergeant's Barracks Initiative (FSBI) and 
barracks renovation/construction projects as well as provide input to 
the installation command team and solicit feedback.
    (3) Support the Barracks Manager by being the conduit between 
barracks residents and their chain of command.
    Question. At what threshold do mold conditions in barracks present 
what the Army considers an unacceptable risk to soldier health?
    Answer. The presence of mold is unacceptable from a quality of life 
perspective, even if it does not pose an immediate health risk.
    Black mold, specifically, is toxic and may have an adverse impact 
on a Soldier's health. Upon detection of what appears to be black mold 
by a Soldier or through a routine inspection, the appropriate medical 
officials are notified to determine if the mold is unsafe. An air 
quality test may be conducted if necessary. If mold is found within the 
barracks, all efforts are made to remediate it within 24 hours. If the 
mold cannot be remediated within 24 hours, the affected Soldier(s) are 
moved out of the barracks and housed in a safe environment. Upon 
complete remediation of mold, Soldiers are returned to the barracks.
    Most installations have contracts with service providers that will 
respond within 24 hours. Otherwise, the remediation is done with in-
house staff. The Installation Management Command (IMCOM) is notified of 
any instances of black or toxic mold through a Serious Incident Report. 
The IMCOM Command Sergeant Major is also notified to ensure IMCOM 
headquarters is apprised of the situation.
    Question. How many barracks have been deemed unlivable due to mold 
conditions?
    Answer. The Army has not deemed any barracks unlivable due to mold 
conditions. Upon detection of mold, appropriate actions are taken. 
There have been two instances in which entire sets of barracks have 
been vacated to remove mold; however, the Army has not deemed these 
unlivable as the mold has been successfully remediated. Where mold has 
been a persistent and recurring problem in very humid climates, 
vacating a facility for an extended period can be an effective method 
to ensure that it has been dealt with properly.
    Measures have been put into place to minimize the potential for 
mold growth and regrowth in our barracks. Installation Directorates of 
Public Works are installing proper vapor barriers and special HVAC 
systems with ultraviolet lighting that will kill mold. Barracks are 
also being renovated and upgraded through the Barracks Improvement 
Program to prevent the conditions in which mold grows.
    Question. This Committee has received heightened interest in 
barracks privatization for junior enlisted in the past year. Putting 
aside concerns about the payment of BAH, are there any concerns that 
you have about barracks privatization, speaking purely from the 
installation management side?
    Answer. From the installation management side, some of the concerns 
regarding barracks privatization for junior enlisted Soldiers include 
adjustments to Army culture and command, assignment policies, 
deployment issues and the current state of the financial markets. The 
Army has approved a portion of privatized unaccompanied quarters for 
single Staff Sergeants (E-6) and above at five Army installations where 
there were housing shortfalls for those grades. We will continue to 
monitor the Army's existing Unaccompanied Personnel Housing 
privatization projects as well as the Navy's pilot program.
    Question. What is the Army standard for training barracks?
    Answer. There are different space and privacy standards for 
training barracks based upon Soldier grades and the type of training 
program. Basic Training and One Station Unit Training barracks are 
configured for open bay living spaces with common area latrines. 
Advanced Individual Training barracks are configured for two Soldiers 
per living area with a shared bathroom.

                           Guard and Reserve

    Question. How will the Army increase housing opportunities for 
mobilized Guard and Reserve soldiers?
    Answer. The Army is reviewing how to best accommodate the 
approximate 60,000 Reserve Component Soldiers that mobilize annually. 
The Army is considering establishing primary mobilizations centers 
potentially at Camps Shelby and Atterbury, and Forts Drum, Bragg, and 
McCoy; however, the Guard and Reserve have additional requirements to 
provide quality training facilities at many installations. Much of that 
requirement will be identified in future budget submissions.

                           Warrior Transition

    Question. Provide a list of the 36 Army Warrior Transition Units, 
and the size of each unit.
    Answer. The accompanying list details Warrior Transition Unit 
locations and sizes. The Warrior in Transition population is a snapshot 
in time. Actual numbers of Warriors in Transition is constantly in flux 
as patients complete their treatment and new patients arrive. WTUs are 
closing at the noted locations because of decreasing patient loads, or 
in the case of Fort Lee, realignment with the Fort Eustis WTU.

----------------------------------------------------------------------------------------------------------------
                                                                                Warrior in
                  #                        Installation           Location      transition    Cadre      Total
                                                                                population
----------------------------------------------------------------------------------------------------------------
1...................................  Ft Richardson.........  AK                       105         57        162
2...................................  Ft Wainwright.........  AK                        85         30        115
3...................................  Ft Rucker (WTU          AL                         2          5          7
                                       closing).
4...................................  Redstone Arsenal (WTU   AL                        11          6         17
                                       closing).
5...................................  Ft Huachuca...........  AZ                        50         22         72
6...................................  Ft Irwin..............  CA                        48         17         65
7...................................  Balboa (Navy).........  CA                        63         21         84
8...................................  Ft Carson.............  CO                       534        243        777
9...................................  Walter Reed Army        DC                       683        232        915
                                       Medical Center.
10..................................  Ft Stewart............  GA                       354        169        523
11..................................  Ft Benning............  GA                       307        136        443
12..................................  Ft Gordon.............  GA                       445        160        605
13..................................  Schofield Barracks....  HI                       257        109        366
14..................................  Ft Riley..............  KS                       270        123        393
15..................................  Ft Leavenworth (WTU     KS                        20          4         24
                                       closing).
16..................................  Ft Campbell...........  KY                       512        250        762
17..................................  Ft Knox...............  KY                       308        132        440
18..................................  Ft Polk...............  LA                       180        114        294
19..................................  Ft Meade..............  MD                       108         26        134
20..................................  Ft Leonard Wood.......  MO                       151         54        205
21..................................  Ft Bragg..............  NC                       614        222        836
22..................................  Ft Dix................  NJ                       102         48        150
23..................................  Ft Drum...............  NY                       359        132        491
24..................................  West Point............  NY                       102         33        135
25..................................  Ft Sill...............  OK                        93         42        135
26..................................  Ft Jackson............  SC                        90         35        125
27..................................  Ft Sam Houston........  TX                       568        183        751
28..................................  Ft Hood...............  TX                       734        460       1194
29..................................  Ft Bliss..............  TX                       257        117        374
30..................................  Ft Belvoir............  VA                        68         27         95
31..................................  Ft Eustis.............  VA                       134         51        185
32..................................  Ft Lee (WTU closing)..  VA                        49         25         74
33..................................  Ft Lewis..............  WA                       421        232        653
34..................................  Schweinfurt, Wuerzburg  GE                       143         56        199
35..................................  Heidelberg............  GE                        17         36         53
36..................................  Landstuhl.............  GE                       138         57        195
----------------------------------------------------------------------------------------------------------------

    Question. How are the Uniform Federal Accessibility Standards 
different than the standards established in the Americans with 
Disabilities Act?
    Answer. The Department of Defense (DoD) adopted new accessibility 
standards in 2004 (Americans with Disabilities Act and Architectural 
Barriers Act Accessibility Guidelines) which requires access for 
persons with disabilities to federally funded facilities. The new 
standards replaced the older Uniform Federal Accessibility Standards 
(UFAS) and the Americans with Disabilities Act Architectural Guidelines 
(ADAAG).
    Due to some subtle statutory differences between the Americans with 
Disabilities Act of 1990 (ADA) and the Architectural Barriers Act of 
1968 (ABA), the implementing guidelines for the two laws are similar 
but not identical. In addition, the ADAAG had provisions for features 
and facilities that were not addressed in the UFAS including provisions 
for van accessible parking spaces, public telephones for the deaf 
(TTYs), automated teller machines, and transportation facilities. To 
address these differences, Army Regulation 420-1 requires Army 
facilities to comply with the most stringent accessibility requirement.
    DoD and the Army coordinate compliance issues with the Federal 
Access Board. The United States Access Board was created in 1973 and is 
an independent Federal agency devoted to accessibility for people with 
disabilities. The Access Board is responsible for developing and 
maintaining accessibility guidelines for the construction and 
alteration of facilities covered by the ADA and ABA. The Board develops 
and maintains design criteria for the built environment, transit 
vehicles, telecommunications equipment, and for electronic and 
information technology. It also provides technical assistance and 
training on these requirements and on accessible design and continues 
to enforce accessibility standards that cover federally funded 
facilities. A guide on the Board's website (http://www.access-
board.gov/) provides additional information on compliance with the 
requirements of the ABA and ADA.

                       FSRM funding for barracks

    Question. How much FSRM funding did the Army spend on barracks in 
fiscal years 2007 and 2008?
    Answer. In fiscal years 2007 and 2008, the Army spent about $656 
million ($140.1 million and $515.9 million, respectively) of FSRM funds 
on sustaining, improving and modernizing barracks.
    Question. What is the projected amount of FSRM spending on barracks 
in fiscal year 2009?
    Answer. During fiscal year 2009, the Army has spent, or will spend, 
about $785 million of FSRM funds on sustaining, improving and 
modernizing barracks ($647M Active, $30M ARNG, $8M USAR). On a related 
note, the American Recovery and Reinvestment Act of 2009 (ARRA) 
directed the Army to spend at least $153 million for barracks over the 
course of the legislation's timeframe (which includes FY 2009). The 
Army anticipates spending significantly more on barracks FSRM than the 
Congressionally directed minimum during the course of executing ARRA 
funds.
    Question. What is the projected FSRM requirement for fiscal year 
2010?
    Answer. For fiscal year (FY) 2010, the Army's FSRM models project 
an estimated requirement of about $600 million to sustain, improve and 
modernize barracks. At this time, it is premature to say what amount of 
FSRM funds will be programmed against this requirement. Once the 
President releases the FY 2010 budget, we can provide additional 
information.

                    Government-Owned Family Housing

    Question. In a report to Congress, Army indicated that it has over 
7,200 Government-owned ``adequate'' homes that need repairs or 
improvements costing between $10,000 and $30,000. Although this is not 
explicit in the report, it appears likely that the largest portion of 
these homes is overseas, particularly in Germany. Is this correct?
    Answer. Yes. As a result of privatization, the Army's largest 
number Government-owned, on-post Family housing inventory are located 
at foreign locations. The Army had expected the elimination of all 
inadequate government owned to be funded and completed by 2011 for 
foreign locations. As a result of stationing decisions at Baumholder, 
Germany, this installation's status changed from a non-enduring 
location where no construction funds were programmed, to an enduring 
location. Funding for Family housing replacement projects will be 
considered in future budget requests to eliminate the remaining 
inadequate homes at Baumholder.

                      Privatizing of Army Lodging

    Question. Which installations are in the awarded first group for 
PAL?
    Answer. The first Privatization of Army Lodging (PAL) Group, Group 
A, include: Fort Hood and Fort Sam Houston, Texas; Fort Riley and Fort 
Leavenworth, Kansas; Fort Sill, Oklahoma; Fort Rucker and Redstone 
Arsenal, Alabama; Fort Polk, Louisiana; Yuma Proving Ground, Arizona; 
Fort Myer, Virginia; Fort McNair, District of Columbia; and Fort 
Shafter and Tripler Army Medical Center, Hawaii.
    Although Fort McNair and Fort Shafter were both initially included 
as part of Group A, the due diligence process (conducted in close 
coordination with the Army) determined that the demand at these 
installations is best accommodated at the nearby locations of Fort Myer 
and Tripler Army Medical Center, respectively.
    Question. When will the first group be completed?
    Answer. The first PAL Group, Group A, is scheduled to transfer mid-
2009. The Project is working with the capital markets to finalize 
lending terms. Once transferred, the first phase of development will be 
completed within three years.
    Question. What Federal government contributions are being made to 
the first group project, and how much private sector capital will be 
provided?
    Answer. In 2008, the value of the contributed Army Lodging 
facilities and facility content was determined to be $36 million. There 
is no government cash equity contribution, and the scope of the first 
PAL Project, Group A, is approximately $317 million. All of the $317 
million will be funded through private sector capital and financing.
    Question. What is the timeline for groups two and three?
    Answer. Any follow-on groups will be dependent upon OSD review and 
approval following PAL Group A implementation.
                                          Thursday, March 19, 2009.

                          U.S. PACIFIC COMMAND

                               WITNESSES

ADMIRAL TIMOTHY J. KEATING, U.S. NAVY COMMANDER, U.S. PACIFIC COMMAND
GENERAL WALTER ``SKIP'' SHARP, COMMANDER, REPUBLIC OF KOREA--UNITED 
    STATES COMBINED FORCES COMMAND, AND COMMANDER, UNITED STATES FORCES 
    KOREA

                       Statement of the Chairman

    Mr. Edwards [presiding]. I think we will go ahead and get 
started. We have the staff and the ranking member here, so we 
can move ahead.
    Good afternoon. I would like to call the subcommittee to 
order. We are here today to discuss the basing posture of the 
U.S. Pacific Command and U.S. Forces Korea and the implications 
that ongoing realignments and initiatives will have for 
military construction and family housing.
    Many experts on foreign affairs believe that the 
international system is currently undergoing a great shift in 
relative power from the West to the nations of the Pacific Rim. 
For several years now, we in this subcommittee have been 
discussing the massive realignment of forces that is underway 
in Korea, Japan, and Guam, to better prepare the U.S. to face 
its security challenges of the future.
    This realignment is totally dependent upon billions of 
dollars in military construction funding, which, in conjunction 
with the generous assistance of our Asian allies, will provide 
the facilities that our forces will need to sustain the U.S. 
military power in the region. We will discuss this and other 
regional issues with our witnesses today.
    Before we proceed, I would like to recognize our ranking 
member, Mr. Wamp, for any comments he would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Well, thank you, Mr. Chairman.
    To Admiral Keating and General Sharp, I would just thank 
you for your service. It is extraordinary. I can't help but 
think that Pacific Command and U.S. Forces Korea are in 
excellent hands, even though I know that B.B. Bell left big 
shoes to fill, especially since he is now my most prominent 
constituent.
    And all of our hearts and thoughts and prayers are with 
Katie and the family at this time, where they are--while they 
are waiting hopefully to be able to get in line and take care 
of her physically.
    But there are many challenges. Our subcommittee finished 
its work in a bipartisan, cooperative way on time last year. A 
lot of other things were not finished, so we are very grateful 
for that leadership, because we want to honor all of our men 
and women in uniform on the MILCON side and our veterans that 
have served our country so well.
    We are committed to doing that again. And, frankly, all the 
way from India east, we know that your commands are really 
critical today because of what is happening, west of you and 
all the other infrastructure improvements and the big changes 
in Korea, with our capabilities with housing and moving a base.
    And I talked to Admiral Keating about Guam, because it is 
still the big piece of what is happening there in the region. 
We are interested; we are grateful; we are totally supportive 
in a bipartisan way.
    We welcome you back again today. It is probably going to be 
a crazy 2 or 3 hours here because AIG messes us up. So that is 
all I will say. I know we are going to have votes back and 
forth, but just bear with us. We will get through the questions 
this afternoon.
    We are grateful for your service and every single man, 
woman in uniform that you represent, we want you to know and we 
want them to know through you that we are grateful for their 
service.
    And I yield back.
    Mr. Edwards. Thank you. And well said, Zach.
    Our witnesses don't need an introduction, but they deserve 
one. Admiral Timothy J. Keating assumed Pacific Command on 
March 23rd of 2007. And, Admiral, we are honored that you are 
here with us.
    Admiral Keating. Thank you, sir.
    Mr. Edwards. He has 38 years of service to our nation, 
after graduating from the Naval Academy in 1971. He is a naval 
aviator with over 5,000 flight hours. And the bio also said 
1,200 arrested landings. In case any civilians didn't know what 
that part meant, I was going to leave that out. But I assume 
those are carrier landings?
    Admiral Keating. They are, sir.
    Mr. Edwards. Okay. He was commander of the Northern Command 
and NORAD from 2004 to 2007. And thank you for that service, as 
a native of Dayton, Ohio.
    General Walter ``Skip'' Sharp, General, we are honored to 
have you here again. And thank you for your service, as well.
    He is commander of U.S. Forces Korea and Combined Forces 
Command and United Nations Command since June of 2008. He was 
born, interestingly, while his father was serving in the Korean 
War, another example of the legacy of military families. It 
always humbles me how many military--or military leaders are 
first, second, third generation of service to our country in 
uniform and how many of the children of our top military 
officials have sons and daughters serving.
    General Sharp spent 35 years in service after graduating 
from West Point in 1974. He has had a variety of command posts, 
including commanding troops in Desert Storm, Haiti, and Bosnia. 
He has also served on four Joint Staff assignments. He has 
three children, one of whom is married to an Army major 
stationed in Germany.
    Are they still in Germany----
    General Sharp. Yes, sir.
    Mr. Edwards [continuing]. Right now? He is a native of 
Morgantown, West Virginia.
    Again, as Mr. Wamp said, we are very honored that you are 
here and, most importantly, for your lifelong service and 
leadership to our country and to our military.
    We would like to recognize you each for opening statements. 
We will put any longer, formal statement into the record, but 
we would like to recognize you now.
    Admiral.

                Statement of Admiral Timothy J. Keating

    Admiral Keating. Great. Thank you, Chairman, Representative 
Wamp, Mr. Farr, Mr. Dicks, good to see you all. Thanks for this 
opportunity. I have the rare privilege of--how do you do, sir--
representing the 325,000 soldiers, sailors, airmen, Marines, 
and Department of Defense civilians who work for us all in the 
United States Pacific Command.
    You mentioned a point, Chairman. To elaborate, Skip has kin 
that are in service. My dad was in the Navy in World War II in 
the Pacific, so it is a great privilege to follow in his 
footsteps. And our son and son-in-law are both F-18 pilots in 
the United States Navy.
    Mr. Edwards. Wow. That is a great legacy. Thank you for 
that.
    Admiral Keating. The beat goes on.
    If I could take a second of the committee's time to kind of 
go over the strategy--of the Pacific Command and tee it up in 
kind of a numerical fashion, we are privileged to represent 
folks who occupy about 50 percent of the service of the Earth, 
half the world's population, 36 countries in our AOR.
    Five of our Asia Pacific nations are allied to us through 
formal treaties. Skip lives in one of them. We have the most 
populous nation, the largest Muslim population, and the largest 
democracy in our area of responsibility. We have about two-
thirds of the U.S. two-way trade that is conducted in our AOR.
    Interestingly, 15 of the 20 largest ports in the world by 
volume are in our AOR. Nine of those are in China. Shanghai is 
now the biggest port in the world by volume.
    We are pleased with the general state of affairs, and we 
will be happy to entertain all questions about those affairs in 
our region. And we are optimistic about continued progress.
    We are very proud of our legacy and the leadership role 
that we have been able to assume in the region. And we are 
committed to guaranteeing continued success.
    We want to ensure our capacity and capability both enable 
us to succeed in our primary mission of defending our homeland 
and the interests of our nation and our allies.
    To do all that, we employed a partnership readiness 
presence strategy. We think it is a blueprint for enhancing our 
relationships, and this is a very critical notion for us. It is 
not just the United States Pacific Command. It is all of the 
agencies of the federal government, the countries with whom we 
deal, their militaries, their governmental agencies, and 
increasingly the private sector that help us form this 
cooperation and collaboration partnership that we think is 
working very well.
    We have been to 27 or 28 of those 36 countries in the 2 
years we have been in command. And a theme that is 
unmistakable, it is expressed in varying degrees, but those 
countries view us, the United States, not just Pacific Command 
or U.S. Forces Korea, as the indispensable partner.
    Now, some of them advertise it a little more vocally than 
others. Some trumpet it; some keep it very quiet. But it is an 
unmistakable theme, and we are looking to capitalize on that.
    Now, for all of that, level of stability and somewhat 
gradually increasing prosperity for all of those in our country 
and the increase of democracy throughout our region--India, for 
example, has elections coming up, as does Malaysia, Japan 
likely to, all of these democracies in action, there are 
challenges in our area of responsibility.
    Foremost among them, we are dedicated to curtailing and 
extinguishing the spread of violent extremism throughout all of 
the Asia Pacific region. Events in Mumbai and ongoing events in 
the southern Philippines, in particular, reinforce to us the 
importance of our mission, progress being made in those 
countries and in those areas that we think is significant and 
bodes well for success in the future.
    A second area of concern--and Skip lives with this on a 
daily basis--technology proliferation, the possibility of 
chemical, biological, or nuclear weapons, worse case of all, to 
include space and missile systems, and that, of course, 
includes North Korea. And we would be happy to field your 
questions on developments in North Korea, Skip being the guy 
who handles that as an expert on a daily basis.
    Finally, a few words about the People's Republic of China. 
We made real headway, we thought, in the first half of 2008. 
Then we had events, including denial of the port visit by naval 
ships, and Taiwan--and China's suspension of mil-to-mil 
discussions following the announcement of the next round of 
Taiwan arms sales. So we have not had any significant military-
to-military dialogue with the People's Republic of China in 
over 6 months.
    So the relationship is clearly not where we would like it 
to be. We are also concerned significantly with the People's 
Liberation Army Navy and other agencies' activity in the South 
China Sea, as demonstrated by their efforts to get the USNS 
Impeccable to leave its location in an international operating 
zone, well clear of Chinese national waters, of a couple of 
weeks ago.
    We have resumed our operations there, as it happens. We are 
escorting as we speak the next vessel that is conducting that 
oceanographic research for us, U.S. armed combatant. It is out 
of sight of our ship now, but we will continue to provide 
response, if necessary, should the Chinese give us further 
reason to look very carefully at their behavior in a maritime 
domain.
    All that said, I remain cautiously optimistic about the 
future of our relationship with China. It is of significant 
importance to us. We think there is little merit in operating 
in two separate spheres, so we are looking to bring the mil-to-
mil relationship back on a more collaborative and cooperative 
basis, hopefully in the near term.
    So thanks for giving us the privilege of giving you a 
little bit of the United States Pacific Command perspective. We 
are always anxious to have members and staffers come out and 
visit us to see the young men and women who are doing the real 
essential work for our nation's success in what we think is an 
increasingly Asia Pacific-oriented world.
    Thank you, Chairman.
    [The prepared statement of Admiral Timothy J. Keating 
follows:]

[GRAPHIC] [TIFF OMITTED] T0526B.001

[GRAPHIC] [TIFF OMITTED] T0526B.002

[GRAPHIC] [TIFF OMITTED] T0526B.003

[GRAPHIC] [TIFF OMITTED] T0526B.004

[GRAPHIC] [TIFF OMITTED] T0526B.005

[GRAPHIC] [TIFF OMITTED] T0526B.006

[GRAPHIC] [TIFF OMITTED] T0526B.007

[GRAPHIC] [TIFF OMITTED] T0526B.008

[GRAPHIC] [TIFF OMITTED] T0526B.009

    Mr. Edwards. Admiral Keating, thank you very much.
    General Sharp.

                  Statement of General Walter L. Sharp

    General Sharp. Chairman Edwards, Representative Wamp, and 
distinguished members of this panel, it is indeed an honor for 
me to be here today. And it is a real privilege for me to 
represent the soldiers, sailors, airmen and Marines, DOD 
civilians, and all the families that serve in the Republic of 
Korea today.
    On behalf of all those outstanding men and women, I really 
want to express our thanks to this subcommittee for all that 
you have shown to support our operations and our quality of 
life in Korea.
    Your support allows us to promote peace and stability on 
the Korean peninsula and improve security in Northeast Asia 
and--which is, I think, very important, given the national 
security interests that we have in the Republic of Korea and in 
all of Northeast Asia.
    The United States does have a significant national security 
interest in Northeast Asia. The Republic of Korea plays a vital 
role in the region that accounts for 22 percent of all the U.S. 
trade in goods. It is a first-class economic power, our 
seventh-largest trading partner, and one of the most 
technologically and scientifically advanced countries in the 
world.
    It has been a partner with us around the world, and it has 
proven to be, I believe, the strongest alliance that we have, 
an alliance that is forged in blood and is maintained by 
enduring commitments and friendship of the Korean and American 
people.
    The Republic of Korea armed forces have fought alongside 
Americans in Vietnam. They participated in Operation Desert 
Storm. They deployed forces to Iraq and Afghanistan. The 
Republic of Korea is currently participating in six U.N. 
peacekeeping missions around the world today. They recently 
deployed a 4,500-ton destroyer and anti-submarine helicopter 
off the waters of Somalia to fight piracy operations.
    I also want to thank you all, the members of Congress, for 
passing the legislation that elevated the Republic of Korea 
foreign military sales status to a level that is on par with 
the countries of NATO, as well as other nations with 
longstanding U.S. allies.
    Currently, the Republic of Korea has over 560 FMS cases 
that are open, for a total value of over $12 billion. And this 
legislation will go a long way to enhancing the alliance's 
combined warfighting capability.
    And when I came into command, I established three 
priorities. The first is to be prepared to fight and win, and I 
can report to this committee that our alliance, the ROK-U.S. 
alliance, and all the servicemembers of that alliance are 
strong and we are ready to fight and win against any 
contingency on the peninsula today, all the way from 
instability up to major combat.
    And my second priority was to strengthen the alliance, 
strengthen this strong U.S.-ROK alliance. We are adapting to 
what we need in the future for an alliance.
    So on the 17th of April, 2012, the Republic of Korea, this 
professional military force in Korea, will take command of the 
war fight, where today CFC, my--wearing my hat as the Combined 
Forces Command commander, we command the war fight. After 17 
April, 2012, they will do it, and the U.S. will be in a 
supporting, to supported role after 2012.
    That does not lessen our requirement there; it just changes 
it. And I do believe that the force level that we have in Korea 
right now and the commitment we have in Korea forces-wise and 
capability-wise is about right for the foreseeable future.
    We have 28,500 servicemembers in Korea right now. And I 
believe that to be about the right number. We need to make sure 
that we continue to evolve the alliance so that, capability-
wise, both the U.S. and Korea--alliance is possible as we move 
to the future.
    The Korean military will be ready for this change in 2012. 
We are already starting to practice it now in our exercise 
program and all that we are doing to prepare for it. And I am 
confident that we will be able to accomplish that task.
    My third priority was to continue to improve the quality of 
life for all of our servicemembers, DOD civilians, and their 
family. My real goal is to make Korea the assignment of choice 
anywhere in the world. Recently, the Department of Defense 
authorized us to move to 3-year tours for our accompanied 
servicemembers. We will do that over time, as infrastructure 
becomes available for those forces, so we don't bring families 
to Korea before the infrastructure is there to support it.
    We have just over 2,000 command-sponsored families now in 
Korea. Our goal and the service's goal, by this time next year, 
we will at least double that. I have the services to be able to 
accomplish that.
    And then, as we move to Camp Humphreys and as we continue 
to build down with that first-class installation post down 
there, we will be able to continue to bring more families to 
eventually get to the point where all servicemembers who are 
married can come accompanied and come for 3 years.
    The 3-year tour is tremendously important for me and for 
the command. It greatly increases my capability. And instead of 
having to train a new servicemember every year, I now have them 
for 3 years. It reduces the stress on our military around the 
world. Why have an unaccompanied tour anywhere in the world if 
you don't have to? And you don't have to in Korea.
    And then, lastly, it really shows the U.S. commitment to 
not only the Republic of Korea, but Northeast Asia, which I 
believe is critically important for this important part of the 
world to keep the stabilization that we have there now and in 
the future.
    As we move south, as you know, there are two parts of the 
program. The first is the Yongsan relocation program, which 
moves U.S. forces that are currently stationed in Seoul to U.S. 
Army Garrison Humphries, which is about 40 miles south of 
Seoul.
    The second part is the land partnership plan, which 
provides for the relocation of the 2nd Infantry Division. That 
is up north near the demilitarized zone, and moving them also 
down to the Camp Humphries area. This will significantly 
improve the quality of life for all of our servicemembers and 
their families as they move, really, into world-class training 
and living facilities.
    The great majority of the cost for the Yongsan relocation 
plan are paid through the Republic of Korea. I do thank the 
committee for the $125 million to MILCON that is already 
appropriated to start the family housing project down there. 
That is extremely important, and I ask for the continued 
support.
    Land partnership costs are shared between the Republic of 
Korea and the United States. The new special measures 
agreement, which is the burden-sharing agreement that was just 
agreed to by both governments and both legislatures--or by the 
national assembly of the Republic of Korea, it is a 5-year host 
nation cost-sharing agreement that was concluded between our 
two nations.
    This provides burden-sharing money for Korean labor, 
logistics cost-sharing, and a portion of the costs associated 
with the realignment of our forces. The vast majority of 
burden-sharing money goes directly back into the Korean 
economy, while reducing the U.S. Forces Korea's appropriated 
MILCON requirement, thus benefiting both nations.
    Appropriated MILCON funding, resources obtained from host 
nation construction funding, construction activity provided by 
in-kind basis of the Republic of Korea, and investment from the 
commercial sector and public-private ventures are the key 
components to our overall funding strategy for this 
transformation.
    I ask for your continued support for future appropriated 
MILCON funding requests that will provide facilities essential 
to the success of the relocation of U.S. forces in Korea.
    While we continue to commit funding toward our ongoing 
relocation efforts--on the Yongsan relocation and the land 
partnership program, we must also not lose sight of the urgent 
need to maintain our existing and our enduring infrastructure 
in facilities that support operations today and in the future 
in Korea.
    And I ask for your continued support for resources to 
recapitalize our enduring facilities that we will--that we have 
now and will continue to need in the future.
    I thank you for the support of this subcommittee that you 
have provided for our servicemembers, DOD civilians, and family 
members serving in Korea. And I hope for your continued support 
when the fiscal year 2010 budget is established in the Future 
Years Defense Program is formulated.
    I look forward to working with you for our alliance 
transformation efforts and providing our men and women the very 
best working, living, and training environment possible in the 
Republic of Korea. And I look forward to your questions.
    [The prepared statement of General Walter L. Sharp 
follows:]

[GRAPHIC] [TIFF OMITTED] T0526B.010

[GRAPHIC] [TIFF OMITTED] T0526B.011

[GRAPHIC] [TIFF OMITTED] T0526B.012

[GRAPHIC] [TIFF OMITTED] T0526B.013

[GRAPHIC] [TIFF OMITTED] T0526B.014

[GRAPHIC] [TIFF OMITTED] T0526B.015

[GRAPHIC] [TIFF OMITTED] T0526B.016

[GRAPHIC] [TIFF OMITTED] T0526B.017

[GRAPHIC] [TIFF OMITTED] T0526B.018

[GRAPHIC] [TIFF OMITTED] T0526B.019

[GRAPHIC] [TIFF OMITTED] T0526B.020

[GRAPHIC] [TIFF OMITTED] T0526B.021

[GRAPHIC] [TIFF OMITTED] T0526B.022

[GRAPHIC] [TIFF OMITTED] T0526B.023

[GRAPHIC] [TIFF OMITTED] T0526B.024

[GRAPHIC] [TIFF OMITTED] T0526B.025

                   MOVING TROOPS FROM OKINAWA TO GUAM

    Mr. Edwards. Thank you. Thank you, General Sharp. Thank you 
both for your testimony.
    Members, since we may be having votes today and today is 
the last day of votes for the week, why don't we stick pretty 
closely to the 5-minute rule for the first round, to give 
everybody a chance to have at least one round of questions?
    And I will just begin, Admiral Keating, by asking you, are 
we still on track for the 2014 move of our troops from Okinawa 
to Guam? And if so, are there any potential roadblocks that 
might push that deadline back?
    Admiral Keating. Chairman, we are on track. The Secretary 
of State just reaffirmed our national commitment, along with 
Japan's commitment, to the Defense Policy Review Initiative, a 
subset of which is the agreed implementation plan. That is the 
movement of 8,000 Marines and several thousand dependents from 
Okinawa to Guam.
    The fiscal year 2010--as Skip mentioned, the budget that 
comes over, I don't know what monies are in this year's budget 
for the movement to Guam. It will be--it is an expensive 
proposition for both the United States and Japan. Our countries 
are equally committed.
    There will be challenges and road bumps, Chairman, as you 
say, including perhaps the construction of the Futenma 
replacement facility on the northeast coast of Okinawa. It is a 
sophisticated engineering project. There is water there right 
now. They are going to have to, you know, landfill and runway.
    The infrastructure in Guam will need some attention. So it 
will be, by all accounts, a very challenging undertaking. Our 
countries are both committed to it. And Guam, of course, 
remains just a strategic lynchpin for us, the United States 
Pacific Command all throughout the Asia Pacific region.
    Mr. Edwards. Great. Thank you very much for that. And let 
us know if there are roadblocks that deal with military 
construction projects----
    Admiral Keating. All right, sir.
    Mr. Edwards [continuing]. That we need to look at.

                  U.S. FORCES KOREA TOUR NORMALIZATION

    General Sharp, I am so thrilled to hear about your long-
term plans for Korea and accompanied tours there. This 
subcommittee has expressed on a bipartisan basis year after 
year, going back to Leon LaPorte and General Bell, the concern 
that you come off a tour of duty in Iraq or Afghanistan, you go 
back to your installation CONUS, and then you are deployed to 
Korea, and perhaps away--90 percent of married soldiers are 
away for another year from their families.
    What percent of the soldiers now that are married have 
their families accompanying them? Are we still in the 10 
percent range?
    General Sharp. Sir, we currently have--we believe, of the 
28,500, about half of those are married. So if you take 
ballpark numbers, 14,000 are married. We have just over 2,000 
command-sponsored families that are there right now, so 2,000 
of 14,000.
    I do need to also point out that we have another 1,900 
families or so that are not command-sponsored, families that 
said, ``I am not going to spend another year away from my 
servicemember. I am going to come and live on the economy in 
Korea.''
    General Bell did exactly the right thing. We are paying a 
housing allowance for them to live off-post. They get TRICARE 
Standard instead of TRICARE Prime. So there are some 
differences and there are some out-of-pocket expenses that 
those non-command-sponsored families have to do.
    This new ruling that really went into effect in early 
December, but all the regulations were finally changed about 3 
weeks ago, will allow me to take the great majority of those 
1,900 families and offer to them, do you want to stay another 
year and become command-sponsored and get all of the benefits? 
I think a large number of them will take us up on that as we go 
forward.
    Mr. Edwards. The fact that there are 1,900 who would go not 
command-sponsored shows the needs and wants of families to be 
together. And the thought that any single family has to take 
money out of their own pocket in order to be together while 
they are serving our country concerns us all.
    And I--one other question. I am going to take one more 
minute within my timeframe. Do you have a game plan? We had a 
military construction budget over the next 5 years that shows 
us, 2 years from now, we will be at--instead of 13 percent 
today, we will be at 20 percent. Do we have any kind of a 
timeline on that?
    General Sharp. Sir, the timeline that I have takes me out 
to about the 2015, 2016 time period. And that construction does 
not get me all the way to the endpoint of all families.
    During that period between now and 2015, 2016, allows me to 
complete the building of Camp Humphries, which, when that is 
complete, will be, I believe, the best base anywhere in the 
world. It is a base that is being designed from the ground up. 
It is----
    Mr. Edwards [continuing]. Fort Lewis. [Laughter.]
    Mr. Farr. He is probably right. [Laughter.]
    General Sharp. It is a cost-sharing between us and the 
Republic of Korea. The family housing in--that is going to be 
put there is an Army initiative of a Humphries housing 
opportunity program, which are being paid for by private 
investors that are there.
    As we progress past that point, we will have to continue to 
work with--I will work with my department and this committee in 
order to be able to establish what MILCON needs, because the 
more MILCON, obviously, we get, the quicker we can get to the 
end state we all want.
    Mr. Edwards. If you would send us the timeline you 
presently have and what percentage accompanied families you 
could have with that timeline, then we could look at whether 
over time we could speed that up.
    General Sharp. Will do. Yes, sir.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0526B.026
    
    Mr. Edwards. Thank you. General.
    Mr. Wamp.

                  NORTH KOREA AND OCEANIC COOPERATION

    Mr. Wamp. Admiral Keating, having been in the last year to 
Japan and Shanghai and Singapore and down in Oceania, you 
talked about the Asia Pacific Command and how important it is. 
Can you generally give us an idea where you see the most 
troubled waters, no pun intended?
    I mean, I would think that Oceania, Oceania is pretty 
stable and pretty peaceful. You get over into Indonesia. You 
still think some radicalization takes place there? You talked 
about Mumbai, which was a little--not a little--a serious, 
serious flare-up that the Indian government has handled, I 
think, pretty well, given the delicacies of Pakistan to the 
west, et cetera.
    And then you come back into the Pacific Rim, headed north 
to Korea, and we all know, you know, the tensions still there. 
And I am just interested in where you see the real challenges 
in terms of our capability.
    And I know we are on the MILCON side, but we have to have a 
pretty good understanding of where the investments need to be 
made and why.
    Admiral Keating. Yes, sir. Right this minute--the area of 
greatest concern to us is, of course, Skip's. Activities of Kim 
Jong-il and his military leaders are of significant concern to 
us.
    There is the positioning of missile launch equipment around 
the Taepo dong. There are significant efforts underway, of 
course, at the State Department. We are in support of and 
coordinating with State on those efforts.
    Activities that China demonstrates in the South China Sea 
are of concern. Balance that, very--quite interesting to us, 
they have three ships that are in the Gulf of Aden, Central 
Command area of responsibility, but they are doing a pretty 
good job, to their credit, of executing their mission to 
decrease piracy in the--off the coast of Somalia and Yemen.
    So North Korea on a day-to-day basis probably our most 
significant military concern. The development of a reasonable 
relationship with China on a mil-to-mil basis, as would reflect 
their incorporation of increased transparency and better stated 
intentions on a mil-to-mil basis, and across the entire 
spectrum of global economics and strategy, those two areas 
would be of foremost concern to us.
    You mentioned Oceania. Our great partners, Australia and, 
importantly, New Zealand, while we have a difference in policy 
with New Zealand, they are helping us keep a very--a weather 
eye on all of the southern reaches of the Asia Pacific waters, 
and their efforts have been significant in, for example, Fiji, 
a coup there, but they have forces that are still there in 
Fiji.
    Timor-Leste, Australia has helped Timor-Leste introduce 
democracy to that nation. And the enforcing of fishery concerns 
for those small nations who depend for their livelihood on 
being able to continue to harvest the waters of the world, and 
our Coast Guard does a great job of helping us there, too.
    So there are areas that I would pay pretty close attention 
to.
    Mr. Wamp. Well, in this series of questions, I am going to 
take that to General Sharp and say, you mentioned about kind of 
the pullback of some of your forces from the demilitarized zone 
above Seoul, which we talk still about this threat, and then 
Camp Humphries being well below Seoul.
    And I know, from last year's testimony, how important it 
was for the Republic of Korea to free up that space so they can 
grow their city and you can go south. But if we go south and 
the trouble is still north, explain to us, in terms of the 
capabilities--I know that is not a bad--not a fun post north of 
there, but you still maintain a presence, in terms of a 
deterrent, I assume.
    Tell us, who will still be up there and why certain troops 
are able to mobilize south of Seoul?
    General Sharp. Sir, the great, great majority of the ground 
forces that would stop a North Korean attack are Republic of 
Korea forces. The Republic of Korea army and, really, the 
entire forces, but especially their army are first-class. And 
they have the responsibilities and the ability to be able to 
stop that ground attack.
    What we bring in the early parts of the war are primarily 
air and naval air assets, to be able to take down the long-
range artillery. So moving what we have in 2nd Infantry 
Division out of Camp Casey and Camp Hovey north of Seoul does 
not degrade my warfighting capability.
    In fact, in a sense, it increases it, because instead of 
being scattered at dozens of camps all across, you know, the 
northern part--north of Seoul, I am now consolidated to allow 
2nd Infantry Division to do what they really need to do during 
the first days of the war, which are help NEO, to get our 
family members out of there, and that consolidation helps with 
that, also, in the moving south, but, more importantly, to 
bring additional forces into Korea. They have a responsibility 
to do that, too.
    The deterrent value is, we are still in Korea. And the 
deterrent value, I believe, increases with the more families 
that we bring to Korea, because it demonstrates the commitment 
that the United States has to the defense of the Republic of 
Korea.
    Mr. Wamp. Is that 28,000 number pretty constant, sir?
    General Sharp. Sir, it is now. It has not been over time. 
We were, 10 years ago, at about 37,500. Secretary Rumsfeld in 
2003 had a goal of bringing it down to 25,000. Last April, 
President Bush at the time and President Lee, on President 
Lee's first visit, his first visit off the peninsula, which was 
to the United States, came and they had agreed to keep the 
force level at about what it is right now, which is 28,500.
    Again, I believe that is about the right level for now and 
for the foreseeable future.
    Mr. Wamp. And how many in Japan, Admiral Keating?
    Admiral Keating. About 50,000.
    Mr. Wamp. Fifty thousand?
    Admiral Keating. Yes, sir.
    Mr. Wamp. Okay.
    Mr. Chairman.
    General Sharp. Sir, I would also point out, on Japan, they 
also--you know, I have seven bases that are United Nations 
Command bases in Japan, which are tremendously important for 
the war fight, because they help flow through our forces and 
bring ammunition and fuel from them. So it really is a good 
teaming in order to be prepared to go to war.
    Mr. Edwards. Great. Thank you, Mr. Wamp.
    Mr. Farr.

                  NAVAL POSTGRADUATE SCHOOL DIVERSITY

    Mr. Farr. Admiral Keating, General Sharp, thank you for 
your service and thank you for being here in our MILCON 
committee.
    I have three questions, and I am not going to be able to 
come back for a second round, so I am going to try to get them 
all out now.
    I represent the Naval Postgraduate School in Monterey. And 
I know PACOM has a lot of interaction with it. One of the 
things I am hearing about is the dramatic reduction in both the 
number and diversity of international students due to flat 
funding of the IMET funding, which no longer will cover the 
travel and living expenses adequately for some of these foreign 
officers.
    In your respective commands, is there anything you can do 
to help increase the budget for IMET? Because I know IMET is 
important to you.
    Admiral Keating. They are huge to us at Pacific Command, 
and I am sure to Skip, as well. We ran the numbers. There are 
about 185 foreign military students in our military institute--
educational institutions in the United States. There are 75 
young men and women in our service academies.
    Our view is, is this is a relatively small investment that 
can yield a substantial and long-term dividend. I was unaware 
that there had been restrictions imposed on Dan Oliver and the 
Postgraduate School.
    Mr. Farr. They flat-funded it, so the increased cost of 
travel and living expenses are not included.
    Admiral Keating. Enthusiastically endorse a consideration 
by--I think it is a Department of the Navy program probably, 
but--broad support on that one, sir.
    Mr. Farr. Anything you can do to help, I would really 
appreciate that.
    Mr. Edwards. We will take it under consideration. 
[Laughter.]
    Mr. Farr. The Naval Postgraduate School is widely 
recognized for its expertise in its security sector reform 
programs, such as the Center for Military--Civil Military 
Relations and the Center for Stabilization and Reconstruction 
Studies. These programs address the critical educational needs 
in building stabilization and reconstruction capability, both 
home and abroad in places like Nepal, Sri Lanka.
    I wonder if you had any plans to increase the PACOM 
utilization of these programs--civil military and CSRS.
    Admiral Keating. You bet. And thank you for the question.
    We have Lieutenant General John Goodman, recently retired 
Marine three-star, who was heading our Center of Excellence for 
the United States Pacific Command. And one of the areas that 
he--in which John is going to concentrate is the increasingly 
multilateral, multinational approach to training folks to 
prepare for conflict and the consequence management attendant 
to conflict and natural disaster.
    And so those areas that you cite, kind of the phase four 
part of our operations, are of significant importance to us and 
to Skip. And in our former lives, we have seen manifestation of 
the need for more work in that area. So we----
    Mr. Farr. Well, I am very excited to hear that. We have had 
previous commands come in here and tell us how much need there 
is to build that capacity. And, obviously, you have endorsed 
that, as well.
    Admiral Keating. Yes, sir.
    Mr. Farr. I appreciate that.

   NAVAL POSTGRADUATE SCHOOL AND COOPERATION WITH OTHER COUNTRIES ON 
                           SEARCH AND RESCUE

    I am aware that PACOM and the Naval Postgraduate School's 
Center for Asymmetric Warfare had been working with the 
Vietnamese government on increasing their capacity to do search 
and rescue. And I wondered if that program could also be 
extended to Cambodia, Indonesia, and Malaysia?
    It is a no-brainer that the more capacity capabilities we 
can provide to our allies, the less cost it is going to be for 
us.
    Admiral Keating. You bet. You are exactly right, 
Congressman. We would, again, enthusiastically endorse an 
expansion of that training opportunity. We will take that one. 
I was unaware that--I don't think we are excluding those 
countries.
    [The information follows:]

    The Vietnamese Government is very restrictive when it comes to 
military-to-military engagements. Our engagement with Vietnam has 
concentrated mostly in the medical and engineering arenas. The Naval 
Post Graduate School's Center for Asymmetric Warfare involvement with 
the Vietnamese government serves as a way to engage with Vietnam in a 
non-threatening way, which benefits both the United States and Vietnam. 
Increasing capacity to conduct Search and Rescue just happens to be a 
priority for the Vietnam Government. As far as expanding this 
capability to Cambodia, Indonesia, and Malaysia, it is something that 
we are not excluding from these countries, however within our bilateral 
engagements, search and rescue is not a priority for these countries; 
therefore they are not looking to benefit from the Center for 
Asymmetric Warfare.

    Search-and-rescue exercises are fairly fundamental. They 
are not rudimentary, but they are simple. They are not very 
complex, and they don't involve elaborate command-and-control.
    We are able to conduct those with China through their 
offices in Hong Kong. Now, it is technical--complicated 
relationship.
    We have also proposed doing them with China. We do them 
with Russia on a fairly regular basis. So search-and-rescue 
exercises are an important step in a developing exercise 
program with these countries, and we would be delighted to do 
them with the countries that you mentioned.
    Mr. Farr. Thank you very much.
    I don't have any further questions. I appreciate your 
enthusiasm and your service.
    Admiral Keating. Thank you, sir.
    General Sharp. Thank you, sir.
    Mr. Edwards. Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    And welcome back, Admiral Keating.
    General, nice to see you.

                   NUCLEAR POWERED AIRCRAFT IN JAPAN

    Let me start by asking Admiral Keating about the process in 
Japan, when it went from a conventional carrier to a nuclear 
carrier. As you may know, I represent Naval Station Mayport, 
which is in northeast Florida. And the Navy, as you know, has 
just made a decision to make Mayport capable of homeporting a 
nuclear carrier.
    And so, as we work with you and your predecessor to go 
through that in Japan, things worked pretty well. And just a 
couple of questions.
    One, do you recall--just a ballpark number--how much it 
cost to go through all of that in Japan? And I know Japan paid 
part of the cost. But do you recall what some of those numbers 
are?
    Admiral Keating. Congressman, I don't. We will get that for 
you. It is a number that someone will have readily available. I 
just don't have it off the top of my head.
    [The information follows:]

    The total facilities cost to support a nuclear powered aircraft at 
Yokosuka was approximately $314 million in U.S. dollars. This cost was 
shared between the U.S. Navy ($176 million) and by the Government of 
Japan ($138 million). The cost breakdown follows.
    The U.S. Navy cost included; berth 12 upgrades to support nuclear 
aircraft carrier (US MILCON P-998) at $67 million (4160 volt AC shore 
power, high quality water production facility, and maintenance support 
facilities), co-generation power plant (Navy Energy Savings Performance 
Contract) at $95 million, various facilities repairs (Operations and 
Maintenance, Navy funds) at $7 million, and various support equipment 
(Other Procurement, Navy) at $7 million.
    The Government of Japan cost (Host Nation Funded Construction) 
included; berth 12 upgrades for aircraft carrier at $108 million and 
bay dredging at $30 million.
                        [corrected pacom answer]
    There is no controlled industrial facility (CIF) in Japan. CIFs are 
radiological work facilities that exist only within the United States 
to support shore based radiological work associated with nuclear 
powered warships. Work involving radioactivity from the propulsion 
plant is never accomplished ashore in Japan.

    You are right. It is not an insignificant sum of money. I 
would guess--and we will confirm--it is in the hundreds of 
millions of dollars. There are nuclear safety certifications. 
There are water depth concerns. There are electrical loading 
and certain laboratory facilities that aren't normally 
attendant to conventional ship stationing, but I will get you 
as accurate a figure as I can.
    Mr. Crenshaw. Because we are waiting. We are hoping that--
actually, I just had a meeting with Admiral Alexander, who is 
head of the Navy Region Southeast and they are sharpening their 
pencils and tell us how much it is going to cost to do Mayport.
    And we are expecting it to be in the MILCON budget that the 
president submits. So I was just curious. We can kind of 
compare that.
    And one of the other things, sir, is do you know--when you 
forward deployed an aircraft carrier, I know one of the big 
items that will be at Mayport--and I visited in San Diego, they 
built what they call a controlled industrial facility, which is 
the--really works on the nuclear propulsion, very specific to 
nuclear carriers--did they build one of those? Is there one of 
those in Japan?
    Admiral Keating. Yes, sir. That is a going in--I mean, that 
is a dealmaker for our friends in the Navy. If those facilities 
aren't there, and nuclear safeguard assurances can't be 
provided, then we don't either send a nuclear--we don't 
permanently station a nuclear carrier in a place that doesn't 
have them.
    Mr. Crenshaw. I got you. And I assumed that. If you have--I 
think one of the justifications for going to Mayport was the 
only controlled industrial facility on the East Coast is in 
Norfolk. And it would provide a backup, now on the west coast 
you have three, so that is helpful.
    But if you could give us an idea----
    Admiral Keating. Yes, sir, we will.
    Mr. Crenshaw. General Sharp, just real quickly. Before my 
time expires, I want to welcome you.
    And, by the way, on a personal note, my intelligence tells 
me you just became a grandfather for the second time.
    General Sharp. That is good intel.
    Mr. Crenshaw. I need a little help, because my daughter is 
going to have her second child in the next month or so, so we 
will compare notes. And I know it was great the first time; I 
am sure it is even better on the second time. So thank you for 
your service.

                                 KOREA

    To hear all the good things happening, I first visited 
South Korea right around about 2002, and the living conditions 
weren't so great, the relationship wasn't so great. And things 
have really turned around.
    But one of the things I remember--it was about 2002, and 
they were just getting ready to kind of put in place the Good 
Neighbor Program, because there had been some incidents with 
the civilians and our folks. And I know that was going to just 
try to build a better alliance.
    And maybe if you could just briefly tell us, number one, 
what were the tenets of that? How is it working? And are there 
things that you see we could do better? And then, three, is 
there anything we ought to do as a subcommittee to help you in 
that?
    General Sharp. Sir, thank you. The good neighbor program is 
very much alive and thriving right now, and we are continuing 
to try to improve it even more.
    You know, if you look at the different polls that they have 
run in Korea in different places, over 65 percent of the people 
of South Korea want the U.S. military there. And that number 
has been fairly consistent for the last couple years.
    The new administration for the Republic of Korea, headed by 
President Lee, who became the president a little over a year 
ago from now, is very supportive of not only the relationship 
between the Republic of Korea and the United States, but U.S. 
forces in Korea specifically.
    And he personally has visited our command post. He 
personally has taken part in some of our exercises over there. 
I had an office call with him last week, because he knew I was 
coming to talk to this committee, so that relationship between 
the people of the Republic of Korea and the government of the 
Republic of Korea and U.S. Forces Korea couldn't be better than 
it is right now.
    We are working very hard on the good neighbor program, 
because I believe that our personal and professional 
relationships with the Korean people really do get at the 
strength of the alliance now and into the future.
    So some examples of what we do. We work very hard to be 
able to bring--get Korean children linked up with Korean 
veterans that come to visit Korea and spend a day with them 
together that go up to the DMZ, take the DMZ tour, eat lunch 
together, to be able to have those veterans tell these young 
Korean children how they fought in a war and what it was like 
back in the 1950s.
    We, through many, many of our different camps, teach 
English to the Korean people. There is a great desire of the 
Korean people to learn English. So we have English-speaking 
camps.
    The Koreans, in exchange, are just unbelievably warm to all 
of our servicemembers over there and really do go out of the 
way, not only to welcome them when they first get there, but to 
continue that strong friendship and relationship throughout the 
entire time that they are there.
    It is a cornerstone of my command priorities, because it 
really affects all three of them, prepare to fight and win, 
strengthen the alliance, and improving the quality of life for 
our servicemembers.
    So I say, it is something that we continue to push forward. 
Where the committee could help is to continue to support, 
continue to support us to be able to enable to bring more 
families and servicemembers to Korea and to be able to truly 
have the facilities we need for 3-year accompanied tours over 
there, because, again, I think that strengthens the alliance 
and strengthens this bond and a friendship that we have between 
Koreans and Americans there.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Dicks.
    Mr. Farr. The Defense Language Institute told me that the 
most difficult language for westerners to learn in the entire 
world is Korean. The longest training program they have is for 
Korean.
    General Sharp. Is that right? I know it is difficult. I did 
not realize it was the toughest.
    Mr. Edwards. Some of us are still struggling with English. 
[Laughter.]
    I will get there.
    Mr. Dicks.

                                  GUAM

    Mr. Dicks. Well, thank you, Mr. Chairman.
    And, Admiral and General, good to have you here.
    I have been contemplating a trip out to Guam. And Admiral 
French, who used to be in our area up in Puget Sound, is now 
out there.
    Admiral Keating. Yes, sir.
    Mr. Dicks. And I talked to Congresswoman Bordallo's office 
just to get a sense of what problems they have. And there are a 
couple things here.
    And I don't know if this has any effect on the military or 
not, but one was that they are going to have to close the Ordot 
Dump and open up a new dump and recycling center. Apparently, 
this cost $45.9 million to close it and $113.8 million to 
create the new center. And so that was one issue.
    And then wastewater treatment, they are under a court 
order--they have to replace--I think it is--wait a minute here. 
The landfill is facing a U.S. district order to close and be 
replaced in 700 days. And the site has been on the national 
priority list for action under the Superfund program for 26 
years.
    Guam must also comply with a new EPA decree to provide 
secondary treatment at its northern wastewater facilities. And 
apparently this costs $300 million.
    And then the port of Guam, they are trying to improve the 
capacity there. And although some funding can be kind of sent 
to DOT via MARAD and the Department of Defense, if the port is 
designated a strategic port, the GAO and DOD have identified 
the port, if left at its current state, to be a major 
chokepoint for delivery of materials and supplies on Guam 
during the construction phase of the military build-up.
    Are you aware of these issues?
    Admiral Keating. Yes, sir.
    Mr. Dicks. And can we help Guam somehow with this? I don't 
think they are very prosperous, are they?
    Admiral Keating. No, sir.
    Mr. Dicks. I mean, in terms of having the money to deal 
with these kind of problems.
    Admiral Keating. They are not. They don't have 
significant--huge cash reserves, I mean, not to diminish the 
impact of the challenge. One, Bill French is doing a 
magnificent job.
    Mr. Dicks. Yes, he is terrific.
    Admiral Keating. He is doing a magnificent job. Two, 
Congressman--Chairman Skelton just led a delegation through, 
and they visited Guam, and Bill talked to them. Congresswoman 
Bordallo was part of that delegation.
    Mr. Dicks. Right.
    Admiral Keating. The challenges are not insignificant on 
Guam. A great piece in our favor is, we are talking about 
United States property here.
    Mr. Dicks. Right.
    Admiral Keating. And this is the strategic import to us at 
Pacific Command. There is the flag of the United States of 
America flying over that very important piece of land and 
surrounding water and air.
    The economic challenges are significant. There is the 
wastewater. There will be needs for more schools. We talked 
about this with the chairman, the four or five more schools 
that are in our testimony.
    The challenges are not insignificant. Guam will need fiscal 
assistance, and we are aware of those challenges, sir.
    Mr. Dicks. Is there a plan to deal with it yet?
    Admiral Keating. Yes and no. There is a naval office 
headed--now Acting Secretary Buddy Penn was in charge of it. 
Major General David Bice leads the Guam program office. They 
are developing timelines and flow charts to begin addressing 
those challenges that you described, sir.
    As to the funding support for those, that is a matter of 
concern throughout the FITA.
    Mr. Dicks. Yes, because I know that one of these, it is 
like 700 days, and then they will be facing a fine of a million 
dollars a week or something.
    Admiral Keating. Yes, sir. I am not familiar with those 
details, but the Guam program office is--they have 
representatives in Guam and representatives in the Pentagon 
every day, working with State and across the interagency, to 
address these environmental and infrastructure challenges.
    Mr. Dicks. The Guam program office?
    Admiral Keating. Yes, sir.
    Mr. Dicks. GPO?
    Admiral Keating. Joint Guam Program Office. Yes, Buddy 
Penn, Secretary Penn was in charge, and his action officer is 
Major General David Bice, Marine Corps, retired.
    Mr. Dicks. Okay. Thank you.
    Admiral Keating. Yes, sir.
    Mr. Edwards. Members--excuse me?
    Mr. Farr. Do you have the largest geographical command in 
the world?
    Admiral Keating. Yes, sir.
    General Sharp. Half the world.
    Mr. Farr. Incredible.
    Admiral Keating. Fifty--some--about half-plus, a little 
bit.
    Mr. Edwards. Members, this first vote is a 15-minute vote. 
I will ask staff to let us know when there are 3 minutes to go. 
There is a second vote that is a 5-minute vote.
    Let's begin the second round of questioning.
    Mr. Wamp.

                   IMPACT OF THE VALUE OF U.S. DOLLAR

    Mr. Wamp. Well, a couple things bubbled up through our 
hearings last year that don't seem to be quite as pressing this 
year, and that is the price of gasoline and the value of the 
U.S. dollar around the world. Can you tell us how that impacts 
you this year, going into your 2010 request, and how you 
calculated for these issues?
    And maybe both of you, what are the weak spots economically 
within your areas? I know Japan's economy has really struggled 
for a long period of time. But how has it impacted your budget?
    Admiral Keating. Yes, sir. The stability of the dollar is, 
of course, of significant importance all throughout the area of 
responsibility. The economic impact of the current crisis is 
slightly smaller to markedly smaller the impact in many of the 
countries in our region because of historically conservative 
policies by its citizens and governments throughout the Asia 
Pacific region.
    In many Eastern and Southeast Asian countries, they just 
save money and don't invest in significant numbers in their 
stock markets. We were in Hong Kong 3 weeks ago. There was a 
line outside one of the banks for folks who were going in and 
trying to withdraw all their money, and there were certain bank 
concerns about this run on--it was one bank, and--but it is an 
example of the relatively conservative fiscal policies of 
families and governments over there.
    The price of gasoline is significantly different than when 
we were here last time. Those decreases in costs have certainly 
been realized by the Department of Defense, and it is not 
exactly--they are not giving us the--it was 4 bucks a gallon a 
while ago. It is down to a buck and a half. We don't enjoy any 
of the dividends there.
    But the important point is, our readiness has not 
decreased, in spite of fluctuations on the global oil market 
prices. And the young men and women who are doing the flying, 
the steaming, and the driving are doing it to the same extent 
today that they were a year ago.
    General Sharp. And in Korea--them being--Korea being mainly 
an export country, the global economy greatly affects them. And 
the value of the won has declined. It is gotten worse for the 
Republic of Korea.
    But I must say that, despite the world economy and despite 
the issues that Korea is having with their exports, because of 
what they learned in the mid-1990s during the IMF crisis, they 
have a huge amount of reserves. And their banking structure is 
in pretty good shape.
    I think it is also notable that, even in the middle of all 
this, a month-and-a-half ago, 2 months ago when we were 
negotiating the burden-sharing agreement of how much Korea 
would pay to the United States on a yearly basis, not only did 
they agree to about the right amount, which was 760 billion 
won, so about $741 million, a year they agreed to that, and 
they agreed to that amount, plus CPI, plus inflation for 5 
years.
    So that really shows their commitment, I think, to the 
United States and their commitment to keeping our forces there, 
that even in this tough economic time, they are willing to 
commit that money for a 5-year period.
    Mr. Wamp. And there is no hint there with the Republic of 
Korea. Is there no hint from Japan economically on their 
commitment to Guam?
    Admiral Keating. There is no hint, sir.
    Mr. Wamp. Completely committed.
    Admiral, one last question. You gave us the four broad 
areas in your 2010 request, defense policy review, Republic of 
Korea transformation, grow the forces, sustainment. What is the 
percentage in your 2010 request of each of those four major 
areas?
    Admiral Keating. I don't have the breakdown.
    Mr. Wamp. Okay.
    Admiral Keating. We will be happy to get your staff that 
answer very quickly, sir.
    [The information follows:]

    The percentage breakout of funds in the four broad program areas is 
as follows; Defense Policy Review Initiative at 11 percent, Korea 
Transformation at 2 percent, Grow the Force at 40 percent and 
Sustainment at 47 percent.

    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr.

                     RESOURCES TO THE SOUTH PACIFIC

    Mr. Farr. I am just so impressed of the amount of the world 
that you command. It seems like a lot of the attention is in 
Korea.
    As I have flown around that region, as massive as it is, 
and spent some time in Indonesia, and the problems it has, and 
Thailand and so on, are we committing enough resources and 
positioning ourselves well enough in the South Pacific to meet 
the challenges ahead?
    Admiral Keating. The short answer is, yes, sir.
    To elaborate just a little bit, the three pieces of our 
strategy that I mentioned are partnership, readiness and 
presence. J.O.s on the staff--junior officers on the staff have 
this bumper-sticker-type saying that they say, ``Virtual 
presence equals actual absence.''
    That is to say, all the video teleconferences and, you 
know, you can hook up and communicate in a way that was 
unprecedented when Skip and I were younger, but you still have 
to go out there and put boots on the ground, and jets in the 
air, and ships on the water, and tanks running through the mud. 
Nothing replaces American presence in these countries.
    Indonesia, a classic case. They want to do a lot more with 
us than we can support because we are stretched a little bit 
thin.
    Singapore provided--they are building a brand-new command 
and control and intelligence center. And we would have asked, 
but before we even asked, they volunteered to give us a corner 
of it for U.S.-only information and the Singapore and in the 
Changi intel center.
    India----
    Mr. Farr. Just trying to get you to move there.
    Admiral Keating. They wouldn't mind it. Senator Inouye 
would feel different about it.
    India, we have about a dozen full-scale field exercises 
with those folks every year. So to your point, presence is one 
of the three cornerstones of our strategy. We don't just 
concentrate on Skip and United States Forces Korea. He has a 
major exercise that is winding down right now.
    We want to get out and about to the best of our ability. 
The young men and women who join, they like to join the 
services and see the world. It is part of why they decide to 
support and defend the Constitution.
    We would like to be in more places than we can be. We are 
in sufficient places right now. And we are going to continue to 
work this program very aggressively, all throughout our area of 
responsibility.
    Mr. Farr. Thank you.

                       ACCOMPANIED TOURS TO KOREA

    Mr. Edwards. Okay, let me start in.
    General Sharp, let me go back to the accompanied tours in 
Korea. You said by 2016 you want to be at what point?
    General Sharp. I said by this time next year, I want to 
double.
    Mr. Edwards. Right.
    General Sharp. I want to be a little over 4,000.
    Mr. Edwards. Right.
    General Sharp. I think by 2015 or 2016, as we build out 
Camp Humphries, we can probably realistically add about another 
2,000, so up to somewhere between 5,500 and 6,000.
    Mr. Edwards. So we would--even as far out under the present 
glide path, as far out as 2015 or 2016, we would still have 
more than half of the troops assigned at Korea that are married 
unaccompanied?
    General Sharp. That is correct. Now, there are some things 
we are doing to try to speed that up. The main drivers are 
housing, schools, and medical facilities.
    And the housing--the way we are working the housing right 
now is that the program which you are well aware of that the 
Army has initiated, the Humphries housing opportunity program, 
which is currently focused on Camp Humphries, which will, by 
2011 or 2012, build 2,400 apartments down there, it is a 
project that a consortium of companies is going to build on 
Camp Humphries first-class apartments that meet our standards 
for security, and comfort, and living space, and all the things 
that we have, at their dime, and then we will use our housing 
allowance to rent it back from them, and they will continue to 
manage it.
    Everything to make that project real has taken place, 
except for the final contract, which we are confident we will 
sign that contract in April or May of this year.
    When that works, I will then be able to take that same 
concept and to be able to start negotiations at Daegu and at 
Osan. If we are able to get folks under contract to be able to 
build more houses in those locations using the same concept, 
that number of 5,500 or 6,000 by 2015, 2016 could expand, 
depending upon how much we are able to get that to expand.
    So the 5,500, 6,000 by 2016 is, I believe, a conservative 
estimate. It is if we are not able to expand housing any more 
than what we currently have on the books.
    Mr. Edwards. I am sorry. Go ahead.

                                SCHOOLS

    General Sharp. The other issue that is, in a sense, the 
more difficult issue is schools. The schools issue is we have 
planned and in the budget, between our budget and what the 
Koreans are paying for the move south out of Yongsan and all, 
enough schools to be able to handle the 5,500 or so that I 
talked about by 2015 or 2016.
    But if we are--when we expand from that 5,500 to the 
14,000, we are going to need another 20 or--a little over 20 
schools beyond that in order to be able to go the maximum that 
we all want to be able to get.
    There are obviously several ways to build those schools, 
and we are working very closely with DoDDS on this. In fact, 
Dr. Shirley Miles, the head of DoDDS, she left Korea today. She 
has been out twice already to Korea to try to work with us on 
how we are going to get there.
    Mr. Edwards. What is the approximate cost of one school?
    General Sharp. Sir, I don't have that. I will have to get 
back with you. I don't think I have that in my notes. But we 
will get that back to you very quickly.
    [The information follows:]

    High School and Middle Schools each cost approximately $61 million 
and Elementary Schools cost approximately $43 million each.

    We are working several initiatives along those lines, 
though. There may be a way to do a public-private venture on 
schools similar to what we are doing for the housing 
opportunity program in exchange of tuition, if you will, that 
we are able to pay back some building of some schools.
    We are looking at some possibilities as to, can we team 
with the Republic of Korea government to do some building of 
schools in exchange for some students attending some of our 
schools. Again, these are all at the very, very formative.
    I met with the minister of education of Korea about 3 weeks 
ago. And we have formulated a team, between us, the DoDDS 
school system, and the Ministry of Education in Korea to look 
at all of these issues.
    Could we move quicker if we had additional MILCON to build 
schools? Of course we could. And we are working that with the 
department right now.
    Mr. Edwards. I am not going to ask you to stay much longer 
after the vote, but I would like to come down. It might just be 
staff and me afterwards, but I would like to follow up on this. 
Is there any way could get just a rough number?
    General Sharp. Yes, sir, I can.
    Mr. Edwards. I mean, $5 million, $10 million?
    General Sharp. Sir, I can get that within 10 minutes. In 
fact, I probably have it in one of my--get that very quickly. 
Yes, sir.
    Mr. Edwards. If you would excuse us for a few moments, we 
are going to go up and vote. I might actually go up and vote 
and come right back. And then I would go up and vote the second 
time, and that might give us a couple minutes.
    General Sharp. Sir, I will have the answer before you get 
back.
    [Recess.]
    Mr. Edwards. I will not call us back to order, because 
there is only one member here. And while I think we could do a 
lot of good by unanimous consent, I think----
    [Laughter.]
    I can think of a lot of things that we could do for the 
Pacific Command. But let me just--if we could continue----
    General Sharp. I do have the numbers you were asking for, 
sir. To finish out, we have right now 10 schools that are 
programmed, paid for by a combination of the Republic of Korea 
burden-sharing money, the Republic of Korea government, and by 
us.
    We need 20 more schools to be able to completely flesh out 
the full--of those 20 schools, eight are high schools or middle 
schools. Each one of those costs, in our projection, $61 
million, and then the 12 additional are elementary schools, 
which have an average cost of $43 million each.
    Mr. Edwards. I didn't realize how expensive schools were to 
build.
    General Sharp. So the total cost of all 20 schools is right 
at $1 billion.
    Mr. Edwards. Okay. And I would never suggest that we can 
get a dollar more than what would be budgeted, but we always 
want to look for options, should we be able to do that.
    You were saying earlier that housing was--you think you can 
address that one way or another creatively, public-private, and 
various ways, schools--if you could medical facilities as 
schools----
    General Sharp. Yes, sir. And we have--from DoDDS. As I 
said, Dr. Miles, Chairman Miles, the head of DoDDS, has been 
out to visit us twice. And she is committed to, if we can 
figure out how to build a school, she can get the teachers 
there.
    Mr. Edwards. Right.
    General Sharp. And we are doing some interim things that I 
think will also be very beneficial. She is starting up a 
virtual high school, where Korea will begin--the hub for all of 
Northeast Asia, Japan, Guam, Okinawa, where not this coming 
school year, but the year after that you will be able to get a 
fully accredited high school diploma going to this virtual 
school.
    It is not--classes. It is truly a virtual school where you 
get on and, you know, you have kids in Korea and kids in 
Okinawa and kids in Hawaii, you know, and around the world, 
really, interfacing with a real teacher on, you know, back and 
forth, doing real classes, which will really help us as we move 
forward and be able to bring more kids.
    So she has been very proactive. You know, if I could just 
say, any support that you can continue to give to Dr. Miles and 
DoDDS would really be appropriated. I mean, budget cuts hurt us 
all, but just because of her little bit of margin she has, as 
her and I were talking about this earlier this week before I 
came out, it would, you know, hurt us, which would hurt her, 
which, you know, just cascades across what we are trying to do 
in a lot of different venues.
    So I am a great supporter of DoDDS. I grew up in a DoDDS 
environment. And my kids did. And I think they really do a very 
good job.

                       ACCOMPANIED TOURS TO KOREA

    Mr. Edwards. I would just like to do anything possible--and 
we are going to be looking at some tough budget years ahead--
but anything possible to allow more accompanied families to go 
to Korea more quickly than the planned schedule.
    How will you handle this during the interim until you do 
get to the final goal of having, you know, every family that 
wants to bring their loved ones over can? Will those whose 
families wish to stay home, will they have an option of serving 
for less than 3 years?
    General Sharp. Yes, sir. Yes, sir. The current and the rule 
that will stay in place is really doing a family--a married 
servicemember will really have three different choices or has 
to date three different choices. He can come one year 
unaccompanied. He can come two years accompanied and not get 
any additional cash benefits. Or he can say, okay, I am willing 
to come, and I want to come for three years, and I want to 
bring my family.
    In that third option, the services--mainly Army and Air 
Force--have agreed to pay him what we are paying now for his 
assignment incentive pay, which is $300 a month extra, to sign 
up for that 3-year period.
    Mr. Edwards. Right.
    General Sharp. The middle option of 2 years unaccompanied 
will eventually go away and will eventually end up being just 
like Japan or just like Germany, where it is--you have the 
choice between 1 year unaccompanied and 3 years accompanied.
    And there will be, you can tell just by the numbers, a 
large number that really will end up not getting a choice, 
because when we get to the place where we are at capacity for 
housing and schools and medical, then I will have to say, ``I 
can't bring any additional, so it is when one of those families 
leave, another family can come in.''
    Mr. Edwards. Right. Okay. Okay.
    Are we now at 28,000 for our ultimate----
    General Sharp. Twenty-eight thousand five hundred.
    Mr. Edwards. Twenty-eight thousand five hundred?
    General Sharp. Yes, sir.
    Mr. Edwards. Not going to go down to the 25,000?
    General Sharp. Both Secretary Gates and Minister Lee, 
President Lee, and in the past President Bush personally, and 
Secretary Clinton, when she was over there, reconfirmed 28,500 
for the foreseeable future. And, again, I think that is about 
the right number.
    As you know, we are getting ready to start a Quadrennial 
Defense Review over in the department. That will look, I think, 
at really the entire Pacific and the world, as far as force 
posture goes, whether we need to be--so the composition of that 
28,500 may change some over time, but I think that is the right 
commitment of forces.
    Mr. Edwards. When would be a QDR be completed?
    General Sharp. Sir, it is due back to you all with a budget 
next year. So----
    Admiral Keating. That is February of next year.
    Mr. Edwards. So it would be in time for the 2011--cycle.
    General Sharp. Yes, sir.
    Mr. Edwards. So if we get--do we know where those other 
3,500 soldiers or troops were scheduled to be located, in CONUS 
or in Europe? Somewhere there would be a hole of 3,500 forces. 
Is there a specific site that was impacted by that decision?
    General Sharp. No, sir. It really was in the process of--
you know, Secretary Rumsfeld said cut a third, and then 
Secretary Gates reversed that, so the Army was in the process 
of--you know, it is a complex thing, with the Army building up 
forces, increasing the number of forces, and then this move. 
There was no set place. There wasn't really going to be, you 
know, kind of a cross-cutting section of not just Army, but Air 
Force were also greatly involved in that.
    Mr. Edwards. Okay. Thank you.

                              GUAM BUILDUP

    Admiral Keating, could I ask you if your staff could put 
together for us the total budget numbers for our part of the 
Guam build-up, in terms of military construction, if you count 
housing, medical care----
    Admiral Keating. Yes, sir.
    Mr. Edwards [continuing]. Everything, just so we have a 
sense of----
    Admiral Keating. To be clear, we are happy to do that, 
Chairman. What we will do is we will go to the Joint Guam 
Program Office. They have oversight. We don't; they do.
    Mr. Edwards. Okay.
    Admiral Keating. But we will get with them. And between the 
two of us--and, really, that is the Department of Navy, to get 
technical with you, but between the two of us, we will ensure 
that the answer we give you is supportable by us and it 
reflects their analysis.
    [The information follows:]

    Currently, the extent of U.S. Government's funding planned for Guam 
build-up will be provided with the release of the Fiscal Year 10 
President's Budget. After the budget is released, we will provide you 
with the numbers for the cost.

    Mr. Edwards. And in the continental United States over the 
last year, construction cost increases have leveled out some 
because the economy has slowed down. When you start--I am not a 
construction manager, but when you put that much construction 
in such a small area, do we have any sense that inflation isn't 
going to double the cost of those construction projects? Do you 
think we have a pretty good handle on it?
    If you came back here 2 years from today, do you think we 
would be able to stick with whatever numbers that you would 
stand behind today as that projected cost?
    Admiral Keating. I am not sure, Chairman. I don't have any 
more experience in that than perhaps you do.
    The likelihood of a new home in Guam being the same square 
foot as the likelihood of a home in Chevy Chase--well, Chevy 
Chase is not such a good example--a similar home anywhere in 
the states I think is not high. It would likely be more 
expensive.
    To offset that, labor costs are lower. And there is 
dramatic interest all throughout the South Pacific in the 
Defense Policy Review Initiative, with respect to construction 
in Guam.
    So there are--and this is going to be an issue. There are 
labor laws against non-U.S. citizens providing certain 
construction help. And we get advised by other members of 
Congress that don't think for--or words to this respect, we are 
not going to let non-U.S. citizens build U.S. housing on U.S. 
territory. The law is complicated. There are initiatives 
underway to change the law.
    Long answer to a short question. I think that housing will 
be not inexpensive to construct. It will be high-quality. It is 
the same that Skip says for his base in Korea. We are hoping--
the Marines are hoping that this becomes--not Humphries--that 
Guam becomes the number one. So we have an interesting 
challenge unfolding here, you know, living with the stars.
    I think it will be not as--it will not be an insignificant 
factor, the cost of housing.
    Mr. Edwards. If you can--if it is appropriate and you 
choose to do so, to use your position and the opportunity to do 
some jawboning to let those involved in the construction 
decisions know that it would be a real problem for Congress if 
we have construction costs, just projected, low ball, and then 
go through the roof.
    We went through that with BRAC, one year went from $19 
billion to $31 billion. It is hard to believe that we would 
have that much unprojected increase in MILCON costs in a 12-
month period.
    I want to thank you both for coming and for your 
leadership.
    Oh, Mr. Bishop. You came in quietly. My gosh, we now have 
two members. We have unanimous consent. Do we want to change 
the world?
    Mr. Bishop. Well, sir, I just came to support the chairman 
and to support PACOM.
    Mr. Edwards. Thank you for that. Do you have any questions?
    Mr. Bishop. No, sir, I don't. My staff has been following 
the hearing and we have read the testimony.
    Mr. Edwards. Okay.
    Mr. Bishop. And we are quite pleased.
    Mr. Edwards. Great. They have said they would like Korea 
and Guam to be almost as good as Fort Benning, Georgia. 
[Laughter.]
    But, you know, staff will follow up with a number of very 
specific, detailed questions, but I think some of that is more 
appropriate to handle between your staff and our staff. But the 
overview you have given us, the major priorities are what we 
really wanted to hear today. And we heard them. And thank you 
both for your lifetime of service and for your families' 
lifetime of services.
    Admiral Keating. Thanks, Chairman.
    Mr. Edwards. We will stand adjourned.
    [Clerk's note.--Questions for the Record Submitted by 
Chairman Edwards to Admiral Keating.]

    Question. Regarding the relocation of Marine Corps personnel from 
Okinawa to Guam, is there anything new or substantively different in 
the February 2009 U.S.-Japan agreement as compared to the 2006 ``Road 
Map''?
    Answer. No. The Guam International Agreement, signed 17 February 
2009 by Secretary Clinton and Foreign Minister Nakasone legally secures 
the actions by both Japan and the U.S. including multi-year funding, to 
ensure the relocation of the U.S. Marines in Okinawa to Guam as 
promised in the Roadmap.
    Question. To date, how much funding has the Government of Japan 
made available for the Okinawa-to-Guam realignment?
    Answer. In Japan's Fiscal Year 2009 budget (which was recently 
approved 27 March), Japan requested over $1 billion for realignment 
costs, including $392 million for Guam ($336 million to be deposited in 
the U.S. Treasury account for 2009) and $323 million for the Futenma 
Replacement Facility.
    Question. What is the total estimated Federal government cost for 
the Okinawa-to-Guam realignment, including costs borne by agencies 
other than the Department of Defense?
    Answer. Under the Roadmap agreement, the cost estimate for 
facilities and infrastructure necessary to support the realignment of 
Marine Corps forces from Okinawa to Guam was $10.27 billion. Of this 
figure, the Government of Japan is responsible for up to $6.09 billion 
of the costs. The U.S. Government is responsible for the remaining 
$4.18 billion and any additional costs.
    In addition to costs associated with infrastructure and facilities, 
the Government of Guam will need increased federal funding and support 
to prepare for the secondary economic and physical impact of military 
realignment. In 2008 the Government of Guam estimated these costs to be 
$238M for Fiscal Years 2010. The Department of Defense is working 
closely with the Department of the Interior and key interagency 
partners to review the cost estimate provided by the Government of Guam 
and develop a coordinated, collaborative approach that establishes 
agency accountability for improvements to Guam's civilian 
infrastructure and social service needs. Federal agencies are currently 
determining how they may support the Government of Guam's needs through 
the American Recovery and Reinvestment Act, as well as other grant and 
loan programs.
    Question. What is the total military construction and family 
housing cost for all initiatives on Guam other than those associated 
with the Marine Corps relocation, such as the Air Force Strike/ISR Task 
Force, Navy forward porting, and Army ADA?
    Answer. The total military construction (MILCON) proposed in the 
Fiscal Year (FY) 2010 to 2015 Future Years Defense Program (FYDP) for 
Guam, excluding the Marine Corps Relocation (DPRI), is being developed 
by the Department of Defense and the Office of Management and Budget.
    Question. According to the September 2008 report from the Navy, 
transient carrier berthing in Guam will not begin until 2019. What are 
the key milestones in this process, and what is the total 
infrastructure cost associated with this initiative?
    Answer. Current project cost is $390 million. Key project 
milestones:
          <bullet> Guam transient CVN berthing engineering/planning 
        study: Completed Jul 2008
          <bullet> Environmental Impact Statement
                  <bullet> Notice of Intent published in Federal 
                Register Mar 2007
                  <bullet> Record of Decision Mar 2010 (tentative)
          <bullet> Construction (assuming FY11 MILCON authorization)
                  <bullet> Funding profile: assume 8 funding increments 
                of approximately $50 million year, FY11-FY18.
                  <bullet> Construction start Mar 2011
                  <bullet> Construction completion Sep 2018 *
                  <bullet> Wharf testing/certification/ready for use 
                Aug 2019
          * Construction completion can be achieved as early as 2015 if 
        funding increments are increased to approximately $80 million 
        per year. Navy projection is that by 2014 increased ordnance 
        loading operations and increased transient carrier visits will 
        exceed maximum capacity of Guam Kilo Wharf where both missions 
        are supported currently.
    Question. Will the Department of Defense be responsible for funding 
the $1 billion road project on Guam? Will this be implemented through 
the DAR program?
    Answer. Through construction capacity studies, assessment of 
socioeconomic impacts, and the development of the Environmental Impact 
Statement, it has been determined that Guam's road network requires 
improvement to handle the expected flow of materials from the port to 
work sites, as well as to handle the projected 25% increase in 
population after service members, dependents, and other civilians 
relocate to the island. The Army's Surface Deployment and Distribution 
Command (SDDC) administers the Defense Access Road (DAR) program, which 
is established under U.S. Code Title 23 Section 210 to maintain and 
construct roads that are important to national defense.
    The Joint Guam Program Office (JGPO) is working with SDDC and the 
Federal Highway Administration (FHWA) to evaluate a number of road 
projects on Guam to support the relocation of Marines. Five roadway, 
bridge, and intersection improvement projects have already been 
certified and analysis continues for additional project certification. 
It is too early to determine what the total cost of road projects on 
Guam will be.
    Question. How was the number of 8,000 Marines to be relocated 
arrived at--i.e., was it based on an analysis of specific units to be 
relocated, or was it driven by other factors?
    Answer. The relocation of 8,000 Marines was based on analysis of 
specific units to be relocated to meet the following requirements:
    The number of 10,000 remaining Marines on Okinawa is based on the 
PACOM requirement to maintain a Marine Expeditionary Brigade (approx 
10,000 Marines) forward deployed for Operation Plan (OPLAN) and 
contingency requirements.
    The approximately 8,000 Marines being relocated to Guam reflects 
associated III Marine Expeditionary Force (MEF), 3rd Marine Division, 
1st Marine Air Wing, Combat Logistics Regiment and base support 
personnel.
    The realignment of Marine forces permanently stationed in Okinawa, 
Guam, and Hawaii strikes a balance that maintains a credible deterrence 
against our ``most dangerous'' scenarios, and also creates new 
opportunities for persistent engagement with regional partners--our 
``most likely'' scenarios.
    Question. Have you finalized the set of units to be relocated to 
Guam, and if so, are there any significant differences from the set 
identified by the Secretary of the Navy in the September 2008 report?
    Answer. The forces identified for relocation remain the same as 
identified in the May 2006 U.S.-Japan Realignment Roadmap and 
reiterated in the Secretary of the Navy report of September 2008.
    Question. An estimated 5,000 to 25,000 workers will be needed on 
Guam for the buildup, depending on the amount of work-in-place at any 
given time. The current resident population of Guam is approximately 
175,000. What is your strategy for securing the number of workers 
needed, and how will these workers be housed?
    Answer. The estimate for the total number of workers required 
during the period of peak construction--foreign, domestic and local--is 
approximately 10,000-15,000. This figure is based upon a $2.5 billion 
level of construction during the peak period. Given that construction 
will ramp up from the start to the peak, fewer workers are expected in 
the earlier part of the construction program.
    Guam's current workforce cannot account for this surge. Shortfalls 
that cannot be addressed by workers from the U.S. mainland, Hawai'i, or 
the Commonwealth of the Northern Mariana Islands will most likely be 
filled by H2B visa foreign construction workers. Use of H2B visa 
foreign construction workers is currently occurring on Guam and has 
traditionally been used during major periods of major construction 
activity on Guam, such as the building of resort hotels in the late 
1980s and early 1990s.
    The construction industry will secure the workers who will first 
work with the Department of Labor to determine the capacity of the 
local market. The Guam Department of Labor is prepared to certify that 
there is an insufficient supply of labor in the Guam region. The 
construction industry will then petition the U.S. Citizenship and 
Immigration Services to authorize the number of guest workers they need 
for their construction projects. With this authorization, the 
construction industry will work with various embassies and labor 
suppliers to acquire the skilled labor they need. The construction 
contractors are required to manage the housing, logistics, 
transportation and medical care of their workers.
    To minimize negative impacts on Guam, a workforce housing and 
logistics strategy has been established with the following tenets: 
ensure fair and equitable treatment of all workers; pursue options that 
support transient workforce and can transition into positive long-term 
benefits for Guam; recognize that Guam and Federal agencies have the 
sole enforcement authority; and achieve positive public support that is 
critical for an enduring base and relationship. Based upon these 
tenets, contractors will be evaluated on their ability to manage 
safety, medical, housing, transportation and security for their 
workforce, as well as the ability for these workforce logistics 
solutions to positively impact the Guam community.
    Question. Have you analyzed the impact of the buildup on Guam on 
the regional market for construction material and labor? If so, do you 
have a strategy to mitigate supply bottlenecks and price inflation?
    Answer. Department of Defense is still analyzing the issue of 
supply and price inflation for materials and labor associated with the 
Guam military build-up. There was some concern that price inflation for 
materials and labor would adversely affect program implementation. 
However, with the recent economic downturn these concerns may be 
somewhat mitigated. Much depends upon the turnaround of the economy in 
the next few years.
    The acquisition strategy for the Guam military build-up envisions 
the establishment of building criteria and standards to enable offsite 
methodologies that will reduce the requirement for imported work force 
and on island building materials. The acquisition strategy also 
contemplates attracting firms that understand and have experience in 
operating in logistically challenged areas
    Relative to strategies for mitigating supply bottlenecks, we 
recognize that the Port of Guam is a potential bottleneck. However, the 
recent initiative by the Port Authority of Guam to obtain new cranes 
with greater capacity should alleviate some of the pressures at the 
port. Additionally, the Maritime Administration (MARAD) was recently 
designated the lead federal agency for the Port of Guam Improvement 
Enterprise Program pursuant to Public Law 110-417, Section 3512. As the 
lead Federal agency, MARAD will manage the expenditure of Federal and 
non-federal, and private funds made available for the project, provide 
necessary oversight for port improvements, ensure National 
Environmental Policy Act (NEPA) compliance, and provide project 
management through a prime contractor. This effort lead by MARAD should 
further increase efficiencies and throughput at the port. In addition, 
Defense Access Road projects will be considered in the build-up to 
improve trafficability and relieve chokepoints along the haul road.
    Question. Last year you estimated that a $500 million investment 
would be needed for training facilities and ranges in Guam and the 
Northern Marianas. Has Marine Forces Pacific completed the training 
concept study, and if so, what is the current cost estimate? Is this 
figure included in the estimated $4 billion U.S. share for the 
relocation?
    Answer. The Marine Force Pacific Training Concept Plan was 
finalized in April 2008. This study presented an unconstrained concept 
for locating training facilities and ranges on Guam, Tinian, and Pagan. 
The cost for all range construction and required enablers was estimated 
to be approximately $1.8 billion. Only a small portion of this cost 
requirement is included in the estimated $4 billion of the U.S. share 
for the relocation. The original cost sharing agreement between the 
United States Government and Government of Japan included approximately 
$360 million for land acquisition in support of ranges on Guam and the 
Commonwealth of the Northern Mariana Islands, Andersen South training, 
and Naval Magazine consolidation.
    Question. When will the Environmental Impact Statement for the 
training ranges be completed?
    Answer. The target date for completion of the Guam Military Buildup 
Environmental Impact Statement, which covers all aspects of the Marine 
Corps realignment (administrative facilities, housing, training, which 
includes maneuver, military operation in unbar terrain, and live fire, 
quality of life facilities, etc.) the construction of a transient 
aircraft carrier pier, the establishment of an Army Ballistic Missile 
Defense Task Force on Guam, and various infrastructure improvements, is 
January 2010. The Record of Decision will be signed shortly thereafter.
    Question. The February 2009 agreement is clear that the relocation 
of marines from Okinawa to Guam is contingent upon the Government of 
Japan moving forward with the Futenma Replacement Facility. The 
agreement specifically states that the GOJ must make ``tangible 
progress'' on the FRF. What would you consider ``tangible progress,'' 
and have you seen any to date?
    Answer. ``Tangible Progress'' is any event or milestone within the 
Defense Policy Review Initiative which can be visibly seen as being 
completed along the timeline recommended in the 2006 agreement. To 
date, Japan has:
          --passed the ``Law to Promote the Realignment for U.S. Forces 
        in Japan'' which pledged $16.8 billion ($10.7 billion for Japan 
        and Okinawa and $6.09 billion for Guam) for the total cost of 
        realignment of U.S. Forces in Japan: includes the Futenma 
        Replacement Facility (FRF) ($3.6 billion), Okinawa 
        consolidation ($4.2 billion), Iwakuni ($1.4 billion), U.S. Army 
        Transformation ($0.268 billion), Aviation Training Relocation 
        ($0.290 billion), and Economic measures for local communities 
        ($0.848 billion)
          --initiated the Environmental Impact Assessment (EIA) for the 
        FRF (as of February 2009 in its second phase)
          --provided security against protest activity that interfered 
        with the EIA
          --established and employed consultative mechanisms with local 
        officials
          --enacted and implemented a new system of economic incentives 
        for local communities
          --funded and commenced on-land construction projects on Camp 
        Schwab
          --requested $323 million for FRF construction for the Fiscal 
        Year 2009 
        budget
          --reached agreement on the International Agreement on Guam 
        Financing with, the United States, which confirms the political 
        agreements of the 2006 Realignment Roadmap and clearly 
        establishes the linkages between FRF completion and Guam 
        relocation.

    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards to General Sharp.]

                         Status of Realignment

    Question. Please provide an update on the status of land 
acquisitions necessary to implement both the Land Partnership Plan and 
the Yongsan Relocation Plan.
    Answer. All land required to implement both the Land Partnership 
Plan and Yongsan Relocation Plan has been acquired by the ROK 
Government. Portions of the land at USAG Humphreys, Osan AB, and Camp 
Mujuk have been granted to USFK under the SOFA. USFK is currently 
working to secure the grants for the remaining land.
    Question. Please provide an update on the status of all USFK 
installations that have been closed or will be closed under the Land 
Partnership Plan and Yongsan Relocation Plan.
    Answer. Currently 37 installations have been closed under LPP and 
YRP. Of those, 35 have been returned to the ROK Government. The 
remaining 2 are currently being surveyed using the recently approved 
Joint Environmental Assessment Procedures and should be returned within 
the next 6-8 months. No further installations will be returned until 
the facilities required to relocate the units are constructed at 
enduring installations and the units have relocated.

                 Humphreys Housing Opportunity Program

    Question. Please describe the structure of the Humphreys Housing 
Opportunity Program. Will any families be assigned to this housing? 
Will families have enough adequate alternative options to make a 
meaningful choice? Who will control the land that HHOP housing sits on? 
What leverage does USFK have to ensure that the developers will meet 
their commitments?
    Answer:
    <bullet> HHOP is private sector development and long term property 
management of 2400 units of Army Family Housing (AFH) at USAG 
Humphreys.
    <bullet> Army selected Humphreys Family Communities LLC (HFC). 
Equity members of HFC are Pinnacle AMS Development Company LLC 
(property/asset management) and Samsung C & T Corporation (construction 
contractor).
    <bullet> Families will not be assigned to the housing; they will be 
referred to HFC at in-processing. Rental of the housing is at the 
election of the family and will be done through a standard landlord-
military tenant leasing arrangement.
    <bullet> The 2008 Housing Market Analysis (HMA) for USAG Humphreys 
determined the community could provide for 40% of housing needs. In 
addition to the community and HHOP, there will be over 600 Army owned 
family housing units.
    <bullet> Under the Status of Forces Agreement (SOFA) the United 
Forces Korea will be granted exclusive use of the land on which the 
apartments will be constructed. The Army will issue a use permit to 
HFC.
    <bullet> The United States Army will enter into a Use Agreement 
with HFC. The agreement requires that HFC operates and manages the 
housing at industry standards of care and maintenance.
    Question. How do you determine what constitutes an ``adequate'' 
family housing unit in Korea for the purpose of complying with DOD 
policy?
    Answer. The Air Force, Army and Navy use Housing Requirement Market 
Analyses (HRMA), Housing Community Profiles (HCP), Housing Market 
Analyses (HMA) and Housing Market Surveys to determine ``adequate'' 
family housing units in Korea for the purpose of complying with DOD 
policy. This is the same process used by the Services worldwide.

                       Command-Sponsored Families

    Question. Please explain in detail how you will be able to 
accommodate a growth in command-sponsored families from 2,135 to 4,320 
using your current infrastructure.
    Answer. In general, infrastructure is available due to the drawdown 
of over ten thousand military from the peninsula since 2004. The main 
cause to limit ourselves to 4,320 families is the capacity of our 
schools. We have a very limited ability to convert available structures 
to schools, which drove us to the upper limit of 4,320 families in the 
immediate future. Other services and functions (such as medical and 
child care) require additional staff and/or equipment, but not 
additional infrastructure.

                         Force Levels in Korea

    Question. The Global Defense Posture Review called for reducing the 
force level in Korea from 37,500 to 25,000. Was this reduction based on 
any analysis of the specific units to be relocated?
    Answer. The guidance was to reduce the force level by one-third, or 
12,500, which was not based on an analysis of warfighting capability. 
After the reduction was directed, an analysis of the missions and tasks 
associated with USFK was conducted to determine which units should be 
relocated. We then linked specific units to the tasks and rank ordered 
them in priority. Those units no longer contributing or least 
contributing to the Korea mission set were identified for the drawdown.
    Question. What would have been the impact on USFK if the reduction 
to 25,000 had been carried through?
    Answer. Continuation of the force reduction to 25,000 would have 
reduced the overall warfighting capability of USFK. The reduction would 
have taken away the opportunity to review the force level and force mix 
relative to recent and new strategic decisions, particularly concerning 
the changing mission set and future requirements for U.S. military 
forces in Korea. Additionally, the realignment of ground component 
missions requires a force level of approximately 28,500 to enable USFK 
to execute its assigned missions and tasks and provides a better 
overall capability.
    Question. How has the decision to retain the force level in Korea 
at 28,500 required any adjustments in your milcon and family housing 
programs? Are there any installations that were projected for closure 
that will now be kept open as a result of this decision?
    Answer. The current force structure does not require changes to 
installation closures or MILCON and family housing programs.
                                         Wednesday, March 25, 2009.

                            EUROPEAN COMMAND

                                WITNESS

GENERAL BANTZ J. CRADDOCK, USA, COMMANDER, UNITED STATES EUROPEAN 
    COMMAND

                       Statement of the Chairman

    Mr. Edwards [presiding]. The subcommittee will come to 
order.
    General Craddock, welcome back to our subcommittee. It is 
great to have you here, and thank you for not only being here 
today but for your lifetime of very distinguished service to 
our country.
    Today we will discuss the current basing posture of the 
U.S. European Command. In 2004, the Department of Defense 
initiated a sweeping change in the U.S. military overseas 
presence that called for reducing force levels in Europe by 
roughly 48,000 troops. This included the relocation of two 
division headquarters and two brigade combat teams from Germany 
to the United States.
    In 2007, the Secretary of Defense decided to temporarily 
station two BCTs in Germany until the 2012-2013 timeframe.
    As we discussed with today's witnesses in last year's EUCOM 
hearing, this decision raised the possibility that we would not 
draw down our forces in Europe to the extent that the Defense 
Department had originally planned.
    The purpose of this hearing is to gain additional insights 
on where the ultimate decision on this issue stands and to 
discuss other significant issues relating to European Command 
basing and construction.
    Before I proceed, I would like to turn to Mr. Wamp, our 
ranking member, for any comments that he would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Mr. Chairman, just to welcome back what I 
consider to be one of the greatest living Americans and a man 
who is headed for a little bit of R&R after a brilliant career 
and distinguished service. And it is an honor to be in his 
presence and look forward to his testimony this morning.
    Thank you.
    Mr. Edwards. Well said and ditto.
    Thank you, Mr. Wamp.
    Let me introduce someone who doesn't need an introduction, 
but he deserves one. General John Craddock is the commander of 
U.S. European Command and the Supreme Allied Commander in 
Europe. This is his second appearance before the subcommittee. 
He has been the European commander since December of 2006.
    Prior to that, he served as commander of SOUTHCOM from 2004 
to 2006. And am I correct? Nearly 38 years of service to our 
country in uniform. Thank you for all of those years of 
service.
    His previous assignments include Commander 1st Infantry 
Division, commander of U.S. Forces during the initial 
operations in Kosovo, Joint Staff. And with pride, I would like 
to point out, Assistant Chief of Staff for 3 Corps at Fort 
Hood, Battalion Commander with the 24th Infantry during Desert 
Storm. And he is a graduate of West Virginia University.
    General Craddock, without objection, your full testimony 
will be submitted for the record, but I would like to recognize 
you now for any opening comments you would care to make, and 
then we will proceed with questions and discussion.

                 Statement of General Bantz J. Craddock

    General Craddock. Thank you, Chairman Edwards.
    And I appreciate that, Congressman Wamp.
    It is, indeed, an honor to appear here before you. I always 
look forward to this opportunity because I think this forum, 
this committee is very important. So thank you for that.
    I am here representing the approximately 84,000 
servicemembers and family members and civilians of U.S. 
European Command. It is a longstanding command. We have, as you 
know, in the last 2 years, changed our command. We have taken 
Africa and cut it out from our responsibility. We went from 92 
countries to now I have 51 countries I am responsible for.
    We have changed the geopolitical environment somewhat in 
August of 2008 with the Russian encroachment into Georgia. I 
would tell you that that has changed the political dynamics in 
Europe because the assumption we made in NATO and in our 
bilateral relations, the United States and these nations, was 
that for the last 17 or so years, the assumption was not to 
worry, nations, there will be no violation, no attack, no 
encroachment of your sovereignty.
    That changed on the 7th of August, and now we have a 
different situation in Europe where we have many nations who 
have anxieties over the Russian Federation and what their 
strategy is and where they are going to be headed. And that is 
particularly noticeable in the nations that border Russia.
    Then we have a different perspective, which is nothing has 
changed. We still have the same Russia. So those tensions 
exist.
    Energy is another complicating factor because the Russian 
production, distribution, pushing into Western Europe, many of 
these nations depend primarily on Russian gas and much of 
Russian oil. So there are new dynamics at work. This affects 
the U.S. European command because it impacts on our ability, 
then, to understand the dynamics and be able to respond.
    I have with me today my command sergeant major, Mark 
Farley. Sergeant Major Farley is tasked to visit all of our 
forces at all these installations. He probably is the most 
expert in the command in terms of where people are, the quality 
of life they have at the locations, the facilities they use. So 
he is--he is my wing man here, my battle buddy. And I will tell 
you, I depend on him a lot.
    He is going to retire, also, here shortly. So we made an 
agreement when we go, we go together. But he is--he is the guy 
here that probably, if we have some issues, I will turn to him 
to help out.
    But thank for the opportunity. I look forward to your 
questions.
    And thank you, Chairman, and the committee.
    [The prepared statement of Bantz J. Craddock follows:]

    [GRAPHIC] [TIFF OMITTED] T0526B.027
    
    [GRAPHIC] [TIFF OMITTED] T0526B.028
    
    [GRAPHIC] [TIFF OMITTED] T0526B.029
    
    [GRAPHIC] [TIFF OMITTED] T0526B.030
    
    [GRAPHIC] [TIFF OMITTED] T0526B.031
    
    [GRAPHIC] [TIFF OMITTED] T0526B.032
    
    [GRAPHIC] [TIFF OMITTED] T0526B.033
    
    [GRAPHIC] [TIFF OMITTED] T0526B.034
    
    [GRAPHIC] [TIFF OMITTED] T0526B.035
    
    [GRAPHIC] [TIFF OMITTED] T0526B.036
    
    [GRAPHIC] [TIFF OMITTED] T0526B.037
    
    [GRAPHIC] [TIFF OMITTED] T0526B.038
    
    [GRAPHIC] [TIFF OMITTED] T0526B.039
    
    [GRAPHIC] [TIFF OMITTED] T0526B.040
    
    [GRAPHIC] [TIFF OMITTED] T0526B.041
    
    [GRAPHIC] [TIFF OMITTED] T0526B.042
    
    [GRAPHIC] [TIFF OMITTED] T0526B.043
    
    [GRAPHIC] [TIFF OMITTED] T0526B.044
    
    [GRAPHIC] [TIFF OMITTED] T0526B.045
    
    [GRAPHIC] [TIFF OMITTED] T0526B.046
    
    [GRAPHIC] [TIFF OMITTED] T0526B.047
    
    [GRAPHIC] [TIFF OMITTED] T0526B.048
    
    [GRAPHIC] [TIFF OMITTED] T0526B.049
    
    [GRAPHIC] [TIFF OMITTED] T0526B.050
    
    [GRAPHIC] [TIFF OMITTED] T0526B.051
    
    [GRAPHIC] [TIFF OMITTED] T0526B.052
    
    [GRAPHIC] [TIFF OMITTED] T0526B.053
    
    [GRAPHIC] [TIFF OMITTED] T0526B.054
    
    [GRAPHIC] [TIFF OMITTED] T0526B.055
    
    [GRAPHIC] [TIFF OMITTED] T0526B.056
    
    [GRAPHIC] [TIFF OMITTED] T0526B.057
    
    [GRAPHIC] [TIFF OMITTED] T0526B.058
    
    [GRAPHIC] [TIFF OMITTED] T0526B.059
    
    [GRAPHIC] [TIFF OMITTED] T0526B.060
    
    [GRAPHIC] [TIFF OMITTED] T0526B.061
    
    [GRAPHIC] [TIFF OMITTED] T0526B.062
    
    [GRAPHIC] [TIFF OMITTED] T0526B.063
    
    [GRAPHIC] [TIFF OMITTED] T0526B.064
    
    [GRAPHIC] [TIFF OMITTED] T0526B.065
    
    [GRAPHIC] [TIFF OMITTED] T0526B.066
    
    [GRAPHIC] [TIFF OMITTED] T0526B.067
    
    [GRAPHIC] [TIFF OMITTED] T0526B.068
    
    [GRAPHIC] [TIFF OMITTED] T0526B.069
    
    [GRAPHIC] [TIFF OMITTED] T0526B.070
    
    [GRAPHIC] [TIFF OMITTED] T0526B.071
    
    [GRAPHIC] [TIFF OMITTED] T0526B.072
    
    [GRAPHIC] [TIFF OMITTED] T0526B.073
    
    [GRAPHIC] [TIFF OMITTED] T0526B.074
    
    [GRAPHIC] [TIFF OMITTED] T0526B.075
    
    [GRAPHIC] [TIFF OMITTED] T0526B.076
    
    [GRAPHIC] [TIFF OMITTED] T0526B.077
    
    [GRAPHIC] [TIFF OMITTED] T0526B.078
    
    [GRAPHIC] [TIFF OMITTED] T0526B.079
    
    [GRAPHIC] [TIFF OMITTED] T0526B.080
    
    [GRAPHIC] [TIFF OMITTED] T0526B.081
    
    [GRAPHIC] [TIFF OMITTED] T0526B.082
    
    [GRAPHIC] [TIFF OMITTED] T0526B.083
    
    [GRAPHIC] [TIFF OMITTED] T0526B.084
    
    [GRAPHIC] [TIFF OMITTED] T0526B.085
    
    [GRAPHIC] [TIFF OMITTED] T0526B.086
    
    [GRAPHIC] [TIFF OMITTED] T0526B.087
    
    [GRAPHIC] [TIFF OMITTED] T0526B.088
    
    [GRAPHIC] [TIFF OMITTED] T0526B.089
    
    [GRAPHIC] [TIFF OMITTED] T0526B.090
    
    [GRAPHIC] [TIFF OMITTED] T0526B.091
    
    [GRAPHIC] [TIFF OMITTED] T0526B.092
    
    [GRAPHIC] [TIFF OMITTED] T0526B.093
    
    [GRAPHIC] [TIFF OMITTED] T0526B.094
    
    [GRAPHIC] [TIFF OMITTED] T0526B.095
    
    [GRAPHIC] [TIFF OMITTED] T0526B.096
    
    [GRAPHIC] [TIFF OMITTED] T0526B.097
    
    [GRAPHIC] [TIFF OMITTED] T0526B.098
    
    [GRAPHIC] [TIFF OMITTED] T0526B.099
    
    [GRAPHIC] [TIFF OMITTED] T0526B.100
    
    [GRAPHIC] [TIFF OMITTED] T0526B.101
    
    [GRAPHIC] [TIFF OMITTED] T0526B.102
    
    [GRAPHIC] [TIFF OMITTED] T0526B.103
    
    Mr. Edwards. General Craddock, thank you.
    And Sergeant Major Farley, let me speak for the committee 
in saying we are deeply grateful to you and to your family for 
your service and sacrifices for our country. One of the 
greatest privileges in my life was to represent Fort Hood in 
the Congress for 14 years. Thank you for being here today.

             MILITARY CONSTRUCTION IMPLICATIONS IN GERMANY

    General Craddock, let me apologize to you that we have 
Budget Committee markup all day. I would like to see us fund 
the Defense Department this year. So I better high tail it over 
to the Budget Committee after my opening questions. But you 
have key members and key staff here who will be shaping this 
budget. We are very grateful, and it is important that you are 
here and we thank you for that.
    Let me ask you about the timing of the decision that the 
Department of Defense has to make in regard to the two brigade 
combat teams and you are--obviously, the decision itself and 
the timing of that decision has military construction 
implications both in Germany and here in the United States.
    Could you tell me where you think we are on the timing of 
that decision? And, also, if you could give us any insights 
into what would be the military construction implications in 
Germany should we keep them there. Do we have a bottom line on 
additional monies that might be invested, whether it is for 
living quarters or for barracks or for other facilities that we 
might have--frankly, I know once we have made initial decisions 
to draw down troops, we tend to cut corners on maintenance of 
our facilities.
    Any insights you can give us on those points, I would be 
very grateful.
    General Craddock. Thank you, Chairman.
    You are absolutely right. There is going to be, obviously, 
service considerations here because of the cost of the 
maintenance and care of the facility. I have talked at length 
with General Carter Ham, who is the commander of U.S. Army 
Europe. He understands that we must have, from the Army, a 
timing construct here so we understand when decisions have to 
be made so that contracts won't be let, brick and mortar won't 
be started to be put together in the States if the decision is 
made not to bring the two brigades back.
    He tells me--and we are trying to work this, and it is 
difficult because everyone wants to keep information close 
hold. But he tells me that the Army will need a decision on the 
two brigades by about October of this year. That is, in order 
to do the work they will have to do if they come back to start 
to prepare for them, the 12 and 13, or to stop those efforts 
and focus on other areas.
    Now, I have taken that information and I went to the 
Undersecretary of Defense for Policy, Michele Flournoy, because 
the policy shop is the driver in regards to the decision on 
force posture. And I told her that the Army timeline says 
October. And she told me that the plan is, the OSD plan in the 
joint staff, is to put this decision into the Quadrennial 
Defense Review, the QDR, that is starting to formulate now.
    She believes--and I talked to the chairman on Monday--he 
believes that they will have in the QDR, they will be far 
enough long with their global force posture decisions, not only 
Europe but the Pacific--Guam and Okinawa--that they will have 
their decision by late September on force posture for Europe.
    Mr. Edwards. Okay.
    General Craddock. So that sounds encouraging, and we are 
going to push on that to make sure that it doesn't get pushed 
aside. But that synchs up, synchronizes up pretty good.
    So I think, Chairman, that is the timeline we are looking 
at. I have told the secretary and the chairman I will come in 
to him with my proposal.
    The compelling arguments that need to be made--excuse me--
--
    Mr. Edwards. It is that time of year. I am fighting 
allergies, so I understand.
    General Craddock. The rationale or the arguments that need 
to be made to show why we need to keep the two brigades--and we 
will also show the tasks that will not be done--the missions, 
the exercises--if we don't have those two brigades.
    So we are working on that. We will bring in May to the 
joint staff--in the tank--the ops desk, we will start with 
them. So that will kick that process off. That will inform the 
QDR.
    Mr. Edwards. All right.
    General Craddock. So that is what I am looking at.
    Now, if we retain, the decision is to keep the two brigades 
or there may be a decision to delay the decision. Maybe delay 
bringing them back until 2014 or 2015. They will make the final 
decision later--I heard that.
    If we keep that, there will be a Mil Con hearing for 
recapitalization in the installations that now are considered 
non-enduring that would have to stay enduring to accommodate 
the two brigades. Essentially, we are talking, probably, two 
facilities. It would be troop barracks and family housing. They 
are, quite frankly, in pretty good shape now.
    So it is not as if we have to go ahead and tear down and 
stand up. But there will be, for those two brigades in the out 
years, some recapitalization costs. I don't have an amount, but 
I think it is only two installations.
    The plan would be that those two brigades would fill in as 
much as they could to the main operating bases established 
now--Grafenwoehr--Baumholder. But Schweinfurt then may take and 
have to be backfilled by logistics and support troops for the 
retention of two brigades. So I don't think we are talking 
about a large standup of new main operating bases, maybe one, 
maybe two at the outset.
    Mr. Edwards. Thank you. And, again, thanks for being here.
    Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    I wanted to say one word to Sergeant Major Farley before I 
ask a question. And that is my good friend, Fred Thompson, got 
really famous playing himself in a movie. And once you retire, 
Sergeant Major, if there is ever a movie where they need an 
authentic-looking sergeant major, you should just step into 
that role. There would be life after the service, for sure. You 
look just like a sergeant major ought to look.
    So thank you for your service as well.
    Major Farley. Thank you, sir.

                            QUALITY OF LIFE

    Mr. Wamp. General, I think you just came off of a quality-
of-life conference, and I was just going to ask you of the 
status--that is our main thrust here is quality of life. Give 
us an update on the overall quality of life throughout the 
European Command and then kind of the second piece of the 
question which is a part of quality of life.
    You have made a big deal out of the schools throughout the 
European command, and I want you to update the committee on 
where you are with the schools as you prepare to leave and what 
the needs are still with the schools from your perspective.
    General Craddock. Thank you, Congressman.
    The quality-of-life conference, I thought, was a good one. 
We had a good representation of delegates. We brought in teams, 
a good sampling of teams. And I was very impressed with the 
out-brief when the team group got up and gave their issues. 
Dynamic, articulate, poised, quite impressive.
    The major priorities and issues for quality of life are, 
one, counseling for families and service members post- and pre-
deployment. Because of this extended duration, we have got 
troops and units now starting--preparing for their third 12--
some of them 15-month. Now we are back to 12-month rotations. 
We have had Air Force, 3-, 4-month rotations continuous.
    This is a key need. And the fact is the problem is 
overseas, we can't get the servicing contracted off post. We 
have got to have the counselors, you know, embedded in our 
organizations, the mental health organizations and medical 
organizations to do that. So that is priority number one.
    Second is the child, youth, and teen facilities. We have 
got to make sure that because of this extended rotation, 
deployment, when service members are going, that there are 
adequate facilities to keep the kids engaged, active, 
productively engaged, particularly the teenagers. So that is 
another one that is been--we had a lot of focus on.
    Access to medical care and dental care. I think what has 
been done and the help we have gotten is to reduce out-of-
pocket costs for dental care so that that dental insurance plan 
is better, is helpful.
    TRICARE for the off-post requirements is coming along. It 
is better than it was. We have more physicians, local national 
physicians, whether it be in Germany or Italy or the UK, that 
are in the program. So that is helpful. And we have got some 
better counseling and better knowledge of how that works.
    It is not yet as easy or as good as here in the States, and 
that is the goal. My goal is to make life in Europe for our 
forces commensurate with what we have here in the States. And 
with the dental and medical, we are getting close, but it is 
not quite enough.
    Our medical facilities--I was at Landstuhl 2 weeks ago--
very impressive to see our staff, physicians, nursing all 
rotate with the global force into Iraq and Afghanistan. So we 
have got a continual turn. And what we have to do then is 
contract local national, German and Italian doctors to go in. 
So we have a lot of turbulence.
    Mr. Wamp. Right.
    Before you go on to schools, let me just ask then what is 
the percentage of the troops under your command in European 
Command that have their families with them?
    General Craddock. Hmm. Sergeant Major.
    Major Farley. About 60 percent, sir.
    Mr. Wamp. Sixty percent. And is that increasing? We had the 
Korean Command in here last week, and we are really trying to 
improve command sponsorship. Ratchet up where families can be 
with the troops because of these extended stays, multiple 
deployments and rotations, et cetera.
    Is that increasing in European Command or decreasing?
    General Craddock. I think, at the senior noncommissioned 
officer, it is decreasing I think. The number that bring their 
family is down because they get to Europe, a few months later, 
they--so rather than bring the family----
    Mr. Wamp. And then leave them----
    General Craddock. I think at the junior ranks, we are 
probably holding about steady in the number that bring their 
families.
    Mr. Wamp. Okay.
    General Craddock. Because as opposed to the past, we can 
get more of them on to post housing and things like that. But 
senior NCOs, I think, many of them are coming----
    Mr. Wamp. Schools.
    General Craddock. Schools. This is a major concern of mine. 
DODEA and then the Department of Defense schools in Europe, 
DODS Europe, has done, over the several years that I have 
watched as my kids went to school there on and off, has done a 
good job in terms of curriculum establishment, in terms of 
quality of the teachers and, also, I think the administration. 
So I am pretty much impressed with that.
    The challenge we have got now is facilities. For several 
years we have tracked this back. We have 43 percent of the 
schools in DODEA worldwide that are located in Europe. We have 
about 44 percent of the students of all the DODEA who are 
located in DODS Europe.
    For several years now, we have been getting 15 percent of 
the DODS Mil Con allotment, and we have fallen farther and 
farther behind in being able to maintain facilities and being 
able to replace facilities. We are Band-Aiding over the years 
and patching up the facilities.
    There was a requirement in the Appropriation Act to report 
back--DODEA had to report back the status of the facilities. 
They have four categories--Q1 through 4, four being the lowest. 
Seventy-two percent of our facilities are Category 3 or 4. 
Category 3, major repair required. Category 4, replacement 
required.
    I think overall, DODEA came out 70 percent. So we are a bit 
worse than the average overall. So the challenge we have had 
over the past couple years is to get--I don't mean to do this 
in a pejorative way, but we had to get DODEA's attention that 
we had--we need a better fair share of the Mil Con 
appropriation. We need a better allocation.
    And I think we have done that to the extent that we now 
have, from them, a commitment that we will get a greater share. 
The challenge is being able to sustain the appropriation for 
Mil Con. I am hearing it may be cut and that there are some 
fences for the Mil Con in Europe and CONUS because it is grow 
the Army so, therefore, it can't be touched.
    We have got a few projects that we want to do, and I know I 
am constrained a bit by OMB and I am not supposed to talk about 
monies and things like that. My concern is this. It is a 
readiness issue.
    We must have schools facilities, fiscal plans, commensurate 
with what they find here in the States. Will it be like 
Northern Virginia? Maybe not. Will it be like Georgia? 
Tennessee? Texas? Yes, it has got to be like that. Right now, 
it is not.
    I live in SHAPE in Mons, Belgium. I go over to the SHAPE 
International School. I have walked through it several times, 
and it is a huge campus that, over the years, has been patched 
with temporary buildings here and there all over the place and 
then tied together in a physical plant that is--it is 
customized. There is--every time something breaks, it is a 
unique fix because it is not like anywhere else. It has been 
all pieced together. It is the same throughout all of EUCOM.
    Old hospitals turned into schools. Facilities that were 
never intended to be a school, we moved in, we made it work. 
But these need more care and maintenance or they have got to be 
replaced. So that is the challenge.
    The readiness piece of this is when Mom or Dad gets orders 
for Europe and they then find out where they are going. They 
call ahead. What do they do? The first thing they ask about is 
quarters. Where am I going to live? The second thing is schools 
for the kids.
    And if what they get is good school system, bad facilities, 
there is no lunchroom, the gyms are far away, they are 
decrepit. Then they will leave the family at home because they 
are set in some place in CONUS in the United States that is 
acceptable to them. And then Dad or Mom becomes a geographical 
bachelor or bachelorette and a 2-year tour, not a three. And we 
have got a greater turn.
    This effects readiness because they are not as focused on 
the job forward because they have got the family back here. It 
is a split perspective, and it is much more difficult. We are 
going to have that. We are going to--I worry that we will turn 
EUCOM assignments into a--either a burden or a hardship tour 
because we can't provide the schooling. Schooling is critical.
    And my headquarters, EUCOM, we have got senior 
noncommissioned officers who have kids in school, high school 
kids a lot of them, and officers--and they will--they will opt 
out if they don't think the kids can get an education, if they 
don't have an adequate place to live--and we are doing pretty 
good there--or if the facilities aren't acceptable in terms of 
medical care and things like that.
    That is the problem with the schooling. It is a readiness 
issue over time.
    Mr. Wamp. That is it for this round, Mr. Chairman.
    Mr. Farr [presiding]. Thank you very much, Mr. Wamp.
    And thank you, General.
    Chet had to go to a Budget Committee meeting and asked if I 
would chair the committee.
    I will ask some questions and then I will go to Mr. 
Crenshaw.

              INTERNATIONAL MILITARY EDUCATION IN TRAINING

    I was very interested, General, in reading your statement 
about your efforts in building the partner capacity, the BPCs 
promise to be a stronger and more flexible response to the 
broad spectrum of threats in your jurisdiction.
    In reading that this morning and then just a moment ago, I 
spoke to the international IMET, the Military Officers--
graduate school in Monterey that I represent. Thirty-nine of 
them, a lot from Singapore, but a good number in Korea, but a 
lot of them from your part of the world.
    And what I was interested in is that we have seen a cut in 
the funding of IMET which has not allowed these officers to 
come to this country because their host countries pay for it. 
And it is more expensive now. So they have been cutting in host 
countries, but we have been matching, you know, it works on a 
formula basis depending on the host country. If we help Germany 
or France or England at all in sending their officers--or 
Australia, it is full scale. But the others--the other 
countries, they were telling me that it is a real difficult 
problem.
    And it seems to me, as I read throughout your testimony, 
this whole concept that we are going to really try to build a 
lot more capability in soft power and education and peace and 
things like that.
    What is your feeling about what is happening at IMET? If we 
lose those officers, isn't that part of building your partner 
capacity that they come here and get this kind of training?
    General Craddock. Absolutely, sir. It is critical. IMET is 
probably, dollar for dollar, the best program we have for 
building partner nation capability and capacity. And, indeed, 
over the years, we have seen a trend now where the dollars 
available go down.
    Every year, we work closely with the nations to determine 
their needs, to request school slots. When a family from the 
Ukraine, a family from Georgia, a family from Azerbaijan comes 
to a year-long school, the officer, the noncommissioned officer 
brings his family and they live in the States, we gain from 
that, they gain from that, they go back, they never forget 
that. And it is very--it is valuable. It is critical.
    This is a Title 22 program along with the foreign military 
financing. And the State Department essentially funds the 
program, turns it over, then, to geographical combatant 
commands to implement. So we work closely with State. But they 
fund it.
    We have--I think, we have got to push harder to sustain the 
funds for IMET. I am absolutely convinced that, in terms of 
opening up and engaging, that is the first place that we have 
got to go. But the process is cumbersome.
    What will happen is I have, in all these countries, offices 
of defense cooperation. They are in the embassy. They work with 
the host nation military to decide what schools, what slots 
with needed. We then pull that together at EUCOM. We put a 
package together and a recommendation. It goes back to the 
office of secretary of defense policy. They look at it. They 
massage it or cut it or change it. They send it over to State 
Department.
    State gets it. They add their spins on it or whatever. It 
goes through OMB and comes over here. And oftentimes, then, 
when State gets it back, this is just a fact of life, that 
money is withheld as a cash flow enabler.
    So for fiscal year 2009, this fiscal year in IMET, we get--
money up front, so we buy school slots. And then if we don't 
get a predictable stream of money, normally what happens then--
this is--I did this in SOUTHCOM, and this is the third year in 
EUCOM. About July or August, we get the big dump on IMET monies 
based upon whatever it is State did not need to reallocate for 
something else. And then we apply it for school seats the last 
quarter of the fiscal year, but we have to get it spent by the 
first quarter of the next fiscal year.
    And the challenge is these are services that have these 
classes, these schools. The services want to get those school 
slots, seats, filled up early in the year. If they don't, they 
sometimes they cancel that school or that course for July or 
August or September.
    So we become at risk if we can't get somebody in. We have 
the money, but we don't have the seats because the class is 
cancelled. Or we have to get it in the first quarter of the 
next year and try to fill up. So it is not a--it is not a 
consistent approach over the year. It is feast or famine.
    Mr. Farr. I am very interested in seeing what we can do to, 
perhaps, make that a better decision making process. And, in 
fact, I asked Chet if he would stay here because they just 
whacked a billion dollars out of State Department, and there is 
no doubt that it is going to hit this program which you just 
said is the best partner solution there is.
    And our strategy for achieving stability around the world 
is to develop these partnerships and building partnership 
capacity.
    I think it is important that you communicate those 
thoughts, also, to Secretary Clinton.
    General Craddock. Okay. I will.
    Mr. Farr. And we will try to do something on this end.
    I have some other questions, but I think I will let Mr. 
Crenshaw go right now.

                BALLISTIC MISSILE DEFENSE--EUROPEAN SITE

    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you, General Craddock, for your service and wish you 
well.
    When you were here last year, we had a pretty candid 
discussion about the missile defense in Poland and in the Czech 
Republic. And I had just come back and met with the Poles and 
they were, at the time, they were--they had a lot of demands 
like--it seemed like they hired some guy to negotiate for them 
picking up all the points.
    The Czech Republic things were kind of moving along pretty 
good, and then after Russia invaded Georgia, as I recall, 
Poland kind of, may be, had changed their perspective or 
whatever.
    So I know that they have signed agreements with the 
president, but I understand--I guess back in December both 
those countries, though decided, well, let us wait and see what 
the new administration is going to say about all this before we 
kind of ratify those.
    And I just--I guess I wanted to ask you, from your 
perspective, has anything changed, in your view, in terms of 
that--those two sites in terms of missile defense, number one?
    Number two, there was an article in Reuters, I think, that 
talked about the Polish government was a little concerned that 
maybe if we didn't follow through, they had a lot on the line, 
they, you know, had made a lot of commitments and what kind of 
impact would that have over the area that you command?
    And then, finally, where are we in terms of the military 
construction that we appropriated the money in 2009? Not all 
the money. But just those three questions.
    In general, anything changed? What would happen if we 
didn't follow through? And what is left in terms of dollars?
    General Craddock. Thank you, sir.
    There has been changes, and there is concern, I think, both 
in Poland and the Czech Republic over how we are going to 
proceed.
    As you said, the Poles have approved the placement of the 
interceptors. The EUCOM will do the technical agreements to do 
that, the land-use agreements and the arrangements. But we 
cannot do that until a Status of Forces Agreement is signed 
with the Poles. So we are waiting for that. So we have got to 
get through that process.
    State Department will work that, and once that is agreed 
to, then when we are given that, we will proceed for the land-
use agreements and the technical arrangement that start digging 
the brick and mortar.
    A little bit different, Czech Republic. The lower house did 
not vote on the approval. They have withdrawn it because their 
law says, after so long, it has to vote, and they were afraid 
they would not get a favorable vote, so it has been withdrawn.
    Yesterday, the government got an unfavorable confidence 
vote, so the prime minister--the president will have to form a 
new government. They may wait until after the end of the 
rotating EU presidency to do that at the end of June. But it 
looks like, right now, that government, which was in favor of 
installation of the radar, is going to dissolve, probably, by 
the end of the June. And we are concerned that the next 
government may not hold that radar in the same favorable light.
    So we have got some political changes here that are, 
obviously, impacted on what we are going to do.
    I have talked to the military leaders of both of those 
nations. I have talked to the defense ministers. They all tell 
me that, indeed, they have spent some political capital with 
their constituents, their people, in order to generate approval 
for the radar. The incursion into Georgia convinced the Poles 
very quickly, as you said. So they were very favorable to that 
and that was no issue.
    It is still on the margins, I think, in the Czech Republic. 
Some polls I read say that 70 percent are against the radar. 
Others I read 48. So I don't know where it is, but I know it is 
an issue with their population.
    I think the longer the United States waits to decide how 
they want to proceed, the greater risk we have in the peoples 
of those nations then thinking that it is a good thing for 
them. And I think that, as I saw the foreign minister of Poland 
talk about the lack of confidence, and he is worried that the 
United States may change its position. I think that will, 
again, influence other nations in how they view our consistent 
relationship. So, unfortunately, it will play in.
    Now, the requirement--the need for a radar, I think, NATO 
is--the 3rd of December, the foreign ministers affirmed that 
the third site was needed and would provide significant 
protection from ballistic missile attacks. So there is no 
question there so far of the threat.
    It is a matter of, now, I think, a decision by the United 
States on how they will proceed, how they will proceed with 
regards to the Russian consideration of the third site. And I 
think those are going to be some difficult political decisions 
that will lead to difficult discussions at the highest levels 
of the U.S., the Russian Federation, and I think, Poland and 
the Czech Republic.
    So we, right now, essentially, we are in a hold status. We 
are waiting for a political decision on--my requirement is to 
protect U.S. forces and U.S. families and interests in Europe 
from ballistic missile attack. If we do that by putting in a 
third site to intercept, fine. If we do that through political 
means, diplomatic means, economic means to minimize or reduce 
the threat, that is okay, too. But that has yet to occur.
    Mr. Crenshaw. In terms of the appropriation, is there 
anything needed yet? We appropriated some money last year, but 
I guess--is that kind of on hold as well?
    General Craddock. That is on hold until we get the go-ahead 
to make the technical agreement, and then the monies will be 
used to break--start shoveling earth and do the brick and 
mortar. I think it is an incremental appropriation. I think it 
is okay. It is just a matter of have we got the trigger to get 
started.
    Mr. Crenshaw. Gotcha.
    General Craddock. Yes.
    Mr. Crenshaw. Mr. Chairman, I have got another question, 
but I will wait until the next round as well.
    Mr. Farr. Okay.
    Mr. Carter.

                           ECONOMIC DOWNTURN

    Mr. Carter. Thank you, Mr. Chairman.
    General, the dollar is fluctuating pretty severely, and 
there is a global downturn that we are seeing which, of course, 
that is front-page news over here. I was reading an article 
last night about the economic crisis in Europe.
    It seems at least that in some countries, Spain and Ireland 
being the two examples I was given in that article, they are 
teetering on the edge. Is that having an effect on the military 
construction projects that you might have or that you might 
anticipate? And are we going to need to formulate something 
consider the possibility of a severely fluctuating dollar when 
we start trying to spend money in Europe?
    General Craddock. Thank you, sir.
    A difficult question. What we have seen is a favorable 
exchange rate with the dollar against the Euro here over the 
last few months. But in the last 2 weeks, the dollar has lost 
$0.10 against the Euro which is pretty significant in a very 
short period of time.
    I don't think that is going to impact too much. I think, 
actually, because of the economic downturn, that we may be able 
to leverage that into great opportunities with the Mil Con we 
do have because, as there is less demand for the construction 
business, local contractors, whatever, then we may be able to 
get their business at a better rate for us because they want 
business.
    Mr. Carter. Right.
    General Craddock. As opposed to they have got too much 
business and they, you know, we have to either outbid or wait. 
So I don't think that will be unfavorable.
    What I do think, though----
    Mr. Carter [continuing]. Bid for American companies or 
European companies?
    General Craddock. If there is an American company that can 
do it, fine, but the problem there is the Status of Forces 
Agreement. And number the Status of Forces Agreement that we 
have, for example, in Germany, you are going to have to go to a 
German company before American if the German can do the same 
work. It is not even a bidding process because the taxes then 
on the American company are pretty high, and that makes a 
difference.
    But this downturn, I think, is going to impact any cost 
shares or anything that the nations would have right now. We 
are going to have to fight harder.
    Let me give you an example. The SHAPE International School 
has got 17 nations as a part of it. It has been there ever 
since 1968, and we have worked over the years. We are having a 
very difficult time with them to pay their fair share. And they 
are saying, because of the downturn, they are not going to 
touch it.
    They have 17 percent of the students, they paid 3 percent 
of the cost. The other nations are paying a fair share. But 
with the downturn, discretionary monies, they are going to look 
hard at all these cost shares to see if they can reduce it. 
That is where the danger lies.
    Mr. Carter. The overall economic situation in Europe, at 
least in the article I was reading, is that the Eastern Bloc in 
the last election just barely turned out to vote, there was 
around 17 and 12 percent voter turnout in some of the eastern 
nations in the EU. And even the founding nations were below 50 
percent, in fact, they were below 40 percent.
    The imposed currency is starting to be a burden on some of 
the countries, do you have any comment about that?
    General Craddock. Well, no, I agree with that. Now, the 
Euro, the European Union, has got a lot of regulatory 
requirements, and it is a bit of a burden. You know, there is 
requirements for contributions to different types of funds in 
the EU. And those are must-pays much like very view as our 
budget, civilian pay is a must-pay. Those are must-pays.
    So that then, as you have got to do that and your revenue 
generation is less, it reduces the discretionary funding. NATO 
asked its members to contribute 2 percent of their gross 
domestic product to the security sector, to defense. That is--
they want 2 percent for ministries of defense.
    Right now, there are three countries out of 26 that 
contribute 2 percent. And the trend is down for everyone. And I 
think within a month, it will be two countries, the UK and the 
U.S. We had six countries doing it 6 months ago. Now, we are 
down to three. It is going to go to two. That is where we are 
trending.
    And in Europe, when times are tough, revenues are down, the 
first place they go to grab discretionary funding is in the 
security sector. I think we are going to continue to see that.
    Mr. Carter. Thank you.

                           NATO CONTRIBUTIONS

    Mr. Farr. Thank you, Mr. Carter.
    General, both Secretary of Defense Robert Gates and joint 
chief of staff chairman, Admiral Mullen have called for a 
whole-of-government response to stabilization and 
reconstruction issues in Afghanistan. And I am wondering do you 
know what NATO countries will contribute to this kind of 
buildup of the civilian surge?
    General Craddock. Well, the effort is ongoing right now. It 
is--it is going to be pushed hard, I think, by the Secretary of 
State. She has been given the task to engage with the NATO 
nations.
    As you know, the United States has increased its force 
commitment by 30,000. When they are all there by the end of 
July, it will be 30,000 since the 1st of January. Commensurate 
with that, at the same time, we have to increase the civilian 
representation.
    What do I mean by that? We need Department of Agriculture 
or like type agriculture experts from Europe--energy, 
transportation, commerce--that can integrate into not only the 
central government in Kabul and mentor these--this nascent 
civil service, if you will, but also move out into the 
provincial--the provinces, the capitals and the provinces and 
the districts and mentor and partner with the government 
personnel there. And that has not happened.
    Mr. Farr. So the State Department has a new coordinator for 
stabilization and reconstruction, Admiral Herbst--excuse me, 
Ambassador Herbst.
    General Craddock. Right.
    Mr. Farr. Is he going to be coordinating the NATO country 
civilians as well or just trying to grab our folks?
    General Craddock. I think he will be working the U.S. side. 
And right now, the U.S. side is the predominant side in terms 
of numbers. However, in the north, the Germans have started to 
push in quite a few civilians. And, right now, their provincial 
reconstruction teams are co-led by a civilian, the foreign 
ministry, and by a military officer.
    We are seeing a little more of that in the West, but we 
have got to do two things. One is----
    Mr. Farr. Do these teams train together at all like you 
would train----
    General Craddock. They come together. They get trained up, 
and then they deploy down. We want ours to stay a year. Theirs 
stay 6 months. They have a continual turn, also.
    Every one of the PRTs, not only ours but those run by other 
nations, has a U.S. State Department representative and a USAID 
representative. So we get integrated into them there.
    Mr. Farr. And they have a language and cultural training to 
be able to work on the grounds?
    General Craddock. It is--we need to grow it. But what we 
have is a good core capability around which we need to put more 
agriculture experts, energy experts, medical experts so that we 
can continue to build capabilities.
    Mr. Farr. What I am curious about is this interaction 
between Department of Defense, NATO, and these civilian crisis 
corps folks that are--that are--the stabilization group, how 
that will be integrated in command and how it will be 
integrated in operations because, obviously, you can't be two 
different entities in the same country on different missions.
    General Craddock. In the U.S., where the rubber meets the 
road is a provincial reconstruction team. There is 26 in 
Afghanistan. The U.S. has 12. And in that team that is led by 
U.S. military officers, but embedded in the team are State 
Department representatives, USAID representatives, Department 
of Agriculture--we are starting to get them--land grant 
colleges are sending agriculture experts from the school over 
on 6-, 7-, 8-month rotations.
    Mr. Farr. Is this primarily--country?
    General Craddock. Yes. I just talked last month to the 
Department of Agriculture expert in Regional Command East, U.S. 
leading, and he has got several teams of 30 or 40 from schools, 
land ag colleges, agricultural schools, who are over there 
working with farmers. And he said it is amazing because it is 
very basic.
    Give me an example. He said, well, we found out that a lot 
of these farmers overwater. There is a lack of water, but when 
they get it, they overwater the crops. So we worked with them 
to show them how to do this better, and crop yields then go up 
two and threefold.
    So the land is fertile. There is water under the ground. 
Some rivers in the east particularly. And it is a matter then 
of just giving them the basic fundamentals of pulling it all 
together, and the crop yields go up.
    Mr. Farr [continuing]. Poppy fields?
    General Craddock. Different problem. But it is most--that 
is mostly in the south right now. Ninety percent of the poppies 
are coming out of the south, and that is where the focus--is 
going to be next.

                          STABILIZATION CORPS

    Mr. Farr. I am very keenly interested in emphasis on soft 
power. I think it is the right thing to do, and I think America 
can do it well. I was a Peace Corps volunteer and came back 
with that experience of language and cultural knowledge and 
really working with the peasants that, you know, just didn't 
understand sort of basic things.
    So I am interested in how you, as a career military 
officer, feel about this. It really seems to me that if we are 
really going to do stabilization and we are going to work 
ourselves out, we have got to have that civilian transfer.
    General Craddock. I agree. Absolutely agree.
    Mr. Farr. What are the things that we need to add that we 
are not doing?
    General Craddock. I think that we have got to have, whether 
it is USAID or whether it is the stabilization and 
reconstruction directorate in State Department--maybe that is 
where it starts--we have got to have an energized, growing--it 
has got to be bigger--stabilization corps. And they have got 
to--right now, the military is doing it in most places, but we 
have got to get that transitioned into a civilian entity and 
just let the military be there for security as required.
    I don't know how you motivate that, how you get, you know, 
incentives for folks to join, but that has to occur.
    Mr. Farr. The concept here was to draw upon the trained 
experience of USAID, State Department, and then have a reserve 
corps made up of state and local folks who you can call upon 
and you would have this cache of incredible career talent and, 
hopefully, career talents that also know something about the 
country that you could pull together and train and they could 
come in there as you said, a stabilization corps.
    General Craddock. I am all for it.
    Mr. Farr. I guess we just haven't met the size and skill 
level that is needed.
    General Craddock. I think it is still fragmented. I think 
departments, Agriculture, Energy, Commerce, Health and Human 
Services all generate their own participation, but it is not 
brought together here under a stabilization corps where each 
department agency puts their people in and 40 of them are 
pulled out and they are trained together and culturally 
assimilated to go into a province in Afghanistan, and 45 go 
into some other country and--I think, now, it is individual 
stovepipes going in.
    And then they come together on the ground, and it is better 
than nothing, but it is still not good enough.
    Mr. Farr. What was the ingredient that made the military 
come together in a coordinated way?
    General Craddock. We follow a prescribed routine. It is in 
our--it is the way we are drilled. It is our ethos.
    And Regional Command East in Afghanistan, the military put 
together a program in Nangarhar Province, and they called it 
Nangarhar, Inc.--I-N-C--incorporated. And I took 30 members 
from the Council on Foreign Relations to Afghanistan. We went 
there.
    And the military briefed these industrialists, 
entrepreneurs, businessmen and women here is what we are doing. 
And everyone I heard said why are you doing this. This is not a 
military task. This is a civilian task. You are into 
development, reconstruction, job creation. You are bringing in 
industrial capability, technology, why are you doing this? And 
the answer is no one else was there, but they were doing it 
very well.
    That is what we have--that is the stabilization corps we 
are talking about. Those--those functions, those skills, those 
tasks have to be handed off to a stabilization corps, a 
stabilization battalion, whatever and then they have to sustain 
that over time because we are taking the military--and our 
strategy is shape, clear out the insurgents, hold--keep it 
secured--and then build. We are using our forces to shape, 
clear, hold, and then build, and we don't have enough to do it.
    So as soon as the next problem spot comes up, we are trying 
to hold and build, we have to move our forces over to clear the 
insurgents out of this problem spot. And this is----
    Mr. Farr. Well, I was involved in carrying the legislation 
to create that stabilization corps in the State Department, and 
it is only about 2 years old. Congress has cut their request in 
funding. We haven't funded it enough. But I think it is 
important for the Department of Defense to talk about that as 
much as possible and plead with all of us appropriators that 
you need that other arm, that other strength in order to secure 
and stabilize an area.
    And I think that voice, coming from the military, may be 
even more respected on the Hill than coming from the State 
Department.
    General Craddock. I agree with Secretary Gates. I think it 
means that we, the Department of Defense, push monies over to 
do this. It is in our best interest to do it.
    Ambassador Carlos Pascual was the first director, and I was 
in SOUTHCOM. We worked together closely. I think--and I am--
this is my judgment--he got so frustrated with the ability to 
get resourced and to get authorities to move ahead that he 
left. And I think when that happened, that whole program lost a 
lot of ground and a lot of momentum.
    Mr. Farr. Well, the Congress can take the blame. They asked 
for $150 million, and we gave them $10 million.
    General Craddock. Okay.
    Mr. Farr. Mr. Wamp.
    Mr. Wamp. Carrying the thought a little bit further, this 
civilian approach, I have said here many times, that our 
commanders around the world are maybe our best State Department 
representatives--and they are more effective than State 
Department a whole lot of times--but don't you think that that 
is the best way for General ``Kip'' Ward to succeed in AFRICOM 
is with that approach?
    I talked to a top official last month from Kenya who 
actually had gone from concern about AFRICOM to a much better 
attitude towards AFRICOM. Not threatening, more stabilization 
support and economic development things that they saw real 
positive instead of a threat to the continent which I think was 
the first reaction.
    And just in a big picture, you have divested those 
countries, but during the transition, don't you think that that 
is very much a part of the success formula for AFRICOM is that 
approach?
    General Craddock. Oh, I absolutely do. I think that, in 
most scenarios today, particularly in Africa, I think, in 
Eurasia to a great extent, soft--S-O-F-T--power is what will 
prevail.
    In Afghanistan, I have said repeatedly, this is not going 
to be won by military means. The military will set the 
conditions, the security so that development, which is job 
creation, the delivery of infrastructure, social services and 
welfare to the people can occur. When that happens, then they 
will decide they do not want insurgents around because they 
don't bring that to them. And the people will push the 
insurgents out.
    Same thing in Africa. Different problems in Africa. It is 
endemic. It is poverty. It is--but it is not a conventional 
military threat. So we have got to--we, the military--have to 
enable the civilian approach. And that is the challenge we have 
got.
    Until we do that, we have got to have civilians behind us.
    Mr. Wamp. We are seeing the push-pull here to a certain 
extent is if the military is involved, a lot of people in 
Washington don't look at it as foreign aid or assistance to 
countries. They don't think it is as efficient. This is just a 
reality that still has to be dealt with because I do think as 
you transition more over to State Department, you don't get, 
frankly the efficiency.
    And I know that there were gross inefficiencies with Iraq 
in staging and procurement on the other side of the world in a 
war-fighting capacity. But I also believe that you have seen 
the military be very responsive with the resources in this kind 
of a theater as opposed to, frankly, some State Department.
    So we have got--I understand where you are going, but we 
have got some selling to do.
    Back to Afghanistan, unless you want to interject.

                              AFGHANISTAN

    Mr. Farr. The problem is--the military has been very 
straightforward about this and the Department of Defense, 
Secretary of Defense has been very straightforward that they 
need this capacity built up. And they were the first to support 
this legislation.
    And, in fact, that is how we got it through the Senate. It 
was calls from the Department of Defense that got it through, 
not the State Department. But we haven't been listening to it 
or funding it. And I think the concept there is that they 
trained. I mean, if you are going to be governor of a state, 
you are going to have a lot of people who are really good at 
their job and professional. Why can't we call them up as we do 
National Guard to have these civilian skills and, perhaps, the 
linguistic knowledge? You know, maybe they are Afghans.
    I think it is just a missing component. As far as cost, I 
mean, if we really put a nice spin on it, I think you could get 
senior people to almost volunteer to do this. Who wouldn't want 
to have an experience like this?
    Mr. Wamp. Back to Afghanistan and your role as the supreme 
commander and NATO increasing their presence there. Word from 
the Pentagon is that in the supplemental, when it comes, there 
will be a little thin slice for Mil Con directed to 
Afghanistan. Where would that be spent? Do you know?
    General Craddock. I have a NATO hat in Afghanistan. I do 
not have a U.S. hat. But because of this uplift in forces, as I 
understand, there have to be some additional tarmacs laid 
because of the increase in numbers of helicopters, so they have 
got to do some more work on the airfields. There will have to 
be more facilities to house the troops, whether they are--
probably C-huts or things like that. Headquarters will have to 
be built. Regional Command South is going to be up a little 
bit. So I think that is the Mil Con investment.
    From a NATO perspective, we are basically in airfields. 
NATO will take care of common funding for common-use areas. 
But, for example, the Germans in the north in Mazari Sharif 
have built that into an incredible facility. I mean, there is 
more--there is more cement up there than anywhere else in one 
place in that country. It is huge. But that is nationally 
funded, no NATO money there.
    That is going to happen. The U.S. is going to have to fund 
some of these increases when they put these forces in places 
where there are no facilities now. There is no infrastructure 
anywhere in Afghanistan.
    So any time you put a force in there, one of these got to 
put the infrastructure in. You have got to put in housing. You 
have got to put in dining facilities. You have got to harden 
them because of the threat from rockets and mortars. And that 
is where the cost lies.
    Mr. Farr. Is there water?
    General Craddock. There is water in most places of the 
country's surface. Southwest, no. But under--not too deep--
there is water. Some of it is high metal content, but the fact 
is that before the Soviets destroyed it, that was a very 
complex irrigation system, and it was--it was good. The country 
was green. When the Soviets left, they just completely 
destroyed the irrigation system.
    The challenge we have got with Department of Agriculture 
and some of the European nations is to help rebuild the 
irrigation system in the south and the north. The east has got, 
because of the Hindu Kush, a lot of mounts and runoff from snow 
and streams. So there is plenty of water there. Good micro, 
hydroelectric capability. Put a little turbine in one of these 
streams as wide as this table, fast moving, and you can 
generate enough to put one light bulb in 50 houses. That is a 
pretty good deal.
    So there is water. It is a matter of getting to it, getting 
it in, out, and distributed in irrigation has got to be 
rebuilt. Totally destroyed.
    Mr. Wamp. So Admiral Stavridis, Ph.D., real smart guy, real 
neat guy, but he is going from dealing with Hugo Chavez to 
taking EUCOM. What do you say to him? [Laughter.]
    General Craddock. Hang on. Well, I did the same thing. But 
the difference--I went from SOUTHCOM to EUCOM and NATO. The 
difference is I had already spent 14 years on and off in Europe 
on assignments. I had been in a NATO command. So I understood a 
lot of how that works.
    So Jim is going to have to--militarily, not a problem. You 
can transfer skills from one combatant command to the next. 
Okay? So that is okay.
    The challenge will be the political and military side in 
NATO. And that is completely different and unique. There are 
different rule sets, different acronyms, different processes. 
When you--in NATO, when you were invited to something, that 
means you will be there. It is--you have got to break the code. 
And that is going to be the challenge.
    So what I am telling you is listen to some of the folks who 
have been around a while very carefully because, in NATO, 
generally speaking, what you hear is different from what they 
mean. It is incredibly political.
    Mr. Wamp. Wow.
    Thank you, Mr. Chairman.
    Mr. Farr. Mr. Bishop, under the rules of the committee, I 
am told that priority, because of the way people came in, is 
that Mr. Crenshaw and Mr. Carter go.
    Mr. Crenshaw. Thank you. While we are talking about 
Afghanistan, let me ask you a couple of questions. You know, 
kind of big picture, kind of what is going on there. But what 
you just mentioned and, you know, kind of the political nature.
    When I was there, one of the big problems, it seemed like, 
I think you said we have got 62,000 people there. Half of those 
are ours. Right? Forty-two different nations have people there. 
We have got another 14,000 that are kind of part of Enduring 
Freedom, and we are getting ready to send another 17,000 there.
    And part of the problem is getting everybody to work 
together. As I understand it, some countries don't go into some 
areas of Afghanistan. There are these so-called caveats where, 
you know, we watched the film of kind of the way people engage 
the enemy, and they were watching from high-tech spy planes. 
Now, here they are, the bad guys are here, but there are too 
many people nearby so we can't do anything until they go 
somewhere else.
    I mean--and I guess I am wondering NATO is getting ready to 
have an anniversary. You are going to have a NATO--do you all 
talk about that? About--it seems to me that, with all the high-
tech equipment you have got, you know, interoperability kind of 
questions of how you train people, how you work together, the 
different rules that different countries have.
    Give us a picture of the overall situation in Afghanistan. 
And then what do you think are the things that we ought to be 
doing legislatively or the things that you are trying to do at 
these NATO summits to kind of work together?
    But could you kind of comment on a couple of those issues?
    General Craddock. I will give you an overall Afghanistan. I 
just took the North Atlantic Council plus non-NATO troop-
contributing nations in 2 weeks ago--well, last week, actually. 
That was 42--reps from all 42, ambassadors from 42 countries.
    So we got them out and about to see the country and talked 
to President Karzai, talked to the ministers, talked to Speaker 
of the House Kenuti and others. So I will tell you the general 
consensus was they came back seeing a far better picture than 
what they expected.
    So, now, it is not rosy, but it is not as bad as you read. 
Three lines of operation in NATO: security, governance, and 
development. My assessment is in security, except for the 
south, we are making progress. In the south, we are stalemated, 
and we need more troops, and that is what the U.S. is going to 
provide.
    The south is a coherent insurgency. It is Pashtun. They are 
all working under orders from Quetta--the Quetta Sura. The 
Pashtun insurgent leaders have very tight control in the south. 
It is a coherent insurgency.
    The east is a syndicate of insurgents. You have got 
Taliban. You have got HIG, Hakani, Al Qaeda, IJU, you name it. 
There are a whole bunch of bad guys, and sometimes they work 
together and sometimes they don't. So they are syndicated to 
the extent it is to their advantage. When they feel like it is 
not, then they blow each other up and try to do something else. 
Different kind of insurgency.
    The key is Pakistan for them. If the safe haven in Pakistan 
is not eliminated, we will never end the fighting in 
Afghanistan. Fact. Insurgents, when they are under pressure, go 
back across the border into sanctuary, and then they pick and 
choose when to return.
    But except for the south, security is on the uptick. We 
turned over Kabul, the capital, for leave for security to the 
Afghans. The incident rate today, they are doing a pretty good 
job. Will they ever completely eliminate the suicide bomber 
that makes the headlines? No, we can't do that anywhere in the 
world. But the number of incidents are down. They are doing 
okay.
    Governance, I think, is the long pole in the tent. It is 
the problem. If the people in Afghanistan don't believe 
government is a positive factor in their life, they will never 
support the government either central, provincial or district. 
And, right now, the corruption is so bad that the people are 
right on the margins. They don't know whether to walk off and 
take the Taliban, even though they are harsh, they are not 
corrupt, they don't--people and shake them down, or they think 
maybe there is a chance the government is going to help them.
    If we don't see a reduction in corruption, if we don't see 
the delivery--fair delivery--of infrastructure and services, I 
am worried that even though we could be perfect in securing the 
place, the people will still never back their government.
    Development is starting to get better. It is now a more 
coherent approach. It is integrated the Afghan national 
development strategy, which was a long time coming. It is 
integrating from bottom to top, and we are seeing projects 
linked up and down. So I am getting a better feel there.
    The World Bank Solidarity Program, which is administered 
down at the local level, does not go through Kabul or any 
provincial capital, is probably the most effective development 
program there. It is very good.
    Now, we have got to take those types of successes and link 
them up and then across. So that is the overall picture. Not 
moving as fast as we want to. We still have to continue to 
push.

                                  NATO

    And what is the problem with NATO? In order to get buy-in 
in the beginning, I think what happened was that every nation 
that wanted to have a little hitch in going, a caveat--well, we 
will go but we want--okay, fine. Come on.
    And individually, it wasn't a problem. But then when you 
have got 42 nations and they generate, right now, 17 caveats--
18 nations out of 42 are caveat free. The rest have got 70 
caveats. They won't do this. They won't go there. Then the 
commanders on the ground, every time they have put together an 
operation, have to consider that and have to adjust. And it 
gets to be three-dimensional chess because you think you have 
got it--no, I can't use these guys because--so it is very 
difficult. It takes enormous planning efforts.
    And now, the next factor, a good factor, is we have got to 
work with the Afghan National Army. They are getting more 
capable. They are participating in 90 percent of the ops. They 
lead 50 percent. That is a good thing. So we want that.
    But we have got nations that are caveated. They--if they 
are--if they are providing mentoring teams for an infantry 
battalion of Afghans in the north, and we have got a problem in 
the south. So we want to move that brigade of Afghan soldiers 
to the south, but that team in the north that belongs to a 
country says, oh, no, I can't go south. So the OMLTs mentoring 
team, they stay north. The U.S. has to pick up--put a team 
together to go south. These are the things that cause 
incredible inflexibility that the commanders down there have to 
deal with.
    So we have got to--it is too late. We have built our house. 
We are going to live with it now. But when we do this again and 
we build an O-plan, an operations plan and NATO says go do it, 
then we cannot let nations opt in the way they want to. You are 
either all in or you are all out.
    And if you are not all in and we don't have enough to do 
it, then militarily, we go back and say we can't do it. You 
told us to do this. Here is what we need. You only gave us 
this. This is all we can do. We didn't do that.
    It is the worst abomination of a military--military effort. 
We just--it is too hard. It is too many restraints. 
Headquarters structure, all the caveats and the constraints, 
some of these national elements that come in don't report under 
ISAF, NATO. They stay nationally command and controlled. So it 
is--we have got to have a 21st century structure here, and this 
is a Cold War structure.
    Mr. Crenshaw. You bring that up, like, at these meetings 
and it just--they can change.
    General Craddock. I meet with the chiefs of defense every 3 
or 4 months. I tell them this. I need--you know, at the last 
summit, the heads of state said we are going to fill up your 
requirements with troops, we are going to eliminate caveats. 
The next meeting after that, I took a big, old jar in and I 
labeled it. This is the fill-up-the troops. And I laid it out 
there. Who is going to put something in it? And nobody did a 
thing.
    So you can name them, you can shame them, but it doesn't 
work. You just continually beat on them. The chiefs of 
defense--the military guys--always tell me I can get more. I 
can provide more. I can do this. Will you do it? I will try. 
They go back, they can't get political approval.
    Mr. Crenshaw [continuing]. Withhold military aid--
conditionality?
    General Craddock. Most of the ones that have the 
capability, have the capacity and haven't contributed don't get 
aid from us. Smaller nations, the newer nations, the new 
members of NATO are paying a bill--they are punching above 
their weight, but they are not real capable, so we have got to 
help them out. We have got to train them. Sometimes, we embed 
U.S. guys with them to help them out. They are willing, but 
they don't have a lot to bring.
    It is the big nations that we don't give any aid to, they 
are the ones that could do it but don't.
    Mr. Crenshaw. Thank you.
    Mr. Farr. Mr. Carter and then Mr. Bishop.

                              AFGHANISTAN

    Mr. Carter. Well, this line of questioning we have been 
going into is very frustrating. I was over with the 4th 
Infantry Division early on, and some of the commanders were 
complaining about the same issues that you are complaining 
about in Iraq.
    One general, and I won't mention his name, got frustrated. 
He said I spend more time taking care of these people than I do 
getting anything out of them. And I have got fighting soldiers 
that are having to take care of these people because they are 
limited in what they are willing to do. And he said as far as I 
am concerned, they might as well go on home. But I guess he was 
a little bit frustrated.
    But another thing that Sam brought up, and this is only in 
Iraq you are talking about provincial teams were a good issue. 
I mean, they really did work. But the frustration that the 
military was having at that point in time--this was prior to 
the surge was it was taking a lot of soldiers to move a few 
people from the State Department out there because they just 
didn't want to go.
    And he said, finally, you just said it is easier for us to 
just do it ourselves than try to push these guys out of their 
little secure place inside Baghdad. They didn't want to go 
outside of there. They didn't feel like they were getting paid 
to get shot at and so they didn't want to go out there.
    And so the Army took over, basically, all those issues that 
were supposed to be dealt with. Is that same type of thing 
occurring in Afghanistan?
    General Craddock. To a certain extent, yes, but I don't 
think it is as bad as what you described because we have been 
there a little longer. When we pushed out the insurgents, the 
Taliban, in late 2002, they were beat up pretty bad. We didn't 
realize it, but they were out there refitting, rearming, 
regenerating over the next 3-1/2 years. So, by 2006, they were 
back.
    We had folks out and about, State Department folks and 
other civilian teams. So we had them out there. Now, the--you 
know, and we had security for them, we just had to, probably, 
put a little more security in certain places. But I don't think 
it was having to get them out there. They were already out 
there. The question is are they--is it good enough.
    The problem wasn't the U.S. Now, the problem is 
international organizations, nongovernmentals. Right now, 
UNAMA, the mission in Afghanistan only has their people in 
offices in 17 to 34 provinces. And the reason they will tell 
you is security.
    Well, the real reason is manpower. There is plenty of 
security where they are, but they don't have enough people to 
get out there. So they continually have a tension of resources 
versus security.
    But, no, we do have to provide security. We are asked to 
escort world food trucks. We are asked to do a lot of that. 
But, you know, there is a--there is a bit of a tension. Any 
time a lot of these nongovernmentals, these international 
organizations see a uniform, you know, they push back. They 
don't want the military around because they think we endanger 
them if they are near us.
    But what we are seeing now is a reverse. They are asking us 
to come around and help them out because they realize we can 
provide a level of security now. ISAF does that. U.S. forces do 
that. If it means we can get them out and they can start doing 
what they are chartered to do, it is probably worth our time to 
do it.
    Mr. Carter. At the Naval Postgraduate School where they are 
doing this training with everybody, military and international 
and nongovernmental organizations, the feedback I am getting is 
the NGOs are much more comfortable being with the military 
because they are out in the fields. What they are not 
comfortable with is watching USAID and the State Department 
hide in the embassy compounds.
    And because of the way they were founded they don't want to 
be seen as partnering with the military. But as far as ground 
work is concerned, they find themselves, because you say so 
many of the soldiers are doing this work--fixing water systems.
    I think it is a whole new paradigm that America needs to 
build on, NATO needs to build on that we have never trained 
civilian forces to go in and do stabilization in failed states 
and how maybe you ought to go in ahead of time just so they 
don't fail. But in post-conflict, how do you get them in and 
how do you restart the system? You need forces trained together 
and civilians don't train together. They are all independent. 
They come in. They rush in. They are single purpose. One, will 
build houses. Somebody else will do teaching. They are not 
under a single command structure, and that is why I think we 
should match military organizational skills to civilian parts.
    I think it is challenging and exciting and a great 
opportunity, but Congress has got to get behind you.
    General Craddock. We don't have to push out the USAID or 
U.S. State Department. I will say they are out there. We--the 
challenge is keeping them out there and more of them because, 
too often, we have an AID rep out in the PRT in some remote 
province, and it is time to leave and they leave, and it is 2 
months before we get a replacement.
    So we have got to have a continual, persistent presence, 
otherwise the local people lose faith in the fact that we are 
serious about this.
    Mr. Farr. Mr. Bishop.
    Mr. Bishop. Thank you very much.
    Welcome, General Craddock.

                       COMMAND STRUCTURE AT EUCOM

    I have been interested in the conversation regarding the 
three Ds: defense, diplomacy, and development which is very 
much a part of the newest command: which is Africa Command. One 
of the specific things in the Africa Command structure is that 
there is a deputy commander for civil and military affairs who 
is an ambassador.
    And do you believe that in what you are doing in 
Afghanistan, that that would be helpful? Does your command 
structure at EUCOM include a civil military affairs deputy to 
the commander as does AFRICOM?
    General Craddock. Thank you, sir.
    No. The command structure of European Command does not have 
a civilian deputy. I was--I worked with General Ward in the 
beginning in the creation of that structure. And we looked at 
what ailed Africa. We looked at the needs of Africa. We looked 
at the challenges and the threats in Africa. And it was 
apparent that there are probably more nonmilitary challenges 
than military and it would take soft power to address it.
    And that was a discreet decision, uniquely, to have a 
civilian deputy out of the State Department, Ambassador Yates. 
I think--and what I am doing now, quite frankly, in EUCOM is we 
are beginning--I have started a review the command structure, a 
review towards our reorganization.
    When I left SOUTHCOM, I did that. I handed that off to 
Admiral Stavridis.
    Mr. Bishop. SOUTHCOM sort of has that structure, also.
    General Craddock. Right. Exactly.
    So we are heading that way, but I will, quite frankly, tell 
you that we had the first year to be able to split out AFRICOM. 
A challenge because that changed European Command. That was a 
significant event.
    So we spent the first year doing that. We spent the second 
year, now, regrouping and understanding what that meant and 
getting ourselves reorganized. Now, it doesn't sound like much, 
but the fact that--a couple of facts.
    I have got two hats. I am not the only combatant commander 
with two hats, but I am the only one with two different 
headquarters that are 500 miles apart. That created a 
significant difference. And along with that was, in years past, 
the deputy commander of EUCOM was a four-star, General Ward.
    When we split out AFRICOM, my deputy commander became a 
three-star. And while, as competent and capable and good as he 
is, four beats three. And three can't get in doors that four 
gets into. And when he wants to meet with chiefs of defense as 
a three-star, it is harder.
    When we have conferences--and we do that routinely, we 
bring in the chiefs of defense of the nations once a quarter. 
If I am not there, then it is hard to get them there. So we 
spend the next year sorting ourselves out.
    Now, I have stated let us get ourselves arranged for the 
21st century because we are going to be in the process of 
reorganizing ourselves. Is it going to be like SOUTHCOM? Not 
exactly. Is it going to be like AFRICOM? Not exactly. But it 
will be what we need to face the challenges in our region.

                              AFGHANISTAN

    Mr. Bishop. In terms of your long-term military base needs 
for Afghanistan, do you see in EUCOM the need for any long-term 
military basing and access for the efforts in Afghanistan that 
this committee would have to fund?
    General Craddock. Not discreetly towards Afghanistan. I 
think that, in conjunction with Transportation Command, 
TRANSCOM, they have in-route infrastructure requirements in our 
region. So, you know, Moron in Spain, Rota is in Spain, we have 
got to make sure that what we have meets the needs but it is 
not more than we need. We can't warm base things in two 
locations if we can fix it to be adequate for all the 
throughput we need in one location.
    So I don't think there is anything unique to Afghanistan. 
As you know, TRANSCOM is working on a northern distribution 
network so that, instead of having to go through Pakistan, we 
can come in through Russia and Kazakhstan and Uzbekistan and 
Tajikistan. That is working pretty well. NATO is doing the same 
thing.
    So I don't have anything different than what TRANSCOM--we 
support TRANSCOM's efforts. We just--we are in a debate with 
TRANSCOM. Let us make sure you don't have more than you need 
there, TRANSCOM.

                     DOD EDUCATION NEEDS IN EUROPE

    Mr. Bishop. Okay. Let me change gears for a moment and go 
to your DOD education needs in Europe.
    I think you may have alluded in your testimony to your need 
for school construction in Europe. Can you describe that need 
and the current state of the schools? I think you mentioned 
about $300 million to $400 million in Mil Con needs per year.
    Does that support the current transformation efforts? And 
of what is that comprised? Other than schools, are there any 
other major construction or infrastructure needs that you have?
    Mr. Farr. Before you arrived, the general went through that 
quite----
    Mr. Bishop. I am sorry. I apologize.
    Mr. Farr [continuing]. Respond to your question.
    Mr. Bishop. Okay.
    General Craddock. What we have is, over the years we have 
taken and patched together school facilities, school 
infrastructure, fiscal--and we put patches on it because we 
never had enough money to be able to buy new in a quality 
facility.
    DODEA, for whatever reason, only gave us 15 percent of the 
available funds, yet we have 43 percent of the schools and the 
students. So we weren't getting a fair share. Because of that, 
we could never completely fix a problem. We had to Band-Aid 
several problems.
    So we have gone in these last couple of years, we have 
identified that, we have asked for a greater share. Right now, 
72 percent of our school facilities, on a grading system, Q-1 
through 4 with four being worse, 72 percent of ours are three 
or four. Three means major repair. Four means needs a new 
facility.
    So we are just about at the end of being able to patch 
these things. We are going to have to do some new construction. 
That is the challenge we have got. We have got good staffs, 
good teachers, good curricula. Physical plants are decaying 
faster than we can ever----
    If we don't do that, if we don't get these facilities up to 
Q-1 soon, we are going to have families elect to stay in the 
States and the service member comes alone. And that is going to 
be a readiness issue.
    Now, beyond that, there are several programs. We are still 
going to need to finish up our barracks modernization. We are 
still going need to finish up our family housing system. That 
is already in the plan. And then, as we head towards the 
objective force for the land army for the air, there are some 
command and control requirements for the Army as they pull 
together several different units into the Weisbaden location. 
So that is all in the program that we have got now.
    Mr. Bishop. I apologize for going back over information you 
had already covered. I was in a Defense Subcommittee meeting 
simultaneously with this, so I apologize.
    But thank you so very much.

                               TAJIKISTAN

    Mr. Farr. Recently, I got a call from a professor at 
Monterey Institute of International Studies. She is Russian. 
And she has been teaching problems of the region. And she was 
really leaning on me about how we have sort of paid no 
attention to Tajikistan.
    You mentioned it. And she said the ills of Afghanistan are 
flopping into that country without people paying any attention 
to it and it could become really explosive. Do you concur with 
that----
    General Craddock. I don't have a lot of detailed knowledge 
because Takijistan is in the CENTCOM AOR. But, obviously, as a 
neighbor there, as a border state in Afghanistan, we see that.
    The fact is that smuggling routes, historically, have gone 
through that area up through Tajikistan. We know drugs are 
moving through Tajikistan into Russia. The Russians know that. 
They have a growing problem with heroin addiction coming out of 
Afghanistan.
    So the fact is we can't approach Afghanistan by itself as a 
regional issue, and we have got to then see both from the 
Pakistan side and the Iranian side, which are the two big 
players, but we have got to look north. And then you have got 
Turkmenistan and Tajikistan and--those nations are also going 
to feel the problems move across borders to them the better it 
gets in Afghanistan.
    There is a natural flow--there has been for centuries--and 
had runs from the south of Afghanistan up through the north 
through the Kunduz Corridor where the Germans are. And that is 
where they are facing problems because it is a Pashtun belt 
there. And so there are a lot of bad things happening. And then 
you have got another one out west into Turkmenistan. Those are 
the two main corridors.
    And as we are able to increase the security situation, it 
is going to move that way. And the other way it is going to 
move is through the Khyber Pass into Pakistan. And then you 
have got--out west--not as defined, not as large, you have got 
one large corridor into Iran, but it is pretty well covered. We 
watched that--south of that, it is a wide open border and there 
is all kinds of--there is--there is a truck park in 
southwestern Afghanistan where there are no paved roads that, 
at any one time, you will fly a predator over or a UAV and 
there will be a thousand trucks there and they are marshaled 
there coming and going.
    And they are smuggling gasoline. They are smuggling 
anything that is a commodity that they can make money on on the 
black market. It is incredible.
    Mr. Farr. Thank you.
    Mr. Wamp.
    Mr. Wamp. No further questions.
    Mr. Farr. Mr. Crenshaw.

                   PRIVATIZED HOUSING/QUALITY OF LIFE

    Mr. Crenshaw. Just a quick question. You were talking about 
quality of life and family housing. Do you ever use--you know, 
over here, we have kind of seen how privatized housing can kind 
of speed up the process and not wait. Is that something that 
you all have looked at over there?
    General Craddock. We are doing that. Actually, all the new 
things we are doing, the Army is moving into these new main 
operating bases, it is all done on a build-to-lease. 
Absolutely.
    Mr. Crenshaw. Great.
    General Craddock. Yes. We even looked at it to see if there 
was a possibility for schools. Is there a way we could build 
them, but it didn't pan out because, you know, the host nation 
has their own requirements, their own standards. And we 
couldn't make the thing meet.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.
    Mr. Farr. I don't have any other further questions. I think 
your testimony is probably the most extensive I have ever seen 
before this committee, and I really appreciate it. It is very 
substantive.

                            QUALITY OF LIFE

    Maybe in closing, there is one issue that I think the 
schools, obviously, for a Mil Con project, are a high priority. 
Is there anything else you wanted to share with the committee 
to prioritize as something we ought to be paying attention to?
    General Craddock. I just came out of a quality-of-life 
conference that we had before the EUCOM about a month ago. And 
what I was struck with--and I have--again, I have been back and 
forth, in and out since 1972, 16 years now. So I have seen this 
and I have watched the transformation of the quality of life.
    And I will tell you that it is incredible. From 1972 to 
today, the folks today--the kids, as I call them--if they were 
transported in time back to 1972 and they saw the quality of 
life, they would say, wow, this is a pretty good deal. But, of 
course, in life, everything is relative. So you gauge how you 
are based on what you had before, maybe, in the States.
    So I think that what we have to do here is we have to make 
sure the services--and that is the challenge we have got. The 
services have to understand that they do have some 
responsibility for these forward-deployed forces not only in 
Europe but also in the Pacific.
    And we have got to keep an awareness and a recognition 
that, while it is not going to be the same as what they are 
going to find in a camp, post, station, installation back in 
the states, we have got to make it as close as possible to that 
in the delivery of infrastructure and services.
    The support relationships are going to be more difficult. 
You cannot go off post at night in Vilseck down to a 7-Eleven 
and pick up a gallon of milk. It is different. But what you can 
do is get as close as possible. And you can go to a Shoppette, 
if you can get that. And it is open 24 hours a day. That is 
something we have done. That is a good thing.
    So I think that is what I would focus on. The low-hanging 
fruit is gone. It is quality of life. I said, look, folks, what 
we have got to have here is you have got to tell us what you 
need, and there are probably three categories.
    One is what can I do in EUCOM to fix that problem. Do I 
have the authority? Do I have the resources? We have got some 
of that, not much left.
    What does the Department of Defense have in terms of 
authorities and resources to fix the next basket of problems? 
And then what is it going to take to fix the next basket, which 
is statute. That is you all.
    What are those problems that we are going to have to fix? 
The low-hanging fruit is gone. The hard ones, to a certain 
extent, have already been pushed up and, sometimes, rejected.
    You know, I asked for a COLA, a cost-of-living allowance 
review. I felt that no one adequately explained COLA for 
overseas camps, posts, and stations. And I talked to David Chu 
when he was there and all of his people, and they came over and 
they--and my COLA expert is right here. I mean, this is a 
passion. And we worked this together.
    But he is the guy that tried to break in to the proprietary 
formula. It is proprietary. The contractor that does it, we 
could not--he couldn't tell us. It is proprietary. What do you 
mean it is proprietary? But it was.
    And we had these folks come over, Department of Defense 
folks, civil service, and explain it, and we couldn't 
understand it. I couldn't understand it. You had to be a Ph.D. 
in economics, I guess. I couldn't get it.
    So we said, please, put it in English. We have got to be 
able to tell our people that. And I asked, then, the 
Undersecretary, the Deputy Secretary, Gordon England. I don't 
accept it, please review this. And he initiated a panel, and 
they came back and said it is all okay. But the problem is we 
still don't know how it works.
    Recently, we were told you have got to take a cut because 
we have overpaid you too long. And we didn't cut you earlier 
because Craddock requested a review. We reviewed and he lost. 
So now you have got to take two points a month for 4 months. So 
that is eight points--what? About $50 a point?
    Mr. Bishop. Is this in reference to the civilian employees?
    General Craddock. No. This is military. This is military.
    Mr. Farr. It is $25----
    General Craddock. It is going to be a couple hundred 
dollars a month difference now.
    Okay. But one place didn't take a cut to that extent. And 
that place has better facilities than anywhere else. The most 
modern facilities. Somewhere else that doesn't have that 
access, smaller commissaries, smaller PX, took a bigger cut. 
What kind of formula does that? So that is the challenge.
    Mr. Farr. Is there a recommendation coming to us on what 
those statutory changes ought to be?
    General Craddock. Yes. We have put some requests in to the 
department on some changes to the law that would help the 
quality of life. And that is all being pulled together in OSD 
general counsel, and they are going to review this through 
their legal legislative affairs and push it over.
    I don't know how much it will survive.
    Mr. Farr. Well, we will have our staff look at it.
    General Craddock. Good. Good. I appreciate that.
    Sergeant Major, anything on COLA that you want to add? I 
mean, he is really--it is a passion.
    Mr. Farr. Well, the hearing is, I think, over. So why don't 
you introduce the officers that you brought with you to the 
committee?
    General Craddock. Go ahead, guys. This is--Jim Sears is my 
special assistant. EUCOM--he is in a EUCOM billet, but he works 
with the attache.
    In the back row, leg affairs, Rick Myers, my XO. J.L. 
Briggs. And this is the Mil Con expert from EUCOM, and the 
colonel knows that he is the absolute brain on all the history 
here, where we have been, and where we are going. And he is the 
guy that told me, because of the OMB restrictions, I can't talk 
programs or dollars.
    Mr. Farr. Our committees don't like it when we----
    General Craddock. Necessary evil, I guess. But, yes.
    Mr. Bishop. Do the currency and the fall of the dollar 
impact your need for that COLA?
    General Craddock. It plays into that, yes. Yes.
    Voice. COLA is broken down into three components--which 
indicates where I do my shopping. In the military--do I shop 
off post or do I shop on post. That is one.
    And then there is a market analysis where they compare the 
cost of items for us overseas to numerous CONUS locations. Once 
that is all done, then the dollar to Euro or dollar to Yen or 
dollar to Won is--as the last thing.
    So the dollar-Euro fluctuation for us--does not take effect 
until--5 percent threshold--for it to be 2 percent--numerous 
times--and they have rejected that request saying that the 
system was not--16 to 31. They said that they couldn't react 
fast enough--2 percent threshold.
    The--things like that.
    Mr. Bishop. Thank you.
    Mr. Farr. Thank you. That is the first time I have had that 
explanation. I appreciate it.
    General Craddock. And the argument is, over time, it all 
balances out. The problem is many of our families aren't there 
over time. They are there for a specific period, and if it is 
caught in the downturn, it is always lagging behind. It is 
always lagging behind the depreciation of the dollar. And they 
never catch up.
    So if you are there 5, 6, 10 years--2 years--but we--what 
we have asked for is, explain it to us in English so we can 
understand it so we could put an article in the Stars and 
Stripes and say, folks, here is how it works and everybody 
could read that and say, I understand that. We have yet to have 
that.
    Mr. Farr. Well, the president is arguing a new era of 
transparency. Maybe we will have that go down to COLA analysis.
    General Craddock. And if the contractor that figures it out 
has got a proprietary formula that we can't get access to, I 
don't think it is--I hope that doesn't continue. But that is 
really strange.
    Mr. Farr. Thank you for your presentation. And thank you 
all for your service to our country. We really appreciate it.
    The committee stands adjourned until 2:00 p.m. when we are 
going to reassemble for an afternoon hearing on the 
interoperability between the Department of Veterans Affairs and 
DOD on medical records.
    General Craddock. Thank you, sir.
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

                     Force Levels/Demands in Europe

    Question. You have recommended that the Army retain four brigade 
combat teams in Europe. What are your recommendations for the other 
service components (USAFE, NAVEUR, MARFOREUR) of EUCOM?
    Answer.
    United States Army Europe requirements in addition to four Brigade 
Combat Teams (BCT):
          <bullet> Seven enabling brigades
          <bullet> One division headquarters
          <bullet> One Army service component command headquarters
    United States Air Force Europe requirements:
          <bullet> Eight fighter squadrons
          <bullet> One theater airlift squadron
          <bullet> One air refueling squadron
          <bullet> One combat search and rescue group
          <bullet> One Intelligence Surveillance Reconnaissance/Global 
        Hawk squadron
          <bullet> Associated air base wings to support above 
        requirements
    Navy Europe requirements:
          <bullet> One Command Ship (USS MOUNT WHITNEY)
          <bullet> One Navy service component command headquarters
          <bullet> Associated port and base support units
          <bullet> Naval presence in EUCOM area of responsibility of 
        2.5 major surface combatants (These forces are better suited as 
        rotational forces and may be fulfilled through Global Force 
        Management/Request for Forces processes)
    Special Operations Command Europe requirements:
          <bullet> One Special Forces Battalion
          <bullet> One Special Operations Group with vertical lift 
        capability
          <bullet> One Naval Special Warfare Unit
          <bullet> One Theater Special Operations Command Headquarters
    Marine Force Europe requirements:
          <bullet> Deployable Combined Joint Task Force Headquarters 
        for air, land, and sea components
    Rotational requirements: These force requirements are better filled 
by rotational forces and may be satisfied through Global Force 
Management/Request for Forces processes:
          <bullet> Naval presence in EUCOM area of responsibility of 
        2.5 major surface combatants (mentioned above)
          <bullet> 1.0 presence of a Littoral Combat Ship
          <bullet> 1.0 presence of the Joint High Speed Vessel
          <bullet> 0.5 presence of a United States Marine Corp Special 
        Purpose Marine Air Ground Task Force
    Question. You also indicate that along with the two BCTs, EUCOM 
should retain ``Division HQ structure'' within the theater. Does this 
mean retaining two division headquarters? Why is it necessary to retain 
division headquarters structure?
    Answer. EUCOM requires at least one intermediate, tactical level 
headquarters in order to meet directed mission requirements, which 
includes having a deployable Combined Joint Task Force Headquarters for 
the land component commander and to effectively and efficiently conduct 
Theater Security assistance missions.
    Today United States Army Europe has only one Division Headquarters 
(1st Armored Division) assigned in the EUCOM area of responsibility and 
one Corps Headquarters (V Corps).
          --In 2009, V Corps consolidates with United States Army 
        Europe Headquarters into 7th Army and will relocate to 
        Wiesbaden, Germany. This consolidation will remove it as 
        tactical level headquarters from EUCOM.
          --The 1st Armored Division Headquarters (Wiesbaden, Germany) 
        is scheduled to return in 2011.
          --Thus, by 2011 EUCOM will not have an intermediate tactical 
        headquarters land component capability.
    A Division or Corps Headquarters includes a tactical command and 
control capability for U.S. and North Atlantic Treaty Organization 
operations and training, staff expertise, and military-to-military 
exchanges. This includes Division or Corps level exercises with North 
Atlantic Treaty Organization allies and regional partners. A tactical 
level Headquarters enables EUCOM to support NATO Headquarters with peer 
Headquarters or subordinate tactical Headquarters. A ready, deployable, 
full-spectrum, land-based tactical level Headquarters separate from the 
Army Service Component Commander is a keystone of EUCOM's ability to 
build partner capacity and export security from Europe. EUCOM 
requirements include having Service Component capabilities to maintain 
and deploy a Joint Task Force Headquarters. The Navy and Air Force 
Joint Task Force Headquarters are challenged to deploy quickly to a 
land based scenario away from sea and air ports.
    Question. Where are the two temporary additional BCTs currently 
stationed? If the two BCTs were made permanent, would you recommend 
that they remain at these locations or be relocated somewhere else?
    Answer. The two BCTs are currently home stationed in Baumholder and 
Grafenwoehr. If they remain in Germany, they will remain stationed at 
these locations.
    EUCOM is currently assigned 4 Brigade Combat Teams. The current 
plan has EUCOM permanently retaining the 173rd (Airborne) Brigade 
Combat Team, which is split based between Germany and Italy, awaiting 
Fiscal Year 2012 construction completion at the Dal Molin complex, 
Vicenza, Italy, and the 2CR Striker Brigade Combat Team is stationed at 
Vilseck, Germany within the Grafenwoehr Major Operating Base (MOB) 
area.
    Question. The relocation of two brigades and divisional 
headquarters from Europe to CONUS was a key element of the Global 
Defense Posture Review, and a decision to wholly or partly reverse that 
decision would seem to rebuke the conclusions of that review. In your 
opinion, was this review fundamentally flawed, or was it overtaken by 
unforeseen developments?
    Answer. The review was not fundamentally flawed; however, decisions 
made at that time were based on geostrategic assumptions that have been 
invalidated by recent events, e.g., the Caucasus. The resurgence of 
Russia and its encroachment on Georgian sovereignty was clearly not 
anticipated among NATO and in U.S. bilateral relations. Russia's 
willingness to use force outside her borders was an unforeseen 
development that renders a reassessment of whether previous strategic 
assumptions made in the GDP Review are adequate regarding stability and 
security in the region. Additionally, the global economic downturn has 
underscored the importance of the European nations' dependence upon 
Russia as an energy exporter, which has complicated the understanding 
of the dynamics involved with respect to Russia. The continuing actions 
in CENTCOM requiring increased support and cooperation from our 
European Allies and partners has also elevated the importance of 
EUCOM's ability to build those partnerships and export security to 
regions in conflict or prone to crisis.
    Question. Have you seen an increased demand from other countries 
for bilateral/multilateral training with U.S. forces since the Russian 
invasion of Georgia?
    Answer. Absolutely. The Russian aggression against Georgia and its 
intimidation and meddling in the internal affairs of other nations has 
intensified the requests for all forms of Theater Security Cooperation 
both from those nations who have been directly threatened and those key 
supporting partners who understand the importance of a strong and 
cohesive NATO. The most urgent requests are from Georgia, itself, along 
with the Baltic States of Latvia, Lithuania, and Estonia. These nations 
want to see U.S. forces exercising with their forces. The NATO nations 
that border Russia have all asked for increased assistance in building 
their own capacity to defend themselves as well as increased exercises 
as a demonstration of U.S. commitment and capacity. The Poles, 
Hungarians, Czechs, Slovaks, Romanians, Turks and Bulgarians have 
requested more U.S. support than I can provide. In addition, non-NATO 
nations such as Azerbaijan have requested exercises and training events 
with the U.S. Our long standing NATO partners such as the UK, France, 
and Denmark have requested increased interoperability training. Last, 
traditionally neutral nations such as Sweden, Finland and Austria have 
shown interest in Theater Security Cooperation. This issue is as much 
about avoiding a reduction of our current level of bi-lateral and 
multi-lateral training as it is about a growing demand signal for 
increased training.
    We have noted an increased concern by our partners with regard to 
Russian military activities and intentions and a corresponding desire 
for the U.S. and NATO to reinforce our commitment to European security. 
From an intelligence standpoint our newly-developing relationships with 
several European partner nations include not only intelligence sharing 
but also tactical level intelligence training.

                        DODEA Schools in Europe

    Question. Please provide a listing of DODEA schools within your AOR 
and indicate the quality rating of each school's facilities.
    Answer. As I noted in my recent testimony, DoDEA measures and 
articulates the quality of its school facilities in terms of DoD ``Q-
Ratings'' as defined below.
    Q-1  Facility is new or well maintained--Good Condition
    Q-2  Facility is satisfactorily maintained--Fair Condition
    Q-3  Facility is under-maintained--Poor Condition
    Q-4  Facility Requires Replacement--Failing Condition
    The attached table provides aggregate Q-Ratings for each school in 
the EUCOM AOR.

------------------------------------------------------------------------
  DoDDS-Europe District/School       Installation
              Name                      Country            Q-Rating
------------------------------------------------------------------------
Bavaria:
    Ansbach Elementary School...  USAG Ansbach,                      Q3
                                   Germany.
    Ansbach High School.........  USAG Ansbach,                      Q3
                                   Germany.
    Bamberg Elementary School...  USAG Bamberg,                      Q4
                                   Germany.
    Bamberg High School.........  USAG Bamberg,                      Q3
                                   Germany.
    Garmisch Elementary/Middle    USAG Garmisch,                     Q3
     School.                       Germany.
    USAG Grafenwoehr, Elementary  USAG Grafenwoehr,                  Q3
     School.                       Germany.
    Hohenfels Elementary School.  USAG Hohenfels,                    Q3
                                   Germany.
    Hohenfels High School.......  USAG Hohenfels,                    Q1
                                   Germany.
    Illesheim Elementary School.  USAG Ansbach,                      Q4
                                   Germany.
    Netzaberg Elementary/Middle   USAG Grafenwoehr,                  Q1
     School.                       Germany.
    Rainbow Elementary School...  USAG Ansbach,                      Q3
                                   Germany.
    Schweinfurt Elementary        USAG Schweinfurt,                  Q4
     School.                       Germany.
    Schweinfurt Middle School...  USAG Schweinfurt,                  Q3
                                   Germany.
    Vilseck Elementary School...  USAG Grafenwoehr,                  Q3
                                   Germany.
    Vilseck High School.........  USAG Grafenwoehr,                  Q4
                                   Germany.
Heidelberg:
    Aukamm Elementary School....  USAG Wiesbaden,                    Q3
                                   Germany.
    Boeblingen Elementary/Middle  USAG Stuttgart,                    Q4
     School.                       Germany.
    Hainerberg Elementary School  USAG Wiesbaden,                    Q4
                                   Germany.
    Heidelberg High School......  USAG Heidelberg,                   Q4
                                   Germany.
    Heidelberg Middle School....  USAG Heidelberg,                   Q4
                                   Germany.
    Mannheim Elementary School..  USAG Mannheim,                     Q4
                                   Germany.
    Mannheim High School........  USAG Mannheim,                     Q4
                                   Germany.
    Mannheim Middle School......  USAG Mannheim,                     Q4
                                   Germany.
    Mark Twain Elementary School  USAG Heidelberg,                   Q3
                                   Germany.
    Patch Elementary School.....  USAG Stuttgart,                    Q4
                                   Germany.
    Patch High School...........  USAG Stuttgart,                    Q4
                                   Germany.
    Patrick Henry Elementary      USAG Heidelberg,                   Q4
     School.                       Germany.
    Robinson Barracks Elementary/ USAG Stuttgart,                    Q3
     Middle School.                Germany.
    Wiesbaden (Arnold) High       USAG Wiesbaden,                    Q4
     School.                       Germany.
    Wiesbaden Middle School.....  USAG Wiesbaden,                    Q4
                                   Germany.
Isles:
    AFNORTH Elementary/High       Joint Force                        Q2
     School.                       Command
                                   Headquarters
                                   Brunssum,
                                   Netherlands.
    Alconbury Elementary School.  RAF Alconbury,                     Q4
                                   United Kingdom.
    Alconbury High School.......  RAF Alconbury,                     Q4
                                   United Kingdom.
    Bahrain Elementary/High       NSA Bahrain,                       Q4
     School.                       Bahrain.
    Brussels Elementary/High      USAG Benelux......                 Q4
     School.
    Croughton Elementary School.  RAF Croughton,                     Q3
                                   United Kingdom.
    Feltwell Elementary School..  RAF Feltwell,                      Q3
                                   United Kingdom.
    Geilenkirchen Elementary      Geilenkirchen AB,                  Q3
     School.                       Germany.
    Kleine Brogel Elementary      Klein Brogel AB,                   Q3
     School.                       Belgium.
    Lakenheath Elementary School  RAF Lakenheath,                    Q2
                                   United Kingdom.
    Lakenheath High School......  RAF Lakenheath,                    Q3
                                   United Kingdom.
    Lakenheath Middle School....  RAF Feltwell,                      Q1
                                   United Kingdom.
    Liberty Intermediate School.  RAF Lakenheath,                    Q3
                                   United Kingdom.
    Menwith Hill Elementary/High  RAF Menwith Hill,                  Q3
     School.                       United Kingdom.
    SHAPE Elementary School.....  SHAPE, Belgium....                 Q3
    SHAPE High School...........  SHAPE, Belgium....                 Q4
Kaiserslautern:
    Baumholder High School......  USAG Baumholder,                   Q3
                                   Germany.
    Bitburg Elementary School...  Spangdahlem AB,                    Q4
                                   Germany.
    Bitburg High School.........  Spangdahlem AB,                    Q4
                                   Germany.
    Bitburg Middle School.......  Spangdahlem AB,                    Q4
                                   Germany.
    Kaiserslautern ES/MS/HS.....   Vogelweh AB,                      Q4
                                   Germany.
    Landstuhl Elementary/Middle   Landstuhl, Germany                 Q3
     School.
    Ramstein American Middle      Ramstein AB,                       Q3
     School.                       Germany.
    Ramstein Elementary School..  Ramstein AB,                       Q2
                                   Germany.
    Ramstein High School........  Ramstein AB,                       Q4
                                   Germany.
    Ramstein Intermediate School  Ramstein AB,                       Q3
                                   Germany.
    Sembach Elementary School...  Sembach AB,                        Q4
                                   Germany.
    Sembach Middle School.......  Sembach AB,                        Q3
                                   Germany.
    Smith Elementary School.....  USAG Baumholder,                   Q4
                                   Germany.
    Spangdahlem Elementary        Spangdahlem AB,                    Q3
     School.                       Germany.
    Spangdahlem Middle School...  Spangdahlem AB,                    Q3
                                   Germany.
    Vogelweh Elementary School..  Vogelweh AB,                       Q4
                                   Germany.
    Wetzel Elementary School....  USAG Baumholder,                   Q3
                                   Germany.
Mediterranean:
    Ankara Elementary/High        Ankara AB, Turkey.                 Q4
     School.
    Aviano ES/MS/HS Complex.....  Aviano AB, Italy..                 Q1
    Incirlik Elementary/High      Incirlik AB,                       Q3
     School.                       Turkey.
    Lajes Elementary/High School  Lajes Field,                       Q4
                                   Portugal.
    Livorno Elementary/High       USAG Livorno,                      Q3
     School.                       Italy.
    Naples Elementary School....  NSA Naples, Italy.                 Q2
    Naples High School..........  NSA Naples, Italy.                 Q2
    Rota Elementary School......  United States                      Q1
                                   Naval Station,
                                   Rota.
    Rota High School............  United States                  Under Construction
                                   Naval Station,
                                   Rota.
    Sevilla Elementary/Middle     Moron AB, Spain...                 Q3
     School.
    Sigonella Elementary/Middle/  NAS Sigonella,                     Q2
     High School.                  Italy.
    Vicenza ES/MS/HS Complex....   USAG Vicenza,                     Q4
                                   Italy.
------------------------------------------------------------------------

    Question. What is the annual sustainment requirement for DODEA 
schools in your AOR, and how does this compare to the actual funding 
level?
    Answer. Based on applicable currency exchange rates, the facility 
sustainment requirement for DoD Dependent Schools Europe (DoDDS-E) is 
$39M for FY09 and $37M for FY10. Actual DoDDS-E sustainment funding for 
FY09 is $34.1M and is projected to be $32.2M in FY10.
    Question. What is the backlog of restoration and modernization for 
DODEA schools in your AOR?
    Answer. The backlog of Restoration and Modernization (R&M) is 
defined as total unfunded requirement. DoDEA reports a $1,150M unfunded 
R&M requirement for schools at enduring bases in Europe.
    Working in close partnership with DoDEA, we have generated broad 
support within OSD for increased investment in our schools and 
anticipate making significant gains on this backlog over the next 5 
years.
    Of important note: The backlog figure above does not include $450M 
in unfunded R&M requirements for schools in communities currently 
slated for closure. While DoDEA tracks the backlog at all of their 
facilities, they do not intend to recapitalize or make any non-emergent 
investment in schools at these closing locations.

                 Deployment and En Route Infrastructure

    Question. You note in your testimony that ``forward stationed units 
meet the same deployment schedules to Afghanistan and Iraq as CONUS 
units''. The 2004 ``Strengthening U.S. Global Defense Posture'' report 
from the Department of Defense noted that ``heavy divisions in Europe 
may be closer to the Persian Gulf region than units in the U.S., but as 
Operation Iraqi Freedom demonstrated, their movement by sea requires a 
circuitous route via the Baltic and North Seas, the Atlantic Ocean, and 
the Mediterranean. Therefore Europe's proximity provides no 
particularly significant time advantage for movement of such heavy 
forces compared to movement from the United States.'' You seem to argue 
that the advantages of forward-stationed in forces in building partner 
capacity should tilt the balance in favor of retaining a larger force 
in Europe. At the same time, are there any potential changes that could 
be made to EUCOM's posture and infrastructure that would bypass the 
Baltic/North Seas/Atlantic Ocean route and allow for a more direct 
movement of heavy forces by sea to Southwest/South Asia?
    Answer. Yes, but such changes would drive tremendous infrastructure 
costs as they would require significant rail network expansion and 
seaport infrastructure improvements for southern European ports.
    However, the most expeditious route for deployment of EUCOM heavy 
forces to Southwest/South Asia remains the use of mature rail and 
seaport infrastructure in Western Europe through seaports such as 
Rotterdam, Netherlands; Bremerhaven, Germany; and Antwerp, Belgium via 
the North Sea, Atlantic Ocean, and Mediterranean Sea. Currently, we 
flow our Germany-based heavy brigade via ports on the North Sea via the 
Baltic Sea. U.S. Transportation Command estimates a 25 to 30 day 
transit timeline to Southwest Asia. Alternatively, CONUS based heavy 
brigades take up to 45 days.
    Our route utilizes the mature rail and seaport infrastructure in 
Western Europe and is facilitated by well established, dependable host 
nation support. In the event of major combat operations requiring 
multiple U.S. Divisions, U.S. ports and rail lines could quickly become 
overwhelmed. Deploying some of the force from Europe could save 
valuable time. It is quite possible that four EUCOM BCTs could be 
loaded on ships and under way from Europe while their CONUS BCT 
counterparts are still waiting their turn at the smaller number of U.S. 
ports that could accommodate them.
    Last, I would like to point out, that while forward presence offers 
advantages for rapid deployability to a crisis in Europe, Africa, or 
the Caucasus, it significantly increases the effectiveness of Building 
Partner Capacity (BPC) activities in several ways. There is tremendous 
value added for BPC within the theater through the habitual 
relationships which only forward stationed units can provide. These 
relationships are critical to building trust and confidence with both 
our traditional and new partners and allies alike. In addition, under 
current BCT rotation and reset procedures for global sourcing, forward 
stationed units can contribute to BPC activities for approximately 
twice the length of time that rotational forces can provide. This is 
because the forward stationed unit's training cycles are conducted in 
theater and can be leveraged for BPC.
    Question. What specific recommendations has TRANSCOM made regarding 
en route infrastructure in the EUCOM AOR?
    Answer. EUCOM works collaboratively with Transportation Command via 
the European En-route Infrastructure Steering Committee to identify and 
assess en-route infrastructure requirements within the context of the 
strategies of both Commands and accounting for the strategies and 
requirements for adjacent Commands. Beginning in 2003, Transportation 
Command specifically recommended infrastructure enhancements at Rota, 
Spain to increase the capability of this location to support strategic 
air transport and multimodal (ship to aircraft) operations. 
Recommendations by Transportation Command for en route infrastructure 
at other locations in the EUCOM area of responsibility, for example 
Ramstein, Germany or Souda Bay, Greece, have similarly been provided by 
Transportation Command. Again, the recommendations are made by 
Transportation Command with the coordination of EUCOM and are further 
vetted within the Transportation Command-led Global En-route 
Infrastructure Steering Committee, a governance body that ensures the 
most vital infrastructure requirements are moved forward.
    Question. What role do airfields, ports and other facilities in the 
Black Sea/Caucasus region perform in the US/NATO supply effort for 
Afghanistan?
    Answer. The Black Sea/Caucasus region is proving to be an area of 
strategic importance to both the U.S. and NATO as we expand our ground 
lines of communication through countries other than Pakistan. The 
nations in this region have made their airfields, ports and other 
facilities available to our Afghanistan resupply effort, called the 
``Northern Distribution Network.''
    Specifically, access to Georgia and Azerbaijan allows us to use 
their road, rail, and port networks to move construction and general 
supplies into Afghanistan. Our aircrews use the airports at Tbilisi, 
Georgia; Burgas, Bulgaria; Varna, Bulgaria; and Constanta, Romania as 
refueling and crew rest stops.
    NATO is similarly engaged in the region to expand the flow of 
logistics toward Afghanistan. A line of communication is planned via 
Georgia, Azerbaijan, and Turkmenistan. Also, the international airport 
at Baku, Azerbaijan is an important hub for moving cargo from Germany 
to Afghanistan.

                            Missile Defense

    Question. What on-site activities are you able to conduct at the 
BMD locations without ratification of the bilateral agreements?
    Answer. Only site surveys have been allowed without Parliamentary 
ratification of our bilateral agreements. Permanent changes, such as 
ground clearing and construction, cannot begin at the sites in Poland 
and the Czech Republic until entry into force of a Site Agreement and a 
Status of Forces Agreement which supplements the North Atlantic Treaty 
Organization Status of Forces Agreement.
    Both the Site and Status of Forces Agreement with Czech Republic 
were signed in 2008; however, ratification in the Czech Republic 
remains uncertain and will not occur until after new Parliamentary 
elections (likely fall 2009--provided the winning party will support 
the radar site).
    The site agreement for Poland was signed in 2008 and negotiations 
for the Status of Forces Agreement Supplemental are ongoing. Key issues 
regarding construction, criminal jurisdiction, tax relief, and the 
application of Polish law to U.S. forces must still be agreed upon. The 
State Department is lead on Status of Forces Agreement Supplemental 
negotiations.
    Question. Would the personnel manning the BMD sites fall under 
EUCOM operational command? How would the operation of the two bases be 
integrated with existing garrison/wing command organizations in EUCOM?
    Answer. Yes, EUCOM will command and control (C2) personnel manning 
the BMD sites.
    The operation of the two bases will be integrated through the 
individual service components that have been assigned manning 
responsibilities for those planned bases: U.S. Air Forces Europe for 
the European Midcourse Radar Site in the Czech Republic, and U.S. Army 
Europe for the European Interceptor Site in Poland. EUCOM, Missile 
Defense Agency, and the European Service component staffs are working 
closely with the services (U.S. Air Force and U.S. Army) to ensure 
issues related to manning, sustainment, and required facilities are 
addressed. EUCOM is monitoring the command organizations which are 
being planned by the services, however the organization of sustainment 
commands remain a service responsibility.
    Question. Have the construction contracts for the BMD sites been 
awarded? How much of the fiscal year 2009 military construction funds 
for the BMD sites in Europe have been obligated and expended?
    Answer. Construction contracts for the Ballistic Missile Defense 
sites in Europe have not been awarded, nor has any of the Fiscal Year 
09 Military Construction funding been obligated and/or expended. No 
construction contracts will be awarded nor Military Construction funds 
obligated and/or expended until all necessary Status of Forces 
Agreement Supplemental and Implementing Agreements are complete. 
Facility-related activities are currently limited to design and pre-
negotiation of agreements that must be in place prior to award of 
construction contracts.
    Question. The amounts programmed in the fiscal year 2009 FYDP for 
construction of the BMD sites did not include amounts necessary for 
housing or community facilities to support personnel. The agreements 
allow for up to 250 personnel at the radar site, and 500 at the 
interceptor site. Do you have an estimate and/or a list of facilities 
necessary to provide such support?
    Answer. No, we do not have an estimate. While support facility 
planning is underway, the scope and cost of required facilities at both 
sites are largely dependent on the terms of SOFA Supplemental and/or 
Implementing Agreements that have yet to be finalized. Although we 
cannot provide meaningful cost estimates at this time, it is important 
to note that EUCOM, MDA, and the lead services at each site are 
committed to meeting mission and mission support requirements with the 
smallest practicable personnel and infrastructure footprints. Once the 
terms of applicable agreements are finalized, the lead services for 
each site (Army for the European Interceptor Site and Air Force for the 
European Midcourse Radar) will work with MDA to develop mission support 
facility requirements.
    Question. The agreements with the Czech Republic and Poland retain 
title to facilities on both sites with the respective host nation 
governments, including permanent structures built with U.S. military 
construction funds. How does this compare with basing arrangements with 
other European host nations?
    Answer. Our basing agreements typically retain title with the 
respective host nation. Our use of facilities at overseas locations is 
governed by the terms of host nation specific implementing arrangements 
for real estate, which require consignment agreements be established 
for all U.S. occupied facilities. These agreements are binding and 
valid until terminated with the consent of both parties. Implementing 
arrangements for real estate with both the Czech Republic and Poland 
will include similar terms.
    Question. In your written statement, you discuss a multi-national 
Heavy Airlift Wing to be established at Papa Air Base, Hungary by the 
U.S. and twelve other countries. Are there any facility requirements 
for this unit, and will they be borne by the U.S., NSIP, or some other 
cost-sharing arrangement?
    Answer. Operational facility requirements have been identified for 
supporting the Heavy Airlift Wing and in 2009 these costs will be 
approximately $12.5M. Costs are shared among the twelve nations in 
accordance with the cost-sharing arrangements contained in the 
Strategic Airlift Capability (SAC) C-17 Program Memorandum of 
Understanding. The U.S. pays 33%, or an approximate $4.2M share. There 
is an active effort on behalf of host nation Hungary, with support from 
the U.S., to secure NSIP to cover a portion of the facility 
requirements.
    NSIP eligibility for a given infrastructure requirement is based 
upon the minimum military requirement, or that infrastructure which is 
essential to a NATO Commander's ability to fulfill his or her military 
roles and responsibilities. Infrastructure required to fulfill that 
minimum requirement is eligible for NSIP funding. Infrastructure above 
and beyond that capability is to be funded by national assets, or in 
this case the SAC C-17 Consortium.

                    NATO Security Investment Program

    Question. In recent years, an increasing portion of NATO Security 
Investment Program funds have gone to support the ``out of area'' 
mission in Afghanistan. As both commander of EUCOM and Supreme Allied 
Commander, do you believe that the current NSIP program is well 
balanced between the ISAF mission and needs within Europe?
    Answer. The current NSIP program is reasonably balanced according 
to partner nation priorities with respect to current operations in 
Afghanistan and NATO needs within Europe. While the amount of the NSIP 
available for investment within Europe has reduced with the increased 
need for financing common-use requirements in Afghanistan, this shift 
has not resulted in undue negative consequences for the Alliance.
    Question. How will France's rejoining of NATO as a full member of 
the alliance affect the cost-sharing distribution within NSIP?
    Answer. France will assume a 12.4% share of the North Atlantic 
Treaty Organization Security Investment Program's annual =640.5 million 
annual program. Previously, France participated in approximately 60% of 
the North Atlantic Treaty Organization Security Investment Program 
funded expenditures to include, among others, capital investments for 
ongoing military operations (Afghanistan, Kosovo, etc), the North 
Atlantic Treaty Organization Response Force, and the North Atlantic 
Treaty Organization Air Command and Control System. France will now 
participate in the remaining 40% of the North Atlantic Treaty 
Organization Security Investment Program funded activities such as the 
infrastructure for the military headquarters and airfield and port 
improvements. The French re-integration, along with the accession of 
Albania and Croatia will reduce the U.S. North Atlantic Treaty 
Organization Security Investment Program cost share from 23.2% to 
21.7%. This cost share will be phased in over several years as, under 
normal North Atlantic Treaty Organization procedures, France, Albania, 
and Croatia will participate in the funding of newly programmed 
projects but not previously programmed ones.
                                         Wednesday, March 25, 2009.

            MEDICAL TRANSITION: DEFENSE TO VETERANS AFFAIRS

                               WITNESSES

MICHAEL J. KUSSMAN, M.D., UNDER SECRETARY FOR HEALTH, DEPARTMENT OF 
    VETERANS AFFAIRS
S. WARD CASSCELLS, M.D., ASSISTANT SECRETARY FOR HEALTH AFFAIRS, 
    DEPARTMENT OF DEFENSE

                       Statement of the Chairman

    Mr. Farr [presiding]. This meeting will come to order.
    Chairman Chet Edwards is at the Budget Committee, and has 
asked me, as vice chair, to chair this afternoon's hearing.
    As you know, this hearing is on the Department of Defense 
and the Department of Veterans Affairs medical transition. The 
purpose of this hearing is to review the progress that these 
departments have made in ensuring a seamless transition for our 
veterans and to identify and to discuss what still needs to be 
done.
    Witnesses from GAO and the VA inspector general, at one of 
our earlier hearings, the review of the VA challenges, 
acknowledged that the departments have moved forward in their 
development of electronic medical interoperability, but they 
also indicated that the process would be improved by 
identifying results-oriented performance goals.
    This is only one example of the many issues that must be 
addressed if we are to ensure that no veteran falls through the 
cracks and is left to navigate that system alone. And I know a 
lot of members have been asking those questions all year.
    Our witnesses for this hearing will be Dr. Michael Kussman, 
who is the Under Secretary of Health for the Department of 
Veterans Affairs, and Dr. Ward Casscells, the Assistant 
Secretary of Defense for Health Affairs.
    As the senior physicians and essentially the CEOs of the 
veterans health systems and military health systems, they are 
responsible for not only ensuring that their systems meet the 
medical needs of their patients, but that patients can move 
between these systems in order to provide those who have served 
this nation with the very best in care.
    I would like to welcome both of our witnesses to this 
hearing and look forward to your testimony and discussion.
    Before we hear from Dr. Kussman, I would like to recognize 
my colleague from Tennessee, Mr. Wamp, for any opening remarks 
he might have.

                Statement of the Ranking Minority Member

    Mr. Wamp. Thank you, Mr. Chairman.
    Dr. Kussman and Dr. Casscells, you are at the forefront of 
a very important issue; that is, the improving status of our VA 
health care delivery system at a critical time in history, 
where our veterans have problems that we haven't encountered in 
other wars, and, certainly, the asymmetrical nature of this war 
and constant rotation of our veterans.
    They come back with afflictions, and we are very keen on 
this, but, also, the overall bureaucracy of the VA is a beast 
that has to be tamed.
    I know we are on the road to recovery. And I appreciate Dr. 
Kussman from last year and Dr. Casscells coming this year, and 
the new secretary calling me and reiterating his commitment to 
trying to improve the efficiencies at the VA, because it is an 
absolutely essential agency.
    But the bureaucracy is still, in my opinion, an impediment 
to the delivery system being as efficient and as effective as 
it can be.
    So I look forward to your testimony today and a lot of 
give-and-take, and then, frankly, the follow-up through the 
year as we write the bill so that, by statute, we can assist 
you in any and every way to deliver the health care as 
effectively as possible.
    And I am grateful that you are both physicians and that you 
are on the job and you are prepared to address this need. I 
think that is very, very helpful, based on your knowledge.
    And Dr. Kussman and I developed a good relationship last 
year and I feel like we are going in the right direction, but 
we have still got a ways to go.
    So I look forward to your testimony this afternoon.
    Thank you, Mr. Chairman.
    Mr. Farr. Thank you very much.
    Dr. Kussman was confirmed as the Under Secretary for 
Health, Veterans' Health Administration, in May 2007. He served 
as brigadier general and retired after 28 years of active duty 
service in the United States Army, culminating in his 
assignment as the commander of Europe Regional Medical Command.
    He earned his undergraduate and medical degrees from Boston 
University. He became the Army Surgeon General's chief 
consultant in internal medicine and serves on the faculty of 
the Uniformed Services University of Health Sciences.
    For the record, we will, without objection, accept your 
written statement and if you would just like to give us some 
brief opening remarks, we would really appreciate that.

                    Statement of Michael J. Kussman

    Dr. Kussman. Yes, sir. Good afternoon, Mr. Vice Chairman 
and members of the subcommittee.
    It is a pleasure for me to sit here with my friend, Trip 
Casscells, before you today to discuss VA's work with the 
Department of Defense to support medical transitions for 
injured or ill veterans and service members.
    VA's mission is to care for those who have borne the 
battle. As medical technology has advanced, more and more of 
our brave heroes survive what would have been fatal wounds in 
previous conflicts.
    But survival is only the immediate goal. Our job is to 
restore veterans to the greatest level of health, independence 
and quality of life that is medically possible.
    We are achieving this goal through close collaboration with 
DOD to facilitate a smooth medical transition and continuum 
that ensures veterans and service members receive the full 
continuum of care.
    And just as an aside, I was probably responsible for using 
the term ``seamless transition,'' but I really believe that 
this is not necessarily a transition.
    That has a connotation of a handoff from DOD to the VA, but 
we have gotten together so closely, this is a continuum.
    There are a lot of active duty people who are in the VA. 
There are veterans who are in DOD and it really is an issue 
related to the continuum of the life cycle of the soldier, 
sailor, airman, Marine, and veteran.
    We recognize from some of our patients this transition is 
not a one-way road, as mentioned. Many of our facilities, 
particularly our polytrauma rehabilitation centers, treat 
active duty service members who maintain their status with DOD, 
while other facilities treat members of the Reserves or the 
National Guard between periods of activation.
    Regardless of the desired outcome for each individual 
patient, communication is the critical link in this transition 
process, communication with our patients, with their families, 
and among clinicians.
    Effective communication encompasses tailoring 
rehabilitation plans to meet the needs and expectations of our 
patients and their families. Dialogue between clinicians, 
whether in different disciplines or different departments, 
brings together capable medical minds to ensure all patients 
receive high quality care that they deserve.
    My written statement focuses on four areas of cooperation 
and coordination between DOD and the VA regarding medical 
transition for veterans and service members. Those are mental 
health, traumatic brain injury, the electronic health record, 
and outreach.
    In each of these areas, VA and DOD have established 
processes to improve care coordination, quality, no matter 
which department is providing services.
    Our facilities are active parts of their communities and 
participate in so many initiatives that seldom receive the 
praise they deserve.
    I would like to use the few minutes I have now to provide 
some examples of recent initiatives where VA outreach and 
programs have improved the lives of veterans, service members, 
and their families.
    Near the beginning of the month, in Chicago, one of our 
facilities held a welcome home event for more than 100 OEF/OIF 
veterans.
    VA staff in southern Oregon recently attended two pre-
mobilization events to establish contacts with Oregon National 
Guardsmen and their families, in anticipation of their 
deployment to Iraq.
    Through these meetings, VA staff educates service members 
before they deploy about the health care that they will earn in 
service to their country.
    One major initiative that facilitates a service member's 
transition to veteran status is the yellow ribbon reintegration 
program, which engages service members and their families in 
the pre, during and post-deployment phases.
    VA has a full-time liaison person with this office. This 
program is currently active in 54 states and territories and 
almost 20,000 service members have participated so far.
    In Wilmington, North Carolina, just last week, VA staff 
participated in a yellow ribbon event held for the Marine Corps 
returnees, in which we assisted approximately 50 Marines and 
their family members with VA health care registration.
    At another event in Kansas, members of the Army National 
Guard participated in a similar event.
    Mr. Chairman, these are just a few examples of the 
countless events and measures taken every day by both VA and 
DOD staff to assist veterans and service members in need.
    Thank you again for this opportunity to speak about VA's 
role in collaborating with DOD to support the continuum of care 
for injured or ill veterans and service members.
    I am prepared to answer any of your questions.
    Thank you.
    [The prepared statement of Michael J. Kussman follows:]

    [GRAPHIC] [TIFF OMITTED] T0526B.104
    
    [GRAPHIC] [TIFF OMITTED] T0526B.105
    
    [GRAPHIC] [TIFF OMITTED] T0526B.106
    
    [GRAPHIC] [TIFF OMITTED] T0526B.107
    
    [GRAPHIC] [TIFF OMITTED] T0526B.108
    
    [GRAPHIC] [TIFF OMITTED] T0526B.109
    
    [GRAPHIC] [TIFF OMITTED] T0526B.110
    
    [GRAPHIC] [TIFF OMITTED] T0526B.111
    
    [GRAPHIC] [TIFF OMITTED] T0526B.112
    
    [GRAPHIC] [TIFF OMITTED] T0526B.113
    
    [GRAPHIC] [TIFF OMITTED] T0526B.114
    
    [GRAPHIC] [TIFF OMITTED] T0526B.115
    
    Mr. Farr. Thank you very much.
    Our next witness is Dr. Casscells. He was sworn in as 
Assistant Secretary of Defense for Health Affairs on April 16, 
2007.
    Prior to his appointment, Dr. Casscells served as John 
Edward Tyson distinguished professor of medicine and cardiology 
at the University of Texas Health Science Center in Houston, 
Texas.
    Dr. Casscells has a bachelor of science from Yale 
University and graduated from Harvard Medical School.

                     Statement of S. Ward Casscells

    Dr. Casscells. Thank you, Mr. Chairman.
    I will be very brief and just mention the things that we 
have learned from the VA over the past 2 years.
    I, first, want to recognize Mike Kussman's gracious 
tutelage in so many of these things, because, as he mentioned, 
he has got a long military career, much longer than mine, and 
he was on the job there as acting, and been of great help to 
me.
    His mobile is on my speed dial. It gives you an idea how 
often we talk.
    First, the disability evaluation system, we are struggling 
with that. Our soldiers, sailors, airmen and Marines were 
frustrated with it and we have basically yielded that to the 
VA, single exam. VA decides how much people are going to be 
paid, the servicemembers.
    I am very happy with that. Disability evaluations, the time 
is cut in half, and that pilot has been very successful. We 
expect to roll out with that next year. It is now in a 
secondary pilot in 17 centers.
    Related to that is vocational rehab. It is particularly 
important now because some 15 percent of returning warriors are 
unemployed.
    As an Army Reservist myself, who will soon be entering the 
job market in about a month, I can tell you that it doesn't 
help us that the world seems to think now that so many of our 
returning troops are not quite right, that they have got anger 
problems.
    The fact is most of them come back stronger, better, wiser, 
kinder, gentler, knowing their strengths and knowing their 
limitations, and with better strengths than they went in.
    And if there is one message I would convey to you, it is 
that we, particularly the VA, could use some help, I think, in 
the vocational rehab area, because so many of our guys and gals 
deserve jobs and a job is the best treatment.
    It is the best therapy and it is the best way to preserve 
your sanity and your marriage and everything.
    Let me mention, also, in the area of PTSD, post-traumatic 
stress disorder, most of what we know we learned from the VA 
and we want to recognize that.
    Now, as we have the defense centers of excellence, 
psychological health and traumatic brain injury, we have shared 
leadership. DOD and VA co-lead it.
    The same is true for electronic health records. We in the 
military have struggled with that. VA has had a more popular 
electronic health record. We have learned from that. We have 
adopted the graphical user interface on that and together, we 
have got a unified strategy now, governed by an interagency 
program office, and I think we are both going to be upgrading 
our electronic health records.
    I do believe we will be leading the country in that area. 
We are recovering from our stumbles in that area.
    The fourth area, sir, is research. We have adopted the VA 
model of having our research grants go out in a competitive 
way.
    The affiliations with the universities that the VA 
pioneered have been an important lesson for us and we are doing 
more and more of that.
    Lastly, in the area of facilities, VA has upgraded their 
facilities. They are among the finest hospitals in the country, 
many of them.
    My hometown of Houston, the Michael DeBakey VA, is as good 
as any hospital in the world, and now, DOD, we are trying to do 
likewise.
    I will close by saying that yesterday, Secretary Shinseki 
and Secretary Gates met with the senior leadership on a number 
of issues, particularly the electronic health records, and Dr. 
Gates left us with these orders, which I will share with you.
    He said, ``Surface all the disagreements. Don't drag them 
out. Don't paper over them.'' And in a Texas colloquialism, he 
said, ``No wrestling under the blanket.''
    I think we understood what he meant by that--get it on the 
table, resolve it, and I think we are on the right road that 
way.
    I am subject to your questions, sir.
    [The prepared statement of S. Ward Casscells follows:]

    [GRAPHIC] [TIFF OMITTED] T0526B.116
    
    [GRAPHIC] [TIFF OMITTED] T0526B.117
    
    [GRAPHIC] [TIFF OMITTED] T0526B.118
    
    [GRAPHIC] [TIFF OMITTED] T0526B.119
    
    [GRAPHIC] [TIFF OMITTED] T0526B.120
    
    [GRAPHIC] [TIFF OMITTED] T0526B.121
    
    [GRAPHIC] [TIFF OMITTED] T0526B.122
    
    [GRAPHIC] [TIFF OMITTED] T0526B.123
    
    [GRAPHIC] [TIFF OMITTED] T0526B.124
    
    [GRAPHIC] [TIFF OMITTED] T0526B.125
    
    [GRAPHIC] [TIFF OMITTED] T0526B.126
    
    [GRAPHIC] [TIFF OMITTED] T0526B.127
    
    [GRAPHIC] [TIFF OMITTED] T0526B.128
    
    [GRAPHIC] [TIFF OMITTED] T0526B.130
    
    [GRAPHIC] [TIFF OMITTED] T0526B.129
    
    [GRAPHIC] [TIFF OMITTED] T0526B.131
    
    [GRAPHIC] [TIFF OMITTED] T0526B.132
    
    [GRAPHIC] [TIFF OMITTED] T0526B.133
    
    [GRAPHIC] [TIFF OMITTED] T0526B.134
    
    [GRAPHIC] [TIFF OMITTED] T0526B.135
    
    [GRAPHIC] [TIFF OMITTED] T0526B.136
    
    [GRAPHIC] [TIFF OMITTED] T0526B.137
    
    [GRAPHIC] [TIFF OMITTED] T0526B.138
    
                       DOD/VA MEDICAL FACILITIES

    Mr. Farr. Well, thank you very much.
    I will just lead off with a couple of questions and then we 
will go around the room.
    You have several medical facilities that are considered 
joint ventures together. I am very interested in pursuing that 
in my own district.
    I wonder how many of these there are and whether this is 
sort of the way you are going to move together in the future.
    Dr. Casscells. Sir, we have got 11 under development and 
more being studied. The big one has been in the Great Lakes 
area north of Chicago, where we have a big Navy facility and a 
lot of vets, and that has been a multiyear effort.
    Currently, now, the plan is that VA will own the asset. 
Some pending legislation will, I think, allow the Secretary of 
the Navy to transfer those facilities to the VA.
    And some other legislation is pending, as I understand it, 
to declare that facility a DOD hospital. So even though it is a 
VA asset, it can treat active duty service members.
    This is called the Captain James A. Lovell Federal Health 
Care Center, after the astronaut, former Navy flyer.
    Mr. Farr. So the facility can be accessed by qualified VA.
    Dr. Casscells. Right.
    Mr. Farr. And by retirees.
    Dr. Casscells. Yes, sir.
    Mr. Farr. Military retirees, and by active duty.
    Dr. Casscells. Yes, sir. The VA, of course, is currently a 
TRICARE network partner, but this particular hospital needs 
legislation to allow the active duty service members to go 
there directly without using the TRICARE network.
    Mr. Farr. Because in these joint facilities, you have 
different billing. The active duty you bill through the 
military.
    Dr. Casscells. Yes, sir.
    Mr. Farr. And then if they are retirees, they are through 
TRICARE billing.
    Dr. Casscells. Yes, sir.
    Mr. Farr. And if they are VA----
    Dr. Kussman. I am sorry to interrupt sir, but it depends, 
because if you are a retiree like myself, I can go to the north 
Chicago facility as a veteran, not as a TRICARE person.
    But the regular veteran, who is not a retiree----
    Mr. Farr. Then they see your income is higher, then you 
would have to----
    Dr. Kussman. I am classified--for 28 years, I have been 
evaluated. I won't get into all the gory details, but that----
    Mr. Farr. You have a service-related disability.
    Dr. Kussman. That is what VA says.
    Mr. Farr. It is very interesting to hear this. I am keenly 
interested in this jointness and then when you get into how it 
is managed and paid for, it isn't as joint.
    Dr. Kussman. Well, there have been some challenges, I 
think, as Dr. Casscells was mentioning. This is a unique--it is 
not a sharing effort. It is a true joint effort.
    And we have been challenged occasionally by the policies 
that exist. For instance, funding the facility, we--and I know 
that the Appropriations Committee, your committee, is keenly 
aware that we have Title 38 money, we have Title 10 money, and 
how do you get that money mixed together.
    Early on, I think some of us thought that, ``Gee, it would 
be nice to have a Title 28 and do that,'' but that wasn't 
legal. So we have been looking at getting maybe some 
legislation that would allow an innovative way of putting the 
money in and then using it.
    One of the proposals that has been enjoined in the Senate 
is that we both put money in every year to do that, but that is 
no year money and that leads to some issues, as well.
    So I think that is one of the things that we are looking at 
is trying to develop a way of funding it in a different way.
    Mr. Farr. Does this create problems in trying to get an 
electronic record that is interoperable?
    Dr. Kussman. No. I don't think that the challenge----
    Mr. Farr. In terms of the record information used for 
billing.
    Dr. Kussman. No. I think there are challenges for us not 
only in Chicago, but to work the two systems to make sure that 
they are close and user-friendly.
    Dr. Casscells and I testified, I think, in front of the 
SFAC last October and we brought in, as a demonstration, Ross 
Fletcher, who is the chief of staff at the Washington VA, and 
had a live demonstration of how we can actually download a 
great deal of medical information and medical interoperability 
from DOD to the VA to help the providers.
    But we still have a ways to go on this.
    Mr. Farr. Thank you. My time is up.
    Mr. Wamp.

                             MENTAL HEALTH

    Mr. Wamp. Well, let me say, I have one question for each of 
the two of you. I appreciate what Dr. Casscells said, and I 
have seen that.
    I have got a nephew who is redeploying this week to Iraq 
for the second time, another nephew who is active duty. The 
first one is Guard, the second one is active Marine, deploying 
this week from California. And they both are the better for it.
    But when we are talking about the suicide rate, which was 
kind of the first point we started on with this year's 
hearings, kind of the canary in the mine, obviously, the 
incredible operational tempo that these troops are on and their 
families and the family pressures that this places on the 
families.
    It is not roadside bombs--as much as it is just the stress 
on the families. So while I know that they are the better for 
their service, the mental health capabilities here have got to 
be looked at, because of the stress on the families. So many 
marriages are breaking up, and they are so stressed out.
    So I do think it is important, too, that VA learn from DOD 
and DOD learn from VA, and I think that is real helpful, 
because I see strengths and weaknesses that, clearly, like a 
good marriage--you can help each other, almost cover each 
other's weak spots, the VA still needs some of that military 
reform, in my opinion, instead of a government agency 
bureaucracy and, things like medical records, which the VA 
actually leads the entire health care system on, DOD can 
certainly learn from those models, as well.
    So that is just a little commentary.
    But I still am a little confused, Dr. Kussman, as to how 
all of this screening works and who gets screened for what. Can 
you kind of break through--I think there are 272,000 OIF and 
OEF veterans.
    Does everybody get screened for PTSD and TBI? Is it a 
comprehensive thing that everybody is included?
    Dr. Kussman. Everybody that comes to us, whether they are 
OIF/OEF or anybody else, get screened for TBI, PTSD, military 
sexual trauma, and substance abuse.
    That is done on a yearly basis, because we have been doing 
that for a long time. The TBI is relatively new, but the PTSD, 
military sexual trauma and substance abuse has been going on 
for years.
    That is part of our core assessment of patients. It is done 
with the electronic health record. A drop-down menu comes and 
forces the provider to ask those questions and if they are 
positive, the person gets referred as appropriate for the 
evaluation.
    Mr. Wamp. Which is about a 35 or 40 percent referral of 
those that are assessed and then of those referrals, most of 
them go to VA medical centers and then a smaller number goes to 
the vet centers.
    But where do the rest of them go? Does everyone get 
referred somewhere? It looks like 21,000 fall in the category 
of not being referred to a VA medical center or a clinic.
    Dr. Kussman. I would have to go back and look at the 
specific numbers. You are talking about TBI?
    Mr. Wamp. Just the referrals from 250,000 post-deployment 
health assessments.
    Dr. Kussman. I believe that was in the--but regardless of 
what the screening is for, if it is PTSD, for instance, we have 
two ways that we can provide services for PTSD, depending on 
the patient's choice.
    They can go to a vet center or they can use the more 
traditional mainstream mental health services.
    That depends on how many people are positive and whether 
they want help. We can't force people to go get assistance if 
they don't want to.

               DISABILITY EVALUATION SYSTEM PILOT PROGRAM

    Mr. Wamp. Dr. Casscells, when you were talking about the 
DES, you mentioned it, but not in real specific detail, and I 
think the number is a 62 percent reduction in the amount of 
time that you are able to cut out under this pilot program.
    I think the number was 329 days that a veteran had to wait 
outside of the pilot program for them to be completely 
processed and, under this, you are able to reduce that time by 
62 percent.
    Where do we go from here in terms of the pilot program and 
are the other veterans having to wait that long still outside 
of these pilot programs?
    Dr. Casscells. Sir, the veterans who are severely injured 
are on a separate fast track. They are getting their paycheck 
within 100 days or so.
    But the veterans who are not severely injured are either in 
this pilot, which has now been extended to 17 centers, or they 
are in the traditional MEB, PEB, two exams, two paychecks 
system which has caused so much confusion, so much delay, and 
so much resentment.
    The pilot is almost certainly going to be ratified or 
whatever you call it, substantiated by the 17 new centers.
    Mr. Wamp. And they are all up and running, all 17, or you 
are working on setting them up?
    Dr. Casscells. I think they are all up and running and it 
looks like the rollout will be about a year from now, that all 
the people leaving service for medical reasons will go through 
this system, and it has been very popular.
    You can imagine, they get their check faster, it is a 
bigger check. They still have the safety--they still have the 
appeals processes in there for fairness.
    Mr. Wamp. What about hiring on setting all these up and 
filling the staff positions? I understand that not all of them 
were filled, at least by the end of last fiscal year, and I 
just wonder what the status is now on filling all the 
positions.
    Dr. Casscells. Sir, it is taking a while to train people in 
the VA way of doing things, but I think we are fully staffed on 
that. Let me take that for the record and get back to you.
    [The information follows:]

    Our focus with the Disability Evaluation System (DES) Pilot has 
been to ensure we have the necessary tools in place to take care of the 
Service member and their family. Besides equipment and facilities, the 
Military Departments and Department of Veterans Affairs identified, 
through site assessments, the requirement for additional human 
resources to meet the needs of our Service members. In the case of the 
Military Departments, they have either hired additional staff or 
reassigned personnel to meet the needs of our Service members at the 15 
DES Pilot locations. The Military Departments report that they are on 
track with regards to the other five expansion locations. Similarly, 
the Veterans Affairs has identified their requirements for each Pilot 
location. The VA is preparing a separate response that will be 
forwarded in the near future.

    Mr. Farr. We will have a second round.
    The order of recognition, by order of people showing up, is 
Mr. Young, Mr. Bishop, Mr. Crenshaw, Mr. Israel and Mr. Carter.
    Next is Mr. Young.

                          DOD/VA DATA SHARING

    Mr. Young. Mr. Chairman, thank you very much.
    Dr. Casscells, Dr. Kussman, welcome to the subcommittee.
    I am curious about where we are on arranging for medical 
records to be available for the VA from, for example, Bethesda 
or Walter Reed and vice versa.
    I know we have had a couple of pilot programs where they 
could be transferred electronically. I am also very personally 
aware of some difficult situations that developed because 
medical records were not available or were not accurate.
    Are we working on this? Are we trying to get a handle on 
this transfer of records and making these records available to 
VA and military?
    Dr. Kussman. Sir, we have been directed and committed to 
interoperability by September of 2009.
    I wouldn't sit here and say that we are going to have total 
interoperability by then, because there are issues technically 
and otherwise.
    But as I mentioned in our testimony, and we would be happy 
to give a demonstration, that we have pretty much 
interoperability for medical delivery that is available 
throughout the VA system of records at Bethesda and wherever 
else that they are, and they can be downloaded.
    Right now, they are not computable in the sense that we 
can't add to the DOD record, but we can download the record to 
see what was going on all the way far back as Landstuhl, to the 
Walter Reeds and Bethesdas, on down the line.
    Mr. Young. Doctor, can the hospital at Bethesda reverse 
that and get information from the VA system by downloading, 
also?
    Dr. Casscells. They go two ways.
    Dr. Kussman. I believe that that is--quite frankly, sir, 
one of the challenges is making sure our people know how to do 
it, that the technical capability exists for the information to 
flow back and forth.
    The bidirectional health program has the lab, the 
diagnoses, and all those things are available to go back and 
forth. Sometimes our challenge is to make sure that every 
physician and nurse knows how to do that.

              MEDICAL BRAC IN THE NATIONAL CAPITAL REGION

    Mr. Young. Dr. Casscells, I think this question would 
probably be for the Defense Department, and it has to do with 
BRAC and it has to do with BRAC's recommendation, with the 
president's approval and the Congress' approval, to merge 
Walter Reed Hospital with the Navy Hospital at Bethesda.
    Knowing many of the doctors personally, working with them 
as they treat their patients, I can tell you that quite a few 
of the doctors are not really happy or they are frustrated 
about the way this merger is actually working out.
    Some have already left the service. Others are threatening 
to leave the service.
    Are we getting to the point that maybe the frustrations are 
going to be behind us, maybe the merger will be at the point 
where doctors can function like they should rather than having 
to worry about who is in charge of what, if anybody?
    Dr. Casscells. Mr. Young, thanks, that is a very legitimate 
concern.
    Doctors cite three basic reasons for talking about leaving 
early. One is that they don't like the electronic health 
records--this is from DOD--it is clunky. Now, most of them will 
grudgingly admit it seems to be improving.
    The second reason is that, for Walter Reed doctors, they 
are concerned that they may be--they are not sure if they are 
going to go to Bethesda or to Belvoir, and that is upsetting 
for the families, because that is a very long commute if you 
get sent to the one you don't want.
    And then there is only going to be one radiology chairman, 
only one emergency department chief, and so forth. So as those 
announcements are made, there is a little bit of sour grapes 
involved.
    But the other big reason, sir, people leave is because they 
don't have enough patients. So they want to go out and practice 
orthopedic surgery or neurosurgery or something.
    If they are not doing enough neurosurgery or pediatric 
surgery, whatever, they are not going to be able to work in the 
private sector when they retire.
    So one of the great things about the BRAC decision and the 
Congress' ratification of it is that it will create, in 
Bethesda, a center where there are enough patients, enough 
volume, that people can actually maintain expertise.
    So I think when we get through these growing pains, we will 
have there a center which will be one where everyone wants to 
go in military medicine. It is going to be joint. It is going 
to have high volume. It is going to have the best teachers. It 
is right next door to NIH.
    Of course, you know it well, you spend a lot of time up 
there, and it is next to the Uniformed Services University.
    So location is a big part of it. Volume is a big part of 
it. And I think we are going to get this passed. I think we 
will meet the BRAC deadlines.
    I toured Belvoir today with Admiral Mateczun and General 
Schoomaker. We will make that BRAC deadline. Belvoir is going 
to be, also, a wonderful community hospital. It has very 
patient-empowering, hospitable features.
    I am not saying it well, but the kinds of modern amenities 
that patients expect, without which they will go to Fairfax 
INOVA or Suburban Hospital or Sibley.
    So we have got to compete with the private sector and what 
you all have done with BRAC is the right thing. We are going to 
get it done.
    Mr. Young. Well, I want to say hooray for the fact that 
they don't have enough work to do right now. That means the 
kids aren't getting hurt in as large numbers as they were.
    But I can tell you that for a long time, both hospitals 
were crowded. I have been to Bethesda many times when patients 
were in the hallways because there were no rooms left and they 
were overworked.
    So when we go by to visit with wounded Marines at Bethesda, 
for example, and we hear there are only three or four there, 
our heart flutters because we are happy that they are just not 
getting hurt.
    Now, as Afghanistan begins to become the primary 
consideration militarily, I am afraid it is going to start 
happening again, because what we are seeing in Afghanistan--we 
just had some pretty interesting briefings. It is not a pretty 
picture for our military.
    But anyway, my concern is--and as far as the long commute, 
I can tell you, I know about that, because we live 10 miles 
south of Fort Belvoir. During the heavy days of the casualties 
coming in, my wife was at the hospitals, at Walter Reed and 
Bethesda, every day to help with soldiers and their families, 
to do things for them that the government doesn't do.
    So I know about that long commute and I asked, if I keep 
track of the mileage, maybe I can deduct it from my income tax, 
but she never would do that.
    Well, I understand that you have a large job and a large 
responsibility, both of you and both or your systems, and I 
think you will find that this subcommittee wants to provide 
whatever we can provide, and what we do is appropriate money, 
to provide what you need to do the job for these soldiers that 
are giving so much to the country and their families.
    And so thank you for listening to my concerns. Thank you 
for being here, and God bless you for the good work that your 
systems do.
    Thank you, Mr. Chairman.
    Mr. Farr. Thank you, Mr. Young. Thank you for all your 
personal experience with these hospitals and attending and 
going out there and seeing the soldiers, airmen and Marines.
    Mr. Bishop.

                        JOINT DOD/VA FACILITIES

    Mr. Bishop. Thank you, Mr. Chairman.
    Welcome, gentlemen. Dr. Casscells and Dr. Kussman, let me 
thank both of you for your distinguished careers.
    And let me go back to a subject that Mr. Farr, I think, 
raised a little earlier: the issue of joint facilities between 
DOD and VA.
    Could you walk me through what will be necessary? For 
example, last year, the committee passed legislation that 
authorized the building of the Martin Army Community Hospital 
at Fort Benning, and there is a great deal of interest in 
having that facility serve as a joint DOD/VA facility.
    It is now, I think, moving forward with the construction. 
But at some point, if we were to be able to start moving toward 
jointness, what would be necessary for us to prepare? What kind 
of reports would we need? What kinds of assessments or 
appropriations, if any, would be necessary to make any planning 
adjustments in the architecture to accommodate our veterans 
population, in addition to the DOD military and, of course, 
dependent family needs?
    Is that something that you think is a holistic approach to 
the warrior and the wounded warrior?
    Dr. Kussman. Sir, as you know, I was a former commander of 
the Martin Army Community Hospital. So I have got a lot of 
interest in what happens at Fort Benning.
    We are dialoging very aggressively right now with the Army, 
looking at what partnering can take place at Fort Benning.
    One of the things, though, that, from my experience, and I 
haven't been personally involved in the negotiations, but Fort 
Benning is a huge post and although it is in Columbus, Georgia, 
it is a long way from downtown.
    So our intent is to try to have a veterans' clinic 
collocated with the hospital, but it is not so easy to get to. 
We have a clinic downtown, as you know, in Columbus, community-
based outpatient clinic. And where would be the best access for 
veterans who--it is a long ride and trying to get through the 
gates and all those other things can potentially be----
    Mr. Bishop. I can assure you that the city would make 
whatever necessary accommodations for transportation. The 
security access would be the only challenge.
    Dr. Kussman. But it is not as big a challenge as some other 
places, because 185 goes--I think it is 185 that goes right 
onto the base. There is no gate there, because you are going 60 
miles an hour. It would be kind of hard----
    Mr. Bishop. Well, there is a gate now.
    Dr. Kussman. Oh, there is?
    Mr. Bishop. Yes, sir.
    Dr. Kussman. That shows how much I know what is going on. 
But the fact is, sir, that I think the issue of partnering and 
sharing is an ongoing discussion. I think we are all committed 
to maximizing the efforts all over to what we can do and, 
obviously, if Martin Army Community Hospital, just say, the new 
one, was going to be involved with potentially admitting 
veterans rather than just the traditional things, it would have 
to be looked at from a business case plan B, adapted to the 
sizing, because it would have to be much larger than it would 
be for taking care of--I don't want to say just--family members 
and retirees and active duty people.
    So there is dialogue going on about that.
    Mr. Bishop. I asked that question to try to determine 
whether we need to try to put some funds in to deal with that 
kind of planning issue or whether you have a line item that is 
sufficient to deal with those planning concerns.
    Dr. Kussman. I would have to get back to you for the record 
to see what has been taking place. I don't really know what the 
Army's thoughts were about that, so it would be a little hard 
for me to say what they would be interested in doing.
    Mr. Bishop. I thought I would ask that since we have the 
counterpart at the table.
    Dr. Casscells. Sorry, Mr. Bishop. Which part of that 
question was mine?
    Mr. Bishop. The possibility of the cooperation between the 
two. My follow-up question was going to ask who would pay for 
the planning for the jointness, if it were to be deemed 
feasible--VA, DOD or the Army?
    Dr. Casscells. Well, certainly, if it was in BRAC, we, the 
defense health program, would pay for it.
    New Army construction is typically paid for by the line, 
the big Army, but we have on occasion helped them out with 
that.
    Mr. Bishop. The Army part is already appropriated. It is a 
done deal as far as the military part goes.
    What we are talking about is a conversion to jointness so 
that by the time the hospital is completed, or shortly 
thereafter, it could serve as a joint VA/DOD facility.
    Dr. Casscells. I would think we would share those costs.
    Mr. Farr. We will both pursue that on a second round.
    Mr. Crenshaw.

               DISABILITY EVALUATION SYSTEM PILOT PROGRAM

    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you all for being here.
    I want to go back to the DES pilot project that we talked a 
little bit about. One of the things that I read is that GAO had 
said that there were some gaps in both DOD and VA and their 
ability to evaluate how that is going.
    I know you extended the pilot project. We have touched on 
it and it is doing well.
    But what did they say were some of those gaps and do you 
feel like you have got the mechanisms in place to really 
evaluate all the good and the bad that that program is doing?
    Dr. Casscells. Sir, I think the first pilot was just too 
small to give definitive numbers, the number of people who were 
satisfied with their appeals, for example. Well, there weren't 
many appeals.
    Whether the appeals process was adequate, well, you need 
more experience with the program. So I think when these next 17 
report in, we should have the information that we need to roll 
it out nationwide.
    I am confident about that. But GAO, they have got a way of 
coming in and asking questions we haven't asked. So we are 
standing by for their input on that.
    Mr. Crenshaw. So mostly it was a smaller number. So it is 
hard right now to decide what is the good and what is the bad, 
and that is why you have expanded to have more--then you will 
have a more comprehensive analysis.
    Dr. Kussman. Sir, it is even broader than that. We started 
it here and I think, by all indications, it was quite 
successful, albeit small numbers, but it was easy.
    We have got a lot of resources here and we could do all the 
things we need to do.
    What we are learning, as we move it out to more of the 
hinterlands, away from the facilities where we have a large VA, 
with all the comprehensive things, of how we make sure that 
infrastructure exists.
    Fort Drum, other places, the medical community there isn't 
very robust and our nearest VA is 90 miles away. So we are 
trying to learn how to do that and we are aggressively trying 
to develop some networks, say, in Watertown, New York, to be 
better able to provide the subspecialty consultations that are 
needed.
    We don't have a problem with the primary evaluation, but if 
people need an orthopedic part of it or a neurologic part of 
it, how do we get those services to that; and, as we move it 
out, we are moving now toward the Bennings, the Braggs and the 
Hoods in the next thing. Those are huge numbers.
    So this is a challenge that we are committed to. What we 
have done, by telescoping the days from 500 to 300, I can't 
remember exactly the numbers, has really been mostly the fact 
that when somebody gets their DD-214, when they are finally 
going to get out, there is nothing more for them to do.
    They don't have to come to the VA. They have already had 
their evaluation and, generally, usually, they will get their 
check within 30 days, because that whole thing has been done.
    So we have stopped that second part of it. I think the 
challenge we have is, together, working on the MEB/PEB process 
that we all know needs to be streamlined and things, and that 
is the next step in trying to expedite the process. But it is 
clearly much better.
    Mr. Crenshaw. No question. It is one of the questions that 
we get asked most, why it takes so long, the duplicity. So it 
is a great program.
    You mentioned just the initial physical, for instance. What 
do you do if there is not a VA facility near someone, just that 
entry level physical?
    Dr. Kussman. Well, to do the single exam, we will provide, 
either through contract or directly----
    Mr. Crenshaw. Even if it is far away from an existing 
clinic.
    Dr. Kussman. Yes.
    Mr. Crenshaw. I got you.
    Dr. Kussman. The real challenge is not the actual basic 
exam. It is the consults.
    Mr. Crenshaw. It is all the specialties, I got you.
    Dr. Kussman [continuing]. If you are in a rural area. 
Killeen, Texas isn't exactly a metropolitan area for services. 
The Temple VA is not too far away, but it is a distance, 
whereas here in town, it was three or four miles.

                       ELECTRONIC HEALTH RECORDS

    Mr. Crenshaw. I got you.
    Let me ask one question to you, sir, about electronic 
records, because I know we touched on that, as well, and the VA 
has been a leader. You have been doing this for 20 years and 
now everybody knows it is a good way to save money, ensure 
patient safety, et cetera.
    But in your testimony, I think you said twice that we are 
on the brink of change. So what does that mean? You have worked 
so hard for 20 years to be a leader. You won a Harvard award.
    And you want to leverage that to continue to provide care 
and, also, help other folks as they move toward electronic 
records. But what does it mean we are on the brink of change?
    Dr. Kussman. Let me try to clarify that. I think our intent 
is to maximize as much of a common electronic record between 
DOD and the VA.
    DOD is on the cusp of making changes and moving forward and 
improving their electronic record, and we are on the cusp of 
reengineering and rebasing our, I think, world class record 
MUMPS-based to JAVA-based and make it Web-based.
    So together, I think that is what has to be--the decision 
that was made yesterday at the joint executive committee was we 
need to maximize common applications and common services.
    So as we move forward and on the precipice of these 
changes, we maximize the integration of those changes so there 
is less and less difference between the two systems.
    Mr. Crenshaw. Can you, A, figure out how much you have 
saved through this 20-year process that you have become very 
good at, and, number two, is this brink of change, is this 
going to cost some more money?
    But can you quantify those savings? Probably, as other 
people move toward this, it would be a great----
    Dr. Kussman. I don't have that, but I can tell you that it 
has been thought that in the civilian community, for instance, 
that only 1.5 percent of practicing people have an integrated 
electronic record.
    If you throw the VA hospitals in there, you make it three 
percent for the whole country. So we have that much of an 
impact.
    One in seven lab tests and one in seven admissions to 
hospitals are done because somebody can't find the record or 
can't find a test.
    So it is a huge amount of money if you looked at a $1 
trillion industry. I don't know exactly what it is. But it does 
cost a lot of money to migrate this system from where we are 
right now to what we believe is the future to make sure that we 
are integrated where the country goes.
    The country will move, as we have with the president's 
leadership, toward a Web-based, JAVA-based electronic health 
record, and we want to be part of that. The MUMPS is very good 
right now, but we are limited to where we can move forward.
    No one has done this before. So we are in the process of 
getting the best minds to figure out how to move it and then 
everything new that we have developed with it is done as much 
as possible in conjunction with DOD.
    So we don't have to have interaction. It is the same.
    Mr. Crenshaw. Got you. Thank you.
    Thank you, Mr. Chairman.
    Mr. Farr. Mr. Israel, we have some votes pending. Why don't 
we take your questions and responses and then we will vote, and 
hopefully everybody comes right back.

                        WARRIOR TRANSITION UNITS

    Mr. Israel. Thank you, Mr. Chairman.
    I would like to ask Dr. Casscells to focus with me on the 
warrior transition units.
    Several weeks ago, a group of personnel from the Fighting 
69th met in this room with Chairman Edwards and me and shared 
their experiences in the warrior transition unit, particularly 
at Fort Bragg, and what they told us was bone-chilling.
    They talked about an acute shortage of mental health 
professionals. They talked about being handed bags of medicine, 
all sorts of different medications, and being told to self-
administer.
    And when they would say, ``Can I see a psychiatrist,'' they 
were told there aren't enough psychiatrists. That problem has 
since been solved with respect to being handed bags of 
medicine, but it did happen to them and they complained about 
it.
    They talked about being given medication, no psychiatrist, 
no mental health counseling, but then kind of living in 
isolation. They would go to a room at the Airborne Inn, they 
could go out at night, drink, come back, take their medicine, 
and get no supervision at all.
    They talked about the complete disarray in case management, 
not being able to see the same doctor, not being able to see 
the same professional.
    So my questions to you are: do we have enough war 
transition units? Are they fully staffed? Do we need to stand 
up more? Are the personnel in the warrior transition units 
trained properly? What is the metric for success?
    I know these are a bunch of questions. But who is taking a 
look at how these units are operating and making determinations 
on whether improvements are necessary?
    Dr. Casscells. Sir, this went to the highest levels of the 
Army a year ago. General Casey and General Chiarelli asked us 
for help, and General Granger, my deputy for TRICARE, went to 
Fort Bragg, I went to Fort Bragg. We talked to the families 
there.
    And there is no doubt that as these warrior transition 
units were started, there was a tendency for commanders to put 
service members in there who just had a minor injury that 
really could get better in the barracks. And they just were 
afraid of another Walter Reed publicity episode.
    So people were just put in these warrior transition units 
and there weren't enough staff. So it is hard. Army staffing is 
a laborious process, with a lot of regulations. So we fell 
behind in the staffing.
    We are about caught up in the staffing. The weak spot is 
still mental health counselors. And many of them are not 
physicians, which is fine. The problem is a lot of those 
patients are taking medications, perhaps too many.
    General Schoomaker, the Army surgeon general, and I are 
looking at how we can do a better job of making sure that if 
people are on an antidepressant or something like that, that it 
is actually working. If not, they need to get off it. You can't 
just give people antidepressants without counseling.
    So this balance is one that General Schoomaker is working 
hard to achieve. I think we are getting there.
    I heard the same things at Fort Bragg, not enough 
counselors.
    Mr. Israel. Is it just Fort Bragg? I am sorry for 
interrupting, but my time is going to----
    Dr. Casscells. No, sir. There are a lot of places where----
    Mr. Israel. The problem is not isolated to Fort Bragg. 
Isn't this a systemwide----
    Dr. Casscells. Yes, sir.
    Mr. Israel [continuing]. Problem over the 36 WTUs?
    Dr. Casscells. Sir, it is particularly true where you have 
a big Army post and a small nearby town, because the small 
nearby town doesn't have enough doctors.
    I could help out with TRICARE contracted doctors in the 
town, but if there aren't enough of them, what we really need 
is more caregivers at the installation, and the installation is 
in a remote location. It is hard to attract civilian employees 
to work at that fort.
    So we are looking at a variety of approaches to this. At 
Fort Drum, they have been able to do this pretty well, 
contracting with people down at Watertown.
    In Bethesda, they are now pioneering a new approach to get 
at this other issue you mentioned, sir. People want to see the 
same doctor. They want to have a relationship with someone they 
trust, someone who can tell if they have lost weight or gained 
weight, if their color is off, eyes are red-rimmed, looked like 
they had been crying.
    Doctors knowing you for some time can pick up on those 
things. So it is a very legitimate point and it is difficult, 
because so many providers are deploying or they are getting 
caught up in meetings about Army transformation or other 
administrative meetings. There are too darn many meetings.
    So what they are doing at Bethesda is a terrific thing at 
the Navy Hospital. It is called Medical Home, where they get a 
small group of doctors and say this is like a partnership, like 
an obstetrics practice. So on a given day, you may not see your 
doctor, but you are going to see one of the two or three 
partners that you have gotten to know and they are trusted. So 
it brings it down in size.
    This Medical Home situation, where people can call in and 
get an appointment right away and they may not see Dr. Kussman, 
but they could see Dr. Casscells and Casscells knows Kussman's 
practice style and, in fact, I might have seen that patient 
once before, that is a source of solace to those soldiers or 
sailors.
    We are working on it.
    Mr. Israel. It needs more work and I am anxious to partner 
with you.
    Thank you, Mr. Chairman.
    Mr. Farr. We have 5 minutes left in voting and when we come 
back, Mr. Carter will be the first questioner.
    [Recess.]
    Mr. Farr. Well, Mr. Carter isn't back yet.
    Mr. Wamp, you have another commitment. Do you want to--we 
have another vote right after this.
    Mr. Wamp. Just to keep it moving, though, so that you don't 
have to wait, this is the chairman being courteous while I ask 
you a question.

                           CONTINUUM OF CARE

    Dr. Kussman, in your testimony, you make reference to at 
least 11 commissions, plans, committees, programs or work 
groups, including the senior oversight committee, joint 
executive council, health executive council, federal recovery 
coordination program, yellow ribbon reintegration program, 
wounded and injured oversight committee, polytrauma liaison 
officer, deployment health working group, patient safety work 
group, medical records work group, joint strategic planning.
    We talk about the bureaucracy and I do commend you for 
whittling away and trying to coordinate and being efficient, 
but how do you coordinate all the different groups, agencies, 
task forces, to make sure that our health care is delivered in 
the most efficient and less bureaucratic way?
    Dr. Kussman. Sir, thank you for that question, because that 
is the goal.
    We should be helping the service member and his or her 
family and soon to be veteran in that process of moving along 
that continuum and not creating more aggravation for them, 
particularly when they are sick. Our job is to make that smooth 
and easy.
    We have developed over the years a great deal of 
infrastructure, and you mentioned some of the things. We could 
start with the federal recovery coordinators. That was an 
entity that grew out of the Dole-Shalala group to assure that 
particularly seriously injured people had somebody that they 
could go to who would be coordinating their movement, not just 
from DOD to the VA or back, but in the civilian community, as 
well, because there are people tapping into a multiplicity of 
services and sometimes they do fall through the cracks, because 
we don't have visibility all the time of what happened, 
particularly in the civilian world.
    So the federal recovery coordinator, for lack of a better 
description, has been the air traffic control person. They are 
not actually providing the care, but they are assuring that the 
families and the service member have someplace to go to get 
questions answered and then are leveraging the large number of 
people, both in DOD and the VA.
    We have VA people in 17 military facilities. We have 
military people in VA facilities. We have care coordinators. We 
have OIF/OEF coordinators, transition coordinators.
    All these people are meant to assist people as they move 
along the continuum from the Walter Reeds and Bethesdas to our 
polytrauma centers and onward or people who don't need a 
polytrauma center, but need assistance as they move from 
Bethesda to wherever they are going to live.
    In the beginning, we weren't too good at that, but I 
believe now that I hear very few complaints anymore about 
whether we have been able to assist or not.
    Paul Hunter, who is here, is my coordinator related to all 
DOD/VA actions and the continuum of care for particularly OIF/
OEF, but for everybody, and we believe we put the 
infrastructure, that it is done on a case-by-case basis.
    Mr. Wamp. I know the purpose of this hearing is the 
interoperability in the DOD/VA partnership, but while I have 
got you here, Dr. Kussman, last year, I think you sat in on a 
meeting that we had on collections from third-party payments 
and all.
    How is that going? Are we making progress on collecting 
money that is owed to VA that we are not leaving on the table?
    Dr. Kussman. I am amazed that every year we get better. I 
get scared sometimes that one of these years, we are going to 
project how much we are going to get and then we will run into 
the wall, because it is part of our overall budget 
considerations.
    We have shown significant increases every year and we 
continue to do that.
    As you know, we had a pilot on a CPAC, a combined center in 
VISN-6, in Asheville. It was expanded. It has been very 
successful and, with the secretary's guidance, we are going to 
move up that schedule from 2013 to 2011 to have six more around 
the country that have shown up to 18 percent increase in third-
party collections for non-service-connected.
    Mr. Wamp. You said in Asheville, not in Nashville.
    Dr. Kussman. Asheville.
    Mr. Wamp. I am just making sure we are staying together 
there.
    Dr. Kussman. North Carolina.
    Mr. Wamp. To most members of Congress, the VA is not all of 
what we talk about here. To them, it is a CBOC or a super CBOC 
or maybe they are fortunate enough to have a hospital in their 
district or close to their district.
    So do you believe, in the wake of CARES and all the reforms 
and everything else, that we are delivering health care as 
smart and efficiently as possible?
    We are seeing more CBOCs and more super CBOCs being built 
and we are seeing more care contracted, but not privatized, but 
just where it is necessary to contract it, increase the 
contracting so that veterans have more options and access 
immediately to the care that they need, and these seem to be 
trends that almost fill the gaps between some sweeping reforms 
where you would actually close hospitals.
    I had hoped, when CARES came along, being from the south, 
where people are moving and we have lakes and retirees and low 
cost of living, we get a lot of veterans, but we don't get the 
new infrastructure. We don't get the facilities to compensate 
for it.
    And I had hoped that CARES might realign a bunch of that, 
where all of a sudden you would see the hospitals built where 
the veterans are moving. But what we are seeing is the current 
facilities expanded. So instead of a CBOC, you get a super 
CBOC.
    And that is good, we are grateful, but we still have gaps. 
But I am seeing that the super CBOC kind of fills the gaps. We 
serve a tremendous number of veterans down in the Chattanooga 
area, but you have got to drive 2 hours to get inpatient care.
    Yet, contracting can fill some of those gaps, because then 
they can see the local provider that they might have to 
traditionally go to Murfreesboro to see, and that is 2 hours 
away.
    So is that a trend you think is filling some of the gaps in 
the delivery system?
    Dr. Kussman. Yes, sir. CARES was a process. We could, 
arguably, say it didn't succeed.
    Mr. Wamp. That is what I would say.
    Dr. Kussman. I don't want to get into that whole thing. So 
we have been looking at a way of changing our approach from 
facility centric to veteran centric; that the veterans live 
wherever they do and our job is to provide services in the 
maximum way possible as close to where they live.
    So the way we have done that, partly, is primary care with 
the CBOCs that are up in the--almost 900 all together and we 
have a continuum of care from highly rural areas that use 
telemedicine and outreach clinics and multiple vans to the 
traditional CBOC, which is mostly primary care, so mental 
health and those things, to large independent CBOCs, to what we 
have now described as health care clinics, HCCs, that are 
large, robust, ambulatory care, same-day surgery centers that 
provide 90 to 95 percent of why people go to a hospital.
    Any hospital you talk about in this country, when you look 
at why people pull up to the door, 90 to 95 percent of the 
people coming are doing some kind of ambulatory care thing. 
They might even have their hernia repaired or their appendix 
taken out or a colonoscopy, but they don't stay over. They 
leave.
    Relatively small numbers of people actually get admitted to 
the hospital. So we are trying to push the services out and not 
be hospital centric, but veteran centric, to do that.
    Building hospitals is an exorbitant cost these days, as you 
know, anywhere from 500 to $1 billion for small hospitals. And 
we, effectively, with 153 hospitals on the edge of 57 years 
old, there is no way we are going to be able to replace these 
facilities and you can only retrofit facilities to a certain 
point.
    So the question then is how can we maximize the services 
close to where--like in Chattanooga, so they don't have to 
drive 90 percent of the time to Murfreesboro, and then partner 
for acute hospitalization with the local community, but still 
retaining the right for complex surgery, neurosurgery, thoracic 
surgery, to move these into our system, because if we don't do 
that, we won't be able to sustain ourselves in the complex 
care.
    Mr. Wamp. If I can have another minute.
    My wife, 3 years ago, went full-blown severe septemia/ARDS 
in hospital. So trust me, I would hope people can stay out of 
hospitals, because sometimes that is----
    Dr. Kussman. They are dangerous places to go.
    Mr. Wamp. They are dangerous places and we actually have 
had a problem in Murfreesboro with colonoscopies, where you are 
inpatient and there is release, it is easy.

                              TELEMEDICINE

    I was going to ask one other question, though, because I 
noticed where Chairman Mullen went to Fort Campbell last month 
and talked about some of the innovations, and this may play to 
both DOD and VA, of virtual care, where maybe you can get some 
of these treatments online.
    How is that working and is that a demonstration that has 
some validity?
    Dr. Kussman. We have probably led the country in 
telemedicine, tele-psychiatry, tele-dermatology, and we have--I 
don't know what the latest number is, probably around 40,000 or 
50,000 people who are getting their care that way with the 
technology that allows you to communicate with your primary 
care nurse or your primary care person without leaving home.
    Mr. Wamp. Some veterans may be more inclined to be 
interviewed in that capacity than to come in, right?
    Dr. Kussman. So we are moving, as we can, emphasizing rural 
health, but also patients who can't get out to do things, 
because we can check the blood pressure, we can check the 
glucose, we can check their weight, and somebody who has a 
problem with, say, congestive heart failure, the fluid kind of 
backs up because the pump isn't working so well, they will gain 
weight and if they are monitored on a daily or every other day 
basis, the nurse says, ``Mike Kussman, what is your weight,'' 
and I say, ``I have gained two pounds,'' maybe we ought to take 
another Lasix, because if you don't do that, the next week, 
they are seven or eight pounds and then they are in the 
emergency room and end up being admitted.
    So you can cut off some of this stuff with technology and 
the patients are much happier, obviously.

                            INTEROPERABILITY

    Mr. Farr. I have two questions. One, sort of the purpose of 
this hearing and this interoperability, the other is money is 
sort of the interoperability of the rest of government now, 
spending billions of dollars on electronic files.
    Are you engaged in this? Are there people that have done 
this and know the pitfalls?
    Dr. Kussman. Are people coming to us?
    Mr. Farr. We have put billions of dollars in the stimulus 
package to convert paper files to electronic files and now 
there is going to be a lot of vendors out there selling systems 
and it is going to be a madhouse.
    The concept, obviously, is that when you are finished with 
all this, you will have some interoperability. You won't be 
owned by one system. But it seems to me that if I were engaged 
in getting the rest of the country, the civilian community to 
convert to electronic files, I would come to the VA first.
    Dr. Kussman. I think we are partnering with HHS. As you 
know, Rob Kolodner used to be in charge of that initiative. Dr. 
Blumenthal, I think, is the new designee to do that. We are 
working daily with them.
    But our hope is that we can lead the country together, DOD 
and the VA, as a forcing mechanism, because we also have a lot 
of patients that Trip takes care of that are in TRICARE.
    And if we start working with our TRICARE partners to make 
sure that they have electronic records, and we buy a lot of 
fee-based care, and if we do it, you can suddenly have a mass 
that might be able to lead the country.
    Mr. Farr. Lead the rest, yes.
    Dr. Kussman. So we are very conscious of that 
responsibility.
    Mr. Farr. We have land owned by DOD that Veterans are going 
to build a building. And my question about that building is 
that you are exploring this new model to fund medical 
facilities under the health care facilities----
    Dr. Kussman. HCC, sir.
    Mr. Farr. HCC. That is essentially a private development, 
build to suit, and then leased back to you.
    Dr. Kussman. Lease to build or build to lease is one way of 
doing it. We could also build our own building. But getting 
major construction is always difficult and leasing sometimes is 
easy.
    Mr. Farr. Are you going to include these facilities in this 
year's budget?
    Dr. Kussman. I think that we have already identified some 
with HCC down in south Texas, because there was a strong 
movement to have us build a hospital, because we were very 
sensitive to the needs of the community, having to drive 5 
hours to San Antonio for anything more than basic----
    Mr. Farr. But you don't know if there is any in the budget 
this year.
    Dr. Kussman. I don't think we are----
    Mr. Farr. I will come back on that.
    Dr. Kussman. The budget hasn't been, as you know, 
completed.
    [Recess.]
    Mr. Farr. We will come back to some of these other issues, 
but Mr. Carter has been patient all day.

                 DOD/VA DATA SHARING--INTEROPERABILITY

    Mr. Carter. Well, thank you, Mr. Chairman.
    Mr. Secretary, we were just visiting on what my question 
was going to be about. We are very excited at Fort Hood that we 
are going to have a new hospital in 2010, along with Camp 
Pendleton, and they already have authorization for building at 
Raleigh and Lejeune. So you are going to be in the hospital 
building business.
    Where I live, we are a fast-growing hospital district and 
they have built two large hospitals in my hometown in the last 
4 years.
    In visiting Seton Hospital, they were talking about the 
miles and miles of wiring that they have put in Seton Hospital 
in anticipation of electronic recordkeeping.
    So this has been an ongoing issue, we have talked about it 
today, and we talk about it just about every time we get you 
guys in here.
    Do you have any ideas about what kind of plans they have 
for the integration of new technology, putting together the 
interoperability between the VA and the DOD on this 
recordkeeping at all the new hospital facilities?
    Is that going to be part of the anticipated planning that 
you see on the hospital?
    Dr. Casscells. Yes, sir. We are very fortunate that we have 
got really a technical breakthrough, which should finally 
reduce the cost of achieving interoperability.
    It got so bad that Secretary Peake was having us fax and 
scan every piece of paper to the VA and just recently, the 
technical people, DOD and VA, have come up with a joint 
solution using what they call services oriented architecture.
    This is open source architecture, which enables you to be 
modular in the way you build your connectivity, in the way you 
build your electronic health record and yet you don't give up 
any security, but you add flexibility and you markedly shrink 
the time.
    In the military, the acquisition process takes many years. 
By the time you pick a product and start to contract to get it, 
the product, when it is delivered, is out of date. So now, with 
moving to this services oriented architecture, it is like 
design-build in the construction community. You have got a 
chance to change the design at the last minute.
    This is going to rapidly--this is going to decrease 
markedly the time from picking the product to the delivery and 
installation of the product.
    It also lets you uninstall a piece without the whole thing 
coming down. So you can do your maintenance and so forth. So 
this thing called services oriented architecture, SOA, is huge.

                        AHLTA--UPCOMING CHANGES

    The other thing it does is decrease the cost estimate. A 
year ago, when there was so much unhappiness about our 
electronic health records, we went back with a clean sheet of 
paper, even talked about pulling out the DOD's record system, 
called AHLTA, which was slow and hard to learn and would often 
crash.
    So we looked at the cost of pulling that out and putting in 
Vista, knowing full well that they want to upgrade theirs. What 
we had put in, by the time we put it in, would already be 
version 1.0 and they would be on to 2.0.
    Even if we did that--and we had a certain number of doctors 
who said just give us the VA system. If the VA upgrades it, 
okay, but we would rather have the VA system.
    We looked at the cost of that. Estimates ranged from $10 
billion to $15 billion to pull out AHLTA and put in Vista.
    So now, we will get back to you when this budget comes out. 
We will have estimates that are a quarter of that. And instead 
of the 2015 delivery date, we will be talking about 2012. This 
is technology coming to the rescue.
    So I am finally confident that we are going to have fully 
interoperable records and not only that, but we will have 
records as good as anybody out there has got.
    Mr. Carter. That is exciting, because just having the 
opportunity to go through the construction phase and looking at 
these hospitals and what is being done today, it is really 
space age, it is really something, and that is exactly what we 
want.
    We want to have the best we can do with smart technology. 
So I am pleased to hear that.

                      MENTAL HEALTH PROFESSIONALS

    A question had been asked here earlier and I wanted to just 
mention something to you. I have mentioned it to the folks at 
Fort Hood.
    I had a bunch of people from Texas, the mental health and 
mental retardation state agency, come to my office in 
Cedarville and say that they had an abundance of mental health 
workers that were on staff that they needed help with, meaning 
to work for them, and wanted to know if the Army wanted to 
contract at Fort Hood with them to provide mental health, both 
psychiatrists and certified mental health workers.
    It has just been in the talking phase more than anything 
else and we may match them, but it may be that you find that a 
lot of places, that the MHMR departments in states might have 
accessibility to contract for some of the shortfall that you 
have for mental health professionals.
    I just bring that to your attention because you have talked 
about it today and that has always stuck in my mind that they 
said we have an abundance of psychiatrists and certified 
professionals that we can use to contract with the Army.
    So I just wanted to put that on the table for you and see 
what you thought about that.
    Dr. Casscells. Loree Sutton, on our staff, has looked at 
that, as you know, sir, and she gave it a thumbs-up. The Texas 
reintegration project is what they call it.
    Mr. Carter. Right.
    Dr. Casscells. Yes, sir. And so she is still wrestling with 
our personnel and readiness people as to whether that could be 
a one-time MOU or whether it actually might be a template for a 
wider rollout.
    Sir, I would have to take that for the record and get back 
to you.
    [The information follows:]

    Thank you for your inquiry regarding the Texas State Integration 
Program. We are always interested in learning more about new and 
innovative ways to assist Service members, Veterans, and their 
families. Community efforts to assist with the reintegration of 
recently deployed Service members and their families are particularly 
needed, and we welcome civilian, local, and state initiatives in this 
regard. As to this specific program, although we have been able to gain 
some information, we are not yet familiar enough with this particular 
program to give a definitive response. As a result, we have been in 
contact with them, and hope to set up a meeting where we can learn more 
about the program, and better determine whether it would be of benefit.

    Mr. Carter. I just mention it really as a suggestion that 
would be helpful. You might find the same thing exists in 
Tennessee and other states, California and so forth. But there 
are ways we can contract with firms that have the professionals 
available since we are having such an abundance of need right 
now that it might help and I just bring it up for that purpose 
and that purpose only.
    Thank you, Mr. Chairman.

              DOD/VA HEALTH CARE COLLABORATION IN MONTEREY

    Mr. Farr. I would like to get back to my question for both 
of you. Let me give you a little of the scenario.
    Fort Ord used to be one of the largest training bases in 
the United States. It had probably 32,000 folks there.
    The base was downsized, remaining as a residence for active 
duty soldiers assigned to language studies at the Defense 
Language Institute in Monterey and to students at the Naval 
post-graduate school.
    What happened at Fort Ord, you had a 400-bed licensed 
hospital that closed and up to that time, everybody in the 
military community, the active duty personnel, the families of 
the active duty personnel, the retirees in the community, and 
the veterans all used that hospital, because there was plenty 
of space and it was space available, but there was plenty of 
it.
    But the hospital closed, and I think you are going to find 
this in a lot of communities. They didn't have a hospital 
anymore.
    You opened a clinic at the Defense Language Institute, a 
drop-in clinic for the soldiers, but a lot of them didn't know, 
particularly at the Naval post-graduate school, that they could 
go over to the Presidio in Monterey, not too far away, but 
several miles, and get their clinical care there.
    The TRICARE families ended up in mass confusion about 
trying to find TRICARE doctors and we found none in the 
community that would serve pediatric care, because the 
reimbursement rates weren't large enough.
    So they contracted with a firm in Salinas, which is about 
30 miles away. Then in the meantime, we have rebuilt all of 
that, with the RCI project. So you have this wonderful military 
community who is very happy, with the exception that there is a 
lot of confusion in how you get access to TRICARE.
    And the Monterey Bay area being very expensive, it is very 
difficult to find doctors who can come in. Our senior doctors 
are leaving their practices. So you can imagine how difficult 
it is for a young doctor, and they are not coming in and 
picking up these services.
    They have told us, however, that if we have facilities 
where the cost of the overhead, cost of the rent, is not so 
high as it is in the private sector, they would be glad to 
partner up.
    So what we have tried to do, in the meantime, Veterans 
opened a clinic. It has been so successful it is cracking at 
its seams. We have now a piece of property that the local 
active duty community, Army and Navy, both agree is ideal, 
because it is right in the community, in the RCI community, and 
VA is willing to build a facility there.
    The question is whether you are going to build it as an 
HCCF, and what I hear from Palo Alto is that there are seven 
potential HCCF sites scheduled for construction in 2010.
    Your last answer to me was that you didn't know.
    Dr. Kussman. Well, it was planned, but the budget hasn't 
been confirmed. So I don't know. But a lot of them are in 
leasing, so they wouldn't be in the construction budget.
    There are things that we would like to do that we are 
looking at, but I don't know where they got 17 from.
    Mr. Farr. Seven.
    Dr. Kussman. Seven from. I would have to go back and ask.
    Mr. Farr. Could we find that out?
    Dr. Kussman. Sure.
    Mr. Farr. And I would like to find it is just one of them.
    Dr. Casscells, I don't know if you know, but the Monterey 
Bay area has about 6,000 men and women in uniform and about, 
between veterans and retirees, another 28,000 people.
    So it really makes sense now to try to make this combined 
facility that VA is going to build to have you as a partner in 
that facility. But that decision is in the feasibility studies 
out there and it is going to show that you are going to have 
about a $10 million savings, just TRICARE alone.
    But you haven't made the decision whether to partner with 
the VA yet on this and I am waiting to see that decision to be 
made. Hopefully, it can be made as soon as possible, because we 
would like to--we will have all the numbers for you and it will 
show that it is financially a smart thing to do.
    Dr. Casscells. Sir, as you know, from your visit with Major 
General Horoho and Ken Cox from my office, the Army is 
collecting their part of the data for this joint study, what is 
called the joint market assessment team.
    VA generously offered to build a joint clinic. They also 
paid for the study. The Army surgeon general is completing the 
study. The team goes out there the 13th of April to do their 
site inspection and wrap up the report.
    So we should know very soon, certainly, during the 
appropriations cycle, whether anything more is needed. Of 
course, we would love to hear--get a solution, because on 
TRICARE, my hands are a little bit tied. I can offer a 10 
percent adjustment to get pediatricians in the Monterey Bay 
area to take TRICARE, but that is Medicare plus 10 percent.
    And pediatricians aren't millionaires, but they still don't 
want it. It is hard to get the--our TRICARE network is very 
thin in some of these areas. It is thin in areas that are very 
wealthy. It is also thin in areas that are very rural.
    And Congress has given us----
    Mr. Farr. Well, I think the lesson learned here that is 
really some advice to both of you, because veterans are 
everywhere that there are active duty military. If you are 
going to close a hospital, you are going to have unintended 
purposes, which are never measured, but, obviously, felt when 
the hospital closes.
    People have got to consider that. We thank God you did 
respond, TRICARE, you weren't in command at the time, but 
TRICARE had to fly in doctors just to be there. It was very 
expensive, and they didn't anticipate that it was going to 
happen.
    But our Medicare reimbursements are the lowest in the 
country, for one of the highest cost communities. That is 
another problem and we are fighting that. But your TRICARE 
reimbursements then are based on this low, low base, which none 
of the doctors are even receiving or civilian doctors are not 
taking Medicare patients.
    We have 2,000 senior citizens who get their health care 
through emergency. It is appalling.
    We have excellent veterans' clinics. They are very 
successful. It just seems to me that now that we are going to 
build a new facility, that it just makes really good sense, 
this is right in your footprint, to serve the families of the 
active duty members who now have to truck over to Salinas.
    We can get pediatric care right in that building. We have 
already got commitments from doctors to come. So I am looking 
forward to a favorable marriage here.
    Dr. Casscells. Sir, could you write in there that the 
clinic director would be Dr. Casscells? That would be a great 
favor.
    Mr. Farr. Whatever it takes, we will do that. You want that 
in the bill? [Laughter.]
    Be careful what you ask for. Fortunately, the clinic is 
already going to be, I promised, just before he died, to 
General Gourley, who put all this together, and we are going to 
name it after him.
    But we can name something after you.
    Dr. Casscells. I might have to go work there.
    Mr. Farr. We can arrange that, too.
    I think it is about time we wrap up.

                         CONGRESSIONAL SUPPORT

    There is a tradition that Mr. Edwards has that I love and 
it sort of just is a parting shot.
    We are sitting here trying to prioritize a lot of issues. 
In your opinion, what is the one thing that--each of your 
opinions--what is the one thing that this committee, as 
appropriators, can do to fix what you think is the most serious 
problem right now?
    Dr. Casscells. Sir, on the defense side, I would say stay 
the course that Mr. Edwards has charted. What he has done in 
supporting the construction of military hospitals, most of 
which were built before I was in medical school, in asking that 
these hospitals be built and that they be first class.
    You not only boost the morale of the doctors and nurses, 
but you boost the morale of the patients if they feel they 
are--a new hospital, a hospital that is safe and high tech, 
shows our respect for them.
    And the hospitals that your funds have enabled us to have, 
we now have hospitals that are lead--they are green, they save 
28 percent on energy, reduce maintenance. The hospitals have 
safety features that our current hospitals don't have and they 
promote patient privacy and patient empowerment.
    The new generation of hospitals is nothing like what we 
have currently in the military.
    So I would just ask that you stay the course, because these 
hospitals will pace themselves. If we have an Army hospital, 
for example, that is one-third full, it loses money. The 
patients go down the street to a private hospital.
    We pay twice. We are paying to keep the hospital open and 
then TRICARE, me, paying for the downtown care.
    So what you are helping us do, this committee, in shoring 
up military hospitals will be cost-effective in the long run 
and we appreciate it enormously.
    So my message would be, please, just stay the course.
    Mr. Farr. You just made my speech for a joint clinic. It is 
a lot cheaper than a hospital to serve a lot of people.
    Dr. Kussman.
    Dr. Kussman. Thank you, sir, for the question.
    First of all, I very much appreciate what the chairman and 
all of you have done in support of what we have done and what 
we have needed and you have always been willing to listen and 
help us move forward.
    My biggest--well, one of my biggest--I was just running 
through a list of things, but as you know, our appropriation is 
in four parts, the services, used to be admin facilities, and 
then IT.
    And one of the challenges is when this is separated, and I 
understand why it was done and I am not arguing about that, it 
is just that it locks us in sometimes and it is very difficult 
to reprogram money.
    So when I want to do that, I have to go through the process 
of asking permission to do it. This is particularly poignant in 
IT, because I think a lot of people presume that medical IT in 
support of the delivery of health care is in medical services, 
because it is part of medical services.
    But the way the budget is structured, it isn't. It is in 
IT. So we can buy a new piece of equipment, but the IT tail 
that goes with it has to be funded out of something else.
    Mr. Farr. Competing with something else.
    Dr. Kussman. Yes. I mean, there are a lot of things we need 
in IT, security and things like that. So the unique necessity 
of medical IT becomes a challenge when we are competing, and 
that is why, the last 2 years I reprogrammed money out of 
medical services into IT to support medical IT projects.
    But I think that this is an unintended consequence of an 
IT, separate IT budget, because nothing we do now in medical 
services doesn't have an IT tail.
    So I hope I articulated that in a coherent manner. So the 
challenge for us is being sure that when you give us money in 
medical services, we can actually use it, as well, because a 
lot of times, it gets frustrating----
    Mr. Farr. Did we create these different accounting 
accounts?
    Dr. Kussman. Yes.
    Mr. Farr. The Congress did.
    Dr. Kussman. Yes.
    Mr. Farr. So you are suggesting it needs to be modernized 
to essentially IT is really part of everything and not just a 
separate standalone.
    Dr. Kussman. It is not just buying Blackberries and servers 
and things. It is integral to everything I do medically.
    Mr. Farr. Well, I know when we were in the California state 
legislature, I am sure Mr. Wamp knows the same thing, the 
problem was that when IT came out, there were so many vendors 
up there and everybody wanted it. It was going crazy. People 
were buying things that didn't work.
    Dr. Kussman. And that is why I think----
    Mr. Farr. So we tried to professionalize it and bring it 
all under one roof.
    Dr. Kussman. Right. And as you know, we moved to a 
centralized OI&T in the VA I think that that is very important 
to maintain standards and quality and make sure that people 
don't waste their money on things.
    And even if it was in medical services for medical IT, I 
think that it is okay for them to have oversight to make sure 
we don't buy something stupid.
    But the challenge is to continue to expand medical services 
when there is not enough money in the IT budget sometimes to 
meet all the requirements. So things start competing with each 
other and sometimes--and I am not complaining about the money. 
It is just the way that things are done now.
    And I believe that when this was done, the presumption was 
that there was a lot of medical IT that would be paid for in 
medical services, because I believe it is part of medical 
services, but I can't do it anymore.
    So that is one of the things that I would think that might 
be helpful.
    Mr. Farr. Well, we will take a look at that. I would 
suggest that your team, working with HHS on the electronic 
filing, I mean, your IT has got to be the----
    Dr. Kussman. It is more than just the electronic record. It 
is wireless. It is things that--we buy a new MRI. There is an 
IT support tail to that and that doesn't come out of medical 
services. It comes out of the IT budget.
    It is part and parcel of the delivery of care, but it has 
been separated from the delivery of care.
    Mr. Farr. I don't know IT that much, but it seems to me if 
you are buying equipment that is sophisticated as it is and you 
are trying to create an electronic records system, that 
equipment is going to be informing a lot of your data itself.
    You are going to have reinterpretation of data coming out 
of--I mean, I have seen these charts and scans and the way they 
put things together, and it is remarkable information that is 
even understandable for a patient like me, and that is----
    Dr. Kussman. I am a dinosaur, too.
    Mr. Farr [continuing]. And that is generated by the machine 
that scanned me. Isn't this all integrated and doesn't this 
have to be something in this discussion, if we are all going to 
try to get the entire country on some kind of interoperable 
system?
    To me, interoperable means it is all like one. Isn't that 
included in that? Don't you, in your recordkeeping, account for 
things like that?
    Dr. Kussman. Supporting our electronic health record, money 
comes out of IT.
    Mr. Farr. Okay.
    Dr. Kussman. When we expand new services, in medical 
services, there is frequently an IT tail. When I open a new 
CBOC or a new HCC, there is IT support for that.
    We can put all the equipment in and prepare ourselves to 
deliver services, but I can't use medical services money to 
support the IT part of it. It has got to come out of the IT 
funding.
    It is very complicated.
    Mr. Farr. Has that been brought to the congressional 
attention before?
    Dr. Kussman. I don't know if I stuck my neck way out, but I 
think we have had some dialogue about this in the past and it 
is the way we do business right now.
    And my plea would be we look at that and see if there is a 
better way of doing it.
    Mr. Farr. Has somebody got a better way to do it, anybody, 
because we are doing report language and we can set up a system 
to get us some answers.
    Dr. Kussman. Maybe.
    Mr. Farr. All right. We will work on that.
    Dr. Kussman. Thank you.

        PUBLIC ASSISTANCE TO WOUNDED WARRIORS/MILITARY FAMILIES

    Mr. Wamp. My staff should have put this in my notes and 
they didn't, so they will next time.
    General Casey and General Chiarelli have been working with 
me to identify impediments to outside groups, private entities, 
from helping our veterans and even helping the families of our 
active duty men and women, because there are impediments in the 
law to them being able to help, and I will give you an example.
    We had a van offered to our outpatient clinic a couple 
years ago, after we had the wreck, people lost their lives, and 
a new van was offered, but there was an impediment to being 
able to accept that van.
    So anything that you can do, Dr. Casscells, on your way 
out? Dr. Kussman? We are asking for you to share with us any 
impediments to the private sector, that really wants to help 
our veterans and to help our military families, from being able 
to help. There are impediments and we need to eliminate those 
as we pass this bill from year to year so that everybody that 
wants to help is not prohibited by a dumb law.
    If there is a reason for it, we will back off. But if it is 
just some illogical problem, we want to get rid of it. So help 
us, just send us any ways you think that people are prohibited 
from helping our veterans and our military families.
    Thank you, Mr. Chairman.

                        NETWORK OF CARE WEBSITE

    Mr. Farr. You just reminded me, I would like to also refer 
you to a Web site, www.networkofcare.org. It has been brought 
to my attention by our local doctors.
    This organization is putting together on the Web all of the 
information, county-by-county, in the United States and it is 
contracted for by the local governments to put together, for 
example, if you were dealing with PTSD, all of the PTSD 
services that are available in that county and all of the 
funding that comes from it, both private sector and public 
sector, the support community out there to handle it, and 
pertinent legislation at the state and federal level that would 
relate to it. And they even have ability for case management, 
where a personal file can be done.
    The concept here was that as you have soldiers going back 
home who know the DOD health care delivery system and they have 
to go to a place to get it or a VA clinic that they might be 
assigned to, but that may be miles, miles and miles away, that 
you could actually give them a portfolio when they leave and 
say, ``By the way, in your own community, here is what is 
available.''
    I think it is an incredible disclosure tool, because often 
in cases, as you know, that community of care is sometimes the 
best and families have no idea that there are support groups 
out there.
    I have had parents come in to me with children with 
diabetes and not even knowing that we have this huge network of 
families with diabetic kids who have learned how to handle 
that.
    And I want to provide that kind of same service for the 
soldiers.
    Dr. Kussman. We are aware of this and there is dialogue 
going on about how to best utilize this across the continuum of 
care. Certainly, if nothing else, it makes people aware of 
where they could go locally for services. It doesn't mean 
necessarily we would pay for it there, but that is a separate 
issue.
    At least they know that they have someplace and they may 
have their own insurance or something else from work. The 
National Guard and Reserve, when they get out, they would know 
where to go quickly.
    Mr. Farr. Well, if you are having a shortage of health care 
providers in areas, professional licensed people that could be 
counselors for PTSD, it seems to me that you have now got 
access to a civilian licensed community that might be in your 
backyard.
    Dr. Casscells. Sir, I will make sure this is in our 
national resource directory and we have several similar Web 
sites, afterdeployment.org, health.mil, militaryonesource.com, 
and we will make sure that networkofcare is featured on those 
with a link, establish a link.
    Mr. Farr. I hope that is helpful to you.
    Well, thank you very much, folks, for your professional and 
public service and career, and thank you for coming today.
    The meeting is adjourned.
                                         Wednesday, April 22, 2009.

                 BASE POSTURE AND SUPPLEMENTAL REQUEST

                               WITNESSES

WAYNE ARNY, DEPUTY UNDER SECRETARY OF DEFENSE, INSTALLATIONS AND 
    ENVIRONMENT
KEITH E. EASTIN, ASSISTANT SECRETARY OF THE ARMY, INSTALLATIONS AND 
    ENVIRONMENT
B.J. PENN, ASSISTANT SECRETARY OF THE NAVY, INSTALLATIONS AND 
    ENVIRONMENT
KATHLEEN I. FERGUSON, DEPUTY ASSISTANT SECRETARY OF THE AIR FORCE 
    (INSTALLATIONS) FOR KEVIN W. BILLINGS, ACTING ASSISTANT SECRETARY 
    OF THE AIR FORCE, INSTALLATIONS, ENVIRONMENT AND LOGISTICS

                       Statement of the Chairman

    Mr. Edwards [presiding]. Good morning. I would like to call 
the subcommittee to order. And I want to welcome each of the 
secretaries here. Secretary Arny, Secretary Easton, Secretary 
Penn, Secretary Ferguson, thank you all for being here.
    Zach, we found out Mr. Billings' airplane lost pressure at 
37,000 feet last night, so he is somewhere between St. Louis 
and Washington, DC.
    Mr. Arny. And we are all upset. We forgot that----
    Mr. Edwards. That is right. That is a new one.
    Mr. Arny. I lost pressure in my car on the way to work.
    Mr. Edwards. Absolutely. I will tell you.
    Please, Secretary Ferguson, please tell Secretary Billings 
we understand, and just glad that no one was hurt. We 
understand it was military aircraft, that no one was hurt.
    Ms. Ferguson. No one was hurt. It landed safely. The 
aircraft is being repaired now. And he is on another airplane 
on his way back right now.
    Mr. Edwards. That is good to hear.
    Well, again, I want to welcome all of you to our hearing on 
the Department of Defense's ongoing implementation of the 2005 
Base Realignment and Closure round. BRAC 2005 became law on 
November 9, 2005.
    The department has until September 15, 2011, to complete 
all of the required actions, as you well know.
    The cost of this round--at least the cost that is being 
funded through the BRAC account--is $32 billion, according to 
the current information that we have. And I believe that is up 
from the initial estimate of BRAC somewhere in the $19 billion 
range.
    I have two major concerns I would like to address at 
today's hearing. The first concern is whether the department 
can, in fact, complete all of the required closures and 
realignments by the legal deadline. This BRAC round has been 
variously described as the biggest, most complex and most 
costly round ever implemented.
    Clearly, this BRAC round was much more than about saving 
money. It was about executing a transformation of the military. 
A number of very difficult actions will be pushing right up 
against the deadline.
    The second concern I have, related to the first, is whether 
the deadline can be met wisely and effectively. What I mean is 
this. Can we meet the deadline without cutting corners on 
facilities that our troops and families need? Can we do it 
without paying exorbitant premiums to contractors to speed up 
construction? Are we going to satisfy the mere legal 
requirements while leaving a tail of expenditures to be funded 
through the regular MILCON appropriation or other accounts?
    A number of GAO reports on BRAC have been released in the 
past 2 years. The basic theme of all of these reports could be 
described as costs underestimated, savings over-estimated.
    Not only were the savings underestimated, but some of the 
savings could best be described as theoretical. But as we all 
know, however, the costs are very real.
    We have reason to believe that some of this cost is coming 
at the expense of other pressing military infrastructure needs. 
The department is committed to a number of major initiatives 
with high military construction costs, such as growing the 
force and realignment of the Marines from Okinawa to Guam. 
Unlike BRAC, however, these actions are not mandated by law.
    Our worry and our concern is that, under current economic 
and fiscal conditions, BRAC could end up crowding out other 
needed investments for the next 2\1/2\ years. We also must not 
forget that we still have a large unfunded obligation to clean 
up and dispose of military properties that were closed during 
the previous four BRAC rounds, going back to 1988.
    Is that correct? Was the first BRAC round in 1988?
    According to the 2007 Defense Environmental Programs 
Report, the total cost to complete cleanup at these sites is 
nearly $3.5 billion. And I have not seen that number going down 
in recent years.
    I am very pleased that our witnesses are here today. Since 
you bear the burden of implementing BRAC, I am interested in 
hearing your frank assessments of the challenges you face and 
how the services are meeting these challenges.
    Before I introduce our witnesses, let me turn to our 
ranking member, Mr. Wamp, for any opening remarks that he would 
care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Mr. Chairman, thank you for being punctual and 
efficient yourself. And welcome back here after our Easter work 
period. I just traveled 4,000 miles in 17 days all across the 
state of Tennessee in my Volkswagen, so I have got a whole new 
perspective of life. [Laughter.]
    I want to thank our witnesses for coming, and those that 
tried to get here.
    As you know, Mr. Chairman, you were very cooperative as we 
raised this issue over the last 2 years on whether the money 
for BRAC to close out by 2011 was in place. And we did the very 
best we could to provide the resources. I think your two 
objectives of the hearing today are entirely appropriate.
    I would even add a third. And that is to make sure that the 
monies that we have dedicated have been spent efficiently to-
date, so that as we continue to work towards some new 
timelines--obviously, I read the report showing that we do not 
expect most of these sites to meet their target goals in terms 
of finishing out the BRAC realignment on schedule--but to make 
sure that as we put additional resources into BRAC, that the 
money is being spent as efficiently and as effectively as 
possible.
    I do think you are right on target about the long-term 
obligation of the cleanup efforts, because I think many times, 
from my experience in Tennessee, that is just punted down the 
field. And frankly, the ongoing cost of maintaining these 
facilities continues to climb. And the cleanup is few and far 
between, so to speak.
    So, I think this is an important hearing. Even though it 
might not be the highest profile hearing that we have this 
spring, it is an important hearing on an important objective. 
And I do think the whole BRAC process, Mr. Chairman, is one 
that the government can point to for true reform.
    There are very few processes that government can actually 
say, this works. Because everybody talks about government 
reform, but there is very little reform of the government. The 
government just grows. At every level it grows, but 
particularly in Washington.
    And actually, BRAC, as a model, if we do it right and make 
sure it is efficient and accountable, is a good process for an 
objective look at how to reform a host of other programs. And 
that is why BRAC is important, because this is sort of a 
benchmark as to whether or not the government can ever reform 
itself, or clean itself up, or make itself more efficient. And 
there are a host of federal agencies that could learn from the 
BRAC model, as long as we have a good story to tell.
    And I thank you very much, and look forward to the 
testimony.
    Mr. Edwards. Mr. Wamp, thank you for your comments. And I 
think your points are well taken in terms of our need to focus 
on the efficient use and wise use of the BRAC dollars, and help 
us apply that to future BRAC rounds and lessons learned.
    For the sake of time, I am going to forego the long 
introduction. With the exception of Secretary Ferguson, each of 
you has been before this committee multiple times.
    Again, I thank you.
    I would note for the record that Assistant Secretary Penn 
is also the Acting Secretary of the Navy. And we welcome you 
back.
    I would like, on a personal note, to thank Secretary Eastin 
for your long and distinguished service to our country, to our 
military and the United States Army. I know that Monday is, I 
believe, your last day in your present position. And I have no 
doubt you will continue to find other ways to serve our 
country.
    But I would be remiss if I did not personally take the time 
to thank you, Secretary Eastin, for your incredible work on 
behalf of our country and our Army soldiers and their families. 
You have made a real difference, and I have seen that first 
hand on multiple occasions with your hard work.
    Mr. Wamp. Hear, hear.
    Mr. Edwards. Secretary Arny, we are honored to have you 
here. And as deputy undersecretary, let me begin with you, and 
then we will follow with people on down----

                        Statement of Wayne Arny

    Mr. Arny. I would be happy to.
    Chairman Edwards, Mr. Wamp and distinguished members of the 
subcommittee, I appreciate the opportunity to appear before you 
today to address the Department's implementation of the BRAC 
Commission's decisions.
    As previously discussed with this committee, BRAC 2005 
effort is the largest round undertaken by the Department. And 
we continue to monitor BRAC implementation to ensure we are 
meeting our legal obligation.
    Further, the Administration, as before, will request 
sufficient funding to enable the Department to continue its 
efforts to meet the requirements of the BRAC process and be 
completed by September 15, 2011.
    Implementation of this round is an exceedingly complex 
undertaking, as you have mentioned, not merely as a function of 
its magnitude, but to the largest extent, as a function of the 
original goal established for this round. The BRAC 2005 would 
focus on the reconfiguration of operational capacity to 
maximize warfighting capability and efficiency.
    Focusing on operational capacity required that we 
appropriately assess the increased military capabilities we are 
achieving through these recommendations. We accomplished that 
requirement and, through BRAC, are significantly enhancing this 
capability.
    For example, in the largest operational Army BRAC movement, 
the Army plans to build three brigade combat team complexes, a 
combat aviation brigade complex and a division headquarters at 
Fort Bliss, Texas, to accommodate the 15,000 soldiers and their 
families who are being relocated there.
    The closure of Naval Air Station Brunswick is another 
example. This action will allow the single-siting of the East 
Coast Maritime Patrol community at NAS Jacksonville, while 
reducing operating costs. Construction is moving ahead as 
planned.
    Besides these individual actions, the key component of this 
BRAC round was a goal to rationalize medical infrastructure to 
address the transformation we have seen in health care, and to 
adapt our facilities to address the continuing change in 
warrior care.
    We were able to realign two of our major military medical 
markets, San Antonio and the National Capital Region. These 
address a critical need to realign and consolidate key clinical 
and clinical research capabilities while addressing serious 
facility modernization requirements.
    In San Antonio, the Department is consolidating inpatient 
service into a recapitalized Brooke Army Medical Center while 
replacing the aging Wilford Hall with a state-of-the-art 
ambulatory outpatient center.
    In the National Capital Region, we are closing the aged and 
degrading Walter Reed and transferring its services to both an 
expanded Bethesda and the new community hospital at Fort 
Belvoir. In addition, the medical center at Andrews will be 
transformed into a clinic. This allows DoD to forego the cost 
of renovating Walter Reed, and instead focus its resources to 
realign the active duty beneficiaries to the remaining 
hospitals in line with changing demographics.
    Because these transformations required facility closures as 
well as restructuring, we could not have been--these could not 
have been accomplished efficiently without the authority 
provided by BRAC.
    BRAC 2005 also calls for the transfer of installation 
management functions to create 12 joint bases from 26 separate 
bases. The Department is using this opportunity to create 
conditions for more consistent and effective delivery of 
installation support at these sites, capitalizing on the fact 
that these bases either share a common boundary or are in close 
proximity.
    Consequently, the installation management functions and the 
delivery of installations support functions can be consolidated 
to ensure best business practices, while warfighting 
capabilities are preserved or enhanced.
    A Memorandum of Agreement for each Joint Base, signed by 
the affected service vice chief, is defining the relationships 
between the components and will govern the supporting 
components delivery of support at approved output levels--
something we have never done before.
    A governance framework, called the Joint Management 
Oversight Structure, allows for approval of variations to 
policy guidance, deviations to approved output levels, and 
dispute resolution.
    The supporting component--in other words, the lead 
component--will establish a joint base commander, who will be 
responsible for installation support to the supported component 
or components and the tenants. The deputy joint base commander 
will be from the supported or follower command. To-date, five 
of the 12 MOAs have been signed, and the 12 joint bases are 
being established in two phases, with full operational 
capability for phase one in October 2009, and phase two in 
October 2010.
    At FOC, both the total obligational authority and the real 
property will transfer from the supported component or 
components to the supporting component. And if you want, we can 
talk about that at greater length in the hearing.
    As I said, and as you mentioned, these are complex 
recommendations, and we recognize the unique challenges 
associated with their implementation, particularly for those 
recommendations where synchronization is required to manage 
interdependencies with other initiatives.
    To provide necessary oversight and to apprise senior 
leadership whenever issues require attention, we 
institutionalized an implementation execution oversight 
program. We do come up with good titles, I thought----
    [Laughter.]
    The recent GAO report acknowledged that this is a positive 
step in oversight. This level of review allows our managers to 
explain actions underway, to mitigate the impacts of problem 
issues.
    The recently published GAO report also acknowledges that 
the Department has made steady progress thus far in 
implementing BRAC 2005. There has been a great deal of concern, 
as you mentioned, about the increased costs of BRAC 2005.
    It is important to note that almost 70 percent of the BRAC 
2005 program supports military construction requirements, 
compared to 33 percent experienced in previous rounds. This is 
because in this round, the Department decided to use new 
construction versus renovated space, with existing space 
diverted to other needs, to accommodate changes in unit sizes, 
functions or responsibilities by increasing facilities, 
changing configurations or building additional facilities, and 
to accept inflation factors exceeding previous planning 
factors.
    Finally, it is our policy that every practical 
consideration shall be given to implementing DoD actions that 
seriously affect the economy of a community in a manner that 
minimizes the local impact. To that end, the Department 
provides economic adjustment assistance through its Office of 
Economic Adjustment, or OEA, to help communities who have 
decreases--and in this case, in this round, increases--to help 
them help themselves use the combined resources of federal, 
state and local governments and the private sector.
    Regarding prior BRAC disposal and redevelopment, the 
department has used the full range of transfer and conveyance 
authorities to dispose of real property made available. 
Property disposal is complete at 205 out of 250 prior BRAC 
locations where property became available for disposal. And 
local redevelopment efforts, in turn, have resulted in the 
creation of 143,700 jobs, more than offsetting the 129,600 
civilian jobs that were lost across 73 prior BRAC locations 
where OEA is monitoring redevelopment activity.
    As of December 2008, our last data, we have disposed of 
over 367,000 acres of the 422,000 or so acres at these legacy 
locations, leaving only a little over 55,000 acres left to go. 
When we exclude leases in furtherance of conveyance, which will 
be transferred in many cases when cleanup is complete, only 
34,000 acres or so remain.
    In closing, Mr. Chairman, I sincerely thank you for this 
opportunity to highlight the Department's BRAC efforts.
    [The prepared statement of Wayne Arny follows:]

    [GRAPHIC] [TIFF OMITTED] T0526B.139
    
    [GRAPHIC] [TIFF OMITTED] T0526B.140
    
    [GRAPHIC] [TIFF OMITTED] T0526B.141
    
    [GRAPHIC] [TIFF OMITTED] T0526B.142
    
    [GRAPHIC] [TIFF OMITTED] T0526B.143
    
    [GRAPHIC] [TIFF OMITTED] T0526B.144
    
    [GRAPHIC] [TIFF OMITTED] T0526B.145
    
    [GRAPHIC] [TIFF OMITTED] T0526B.146
    
    [GRAPHIC] [TIFF OMITTED] T0526B.147
    
    [GRAPHIC] [TIFF OMITTED] T0526B.148
    
    [GRAPHIC] [TIFF OMITTED] T0526B.149
    
    [GRAPHIC] [TIFF OMITTED] T0526B.150
    
    [GRAPHIC] [TIFF OMITTED] T0526B.151
    
    [GRAPHIC] [TIFF OMITTED] T0526B.152
    
    [GRAPHIC] [TIFF OMITTED] T0526B.153
    
    [GRAPHIC] [TIFF OMITTED] T0526B.154
    
    Mr. Edwards. Thank you, Secretary Arny.
    Secretary Eastin.

                      Statement of Keith E. Eastin

    Mr. Eastin. Thank you, Mr. Chairman, Mr. Wamp and members 
of the committee.
    I will try to be brief.
    The Army has 102 specific BRAC actions that are our 
responsibility, and another 11 that were business plans that we 
manage.
    We are now 3\1/2\ years into this process. And I think I 
can count firmly by saying we have 2 years, 4 months and 24 
days before September 15, 2011. [Laughter.]
    As you mentioned, unfortunately, I will not be around to 
see the end of----
    Mr. Edwards. And we regret that.
    Mr. Eastin. We have a very carefully orchestrated plan and 
group that runs our BRAC program. And all of these projects 
are, as announced, on schedule.
    Since I have been here, I have asked the question: Who are 
we kidding? We are not going to get all of this done by 2011.
    And we ask it, and I ask it, virtually every couple weeks. 
Do we know of any of BRAC actions that are not going to make 
the deadline? And the answer is ``no.'' They will all make 
September 15, 2011, in the Army.
    We all know that something is likely to go on between now 
and 2 years from now, but we do not see anything specifically. 
My guess is, one of the AFRCs might slip a little bit, or 
something like that. But we do not see that right now.
    And we are in the process, as you know, of closing 387 
National Guard and Reserve Centers, and at the same time, 
building 125 Armed Forces Reserve Centers that will encompass 
those activities abroad.
    We are--as Wayne has indicated, Fort Bliss is growing 
vastly. We are basically tripling its size. Fort Belvoir is 
doubling in size, and adding the National Geospatial Agency out 
there will bring 8,500 new people to it alone, plus the new 
Dewitt Army Hospital, which will supplement the Bethesda 
complex.
    All of that is on time, on schedule, and I would like to 
say under budget. Budgets will now and then change, but--we are 
on track to complete all of it.
    We got into environmental restoration. Of course, the 
disposition of property from the installations we were closing, 
we would--it is our goal to move this property within 6 months 
after a request from an LRA or land, local reuse authority. And 
we are trying to do our best to take the property disposal 
aspect of this and then put it into effect.
    Standing in the way of that, of course, is that most of 
these installations, in one way or another, are subject to some 
contamination, either something fairly benign like a 
corporation yard, to something where we have unexploded 
ordnance and have to clean up before we turn it over.
    Everything, I am happy to report, is on track. We think the 
scope has not been degradated in any way, to answer one of your 
questions.
    And as I say, crossing our fingers securely behind our 
back, September 15, 2011, will come and go with our successful 
completion of this. Thank you.
    [The prepared statement of Keith E. Eastin follows:]

    [GRAPHIC] [TIFF OMITTED] T0526B.155
    
    [GRAPHIC] [TIFF OMITTED] T0526B.156
    
    [GRAPHIC] [TIFF OMITTED] T0526B.157
    
    [GRAPHIC] [TIFF OMITTED] T0526B.158
    
    [GRAPHIC] [TIFF OMITTED] T0526B.159
    
    [GRAPHIC] [TIFF OMITTED] T0526B.160
    
    [GRAPHIC] [TIFF OMITTED] T0526B.161
    
    [GRAPHIC] [TIFF OMITTED] T0526B.162
    
    [GRAPHIC] [TIFF OMITTED] T0526B.163
    
    [GRAPHIC] [TIFF OMITTED] T0526B.164
    
    Mr. Edwards. Okay. Secretary Eastin, thank you very much.
    Secretary Penn.

                         Statement of B.J. Penn

    Mr. Penn. Mr. Chairman, Representative Wamp, members of the 
committee, I am pleased to appear before you today to provide 
an overview of the Department's BRAC program.
    Regarding BRAC 2005, we have moved swiftly from planning to 
execution since I last briefed you in March of 2007. All 59 led 
business plans are approved and underway, and our program is on 
track to fully meet the September 15, 2011, statutory deadline.
    In total, the Department awarded 85 of the 118 BRAC 
construction projects with a combined value of $1.4 billion. 
Eighteen projects worth $256 million are on track to be awarded 
this year. At the end of the fiscal year 2008, the Department 
has closed 43 percent of the BRAC 2005 properties slated for 
closure.
    One success story I would like to highlight comes from New 
Orleans, which still struggles to recover from the aftermath of 
Hurricane Katrina.
    We entered into a 75-year leasing agreement with the 
Algiers Development District, ADD, in September of 2008. In 
exchange for leasing 149 acres of Naval Support Activity New 
Orleans, the headquarters, Marine Forces Reserve, will receive 
approximately $150 million in new facilities. Demolition began 
recently, and we have established temporary quarters for the 
commissary, so that the military personnel, retirees and their 
families still have access to the quality of life service 
during construction. We continue to work with ADD to ensure 
this partnership's successful outcome.
    Our remaining environmental liabilities for BRAC 2005 are 
substantially less than in prior rounds of BRAC. We have spent 
$148 million in cleanup through fiscal year 2008. We attribute 
this to the relatively few numbers of closures, the absence of 
major industrial facilities and the extensive environmental 
work that the Department has accomplished over the past several 
decades.
    Financially, we continue to control costs, keeping cost 
growth down to a modest 2 to 2\1/2\ percent per year.
    Our overall execution rate is nearly 90 percent, a 
significant improvement over the same period last year, and 
further evidence of the shift from planning to accelerated 
implementation.
    We are also on track to obligate over 90 percent of our 
fiscal year 2009 funds by the end of September. We appreciate 
the efforts of this committee, which contributed directly to 
our success by providing these funds early in the fiscal year.
    Although we are on track to meet the statutory deadline, we 
do face some challenges. Seven major construction projects 
require complex site approvals and operational certifications 
from the DOD Explosive Safety Board. And we also have 
correctional facilities that require certification before 
occupancy. We are monitoring construction closely, so that the 
projects complete in time to conduct the necessary 
certifications.
    With respect to Legacy BRAC, the Department has achieved a 
steady savings rate of approximately $2.7 billion per year 
since fiscal year 2002. At the end of fiscal year 2008, we 
disposed of 93 percent of our real properties slated for 
closure in the first four rounds of BRAC.
    Many factors play into developing a conveyance strategy, 
including environmental mitigation, indemnity and liability 
considerations and the financial capacity of recipients to 
manage or develop the property. We have used a variety of 
disposal methods, including the Economic Development 
Conveyance, EDC, that was specifically created for BRAC 
properties.
    We have conveyed 91 percent of Navy real property at no 
cost. From the remaining 9 percent, we received over $1.1 
billion in revenue through a variety of conveyance mechanisms, 
nearly all of it since fiscal year 2003. Since then, we have 
used these funds to accelerate cleanup and finance the entire 
prior BRAC effort, including caretaker costs from fiscal year 
2005 through fiscal year 2008.
    Despite our success in using property sales to augment 
cleanup and disposal and recover value for taxpayers, future 
revenues are very limited. We resumed our request for 
appropriated funding last year.
    It is also our experience that EDCs do not necessarily spur 
economic redevelopment any faster than traditional conveyance 
methods. Some communities that receive no-cost EDCs during a 
more robust economy have not developed the property, or have 
yet to realize the benefits of having property on the tax 
rolls.
    Thank you for the opportunity to testify before this 
committee. And we look forward to answering your questions.
    [The prepared statement of B.J. Penn follows:]

    [GRAPHIC] [TIFF OMITTED] T0526B.165
    
    [GRAPHIC] [TIFF OMITTED] T0526B.166
    
    [GRAPHIC] [TIFF OMITTED] T0526B.167
    
    [GRAPHIC] [TIFF OMITTED] T0526B.168
    
    [GRAPHIC] [TIFF OMITTED] T0526B.169
    
    [GRAPHIC] [TIFF OMITTED] T0526B.170
    
    [GRAPHIC] [TIFF OMITTED] T0526B.171
    
    [GRAPHIC] [TIFF OMITTED] T0526B.172
    
    [GRAPHIC] [TIFF OMITTED] T0526B.173
    
    Mr. Edwards. Thank you, Secretary Penn.
    Secretary Ferguson, thank you again for being here to fill 
in for Secretary Billings, who lost the pressure on his plane 
at 37,000 feet on the way back to Washington last night.
    We are glad you are here, and would like to recognize you 
now for your testimony.

                   Statement of Kathleen I. Ferguson

    Ms. Ferguson. Thank you. And he, again, sends his apologies 
for not being here. He spent the last two days in San Antonio 
visiting Fort Sam Houston and Lackland Air Force Base for all 
the BRAC recommendations. So, he is going to come in with a 
fresh look on the ground. And unfortunately, he was unable to 
make it this morning.
    Mr. Edwards. I understand. Thank you.
    Ms. Ferguson. Mr. Chairman, Mr. Wamp, members of the 
committee, thank you for this opportunity to provide an update 
on the Air Force's efforts in support of Base Realignment and 
Closure and our implementation progress to-date.
    More than 42 months ago, the recommendations of the BRAC 
2005 Commission were approved. Today, we find ourselves a mere 
29 months away from reaching the commission-mandated completion 
date of September 15, 2011. While we still have much more work 
to do, I am confident in informing the committee that the Air 
Force BRAC implementation efforts are on track, on time and on 
budget.
    BRAC 2005 resulted in seven Air Force installation closures 
and 59 realignments affecting 122 installations. To achieve 
these closures and realignments, the Air Force must execute 
more than 410 separate implementation actions. This complex 
effort involves more than just bricks and mortar. It includes 
military construction, operations and maintenance, 
environmental reviews, training and the movement of people and 
things.
    Mr. Billings' written statement, which had previously been 
provided to the committee, outlines in detail two BRAC 
undertakings in San Antonio which illustrate the complexity of 
the Air Force BRAC program. I will not go into those today in 
the interest of time, but these are the largest efforts the Air 
Force has undertaken in the San Antonio area, with the TRICARE 
Management Activity for SAMMC and or the MEtC. And I will be 
happy to talk about those in more detail.
    During past testimony, the Air Force has also stressed its 
strong support of the BRAC 2005 Commission joint basing 
recommendations. I can tell you the Services and DOD have been 
working hard to implement one of BRAC's most transformational 
initiatives, and are working through many complex issues to 
make joint basing work.
    The Air Force wants to personally thank Mr. Wayne Arny for 
his leadership over the last year in guiding all the services 
in the implementation of the BRAC recommendations. We have made 
tremendous progress and are now in the process of reviewing and 
coordinating numerous implementation plan details and formal 
memorandum of agreement for each joint base.
    The Air Force has a long and successful history of working 
towards common goals in a joint environment, and joint basing 
is no different.
    Mr. Chairman, the last item I would like to address is the 
BRAC recommendation to bed down the Joint Strike Fighter, 
integrate a joint training center at Eglin Air Force Base. The 
last 2\1/2\ years has demonstrated the use of BRAC to bed down 
a weapons system still in development is very difficult.
    In the case of the Joint Strike Fighter, the noise profile 
of the aircraft was unknown at the time of the BRAC decision. 
And issues identified through the National Environmental Policy 
Act process required further study, which are now underway. The 
result of this analysis will help us identify ways to operate 
the aircraft and mitigate the potential noise impacts on the 
community as we bed down this important weapon system at Eglin.
    At this time, Mr. Chairman, I will finish with a short 
execution overview.
    BRAC 2005 impacts more than 120 Air Force installations. 
Whether establishing the F-35, Joint Strike Fighter initial 
training site at Eglin Air Force Base in Florida, closing Kulis 
Air Guard Station in Alaska, or transferring Pope Air Force 
Base, North Carolina, to the Army, the Air Force community as a 
whole, Active, Guard and Reserve, will benefit from the changes 
BRAC directed.
    The Air Force's total BRAC budget is approximately $3.8 
billion, which the Air Force and DOD have fully funded. Our 
largest costs are for military construction projects, totaling 
more than $2.6 billion.
    Operations and maintenance expenditures are just over $900 
million. And there are other BRAC expenses as well, which 
include information technology, equipment procurement and Air 
Force Reserve and Air National Guard training, to name a few, 
at $142 million. Other BRAC program expenses include $136 
million for military personnel expenses and environmental 
planning and cleanup.
    The Air Force's primary focus in the 2010 program is in 
budget areas other than Military Construction, because we are 
now focused on personnel-related issues, relocating assets and 
functions, outfitting new and renovated facilities and 
procuring those end-state necessities, continuing environmental 
actions to realign and integrate the total force.
    Thousands of man-hours have been spent on planning, 
coordinating, meetings, visiting bases and executing the more 
than 410 actions we must implement to complete BRAC 2005, and 
we have many more ahead. The good news is, Mr. Chairman, we 
will be done no later than September 15th, and we will have 
executed our program within budget.
    This concludes my formal remarks, and I thank you and the 
committee for your time and opportunity to provide you this 
update. And I look forward to your questions.
    [The prepared statement of Kevin W. Billings follows:]

    [GRAPHIC] [TIFF OMITTED] T0526B.174
    
    [GRAPHIC] [TIFF OMITTED] T0526B.175
    
    [GRAPHIC] [TIFF OMITTED] T0526B.176
    
    [GRAPHIC] [TIFF OMITTED] T0526B.177
    
    [GRAPHIC] [TIFF OMITTED] T0526B.178
    
    [GRAPHIC] [TIFF OMITTED] T0526B.179
    
    [GRAPHIC] [TIFF OMITTED] T0526B.180
    
    [GRAPHIC] [TIFF OMITTED] T0526B.181
    
    [GRAPHIC] [TIFF OMITTED] T0526B.182
    
    [GRAPHIC] [TIFF OMITTED] T0526B.183
    
    [GRAPHIC] [TIFF OMITTED] T0526B.184
    
    Mr. Edwards. Thank you, Secretary Ferguson.
    And thank you again, all.
    For the record, your complete statements will be submitted 
and made part of that record.
    You each will begin with the 5-minute rule, and we will be 
able to do multiple rounds here and cover a lot of the 
subjects. You will begin with me.
    You answered my first question. But for the record, each of 
you--is this correct--each of you has said that your respective 
service will meet the BRAC time deadline. Is that correct?
    Mr. Eastin. Yes, sir.
    Mr. Penn. Yes, sir.
    Mr. Edwards. Okay. So, that answers the follow-up question 
I was going to ask.
    Do any of you see any need to provide exemptions from BRAC 
or extend the BRAC deadline?
    Mr. Edwards. The answer would be ``no.'' For the record, 
all have answered ``no.''

                        COST ESTIMATES FOR BRAC

    Let me ask this, then. In some ways, it is like fitting a 
size 12 foot into a size nine shoe. I know we have had 
challenges between some of the original cost estimates for 
BRAC.
    It seems that initially, we went from around $19 billion 
estimate to about $31 or $32 billion. It seems like we have 
locked in on that $32 billion figure for several years.
    Could I ask each of you, has your respective service or 
Secretary Arny, from your oversight position at DOD, have you 
seen projects, or would it be possible to get a list of 
projects, that were either pushed outside of the BRAC account 
or pushed outside of the future year defense plan timeline in 
order to make the BRAC numbers stay within the estimates of the 
last year or two?
    Mr. Arny. Let me----
    Mr. Edwards. Secretary Arny.
    Mr. Arny. Let me respond to that. I know of no projects 
that were pushed out that were necessary for BRAC, that we may 
have decided that a project was unnecessary for one reason or 
another, and it is not out in the out years, so it was chopped 
completely.
    The----
    Mr. Edwards. So, you say not necessary. There might have 
been projects that perhaps our base commanders wanted or 
supported, but maybe the Department decided it was not 
absolutely necessary?
    Mr. Arny. Absolutely.
    Mr. Edwards [continuing]. As part of the BRAC----
    Mr. Arny. I remember one in particular. There were a couple 
that flashed through my mind. But one was the lack of 
communications between Crane and China Lake. We were supposed 
to build, like, 40 weapons storage bunkers. And we, in Navy--
when I was in Navy at the time--sent a tiger team out to every 
base to scrub the recommendations, and found lots of errors.
    In this case, the question was asked of Crane--they thought 
the question was: How many bunkers do you have? And they said, 
40-something. And the real question that was being asked was: 
How many do we need to build at China Lake for this function? 
And it was five, or six or something.
    And so, those, if you look back at the record, there were 
40-something out of five or six.
    So, we scrubbed. We had places where somebody wanted a dog 
kennel. A dog kennel was not required. Somebody wanted to--not 
that humans are frail--but somebody wanted to upgrade a police 
station that did not require being upgraded. So, there were 
those kinds of changes.
    And I assume you will ask questions about COBRA. But our 
initial estimates were based off of COBRA, which is not as, you 
know, as confirmed, not a budgeting tool.
    And so, in the process of going from COBRA to actual budget 
plans, I think we have stuck pretty close, because once we got 
through that first year of planning, when we were actually 
putting engineers on the ground, what are soil conditions? What 
exactly is this building going to look like, and where is it 
going to sit? And we got decent estimates.
    And if you recall back then, inflation was going crazy at 
some of our locations. Once we got a handle on that, then I 
think our cost adjustments have been just pluses and minuses. 
And where there have been increases or decreases, we have 
included them in the budget. But relative to--I think we are 
at--according to my data, we are at $33.2, relatively, billion. 
The changes have been minor in the last couple of years.

                            LESSONS LEARNED

    Mr. Edwards. Okay. What I might, Secretary Arny, in my 
second round, is ask you about lessons learned. While you were 
not in your present position when the BRAC process began, 
perhaps--I would be interested in following up on Mr. Wamp's 
opening comments. I would like to find out what lessons you 
think we have learned.
    When you are doing a cost-benefit analysis and then making 
decisions based on that, obviously, there are serious 
implications if the original costs were around $19 billion, 
then they jump up to $32 billion. If you had the actual costs 
rather than the estimated COBRA costs initially, a number of 
these decisions might have been made differently, based on that 
additional----
    Mr. Arny. I would love to, because I do not think they 
would have, and I can explain why.
    Mr. Edwards. Okay. I would welcome that in the second 
round.
    Mr. Wamp.
    Mr. Wamp. Well, we will have a lot of questions. Some we 
may have to have you take with you and report back to us.
    But start on the big picture, because the testimony we just 
heard was all pretty positive, with a lot of forecasts that 
respective services were going to meet the September 15, 2011 
schedule.

                   SURVEYS AND INVESTIGATIONS REPORT

    But what I was talking about when I opened was the S&I 
report, surveys and investigations here, that point to issues 
that may lead to that not happening. Almost half of the 222 
business plans have varying degrees of risk of missing their 
deadline.
    Over half of the business plans have completion dates 
within the final 2 weeks of the deadline, which obviously is 
very little margin of error in terms of implementing a 2\1/2\-
year plan to meet those deadlines. And therefore, S&I believes 
that it will not be as rosy a picture on meeting those 
deadlines.
    And frankly, if this were anything other than the United 
States military sitting across the table having this versus 
what I just heard, we would have a field day at ripping you 
apart. But in this case, because the military has got an 
unbelievable record around the world of meeting deadlines and 
doing things right, I just want to know, is there any lack of 
continuity between what you are saying and what our 
investigators are telling us in terms of how tight these 
schedules are?
    It is probably yours, Secretary Arny?
    Mr. Arny. Yes, I would love to take a look at specific 
examples, which--you point to one thing that we often miss in 
this BRAC 2005 process, is that in this process, we had 
business plans. In prior BRAC rounds, we had no business plans. 
It was just turned over to the services, and they executed.
    So, there was no way for anybody to go in and track 
progress or by certain deadlines that we have now. And I can 
tell, having been on the Navy side, the process is painful, 
because you have got to lay down lots of requirements. And I 
and my current associates were in different positions and 
warred often over those business plans.
    We would have liked to have started earlier, once BRAC 2005 
hit. But we had extensive NEPA requirements to complete.
    So, in earlier rounds, we just went in. There was no DoD 
budget for it. Services just did it. As you heard earlier, we 
had less MILCON.
    And if you recall in the earlier rounds, the military was 
coming down, tremendous sizes. So we were just eliminating 
whole units, so that BRAC in many ways from the force movement 
was a lot easier than this round.
    You had rather large movements of people. And it--let me 
get back to your question. A lot of these are at the--we would 
have rather had them earlier, but because of our NEPA 
constraints and our planning constraints, we could not.
    We still believe we will make those deadlines. And I am 
constantly pushing the services and their chief engineers to 
get this stuff done earlier. And now that they are on a roll, I 
think a lot of those deadlines will come a little bit earlier.
    Mr. Wamp. And for our purpose, the conclusion of this 
report says, the unanimous view of BRAC program managers said 
that receiving fiscal year 2010 funds on time is going to be 
critical, if many project deadlines are going to be met.
    Obviously, last year we were working really hard, and the 
chairman did a great job of getting this bill done. But 
obviously, the flow of funds is going to be key to any of these 
goals being met.
    You cannot throw a schedule off 1 week, if over half of 
your business plans call for completion in the final 2 weeks 
without missing your deadlines. And they do not need to be 
arbitrary when you are trying to carry out a mission that other 
people are making plans on.
    Mr. Arny. Well, we do really appreciate the fact that this 
committee, especially, got this bill out. You are one of only 
two, if I recall. Right?
    Mr. Wamp. Right. I do not know if we are making a habit of 
it. [Laughter.]
    My time is about up, so I will come back to the other 
questions later. But----
    Mr. Edwards. Could I ask just----
    Mr. Wamp. Sure.

                             FIXED DEADLINE

    Mr. Edwards. Just for the record, I would like to hear your 
answer to Mr. Wamp's question about what are the consequences 
if this bill is passed after the October 1 deadline? Would 
there be any?
    Mr. Arny. It really affects this, because we have such a 
fixed deadline. In fact, it affects all of our military 
construction. You will not believe internally what hoops we 
jump through when we do not get the money until October, 
November, December, January.
    As you have seen in some years, it has come very late. And 
we are borrowing money from other projects and really doing 
all--expending all sorts of effort. And some things cannot get 
started.
    I think, fortunately, most of our stuff is started, so even 
with a continuing resolution, we would be okay. But it will 
hurt us. It will make life very difficult.
    Mr. Edwards. Would it make it--I do not want to put words 
in your mouth.
    Mr. Arny. It is not impossible.
    Mr. Edwards. Could it make it difficult, if not impossible, 
to finish a number of the key projects by the BRAC deadline, if 
you do not get your funding----
    Mr. Arny. Depending on how late. Frankly, because of the 
last--in my experience in this period of time as opposed to 
when I was doing this in the 1980s, we tend--because of the 
experience that we have had, we tend to put cushions in there, 
so that if the bill does not show up on the 1st of October--I 
mean, there are very few of us at the table who remember the 
1976 T, fiscal year 1976 T as a transition year, when we went 
from one July to one October, so that we could all--it did not, 
you know.
    So, we do put--we do put a cushion in there. So, depending 
on how late, if it is just a week or two, we might--it might 
not be a problem. But much later than that, it will be a 
problem.
    Mr. Wamp. Well, just one other quick question.
    Mr. Edwards. Mr. Wamp, for any additional questions----
    Mr. Wamp. Thank you. That was very good.
    Just one other quick thing on this round, and that is, the 
takeaway point from the morning here, obviously, that was one 
of them, for sure. Getting the money on time is huge. Is there 
another one, a big takeaway point for this morning for this 
committee?
    From any of you?
    Mr. Arny. I think----
    Mr. Wamp. Things we have got to get across?
    Mr. Arny. Stay the course. Yes, just stay the course. And 
we do not believe we need an extension at all. And that helps 
us keep it all in a box.
    Mr. Wamp. Got to have a deadline.
    Mr. Arny. Yes, sir.
    Mr. Wamp. I will wait for the rest. Thank you, Mr. 
Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. Thank you for having 
this hearing.

                                FORT ORD

    Congress is synonymous with BRAC for me. I arrived with a 
base closure at Fort Ord, 28,000 acres, probably the largest 
base ever closed. And I think I have spent every single day in 
the last 15 years in Congress dealing with that closure.
    Where deadlines are concerned on legacy bases, the Army 
never met any of them. So, it will be interesting to see if DoD 
meets deadlines in this round.
    I have some questions for Secretary Eastin in regards to 
the cleanup issues at Fort Ord, specifically the ESCA payment 
that we agreed to and the contract we made for cleanup. That 
last payment to FORA, which is the approximately $40 million, 
when will that be made? And will it be in full?
    Mr. Eastin. It was my understanding that it is complete. If 
that is not correct, I will get back to you.
    Mr. Farr. It is? All right.
    Mr. Eastin. And I am happy to report that one.
    Mr. Farr. So, the money is there.
    Mr. Eastin. There. It is out the door.
    Mr. Farr. Has the Army finalized its cleanup protocols with 
BLM on how the BLM land is to be cleaned? When I heard about it 
last summer there were still about a half a dozen outstanding 
issues between Army and BLM.
    Mr. Eastin. We are working through a couple other minor 
issues, but we are still, as you are well aware, constrained by 
the 800-acre-a-year burn that we are going to have on that land 
to clean up with the UXO out there.
    Mr. Farr. Can you give me a copy of the agreement, the 
latest one?
    Mr. Eastin. Yes, I will get that to you.
    Mr. Farr. Also, have you gotten into the cost of that 
cleanup? Are any of those funds set aside?
    Mr. Eastin. I really have not done the--we expense 
something like $250 million a year on cleanups. And to the 
extent that this programs, there will be funds for it.
    Mr. Farr. Well, that is the question. Is it----
    Mr. Eastin. The 800 acres a year for burning is the 
limiting factor.
    Mr. Farr. Has the Army set aside some money for that 
cleanup?
    Mr. Eastin. Yes.
    Mr. Farr. Can we get that detail?
    Mr. Eastin. I am going to get you those details as well.
    [The information follows:]

    The Army provided the final installment of $40 million on the Fort 
Ord Environmental Services Cooperative Agreement (ESCA) to the Fort Ord 
Reuse Authority on December 17, 2008.
    There is no formal agreement between the Army and the Bureau of 
Land Management (BLM). BLM's final comments and the Army's response to 
comment are documented in the Fort Ord Track 3 munitions and explosives 
of concern Record of Decision that was completed on May 27, 2008.
    Funding to continue cleanup of the range areas on Fort Ord will be 
included in the fiscal year 2010 budget request.

    Mr. Farr. Thank you. Thank you for your service.
    Mr. Eastin. My pleasure.
    Mr. Farr. With your retirement, we are going to miss you.
    Mr. Arny. Don't congratulate him too much.
    Mr. Eastin. No, I----
    [Laughter.]
    Mr. Arny. Keith may be----
    Mr. Eastin. I brought my Fort Ord map here with me. 
[Laughter.]
    And it is duly annotated from last year.

                            TREASURE ISLAND

    Mr. Farr. Mr. Penn, I would like to raise a couple of 
questions regarding the conveyance of Treasure Island in the 
San Francisco area.
    I understand the City of San Francisco put aside $700 
million and the developers have put up $500 million for 
infrastructure improvements at Treasure Island, and the city 
has offered the Navy a 50-50 profit sharing for revenues from 
the development.
    With this kind of offer, why hasn't the property been 
transferred?
    Mr. Penn. We estimated the property at $250 million. And 
that was substantiated by GSA. And the city has only offered 
us, I think $17.5 million for it.
    Mr. Farr. The purpose of this property is to do economic 
development, is it not?
    Mr. Penn. But they are not going to be doing economic 
development the way we see it. The houses are already there and 
just--there will be no business, which is required for the EDC.
    Mr. Farr. Who determines that?
    Mr. Penn. The courts will. We push back on it. The courts 
will determine if it will, in fact, meet the requirements for 
the creation of jobs.
    Treasure Island has houses. And the jobs--they want to make 
it into a----
    Mr. Farr. When the service pulls out, it is the 
responsibility of the local government to create a reuse plan, 
not the Navy to tell the locals how to use it.
    The local government----
    Mr. Penn. Given the land for nothing. We have certain 
requirements, as you well know, sir.
    Mr. Farr. Well, you have a----
    Mr. Penn. With a no-cost EDC, right.

                             INFRASTRUCTURE

    Mr. Farr. Yes. But that is not what my question is. There 
is a plan of what, about $1.2 billion. This has been promised 
to do infrastructure; that will provide jobs, and the city is 
offering a 50-50 profit sharing revenue. What problem is 50-50? 
That is pretty good.
    Mr. Arny. If I recall that--excuse me, because I was 
working for Mr. Penn doing this--that 50-50 is at the tail end 
after all the other people have been--we are not--the 
Department is not averse at all to profit-sharing 
participation. But the profit sharing at T.I., the last time I 
checked it--I do not know if it was changed--is at the very 
tail end, after everybody else gets something.
    Mr. Penn. After the developer and everyone else has their 
profit----
    Mr. Farr. But you transferred all of Fort Ord without those 
conditions as----
    Mr. Arny. Because there was an economic development for 
jobs.
    Mr. Farr. Right.
    Mr. Arny. And that means permanent jobs for----
    Mr. Farr. Well, I would argue, the permanancy of those Fort 
Ord jobs is questionable.
    Mr. Arny. Well, the plan----
    Mr. Farr [continuing]. Anyway.
    Mr. Arny. T.I. has gone through nine separate plans. And we 
have always been open--the Department and the Navy, when I was 
working there--to a no-cost EDC. We argued that, do a cost EDC. 
If it works out to be no cost, it is fine. But to do an EDC, 
which we are still doing lots of them, it requires permanent 
jobs. And housing components are not part of that.
    Mr. Farr. Yes, but the issue is the economics. Right now 
you estimate the value of the land at $250 million. But paying 
that kind of money precludes building in public benefits. You 
cannot do it. You cannot do the low-income housing. You cannot 
do the set-asides for parks----
    Mr. Arny. Oh, yes, sir.
    I would argue you can, because we include that in the 
value. If you are doing public benefit conveyances, those come 
at no cost. If there are parks as part of the development, we 
based it on--we based the cost estimate--the appraisal, I am 
sorry--the appraisal strictly on what the city provided as the 
use, because we do not control the use of the property. It is 
the zoning authority that controls the use of the property.
    Mr. Farr. Well, I argue it would make a good EDC.
    Mr. Edwards. Thank you, Sam.
    Judge Carter.
    Mr. Carter. Thanks, Mr. Chairman. And thank each of you. It 
is good to see many of you again.

                            BRAC COMMUNITIES

    There are some GAO studies that show that some of the 
communities are located near the facilities that are gaining 
troups, are not on track for the construction of schools, 
housing and infrastructure required to accommodate arriving 
soldiers and their families.
    Considering that Secretary Gates has indicated that he 
intends to move many of the quality-of-life programs to the 
base budget, which have been funded through supplementals, how 
are the Services assessing whether all those services, other 
than BRAC headquarters and motor pools, will be in place, by 
September 15th of 2011?
    Are the communities going to be ready?
    Mr. Arny. Well, sir, in many cases, it depends on the 
community. If they have had plenty of notice, we are working--
the Office of Economic Adjustment, which works for me--has been 
providing loans--or not loans, I am sorry, grants--to all the 
communities surrounding these gaining bases, so that they can 
go through the planning process, not only for BRAC closure, but 
for an opening--I am sorry, for where BRAC is increasing the 
number of people there.
    And I know they are wrestling with some of these 
situations. I do not know of a particular one. If you have got 
some particular one, I would love to be able to go back and 
research that for you.
    Mr. Carter. I have heard knowledge that the communities are 
struggling at Bliss and at Carson, and I have spoken with some 
of the members of Congress, and they do indicate that some of 
the school districts are struggling to try to meet these 
issues.
    We have always had an issue about military construction 
money going to building schools, at least as far as the fort 
that I represent is concerned. We have had that issue, actual 
brick-and-mortar schools. I am just curious as to where we 
thought they were as far as the quality of life for our 
soldiers. Because that is what it is all about. We want them to 
come back home to a place where families can live.
    Mr. Arny. I believe that, with some exceptions, that we are 
in decent shape, but I will get back to you on particulars on 
that.
    [The information follows:]

    Working with the Economic Adjustment Committee (EAC), established 
under Executive Order 12788, as amended, to support the Defense 
Economic Adjustment Program, senior leaders from Office of Economic 
Adjustment, Office of the Deputy Under Secretary of Defense (Military 
Community & Family Policy), Army Headquarters, and U.S. Department of 
Education completed six site visits to a representative sample of 
mission-growth locations (Fort Benning, Fort Bliss, Fort Bragg, Fort 
Carson, Fort Drum, and Fort Riley) to better understand the specific 
education issues arising from mission growth; improve communication 
across cognizant Federal sources of assistance; and identify gaps and/
or lags in capacities to respond.
    Site visit findings and observations were completed and shared with 
the cognizant Federal agencies, Executive Offices of the President, 
Congress states, locals and local educational agencies and are posted 
at www.OEA.gov. The following represents some of the issues discussed:
    <bullet> School capacity. Some local educational agencies (LEAs) 
will face challenges providing facilities to accommodate student 
growth.
    <bullet> Consistent growth estimates. Communities and stakeholders 
would benefit from more consistent growth estimates from the Department 
of Defense.
    <bullet> Deployment impacts. Some LEAs and the supporting 
communities face challenges to assist dependents of deployed military 
personnel.
    <bullet> Reciprocity, recruitment, and other ``soft costs.'' 
Curriculum requirements and assessment levels vary from one state to 
another, presenting challenges to transferring military dependent 
students which often impact grade advancement, extra-curricular 
activities, and graduation. Furthermore, teacher certification 
requirements vary, impacting spousal employment.
    <bullet> Improve communications with military parents. 
Communications and outreach about educational resources could be 
improved, especially to military parents living off post.
    <bullet> Special education. Some locations appear to be receiving a 
higher than expected number of children with special education needs, 
which can generate unexpected demands for credentialed teachers, and 
higher than anticipated operating and facility costs.
    <bullet> Regional planning capacity. Some areas would benefit from 
additional resources dedicated to building regional responses to 
education growth challenges.

    Mr. Carter. I think it is important.
    Mr. Arny. I agree.
    Mr. Carter. I realize you have a deadline. You cut yourself 
2 weeks' slack. That is fair. Let us hope you make it. But the 
world has to also function to make life good for these 
soldiers. And it is to some extent our responsibility to make 
sure it is moving along.
    I am very proud of what the communities around my fort have 
done in staying ahead of the game on school infrastructure. But 
it is not that way everywhere.
    I think, in the way we view the Army today, that the 
families fight the wars, that we have got to be sure that we 
have got those people. If they are not moving in that 
direction, we need to be building fires under them.
    Mr. Arny. Well, we have--and I go back to my Navy 
experience, which was more on the ground. When we were doing 
housing, privatized housing at our bases, in most of our bases 
where we needed more schools, we could not build the school 
legally, but we could provide land, which we did, in the local 
school board.
    And on some of our bigger bases like Camp Pendleton, we 
actually have the schools on the base, provided by the local 
community.
    In one BRAC community in--I mean, not BRAC, but housing in, 
I believe it was Camp Lejeune, we actually built the school, 
but that is because the schools on base are DODEA schools, so 
that a housing privatization project actually built the school. 
So there are some problems with local laws, too, as well.
    Mr. Carter. I would like to ask another question, if I have 
time, Mr. Chairman.
    Mr. Edwards. You do. You have another minute.

                          BRIGADE COMBAT TEAMS

    Mr. Carter. General Helmick said that he would like to 
retain at least four BCTs in Europe for the purpose of meeting 
NATO obligations. However, the Army's plan called for drawing 
down two BCTs in Europe, and one IBCT in Korea. Secretary Gates 
made an announcement to cancel the activation of three of the 
Grow the Army BCTs.
    Can you talk about the long-term future attempt for 
overseas forces and plans to ensure adequate infrastructure 
will be available for them?
    Mr. Arny. Well, I will let Mr. Eastin talk to the BCTs, but 
I would like to follow on, too.
    Mr. Eastin. Yes, we have not made a decision on where those 
BCTs might be drawn from. But one thing that needs to be kept 
in mind here, we are not talking about drawing down the size of 
the Army. How it is organized, whether a BCT is there or not 
there, people, soldiers are still there. So they may be in 
different units.
    But drawing down a formal BCT is not going to draw down the 
number of soldiers, nor the number of soldiers we program for 
and their families. So, those--the support for them will be 
there.
    Mr. Arny. Let me go on to talk about planning. First of 
all, we are starting up a Quadrennial Defense Review. And that, 
I am fairly sure, will be one of the major questions asked.
    Also, from my shop, we have been looking around at the 
major combatant commands. And we are going to institute 
combatant command infrastructure master plans, which we will 
sit down, for instance, in European Command, with the EUCOM 
commander, with the Army, Navy and Air Force and Marine Corps, 
whoever is there, and the undersecretary for policy staff, and 
we will sit down, and we will create an infrastructure master 
plan, based off the QDR, because we do not want to make 
decisions based on policy, to find that people do not have 
barracks to go to, or the base was closed last year, or we need 
to open a new base.
    So that we have a master plan that is updated periodically 
in every region of the country. We do not have as formalized a 
process right now as we need to for the infrastructure. And we 
want to institute that.
    Mr. Edwards. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you very much.
    Let me thank all of you for your service. Particularly let 
me thank Secretary Eastin, who I understand will be ending his 
service very shortly.

                            BRAC COMMUNITIES

    I want to follow up on the line of questioning that Mr. 
Carter was asking, particularly about BRAC communities that 
will be upsizing.
    I would like to address these specifically to Secretary 
Eastin and Mr. Arny.
    Secretary Eastin, according to a letter that I got from you 
on April 7th of this year, you were projecting approximately 
3,535 net new school-aged children as a result of the BRAC 
personnel changes at Fort Benning, which is considerably lower 
than was anticipated, given the local school systems in the 
area projecting 6,840 new children.
    And in the Fort Benning area, you are talking about eight 
school systems, four of which are on the Georgia side of the 
Chattahoochee River, Fort Benning, and three of which are on 
the Alabama side, for a total of eight school systems.
    Fort Sill in Oklahoma is projecting 2,349 new students, 
Fort Bliss, 18,229, and Fort Bragg, 6,674. These are local 
school system projections. And I know that Fort Benning's 
projections are based upon collaboration with the Fort Benning 
authorities, as well as the local school districts.
    But your estimate is considerably lower than that, which 
causes a great deal of concern, particularly from Mr. Arny's 
testimony, with regard to the Office of Economic Adjustment, 
which really has responsibility for making these communities 
able to accommodate the DOD changes, particularly with school 
construction.
    What can we do? It seems as if the responsibility here is 
almost a matter of finger-pointing from one agency to another.
    In your testimony, Mr. Arny, you indicate that you will be 
looking toward the Transportation, Commerce, Education and 
Agriculture Departments for help. But somebody has to bite the 
bullet. And it seems as if the Department of Defense has a 
moral responsibility to these communities, to help them 
accommodate the needs of our warfighters and their families 
when it comes to school construction.
    And if we expect, for example, in the Fort Benning area, 
6,680 or 640 new students, it would be a disservice to them and 
to their warfighter parents for us not to have those 
communities ready with schools in place.
    I understand you have a conference set for the fall to 
discuss some of these issues, but we have been talking about it 
for about 3 or 4 years in this subcommittee. In fact, I think 
in the authorization conference report, there was actually 
language authorizing some additional funds to do the planning 
on that. But you have not requested those additional funds in 
your budget submission for this year.
    So, I am very frustrated. And the communities that are 
being upsized are very frustrated. We would like some concrete 
action and some specifics on how we are going to fund the 
schools. Many of these will be off-base, and we need some help. 
And these communities are really almost at panic mode, 
particularly given the current economic environment.
    One, we need to get some kind of synchronization on the 
numbers. And two, we must decide how this is going to be paid 
for. I know the Office of Economic Adjustment did build schools 
when Kings Bay was constructed off the coast of Georgia. And 
they did schools and housing, as you indicate.
    But it seems to me that this is a much bigger problem than 
the Department of Defense is recognizing. It needs to be dealt 
with sooner rather than later.
    Can I get a response on that?
    Mr. Eastin. Let me talk to the number problem, as we 
remember from last year at this time, talking numbers.
    Our formula, which is basically 0.4 child per family, which 
has been around the department for many, many years, that was 
used as a basis to start with how many children would be 
generated by the increase in the size at Benning.
    Then the senior mission commander at the time sat down with 
the local community. And that is where the roughly 3,500 number 
came from, is taking our standard procedure for figuring out 
how many children are going to be there, and then fine-tuning 
it and getting down to the aegis of how many are expected here, 
how large are these family sizes, how many single soldiers are 
going to come, this sort of thing.
    But it was my understanding that there had been an 
agreement with the local community.
    Mr. Bishop. Right. The agreement that we got was the 6,839 
figure: 2,771 school-aged military, 1,096 government civilians, 
and 2,972 children of contractors. Those are the figures that 
both the local base people and the eight local school systems 
agreed upon.
    But, of course, when we sought to verify that we were both 
using the same figures, you came back with a much lower figure.
    My question is, with Fort Bliss and Fort Sill and Fort 
Bragg, are those figures low-balled also?
    Mr. Eastin. I do not think any of these are low-balled, to 
be honest with you. What we are trying to do here is to arrive 
at a number. Because these kids are our kids.
    Mr. Bishop. Exactly.
    Mr. Eastin. And we want to make sure they get educated.
    The larger problem is, how do you pay for that?
    Mr. Bishop. That is the question I am asking.
    Mr. Eastin [continuing]. If it is 20,000 out there.
    I do note from the New York Times this morning, which I 
read occasionally, that you are going to get about 10,000 new 
from a Kia plant. And everybody is happy as a clam about that. 
But I do not know what the arrangements are for Kia to pay for 
their kids.
    But these are, in large part----
    Mr. Bishop. But----
    Mr. Eastin [continuing]. They live on the economy and pay--
--
    Mr. Bishop. Yes, it is a little bit distant from Fort 
Benning. [Laughter.]
    Mr. Eastin. But no, in all seriousness, schools 
traditionally have been the responsibility of the local 
community and supported by the tax base.

                               IMPACT AID

    Mr. Bishop. We understand that. The Impact Aid program was 
added to ameliorate that but has been always underfunded. And 
it does not deal with a problem the size that is created by 
these BRAC upsizings.
    Mr. Edwards. I want to stick to the 5-minute rule. But let 
me add that we all know this is a significant issue, and we 
have been kicking this around for a couple of years. We have 
not seen really any change in policy from the Department of 
Defense.
    But it seems to me the problem is, they get Impact Aid, 
Part A, Part B money after the kids are in school, but no help 
with construction money up front. And there ought to be some 
way for us to deal with that, even though Impact Aid is the 
jurisdiction of the Health and Human Services Committee, there 
are military kids. If a classroom goes from 20 kids to 40 kids, 
because of BRAC, then that is affecting military families, many 
of whom are serving in Iraq----
    Mr. Bishop. Mr. Chairman, may I just add to that? You have 
three subcommittees of Appropriations that have to address 
this. You have defense, you have MILCON, and you have the 
education subcommittees, all of which--well, I should say none 
of which provides adequate funds to deal with a problem of this 
magnitude.
    Mr. Edwards. Maybe we need to get all three. That may be 
part of the problem. Maybe we need to get all three 
subcommittees together and talk about that.
    Let--I have----
    Mr. Arny. I would like to make just one comment.
    Mr. Edwards. Okay.
    Mr. Arny. We have tried very hard within the legal limits 
that we have to help the communities plan and provide for these 
schools. Seventy-five percent of our folks live off base.
    So, when that increases their tax base--and I understand 
they do not have the construction money up front, so they are 
coming with a tax, you know, contribution. Even if they are 
renting, they are going to rent a house where somebody is 
paying taxes. And in some cases, like I said, we have actually 
offered land for nothing, so that people could build schools on 
the bases.
    The only one I know of that we have built was a DODEA 
school, so I would have to check on the others.
    Mr. Edwards. Well, let us continue on in a second round. I 
want to let everybody have a chance to finish the first round. 
But this, by cutting this off, I do not want to suggest I am 
not really concerned about this. I think we do have to deal 
with this issue somehow.
    Mr. Salazar.
    Mr. Salazar. Thank you, Mr. Chairman. I do not have any 
questions. I just wanted to commend all of you for all your 
hard work, and especially, Secretary Eastin, on your 
retirement. I look forward to continuing working with you in 
the future, especially on the issue of Pinon Canyon. 
[Laughter.]
    That seems to be a sore spot around here.
    But I have enjoyed working with you, and God speed and take 
care.
    Mr. Eastin. Likewise, and thank you.
    Mr. Salazar. And I yield back.
    Mr. Edwards. Thank you, Mr. Salazar.
    Mr. Berry, thank you for being here. I think Mr. Berry 
indicated he did not have any questions on this round.

                            LESSONS LEARNED

    To begin the second round, let me go back, Secretary Arny, 
if I could, to the question of lessons learned. You make 
decisions based on a cost-benefit analysis. It turns out, 
according to GAO, that the savings benefits have been maybe 
significantly overestimated, and, obviously, the costs were 
underestimated. And unless cost-benefit was not used in BRAC--
and I assume it was--you know, that could significantly change 
decisions.
    If you underestimate the cost of your decisions by $11 or 
$12 billion, and you overestimate the savings by $1 billion, 
you can argue these changes on a policy basis. But I think, you 
know, administrations, Democratic and Republican alike, have 
argued BRAC recommendations based on costs and savings.
    Could you give me your sense of the lessons learned? And do 
we have any lessons that can help us accurately estimate both 
the savings and the costs, those factors, if there are any, 
with your backgrounds?
    Mr. Arny. I think, and I go back to, from Texas, the 
congressman, retired, who started this--claims to have help 
started----
    Mr. Edwards. Dick Armey.
    Mr. Arny. Yes, Dick Armey.
    Mr. Edwards. Who did----
    Mr. Arny. Yes.
    Mr. Edwards [continuing]. Play a key role in initiating 
BRAC.
    Mr. Arny. Because I remember from before BRAC, when Admiral 
Zumwalt in the 1960s closed a bunch of bases. And that was the 
last time we were able to close any bases. And we were going 
from a 1,000-ship Navy to 600 at the time. And in the last, we 
have gone down to 300.
    What we found is, one of the hidden secrets of BRAC is it 
makes the initial NEPA decision for you. Prior to BRAC, we 
could not close a base, because when we decided to close a 
base, we would go into NEPA, we would get sued--lawsuit after 
lawsuit after lawsuit. So, we were carrying lots of excess 
capacity that we did not need.
    So, the BRAC process has been very successful in allowing 
us to make military decisions on capability. And I would 
emphasize that, that the primary goal is military value.
    Now, we do get lots of savings, and there are costs in that 
process. We believe that part of the problem with the costs 
being less in the initial years is that we estimated the 
movements, and the construction would begin earlier, so we have 
delayed some of the savings.
    We still believe--and I do not have the numbers at the tip 
of my tongue--there will be significant annual savings that 
will remain, because of the decisions being made.
    Mr. Edwards. Are you updating that? Is it----
    Mr. Arny. Yes, sir.
    Mr. Edwards [continuing]. You are always updating those 
numbers?
    Mr. Arny. We do. We do.
    Mr. Edwards. When you have those and you are comfortable 
with those numbers, could you provide that to the committee?
    Mr. Arny. We will.
    Mr. Edwards. Thank you.

                                 COBRA

    Mr. Arny. As far as the initial estimates, people went--I 
mean, not very many people understand the COBRA model. They 
believe it to be the ultimate model when they go to it, and so 
the COBRA model says $10. Therefore, it is $10.
    And frankly, I did myself until you start digging into it. 
But once you start digging into it, the COBRA model is very, 
very useful comparing apples to apples, because you are making 
assumptions on building size off of a model, and you are 
comparing it to another installation doing the same sort of 
things. So it is very good at helping you make relative 
decisions between do I do option A, B or C.
    But it is not very good at estimating long term the cost of 
a particular building, because it does not look at--first of 
all, you freeze inflation, so it does not discuss inflation at 
all. And by the time we got to executing BRAC, the numbers that 
were in COBRA were 3 years old. So you already had 3 years of 
inflation on top of what COBRA was saying.
    Mr. Edwards. COBRA assumes no inflation?
    Mr. Arny. That is right. It----
    Mr. Edwards. That should be one lesson learned.
    Mr. Arny. Well, not for comparison. It looks at constant 
dollars. So you are making a comparison, do I pick this or 
this, would I say, because then, once you let inflation go, you 
are going to inflate all of your estimates. Okay?
    But once you have made that decision, the problem we have 
is, then, okay, your costs have gone up here. You have 
forgotten about option B and C, because you did not pick those. 
So the costs would have gone up probably the same percentage on 
B and C.
    Mr. Edwards. Unless you had a facility where you already 
had the present buildings providing the structures for the 
services. And instead of keeping those services at that 
installation, you decide to move them somewhere else.
    Mr. Arny. Well, we----
    Mr. Edwards. And in that case, inflation is a real factor.
    Mr. Arny. Well, but we also--you also compare some of the 
decisions were made. We were going to renovate. We do look at 
renovation versus--as compared with new construction. We do 
compare those.
    So, the other thing we did in this BRAC is, after the 
decisions were made, we also added things on, especially in the 
Army and especially for medical. We added a bunch of stuff to 
the BRAC that were not really part of the initial decision. We 
wrapped in some major force moves, the people coming in and out 
of Europe, that were not part of BRAC 2005, because the BRAC 
process is continental--or not continental--the 50 states only 
and the territories. It is only the United States.
    So, the costs went up, and I can give you a comparison of 
where all they--we know, because of our business plan process, 
where all those costs came from. Some was inflation, and a lot 
of it, a huge part of it was adding stuff to the mix that 
really was not part of BRAC 2005, because it was stuff coming 
from Europe into the United States, so it was not really part 
of that whole BRAC 2005.
    Mr. Edwards. In a way, if we were going back to determine 
lessons learned, is there a way to differentiate extra costs 
that were because of other decisions on global repositioning--
--
    Mr. Arny. Yes.
    Mr. Edwards [continuing]. Such as costs----
    Mr. Arny. I have got those numbers here.
    Mr. Edwards. Because otherwise, there is no accountability. 
You just say, well, there were factors that came into play--so 
what? We had a $12 billion more expensive program than we had 
intended.
    And certainly it has an impact on presidential budgets that 
are presented for 5 years. So, I hope we would not--and I do 
not think you did--underestimate the importance of trying to 
build in realistic assumptions.
    Mr. Arny. That was some of the initial escalations right 
away. And I was involved in it, because I did not--I was not 
involved in the run-up to BRAC. I got it after the decisions 
were made. And we were having to escalate tremendously, based 
on not only just normal inflation over 3 years, but if you 
recall, we in the Navy were looking at, you know, after 
Hurricane Katrina and things like that. So, we had some 
significant----
    Mr. Edwards. I will conclude with this, because I am over 
my time--but we ought to assume in future models that there are 
unpredictable factors. We want to get an honest estimate of 
what the real costs of a BRAC round would be, or building new 
installations would be. We ought to build those factors in.
    It is kind of like the federal government assuming there 
will never be another hurricane, there will never be another 
war, there will never be another tornado. Therefore, this is 
what our budget is. Doesn't it look balanced?
    Mr. Arny. We have documented this one better than we have 
the previous rounds. But I would argue, human nature, when you 
are dealing with press headlines, we will do that, if we have 
another round. Say, look, we are looking at COBRA numbers. You 
have got to understand those are going to be different than 
real numbers. But sometimes that gets lost in the initial 
onslaught of data.
    Mr. Edwards. Right. Right. Thank you.
    Mr. Wamp.
    Mr. Wamp. Mr. Chairman, I think I have this round and then 
one more round, just so you will know this side.
    My experience is that three groups of people typically do 
not admit their mistakes or liabilities: men, women and 
children. [Laughter.]
    Mr. Edwards. Not necessarily in that order.
    Mr. Wamp. Right. And the fourth might be witnesses before 
hearings over the last 15 years that I have been here.

                               BRAC MONEY

    But with that said, we talked earlier about lessons 
learned. Are there more efficient ways that BRAC money is spent 
and less efficient ways? Is there anything to acknowledge what 
really, really works, where we get the most bang for our buck 
on these investments in BRAC? Is there anything that really 
needs to be improved?
    Mr. Arny. Frankly, I am very satisfied with the process, 
the way it is going. And there are not a lot of savings now, 
but one element--and we will talk about that--that I think over 
the long term will be efficiencies that will produce savings--
you cannot estimate them now--and that is Joint Basing.
    We are--I mean, I grew up in the service, not as a kid, but 
from the Naval Academy on, and did not realize until I was 
doing Joint Basing how stuck we are in our own cultures. All 
right?
    The Navy, in which I have the most experience, back in the 
1960s, 1970s, 1980s, when I was in the service as a fighter 
pilot, you never noticed who ran the base. It was just always 
there.
    But each base was being run by its major claimant, its 
major command. The Naval Air Systems Command ran PAX River 
where I was stationed. Commander of Naval Air Forces Pacific 
ran Miramar. Air Land ran--well, there were huge 
inefficiencies.
    So, the services have begun to consolidate management as we 
get smarter at it, so that you have the commander of Naval 
Installations Command. And you find huge inequities in how--I 
mean, I remember one with Congressman Dicks where we were doing 
firefighting differently all over the country.
    Now that we are bringing these bases together, I have 
gotten up in front of these Joint Base groups and said, look, 
you guys have got to get out of your light blue-dark blue suit 
mentality. If somebody is driving up the Jersey Turnpike and 
they look at, they see McGuire-Dix-Lakehurst, they are going to 
look at it and say, oh, it is all run as one DoD base. Well, it 
is not.
    And so, including them together, bringing them together, we 
have done some--we have made enormous progress, because we now 
have common output levels of service that we are doing in these 
joint--where the services all agree that we are going to--you 
know, you are going to have X amount of guard dogs per number 
of people.
    And we have developed joint groups at my level and below, 
where we iron these things out, and we have, you know, at 
McGuire-Dix-Lakehurst, there will be an Air Force colonel as 
the commanding officer, an Army colonel as the vice commander 
and a Navy captain as the head of installation, the local 
installation management. So we have brought all three services 
together, and we are doing it all around.
    It is much more difficult than I would have ever imagined, 
but I think it will produce tremendous results for the country.
    Mr. Wamp. She smiled down at the end of the table, because 
I think the Air Force was the last one to come along with this 
new vision.
    Mr. Penn, you had a question?
    Mr. Penn. One of the things we started doing, sir, was we 
created tiger teams to go out look at specific projects. I 
think you created that. And we found additional savings there, 
just by going out and putting the individual eyes on and 
scrubbing.
    Mr. Wamp. I have been at Hickam and Elmendorf, where this 
was very much discussed, joint basing.
    Mr. Arny. Really?
    Mr. Wamp. Yes, especially Hickam.
    Let me ask, though, if there is a savings of an asset, and 
you say, through joint basing we actually do not need this or 
that, is it disposed of like a BRAC site with the GSA disposal 
process, I think is what they call it, or dispensation process?
    Mr. Arny. We have the--under BRAC, the GSA authorities are 
transferred to the Department of Defense, so we can just--we 
have read the law. If any base, gaining or joint, where there 
is excess property, it can be disposed of under BRAC, or it can 
be disposed of regularly.
    Mr. Wamp. Yes.
    Mr. Arny. What we have found, though--coming to Hickam, 
Pearl Harbor-Hickam--is probably the toughest thing to make 
people realize is, what we were doing was, we were making the 
installation management of the base joint. The mission was 
still Air Force or Navy.
    Mr. Wamp. Right.

                              BRAC CLEANUP

    Now, I have other questions about how this process works, 
because is there any differentiation between the cleanup 
responsibilities of a site that is in BRAC 2005, than any other 
site that happens to be BRACed along the way----
    Mr. Arny. No, absolutely not.
    Mr. Wamp. All the same.
    Mr. Arny. All the same.
    Now, what is interesting is, especially since I was doing 
BRAC cleanup for Mr. Penn before, when we looked at the bases 
in BRAC 2005, I mean, the total for Navy, total cost to 
complete on the cleanup, was--I think it was like $150 million 
for all the bases, including two that dropped off that were 
industrial, Portsmouth and the sub base, New London.
    Now, we might have found some more. When you put shovels in 
the ground you always do. But the cost was, say, less than $200 
million for all those bases.
    I mean, we have bases at Hunters Point, for one, which has 
more than $200 million, and we will have probably spent we are 
done $1 billion cleaning that base up.
    So, what do I attribute it to? Well, in the early rounds, 
which started in the 1980s, we had not done a lot of cleanup 
nationwide, as a nation or as a military. And since that time, 
we have done a heck of a lot of cleanup.
    I mean, Albany, Georgia, when we--when that was ready to 
dispose of, we had just finished cleaning up the gas station. 
Gas stations are typical on the bases for having problems. And 
so, Albany is completely clean, all done--or remedy is in 
place.
    So, the answer to your question is ``yes.'' The cleanup is 
no--the requirements are no different, whether it is an active 
base--well, there is some requirement that we do not have to 
comply with an active base. But for closed bases, no matter 
what round it is, we have to still comply with state and 
federal law.
    Mr. Wamp. That is it for this round, Mr. Chairman.
    Mr. Edwards. Can I quickly follow up and ask, have we 
updated our models of estimating what cleanup costs are, so 
that we will be more realistic in----
    Mr. Arny. Yes, and----
    Mr. Edwards [continuing]. Future decisions?
    Mr. Arny. We do not base them on models, interestingly. We 
base them on signed affidavits, basically, from our RECs, our--
what is RECs?
    Ms. Edwards. Environmental coordinators----
    Mr. Arny. Yes, the environmental coordinators on the bases 
have to sign.
    We go through a lengthy process with EPA. And we sit down 
and we do discovery, basically. We use overhead photographs in 
many cases to try and find locations. We test them. We identify 
sites.
    And then the RECs, based on their experience and that of 
their contractors, estimate the cost. And that cost--cost to 
complete. What will it take to clean up this process?
    We then go and aggregate those and report them annually--I 
think annually, or semiannually--to Congress.
    Now, what is interesting on some of our bases out West, the 
team was doing that. And they were concerned that each year the 
cost to complete would increase, if you open a shovel up.
    And this--the cleanup contracts were all done 
competitively. But they went out and recompeted it, and got the 
costs down. You know--Six Sigma.
    So, we are constantly wrestling with, what is the cost to 
complete on our FUD sites, our active sites and our cleanup 
sites. The estimates are the best that we can do through human 
nature.
    Now, I will say, for instance, at Hunters Point you have a 
base that was built in the 1800s. It has been a major 
construction site ever since. We had radium dials, instruments, 
if you recall, back in World War II. We would just throw those 
in the landfills. Well, they were all radioactive, you know, 
trigger it off.
    Not only that, at the end of World War II, we brought the 
ships back from the Bikini Atoll tests, and it was a nuclear 
radiation effects test base. So there, the cost is not bringing 
in lasers and fancy stuff. We have to dig down 10 feet and pull 
out sewers, because we found a couple of sewers where there was 
trace--you could not find anything on the surface--but you 
would find trace radioactivity. So, rather than investigating 
every sewer, we are digging them all up.
    And there is no place in California to dump, to dispose of 
low-level radioactive waste, so we are trucking it to Utah. So, 
the cost there is just truck-miles and steam shovels.
    Mr. Edwards. That is expensive. Thank you.
    Mr. Farr.
    Mr. Farr. Mr. Chairman, I just want to say that my base 
closed 18 years ago. It still is not cleaned up. It still is 
not though all the land has been transferred. So, not 
everything is hunky-dory.
    I think the Department of Defense is sitting on a lot of 
land that should have been disposed of already. There are many 
ways of doing so.
    For growth communities it is impossible for them to absorb 
the kind of impact that new missions bring, especially where 
education is concerned. You finance schools through general 
obligation bonds, which take a vote of the people. You do not 
finance the construction of schools through the property taxes 
or other methods.
    So there is no way you can build new schools relying on the 
local process. The public will reject raising the taxes on 
their land just to build schools for all the military kids. I 
do not think you could pass a referendum like that.
    DoD built a school down at Kings Bay, Georgia, when it 
built the submarine base. There is nothing there. You went and 
built a school. You build DoD schools. There is no reason you 
cannot work out this through the OEA process to build the 
schools at mission growth bases.
    Mr. Arny. Congressman, I agree with you entirely. And--
    Mr. Farr. I am trying to solve Mr. Bishop's problem.
    Mr. Arny. Well, I want to check on the Kings Bay, because I 
am dumbfounded. A friend of mine was the construction manager 
down there.
    Because my experience over the last 8 years is, we are not 
permitted to build schools in----
    Mr. Farr. Well, you--OEA--I understand there is a process 
through OEA in which you can do that. And----
    Mr. Arny. I will check. And OEA gives me the, you know, the 
blah-blah-blah every week. And----
    Mr. Farr. I mean, I want to follow up on Mr. Wamp's 
question on cleanup.
    I understand that the DoD estimates for backlog cleanup is 
$3.5 billion. That includes the 2005 round bases, the legacy 
bases.
    What is it going to be in your budget for this year for the 
cleanup?
    Mr. Arny. A, I do not have the number at the tip of my 
tongue. B, I cannot talk about it until it is out. But C, it 
will be, I suspect, no less, if not more, than what we did last 
year.
    Mr. Farr. And can you break that down by pre-2005 and 2005 
bases?
    Mr. Arny. Yes.
    Mr. Farr. So that it will committed that way? Or will it 
just be in one item?
    Mr. Arny. Yes. I am told it will be.
    Mr. Farr. Yes what? What--
    Mr. Arny. Yes, it will be--no, it will be broken out.
    Mr. Farr. Okay.

                            TREASURE ISLAND

    You know, I want to also tell Mr. Penn, you are sitting on 
that property on Treasure Island. I am a native San Franciscan, 
so I am very interested in this property.
    It is not moving. The State of California has adopted laws 
saying you can only sell it to the State of California, and 
they are willing to sue that all the way up to the Supreme 
Court, if you want to challenge it.
    It seems to me that, as part of the whole stimulus effort 
we want to create jobs. And I cannot think of a faster way to 
create jobs than to transfer that base as fast as possible.
    We sit around and debate with the City of San Francisco 
what the fair market value is. And I do not even know if that 
fair market value was done with the California restrictions 
factored in, but that has got to have some effect on value.
    I would just encourage you to use whatever options you have 
available to get that land transferred. We are hurting for jobs 
in California and this is an area with the highest drop in 
housing prices in the United States, the highest number of 
foreclosures. You take a look at that Greater Bay Area, and it 
is really hurting.
    Part of my frustration with this BRAC process is its 
incredible slowness. I mean, you use the COBRA model, you go 
through the BRAC process. The BRAC Commission recommends that 
these closures occur, and everything is going to be taken care 
of. All the community needs will be taken care of. You can 
redevelop, you can sell, you can create jobs. You can do this, 
do that.
    But it is so slow. So, as I said, after 18 years Fort Ord 
is still not finished.

                      BRAC ACRES PENDING DISPOSAL

    I want to know from you, what are the total number of 
disposed BRAC acres, not including the leases in furtherance of 
conveyances? Just how many acres have we gotten rid of in your 
total inventory?
    Mr. Arny. We have gotten rid of--I had that in--
    Mr. Farr. What is the total number of BRAC acres pending 
disposal by year?
    Mr. Arny. We can get you those. We disposed of--because I 
asked for that number--we have 205 of 250 prior BRAC are 
completely disposed of. We created 140--almost 144,000----
    Mr. Farr. But you would--I mean, you probably closed Fort 
Ord in that. You have not disclosed----
    Mr. Arny. I do not know. I will check on it.
    [The information follows:]

    The total number of BRAC acres pending disposal by year (including 
Outgrant LIFOC acres) are provided on the table below:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  1999      2000      2001      2002      2003      2004      2005      2006      2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
Air Force.....................................................    66,209    67,301    55,735    42,419    35,661    30,294    21,042    16,281    13,479
Army..........................................................   176,840   214,332   145,408   249,918   239,654   104,694    96,020   128,986    76,358
Navy..........................................................   141,344   129,847    96,133    95,785    87,311    12,936    17,885    38,197    32,822
    Total.....................................................   384,393   411,480   297,276   388,122   362,626   147,924   134,947   183,464   122,659
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Mr. Farr. Remember, that goes to BLM, and we cannot do that 
till we clean it up. It is just----
    Mr. Arny. As of December 2008, we have disposed of 367,000 
acres out of 422,000, leaving 55,000----
    Mr. Farr. And how many are going to be disposed of, of the 
pending number that you have are going to be disposed of----
    Mr. Arny. I can check on that.
    Mr. Farr [continuing]. By years?
    Mr. Arny. Because I think a big chunk of the 34,000 acres--
remember, Lease in Furtherance of Conveyance (LIFOCs) are in 
many cases, like at----
    Mr. Farr. You know what they are.
    Mr. Arny. But at El Toro, we have disposed of the whole 
base. A bunch of it is a LIFOC. They are developing on top of 
our LIFOC, because one of the--like 20 percent of the base is a 
large LIFOC, where the pollution is down 200 feet. And there is 
a long, many year, multi-year pump-and-treat that we are 
cooperating with. So, that will remain a LIFOC for decades. But 
the development will take place on top of it.
    Mr. Farr. I think we have done that with the university----
    Mr. Arny. Yes.
    So, we can get you those by----
    Mr. Farr. And I would also like to know the number of acres 
conveyed by service and by property disposal type.
    Mr. Arny. We can do that.
    Mr. Farr. And to which type of grantee.
    And I would like to know the length of time for disposal of 
BRAC acreage, and by disposal type.
    What I am trying to get here is that, I think that if you 
look at these numbers, you are not moving property as fast as 
you should be.
    Mr. Arny. Well, in many cases, like at T.I., we rely on the 
LRA's plan. And they have had nine separate plans over the last 
15 years.
    But we have----
    Mr. Farr. Those arguments cannot go to the San Francisco 
property. I mean, this is another example where--
    Mr. Arny. No, that is the property I am talking about.

                                  EDC

    They have had nine separate plans that changes constantly. 
Because they wanted to do a no-cost EDC. And we were fine with 
that.
    Mr. Farr. But once they have an adopted plan, that's it. 
You do not----
    Mr. Arny. That is right.
    Mr. Farr [continuing]. Micro-manage the plan.
    Mr. Arny. No. But they--but we said, you know, we go in and 
appraise it for the value, because a no-cost EDC, an EDC must 
be for permanent jobs. That is the law.
    And they finally, after nine plans, had come around to 
doing mostly housing on there, which is fine. But that does not 
qualify for an EDC. Part of it does.
    Mr. Farr. Well, I think the planned value is--your 
estimated--$1 million----
    Mr. Arny. We have----
    Mr. Farr [continuing]. If you are going to sit on that 
forever--
    Mr. Penn. Right. And we offered--we want to go back and do 
it.
    Mr. Farr. Well, they have made some offers.
    Mr. Penn. We will pay for it, if we can.
    Mr. Farr. They have made some pretty good offers.
    Mr. Arny. Well, and frankly----
    Mr. Farr. We are auditing that all----
    Mr. Arny. Frankly, the City of San Francisco has been 
getting the revenue. They have been renting the houses out on 
Treasure Island to the public since the base was closed, and 
they have been getting the revenue. So, it has not been 
revenue-negative. They have been making rents off those houses 
since we closed it.
    Mr. Edwards. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman. Two questions left, one 
for Secretary Arny and one for Secretary Eastin.

                      VISION CENTER OF EXCELLENCE

    Secretary Arny, I believe about 5,000 Iraq and Afghanistan 
veterans have been diagnosed with direct eye injuries. Part of 
this realignment with the National Naval Medical Center, I 
think, is a big investment in what is called the Vision Center 
of Excellence.
    Can you go into more detail about where we are at with the 
Vision Center, and how is it coming along?
    Mr. Arny. No, sir, I cannot. I will have to get back to you 
on that.
    [The information follows:]

    The Department has determined that space at the present National 
Naval Medical Center can be renovated to house the Vision Center of 
Excellence and staff, such that it can be collocated with the Walter 
Reed National Military Medical Center. DoD is examining options on the 
cost and the fiscal years in which to fund the project. The current 
estimate is $4M in MILCON for renovation projects in the first FY and 
$0.3M in operations and maintenance in next FY to outfit the facility. 
DoD is reviewing when the renovation necessary to establish the center 
can take place to integrate it with the extensive BRAC construction now 
underway at Bethesda.

    Mr. Wamp. Okay. If you will get back to me on that.
    And then, Secretary Eastin, this is probably----
    Mr. Penn. Sir, what would you like to know on the vision 
center?
    Mr. Wamp. Just an update on where we are in the process, 
how it is coming along.
    Mr. Penn. Sir----
    Mr. Wamp. You have got that here?
    Mr. Penn. Well, Army is the business plan manager for that. 
All the plans are being held by TRICARE Management Activity, 
TMA.
    We are putting it in an existing space in building eight, 
as part of the BRAC movement from Walter Reed to Bethesda.
    Total cost is $3.2 million.
    Mr. Wamp. And there is a $2.6 million HVAC upgrade, I 
think. So, all of that money is in place and it is moving 
forward. We are going to get this Vision Center of Excellence 
up and running.
    Mr. Penn. Right.
    Mr. Arny. Let us double check. I am hearing some 
conflicting data. We will get you----
    [The information follows:]

    The Department has determined that space at the present National 
Naval Medical Center can be renovated to house the Vision Center of 
Excellence and staff, such that it can be collocated with the Walter 
Reed National Military Medical Center. DoD is examining options on the 
cost and the fiscal years in which to fund the project. The current 
estimate is $4M in MILCON for renovation projects in the first FY and 
$0.3M in operations and maintenance in next FY to outfit the facility. 
DoD is reviewing when the renovation necessary to establish the center 
can take place to integrate it with the extensive BRAC construction now 
underway at Bethesda.

    Mr. Penn. Yes. But the money is still TMA's.
    Mr. Wamp. Okay. If you would get that to us.
    And then the second thing sounds parochial, because it is 
in Tennessee, but it is almost the opposite of what you 
normally hear. None of us are immune from this.

                             MILAN ARSENAL

    Normally, someone would be lobbying for BRAC to be changed. 
My question about the Milan Arsenal in west Tennessee is 
whether BRAC 2005 is being complied with. And here is why. I am 
going to give you kind of a series of questions.
    The newspaper tried to get some answers a couple of months 
ago there in Milan, Tennessee, but they could not. A facilities 
use contract was awarded for one company to basically run Milan 
and the Iowa AAP. But now, it appears that some of the missions 
are moving to Iowa.
    And in 2005, under BRAC, the Milan Arsenal was named a 
Munitions Center of Excellence, and was supposed to receive 
funds from Kansas and Lone Star. I was there and toured it, and 
listened to what is happening. I am questioning whether or not 
this is actually running exactly opposite of BRAC.
    This appears to be political influence set in to move some 
things outside of BRAC. And I just need a series of questions 
answered that, frankly, the newspaper could not get answered 2 
months ago.
    And I know you are leaving next week, so if you could have 
somebody pick these questions up, get to the bottom of it, and 
let me know, please, about Milan. I do not want to bug you too 
much with an issue that is Tennessee, but this is a BRAC 
question.
    [The information follows:]

    I'm glad you asked about that because there have been some 
misunderstandings.
    First, as to the newspaper's questions, the newspaper filed a 
Freedom of Information Act request for a Corrective Action Request from 
the commander of Iowa Army Ammunition Plant to the operating contractor 
there, relating to the contractor's storage and housekeeping. The Army 
has been working on that FOIA request. We want to be responsive to the 
newspaper's request while protecting the operating proprietary 
information.
    Second, I assure you that we are fully complying with BRAC Law. In 
the case of Milan, BRAC Law required the Army to move certain munitions 
capabilities from the Kansas and Lone Star plants to Milan. Those 
capabilities are moving to and will be retained at Milan.
    Finally, let me address the new operating contract for the Milan 
and Iowa plants. Both of these government-owned, contractor-operated 
ammunition plants have been operated by a single contractor under a 
single contract, for a number of years. With the contract at the end of 
its term, we held a competition for a new contract for the operation 
and maintenance of these facilities. The successful offeror elected to 
consolidate production workload at Iowa and to develop Milan as a 
commercial distribution hub, while retaining some production 
capabilities there. The Army did not require that solution. It was a 
commercial decision by an offeror for its method to maintain both 
facilities at no cost to the Government and provide the ammunition we 
need.

    Mr. Eastin. I am surprised that I have not heard this. So--
and usually, these inquiries filter up to me. So, I will be 
happy to.
    Mr. Wamp. Very good.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.

            TRAFFIC CONGESTION AT BETHESDA AND FORT BELVOIR

    Let me ask about Bethesda and Walter Reed, two questions.
    One, why did the administration have to, in recent weeks, 
ask for an additional $263 million for the fiscal year 2009 
supplemental to move this project forward?
    And secondly, does the Department of Defense, the Navy or 
the Army have a good analysis of what the impact is going to be 
on traffic congestion at both Bethesda and Fort Belvoir? And if 
so, is DoD putting any money into that transportation 
infrastructure, or is that being left to the local communities 
to address that?
    Mr. Eastin. Let me talk about Belvoir, then I will let B.J. 
talk about--which avenue is that? [Laughter.]
    We have--there are significant traffic problems at Belvoir. 
And one of the ways you handle these traffic problems is to 
spread them out, which is what we have tried to do with so-
called BRAC 133, moving 6,400 and some people up to Market 
Center instead of down in Belvoir proper, keeping some out at 
EPG down there and keeping them off of the more local roads, 
Route 1, especially.
    There still exists--and I have not looked at it in the last 
4 or 5 months--there still exists probably $200 million worth 
of road improvements that are going to be needed down there. 
And it is basically state-funded activities.
    We have a DAR, Defense Access Road program, that we have 
funded for $36 million. We are looking at a couple other--some 
of the off-ramps off of Fairfax County Parkway. But as to 
whether they would be funded as DAR--it has very constrained 
ability to pay for roads unless they are specifically, 
basically for military purposes.
    But the traffic is going to be challenging, but we are 
going to be able to handle it, I think, on Route 1 with respect 
to the hospitals----
    Mr. Edwards. When you say challenging, are there any 
estimates about what a 30-minute commute is going to be? Will 
it be an hour-and-a-half commute? Or will it be a 40-minute 
commute?
    Mr. Eastin. We have estimates on probably every inch of 
road at Belvoir, and I can get those to you. I have not looked 
at them in a while.
    [The information follows:]

    US Route 1 is critical to both morning and evening traffic 
conditions for Fort Belvoir's Main Post. Dispersion of population 
growth among Fort Belvoir, the Engineering Proving Ground, and the Mark 
Center has mitigated some of the impact to Route 1 and the Fairfax 
County Parkway. While off-post traffic will be slightly more congested 
(5 to 10 more minutes of travel time) after 2011, the more dramatic 
change in traffic will come in terms of adding about 15 minutes before 
and after the peak traffic times. In accordance with the Environmental 
Impact Statement and Record of Decision, Fort Belvoir is implementing a 
Traffic Demand Management Plan to further mitigate traffic impacts.

    Mr. Edwards. Okay, thank you.
    Mr. Eastin. But we have a consultant that is all over this. 
And it is, from day one when this recommendation--this whole 
BRAC process was adopted, everybody looked at Fort Belvoir and 
said, gee, isn't that near 95? Which is loosely called traffic 
condition F.
    Mr. Edwards. Right.
    Mr. Eastin. Which means--and the question is, how long will 
it be traffic condition F every day.
    Mr. Edwards. Right.
    Mr. Eastin. So, what we are trying to do--yes.
    Mr. Edwards. In hindsight, in terms of lessons learned, do 
we need to spend more time in any future base realignment 
decisions carefully examining the traffic implications for 
those decisions?
    Mr. Eastin. In my remaining 3 days in this job--a little 
more freedom to talk. But it would have been nice if they had 
considered traffic problems in some of these. I think that the 
outcome might have been slightly different.
    Mr. Edwards. So, based on what you have seen, those 
involved in the original BRAC decision or recommendation on 
Belvoir, and perhaps Bethesda, as well, did not do a careful 
analysis of the----
    Mr. Eastin. I am not sure what analysis was done.
    Mr. Edwards [continuing]. Traffic implications.
    Mr. Eastin. I was not here at that end of the scheme 
either. But in terms of someone that has had to deal with this, 
sometimes on a daily basis, if there were no traffic problems, 
there would be zero problems making this work at Belvoir.
    Mr. Edwards. Okay.
    Mr. Arny. I would add to that, that Mr. Eastin and his 
group have done a great job, because there were recommendations 
to move stuff to Belvoir that we have actually had--we have 
created Belvoir annexes to do it.
    And I suspect that both the Commission and the Navy folks 
doing it took their best shot at it, but did not have that 
level of details.
    Now, I will also look at the other side of the coin at 
Bethesda and Belvoir. They, I am sure--I was not there--but I 
am sure their political leaders were at the BRAC Commission 
asking to move things to those bases. So, I mean, it is a 
double-edged sword.
    And to answer your question about the----
    Mr. Edwards. It is the whole security issue----
    Mr. Arny. Well, it really was not--I think we have a handle 
on the security. It was really the traffic on the roads around 
Belvoir and at Bethesda. And what we found at Bethesda was that 
Montgomery County had a lot of stuff in planning, because 
Bethesda had a traffic problem before. And now, as a result of 
BRAC, but even more as a result of Wounded Warrior, we have 
increased the capacity.
    There were a lot of things that Montgomery County and the 
State of Maryland had put off that they had planned years ago, 
so it just spurred into action.
    And speaking of that, you had asked, the $263 million in 
the supplemental was the second part of the amount that we 
talked about last year, which was $416 million. Back in the old 
days when we funded things in supplementals, the deputy 
secretary made the decision to increase the capability of 
Bethesda, over and above what BRAC had said. And that $679 
million was to go into the supplemental, because it is all for 
Wounded Warriors.
    Mr. Edwards. Thank you.
    Mr. Farr.

                                  FUDS

    Mr. Farr. One clarification on the cleanup ask, the money. 
Is that going to be based on what the department asks for, or 
what Mr. Edwards--the end amount after Mr. Edwards' adds last 
year?
    Will it be on what we appropriated, or what you----
    Mr. Arny. I will have to get the answer for that.
    [The information follows:]

    BRAC Cleanup:
    The Department of Defense will apply the full appropriated amount 
(including Congressional plus-ups) to cleanup of Environmental 
Restoration sites on BRAC properties. The FY2009 President's Budget 
Request for BRAC Environmental was $455 million, while the final 
appropriated amount was $525 million. The FY2010 request of $554 
million is requirements-based, and reflects an increase over the prior 
year due to a transition of several cleanup actions from the DERA 
program into the BRAC 2005 program.

    We will try--we have always tried to--I notice that Mr. 
Penn talked about it in BRAC. When we got the land sale 
revenues, we increased our cleanup.
    There are certain limits. And I share your concern about 
this backlog, because you are focusing on BRAC, but I am having 
to focus on the FUDs, the formerly used defense sites. In many 
of these cases, even if you throw money at it, we cannot clean 
up faster than we are right now, because a lot of it is 
painstaking. There is a lot of planning involved----
    Mr. Farr. But it helps to get some money in there. And not 
being able to move forward without cleanup--well, that is 
usually what holds up conveyances.

                            TREASURE ISLAND

    Mr. Penn, this will be my last question. It is really about 
the Treasure Island. What is your intent? We would like to move 
that as fast as possible.
    I know you say you want to get fair market value. But as I 
recall, the original BRAC law did not require that you have to 
get fair market value. It only required that you seek fair 
market value for bases closed after January 1, 2005. Treasure 
Island was prior to that.
    So, aren't there other options? And I just heard you say 
maybe you are going to go out and get another appraisal?
    Mr. Penn. Well, that was one of the options with the city, 
if they want to purchase it. But you are right. They are trying 
at this time for a no-cost EDC. And as Mr. Arny stated, that 
has to be for job creation.
    Mr. Farr. Well, look. At Fort Ord, DoD you transferred 
almost all of it except the welfare and morale properties, 
which were golf courses. You sold those. You had to.
    You did one other sale of Fort Ord. But you have 
transferred about 20,000 acres out there, all of it in a no-
cost EDC.
    But the job creation just never materialized like we 
thought it would.
    But anyway, there is nothing being built at Fort Ord. right 
now. I mean, we did get a university, which is great, but that 
was public benefit demand.
    So, what is your intent? What are you doing right now to 
try to get that property moved?
    Mr. Penn. With Treasure Island, we have to go back to the 
city and hopefully talk to them.
    For example, we did eight no-cost EDCs between 2002 and 
2009. Zero-cost EDCs were executed. Now, all we have to do is 
get them to align, and we can do it.
    I mean, we are still in negotiations. The doors are not 
closed.
    And, in fact, actually, it is more money out of our pocket 
to maintain these facilities, as you well know.
    Mr. Farr. Yes, it is costly.
    Mr. Penn. Exactly.
    Mr. Farr. You have got the liability----
    Mr. Penn. So, the sooner we can rid of them----
    Mr. Farr [continuing]. Maintenance costs. How much a year 
is it costing?
    Mr. Arny. I am not sure. Treasure Island, I think, is just 
some human oversight, because, again, the city took it as a 
lease, and they have been renting out the office space and the 
housing. So they have been revenue-positive since the base 
closed.
    Mr. Penn. They have acres. They have--
    Mr. Farr. You have got to build it all up to California 
code now.
    Mr. Arny. I understand, sir. I am just saying that it is 
not a cost to us, because they have been renting it out and 
getting property.
    I would have to give you the acreage----
    Mr. Farr. And there is cleanup, too, isn't there?
    Mr. Arny. And which we are proceeding with.
    Mr. Penn. We are doing that, correct.
    Mr. Edwards. Any ballpark on how many acres?
    Mr. Farr. It is an island.
    Mr. Edwards. Right.
    Mr. Arny. Well, it is two islands, actually. There is 
Treasure Island and Yerba Buena Island. And----
    Mr. Farr. We still have the Coast Guard----
    Mr. Arny. Yes.
    Mr. Penn. Right.
    Mr. Arny. The Coast Guard is there. We lost part of it to 
Caltrans. They condemned part of it for the----
    Mr. Farr. This is the island that the Bay Bridge goes over 
to----
    Mr. Edwards. I have seen pictures, but I do not think I 
have ever----
    Mr. Arny. I am going to say it is like--I get 367 acres 
stuck in my mind, but I do not know. I can get you the answer 
to that.
    Mr. Penn. We will get back.
    [The information follows:]

    <bullet> 79 acres conveyed (Coast Guard, Federal Highway Authority 
and Job Corps)
    <bullet> 996 acres (468 acres dry land/528 acres submerged land) 
remaining
    <bullet> Over 50% of dry land environmentally suitable for transfer
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

                        Statutory BRAC Deadline

    Question. How does the Department define compliance with the BRAC 
mandate?
    Answer. The Department has a legal obligation to complete all 
closures and realignments no later than six years from the date the 
President transmits the Commission's report to the Congress. The 
Department defines completion as the point in time at which all 
functions specified in the BRAC recommendation have been relocated to 
and are functioning at the receiving installation(s) identified in the 
recommendation. In the case of closures, caretaker and environmental 
operations may continue at the closed location, as long as the 
functions have been relocated to and are functioning at the specified 
receiving location.
    Question. Who determines or certifies that a BRAC action has been 
completed?
    Answer. Implementing BRAC 2005 recommendations requires detailed 
plans that delineate required actions, their timing, and necessary 
resources. The large number of transformational recommendations, 
particularly recommendations to establish joint operations, presented 
significant implementation challenges that underscore the utility and 
necessity of good planning. As such, the Department developed Business 
Plans to serve as the foundation for the complex program management 
necessary to ensure BRAC 2005 recommendations are implemented 
efficiently and effectively. Responsibility for the development of each 
Business Plan was assigned, by recommendation, generally to the 
Military Department or Defense Agency with facility management 
authority at the receiving site. Organizations significantly impacted 
by the recommendation were consulted and required to formally 
coordinate on the plans. Business Plans form the initial operational 
and budgetary basis for BRAC 2005 implementation and must be updated 
twice each year. Each business plan manager is required to certify that 
the BRAC recommendation for which they are responsible have been 
completed.
    Question. What are the actual legal consequences, if any, of not 
meeting the BRAC deadline?
    Answer. The Department is obligated to complete closures and 
realignments by the deadline imposed by the Defense Base Closure and 
Realignment Act of 1990, as amended. Applicable statutes (the BRAC Act 
of 1990 and annual appropriation and authorization acts for DoD) do not 
address failure by the Department to complete a recommendation by the 
statutory deadline. The BRAC Act of 1990 authorizes the Department to 
take such actions as may be necessary to close or realign approved 
military installations, and to use for such purposes funds in the 
Department of Defense Base Closure Account 2005. The legal consequences 
of a failure to meet the deadline on this authority and funding are not 
clear.
    The Department fully intends to meet its legal obligation to close 
and realign all installations by September 15, 2011, as required by the 
Defense Base Closure and Realignment Act of 1990 as amended. As 
intended by Congress, the deadline ensures that the Department moves 
functions with minimal disruption and that DoD transfers closed 
facilities to the community for reuse as expeditiously as possible. The 
deadline keeps the Department focused on completing implementation and 
ensures that DoD closes installations expeditiously to allow 
communities to redevelop the property. Specific adverse effects of 
failing to meet the deadline include:
          <bullet> Projects being stretched over many years as both 
        internal (Military Department Comptrollers) and external 
        (Congress) forces shift money away from BRAC projects to other 
        ``short-term'' priorities with the net result being increased 
        in cost due to inflation and scope growth.
          <bullet> Breaking linkages between many recommendations that 
        require careful choreography of the recommendations that are 
        dependent on functions moving out of one location so another 
        function can move in.
          <bullet> More opportunities for Congress to try to reverse or 
        alter decisions.
          <bullet> Delayed modernization of facilities provided by BRAC 
        construction.
          <bullet> Personnel turmoil and uncertainty as relocations 
        drag on.
          <bullet> Unwillingness of market to plan/invest in either 
        redeveloping closing sites or expanding development (including 
        housing) at receiving locations
    Question. In the four prior BRAC rounds, were any actions not 
completed by the statutory deadline? If so, how was the issue resolved?
    Answer. As required by the Defense Base Closure and Realignment Act 
of 1990, as amended, for each of the four previous BRAC rounds, the 
Department met its legal obligation to close and realign all 
installations within 6 years of the date the President transmitted that 
year's Commission Report to Congress.

                                 COBRA

    Question. As you noted in your testimony, BRAC 2005 is the most 
complex BRAC round ever. You also noted that previous BRAC rounds were 
undertaken during a period of downsizing in the Armed Forces. Compared 
to previous rounds, the number of major closures in BRAC 2005 is 
slightly below average, while the number of major realignments is 2.4 
times the average of the previous four, and the number of minor 
closures and realignments is more than triple that of all previous 
rounds put together. Furthermore, as you also noted, military 
construction funding as a percentage of total cost for this round is 
more than double that of previous rounds. The COBRA model has been in 
use since the original 1988 round. While the Committee appreciates your 
point about COBRA being a, comparative tool, and not a method of 
producing ``budget quality'' cost estimates, did the Department make 
any efforts whatsoever to refine the COBRA model in order to account 
for the unique nature of this BRAC round?
    Answer. The COBRA model was used during the development of the BRAC 
recommendations, whereas the unique nature of this BRAC round was not 
apparent until that process was complete--a point at which refinement 
of the COBRA model would not have been useful. The Department did 
refine the COBRA model (before it was used in this round) based on 
experience in three prior rounds. As stated in the Government 
Accountability Office (GAO) review (Military Bases Analysis of DoD's 
2005 Selection Process and Recommendations for Base Closures and 
Realignments July 2005) of the Department's BRAC selection process 
``DOD has used the COBRA model in each of the previous BRAC rounds and, 
over time, has improved upon its design to provide better estimating 
capability. In our past and current reviews of the COBRA model, we 
found it to be a generally reasonable estimator for comparing potential 
costs and savings among various BRAC options.'' The Department agrees 
with GAO and stands by the use of the model to compare alternatives.

                  San Antonio Military Medical Center

    Question. Construction on the new medical center at Fort Sam 
Houston began in December 2008. According to the original 1391 
submitted for this project, the construction timeline was three years 
and three months (assuming a start date of December 2007 and a 
completion date of March 2011). How will the Department ensure that 
this facility is completed and outfitted by the BRAC deadline?
    Answer. The Department is watching all projects closely, especially 
those that are complex and complete near the implementation deadline. 
This recommendation in particular has been subject to focused 
oversight. At this point, the Department is confident that all 
inpatient functions will be moved from Wilford Hall to Brook Army 
Medical Center, those inpatient functions will cease at Wilford Hall, 
and the new San Antonio Medical Center will be operational by September 
15, 2011.

                              Joint Basing

    Question. According to GAO, Joint Basing will produce no net 
savings for the Department. What is your estimate of the net annual 
recurring cost required to support Joint Basing?
    Answer. Based on the most current FY10 President's Budget data, the 
annual recurring savings from the Joint Basing recommendation, starting 
in FY2012, is estimated at $32M/year. As the Department gains more 
experience in financing joint base operations, the Department will 
revise these estimates in future budget submissions.

   Eglin AFB-Initial Joint Training Site for the Joint Strike Fighter

    Question. As Deputy Assistant Secretary Ferguson stated, the noise 
profile of the Joint Strike Fighter was unknown at the time of the BRAC 
recommendation for establishing the Initial Joint Training Site (IJTS) 
at Eglin AFB. The Record of Decision of the IJTS demonstrated a 
significant noise impact issue and restricts the Department to only 59 
of the 107 programmed aircraft, which would operate under restricted 
conditions. What is your plan of action if the restrictions on aircraft 
and operations are upheld by the supplemental EIS?
    Answer. Several alternatives are under review in the preplanning 
for the supplemental EIS to include other operational locations on the 
Eglin reservation, additional runway(s) and reorientation of runway(s). 
As the Air Force evaluates these options and works toward a draft 
DOPAA, we anticipate some of these alternatives will meet operational 
needs and potentially reduce noise impacts to warrant and be analyzed 
fully in the supplement EIS.
    Question. The Committee understands that the Navy variant of JSF 
will not be available until September 2012. If this is the case, how 
can the Department comply with the BRAC mandate?
    Answer. The JSF aircraft acquisition is a programmatic decision and 
is not part of the BRAC recommendation.
    The BRAC recommendation requires that a JSF Initial Joint Training 
Site be stood up at Eglin AFB. This includes appropriate manpower 
movements for maintenance and pilot instructors from all three 
Services; construction of a specialized JSF Academic Training Center 
housing JSF training devices and JSF flight simulators for all three 
aircraft variants; and other supporting facilities for aircraft 
maintenance and housing/feeding student personnel.
    The manpower and facilities have been programmed and construction 
is underway on a schedule to meet the BRAC timeline. The academic 
training facility with its maintenance and flight simulators will 
provide the capability to train all Services maintenance personnel and 
pilots by 15 Sep 2011. The JSF acquisition schedule may vary with 
individual Service requirements and other programmatic decisions, 
however the Initial Joint Training Site, with the capability to train 
JSF personnel in all variants will standup prior to 15 Sept 2011 and be 
ready to align with the JSF acquisition schedule.
    Question. The Secretary of Defense announced on April 6, 2009 that 
the Department will increase the buy of Joint Strike Fighters. Will 
this have any impact on the requirements for the joint training site at 
Eglin?
    Answer. This announcement does not impact the requirements for the 
joint training site at Eglin.

            Eglin AFB-Relocation of 7th Special Forces Group

    Question. It is the Committee's understanding that the construction 
to support the relocation of the 7th Special Forces Group from Fort 
Bragg to Eglin has been delayed and complicated by the issues 
associated with the training site for the JSF. What projects has the 
Department currently identified for bedding down the 7th SFG at Eglin, 
and what is the timeline for the award and construction of each 
project?
    Answer. There is one BRAC project, funded in two increments (FY09/
FY10) that has been identified to meet the BRAC requirement to relocate 
the 7th SFG to Eglin AFB. One contract has been awarded for the first 
increment and another is scheduled for award this fiscal year. The 
award of this project was delayed because of issues associated with the 
JSF that were identified in the Environmental Impact Statement (EIS). 
Those issues have been resolved, the project is on schedule to meet the 
BRAC deadline of 15 September 2011.
    Question. The relocation of the 7th SFG involves Air Force, Army, 
and Special Operations Command. Eglin AFB, however, is not a Joint 
Basing site. Has the Department sorted out what each command will be 
responsible for in terms of MILCON programming and execution?
    Answer. The Army will be responsible for the MILCON programming and 
execution for the construction projects required by the 7th SFG.
    Question. The Committee has information that there are about $106 
million of unfunded construction requirements for the 7th SFG at Eglin. 
Have any 7th SFG projects been identified which are not being funded by 
BRAC?
    Answer. There is one BRAC project, funded in two increments (FY09/
FY10) that has been identified to meet the BRAC requirement to relocate 
the 7th SFG to Eglin AFB. There have been projects identified that are 
not necessary to meet the BRAC requirement but are part of the Military 
Construction (MILCON) program. These projects have been identified, 
validated, and programmed for funding through the MILCON program. The 
Army provided funding to the Air Force for child care, medical, and a 
gymnasium. If any other requirements are identified and are validated 
they will compete for funding through the normal MILCON process.

             Savings and Reduction in Excess Infrastructure

    Question. What is your current estimate of how much money BRAC 2005 
will save the Department, and how does this compare with the savings 
from the four prior rounds?
    Answer. The Department estimates that the BRAC 2005 recommendations 
will save $4B annually, which compares with the four prior rounds as 
follows:
          <bullet> BRAC 88 $1B annually
          <bullet> BRAC 91 $2.4B annually
          <bullet> BRAC 93 $2.8B annually
          <bullet> BRAC 95 $2.0B annually
    Question. What is the Department's estimate of the net reduction in 
acreage and square footage that BRAC 2005 will produce?
    Answer. As stated in the Secretary's letter to the BRAC Commission, 
the goal of BRAC 2005 was to ``support force transformation; address 
new threats, strategies, and force protection concerns; consolidate 
business-oriented support functions; promote joint- and multi-service 
basing; and provide the Department with significant savings.'' As such 
reducing footprint was not a primary goal. The net change in acreage 
and square feet will not be known until all recommendations are 
implemented. At this point the Department estimates it will return 
49,138.75 acres to communities and other federal agencies.
    Question. The Department cites savings derived from the costs 
associated with service members or civilian personnel who are 
reassigned from a closed or realigned installation. These savings are 
claimed from eliminating authorized positions, despite there being no 
corresponding decrease in overall personnel strength. This assumption 
generates nearly half of the BRAC 2005 savings claimed by the 
Department. Both the BRAC Commission and GAO have disputed the 
Department's claim that these savings are real. What is the 
Department's specific rationale for claiming these savings, and can you 
demonstrate any actual savings from such actions?
    Answer. The issue regarding the treatment of military personnel 
savings represents a longstanding difference of opinion between DoD and 
GAO. The Department considers military personnel reductions as savings 
that are just as real as monetary savings. While the Department is not 
reducing overall end-strength (and is increasing end-strength for the 
Army and Marines), the reductions in military personnel for each 
recommendation at a specific location are real. As is the case with 
monetary savings, personnel reductions allow the Department to apply 
these military personnel to generate new capabilities and to improve 
operational efficiencies. The fact that the Department has already 
decided how to ``spend'' those savings (application to other 
priorities) does not change the fact that savings did occur.

                          Defense Access Roads

    Question. As discussed in the hearing, certain transportation 
improvements have been identified to support BRAC realignments at 
gaining installations, such as Bethesda and Fort Belvoir. Some of these 
improvements may be eligible for military construction under the 
Defense Access Roads (DAR) program. If DAR projects in support of BRAC 
are certified, will these projects be programmed into the BRAC account, 
or will they be shifted to regular MILCON accounts?
    Answer. Any such DAR projects, if certified and validated in DoD's 
planning, programming, budgeting, and execution system, will be 
programmed in the BRAC account.

                              Fort Detrick

    BRAC requires the relocation of the Naval Medical Research Center's 
Biological Defense Research Directorate to Fort Detrick. The initial 
assumption was that the Directorate would be housed in existing, 
renovated laboratory facilities. A new facility was programmed for 
AMRIID, but no space was made available for the Navy's Directorate. In 
June 2008, OSD determined that new $49 million laboratory construction 
project for the Navy was the only viable solution.
    Question. Why did it take until June 2008 to make the determination 
that new construction was needed?
    Answer. As is the case in complex issues involving multiple 
organizations and stakeholders, the Department pursued a variety of 
options to determine the best, least cost alternative to building a 
separate facility. Arriving at this point required a deliberate 
analysis of alternatives and achieving consensus among the various 
organizations. While this deliberate process was lengthy, it ensured 
that all organizations' views were represented in the decision process. 
In the end, senior leadership decided that a laboratory for the Navy's 
directorate was the best approach to meet the Navy's unique mission 
requirements.
    Question. When will new laboratory be fully outfitted and ready for 
occupancy?
    Answer. The new laboratory is expected to be fully outfitted and 
ready for occupancy during fourth quarter of FY 2011.

             Community Support and Quality of Life Projects

    Question. Does the Department consider community support and 
quality of life projects--such as child development centers, chapels, 
commissaries, and fitness centers--to be ``necessary'' for BRAC, and 
therefore appropriate for BRAC 2005 funding?
    Answer. In general, the Department believes that community support 
and quality of life projects that support personnel growth caused by 
BRAC actions to be eligible for BRAC funding. The determination of 
whether specific projects are eligible is left to the Military 
Departments controlling the installations.
    Question. How does the Department determine whether a given project 
is appropriate for BRAC 2005 funding?
    Answer. As indicated in the earlier question, the Military 
Departments determine which projects are necessary to support incoming 
missions that arrive as a direct result of a BRAC action. The specifics 
of the individual projects are developed based on such factors as 
population growth and the type of mission coming to the base.
    [Clerk's note.--Questions for the record submitted by 
Congressman Wamp.]

                          BRAC Implementation

    According to the testimony, the Department continues to monitor 
BRAC implementation to ensure that we are meeting our legal obligation 
under the law.
    Question. What is the Department's view on what it considers to be 
``meeting the legal obligation under the law''?
    Answer. The Department has a legal obligation to complete all 
closures and realignments no later than six years from the date the 
President transmits the Commission's report to the Congress. The 
Department defines completion as the point in time at which all 
functions specified in the BRAC recommendation have been relocated to 
and are functioning at the receiving installation(s) identified in the 
recommendation. In the case of closures, caretaker and environmental 
operations may continue at the closed location, as long as the 
functions have been relocated to and are functioning at the specified 
receiving location.
    Question. If and when the Department makes the determination that a 
BRAC action cannot be completed on time, what are some of the options 
that you are considering?
    Answer. At this point in time, we are confident that all 
recommendations will be completed on time. If later in the process, it 
appears that a recommendation may not be completed on time, the 
Department will examine its options in detail to determine the best way 
forward.
    Question. How many Joint Basing MOAs have been signed?
    Answer. As of April 10, 2009, five joint basing Memorandum of 
Agreement (MOAs) have been signed. Those MOAs are for Joint Base Myer-
Henderson Hall, Joint Expeditionary Base Little Creek-Story, Joint Base 
Andrews--NAF Washington, Joint Region Marianas (Naval Base Guam--
Andersen AFB), and Joint Base McGuire--Dix--Lakehurst.
    Question. Which ones?
    Answer. Those MOAs have been signed for Joint Base Myer-Henderson 
Hall, Joint Expeditionary Base Little Creek-Story, Joint Base Andrews--
NAF Washington, Joint Region Marianas (Naval Base Guam--Andersen AFB), 
and Joint Base McGuire--Dix--Lakehurst.
    Question. How many does the Department expect to have signed by the 
beginning of FY'10?
    Answer. The Department expects to have signed MOAs for all 12 joint 
bases by the beginning of FY'10.
    Question. When does the Department expect to have all MOAs signed?
    Answer. The Department expects all MOAs to be signed by October 1, 
2009.

                      Milan Army Ammunition Plant

    Your testimony describes that the first major BRAC 2005 closure was 
completed last December when the Kansas Army Ammo Plant was closed and 
production was moved to McAlester (OK) Ammunition Plant, Crane (IN) 
Ammunition Plant, and Milan Ammunition Plant in TN. Secretary Eastin, 
I'm seeking clarification on a number of issues related to the recently 
awarded facilities-use contract for both the Milan Army Ammunition 
Plant (AAP) and the Iowa AAP. Both plants will now be operated by a 
single contractor, with production work being concentrated in Iowa.
    Question. A February 24, 2009 article in the Milan Mirror-Exchange 
cites a corrective action report (CAR) issued by the Army. The CAR 
reportedly highlights a number of serious safety violations at Iowa AAP 
with instructions to report back to the Army by January 29, 2009. Can 
you please provide me with a detailed response about the CAR issued by 
the Army?
    Answer. Corrective Action Report cited in the newspaper article 
found deficiencies in one of the operation areas with regard to storage 
and housekeeping of in-process and scrap material. American Ordnance 
immediately shut down the business unit where this occurred and put 
procedures in place to assure there will not be any future housekeeping 
and storage issues in any business unit at either Iowa Army Ammunition 
Plant or Milan Army Ammunition Plant.
    Question. Have the violations at the Iowa AAP been completely 
addressed?
    Answer. Yes. There is no indication that American Ordnance will 
experience any safety shortcomings related to its plan to consolidate 
the bulk of its production at Iowa, and Iowa can assume the increase in 
workload. Government staff will continue to monitor the area for which 
the Corrective Action Report was issued, as well as all other areas at 
Iowa.
    Question. I understand that some security concerns may have been 
highlighted, so in light othese security concerns, is the Iowa AAP 
ready to assume significant workload that is set to be transferred from 
Milan?
    Answer. There is no indication that American Ordnance will 
experience any security shortcomings related to its plan.
    Question. Will this production move mean that all large and medium 
caliber munitions are produced at one government-owned plant? If so, 
does such a concentration create a vulnerability in our national 
security?
    Answer. Moving the large and medium caliber munitions production 
capability from Milan to Iowa doesn't mean that the Army will be 
limited to a single source. Several other sources exist within the 
National Technology and Industrial Base with the capability to load, 
assemble, and pack mortar and artillery high-explosive cartridges, 40mm 
ammunition, and 105mm and 120mm tank rounds.
    Question. There may be a significant cost to clean up sites at 
Milan if production and testing are moved to Iowa AAP. Has the Army 
identified such environmental costs? Were they taken into consideration 
during the contract evaluation?
    Answer. The Army considered the potential environmental remediation 
costs that could be involved at Milan during the contract evaluation. 
American Ordnance plans to bring additional tenants to Milan to 
preclude the closure of any environmentally managed areas. These 
managed areas include ammunition disposal areas, test areas, or other 
operational areas or ranges that require special environmental permits 
for the activities or processes conducted there. The government will 
bear the costs of environmental remediation at Milan regardless of when 
they are incurred.
    Question. Under BRAC 2005, Milan was slated to become a ``Munitions 
Center of Excellence'' and receive functions from Kansas AAP and Lone 
Star AAP. Does the recent contract award comply with BRAC 2005?
    Answer. The contract awarded to American Ordnance (AO) complies 
with BRAC 2005. Under BRAC, certain munitions production capacity and 
capability was directed to be relocated from Kansas Army Ammunition 
Plant and Lone Star Army Ammunition Plant to Milan. However, BRAC did 
not preclude establishment of similar capacity and capability 
elsewhere. To ensure BRAC compliance, none of the production equipment 
that moved to Milan from Kansas and Lone Star will be moved to Iowa. 
Instead, AO plans to create new production capability at Iowa, while 
retaining at Milan the capacity and capability relocated from Kansas 
and Lone Star.
    Question. How would this reorganization impact the number of jobs 
at the Milan plant?
    Answer. American Ordnance will determine how many of its jobs for 
work under the contracts will move and when, and what number of jobs 
will be required for its Milan operations.

                         Discrete BRAC Actions

    The Army has over 1,100 discrete actions that are required for the 
successful implementation of BRAC 2005.
    Question. How many discrete actions have been completed to date?
    Answer. The Army has completed 180 actions as of April 22, 2009.
    Question. How many do you expect to have completed by the end of 
fiscal year 2009?
    Answer. The Army has 265 actions of which 180 are already completed 
that are scheduled for completion by the end of fiscal year 2009.
    Question. What is the cost to implement these 1,100 discrete 
actions?
    Answer. The over 1,100 actions represent what the Army needs to 
complete to meet the requirements of the BRAC Law. Therefore, the cost 
as of the President's fiscal year 2009 budget submission is $17.3 
billion.
    Question. How much of that cost is military construction?
    Answer. The military construction cost to complete the over 1,100 
actions as of the fiscal year 2009 President's Budget submission is 
$13.1 billion.

              FY '09 Army BRAC 2005 Construction Projects

    Question. What is the total cost for the 96 BRAC construction 
projects that the Army intends to award in FY '09? How many of the 96 
BRAC construction projects that the Army plans to award in FY '09 have 
been awarded to date?
    Answer. The cost for the 96 BRAC construction projects scheduled 
for award in fiscal year 2009 is $3.8 billion. As of April 22, 2009, 
the Army has awarded 26 of those projects.

                          Navy Business Plans

    Question. The Secretary has approved all 59 Navy-led BRAC 2005 
business plans along with 24 other service-led business plans with some 
Navy equity in them. Your testimony points out that some significant 
challenges lie ahead. What specifically are those challenges, and how 
are you managing the process to ensure that statutory requirements will 
be met?
    Answer. Seven major construction projects at Naval Air Weapons 
Station China Lake, CA and Naval Surface Warfare Center Indian Head, MD 
require complex site approvals and certifications for operation from 
the Department of Defense Explosive Safety Board. Additionally, 
Correctional Facilities require certification before occupancy. And 
finally, several complex move actions require close coordination with 
other services and agencies. The Department of the Navy (DON) is 
closely managing construction so that it completes in time to conduct 
the necessary certifications. DON is also maintaining effective and 
continuous coordination with other services and agencies for the 
interdependent moves to succeed.

    [Clerk's note.--Questions for the record submitted by 
Congressman Farr.]
    Question. I am concerned that conveyance of legacy bases continues 
to lag. The longer these properties stay on the DOD books, the more 
they cost us to maintain and secure. And--they are not providing any 
economic activity for local communities. I would like your office to I 
provide me with the following statistics so we can get a good handle on 
just where we are on getting these parcels off the DOD books and into 
the hands of locals. Total number of disposed BRAC acres (not including 
Outgrant LIFOC acres). Total number of BRAC acres pending disposal by 
year (including Outgrant LIFOC acres). Number of acres conveyed by 
Service by property disposal type and to which type of grantee. Length 
of time for disposal of BRAC acreage by disposal type.
    Answer. Total number of disposed BRAC acres (not including Outgrant 
Lease In Furtherance of Conveyance (LIFOC) acres) is provided in Table 
1 of Enclosure 1.
    Total number of BRAC acres pending disposal by year (including 
Outgrant LIFOC acres) is provided in Table 2 of Enclosure 1.
    Number of acres conveyed by Service, by property disposal type, and 
to which type of grantee, is provided as Enclosures 2 and 3. Enclosure 
2 also provides comments concerning apparent fluctuations in data from 
one year to the next, including instances where the status of acreage 
may be reclassified from one year to the next.
    Length of time for disposal of BRAC acreage by disposal type will 
be provided separately as soon as we are able to complete the necessary 
data search, validation, and calculations with the Military Departments 
(MILDEPs).
    The information provided reflects yearly disposal activity starting 
in 1999 when the Department of Defense Office of Economic Adjustment 
began tracking this information. Prior to 1999, the MILDEPs had 
disposed of approximately 16% of the acreage to be disposed. This 
response provides a yearly disposal picture for the remaining 84% of 
the total property disposed under BRAC 88, 91, 93, 95, and 05, through 
December 2007.
[GRAPHIC] [TIFF OMITTED] T0526B.185

[GRAPHIC] [TIFF OMITTED] T0526B.186

[GRAPHIC] [TIFF OMITTED] T0526B.187

[GRAPHIC] [TIFF OMITTED] T0526B.188

[GRAPHIC] [TIFF OMITTED] T0526B.189

    Mr. Farr. Okay.
    Mr. Eastin. So, the--is somewhat--in San Francisco.
    Mr. Penn. We will scrub that----
    Mr. Edwards. If there is some way we can work with you to 
move that forward, please let us know.
    Mr. Farr. Thank you. Thank you, Mr. Chairman.
    Mr. Edwards. Mr. Wamp, any other----
    Mr. Wamp. Great hearing.
    Mr. Edwards. I have no additional questions. Obviously, we 
will have a number of written questions we will send to each of 
you. But thank you for your service, and we appreciate you 
being here.
    The committee will stand in recess. Thank you.
                                          Thursday, April 23, 2009.

                     TESTIMONY OF OUTSIDE WITNESSES

                       Statement of the Chairman

    Mr. Farr [presiding]. Good morning. The subcommittee will 
come to order.
    Before I begin, I want to mention that the chairman, Mr. 
Edwards, is going to be a little bit late. He is testifying 
before another subcommittee, and he asked me to chair the 
hearing until he arrives.
    We have about 16 witnesses today from various 
nongovernmental organizations. And with that many witnesses, we 
are going to have to go in a very timely order.
    Because of those constraints, we ask each of you to limit 
your testimony to no more than 5 minutes. We will have copies 
of all your written testimony, and I will make sure that those 
are included in their entirety in the record.
    At this point, I would like to ask Mr. Wamp if he has 
anything to say, opening remarks.

                Statement of the Ranking Minority Member

    Mr. Wamp. Just almost, Mr. Chairman, ditto what you say. 
This is a learning experience for us to give everybody an 
opportunity to appear. And the main thing, I think, is a 
takeaway from each one of the outside witnesses.
    The main thing is, if you can even just underscore my 
takeaway for the day, things that we have to do or should do or 
the most important things, try to think about that ahead of 
time so that, no matter what, we get whatever that message is 
before you walk out the door.
    And that way, we can listen, learn, help and lead, which is 
a pretty good model for us to follow around here. It is not 
done enough, but we are going to try. So thanks for being here.
    Mr. Farr. Thank you, Mr. Wamp.
    And I want to echo that. I read your testimony this 
morning, and I was very impressed. There are a lot of suggested 
things like report language that we could include, but it is 
really for us to listen to you and to take away, what are the 
priorities, needs of the various entities represented here?
    We are going to go in the order this committee has set up, 
and the first is the Friends of the V.A. Medical Care and 
Health Research.
    Mr. Galen Toews, is he here today?
    Galen is a V.A. physician scientist at Ann Arbor V.A. 
Medical Center. He is also a professor of internal medicine at 
the University of Michigan Medical School. He is testifying on 
behalf of the Friends of the V.A. Medical Care and Health 
Research.
    Dr. Toews. Thank you.
    Mr. Farr. Welcome to the committee.
                              ----------                              

                                          Thursday, April 23, 2009.

         FRIENDS OF VA MEDICAL CARE AND HEALTH RESEARCH (FOVA)


                                WITNESS

GALEN B. TOEWS, MD

                      Statement of Galen B. Toews

    Dr. Toews. Thank you.
    Mr. Chairman, my name is Dr. Galen Toews. And as mentioned, 
I am testifying on behalf of FOVA, a coalition of 80 veterans 
service and voluntary health and medical professional 
organizations that work to support funding for veterans health 
programs.
    We are especially committed to ensuring a strong V.A. 
medical and prosthetic research program. And FOVA recommends 
the subcommittee provide $575 million for the V.A. medical and 
prosthetic research program in fiscal year 2010.
    We also, importantly, request an additional $142 million in 
the V.A. minor construction budget to address the deteriorating 
state of V.A. laboratory infrastructure.
    Research really plays an essential role in the V.A. health 
system. Research is the process by which hope is fulfilled, 
hope for less pain, increased function, and independence, 
symptom-free days, and in some instances hope for a cure, hope 
for leading, in short, a normal life.
    These are the kinds of hopes that veterans who come to the 
V.A. are seeking. And the V.A. is dedicated to bringing these 
hopes to fruition.
    The V.A. is doing a good job. In 2008, the V.A. published 
the results of a landmark, 7-year diabetes trial, which found 
that intensive control of blood glucose in Type 2 diabetes does 
little to cut the risk of heart disease compared with standard 
treatment.
    In 2007, the V.A. unveiled the first powered ankle-foot 
prosthesis. The V.A. has also been involved in comparative 
effectiveness research for many years, a program that the 
president has highlighted.
    In 2008, the V.A. demonstrated in a large, multi-site 
clinical trial--something we do very well--that more intensive 
treatment of acute kidney injury, for instance, dialysis 6 
times instead of 3 times per week, did not produce any added 
benefit.
    In 2007, the V.A. found that balloon angioplasty and 
stenting, an invasive cardiovascular procedure, did little to 
improve outcome for patients with stable coronary artery 
disease, who were also receiving optimal medical therapy.
    In short, the V.A. is doing good research that is having a 
direct impact on improving the lives of veterans.
    There are some challenges. FOVA congratulates the V.A. for 
a decision to raise the merit review cap from $125,000 per year 
to $150,000. And this was done to recognize the increased costs 
of doing research.
    However, this welcome increase in grant size puts pressure 
on the V.A. to reduce the overall number of grants awarded. We 
urge the subcommittee to provide V.A. with the necessary 
resources to maintain the new award size, while continuing to 
support a comparable number of merit review awards.
    The second challenge is sustaining the good work that we 
have started. The V.A. will need to increase its funding by at 
least $20 million in fiscal year 2010 to just keep up with 
current purchasing power.
    The third challenge is what I mentioned earlier, and that 
is the state of V.A. laboratory infrastructure. State-of-the-
art research requires state-of-the-art technology, equipment 
and facilities, in addition to highly qualified and committed 
scientists. In recent years, the V.A. minor construction 
program has failed to provide the resources needed to maintain, 
upgrade and replace aging facilities.
    FOVA recommends Congress provide at least $142 million for 
V.A. laboratory renovations in fiscal year 2010 via this minor 
construction budget.
    Mr. Chairman, thank you for listening.
    [The prepared statement of Galen B. Toews follows:]
    [GRAPHIC] [TIFF OMITTED] T0526C.001
    
    [GRAPHIC] [TIFF OMITTED] T0526C.002
    
    [GRAPHIC] [TIFF OMITTED] T0526C.003
    
    [GRAPHIC] [TIFF OMITTED] T0526C.004
    
    [GRAPHIC] [TIFF OMITTED] T0526C.005
    
    Mr. Farr. Thank you very much.
    Dr. Toews. I am happy to answer questions if you have any.
    Mr. Farr. Any questions, Mr. Wamp?
    I just have one quick one. DARPA came here and demonstrated 
a lot of the prosthetics that they are developing. Are you 
working closely--are these labs working closely with DARPA?
    Dr. Toews. Yes, they are. They are working closely with a 
variety of laboratories. The prosthesis specifically mentioned 
was an MIT and Brown collaboration. But the answer to your 
question is yes.
    Mr. Farr. Terrific. I am very excited about what you are 
doing in that field.
    Dr. Toews. Right. Right.
    Mr. Farr. Thank you very much.
    Dr. Toews. You are welcome.
    Mr. Farr. Our next witness is Joel Streim? He is testifying 
on behalf of the American Association of Geriatric Psychiatry. 
Dr. Streim is the professor of psychiatry at the University of 
Pennsylvania's School of Medicine.
    Welcome to our committee. And we will take your testimony 
in full for the record, and if you could summarize it.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

             AMERICAN ASSOCIATION FOR GERIATRIC PSYCHIATRY


                                WITNESS

JOEL E. STREIM, MD

                        Statement of Joel Streim

    Dr. Streim. Thank you. Mr. Chairman and members of the 
subcommittee, I am Joel Streim, a past president of the 
American Association for Geriatric Psychiatry and a practicing 
geriatric psychiatrist.
    AAGP is a professional membership organization dedicated to 
promoting the mental health and well-being of older Americans 
and improving the care of those with late-life mental 
disorders.
    You have our written statement, which addresses a number of 
concerns. I will focus my testimony today on just two issues: 
first, the return on V.A. investments in geriatric mental 
health research and services with benefits that are now 
accruing to veterans across the lifespan; and, secondly, the 
need to safeguard funding to ensure full implementation of the 
VHA comprehensive Mental Health Strategic Plan and uniform 
mental health services handbook that specifies requirements 
supporting that implementation.
    The number of veterans 85 years of age or older has grown 
rapidly in recent years, and the V.A. predicts that this oldest 
group will reach 1.2 million next year.
    Providing health care for these veterans is challenging, as 
many of them have co-occurring chronic medical conditions, 
psychiatric illness, including cognitive disorders, and/or 
substance use disorders. For these patients, the interactions 
between their medical and psychiatric illnesses often 
complicate their health and result in poorer outcomes.
    To deal with these common interactions, geriatric 
specialists have recognized that psychiatric treatment must be 
integrated and highly coordinated with general medical care. 
Over the past decade, the V.A. made a historic investment in 
aging research and integrated service models, and now it is 
paying dividends not only in better treatment for older 
veterans, but also in how we approach complex conditions across 
the lifespan.
    V.A. has played a leading role in developing the scientific 
evidence base for understanding and treating health problems 
that are common in late life, such as cognitive impairment, 
musculoskeletal disorders, and chronic pain.
    V.A. expertise in managing these interacting infirmities of 
aging now is informing the approach to younger veterans with 
similar problems. The cross-fertilization made possible by 
advances in geriatric mental health care will be especially 
important in working with returning OEF-OIF veterans who have 
polytrauma, which results in functional limitations due to 
combinations of cognitive impairment and physical disability.
    A related concern is the previously recognized association 
in older adults between head trauma and an increased risk of 
developing dementia, which raises the worrisome possibility of 
accelerated brain aging in these younger veterans with head 
injuries.
    AAGP urges Congress to support the V.A. in monitoring and 
managing the downstream effects of traumatic brain injury and 
its associated cognitive and physical disabilities beyond the 
initial recovery period as these veterans continue to age.
    A second successful V.A. investment in mental health 
services for veterans across the lifespan must be continued and 
strengthened. This is the mental health enhancement initiative, 
which has grown from $100 million when the special purpose fund 
was created in 2005 to $557 million in 2009.
    Through this important initiative, V.A. has ensured the 
availability of mental health staff to treat elderly veterans 
who receive their general health care through home-based 
primary care programs and in community living centers, 
previously known as nursing home care units.
    The integration of mental health services into primary care 
and related settings has made it easier for older veterans to 
access mental health care, and it has improved the coordination 
of care for complex problems that I described in this 
population.
    It has now been 5 years since the development of the VHA 
Comprehensive Mental Health Strategic Plan and 5 years since 
the mental health enhancement initiative was made available to 
support that plan. We at AAGP look forward to the time when the 
strategic plan is fully implemented according to the 
requirements specified in the recent uniform mental health 
services handbook that was published in June 2008.
    However, it is anticipated that after 2009, the enhancement 
initiative will be rolled over into Veterans Equitable Resource 
Allocation, known as VERA. And while we believe V.A.'s intent 
is to maintain these enhancements of mental health care for 
older veterans, we have concerns about V.A.'s ability to 
achieve full implementation of the strategic plan without 
sustained, dedicated funding.
    We therefore urge Congress to enact safeguards to prevent 
diffusion of the ongoing support that is required to reach this 
goal. AAGP appreciates that there is an important existing 
safeguard in appropriations language that requires no less than 
$3.8 billion to be spent for mental health purposes.
    However, further safeguards are really necessary to ensure 
continuation of funding specifically dedicated to full 
implementation of this VHA Comprehensive Mental Health 
Strategic Plan.
    I would like to thank the subcommittee for the opportunity 
to testify today, and I would be pleased to answer any 
questions you have.
    [The prepared statement of Joel Streim follows:]
    [GRAPHIC] [TIFF OMITTED] T0526C.006
    
    [GRAPHIC] [TIFF OMITTED] T0526C.007
    
    [GRAPHIC] [TIFF OMITTED] T0526C.008
    
    [GRAPHIC] [TIFF OMITTED] T0526C.009
    
    [GRAPHIC] [TIFF OMITTED] T0526C.010
    
    [GRAPHIC] [TIFF OMITTED] T0526C.011
    
    [GRAPHIC] [TIFF OMITTED] T0526C.012
    
    [GRAPHIC] [TIFF OMITTED] T0526C.013
    
    [GRAPHIC] [TIFF OMITTED] T0526C.014
    
    Mr. Wamp. So if there is a one-sentence takeaway, what 
would it say?
    Dr. Streim. Try and figure out a safeguard to make sure 
that, if funds are rolled over into VERA, that they are 
dedicated to make sure that the strategic plan is actually 
implemented.
    Actually, the GAO did a follow up in 2006 and published a 
report showing that funds allocated under the mental health 
initiative--enhancement initiative actually didn't all get to 
mental health activities that were part of the intended 
implementation, according to the handbook requirements.
    And so it is down to follow the dollars and make sure they 
get to where they are intended to go.
    Mr. Wamp. Thank you.
    Dr. Streim. The appropriations are there. We want them to 
continue. But we want to make sure they actually do----
    Mr. Farr. You want a firewall?
    Dr. Streim. Exactly. And I leave it up to you to craft 
that.
    Mr. Farr. Let me ask you one question. You recommend a 
creation of a new line of mental health research funding for 
the development, testing and dissemination of an intervention 
to manage the psychiatric and behavioral manifestations of 
Alzheimer's disease and other related dementias.
    Do the National Institutes of Health already have that?
    Dr. Streim. Yes, the NIH funds the large proportion of the 
Alzheimer's research in the United States currently. The V.A. 
has actually also taken tremendous initiative in this area. 
There are geriatric research, education and clinical centers. 
There are mental illness research, education and clinical 
centers----
    Mr. Farr. Then why do we need a line item?
    Dr. Streim. Because we really believe that the Alzheimer's 
research at this point is still underfunded. And the reason we 
are particularly concerned now, as I said in my oral testimony, 
is, with all the returning veterans from Afghanistan and Iraq 
theaters, we are seeing head injuries, and we know that these 
young veterans are at risk as they age for developing dementias 
of the Alzheimer type. And we want to be as prepared as we can, 
as they get older, to follow them up and make sure that the 
treatments are in place.
    Alzheimer's research is underway, but we have a long way to 
go.
    Mr. Farr. Thank you. We appreciate your testimony.
    Dr. Streim. Thank you.
    Mr. Farr. Moving on, Barbara Cohoon is the Deputy Director 
of Government Relations for the National Military Family 
Association. She is a member of the Department of Defense's 
Uniform Formulary Beneficiary Advisory Panel. That is a 
mouthful. She has been appointed to DOD's Defense Health 
Board's TBI Family Caregivers Panel, Health Care Delivery 
Subcommittee, and the TBI Subcommittee.
    We look forward to your testimony.
                              ----------                              --
--------

                                        Thursday, April 23, 2009.  

                  NATIONAL MILITARY FAMILY ASSOCIATION


                                WITNESS

BARBARA COHOON

                      Statement of Barbara Cohoon

    Ms. Cohoon. Thank you.
    Mr. Chairman and distinguished members of the subcommittee, 
the National Military Family Association would like to thank 
you for the opportunity to present testimony on the quality of 
life of military families, the nation's families.
    In this statement, our association will address issues of 
importance to military families, veterans, and survivors 
regarding family readiness, family health, and family 
transition.
    Our association is pleased with the attention this 
subcommittee has paid to expanding childcare facilities. 
However, we continue to hear more childcare services are needed 
to fill the ever-growing demand. Our association encourages 
increased funding for drop-in childcare for medical 
appointments and restive care on DOD and V.A. premises--
partnerships with other organizations to provide this valuable 
service.
    Privatized housing is a welcome change for military 
families. However, project delays negatively impact the quality 
of the life of our families. A visit to Key West, Florida, 
found a contractor had only renovated 32 homes out of 890, and 
no new construction projects had been completed. We request an 
oversight hearing to address these issues.
    The V.A. needs to be cognizant of the ever-changing 
landscape and needs of their veteran population and those who 
care for them. The V.A. needs to offer alternative housing 
arrangements, which allows for a diversified population to live 
together in harmony, fosters independent living, and maintains 
dignity for all involved. We recommend V.A. funding for these 
housing initiatives.
    The commissary is a key element of the total compensation 
package for our military families. Our association is concerned 
there will not be enough commissaries to serve areas 
experiencing substantial growth because of BRAC. Additional 
flexible funding is needed to ensure commissaries are built, 
expanded or renovated in these areas.
    Our association is concerned DOD and the V.A. health care 
system may not have all the resources it needs to provide 
access to health care for all eligible beneficiaries. DOD and 
V.A.'s health care facilities must meet today's health care 
demands of the diversified population.
    Congress must provide timely and accurate funding for 
world-class facilities, offering state-of-the-art services 
supported by evidence-based research and design.
    Family members are a key component of their veteran's well-
being. Our association is especially concerned with the 
scarcity of services available to these families as they leave 
the military.
    The V.A. and DOD need to think proactively as a team and as 
one system to address issues early in the process and provide 
transitional programs. And these services need to be adequately 
funded.
    Interoperability is crucial. We need to create a seamless 
transfer of medical record information, especially as we move 
toward more joint facility operations and for our wounded, ill 
and injured who frequently transfer between the two agencies' 
health care systems. We encourage Congress to adequately fund 
V.A. and DOD I.T. interoperability.
    Caregivers need to be recognized for the important role 
they play in the care of their loved ones. Their daily 
involvement improves the quality of life of the veteran and 
saves the V.A. money. In order to perform their job well, 
caregivers need to be trained, certified, and appropriately 
compensated for the care they provide.
    Our association looks forward to discussing details of 
implementing such a plan with members of this subcommittee. We 
would like to see the dependents educational assistance benefit 
match the increase in Montgomery G.I. Bill benefits and adjust 
proportionately whenever Congress raises servicemembers' 
educational benefits.
    Our association asks for dependency and indemnity 
compensation, DIC equity, with other federal survivor benefits 
and that it be increased to 55 percent of V.A. disability 
compensation. We ask Congress to make the additional $250 DIC 
family transitional payments paid by the V.A. retroactive 
through October 7, 2001, and that this benefit be linked to 
COLA in the future.
    BRAC and global rebasing are still occurring. For families 
remaining overseas, additional MILCON funding is needed to 
rebuild and upgrade schools. To address these concerns, we urge 
Congress to appropriate $100 million in MILCON funding for 
these schools.
    Our association would like to thank you again for the 
opportunity to present testimony today on the quality of life 
of our military families. We thank you for your support of our 
servicemembers, veterans, their families, and for the survivors 
who made the greatest sacrifice.
    Military families are our nation's families. They serve 
with pride, honor, and quiet dedication. We look forward to 
working with you to improve the quality of life for all these 
families.
    Thank you, and I await your questions.
    [The prepared statement of Barbara Cohoon follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.015
    
    [GRAPHIC] [TIFF OMITTED] T0526C.016
    
    [GRAPHIC] [TIFF OMITTED] T0526C.017
    
    [GRAPHIC] [TIFF OMITTED] T0526C.018
    
    [GRAPHIC] [TIFF OMITTED] T0526C.019
    
    [GRAPHIC] [TIFF OMITTED] T0526C.020
    
    [GRAPHIC] [TIFF OMITTED] T0526C.021
    
    [GRAPHIC] [TIFF OMITTED] T0526C.022
    
    [GRAPHIC] [TIFF OMITTED] T0526C.023
    
    [GRAPHIC] [TIFF OMITTED] T0526C.024
    
    [GRAPHIC] [TIFF OMITTED] T0526C.025
    
    [GRAPHIC] [TIFF OMITTED] T0526C.026
    
    [GRAPHIC] [TIFF OMITTED] T0526C.027
    
    [GRAPHIC] [TIFF OMITTED] T0526C.028
    
    [GRAPHIC] [TIFF OMITTED] T0526C.029
    
    [GRAPHIC] [TIFF OMITTED] T0526C.030
    
    Mr. Farr. Thank you--certainly, you did that in a timely 
way, 14 pages of testimony all single spaced. I think you had 
more requests than all the other witnesses of the day.
    Do you have any questions?
    Mr. Wamp. It is about the best summary of the quality-of-
life needs that I have actually heard, so whoever did that is 
very good.
    This is a little off that path, though, and you may have to 
get back with me on this, but General Casey, General Chiarelli, 
and General Casey's wife have all told me personally that there 
are still impediments in the law, statutory impediments to 
outside entities, nonprofits, even for-profit entities, or 
individuals from assisting financially military families.
    And I have actually got a new bill and old law right here 
that I am reviewing, trying to figure out how to approach this. 
But if your association can identify any impediments that exist 
today for military families, I hear them say that a lot of our 
free enterprise system wants to help military families and they 
can't, they are prohibited by law, by statute.
    I need to know where, how, and what to change, because I 
want to do that. I feel like that is a missing link. You all 
clearly make your case to us on behalf of the taxpayers, but if 
there is this huge potential out there of our free enterprise 
system, besides employers in the Guard and Reserve, et cetera, 
people that want to help but they can't, they are prohibited.
    And some of it is gift rules. I am reading all this, but I 
don't think it is just direct gifts, like I want to give you 
food or whatever. I think it is support.
    And that is a question that we need to address every 
hearing. But if you all can glean that from your membership and 
ask, you know, where have you seen them stopped from helping--
people they want to help? Let's say you want to give a van; I 
don't know. I mean, just things like that.
    So I am just throwing that at you, but I don't expect you 
to answer the question, but I would love to have you come to my 
office and give me any feedback from your membership.
    Ms. Cohoon. Well, we certainly can do that. America 
Supports You, which is a Web site set up by DOD, has a lot of 
nonprofit entities that provide services for families. And we 
direct them in that direction on a regular basis.
    Also, too, the military itself has institutions in place as 
far as to help out financially, along with the different 
services on top of that, too, for them to go to.
    So there are organizations that have been giving out large 
sums of money and have been giving--you know, fixing up homes 
and things like that. So I will certainly go back and talk to 
members within our association, as far as what they are hearing 
regarding legal aspects that are preventing it from going on.
    But we certainly tell people on a regular basis to go to 
America Supports You. We also point them in other--because our 
association does not give out money. But we do steer them to 
organizations that do it on a regular basis and have not heard 
back that the organization itself was unable to proceed.
    Mr. Wamp. Quickly, because there are 13 others, but let me 
ask you, how many of your families still have financial 
problems that cause them to go to predatory lenders and borrow 
money that puts them in a hole that they can't get out of?
    And what about divorce? And are you seeing suicide rates go 
up, many times from family members who have had financial 
problems or divorce while they have been serving? And that 
pressure leads to suicide, and some people think it is 
asymmetrical warfare and head trauma and all that, which are in 
some cases, but in most cases, it is just the pressure on the 
family. Is that what you see with your membership?
    Ms. Cohoon. Well, we are hearing the financial aspect 
starting to play out more and more. I was recently in Norfolk, 
and the special forces are starting to notice, especially 
foreclosures on homes. And they themselves have set something 
up to help them financially with that particular piece.
    Because their concern is--and it is true across the 
service--if you are thinking about financial issues back home, 
it is difficult for you to be able to serve in theater and do 
your job. And so they are looking at that particular piece.
    Predatory lending is still an issue. There are some 
loopholes which we can get back to you on that that we would 
like to see addressed.
    But the services themselves, as far as the Navy-Marine 
Corps Relief Society, those types of programs have made it so 
that it is a little bit easier as far as their servicemembers 
to go and get money.
    The problem with the mental health issues is, there is a 
shortage of providers out there. One of our things that we also 
had in our testimony is we need to do a lot more outreach as 
far as teaching our families, but also the communities in which 
they live, signs and symptoms of mental health issues and then, 
also, the resources to go to, because it may not necessarily be 
the spouse. It is mom or dad, or it might be the coach that is 
picking up.
    So there are a lot of different moving parts, but we can 
certainly get back to you on the lending piece.
    Mr. Wamp. Thank you, Barbara.
    Mr. Farr. Thank you very much. That Web site is 
AmericaSupportsYou.com?
    Ms. Cohoon. I think it is .gov. It is through DOD. It was 
set up some years ago, and it is where all the nonprofits can 
actually register and that can provide services.
    Mr. Farr. I will take a look at it. Thank you very much for 
your testimony.
    The next witness is Stephen Nolan. Stephen is testifying on 
behalf of the American Lung Association. In May 2006, he was 
elected to serve on the board of directors of the American Lung 
Association. This is the oldest nonprofit health agency in the 
country.
    Welcome to our committee.
                              ----------                              

                                          Thursday, April 23, 2009.

                       AMERICAN LUNG ASSOCIATION


                                WITNESS

STEPHEN J. NOLAN

                     Statement of Stephen J. Nolan

    Mr. Nolan. Good morning, Mr. Chairman, members of the 
committee.
    I am Steve Nolan. I am chair of the American Lung 
Association. As the chair just indicated, we are the oldest 
voluntary health organization in the country with over 300,000 
volunteers and over 5 million active donors.
    I am an attorney in private practice in Baltimore, 
Maryland, and have been a volunteer with the American Lung 
Association for over 10 years.
    I am pleased today to be accompanied by our new American 
Lung Association president and CEO, Chuck Connor, Captain 
Charles Connor, I should say, U.S. Navy, retired. Captain 
Connor served our nation in uniform for over 26 years.
    First of all, we want to thank you, Mr. Chairman, and the 
committee for increasing the investment in medical research at 
the V.A. to $510 million for fiscal year 2009.
    There is no doubt that our nation has an undying commitment 
to all our veterans, especially the 40 percent of our veterans 
who are over age 65. Chronic diseases are now the most 
prevalent in the V.A. system. Now is the time to increase 
funding for research at the V.A. to meet emerging needs and the 
existing disease burden.
    The American Lung Association recommends and supports 
increasing V.A. medical and prosthetics research to $575 
million.
    Tobacco use and the chronic diseases caused and exacerbated 
by tobacco take an enormous toll on veterans. We commend the 
work of this committee and the Veterans Health Administration 
to increase smoking cessation.
    While cigarette smoking continues to be a problem for 
veterans, progress has been made. In 2007, a survey conducted 
of veterans enrolled in the Veterans Administration showed that 
22 percent of the entire enrollee population currently smokes 
cigarettes. In contrast, the general population, the rate of 
smoking among the general adult population is 19.8 percent.
    We recommend that the committee encourage the Department of 
Veterans Affairs to work with the Department of Defense to 
increase effective efforts to prevent tobacco use and increase 
tobacco cessation.
    Let's try to stop tobacco addiction, end disease before it 
starts, and prevent the enormous health toll on this nation's 
veterans and active-duty military.
    Now, let's look at just one lung disease the American Lung 
Association is fighting. Chronic lung disease causes a large 
human and financial cost within the V.A. system. Generally in 
this country, lung disease is responsible for 1 out of 6 
deaths. It is the third-leading cause of death in this country.
    And in particular, chronic pulmonary obstructive disease 
affects approximately 16 percent of the veterans, according to 
the Department of Veterans Affairs health care.
    Proven interventions are effective, and treatments have 
been showed to improve quality of life. Chronic obstructive 
pulmonary disease, or COPD, is a term referring to two lung 
diseases, chronic bronchitis and emphysema. Both conditions 
cause obstruction of the air flows that interfere with normal 
breathing.
    Emphysema begins with destruction of the airways. As air 
sacs are destroyed, the lungs are able to transfer less and 
less oxygen to the bloodstream. The lungs also lose their 
capacity and elasticity, which results in a shortness of breath 
and difficulty exhaling.
    Symptoms of emphysema include cough, shortness of breath, 
and limited exercise tolerance. People with COPD may eventually 
require oxygen and supplemental mechanical respiratory 
assistance.
    The other COPD that I mentioned is chronic bronchitis, and 
that refers to inflammation and eventual scarring of the lining 
of the lungs and the bronchial tubes.
    The bronchial tubes then make an ideal breeding place for 
bacteria infections, infections which are a frequent reason for 
hospitalization and emergency visits of veterans and other 
people with COPD.
    Cigarette smoking is associated with a tenfold increase in 
the risk of dying from chronic obstructive lung disease. About 
80 percent to 90 percent of all deaths from chronic obstructive 
lung disease are attributable to cigarette smoking.
    It is possible to reduce the burden of COPD and tobacco 
addiction in the V.A. system through using proven, effective 
measures, summarized in national treating tobacco dependence 
guidelines.
    Mr. Farr. Can you wrap it up?
    Mr. Nolan. Yes, your honor.
    I would like to say just a few words regarding research----
    Mr. Farr. You have got about a half a minute.
    Mr. Nolan. Yes, sir. Again, the ALA supports increasing the 
investment to $575 million.
    [The prepared statement of Stephen J. Nolan follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.031
    
    [GRAPHIC] [TIFF OMITTED] T0526C.032
    
    [GRAPHIC] [TIFF OMITTED] T0526C.033
    
    [GRAPHIC] [TIFF OMITTED] T0526C.034
    
    [GRAPHIC] [TIFF OMITTED] T0526C.035
    
    [GRAPHIC] [TIFF OMITTED] T0526C.036
    
    [GRAPHIC] [TIFF OMITTED] T0526C.037
    
    [GRAPHIC] [TIFF OMITTED] T0526C.038
    
    [GRAPHIC] [TIFF OMITTED] T0526C.039
    
    Mr. Farr. Thank you very much.
    Mr. Nolan. Thank you, Mr. Chairman.
    Mr. Farr. Mr. Wamp.
    Mr. Wamp. Well, that is the takeaway, but what is the cost 
of cigarette smoking to the United States of America each year?
    Mr. Nolan. In H.R. 1256, which was recently passed by the 
House, the cost is tremendous. Cigarette companies alone spent 
$13.5 billion in 2005 to keep Americans addicted to smoking and 
to attract new smokers.
    But, sir, I will provide the committee with the actual 
dollar cost, the overall dollar cost to our health care system 
in a supplemental submission.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.040
    
    [GRAPHIC] [TIFF OMITTED] T0526C.041
    
    [GRAPHIC] [TIFF OMITTED] T0526C.042
    
    [GRAPHIC] [TIFF OMITTED] T0526C.043
    
    [GRAPHIC] [TIFF OMITTED] T0526C.044
    
    [GRAPHIC] [TIFF OMITTED] T0526C.045
    
    [GRAPHIC] [TIFF OMITTED] T0526C.046
    
    Mr. Wamp. Thank you.
    Mr. Farr. Thank you. I have one question. In your 
testimony, you point out that the Department of Veterans 
Affairs estimates that more than 50 percent of all the active-
duty personnel stationed in Iraq smoke. Why?
    Mr. Nolan. Captain Connor.
    Mr. Farr. That is 1 out of every 2. Are they smoking before 
they go to Iraq or are they picking it up there?
    Captain Connor. The indications are that they are 
nonsmokers before they come into the Army and they pick it up 
during the course of their service because some of their 
sergeants or their seniors smoke. And in theater, they pick 
this up----
    Mr. Farr. Are there any penalties for starting to smoke 
while you are in the service?
    Captain Connor. There are no administrative or disciplinary 
penalties, but they are coming back from service 50 percent as 
smokers when they weren't a year or two before.
    Mr. Farr. You need to look into that.
    Thank you.
    Mr. Nolan. Thank you. I appreciate it.
    Mr. Farr. Our next witness is Dr. Heather Kelly, Senior 
Legislative and Federal Affairs Officer in the Science-
Government Relations office of the American Psychological 
Association, a scientific and professional organization of more 
than 150,000 psychologists and affiliates.
    Welcome to our committee, and we look forward to your 
testimony. We have the testimony and will submit it for the 
record, so if you could just summarize it.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION


                                WITNESS

HEATHER KELLY

                       Statement of Heather Kelly

    Ms. Kelly. Yes, sir. Thank you.
    Good morning, Mr. Vice Chairman, Ranking Member Wamp. As 
was mentioned, I am Dr. Heather O'Beirne Kelly with the 
American Psychological Association, APA, and we are a 
membership organization of more than 150,000 psychologists and 
affiliates across the country, both scientific and clinicians 
focused.
    Many of our psychologists work within the Department of 
Veterans Affairs as both research scientists and clinicians 
committed to improving the lives of our nation's veterans.
    A strong V.A. psychology research program provides the 
scientific foundation for high-quality care within the V.A. 
system. V.A. psychologists play a dual role in both providing 
care for veterans and in conducting research in all areas of 
health, including high-priority areas especially relevant to 
veterans, such as mental health, brain injury, substance use, 
aging-related disorders, and physical and psychosocial 
rehabilitation.
    As you know, the current conflicts have presented new 
challenges for V.A. psychologists, as many veterans of PTSD 
have post-concussive symptoms extending from blast injury. In 
addition, V.A. psychologists often receive special training in 
rehabilitation psychology and/or neuropsychology, which helps 
to improve assessment, treatment and research on the many 
conditions affecting veterans of the current conflicts, 
including PTSD, burns, amputations, blindness, spinal cord 
injuries, and polytrauma.
    Equally important are the positive impacts of psychological 
interventions on the care of veterans suffering from chronic 
and aging-related illnesses, such as cancer, cardiovascular 
disease, HIV, and pain. I should mention psychologists have a 
very strong program within the V.A., in terms of substance 
abuse prevention and treatment, especially focusing on smoking 
these days in the current theaters.
    Here are my two take-home points. First, APA joins the 
Friends of V.A. Medical Care and Health Research, the FOVA 
coalition, in urging Congress to provide $575 million in fiscal 
year 2010 for the overall V.A. medical and prosthetic research 
accounts. This recommendation is echoed in the veterans 
Independent Budget and in the Senate Committee on Veterans' 
Affairs views and estimates.
    We also urge the committee to make sure that our stellar 
V.A. scientists have adequate technology, equipment and 
facilities for their research. That is my second take-home 
point.
    So within the V.A. minor construction program, which has 
not provided the resources needed to adequately maintain, 
upgrade and replace aging research facilities, we again join 
FOVA in urging Congress to designate $142 million in fiscal 
year 2010 within the minor construction budget specifically for 
renovation of research facilities.
    This is not asking for luxury. I mean, it is true that some 
of these facilities have research labs that are in worse shape 
than my children's elementary schools, and that should not be 
the case.
    As a psychologist and also as the daughter and 
granddaughter of career military officers, I feel very 
strongly, both personally and professionally, about our 
responsibilities towards military personnel and veterans.
    The care of veterans suffering psychological wounds as a 
result of military service is at the heart of the V.A.'s 
mandate to ``care for him who shall have borne the battle.'' 
And with your support, V.A. psychologists stand ready to 
respond with cutting-edge research and treatment.
    Thank you. And I am happy to take any of your questions.
    [The prepared statement of Heather Kelly follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.047
    
    [GRAPHIC] [TIFF OMITTED] T0526C.048
    
    [GRAPHIC] [TIFF OMITTED] T0526C.049
    
    [GRAPHIC] [TIFF OMITTED] T0526C.050
    
    [GRAPHIC] [TIFF OMITTED] T0526C.051
    
    [GRAPHIC] [TIFF OMITTED] T0526C.052
    
    Mr. Farr. Thank you very much, less than 2 minutes. Well 
done.
    Mr. Wamp. Thanks for your service and excellent testimony. 
When the other witnesses said that we still don't have enough 
providers for psychological services, what is your association 
doing to help us provide those providers through the V.A. in 
the field so that we do have adequate mental health services 
for our returning population?
    Ms. Kelly. Yes. And I can get back to you with a much 
longer, specific response, but we echo their concerns. 
Sometimes the issue is not as much financial as making sure 
that the--as a previous witness mentioned, get to the right 
places so that the money can be spent on the right things.
    And you all have helped in the past couple of years--
devoted a lot more support toward mental health professionals. 
In some cases, we have those professionals now, and we are 
waiting to get them a desk, a computer. So there are a lot of 
issues around personnel that aren't necessarily always pure 
numbers.
    But we can certainly get back to you in terms of what the 
issues are and how best we could address those.
    Mr. Farr. Thank you.
    Ms. Kelly. I had a nice meeting with your staff last week 
on some of these issues. They have been very helpful.
    Mr. Wamp. Thank you.
    Mr. Farr. In the office of the American Psychological 
Association, you represent all the professionals in the 
association, not those just that are in the V.A.----
    Ms. Kelly. Correct.
    Mr. Farr. or any government----
    Ms. Kelly. Yes.
    Mr. Farr. And what we have been trying to do is--match 
those professionals with the patients in their hometown 
communities.
    Ms. Kelly. We have had a lot of interest from our 
membership across the country, both in terms of Reserve, V.A., 
and active duty--psychologists who practice as clinicians who 
want to be of service, of volunteer service to military and 
veteran personnel.
    And we are trying--and as NMFA mentioned, we are trying to 
find the best ways to hook up appropriate personnel with 
appropriate training in ways that they can be helpful to sort 
of augment what the military and the V.A. population of mental 
health professionals can provide.
    Mr. Farr. A very effective Web site you might look at is 
called networkofcare.org. It tries to link up resources county 
by county in the United States, so that you really know what 
all the network of care in a given field, Alzheimer's or mental 
health, or other kinds of diseases, what kind of resources are 
there in the civilian community, as well as the government.
    Ms. Kelly. Thank you.
    Mr. Farr. Well, thank you for your testimony.
    Ms. Kelly. Thank you very much.
    Mr. Farr. Next witness is with the American Thoracic 
Society, Jesse Roman-Rodriguez, who is testifying on behalf of 
the American Thoracic Society, a medical professional 
organization of over 15,000 members dedicated to the 
prevention, treatment, research, and cure of respiratory 
disease.
    Dr. Roman-Rodriguez is a professor of medicine at the Emory 
University School of Medicine and is also staff physician at 
the Emory Clinic and the Atlanta Veterans Affairs Medical 
Center.
    Welcome to our committee.
                              ----------                              

                                          Thursday, April 23, 2009.

                       AMERICAN THORACIC SOCIETY


                                WITNESS

JESSE ROMAN-RODRIGUEZ, MD

                   Statement of Jesse Roman-Rodriguez

    Dr. Roman-Rodriguez. Thank you. Good morning, Mr. Chairman 
and members of the committee.
    My name is Jesse Roman-Rodriguez, as you heard. I serve at 
the Atlanta V.A. Medical Center, and I am here to talk to you 
about the good things that V.A. provides, but also to request 
that you provide funding for its infrastructure.
    I am excited to be here because of the many things the V.A. 
medical research and prosthetic research program provides. I 
know I have only a few minutes, so I am going to focus on a 
couple of things that I believe are truly outstanding about 
this program.
    As you mentioned, I testify on behalf to the American 
Thoracic Society. It is a 15,000-member medical professional 
society dedicated to the research, prevention, treatment and 
cure of respiratory disorders. Like me, there are many ATS 
members that serve in V.A. facilities all across the country.
    This organization is especially committed to ensuring the 
continuation of strong V.A. medical and prosthetic research 
program. And it is grateful that, in the past year, there has 
been increases in the V.A. funding, and we request the 
subcommittee to provide $575 million for the V.A. research 
program in 2010.
    Now, why support the V.A.? And you have heard other 
witnesses describe that. Let me give you my version of it.
    First, the V.A. research program attracts many bright, 
young physicians to serve our nation's veterans. You have the 
best physicians. You also have the best trainees. And that is a 
crucial component with what the V.A. does, and these are people 
devoted to taking care of veterans.
    I came to the V.A. because of its research program. I 
trained in the V.A. in San Juan. Later on, I went to the St. 
Louis V.A. I have been 17 years at the Atlanta V.A., and I am 
moving on to Kentucky to the Louisville V.A. And it is a 
program that I would not leave.
    Based on my experience, and the experience of my colleagues 
and many others, I am convinced that the V.A. research program 
keeps high-quality doctors within the system. The grants, the 
mentorship opportunities that are there really attract these 
people who are actually devoted to the care of patients. And, 
therefore, being able to maintain a clinical research career 
there is highly attractive for these physicians.
    The second point that I want to make is the V.A. research 
program excels in clinical research. It is great to perform 
research in tissue culture and Petri dishes and so forth, but 
we have got to translate that research to the human condition 
and the care of patients. That is something the V.A. 
researchers do and do extremely well.
    In my own place, research performed by my colleagues has 
improved dramatically the care of critically ill veterans and 
veterans with tobacco-related diseases, diabetes, hypertension, 
and so forth.
    The third point is that the V.A. research produces really 
outstanding science. These findings can be found in the top 
journals, New England Journal of Medicine, Journal of the 
American Medical Society, and so forth.
    I will give you one example at my own V.A. I have a group 
that is involved in alcohol-related research and its' 
relationship with the lung. Until the mid-1990s, there was no 
known association between those two. Now, because of this 
group, we know that chronic alcohol abuse increases 
susceptibility to acute lung injury, which kills about 50 
percent of the people who develop it.
    This group, over the past decade, has found the mechanism 
by which this happens, has found a receptor that affects--that 
relates to alcohol in the lung, and is looking very carefully 
into potential therapeutic targets to treat that. So whether it 
is alcohol abuse, lung cancer, heart disease, Parkinson's, 
V.A.'s researchers are looking into that.
    And, lastly, the V.A. research program is good for 
veterans. Its program is devoted to taking care of diseases 
that have--or that affect the veteran population.
    What is the problem? Well, one of the problems--one of the 
dark spots here is the infrastructure in the V.A. aging 
facilities. The V.A. research labs are woefully out of date. 
The sub-par research facilities are making it increasingly hard 
to recruit and retain top-flight physician researchers into the 
V.A.
    The ATS greatly appreciates this subcommittee bringing 
attention to this area by supporting and developing a report 
that will look at the V.A. infrastructure. Unfortunately, the 
funds are really needed now so that we don't continue to 
neglect V.A. research labs. Funds to refurbish V.A. research 
are desperately needed in 2010. ATS strongly recommends that 
$142 million be provided to rehabilitate the existing 
laboratory space.
    So, Mr. Chairman, I think it is clear that V.A. research 
provides a lot of good things to a lot of good people for a 
little money. I hope you will continue to support the nation's 
veterans to provide $575 million for the V.A. research program 
and $172 million to improve its infrastructure and space 
rehabilitation for 2010.
    Thank you. And I will answer any questions.
    [The prepared statement of Jesse Roman-Rodriguez follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.053
    
    [GRAPHIC] [TIFF OMITTED] T0526C.054
    
    [GRAPHIC] [TIFF OMITTED] T0526C.055
    
    [GRAPHIC] [TIFF OMITTED] T0526C.056
    
    Mr. Farr. Thank you.
    Mr. Wamp.
    Mr. Wamp. No questions. Thank you.
    Mr. Farr. How many research facilities are there?
    Dr. Roman-Rodriguez. Around 52 or so, one or two per state.
    Mr. Farr. And $142 million will take care of that, huh?
    Dr. Roman-Rodriguez. It will go a long way to improving the 
research laboratory structure, yes, sir.
    Mr. Farr. Okay, thank you very much. We appreciate your 
testimony, Doctor.
    Dr. Roman-Rodriguez. Thank you.
    Mr. Farr. Next witness is Joe Barnes, who is the Fleet 
Reserve Association's national executive director. He is also a 
senior lobbyist and chairman of the association's National 
Committee on Legislative Service.
    Thank you for being here today.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

                       FLEET RESERVE ASSOCIATION


                                WITNESS

JOE BARNES, USN, RET.

                     Statement of Joseph L. Barnes

    Mr. Barnes. Thank you, Congressman, Ranking Member Wamp. It 
is a pleasure to be here.
    Thank you for the opportunity to present FRA's legislative 
goals. My name is Joe Barnes. I am the FRA's national executive 
director. And with me today is Gerald Brice, a constituent of 
Representative Wamp's, and FRA's southeast region vice 
president from Chattanooga, Tennessee.
    Mr. Farr. Thank you for coming.
    Mr. Barnes. He is here to participate in FRA's Hill 
business day, in conjunction with our national board of 
directors meeting tomorrow and Saturday.
    A continuing concern for FRA is ensuring that wounded 
troops, their families, and the survivors of those killed in 
action are cared for a grateful nation. This includes adequate 
and sustained funding to ensure quality health care, support 
and benefits, medical and prosthetic research, and a smooth, 
seamless transition for veterans transitioning from DOD to the 
V.A. for care.
    There is progress towards these goals, and FRA sincerely 
appreciates the strong support from this distinguished 
subcommittee in achieving this. FRA appreciates and firmly 
supports the administration's plan to submit a 2010 V.A. budget 
of $113 billion, which is $15 billion higher than this year's 
budget.
    Much of the significant increase in discretionary funding 
will go to V.A. medical care. And FRA notes that the proposal 
exceeds the Independent Budget recommendations by $1.3 billion.
    FRA also supports legislation to authorize advanced 
appropriations for V.A. medical care and, if approved, urges 
adequate appropriations to support this initiative.
    FRA also supports the timely enactment--or appreciates the 
timely enactment of the 2009 V.A. budget, which was the first 
time in 15 years that this legislation was passed on time.
    The association also supports increased funding to support 
improvements to the Veterans Benefits Administration paperless 
system and to expand access to additional Priority Group 8 
veterans seeking care in the V.A. health care facilities.
    The administration's budget outline also references the 
importance of further expanding the concurrent receipt of 
disability compensation and retirement pay for those medically 
retired from service.
    Full concurrent receipt for all disabled military retirees 
is a longstanding FRA priority, and the association strongly 
supports adequate appropriations to support this initiative.
    FRA continues its strong opposition to enrollment fees for 
lower priority group veterans seeking care in the V.A. health 
care system. There are approximately 1.3 million veterans in 
Priority Groups 7 and 8, and the association supports adequate 
appropriations to prevent shifting costs to them for care they 
are earned in service to our nation.
    Although not under the jurisdiction of this subcommittee, 
FRA also continues its opposition to TRICARE fee increases for 
military retirees and believes there are other cost-saving 
options which must be implemented to help address funding 
challenges.
    The association salutes Chairman Edwards for his leadership 
on this issue and strongly supports the Military Retirees 
Health Care Protection Act, H.R. 816, which, along with 
adequate V.A. health care funding, is being addressed by our 
association's leadership during nearly 40 visits to various 
members of Congress today. We also appreciate Ranking Member 
Wamp's co-sponsorship for this legislation.
    FRA strongly supports adequate funding to support medical 
and prosthetic research and to reform the antiquated Veterans 
Benefits Administration paper claims system to help address the 
chronic claims backlog.
    Regarding military construction and quality-of-life 
programs, FRA appreciates the tradition of inviting senior 
enlisted leaders to testify before this distinguished 
subcommittee each year. This is the only opportunity for these 
leaders to testify on Capitol Hill regarding important quality-
of-life programs.
    As noted by MCPON Rick West and Sergeant Major of the 
Marine Corps Carlton Kent, family housing and barracks 
construction and childcare facilities are top concerns and 
directly relate to the morale of our servicemembers and to 
ensuring family readiness.
    FRA strongly supports funding for these important programs, 
which includes the Navy's home port ashore and other housing 
and barracks projects, and the expansion of childcare centers.
    In closing, allow me to again express the sincere 
appreciation of the association's leadership for all that you 
and members of this distinguished subcommittee and your 
respective staffs do for our nation's servicemembers and those 
who served in the past.
    Thank you.
    [The prepared statement of Joseph L. Barnes follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.057
    
    [GRAPHIC] [TIFF OMITTED] T0526C.058
    
    [GRAPHIC] [TIFF OMITTED] T0526C.059
    
    [GRAPHIC] [TIFF OMITTED] T0526C.060
    
    [GRAPHIC] [TIFF OMITTED] T0526C.061
    
    [GRAPHIC] [TIFF OMITTED] T0526C.062
    
    [GRAPHIC] [TIFF OMITTED] T0526C.063
    
    [GRAPHIC] [TIFF OMITTED] T0526C.064
    
    [GRAPHIC] [TIFF OMITTED] T0526C.065
    
    Mr. Farr. Thank you, Mr. Barnes.
    Mr. Wamp.
    Mr. Wamp. Real quickly, I want to thank Mr. Barnes, but 
mostly Gerald Brice back there. Every one of us has somebody in 
our district that is a true veteran advocate that you hear from 
all the time and follows all the issues, who beats the drum, 
who wears you out, and that is him.
    So I am honored that you are here in this room today. So 
thank you for coming today and supporting Mr. Barnes' excellent 
testimony.
    I think the issues that you bring to us, this subcommittee 
is fully committed to. We just need to keep working together to 
push the ball further down the field.
    So thank you for your presentation.
    Mr. Barnes. Thank you.
    Mr. Farr. Perhaps you could give the committee your input 
on TRICARE fees. There is strong opposition to TRICARE fee 
increases from military retirees and there are other cost-
saving options which must be implemented.
    Could you give some examples of those cost-savings?
    Mr. Barnes. Well, yes, Congressman. The drastic proposal to 
increase TRICARE fees has been proposed for the past 3 years by 
the Department of Defense. We firmly believe there are other 
cost-saving options, such as expanding use of the more cost-
effective mail-order pharmacy, wellness programs, which are 
addressed in this year's defense authorization bill, federal 
pricing, for example, which is being implemented, results in 
significant savings, and there are other options.
    I can get a more complete list----
    Mr. Farr. Yes, I would like--helpful, as we do this whole, 
big health care bill, we are going to have to find those cost-
saving options. And your recommendations would be very helpful.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0526C.066
    
    [GRAPHIC] [TIFF OMITTED] T0526C.067
    
    Mr. Barnes. Thank you, sir.
    Mr. Farr. Thank you very much. We really appreciate your 
testimony.
    Mr. Barnes. Thank you.
    Mr. Farr. The next witness is from the National Association 
for Uniformed Services, Rick Jones. Mr. Jones joined the 
National Association for Uniformed Services as its legislative 
director in 2005. Before this position, he served 5 years as 
the national legislative director for AMVETS. He is an Army 
veteran who served as a medical specialist during the Vietnam 
War.
    Welcome back.
                              ----------                              

                                          Thursday, April 23, 2009.

              NATIONAL ASSOCIATION FOR UNIFORMED SERVICES


                                WITNESS

RICK JONES

                        Statement of Rick Jones

    Mr. Jones. Thank you, sir. Thank you, Vice Chairman Farr. 
Appreciate being here.
    Thank you, Ranking Member Wamp.
    We want to, first of all, express our deep gratitude to 
you, Vice Chairman, and Chairman Edwards, and Ranking Member 
Wamp, and all of the members of this subcommittee for your deep 
concern and your expressed interest in assuring that veterans 
were a number-one priority over the past 3 years.
    You have done a superb job of marking up the bill and 
providing the funds that are needed to care for our men and 
women who serve this country and defend our cherished freedoms. 
Thank you so very much.
    Mr. Farr. And we will continue to do so.
    Mr. Jones. I was pleased also to hear your interest in 
sustaining TRICARE. As Mr. Barnes presented, I know that is not 
an issue that is before you, but we are very pleased to hear 
your interest. It is a very important earned benefit for those 
who serve more than 20 years in the military and the uniformed 
services. Your attention is deeply appreciated.
    On military construction--and we strongly recommend that 
you continue to develop BRAC realignment accounts, which 
included housing and barracks, medical facilities, childcare, 
training facilities, make sure they are in place, please, for 
our returning troops.
    If facilities are not ready, as you know, and funding 
construction will be delayed or deficient, there will be 
insufficient housing, insufficient barracks. Childcare will go 
wanting. So these are needed when they are needed, and we trust 
that you will understand this, as you have in the past provided 
adequate funding in these accounts. There are more that need to 
be done. There is more that needs to be done.
    While we haven't yet received the full budget from the 
administration regarding the Department of Veterans Affairs, we 
can't really build on the comments and recommendations of the 
president, but we can, however, and do endorse the Independent 
Budget document, which has been formulated by four of the major 
veteran service organizations and vets, Disabled American 
Veterans, Paralyzed Veterans of America, and Veterans of 
Foreign Wars, which you will hear from later today in this 
hearing for public witnesses.
    At a minimum, we recommend that you increase the Department 
of Veterans Affairs' budget approximately to $54.6 billion. 
That is an increase of $4.3 billion over current funding, about 
as much is being requested by the Independent Budget.
    I recognize that the administration's initial outline of 
this budget increases the funding an additional billion 
dollars. We are yet to see those details. And what details we 
have seen to this date have been somewhat suspect. One of those 
details was the third-party funding for war-injured wounded 
veterans, which we are thankful has been taken off the table, 
so we have been informed.
    We also support research initiatives in the areas that have 
directly benefited not only veterans, but the public at large. 
And we also support lifting the ban on access to V.A. health 
care for our Priority 8 veterans. And denying access really 
only devalues the service of those who seek care.
    And we do recognize and are pleased to see the additional 
funding that has been provided for some 550,000 Priority 8 
veterans over the next 3 years, but more can be done. There are 
many priority veterans--Priority 8 veterans who can't identify 
private or public health insurance. And we would like to see 
that insurance brought into the system. We think that is one 
way to bolster funding for the care of these Priority 8 
veterans.
    We urge this subcommittee to take action to honor our 
obligation to these men and women and not force V.A. to ration, 
deny or delay care.
    At the close of March, regarding disability claims 
benefits, VBA had more than 697 claims pending. That is a 
30,000 claim increase over this time last year. We recognize 
that there are problems over there, and there are deep 
problems. We recognize that you have provided funding, and 
additional claims adjudicators are in process to deal with 
these claims.
    But yet we need to pay attention to that and not fall 
backward on the advances that you have made already to date in 
providing the funding that is necessary to upgrade the benefit 
claims process.
    Seamless transition. The president has made himself very 
clear on this issue. We are very pleased to see the president 
and yourselves in line regarding the electronic health record. 
You know, this goes back to Chuck Percy, a senator from Ohio, 
who in 1982, directed the Department of Veterans Affairs and 
the Department of Defense to come together and provide this 
sort of electronic health record.
    The stove piping in the Department of Defense has been a 
very serious problem and one that hopefully you will take care 
of.
    Again, I thank you so very much for giving us the 
opportunity to testify today. We deeply appreciate your care of 
the men and women who serve this country.
    [The prepared statement of Rick Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.068
    
    [GRAPHIC] [TIFF OMITTED] T0526C.069
    
    [GRAPHIC] [TIFF OMITTED] T0526C.070
    
    [GRAPHIC] [TIFF OMITTED] T0526C.071
    
    [GRAPHIC] [TIFF OMITTED] T0526C.072
    
    [GRAPHIC] [TIFF OMITTED] T0526C.073
    
    [GRAPHIC] [TIFF OMITTED] T0526C.074
    
    [GRAPHIC] [TIFF OMITTED] T0526C.075
    
    [GRAPHIC] [TIFF OMITTED] T0526C.076
    
    [GRAPHIC] [TIFF OMITTED] T0526C.077
    
    [GRAPHIC] [TIFF OMITTED] T0526C.078
    
    [GRAPHIC] [TIFF OMITTED] T0526C.079
    
    [GRAPHIC] [TIFF OMITTED] T0526C.080
    
    Mr. Farr. Thank you very much.
    Mr. Wamp.
    Thank you for your service. I wanted to ask one question 
that was very comprehensive. In my district, we have 28,000 
veterans. And we have a great veterans clinic. We also have 
over 6,000 men and women in uniform. We are trying to do a 
joint DOD-veterans clinic. And a lot of the recommendations in 
here, I think, were very helpful to try to do that.
    One thing I would recommend that you look at is that with 
the bases that are growing, the new bases in the realignment, 
you put in your testimony about childcare and medical 
facilities and barracks, but it is also schools that are going 
to be needed.
    Mr. Jones. Yes, sir. Thank you.
    Mr. Farr. You need funding sources for that, this committee 
is learning.
    Mr. Jones. Yes, sir. The marriage rate is way up, and that 
means children. And your understanding of that is wonderful to 
hear.
    Mr. Farr. Thank you very much. Thank you for your 
testimony.
    Mr. Jones. Thank you, sir.
    Mr. Farr. I would like to now welcome back John Maupin, who 
is president of the Morehouse School of Medicine and is 
testifying on behalf of the Association of Minority Health 
Professions Schools.
    Welcome back, and thank you very much. We have your 
testimony for the record. And if you could just summarize it, 
we would appreciate it.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

        ASSOCIATION OF MINORITY HEALTH PROFESSIONS SCHOOLS, INC.


                                WITNESS

JOHN E. MAUPIN, JR., DDS, MBA

                      Statement of John E. Maupin

    Mr. Maupin [continuing]. I have provided a corrected copy. 
And I will give you a quick summary.
    First, let me say thank you to the committee as a whole and 
to yourself, Congressman Farr, and to, of course, my friend, 
Congressman Zach Wamp. Your involvement and engagement with the 
V.A. and encouraging them to have greater collaboration with 
the minority medical schools, specifically our AMHPS schools, 
has really gone a long way in terms of progress in our 
endeavors for full integration into the V.A. system.
    Their recent report provides, as you asked, provides an 
overview of activities. While it does provide an overview of 
activities, it doesn't quite hit on some of the issues that 
still remain, if we are going to have an optimal relationship 
within the V.A. system.
    In fact, I would just highlight for a moment, in one of 
their reports, on their report on--table one, they talk about 
all of the historically black colleges and universities where 
students and residents receive V.A. clinical training.
    That report, quite frankly, is a list of all the 
historically black colleges that are located in a V.A. city, 
but that does not mean that all these schools have 
relationships with V.A.
    So it is a little misleading and a little disconcerting 
that they would make that inclusion, as if there is a greater 
level of activity when it is not. So that shows that we still 
have a lot to learn about each other.
    My comments today are really to provide you with some very 
specific recommendations that we believe will go a long ways to 
fostering a greater involvement of our institutions within the 
V.A. system.
    We believe that the national V.A. should extend its efforts 
beyond the division level to the hospital relations level, to 
the hospital leadership level in each of these areas.
    We know, for example, that without strong advocacy and 
sustained involvement of V.A. leadership at both the V.A. and 
the medical center level, normal competitive tensions between 
schools, where one institution has a longstanding relationship, 
the V.A. personnel often have difficulty in engaging in new 
collaborative relationships.
    Where there have been successes, it has clearly been at 
both the V.A.--at the division level and at the hospital 
leadership level, as well.
    We want to continue to encourage an increase in the number 
of residency positions and to ensure greater integration of our 
schools into core residency programs, such as medicine and 
surgery, and other procedural services.
    We have had great involvement in primary care areas, in the 
out-patient areas, but very little involvement still in the in-
patient areas, in particular surgery and internal medicine. We 
have in-patient psychiatry, for example, at Meharry, but not 
involvement in in-patient surgery.
    There are plans for in-patient surgery, but that has been 
slow, in-patient medicine, that has been slow, but--and we have 
had very little, if at all, discussions about in-patient 
surgery. There is still a lot of pushback of our integration in 
those key areas, from an in-patient perspective.
    We would also like to encourage that there be appropriate 
funding for attending physicians within the V.A. so that we 
could have both full- and part-time individuals. Right now, we 
have residents that are engaged in the V.A., but they are under 
the supervision of the existing pool of faculty. And so we 
believe that there ought to be an opening up of the opportunity 
for us to also have faculty that are a part of the V.A.
    There has also been a restriction in part-time faculty use 
in the past by the V.A. I think it is an opportunity to expand 
without the full cost of full-time faculty. And so we would 
encourage the committee to encourage the V.A. to reconsider its 
restrictions on part-time faculty.
    In addition, we hope that we will be able to play a 
leadership role in the new initiatives that the V.A. has been 
involved in. We are encouraged that the V.A. has made progress, 
for example, in women's health, and they have involved Meharry 
Medical College and the leadership of the established men and 
women's health program there in the Nashville area.
    But we also know that there are other opportunities that we 
are uniquely suited for and have national leaders in the 
various disciplines, that if given the opportunity, we would 
love to be involved in opening up new initiatives in those 
areas.
    We also hope that we are able to facilitate the full 
participation and the expansion of subspecialty services. One 
of the things we ran into was an additional restriction. Our 
schools are primary-care focused, and we have generalist 
training.
    But even in the generalist training, we have subspecialists 
that are on our faculty that can provide services. There is a 
restriction that you cannot be involved in those areas unless 
you have a subspecialty training program. We think that 
restriction is not in the best interests of providing care and 
does not particularly help us, in terms of the recruitment of 
new faculty.
    There are other areas which are in my document, and I would 
love to take questions from you. We have made progress. We have 
a lot more to do. Your involvement has meant a lot to what has 
happened. We need the V.A. national, division, and the local to 
be engaged and fully understand that this is something that 
must occur, in terms of full integration of our schools into 
the V.A. system.
    [The prepared statement of John E. Maupin follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.081
    
    [GRAPHIC] [TIFF OMITTED] T0526C.082
    
    [GRAPHIC] [TIFF OMITTED] T0526C.083
    
    [GRAPHIC] [TIFF OMITTED] T0526C.084
    
    [GRAPHIC] [TIFF OMITTED] T0526C.085
    
    [GRAPHIC] [TIFF OMITTED] T0526C.086
    
    [GRAPHIC] [TIFF OMITTED] T0526C.087
    
    [GRAPHIC] [TIFF OMITTED] T0526C.088
    
    [GRAPHIC] [TIFF OMITTED] T0526C.089
    
    [GRAPHIC] [TIFF OMITTED] T0526C.090
    
    [GRAPHIC] [TIFF OMITTED] T0526C.091
    
    [GRAPHIC] [TIFF OMITTED] T0526C.092
    
    [GRAPHIC] [TIFF OMITTED] T0526C.093
    
    [GRAPHIC] [TIFF OMITTED] T0526C.094
    
    [GRAPHIC] [TIFF OMITTED] T0526C.095
    
    [GRAPHIC] [TIFF OMITTED] T0526C.096
    
    [GRAPHIC] [TIFF OMITTED] T0526C.097
    
    [GRAPHIC] [TIFF OMITTED] T0526C.098
    
    Mr. Farr. Thank you very much. Appreciate you coming back 
this year. And, again, your testimony is very helpful.
    Mr. Wamp. All I would say is that I support Dr. Maupin's 
request. As a matter of fact, it is on my Web site, a written 
request for the coming years that these things are honored by 
this committee and that everyone is encouraged to do exactly 
what he just testified.
    Mr. Farr. Okay, thank you. We will put your revised copy in 
the record.
    Thank you very much.
    Mr. Edwards has arrived, so he will chair his committee.
    Mr. Edwards [presiding]. Let me first thank Mr. Farr and 
Mr. Wamp for keeping this subcommittee in good hands. I was 
working on a project that has been 68,000 years in the making. 
A lot of mammoths had to die in my district nearly 70,000 years 
ago, and we are trying to protect that with the National Park 
Service.
    I am very glad to be back. But thank you for conducting the 
hearing this morning.
    We are honored to have Patrick Campbell with the Iraq and 
Afghanistan Veterans of America. Appreciate very much your 
service to our country and your continued service speaking out 
on behalf of America's veterans.
    And I would like to recognize you for 5 minutes at this 
point.
                              ----------                              

                                          Thursday, April 23, 2009.

                IRAQ AND AFGHANISTAN VETERANS OF AMERICA


                                WITNESS

PATRICK CAMPBELL

                     Statement of Patrick Campbell

    Mr. Campbell. Well, thank you.
    This is a new thing for me. I have never been down here 
before. I feel----
    Mr. Edwards. It is much more comfortable----
    Mr. Campbell [continuing]. Much more comfortable----
    Mr. Edwards [continuing]. Than the other----
    Mr. Campbell. Actually, it is a little more intimate, a 
little more intimate than the other hearing--well, if I am here 
to say anything--I read a lot of the testimony; you have 
probably about 500 pages worth of paper to read after all 
this--and that is to say thank you.
    You know, the people that I represent are men and women who 
are currently serving in Iraq and Afghanistan who are thinking 
about what it is going to be like when they come home. And for 
the last 7 years, we have been fighting a war, but this country 
hasn't been prepared to deal with those people coming home.
    And 2 years ago, this Congress said we are going to make a 
commitment to veterans. And you started fully funding the V.A. 
for the first time in 77 years. And I just want to say thank 
you for that commitment, because that commitment is making all 
the difference.
    Unfortunately, it was just the beginning. I mean, right 
now, as you know, we surged into Iraq, and we are surging into 
Afghanistan, but soon that soldier is going to be coming home. 
And what that foundation that you have built over the past 2 
years of fully funding the V.A. is just building a baseline.
    This is not the end point. We need it to keep growing and 
keep building, because we have one opportunity to get in front 
of these veterans and give them an opportunity to transition 
into, you know, a good future.
    As you know, I served in Iraq in 2004-2005. And even to 
this day, I am still suffering from some of the issues that I 
dealt with over there. It has a profound effect on my work and 
an even more profound effect on my relationships.
    And I utilize the V.A. I utilize the veterans centers as an 
opportunity for me to transition back into the world that I 
left.
    The soldier that is coming home, we have one opportunity to 
get ahead on traumatic brain injury. We need to develop through 
the centers of excellence an effective screen before and after 
so that we have an idea, when someone like myself drops a tank 
hatch on my head--I didn't tell you I was the smartest person 
ever--when I drop a tank hatch on my head and I knock myself 
out for a minute, that I don't find out that, you know, through 
some random test that I take on later that I am suffering from 
severe short-term memory loss.
    I should be finding that through the V.A. When I go access 
the V.A., they should be testing me, saying, ``Did you have any 
explosions?'' When I was in Iraq, we got blown up 13 times. I 
was in five car accidents, and I dropped a tank hatch on my 
head and knocked myself out, but I have never once been 
screened by the V.A. for the traumatic brain injury. I think 
that is a problem.
    It took members of the House Veterans Affairs Committee 
staff to convince me to go get counseling. I think that is a 
problem. And we are not creating a problem where the V.A. is 
actually reaching out and getting veterans and bringing them 
into the system. The V.A. is still a passive system, sitting 
and waiting.
    The V.A. has started to put its toe into the waters of 
doing outreach. You might have seen the bus ads that they had 
around here, but it is still kind of almost an afterthought.
    And if I could ask any one thing about this committee that 
you haven't already been paying attention to is that we need to 
have a direct line item for outreach, and it needs to be a part 
of everything that we do, where the V.A. is aggressively 
marketing the benefits that already exist.
    The other thing that we need to work on--and this is 
something I know this committee is getting into the 
jurisdiction of is we will start giving the V.A. the resources 
and the opportunity to spend those resources effectively.
    And I know, Mr. Chairman, you and I have talked about 
advance appropriations before, and I think that this is the way 
in which you help veterans like veteran Marine Ray Real in 
southwest Texas, who has to drive 6 hours to go to his PTSD 
appointment.
    When Ray wants to set up an appointment, he has to call 
like a U2 concert ticket on the first day of every month to 
sign up from the 2 days a week that they have PTSD counseling, 
and he has to drive 6 hours once he actually does get that 
appointment.
    And if he misses out on that appointment, if he doesn't get 
that appointment then, he has to wait a whole other month.
    Now--all of a sudden make sure he gets it, but that might 
mean they will have one more day. They will be able to use 
their dollars, stretch them a little bit wider and maybe 
provide one more day of services for someone like Ray Real.
    And to take this even farther, Ray--he tried to get an 
appointment recently. And he was denied, because they didn't 
have space. And recently he got in a fight, and, unfortunately, 
killed the person he was dealing with, and is now spending the 
rest of his lifetime in jail. This is someone who reached out 
for help and was turned away at the door.
    So this is something that, if we don't deal with it now, we 
are going to lose these veterans as we go along.
    We need to make sure that we are taking care of our female 
vets, which was something that is new to this generation. 
Eleven percent of Iraq and Afghanistan vets are female, and we 
need to make sure that they have the facilities they need.
    And, obviously, I care a little bit about the G.I. Bill. We 
need to make sure that the G.I. Bill is done right. I know that 
the actual benefits itself are not done through this committee, 
but giving them the resources they need to implement it is done 
through this committee.
    And thank you very much for the opportunity to be here.
    [The prepared statement of Patrick Campbell follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.099
    
    [GRAPHIC] [TIFF OMITTED] T0526C.100
    
    Mr. Edwards. Patrick, thank you for your testimony and, 
obviously, we will do a lot of follow up to the points you have 
made. I just want to say you complimented this committee. The 
accomplishments we have had over the last several years, you 
and your organization have certainly been a critical part of 
that. So thank you for the difference you are making.
    And I was under the impression now that V.A. did screen 
every veteran coming in, for whatever reason they are coming in 
to the V.A. hospitals, that they are being screened for TBI and 
PTSD.
    Mr. Campbell. Only if you go to a V.A. medical center, and 
it is a paper screen. This gets back to, we have not developed 
an appropriate screen that actually effectively detects. But if 
you go to a vet center, you don't do that screen. And so, you 
know, lots of people are using--I call the vet centers the 
gateway to--you know, into the V.A. And, you know, we need to 
be expanding those programs for the vet center.
    Mr. Edwards. We will follow up on that.
    Any questions, Mr. Wamp.
    Mr. Wamp. Gratitude for Patrick and all the people he 
represents. No questions. Thank you for your testimony.
    Mr. Campbell. Thank you.
    Mr. Edwards. Thank you. You have been a great spokesman for 
our veterans.
    Any questions?
    Mr. Farr. Yes, one. Thank you. Your testimony and your list 
here is very helpful. We certainly will implement it.
    I would like to follow up on why we can't get that veteran 
PTSD services in his hometown.
    Mr. Campbell. I agree.
    Mr. Farr. There is no reason you have to go that far to our 
clinical psychologist who can provide that service.
    Mr. Campbell. All it takes is a standard. And right now, 
the V.A.--it is individually based that says, you know, each 
regional officer gets to make a decision on whether or not that 
is too far to drive. And when you make it individually based, 
you know, people are going to do what they can to save money.
    And--if you drive over 70 miles to get counseling, that is 
too far. You know, I am not going to say something that is 
going to cause everyone here--we need to privatize health care, 
but what we do need is we need a clear, bright-line standard: 
This is too far to drive. This is too far to go.
    And then give them the discretion for anything that is 
closer. And that will help answer, so everyone will know what 
is appropriate and what isn't.
    Mr. Farr. It is a good suggestion. Thank you very much.
    Mr. Edwards. Thank you. Thank you for your testimony.
    We would now like to call Dr. Stanley Appel with the ALS 
Therapy Development Institute.
    Dr. Appel, thank you for being here today. I would like to 
recognize you for 5 minutes.
    And I think it has been said, assuming everyone was here 
and heard it, that your full testimony will be made part of the 
record. And then we ask each witness to limit their comments to 
5 minutes.
    Thank you. Thank you, Dr. Appel.
                              ----------                              

                                          Thursday, April 23, 2009.

                   ALS THERAPY DEVELOPMENT INSTITUTE


                                WITNESS

STANLEY APPEL, MD

                       Statement of Stanley Appel

    Dr. Appel. Thank you very much, Mr. Chairman. I would like 
to thank you and the subcommittee for allowing me to talk about 
one of the scourges of our servicemen coming back from their 
service, namely Amyotrophic Lateral Sclerosis, Lou Gehrig's 
disease.
    I also want to acknowledge the support of several of your 
colleagues, Congressman Capuano, who has been tireless in 
championing a therapy program for ALS, Congressman Brown of the 
Veterans Affairs Committee, Chairman Spratt have also 
recognized the value of a targeted therapy program, and they 
are both friends of General Mikolajcik of South Carolina who, 
unfortunately, has ALS and couldn't be here today.
    And I would also like to acknowledge that Congressman 
Patrick Kennedy sits in the Appropriations Committee with you 
and has a personal interest in ALS.
    Let me make several points. One is, the importance of ALS 
to the military. It turns out that, if you served in the first 
Gulf War, you have twice the chance of developing ALS than if 
you served any place else, an incredible statistic.
    If, in fact, you serve in the military, you have an 
increased likelihood, a 60 percent likelihood of developing ALS 
than if you didn't serve in the military.
    Now, what is ALS? ALS is the most horrific, devastating 
disease. I happen to have been chairman of neurology at Duke 
University and Baylor College of Medicine for 27 years. I chair 
the department of neurology at Methodist Hospital in Houston 
now. And I will tell you, of all the diseases we take care of, 
nothing matches ALS with the devastation.
    You can't walk, so you are in a wheelchair. Then you can't 
use your arms. Then you can't talk. Then you can't swallow. 
Then you can't breathe and you die in 3 to 5 years.
    And we have no cure for this disease, and it is over-
represented in our military, and that is the major point that I 
want to address to your subcommittee, because it is key and 
critical that we have a comprehensive approach.
    It doesn't mean that, in my laboratory, which is basic 
science and applied, that we aren't doing individual things as 
goes on and my colleagues at Hopkins, at Harvard, et cetera, 
but it does mean that there is no comprehensive approach to the 
development of therapies. There is no comprehensive approach.
    So ALS Therapy Development Institute in Boston is a 
nonprofit, almost biotech-like company in developing therapy 
development approaches. It is a group of 30 scientists who are 
culled from pharmaceutical companies who have a passion and 
motivation to solve this.
    Pharmaceutical companies aren't interested in this. This is 
``an orphan disease.'' They are not particularly interested 
whether it affects more military people than anyone else, but 
they themselves hopefully will be able to get some of the 
developments that go on at places like ALS TDI to our patients, 
because, once you have got a drug or a good drug, then they 
will spend $100 million or $200 million that is necessary to 
take it there.
    But we absolutely need to declare war on ALS. And that is 
something--NIH hasn't declared war on ALS. But because it is 
overrepresented in the military population, I really urge you 
all to consider that.
    We have a lot of servicemen coming back from Iraq, 
Afghanistan, the Gulf War, and many of them will develop ALS, 
and we have very little to offer them. So I urge you to 
consider a comprehensive program like this.
    I am not here to ask for funding for ALS TDI. What I am 
here to do is to ask you all to develop a comprehensive 
program. ALS TDI does it, but there are other ways. But it is 
most critical that you focus on this very needy population of 
our veterans coming back.
    They have been in the battle. Many of them have won the 
battles. They are losing this.
    ALS is not an incurable disease. It is an underfunded 
disease. These folks coming back are, in fact, in a war, and 
they don't have the tools, they don't have the ammunition to 
get the enemy, namely ALS.
    Thank you.
    [The prepared statement of Stanley Appel follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.101
    
    [GRAPHIC] [TIFF OMITTED] T0526C.102
    
    [GRAPHIC] [TIFF OMITTED] T0526C.103
    
    [GRAPHIC] [TIFF OMITTED] T0526C.104
    
    Mr. Edwards. Thank you, Dr. Appel. Could I ask you, is 
there speculation or has research indicated why men and women 
serving in the military would have such a higher percentage of 
having ALS than those who have not served?
    Dr. Appel. It is absolutely key and critical that there are 
environmental factors that are triggering this. I would like to 
tell you from all our investigation, epidemiologically or 
through the V.A. registry, that we have identified those.
    We have identified some of them, maybe the toxins that our 
servicemen were exposed to in the Gulf War, but it is not clear 
that that is the sole environmental factor. So it is key that 
they are encountering environmental factors.
    And the second issue, obviously, there is some 
susceptibility. And we have recognized. We have done genome-
wide--what we call SNP, single-nucleotide polymorphism, looking 
for this. And we have identified 50 or 100 genes, but it is not 
at a point where we can apply it through our V.A. to our 
servicemen to identify that. So it is a complex mixture, and 
yet it is factual.
    But you don't need to identify the cause. Penicillin has 
cured an awful lot of people before we understood how it 
worked. We need to have a comprehensive program that will 
target therapy development, and that is what we don't have in 
the United States, and we don't have in our V.A. system.
    Mr. Edwards. Thank you.
    Mr. Wamp.
    Mr. Wamp. Well, just briefly, if you take the numbers of 
veterans that we have and you assume that there is some similar 
outcome with the current wars in Iraq and Afghanistan as you 
had with Desert Storm, what kind of population are you 
expecting to end up with ALS, based on our current warfighting 
strength?
    Dr. Appel. I don't have the specific answer to that, 
because that is a great question that requires a specific 
number based on this. But if you look in the United States, 
there are 40,000 patients living with ALS.
    This disease everyone thinks is a rare orphan disease. It 
is not. It is because the patients die so quickly that, when 
you sample the populations, you don't see them. But we will try 
and get those numbers for you, because I think that is 
important information.
    [The information follows:]

    Your question is somewhat difficult to answer, as the reasons for 
the increased incidence rate of ALS in military veterans are not 
understood. For now, I can tell you that the lowest possible number of 
future ALS diagnoses of those who have served in the War on Terror 
would be about 100. That number clearly understates the potential 
magnitude of the problem. We do not yet know what is causing this 
increase in incidence, and we do not know the time interval between the 
exposure and the development of first symptoms. That latency could be 
as much as several decades. As a result, the figure will be 
considerably higher since exposures in this particular region, or 
factors of contemporary warfare may have more of an effect on these 
soldiers than we presently realize. In the 2008 Report of the Research 
Advisory Committee on Gulf War Veterans' Illnesses, the panel expressed 
its ``great concern that the full impact of this disease on Gulf War 
veterans might not be known for decades.'' When you consider that the 
incidence around the world is 1-2 cases per 100,000 individuals, I am 
certain you can appreciate that even 100 cases represents an extremely 
large cohort. To put this range into perspective it is important to 
note that during this same period there have been roughly 1,000 
amputations resulting from combat.
    I ask you to remember, too, that research has also found that ALS 
is striking veterans at considerably younger ages than the national 
average.

    Mr. Wamp. Thank you.
    Mr. Edwards. Thank you very much.
    Dr. Appel. Thank you, sir.
    Mr. Edwards. Sam.
    Mr. Farr. Just one question.
    Dr. Appel. Yes, sir.
    Mr. Farr. In the comprehensive strategy that you are 
urging, is there another modality, another disease where we do 
have that comprehensive strategy?
    Dr. Appel. There are a number of diseases where it is 
financially profitable for the pharmaceutical company to invest 
the kind of resources that would do it. Heart disease, stroke, 
hypertension, hyperlipidemia, but not in a disease like this, 
where those aren't the risk factors and where hundreds and 
hundreds of millions of dollars are not being invested----
    Mr. Farr. A comprehensive strategy?
    Dr. Appel. Well, we are talking about $100 million program 
at a minimum, in terms of doing it. And yet the benefit for our 
servicemen is they will have a disease-free future. And that is 
something that I think all our servicemen should be promised.
    Mr. Farr. Thank you.
    Mr. Edwards. Thank you.
    Thank you, Dr. Appel.
    We are very honored to have a city council member from 
Vicenza, Italy, Ms. Cinzia Bottene. Help me with the 
pronunciations, and forgive me for any mispronunciations.
    But we know that your community has been a partner with the 
United States in defending Europe, fighting for security 
throughout the world, and we are honored to have you here.
                              ----------                              

                                          Thursday, April 23, 2009.

                  CITY COUNCIL MEMBER, VICENZA, ITALY


                                WITNESS

CINZIA BOTTENE

                      STATEMENT OF CINZIA BOTTENE

    Ms. Bottene. Thank you, Chairman and members of the 
committee.
    My name is Cinzia Bottene, and I am a city council member, 
and I am here representing the citizens opposed to the new U.S. 
military base in Vicenza, Italy.
    Since I don't speak English very well, Stephanie Westbrook 
will read my testimony and help with any questions.
    We welcome this occasion to illustrate the concerns of the 
citizens, meeting with members of the Congress over what we 
think is a serious mistake.
    We ask you not to make this mistake, because Vicenza is a 
city of 120,000 people. It is a UNESCO World Heritage Site and 
showcase of architect Andrea Palladio, whose work inspired 
icons of American democracy, such as the Capitol building.
    The site of the new base is located in a residual area, 
completely surrounded by houses, and just one mile from the 
historical city center, with 35 Palladian buildings. The area 
is the last remaining open space in our city, and this alone is 
reason for it to be protected and reserved for public use.
    We ask the members to try to imagine building a military 
base in Central Park or right here on the mall. One look at the 
photo included with our testimony should be enough to 
understand just one of the many reasons for the opposition to 
the base.
    We ask you not to make this mistake, because the site also 
lies just a few feet above one of the three most important 
groundwater sources in Europe. The project for the new base 
includes thousands of pylons that will go over 80 feet into the 
ground, as you can see in the photos included, and this poses a 
serious risk to our water source.
    We ask you not to make this mistake because the location of 
the base is in violation of a number of European Community 
directives on protected natural habitats, and cases are 
currently pending before the European Community.
    Despite having been formally requested several times by the 
mayor, and by the citizens of Vicenza, an Environmental Impact 
Assessment has been continually denied.
    The initial negotiation for the new base dates back to 
2001, though the citizens and most city council members were 
kept in the dark until May 2006. The information concerned 
together with this lack of transparency led ordinary citizens 
of all ages and from across political, social and cultural 
boundaries to mobilize in opposition, which has continued for 3 
years now.
    There has been an endless succession of nonviolent 
demonstrations, bringing as many as 150,000 people to the 
street. Citizens have been back on lobbying trips to Rome, to 
European Parliament in Brussels, and twice before to 
Washington, D.C.
    The widespread opposition to the new base also led to a 
political shift in Vicenza. In April 2008, after decades of 
governing the city, the ruling coalition was voted out. The new 
administration ran on a platform opposing the base, promising a 
vote in city council and a local referendum.
    In July 2008, city council voted with 25 opposed to the 
base and 2 in favor. The local referendum was 13 October, 2008. 
Over 95 percent voted against the base.
    We ask you not to make this mistake, because Vicenza 
already has seven U.S. military installations, including Camp 
Ederle, dating back to 1955.
    Numerous Defense Department publications highlight the 
importance of maintaining good host nation relations, but how 
can you possibly think to maintain good relations knowing that 
the new base has already caused a deep divide between the 
Vicenza community and the U.S. military?
    Imposing this decision will do nothing but create an 
inhospitable climate. How can you proceed knowing that the base 
will be built in a protected natural habitat directly above an 
important groundwater source and without any environmental 
impact assessment?
    We ask members of this committee to respect our city and 
territory, to respect the wishes of local residents, to respect 
our children's future. We ask that Vicenza be treated with the 
same respect as any city in your country where a similar 
project would be unthinkable.
    After 3 years of investing more time and energy than you 
can imagine in opposing this base, I am more convinced than 
ever the people of Vicenza will simply never accept it. Even 
yesterday and today, people in Vicenza are demonstrating 
against the base, even now, while we are sitting here in front 
of you.
    We strongly ask this committee to block funding for the new 
base, to reconsider the entire project, and find an alternative 
solution that takes the concerns of the local population into 
account.
    On behalf of the citizens of Vicenza, I thank you, Mr. 
Chairman and committee members, for the opportunity to appear 
before you today. And I will be happy to answer any questions.
    [The prepared statement of Cinzia Bottene follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.105
    
    [GRAPHIC] [TIFF OMITTED] T0526C.106
    
    [GRAPHIC] [TIFF OMITTED] T0526C.107
    
    [GRAPHIC] [TIFF OMITTED] T0526C.108
    
    [GRAPHIC] [TIFF OMITTED] T0526C.109
    
    Mr. Edwards. Let me first thank you for coming and for the 
excellent testimony.
    The fact that you have come this far to make this statement 
certainly is an expression of the strength of your feelings. 
And I know those feelings must obviously represent many 
citizens in your community.
    Ms. Bottene. Can I tell----
    Mr. Edwards. Please.
    Ms. Bottene. Thank you.
    We thank you that we have been able to express deeply how 
serious the problem is in our town. The photo we enclose and 
the water source that you can see in the enclosed photo can 
express very well which is the product of the problem.
    And there is another photo very important which shows how 
close--this is Basilica Palladiana, and this less than one mile 
from the city center.
    Mr. Edwards. How far away are our present military 
installations in the Vicenza area?
    Ms. Bottene. Six miles.
    Mr. Edwards. Six miles?
    Ms. Bottene. Yes, but there is no Air Force there.
    Mr. Edwards. Is the local community support the present 
military installation there?
    Ms. Bottene. Yes. Camp Ederle is there from--since 1955. 
And the relations between the community and the military have 
always been perfect, but now, since we know that this--there 
will be another military base and so close to Vicenza, to 
citizens, and on the water source, of course, citizens are 
moved in another direction.
    Mr. Edwards. Has there been any sort of agreement signed 
between our two federal governments?
    Ms. Bottene. Yes, surely some. But the first step was 
between the Bush administration and the Berlusconi 
administration. Then in Italy, we had Prodi administration, the 
other side. And in that moment, they told us that there would 
be a sort of reconsideration of this problem.
    So the Parisi, the defense minister, spoke to Spogli, which 
was the ambassador of United States in Rome. And after that, 
Spogli gave a sort of ultimatum to Vicenza to say yes or no. 
And in 9 days, we had to give an answer, and the answer to 
agree, because it is difficult, you can imagine, for our 
country to say no to United States.
    Mr. Edwards. Let me ask Walter, can you update us before we 
address any other questions, any other members of the 
committee, can you update us on your understanding of this 
installation, where we are in the process? So the project is 
underway? Okay.
    Well, let me see if Mr. Wamp or other members of the 
committee would like to ask any questions.
    Mr. Farr.
    Mr. Farr. No, I had the opportunity to have them in my 
office. We spent over an hour and got very concerned about 
this.
    I thought it was going to be used as an air base, but it is 
a housing base. And it is very difficult but I share their 
concerns.
    One question I have, though, in the architecture. Does the 
city get to approve the architecture? Do you have any 
involvement in that so that it----
    Ms. Bottene. You mean in the project?
    Mr. Farr. Yes.
    Ms. Bottene. It is not a problem of project of 
architecture. It is a problem of sight and of being so close to 
the city center. It doesn't matter what is the architecture.
    Mr. Farr. But these are houses. These are houses around 
here, are they not? It is for housing.
    Ms. Bottene. Yes, only----
    Mr. Farr. The base will be used only for housing.
    Ms. Bottene. That is not true. We have some numbers here.
    Mr. Edwards. What other purposes would the base be used 
for? Would it be used for military exercises or as an airport--
--
    Ms. Bottene. It is an old Air Force base that is being--it 
is abandoned airport. It is being revitalized for housing.
    We--we have left, you can see there are--the new basing--
140,000 square meters--facilities complete with approximately 
860,000 square meters of parking and more than 1,000 heavy 
vehicles. In addition, the projects comprises two multi-story 
parking garage with a capacity of more than 1,600 vehicles.
    Mr. Edwards. You know----
    Ms. Bottene. And there is also a space for plane.
    Mr. Edwards. Okay.
    Ms. Bottene. Yes.
    Mr. Edwards. I don't know what the probabilities are of 
changing the decision, given that this project initially 
received local approval and construction has begun.
    But I was not aware of the local opposition, and perhaps 
other members of Congress were not. We will be happy, out of 
respect of the partnership your community and our country have 
had for many years, to ask the leadership at the Pentagon about 
this.
    Ms. Bottene. The leadership?
    Mr. Edwards. The leadership of the Pentagon, key people, 
key people at the Pentagon----
    Ms. Bottene. Yes.
    Mr. Edwards [continuing]. Whether they took into account 
local opposition. We will ask the Pentagon whether it is being 
reconsidered or if they are moving ahead.
    But we ought to treat each other with respect. And we will 
certainly make a good-faith effort to try to get answers.
    Ms. Bottene. So you are--I am sorry. I say it back to you 
to be sure I have understood. You are trying to ask the 
Pentagon people to reconsider the project and----
    Mr. Edwards. No, I don't have enough information today to 
make a recommendation yes or no on the project. But out of 
respect to your visit here----
    Ms. Bottene. Thank you.
    Mr. Edwards. And the fact that you represent your 
constituents as we represent our constituents, we will ask the 
Pentagon how far along this project is. Have they taken into 
account the local opposition to the project? And is it possible 
to stop or are they committed to moving ahead?
    So we will raise questions. I don't know if we can change 
the outcome, but we will ask questions and then communicate 
back with you.
    Ms. Bottene. Thank you.
    We thank you very much. And we hope that intelligence also 
allow to understand when a mistake is committed. So this could 
leave room and place for discussion for reconsidering 
everything and, most of all, for listening to what local people 
are definitely saying in the last 3 years.
    Mr. Edwards. Well, thank you for speaking up on behalf of 
your citizens. Thank you. It is an honor to have you here. 
Thank you. Thank you for your excellent presentation.
    I would now like to recognize Mr. Michael Houlemard, who is 
president of the Association of Defense Communities. He is also 
executive officer of the Fort Ord Reuse Authority, guiding the 
planning, implementation, and financing of the redevelopment of 
the former Fort Ord military reservation, an issue of great 
interest to Mr. Farr.
    Mr. Farr. I think this committee knows about everything 
there is to know about Fort Ord, but you haven't heard what it 
is like for a community, as Mr. Houlemard represents the 
association of space reuse communities.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

                   ASSOCIATION OF DEFENSE COMMUNITIES


                                WITNESS

MICHAEL HOULEMARD

                     Statement of Michael Houlemard

    Mr. Houlemard. Thank you very much. I appreciate it.
    Chairman Edwards, Vice Chairman Farr, Ranking Member Wamp, 
Congressman Berry, thank you very much for the opportunity to 
speak today. I very much appreciate this opportunity, because 
the key issues that are facing the defense communities of this 
nation are severely impacted by the economic downturn that the 
nation is experiencing right now, and communities across the 
country have asked that we, on their behalf, speak up loudly 
and succinctly about what their problems are.
    First of all, a little bit about the association. We have 
1,200 members. And those members provide a home to our nation's 
troops, their families, the veterans, and the others that are 
the civilian support network for our military.
    We are the nation's premier organization supporting those 
communities with active, growing, and closed installations, 
especially about mission enhancement, realignment, community 
installation partnerships, all the private partnerships that 
are going on across the nation. We have been doing that for 
over 30 years.
    The testimony I am going to give today is going to focus on 
three areas that I think are of particular interest to us at 
this time.
    First--and I think the subcommittee is well aware of this 
from other testimony it has received and what other colleagues 
have said earlier today--the BRAC 2005 round, as it is the 
largest and most complex round of base closures and 
realignments, is very important to the nation.
    Now, we are reading a recent Government Accountability 
Office report. And in that GAO report, they describe several 
significant challenges which will adversely impact the 
department's ability to complete the 2005 round of closure, 
especially by the September 15th deadline.
    In particular, we are concerned that, to ensure the 
services can accomplish the deadline that ADC recommends, that 
they get full funding for the programs included in the BRAC 
2005 account.
    What I am particularly concerned about and what we received 
a lot of comment about has to do with growth communities and 
the potential massive local infrastructure requirements, 
especially for schools, that will be required as part of 
realignments and reassignments in the 2005 closure and with 
soldiers coming back from Iraq and Afghanistan.
    Second, the Department of Defense has estimated it has 
about a $3.5 billion backlog in environmental remediation work 
that has to be done for properties across the nation. Local 
communities have been working on redeveloping these lands, 
working closely with the Navy, the Air Force, the Army, the 
Corps of Engineers, and the Marine Corps on how that 
environmental restoration is going to take place.
    Certainly, the military's use of those properties were at a 
military time, but they are now potentially proposed for 
civilian reuse, requiring a significant amount of activity--and 
I will call it restoration activity--for them to be used for 
productive purposes for our communities.
    I am particularly concerned that those environmental 
remediation activities focus on the safety of the adjacent 
communities. Those communities have existing veterans and 
ongoing experiences with facilities that are still supporting 
the military's work, and our children are still exposed to 
remnant hazards, including munitions and explosives.
    It is important that the full environmental requirement be 
funded for these properties to be transferred to local 
communities. The House of Representatives recommended $300 
million in the American Recovery and Reinvestment Act. That 
funding did not survive the joint committee's recommendations, 
and so therefore it was not included.
    That $300 million is only a small part, but that $300 
million needs to be restored, and our members would suggest 
that it should be carried forward in the 2010 budget. If the 
House can do that and this subcommittee could recommend, we 
would appreciate it.
    My third point promotes the expeditious transfer of closed 
military installations to federally recognized local 
redevelopment authorities with an emphasis on using the no-cost 
economic development conveyance mechanism available in law. We 
are asking that it be emphasized more than just be a part of 
multiple opportunities for transfers.
    As a little bit of background, the BRAC commission was 
created to consolidate and increase efficiency in DOD 
facilities. Part of that commitment to Congress was that the 
BRAC process would help closed bases transition in a quick way 
so that they would be available for local reuse.
    Over five rounds of BRAC have occurred, and hundreds of 
military installations have been decommissioned or downsized 
with the expectation that these properties would be available 
to local communities for economic recovery and economic 
development.
    However, despite reports to the contrary, recent evidence 
continues to support our 1999 testimony that the inconsistent 
and uneven and time-consuming transfer process by the military 
department still leaves thousands of acres of former 
installation property unused, with fallow acreage hampering 
many other community economic redevelopment activities.
    In fact----
    Mr. Edwards. Could I ask that you take about 30 seconds to 
finalize? And I apologize for----
    Mr. Houlemard. I certainly can. On this particular point, 
Chairman, we have a very distinct philosophical difference with 
the Department of Defense, because they are emphasizing market-
rate sales, and we are emphasizing local economic recovery and 
job creation. We have to have the land to be able to do that, 
and that is our emphasis.
    I would like to say, on behalf of all of ADC in the nation, 
we really want to thank this subcommittee for its continuing 
work and support for veterans, for the soldiers, and for their 
families. Defense communities are at the core of what our 
program does. And you have heard others say what we need done 
in both BRAC and in the investment in environmental 
restoration.
    So I appreciate the time, sir.
    [The prepared statement of Michael Houlemard follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.110
    
    [GRAPHIC] [TIFF OMITTED] T0526C.111
    
    [GRAPHIC] [TIFF OMITTED] T0526C.112
    
    [GRAPHIC] [TIFF OMITTED] T0526C.113
    
    [GRAPHIC] [TIFF OMITTED] T0526C.114
    
    [GRAPHIC] [TIFF OMITTED] T0526C.115
    
    [GRAPHIC] [TIFF OMITTED] T0526C.116
    
    [GRAPHIC] [TIFF OMITTED] T0526C.117
    
    [GRAPHIC] [TIFF OMITTED] T0526C.118
    
    Mr. Edwards. Well, thank you. And as someone who 
represented Fort Hood for 14 years, I have seen firsthand the 
importance of our defense communities. And thank you for 
leading them, for what you do. Thank you for sending Sam Farr 
to Congress. He has been a great spokesman for our communities 
on this issue and the issue of transfers.
    I have a feeling this is going to be an issue we are going 
to do a lot more talking about.
    Mr. Wamp.
    Mr. Wamp. Well, we spent all morning on BRAC yesterday, and 
he is exactly right. And I think we are going to follow through 
on all of it, so I thank you for your testimony.
    Mr. Houlemard. Appreciate the time, sir.
    Mr. Edwards. Thank you.
    Mr. Farr.
    Mr. Farr. Yes, what is the one thing you think that DOD 
could do to ease the growth pains? And is one service better 
than the other at transferring property?
    Mr. Houlemard. I am biased because I work mostly with the 
United States Army, but I think all of the services will show 
you models of success. All services can also show you areas 
where they would have wanted to do better.
    So I can't say that I would point to anyone better than the 
other, but I will say this: With respect to growth communities, 
sir, there is current authority under law that the Department 
of Defense could provide support for communities for the front-
end infrastructure and schools needs that would help.
    When soldiers return and their young children need to find 
places in classrooms to be in and other facilities to get 
back----
    Mr. Farr. So Mr. Bishop was here yesterday. And his problem 
is that he has a growth community. There is no funding for 
schools. The Department of Defense says, ``Well, that's taken 
care of in the local infrastructure funding.'' Many of us on 
this committee disagree.
    And you say there is a tool that DOD can use to up front 
this----
    Mr. Houlemard. There remains authority in law for the 
Office of Economic Adjustment to provide for capital needs. 
This was done before. It was created when the Trident submarine 
program many years ago, I think both in the state of Washington 
and the state of Georgia where that was deployed, and that 
authority still exists today.
    So this is always a question of priorities, sir, but I 
can't imagine a better priority than for the communities now 
left to provide educational services for soldiers, families, as 
they return from overseas.
    Mr. Farr. Thank you.
    Mr. Edwards. Thank you very much for your testimony.
    Now I would like to recognize Mr. Ben Redmond, with the 
National Association of OEW Contractors.
    Mr. Redmond, welcome. And I would like to recognize you for 
5 minutes.
                                          Thursday, April 23, 2009.

                NATIONAL ASSOCIATION OF OEW CONTRACTORS


                                WITNESS

BEN REDMOND

                        Statement of Ben Redmond

    Mr. Redmond. Thank you, Mr. Chairman and committee members.
    I am honored to be here today to represent the National 
Association of Ordnance and Explosive Waste Contractors, 
commonly known as NAOC. NAOC is a trade association for firms 
involved in the detection and cleanup of unexploded ordnance on 
active military bases, formerly used defense sites, and base 
realignment and closure sites.
    It includes 65 member companies, employing more than 
250,000 people in every state of the union. Our member 
companies participate in the entire spectrum of cleanup, from 
development of detection technologies to the actual cleanup of 
UXO sites.
    I am here today to speak about the environmental 
restoration and cleanup on BRAC sites. According to the 2007 
defense environmental program's annual report to Congress, over 
the past 10 years, Congress has provided $5.8 billion for 
environmental activities at BRAC installations.
    Annual appropriations for cleanup of BRAC sites have 
remained consistent. However, the total amount for 
environmental cleanup on BRAC sites is only approximately $60 
million per year for military munitions cleanup. This is a 
rough number, as there is no requirement to report funding or 
expenditures for munitions cleanup separately from traditional 
hazardous waste cleanup.
    This funding, however consistent, is woefully inadequate to 
address the problem. Currently, there are 92 legacy BRAC sites, 
and there are 37 current BRAC 2005 military munitions response 
sites, with a total cost to complete of almost $1 billion. A 
detailed list is included as an attachment to my testimony.
    The backlog on cleanup of legacy BRAC sites is a problem 
that has been addressed by this body itself. The problem was 
specifically addressed in a Senate report and House report, 
which accompanied the fiscal year 2009 Military Construction 
and Veteran Affairs Appropriations bill.
    When installations are closed, the local economy has little 
chance to recover until these sites have been transferred to 
allow safe use for their intended purpose. Limited funding 
delays that require cleanup, which delays the transfer of this 
land from the Department of Defense to private entities and 
municipalities for nonmilitary use and tax-generating economic 
activities.
    With a weakening economy and a possible prolonged 
recession, the timely cleanup of transferred and transferring 
sites which protect the public and provide for economic 
development is extremely important.
    Though some BRAC sites have been transferred, previous 
reports from the Government Accountability Office have noticed 
that environmental cleanup requirements present the primary 
challenge to transferring the properties. A good example is the 
BRAC installation that has remaining sites to be cleaned up is 
Fort Ord, which is one of the most beautiful sites in the 
country, with high-value real estate ripe for redevelopment.
    Fort Ord was closed in BRAC 1991, with expectation to clean 
up and turn over the site within a few years. This has not 
happened.
    Other high-value sites that need additional funding which 
could be redeveloped and bring new jobs and increase the tax 
base include sites in Colorado, Washington, Alaska, Tennessee, 
Texas, Louisiana, and many other states.
    An area of concern that NAOC has identified is there is not 
a detailed aggregation of data on BRAC sites. Currently, site 
data is not collected and reported at a precise enough level to 
allow for proper budget formulation and cataloging of sites.
    We believe this has hampered funding, privatization, and 
contributes to an underestimation of the remediation required 
in associated backlog. NAOC recommends that DOD be required to 
collect data in smaller data sets, such as a county or the 
individual state's equivalent of a county for all MRP sites.
    In summary, it is in our national interest to appropriate 
funds for the timely, complete cleanup of unexploded ordnance 
on BRAC sites for both legacy BRAC and for BRAC 2005.
    I am grateful for this opportunity to speak with you on 
behalf of NAOC about this important issue. I want to thank 
Chairman Edwards for his leadership and for holding this 
hearing.
    I would also like to thank Ranking Member Wamp for his 
service on the committee.
    In addition, I would like to thank Congressman Farr for 
championing these issues.
    Thank you, sir.
    [The prepared statement of Michael Houleward follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.119
    
    [GRAPHIC] [TIFF OMITTED] T0526C.120
    
    [GRAPHIC] [TIFF OMITTED] T0526C.121
    
    [GRAPHIC] [TIFF OMITTED] T0526C.122
    
    [GRAPHIC] [TIFF OMITTED] T0526C.123
    
    [GRAPHIC] [TIFF OMITTED] T0526C.124
    
    [GRAPHIC] [TIFF OMITTED] T0526C.125
    
    [GRAPHIC] [TIFF OMITTED] T0526C.126
    
    [GRAPHIC] [TIFF OMITTED] T0526C.127
    
    [GRAPHIC] [TIFF OMITTED] T0526C.128
    
    Mr. Edwards. Mr. Redmond, thank you very much for your 
testimony and also for what you and the members of NAOC do, the 
important work that you do.
    Mr. Wamp.
    Mr. Wamp. No questions, thank you.
    Mr. Edwards. Mr. Farr.
    Mr. Farr. You know, I have one. Mr. Redmond, yesterday we 
heard from DOD that you can't absorb any more funding, that 
they are moving as fast as you can possibly clean up, and that 
there is no need to put more money into it because it can't go 
any faster than it already is.
    Can you comment on this?
    Mr. Redmond. Yes, sir, I can.
    Secretary Beale over at OSD--he has since moved on--but he 
asked NAOC 3 years ago, how much additional funding could we 
absorb with the personnel we currently have? With the slowdown 
of operations in Iraq, that number is over $2 billion a year. 
The current funding is around $500 million a year. So NAOC does 
not agree with the Department of Defense----
    Mr. Farr. Would you get us some specifics on that?
    Mr. Redmond. Certainly.
    Mr. Farr. I really appreciate it. We have got to get that 
into the record. I mean, it is too bad they are not here today 
to respond.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.129
    
    [GRAPHIC] [TIFF OMITTED] T0526C.130
    
    Mr. Redmond. Yes.
    Mr. Farr. But they were adamant that, ``We are just doing 
as fast''--you know, I don't believe that. It is the same thing 
we heard with public works, is that we couldn't fund--no more 
building of roads because there weren't enough tractors and 
personnel out there to do it. But it seems to me there is 
capacity and the government is underestimating that capacity.
    Mr. Redmond. Well, I think the stimulus program is 
currently showing with the construction of new roads, there is 
capacity that is unused. And certainly within NAOC, there is 
capacity which could be applied immediately, if the funding was 
available.
    Mr. Farr. And that is job-intensive.
    Mr. Redmond. It is labor-intensive, yes, sir. It creates 
jobs. And it is a small investment for the return, because when 
these lands were returned to the communities, they can be 
redeveloped for industrial use in bringing even more jobs and 
increase the tax base. It is a good deal.
    Mr. Farr. Thank you.
    Mr. Redmond. Yes, sir.
    Mr. Edwards. Thank you, Mr. Redmond. Appreciate it.
    I would like to now call forward Steve Robertson with the 
American Legion.
    Steve, welcome back.
    Mr. Robertson. It is good to be back.
    Mr. Edwards. Did somebody twist you too hard?
    Mr. Robertson. I wish I could say I did something 
glamorous, but it was pure clumsy during a visit of a college. 
I missed a step and landed on all fours.
    Mr. Edwards. That elderly lady that you saved from falling 
down those steps----
    Mr. Robertson. That is now--I will swear to that, if you 
will.
    Mr. Edwards. Welcome back to the committee, and thanks for 
all your work and the Legion's work with our committee in the 2 
years that I have had the privilege of chairing the committee. 
And I would like to recognize you now for your opening 
statement.
                              ----------                              

                                          Thursday, April 23, 2009.

                          THE AMERICAN LEGION


                                WITNESS

STEVE ROBERTSON

                      Statement of Steve Robertson

    Mr. Robertson. Thank you, Mr. Chairman. I would like my 
full testimony to be submitted for the record.
    Mr. Edwards. Without objection, so ordered.
    Mr. Robertson. I wanted to start with thanking the 
committee for the funding that we got last year. And the most 
important part was that we got it on time. I can't begin to 
tell you how much we appreciate that. The entire veterans 
community, I think I can speak for them, to say that we greatly 
appreciate having it on time to give us the full year to be 
able to spend the resources.
    We also appreciate the supplemental that brought in money 
to the V.A. for a lot of the work that needs to be done 
throughout the system.
    Now, as you are well aware, we have a team that goes around 
the country visiting V.A. medical facilities and on-site 
inspections to kind of get a feel for what areas are working 
well and what areas need improving.
    And I can tell you that we are in the middle of following 
up to see how the money is being spent. We are trying to follow 
up on non-recurring maintenance issues to make sure that those 
are being addressed in a timely manner.
    We are also still concerned about CARES, the projects that 
we were supposed to have underway, seeing what kind of progress 
were being made on that.
    We are also visiting the regional offices to see what kind 
of progress is being made in the claims adjudication area. I 
can tell you, from a couple of visits that I have made 
personally, that they are hiring the new claims folks. Again, 
it is going to be the process of getting them trained up to 
where they can take on the more challenging cases.
    So the morale is improving at a lot of the regional 
offices, just the fact that they know that they have got the 
folks online. The problem is, is you are replacing guys and 
gals with 30 years' experience, and you just can't replace that 
experience that quickly.
    Again, we are once again asking about the issue of advanced 
appropriations. We appreciate having it on time this time, but 
we would like to have it 2 years in a row. We see a big 
difference in the veterans world. And if it is possible to 
advance the idea of an advanced appropriations for the medical 
care, we would greatly appreciate that. We are going to 
continue to ask for that throughout the year.
    I am going to cut this short, so if there are any questions 
that you all would like to ask, I will be more than happy to 
try to answer them.
    [The prepared statement of Steve Robertson follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.131
    
    [GRAPHIC] [TIFF OMITTED] T0526C.132
    
    [GRAPHIC] [TIFF OMITTED] T0526C.133
    
    [GRAPHIC] [TIFF OMITTED] T0526C.134
    
    [GRAPHIC] [TIFF OMITTED] T0526C.135
    
    [GRAPHIC] [TIFF OMITTED] T0526C.136
    
    [GRAPHIC] [TIFF OMITTED] T0526C.137
    
    [GRAPHIC] [TIFF OMITTED] T0526C.138
    
    [GRAPHIC] [TIFF OMITTED] T0526C.139
    
    [GRAPHIC] [TIFF OMITTED] T0526C.140
    
    [GRAPHIC] [TIFF OMITTED] T0526C.141
    
    [GRAPHIC] [TIFF OMITTED] T0526C.142
    
    [GRAPHIC] [TIFF OMITTED] T0526C.143
    
    [GRAPHIC] [TIFF OMITTED] T0526C.144
    
    [GRAPHIC] [TIFF OMITTED] T0526C.145
    
    [GRAPHIC] [TIFF OMITTED] T0526C.146
    
    [GRAPHIC] [TIFF OMITTED] T0526C.147
    
    [GRAPHIC] [TIFF OMITTED] T0526C.148
    
    [GRAPHIC] [TIFF OMITTED] T0526C.149
    
    [GRAPHIC] [TIFF OMITTED] T0526C.150
    
    [GRAPHIC] [TIFF OMITTED] T0526C.151
    
    [GRAPHIC] [TIFF OMITTED] T0526C.152
    
    Mr. Edwards. Thanks for your testimony. And thanks for your 
oversight.
    You know, I said I wanted three goals to pursue when I 
became chairman. One is to provide more funding for the V.A.; 
two, exercise more oversight; and, three, encourage innovation. 
And you are a partner in all three of those, but particularly 
in oversight.
    While we have plused up significantly the inspector 
general's office, they can't compete with millions of veterans 
out there every day that are seeing what is going on firsthand 
in the hospitals. So thank you.
    Mr. Robertson. With the number of volunteers, that is the 
other area that we get a lot of input. We have so many people 
that work as volunteers day in and day out. A lot of times, 
they will tell us when there has been a position that has been 
held open for a long period of time without being filled or a 
problem with one of the facilities that they know needs to be 
replaced or equipment that is on backlog.
    So we have a lot of assistance out there.
    Mr. Edwards. And let me just say, in regard to advanced 
appropriations, that decision hasn't been made yet, but I know 
that, because of the interest and the priority shown on this 
issue among our veteran service organizations, including the 
Legion, there are a lot of serious discussions going on about 
seeing how that could be put into place.
    So the concerns expressed repeatedly by our VSOs have been 
heard and are being, as we speak, being considered.
    Mr. Wamp.
    Mr. Wamp. Total respect for the American Legion. Appreciate 
Steve, as well. You are a great advocate, and thanks for the 
testimony. And we will be with you.
    I understand the desire to sometimes take us out of this 
picture, but I do think that Chairman Edwards' leadership has 
proven that we can annually allocate these resources in an 
effective way and get the money to you on time and use this 
process to make the V.A. more accountable. And I know that 
forward funding sounds good, but to me, it will make the V.A. 
less accountable.
    I don't want to get in that fight today, but I do see the 
pressure from these hearings, from this process helping right 
now. So I totally understand where you are coming from with the 
constant flow of dollars, but I also think if they don't have 
to come here, the pressure is off.
    I have seen it in other directions, other agencies. There 
are other agencies--frankly, like the Tennessee Valley 
Authority that used to receive federal appropriations. And I 
guarantee you, they are less accountable today to the taxpayer, 
the rate payer, and the Congress because they don't receive 
appropriations than when they did annually.
    And that is just one example. There are many.
    Mr. Edwards. Thank you, Mr. Wamp. Thank you for your 
leadership and partnership.
    And, Sam, we did get a bill passed on time last year, and 
we are going to make every effort to do so this year.
    Mr. Farr.
    Mr. Farr. No questions, just thank you. Longest testimony 
we have, and thank you for doing it within a short period of 
time.
    Mr. Robertson. Thank you, sir.
    Mr. Farr. You are doing a good job, Steve. Really 
appreciate it.
    Mr. Edwards. If you would sit there and let the Independent 
Budget group come up. And then we will have you back to the 
table if there are any questions and answers after the 
Independent Budget presentation.
    Could I now ask those of you that are here with Independent 
Budget, Ray Kelley with AMVETS, Kerry Baker with DAV, Carl 
Blake with Paralyzed Veterans of America, and Christopher 
Needham with Veterans of Foreign Wars.
    Thank you all. Thank you again for the incredible 
partnership that you have been an important part of over the 
last several years. We have passed historic and unprecedented 
increases in V.A. funding. You have been a terribly important 
part of that successful effort, and we thank you for that. And 
thanks for being here.
    I would like to recognize you in whatever order you would 
care to.
    Mr. Blake. Well, Mr. Chairman, I guess sort of the way we 
have normally done it is, we speak on the health care piece. 
PVA has responsibility for that. And then I will defer to DAV 
on the benefits.
    Mr. Edwards. And, Carl, for the transcription, if you would 
just--as you begin your speech, if you would say who you are 
and what you are representing.
                              ----------                              

                                          Thursday, April 23, 2009.

        THE INDEPENDENT BUDGET AND PARALYZED VETERANS OF AMERICA


                                WITNESS

CARL BLAKE

                        Statement of Carl Blake

    Mr. Blake. Yes, sir.
    Chairman Edwards, Ranking Member Wamp, Mr. Farr, I would 
like to thank you again for the opportunity to testify today on 
behalf of the Independent Budget on the fiscal year 2010 
budgetary needs of the Department of Veterans Affairs health 
care system.
    I am Carl Blake with Paralyzed Veterans of America. I want 
to echo the sentiments of Steve from the Legion. We certainly 
appreciate everything the subcommittee has accomplished in the 
last 2 years. I don't think we would be where we are at without 
your leadership and, really, the support of the full 
subcommittee. So we certainly appreciate that.
    We were pleased to see that the initial information from 
the administration suggests what will probably be a significant 
increase in the budget once again. It really will be a truly 
historic budget, if we get what has been proposed by the 
administration.
    We will withhold any final judgment on that until we have 
much more details. I think we are anxiously awaiting it, just 
like I am sure you and your staff are, as well.
    For fiscal year 2010, the Independent Budget does recommend 
approximately $46.6 billion for total medical care, which is an 
increase of about $3.6 billion over the fiscal year 2009 
operating budget level.
    Our medical services recommendation includes approximately 
$36.6 billion, which includes $34.6 billion for current 
services, $1.17 billion for an increase in patient workload, 
and $790 million for policy initiatives.
    I won't go into great detail about our breakdown for the 
increase in patient workload, but it is explained in some 
detail in my written statement, and it is also explained in 
more detail in the full Independent Budget, which I believe 
your committee staff has received already.
    Our policy initiatives include about $250 million to 
continue to expand the mental health services within the V.A., 
approximately $440 million to close the capacity gap for long-
term care services that currently exist between what is 
mandated by the millennium health care bill, which is Public 
Law 106-117, and what the V.A. currently maintains, and then 
$100 million for prosthetics.
    For medical support and compliance, the Independent Budget 
recommends approximately $4.6 billion and, for medical 
facilities, approximately $5.4 billion. This includes an 
additional $150 million for non-recurring maintenance.
    The PVA, along with the Independent Budget, would like to 
thank you for your work on the stimulus bill and the funding 
that was included in that.
    We recognize that that bill included a significant amount 
of money directed towards non-recurring maintenance, which I 
think we have identified in recent years as being one of the 
major problems in the V.A. funding stream because of the lack 
of funding and because that, in the past, was always one of the 
accounts that was cannibalized when transfers were needed and 
funding was needed to come up with in shortfall years.
    But, again, we thank the subcommittee for the work on the 
stimulus bill and the money that was provided. We were 
disappointed that there wasn't some funding directed towards 
major and minor construction, but we look forward to seeing 
what the administration proposes to add funding to those 
accounts for fiscal year 2010.
    And, finally, Mr. Chairman, as you know, we all support 
H.R. 1016, the Veterans Health Care Budget Reform and 
Transparency Act. I won't go into any details about our 
position other than you know where we stand, and we would 
appreciate hearing what you have to say about the consideration 
being given to it.
    As you probably know, the president did reaffirm his 
commitment to it about 2 weeks ago in a press conference where 
he had all the veteran service organizations there, so that has 
just emboldened us a little more, I believe.
    And so we are going to continue to work on that issue, and 
we look forward to having more in-depth discussions about that 
alone with everyone on the subcommittee, if you would like, at 
a later time. We will be testifying on this issue and, I guess, 
broader funding reform issues before the House Committee on 
Veterans Affairs next week.
    So I would encourage you to take note of that and listen in 
to see what we have to say, as well.
    So, again, Mr. Chairman, I would like to thank you and the 
subcommittee for all of your work. And I would be happy to 
answer any questions.
    [The prepared statement of Carl Blake follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.153
    
    [GRAPHIC] [TIFF OMITTED] T0526C.154
    
    [GRAPHIC] [TIFF OMITTED] T0526C.155
    
    [GRAPHIC] [TIFF OMITTED] T0526C.156
    
    [GRAPHIC] [TIFF OMITTED] T0526C.157
    
    [GRAPHIC] [TIFF OMITTED] T0526C.158
    
    [GRAPHIC] [TIFF OMITTED] T0526C.159
    
    [GRAPHIC] [TIFF OMITTED] T0526C.160
    
    [GRAPHIC] [TIFF OMITTED] T0526C.161
    
    [GRAPHIC] [TIFF OMITTED] T0526C.162
    
    Mr. Edwards. I don't have a question, but let me just 
suggest something. I think one of the things I would recommend 
that you consider presenting to the subcommittee is how the 
subcommittee, if we went to 2-year funding for the V.A., how we 
would maintain not only the same level, but an increased level 
of oversight, what the pluses and minuses are.
    I think the questions raised by Mr. Wamp are very 
legitimate. We all want to keep the hammer over the V.A. to see 
they are spending every dollar wisely.
    Mr. Blake. Sure.
    Mr. Edwards. Which is why you need timely funding, but 
address the question--not right now, but if you would in the 
weeks ahead. We will talk some more about that.
    Mr. Blake. Thank you, Mr. Chairman.
    Mr. Edwards. Okay, go ahead. Who is next?
                              ----------                              

                                          Thursday, April 23, 2009.

                   THE INDEPENDENT BUDGET AND AMVETS


                                WITNESS

RAY KELLEY

                     Statement of Raymond C. Kelley

    Mr. Kelley. Thank you, Mr. Chairman.
    Thank you, Ranking Member Wamp, Mr. Farr.
    I am Ray Kelley from AMVETS, and I will be discussing the 
NCA issues, as it appears in the Independent Budget.
    In fiscal year 2008, $195 million was appropriated for NCA. 
That was $28.2 million more than the administration's request, 
so I thank the committee for that.
    Something to note out of that is only $220,000 was carry 
over in that budget. So they spent their money--they awarded 39 
of the 42 minor contracts that they had planned to award and 
granted $37.3 million of the $39.5 million in the state grants 
program.
    They also, out of that budget, used $25 million to invest 
in the national shrine commitment that we have advocated for 
the last several years to increase to $50 million a year for a 
5-year period.
    NCA has also almost hit the mark on the percentage of 
veterans who fall within the 170,000 veterans 75-mile radius 
for burial benefits, make sure that they have access to burial 
benefits. And the Independent Budget is requesting that that 
model be changed, be reduced from 170,000 veterans down to 
110,000 veterans.
    The reason is, is that, over the next several years, there 
will be no other areas in the United States that will qualify 
for a national cemetery under this current policy. Reducing it 
will immediately open it up to, I think, five or six different 
areas that have a need already, that almost meet that 170,000 
veteran qualifier.
    Again, our total number will be $291.5 million, and that 
includes the $50 million for the shrine initiative. And I want 
to thank you for the $50 million in the stimulus package that 
will go towards the shrine initiative.
    And talking to NCA, they have it on good authority that 
they will spend that within the fiscal year 2009, so I will 
stick to continue to need $50 million in the 2010 budget for 
that.
    Mr. Akaka has introduced a bill--it is S. 728--which will 
provide a supplemental burial and memorial benefit to veterans. 
And it matches what the Independent Budget had asked for in the 
past with the increased plot allowance and burial benefit 
allowance.
    And it comes really close to matching what past I.B.s have 
recommended, but it is a supplemental. And it is predicated on 
appropriations. So I support the bill. It will provide a 
substantial increase to veterans to help them in their final 
resting place.
    And thank you again for holding this hearing. I am happy to 
answer any questions you have at this time.
    [The prepared statement of Raymond C. Kelley follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.163
    
    [GRAPHIC] [TIFF OMITTED] T0526C.164
    
    [GRAPHIC] [TIFF OMITTED] T0526C.165
    
    [GRAPHIC] [TIFF OMITTED] T0526C.166
    
    [GRAPHIC] [TIFF OMITTED] T0526C.167
    
    [GRAPHIC] [TIFF OMITTED] T0526C.168
    
    [GRAPHIC] [TIFF OMITTED] T0526C.169
    
    [GRAPHIC] [TIFF OMITTED] T0526C.170
    
    [GRAPHIC] [TIFF OMITTED] T0526C.171
    
    [GRAPHIC] [TIFF OMITTED] T0526C.172
    
    [GRAPHIC] [TIFF OMITTED] T0526C.173
    
    [GRAPHIC] [TIFF OMITTED] T0526C.174
    
    Mr. Edwards. All right, thank you and AMVETS for all you do 
on behalf of veterans. Thank you for being here today.
                              ----------                              

                                          Thursday, April 23, 2009.

          THE INDEPENDENT BUDGET AND VETERANS OF FOREIGN WARS


                                WITNESS

CHRISTOPHER M. NEEDHAM

                    Statement of Christopher Needham

    Mr. Needham. Mr. Chairman, my name is Chris Needham. I am 
with the Veterans of Foreign Wars, and I would like to thank 
you for the opportunity to testify today.
    We handle the construction portion of the Independent 
Budget, so I will limit my remarks to that.
    Our major concern with respect to major construction is the 
growing backlog of projects. Because V.A.'s projects are funded 
on a multistage basis, there are a large number of projects 
that have opened that have not received full funding. That 
total backlog is about $2 billion.
    So as V.A. moves forward, that represents a challenge, that 
these projects need to be funded before we can necessarily move 
on to some of these other projects and other priorities that 
V.A. needs filled.
    Overall, we look at the construction budget in terms of 
recapitalization, that major-minor maintenance, they all sort 
of tie together to provide the overall capital budget. Now, the 
standard for that that industries use is about 5 percent to 8 
percent of plant replacement value.
    V.A.'s most recent estimated plant replacement value is 
about $85 billion. So, accordingly, that means that the total 
capital budget should be in the range of $4 billion to $4.25 
billion, a little above that, perhaps.
    In the last fiscal year, the administration's request was 
about $3.6 billion. And the increase that this committee helped 
push through brought V.A. to in line with what the 
recommendations are. We sincerely appreciate your efforts on 
that.
    The other issue is with respect to minor construction. And 
that is another issue where you guys have really done a great 
job to increase funding.
    Now, minor construction has sort of grown in importance, 
because a lot of minor construction goes to helping non-
recurring maintenance issues. And those are the simple things, 
sort of the one-time issues that need to be fixed to help 
maintain facilities and keep them running.
    It could be something as simple as maybe changing the 
flooring or repairing walls, but it is also important safety 
issues such as, you know, fire and sprinkler systems, 
elevators, just those one-time things that help make sure that 
these buildings last as long as we need them to. So the 
increases in minor construction help take care of non-recurring 
maintenance.
    And as Carl spoke of earlier, we definitely appreciate the 
stimulus bill and the $1 billion included in that for non-
recurring maintenance. It really does help, because V.A.'s 
estimates are of about--it is about a $4 billion backlog in 
maintenance issues.
    And that $1 billion goes a long way towards fixing that 
backlog, but it also attests to the need that we need to 
continue to address these projects and these priorities.
    One other small issue I will get to, with respect to minor 
construction, is medical research. Medical research projects 
right now have to compete with direct health care projects, in 
terms of prioritization. And as a result, often medical 
research falls far below some of these other priorities.
    The Draft National CARES Plan identified about $142 million 
in laboratory improvements. And we would like to see these 
funded.
    Now, these are important, you know, mostly for--not just 
for safety and health concerns, but also for recruitment and 
retention, that if you are showing a doctor around, you know, 
somebody you are trying to hire, and he sees a laboratory from 
the 1960s, you know, he might run in terror.
    But what we need to do is we need to have high-quality, 
first-class, modern research facilities, both for recruitment, 
but also so that V.A. can continue to do its wonderful 
research.
    Thank you.
    [The prepared statement of Christopher Needham follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.175
    
    [GRAPHIC] [TIFF OMITTED] T0526C.176
    
    [GRAPHIC] [TIFF OMITTED] T0526C.177
    
    [GRAPHIC] [TIFF OMITTED] T0526C.178
    
    [GRAPHIC] [TIFF OMITTED] T0526C.179
    
    [GRAPHIC] [TIFF OMITTED] T0526C.180
    
    [GRAPHIC] [TIFF OMITTED] T0526C.181
    
    [GRAPHIC] [TIFF OMITTED] T0526C.182
    
    [GRAPHIC] [TIFF OMITTED] T0526C.183
    
    [GRAPHIC] [TIFF OMITTED] T0526C.184
    
    [GRAPHIC] [TIFF OMITTED] T0526C.185
    
    [GRAPHIC] [TIFF OMITTED] T0526C.186
    
    [GRAPHIC] [TIFF OMITTED] T0526C.187
    
    [GRAPHIC] [TIFF OMITTED] T0526C.188
    
    [GRAPHIC] [TIFF OMITTED] T0526C.189
    
    [GRAPHIC] [TIFF OMITTED] T0526C.190
    
    Mr. Edwards. Thank you very much.
                              ----------                              

                                          Thursday, April 23, 2009.

         THE INDEPENDENT BUDGET AND DISABLED AMERICAN VETERANS


                                WITNESS

KERRY BAKER

                        Statement of Kerry Baker

    Mr. Baker. Thank you, Mr. Chairman. My name is Kerry Baker. 
I am with the DAV. And today I will focus on issues affecting 
the Veterans Benefits Administration.
    On behalf of the VBA, we have come before you for many 
years requesting additional funding to reverse its chronic 
history of understaffing. You have answered that call. In just 
the past few years, V.A. has hired approximately 3,000 
additional claims processors. In fact, the V.A. is still hiring 
additional personnel because the monies allocated during the 
past couple of years.
    Congressional actions to increase staffing have provided 
VBA a major tool in stopping the chronic increases in claims 
processing and, we hope, a tool for regaining some control over 
the backlog.
    Nonetheless, the claims backlog struggle is nowhere near 
its end. V.A. received approximately 888,000 rating claims in 
fiscal year 2008, or 88,000 more than they had anticipated.
    It estimates they will decide over 942,000 claims in 2009. 
However, it may actually received nearly 1 million claims in 
2009.
    Because of the unknown long-term impact of VBA's increased 
staffing, we are not prepared to seek additional staffing and 
subsequent funding, other than cost-of-living increases for VBA 
at this time.
    However, to help improve the claims process, the Congress 
must do more to upgrade V.A.'s I.T. infrastructure. It must 
also be given more flexibility to manage those improvements.
    Despite problems in the claims process, Congress has 
reduced funding for I.T. initiatives over the past several 
years. In fiscal year 2001, Congress provided $82 million for 
I.T. initiatives. And by 2006, that funding had fallen to $23 
million.
    Congress has, however, noticed the disconnect between the 
I.T. and improvements in the claims process. Section 227 of the 
Veterans Benefits Improvement Act of 2008 places new 
requirements on the V.A. to examine all uses of current I.T. 
and comparable outside I.T. systems with respect to claims 
processing.
    V.A. must then develop a new plan to use these and other 
relevant technologies to reduce subjectivity, avoid remands, 
reduce--in regional office rating decisions.
    All I.T. initiatives are now being funded through V.A.'s 
I.T. appropriation and tightly controlled by the CIO. However, 
VBA initiatives include expansion of Web-based technology and 
deliverables such as Web portal and training and performance 
support systems, virtual V.A. paperless processing, and 
enhanced veterans service and access to benefits, status, 
delivery, and data integration across business lines.
    The I.B. VSOs believe a conservative increase of at least 5 
percent annually in I.T. initiatives is warranted. V.A. should 
give the highest priority to the review required by the 
Benefits Improvement Act of 2008 and double its efforts to 
ensure these ongoing initiatives are fully funded and 
accomplish their goals.
    Further, the impact of I.T.'s centralization under the CIO 
should be examined and, if warranted, shift appropriate 
responsibility for their management from the CIO to the 
undersecretary for benefits.
    Another area of concern is Vocational Rehabilitation and 
Employment. A cornerstone of several new initiatives is VR&E's 
five-track employment process, which aims to advance employment 
opportunities for disabled veterans.
    Also, increasing numbers of severely disabled veterans from 
ongoing conflicts have benefited from VR&E's independent living 
program. Independent living specialists provide services that 
empower service-disabled veterans to the greatest extent 
possible, to live independently in the community.
    VR&E needs approximately 200 additional full-time 
employment coordinators and independent living specialists to 
provide these services to eligible veterans.
    Furthermore, the I.B. VSOs believe VR&E needs approximately 
50 additional FTE dedicated to management and oversight of its 
increasing reliance on contract counselors and service 
providers, as well as for program oversight and support. The 
additional FTE would support national initiatives recommended 
by the VR&E task force and would provide support to decrease 
the growing caseload and allow for more intensive services to 
be provided to severely disabled veterans.
    V.A.'s fiscal year 2008 estimate for total FTE in VR&E has 
reported in its fiscal year 2009 budget submission is 1,185. 
However, the total FTE for 2009 has been decreased to 1,179, 
which is even a decrease from 2007 figures.
    This decrease in FTE for such a vital program is 
inexplicable, considering the increased need for VR&E due to 
the ongoing combat operations. Therefore, the I.B. VSOs 
recommend that the fiscal year 2008 total of 1,179 FTE for VR&E 
be increased by 250 to a total of 1,429 FTE.
    And that concludes my statement. It has been an honor to 
testify before you today.
    [The prepared statement of Kerry Baker follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.191
    
    [GRAPHIC] [TIFF OMITTED] T0526C.192
    
    [GRAPHIC] [TIFF OMITTED] T0526C.193
    
    [GRAPHIC] [TIFF OMITTED] T0526C.194
    
    [GRAPHIC] [TIFF OMITTED] T0526C.195
    
    [GRAPHIC] [TIFF OMITTED] T0526C.196
    
    [GRAPHIC] [TIFF OMITTED] T0526C.197
    
    [GRAPHIC] [TIFF OMITTED] T0526C.198
    
    [GRAPHIC] [TIFF OMITTED] T0526C.199
    
    Mr. Edwards. Great, thank you. Thank you very much for all 
that the DAV does every day on behalf of America's veterans.
    Let me ask one question. In relation to the Independent 
Budget for fiscal year 2009, where does President Obama's 
request for the V.A. compare? Is it the same? Is it above it? 
Is it below it?
    Mr. Blake. The president's budget request compared to this 
current year's--or this current year's request versus the I.B. 
was actually over the I.B. request by about $1.3 billion, I 
believe.
    As best as we can tell, the administration assumed about 
$3.4 billion in collections initially in that number, and the 
I.B.'s recommendation turned back to what the 2009 number was, 
so it was about $2.6 billion. So there is some of the gap 
there.
    Honestly, I couldn't tell you why there is a difference. We 
are certainly pleased that it is above the I.B. I mean, we make 
no bones about saying that we are the standard. I would be 
interested in seeing the details and figuring out where they 
may have made some plus-ups.
    I would honestly say that I can identify at least a couple 
places where we were probably conservative. One example would 
be in the education service, in the veterans benefits side, or 
in GOE.
    We didn't recommend any increase in FTE, and yet everyone 
always asks us why not, given the new G.I. Bill coming online 
and that. And I think it is partly because we weren't really 
sure how the V.A. was proceeding at this point, and we didn't 
feel really comfortable in recommending an additional FTE level 
for that, so there is some loss there.
    So there are some areas I could identify even within the 
I.B. that we were probably conservative on. But the short 
answer to the question is, they are above the I.B.
    Mr. Edwards. Steve, let me ask you to come up.
    And, Tom, come on up, too. We would love to have you here. 
You have been a great partner in this.
    And as I do that, I am going to have to ask your 
understanding. The Fleet Reserve Association was to give me an 
award because of the great work that Mr. Wamp and Mr. Farr and 
this staff and committee have done, but they chose me, I guess, 
to get the award. So thank you all for making me look better 
than----
    Mr. Wamp. You can accept it on our behalf.
    Mr. Edwards. Obviously, we are going to have a number of 
conversations as we go through this appropriations process. So 
today was primarily focused on what you put into the formal 
record, your highest priorities, concerns, questions, and 
comments.
    I am going to turn the gavel back over to Mr. Farr for 
whatever time he and Mr. Wamp would like to address questions. 
But thank you. Please see it as no sign of disrespect. I don't 
want to disrespect the Fleet Reserve Association by not being 
there when they offer that award.
    Mr. Farr, the gavel is yours. Thank you for doing this 
today.
    Mr. Wamp, thank you----
    Mr. Farr. Mr. Wamp just wants to have a picture taken with 
that award that you----
    Mr. Edwards. He deserves it, and so do you.
    Mr. Farr [presiding]. Well, congratulations. Thank you very 
much.
    I guess it is just opening up for questions now.
    Mr. Wamp.
    Mr. Wamp. Well, I don't really have any questions. Either I 
am getting old or veteran group activists and representatives 
are getting younger. So, I mean, I look at you all, and I 
think, ``Gosh, you all are a young group of people,'' including 
you, Steve.
    Mr. Robertson. After 21 years, sir, I take that as a 
compliment.
    Mr. Wamp. I know you have been at it a while, and you do a 
really good job.
    The only question I would have is, in the post-9/11 world, 
I have followed this closely and watched it, especially over 
the last couple of years. It seems like the Independent Budget, 
while there used to be almost a rub between the Independent 
Budget, the authorizers, the appropriators, and OMB, is like a 
four-corner, you know, conflict.
    It looks to me like everybody is growing together as the 
Congress and the administration make more commitments to 
veterans. Is that just the general perception, that there is 
not the kind of competing interest with the Independent Budget 
that we used to have?
    You are sitting here having a conversation with the 
chairman about the president's budget exceeding the Independent 
Budget, which used to just be almost the other way around all 
the time, correct?
    Mr. Blake. Absolutely. Yes, sir.
    Mr. Robertson. Mr. Chairman--Steve Robertson with the 
American Legion for the reporters--I think one of the big 
differences is the quality of care. The V.A. has definitely 
taken a turn in the time period I have been in Washington--when 
we moved from a hospital-based system to more of an integrated 
health care delivery package, and with the community--
everything else----
    Mr. Wamp. Right.
    Mr. Robertson [continuing]. I think even OMB--and I never 
thought I would compliment OMB on anything--but I think even 
OMB realizes that they are getting the best bang for the buck 
and, if the rest of the health care industry would take a lot 
of the initiatives that the veterans community has taken, I 
think they would realize a lot of savings, as well.
    So I really think that a lot of the things we have been 
advocating have become a reality. For example, we never had 
enrollment of the V.A. until 1996, 1997----
    Mr. Wamp. Yes.
    Mr. Robertson [continuing]. Before we actually knew what 
population we were going to be taking care of. We weren't 
having people make payments into the system and bringing their 
health care dollars with them, which was something that was 
new.
    And just the fact that we are delivering better care, we 
are able to compete with the rest of the world and attracting a 
lot of our veterans to the system who may have never used it 
before.
    But the rest of the health care industry is changing, as 
well. And we are being the health care of choice, by a lot of 
the veterans that have other options.
    Mr. Blake. Mr. Wamp, what I would say is, where you have 
really started to see together--grow together is that the 
administrations have come more towards--or the administration 
has come more towards where I thought Congress and the veterans 
community was more closely aligned, mainly because I feel like, 
between the pressure from the committees and the folks on the 
Hill and the veterans community, we have managed to get a lot 
of the gimmicky stuff that used to be part of the budgets and a 
lot of the things that covered up true needs have been removed.
    And, I mean, you really sort of get to a truth in budgeting 
point. And I think that is where we are starting to kind of 
come to that point now, where, you know, we are close enough 
that we all recognize that the--you can't really fudge the 
needs in the end. And so we are getting to that point now.
    Mr. Baker. I would like to add something on the benefits 
administration. I know that, you know, we have probably come 
before this committee and a lot of others year after year after 
year about the claims backlog and how there wasn't enough 
benefits processors to get that backlog worked out.
    And I believe, if my memory serves me correctly, Chairman 
Edwards asked last year, if you get that--still going to ask 
for more people. Well, we got what we asked for.
    And so the fact that it takes 2 or 3 years sometimes to get 
those claims processors up to speed, sure enough, this year, we 
are not asking for any new claims processors. We understand the 
president's budget may actually contain that.
    I think that we indicated to the chairman last year that, 
if we could get enough, we could focus on policy within VBA to 
try to get the claims process a little smoother. But you can 
never do it until you have enough people to work within the 
system.
    Now that you do--and that is what we have focused on this 
year in the I.B.--is try to improve some policies so that those 
people could be used to the best advantage.
    So I think you are 100 percent correct when you say those 
corners are coming together.
    Mr. Wamp. And I think--we have had 20 witnesses. I can't 
remember who mentioned the CARES. You still had some questions 
about CARES. Steve, that may have been you.
    And I am just wondering, because, obviously CBOC, Super 
CBOC centers have all helped tremendously, but then I am still 
wondering, too, about some of the CARES recommendations, as to 
whether or not they are going to be implemented, whether they 
are just kind of dead, and things go in a different direction.
    I thought when CARES was first proposed that there might be 
a movement of some of the facility strength from the upper 
east, where veterans have fled, to the southeast, in my area, 
where veterans have heavily populated. The rivers and the 
streams and the cost of living is lower, and they have moved 
towards the sun, also.
    But CARES hasn't really done much about closing facilities 
or realigning things as much as V.A. health care has tried to 
take the health care services to the point of need where the 
veterans are more.
    Mr. Robertson. Well, I think CARES was really a blueprint, 
because we had some concerns because of the lack of study on 
the long-term care and mental health issues, a lot of the 
recommendations on facilities to be closed were places where we 
had mental health services being provided in a great demand.
    So I think it was supposed to serve more as a blueprint, 
and we were supposed to develop it more as we went along. Well, 
Katrina kind of took care of a couple of issues for us. They 
wiped out basically two facilities that are still in the 
process of being built.
    The Denver project has been going on now for almost a 
decade, of replacing that facility. Las Vegas, they are finally 
making some headway on that. So, you know, the major 
construction that the CARES talked about, I think, are still 
moving in the right direction. It was a lot of the minor 
construction consolidation things that had to be looked 
closely.
    And if I am not mistaken, the Veterans Affairs Committee is 
scheduling a hearing in the near future on CARES to see where 
we are and what adjustments need to be made.
    But the veterans community was pretty much concerned 
because of the lack of information on long-term care and the 
mental health issues. We weren't really sure that the CARES had 
adequately taken that into consideration with some of the 
recommendations, Waco being a classic example of one of them 
that was supposed to be closed. And that is probably one of our 
best mental health facilities in the whole system.
    Mr. Needham. One of the strengths, I think, of the CARES 
process is, is it sort of made, I guess, V.A.'s approach to 
construction management much more professional, in that it sort 
of forced them to identify models and identify procedures and 
identify the process.
    It is not to say it is a perfect process. I mean, as we 
have seen with, like, Denver, that has been, you know, 10 years 
in the making, and we are at about, you know, version number 
six of which kind of hospital we want. So, I mean, there are 
always certainly heartaches.
    But if you look at the totality of the projects that have 
been done and how many of them were involved in the original 
CARES process, it is actually much more sizable than it would 
seem in initial glance.
    But, also, as Steve was saying, in terms of, you know, the 
minor issues it is identified, you know, we talked about, you 
know, the need for minor construction, but also the research, 
and those were all things identified and brought forward by the 
CARES project. So in that aspect, it was valuable.
    Mr. Robertson. And the rural health care is still a major 
issue. And I think that most of the veterans community knows 
that the secretary has the authority to contract out services 
in areas where it is not feasible to build a facility, and we 
strongly advocated that over the years.
    This is the American Legion, Steve with American Legion. We 
have concerns over the voucher system. We think that is a 
disaster--to happen for a number of reasons.
    Mr. Blake. And I think, to be fair, when CARES was 
conducted, rural health care--I feel like rural health care has 
really become a front-and-center issue that it wasn't during 
the CARES process. And it sort of changed the dynamic beyond 
what CARES looked at.
    And so I think the V.A. has been thrown a new challenge, 
and it is sort of balancing what the needs were identified 
under CARES with a whole new aspect on how the care can be 
delivered, particularly with the Guard and Reserve in rural 
settings. So----
    Mr. Robertson. The war, with the activation of Guard and 
Reserve units, brought more National Guard and reservists into 
the health care window than before----
    Mr. Farr. Well, keep pushing, because it isn't going to 
happen without you. I mean, I think what we represent civilian, 
military, veterans, the whole community. And the best kind of 
care is quality care delivered close as possible.
    I think there is going to be with health care reform a need 
for us to find a lot of savings, which is probably going to be 
at the administrative level. And it seems to me that we have 
got all these silos of health care that, if we had a better job 
of integrating, we could get a better bang for the buck and we 
could move those savings into providing higher-quality care in 
the rural areas.
    But we are going to have to fight every inch of it. And the 
veterans are way ahead, because, you know, everybody is moving 
in the direction the Department of Veterans Affairs is going.
    Mr. Robertson. Well, the telemedicine--I mean, there are a 
lot of things that V.A. is doing----
    Mr. Farr. Yes, it is fantastic.
    Mr. Robertson [continuing]. That is on the leading edge 
that we would like to see the rest of the health care industry 
try to emulate.
    Mr. Farr. I have one question, Mr. Kelley. I appreciate 
your testimony on veteran cemeteries. I agree with all your 
recommendations. I have been fighting this for 15 years. We had 
a military base close. We have land set aside, for a veteran 
cemetery, but because we are within 70 miles of an existing 
cemetery, we have a problem. It is really more--it is only 70 
miles as the crow flies, not as one drives.
    So nobody wants to get buried in the existing cemetery. It 
is in the middle of the San Joaquin Valley. And so we went the 
state route, but the state of California is saying, ``We are 
not going to do cemeteries.'' They have refused to do it.
    So we invented a third way using state legislation to 
create essentially a private investment that would then 
guarantee the state's role. And the state will apply for it. I 
mean, we are not inventing a new application process, but we 
are indemnifying the state.
    And so we have this land all set up for the feasibility 
study, and it is about 105 acres, and it is on Monterey Bay. 
The idea was to put a civilian cemetery next to a veteran 
cemetery. The profits are made off the civilian cemetery and 
can be used to maintain the veterans cemetery.
    Mr. Kelley. Right.
    Mr. Farr. So we are looking for a developer. If you have 
anybody that wants to go and have a place on the Monterey 
peninsula to help us build a first-class veteran cemetery, 
where the federal part is all reimbursable.
    I would love to try to change all the law, but it is 
probably going to be easier to get this thing built this way 
than it is to be able to get Congress to waive the 70 miles and 
do all that other stuff.
    Mr. Kelley. It looks like--what I have is an evaluation of 
the burial benefits. And they did a very in-depth study of how 
to change this. And that is where my recommendations came from, 
is pooling some of their recommendations. And to serve the most 
veterans, it was to reduce the veteran population.
    Mr. Farr. Where did you get a copy? Did that just come out?
    Mr. Kelley. It came out in August of 2008. And----
    Mr. Farr. Do we have that? Can we work with you to get 
that?
    Mr. Kelley. Sure. And to serve the most veterans, it seemed 
more feasible to leave the 75-mile radius, but reduce the 
number of veterans in that area. It would immediately open 
access. I don't think it will help you.
    Mr. Farr. No, it won't help us.
    Mr. Kelley. But there were studies that----
    Mr. Farr. But, see, what they are doing in California, the 
department has decided to go up through the San Joaquin Valley. 
But if you put a cemetery in Bakersfield, and put one up in 
Santa Nella, and you put one up by Sacramento, 70-mile radius 
goes from Nevada out into the ocean.
    Mr. Kelley. Right.
    Mr. Farr. Now, the problem is, there is no support 
facility. None of these communities or areas have ever had any 
history of military presence.
    Mr. Kelley. Right.
    Mr. Farr. So you are going to have a burial without 
anything military anything, whereas in our community, we have 
the longest, oldest military base in the United States, still 
operational. And we have got seven military footprints there. I 
mean, it is a closed military base.
    No matter what the merits are to this project, you can't 
get over the 70-mile rule. So, I mean, I am just asking if you 
know anybody who is interested financially, there is an ideal 
piece of real estate for development.
    Mr. Kelley. I will look into it for you, sir.
    Mr. Farr. Thank you.
    Okay, thank you. I don't have any more questions. If 
anybody has the last shot, you want to--yes, sir?
    Mr. Zampieri. Can I get the last shot----
    Mr. Farr. You can have the last shot.
    Mr. Zampieri [continuing]. Director of government 
relations, and I appreciate it. In the Independent Budget, in 
other VSOs that testify, I just wanted to draw your attention 
to that the NDAA included in 2008 and 2009 that--they create 
various centers of excellence.
    And you probably know where I am going. For TBI, PTSD, 
vision loss, hearing loss, and orthopedic, sort of the five 
centers, and--there has been some significant challenges, is 
the term that I keep getting told, in implementing all of those 
centers.
    If you were to diagram the chart and look at--funding and 
program operations of those centers, you would be astonished, I 
think, at the lack of----
    Mr. Farr. What do you want?
    Mr. Zampieri. The vision centers of excellence and the 
hearing and the orthopedic centers, I think if you could work 
with the Defense Appropriations Committee on ensuring that DOD 
is implementing all of those and working in cooperation with 
the V.A., because there has been some problems.
    The House V.A. Oversight Subcommittee had a hearing on 
March 17th. And they uncovered some big problems there.
    Hopefully, again, I think if you can just check with the 
Defense Appropriations Committee, it was Mr. Young and Mr. 
Murtha. And in the course of having DOD witnesses coming over 
and testifying--centers, make sure they are explaining what 
they are doing and----
    Mr. Farr. Okay.
    Mr. Zampieri. They have admitted under oath, for example, 
they have spent a total of $7,500 on the vision centers of 
excellence--that is sort of unconscionable.
    Mr. Farr. We will have our staffs check with those other 
committee staff and see if we can address that.
    All right? Thank you very much. Thank you for your time. 
All of you, thank you for your service and for being here 
today. We appreciate it.
    The meeting is adjourned.
                                          Thursday, April 23, 2009.

                            RELATED AGENCIES

                               WITNESSES

CHIEF JUDGE WILLIAM P. GREENE, JR., U.S. COURT OF APPEALS FOR VETERANS 
    CLAIMS
GENERAL JOHN W. NICHOLSON, U.S.A., RETIRED, SECRETARY, AMERICAN BATTLE 
    MONUMENTS COMMISSIONS
TERRENCE C. SALT, PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR THE ARMY 
    (CIVIL WORKS), ARLINGTON NATIONAL CEMETERY
TIMOTHY C. COX, ARMED FORCES RETIREMENT HOME

                       Statement of the Chairman

    Mr. Edwards [presiding]. I would like to call the 
subcommittee to order.
    Chief Judge Greene, welcome back to the committee.
    Chief Judge Greene. Thank you, sir.
    Mr. Edwards. And thank you for your work on behalf of 
America's veterans.
    I am going to be very brief in my opening statement. Our 
first panel is the United States Court of Appeals for Veterans 
Claims. The budget request for fiscal year 2010 is $27,115,000, 
of which $1.8 million is for the pro bono program.
    The request is a net decrease of $3.86 million when 
compared to the fiscal year 2009 appropriation, which included 
a onetime appropriation associated with GSA expenses for a new 
judicial center.
    And, Judge Greene, we have introduced you many times so I 
won't go through your whole bio, but thank you for your 
distinguished career in the Army and your continued service to 
our country at the court now.
    Chief Judge Greene. Thank you.
    Mr. Edwards. I would like to recognize Mr. Wamp for any 
opening comments----

                Statement of the Ranking Minority Member

    Mr. Wamp. Just to thank you, Chairman, for the way you run 
this committee, the way we got our work done on time, the joint 
commitment to doing that again this year and these witnesses 
this afternoon.
    This hearing is important, and I know you want to move 
along so that we don't hold them any longer than we can.
    And with that, I will just yield back and get started.
    Mr. Edwards. Thank you.
    Judge Greene.

           Statement of the Honorable William P. Greene, Jr.

    Chief Judge Greene. My turn?
    Chairman Edwards and Ranking Member Wamp, I certainly am 
very pleased to be here again with you to talk about the budget 
for the United States Court of Appeals for Veterans Claims.
    I think you pretty much have capsulized the budget for 
fiscal year 2010. We are in the unique position this year of 
asking for less money than we were appropriated last year 
thanks to your great support and putting the money in motion to 
kick start the project for the courthouse for our veterans.
    There are, however, some increases in the budget if you 
take away that $7 million that I need to bring to your 
attention. With the addition of the pro bono representation 
program budget, they are requesting an extra $120,000 over last 
year's budget.
    Our increase can be focused essentially on $1.5 million to 
anticipate the incurred costs of taking care of two additional 
judges that have been authorized by Congress to assist us in 
this mission. And if Congress confirms and the president 
appoints these individuals after December of 2009, then three-
quarters of the year will require us to be able to adequately 
financially support two judges and the accompanying staff.
    The other part associated with that is the fact that 
because of our growth with the two additional judges and 
because of the conditions that we are in now, we will need to 
expand space--available space--and that would be moving some 
employees out to another location and leasing space there.
    And so the cost associated with that, plus the build-out 
and the other moving expenses, will be about another $2 million 
to cover that cost.
    Other than that, we have the regular increases that are 
associated with financial services and security and the like.
    I just need to say that the court is very grateful, again, 
for the demonstrated support that you have provided reference 
to the courthouse. We have transferred that $7 million to GSA 
to get the ball rolling.
    We have identified a site on 49 L Street SE, but there are 
issues that have to be addressed and answered before we can 
firmly commit to requesting the specific funding requirement 
other than the $7 million. There are soil contamination issues, 
the ability to acquire an additional adjacent lot, setback 
issues for the building, and then whether or not there is 
sufficient overall size for putting a courthouse on that 
location.
    Mr. Edwards. It is never easy, is it?
    Chief Judge Greene. It is never easy. And if this doesn't 
work, then we will have to go to other alternatives.
    But you can rest assured that as soon as those answers are 
given that I will diligently move forward to providing you a 
very fully-funded request.
    [The prepared statement of the Honorable William P. Greene, 
Jr., follows:]

[GRAPHIC] [TIFF OMITTED] T0526C.200

[GRAPHIC] [TIFF OMITTED] T0526C.201

[GRAPHIC] [TIFF OMITTED] T0526C.202

[GRAPHIC] [TIFF OMITTED] T0526C.203

[GRAPHIC] [TIFF OMITTED] T0526C.204

[GRAPHIC] [TIFF OMITTED] T0526C.205

[GRAPHIC] [TIFF OMITTED] T0526C.206

[GRAPHIC] [TIFF OMITTED] T0526C.207

[GRAPHIC] [TIFF OMITTED] T0526C.208

[GRAPHIC] [TIFF OMITTED] T0526C.209

    Mr. Edwards. Okay. Great. Thank you, Judge Greene.
    And obviously your full testimony will be submitted for the 
record.
    I think we have a minute or two left on one vote with one 
more vote to follow. So this shouldn't take long.

                    RENOVATING AN EXISTING BUILDING

    Judge Greene, let me ask if there is any possibility with 
the market turning down and a lot of real estate developments 
really in a cash bind, is there any option that there might be 
a building that is already built that becomes available that 
could be renovated in Washington? Or does GSA keep its eyes 
open for those kind of opportunities?
    Chief Judge Greene. Yes, sir. GSA is identifying sites like 
that and, of course, we are helping them identify sites as 
well. Quite frankly, I have looked at the National Building 
Museum because that is the old Pension Building. And you walk 
in there and you see nothing but things associated with 
veterans coming in there to receive their pensions for their 
service. There is plenty of space in there. Certainly that is a 
very attractive option in the absence of having your own 
independent courthouse like the other courts have.
    The Arts and Industries Building run by the Smithsonian was 
part of the feasibility study. The problem there, of course, is 
it is going to take probably $200 million to just rehab it. 
Then you have got to retrofit it to a courthouse.
    Mr. Edwards. Sometimes renovations can be more expensive 
then building from scratch.
    Chief Judge Greene. And, of course, the feasibility study 
was really directed at us staying in the current commercial 
office building that we are leasing.
    The kick there was that to turn that into the courthouse, 
you would have to displace two other federal tenants. There are 
associated costs with moving them out and finding them another 
place and then retrofitting the rest of the space in Indiana 
Avenue for the court.
    Mr. Edwards. Well, are you satisfied that the planning for 
the site that they are looking at is moving ahead? I know there 
are hurdles and potential roadblocks, but they are moving 
expeditiously.
    Chief Judge Greene. I am, sir. And from, at least from my 
Army experience, I would like to have many, many options going 
at one time, alternatives.
    One thing that might have delayed it was that when the 
feasibility study was submitted we had identified, quite 
frankly, property on the Capitol complex that was used for 
Senate parking, and we wanted to mirror the project that had 
been used for the Thurgood Marshall Building, which would have 
provided more parking for Senate staff and what have you. It 
would have been an ideal location as supported by many of the 
veterans organizations.
    But I am informed that that is not available. So we then 
divert to the other options that GSA has identified.

                        DECREASE IN CASE FILINGS

    Mr. Edwards. My last question is, you had a decrease of 
case filings of about 43 per month in 2008 versus fiscal year 
2007. Do you see that as a trend or was that just a onetime----
    Chief Judge Greene. A decrease? Yes, it has been a 
decrease. We certainly are still looking at 4,000 to 5,000 a 
year, though. I think we received for instance, starting for 
fiscal year 2008--October 2008 to March 31, 2009, we have 
received 2,200 cases already and have terminated 2,000. We are 
at half year so we are still on that trend.
    Mr. Edwards. Okay. Thank you.
    Mr. Wamp.

                           INCREASE IN JUDGES

    Mr. Wamp. Well, did you say, and I missed it, why the 
increase in judges that you have added are temporary and not 
permanent?
    Chief Judge Greene. I did not say. That, I think, quite 
frankly, was a legislative compromise. That is not an unusual 
thing. In Article III courts sometimes Congress will 
temporarily increase the number of Article III judges for a 
particular jurisdiction.
    The idea is that apparently after 2013 there would not be 
any authority to increase the court beyond the seven. And that 
13 is probably gauged towards anticipated retirements like my 
own.
    So I don't think it appreciates that in 2013 you could be 
receiving 6,000 cases.
    Mr. Wamp. That is all I have. Thank you, Mr. Chairman.
    Mr. Edwards. Okay.
    I have some additional questions I will submit in writing. 
But those are all the questions I have. But thank you. Please 
keep us informed how the planning is----
    Chief Judge Greene. Oh, absolutely. You will be the first 
to know. [Laughter.]
    Mr. Edwards. Thank you, Judge. Good to see you.
    We now have the American Battle Monuments Commission, and 
representing the commission are Brigadier General John 
Nicholson, U.S. Army, retired. He is the executive secretary of 
ABMC, and he also has with him, accompanying him, Brigadier 
General, retired, William Leszcyznski, the executive director 
and chief operating officer.
    And I am going to forego introductions because the two of 
you have been before this committee several times. In the 
interest of time, I want to give you an opportunity to jump 
into your testimony.
    So, General Nicholson, if you would like to proceed, I will 
recognize you for 5 minutes.

                     Statement of John W. Nicholson

    General Nicholson. Thank you. Thank you, Mr. Chairman----
    Mr. Edwards. Thank you.
    General Nicholson [continuing]. And members of the 
subcommittee. Thank you for the opportunity to appear before 
you today.
    Since the administration has not cleared me to discuss the 
detailed fiscal year 2010 appropriation request, I can only 
talk about the work that is ongoing within the commission.
    The commission has served as a guardian of America's 
overseas commemorative cemeteries and memorials since 1923. Our 
mission is to preserve for future generations the 24 cemeteries 
and the 25 monuments, memorials, and markers that we maintain 
around the world to honor America's war dead. Those missing in 
action and those who fought at their side.
    The Fiscal 2009 appropriation of $59.5 million for salaries 
and expenses allows us to execute our mission and supports our 
requirements for compensation and benefits, rent and utilities, 
maintenance, infrastructure, and capital improvements, 
contracting for services, procurement of supplies and 
materials, and replacement of equipment.
    To support this level of effort, our staffing requirement 
is 409 full-time equivalent positions.
    The fiscal year 2009 appropriation of $17.1 million into 
our foreign currency fluctuation account has brought that 
balance up sufficiently to defray losses resulting from the 
changes in the value of foreign currencies against the dollar 
and allows us to maintain purchasing power in an uncertain 
financial environment, a critical factor when 80 percent of our 
annual appropriation is spent overseas using foreign 
currencies.
    Last year, you wrote language into our appropriation for 
this account that reads, ``such sums as may be necessary.'' We 
thank you for your visionary leadership in making this 
fundamental change in how this critical account is managed. We 
have always taken our stewardship responsibilities seriously, 
and the ``such sums'' language does not lessen that 
responsibility. It does, however, reduce the risk to our 
operations, ensuring access to the funding we need when we need 
it, to maintain buying power if the U.S. dollar becomes weaker 
than originally estimated, and for that, we are very grateful.
    As you have seen on your visits, our overseas cemeteries 
and memorials are tangible representations of American values 
and our own nation's willingness in two world wars to come to 
the defense of our own freedoms and the freedoms of others. 
These magnificent national treasures instill patriotism, evoke 
gratitude, and teach important lessons of history to all who 
visit.
    ABMC's first chairman, General of the Armies John J. 
Pershing, promised that time will not dim the glory of their 
deeds. To fulfill that vision, we have a responsibility beyond 
simply maintaining beautiful and inspirational commemorative 
sites. We also must perpetuate the stories of confidence, 
courage, and sacrifice, that those we honor can no longer tell 
for themselves.
    We reported to you last year on the opening of the Normandy 
Visitor Center. Following completion of that project, the 
commission recognized that the war dead at Normandy are not the 
only American war dead buried overseas that deserve to have 
their stories told. In that spirit, we plan to adapt the 
interpretive techniques used so effectively at Normandy to our 
other visitor buildings around the world.
    But we do not intend to build new facilities like at 
Normandy. Instead, we will renovate existing visitor buildings 
to accommodate the types of exhibits and visitor services that 
have been so well received at Normandy. We have recently 
conducted site surveys of five prototype cemeteries to help us 
determine how best to do this and where to start.
    We are well into exhibit design for Pointe du Hoc where the 
emphasis will be on low-profile panels placed along a self-
guided walking tour of the battleground, which appears much as 
it did when the rangers captured the Pointe on June 4, 1944. 
Minimal displays and interactive programs will be placed in the 
small French-owned visitor building near the Pointe.
    Concurrently, the Pointe du Hoc restoration project is 
advancing well. The French government made a public 
announcement of the project on March 3 and emphasized support 
from the French and American governments. On April 15, we 
submitted the required environmental impact study and 
contingent permit request to the French, which will begin the 
official permit process.
    By French standards, this project is moving very quickly, 
and we continue to enjoy enthusiastic support from French 
officials. We will keep you and your staff apprised of our 
progress.
    In concert with these important initiatives, we continue to 
work diligently to attract many more American and foreign 
visitors to personally experience these inspirational and 
educational commemorative sites. As always, we welcome and 
encourage your visits to see for yourselves the manner in which 
we use the resources you provide to us and to experience 
firsthand the pride of living in a nation that so honors those 
whose service and sacrifice have kept us free.
    I would like to close my remarks by introducing the members 
of my staff that accompanied me here today. As you mentioned, 
Brigadier General Bill Leszczynski, U.S. Army, retired, the 
executive director and chief operating officer of the ABMC; Tom 
Sole, director of engineering and maintenance; Mike Conley, 
director of public affairs; Alan Gregory, director of finance; 
and Matthew Beck, the budget officer.
    Thank you, Mr. Chairman. This concludes my prepared 
statement. I would be pleased to respond to your questions.
    [The prepared statement of John W. Nicholson follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.210
    
    [GRAPHIC] [TIFF OMITTED] T0526C.211
    
    [GRAPHIC] [TIFF OMITTED] T0526C.212
    
    [GRAPHIC] [TIFF OMITTED] T0526C.213
    
    Mr. Edwards. General Nicholson, thank you. And let me say 
at the outset, I know this is far more than a job and a 
position to each of you. It is a passion and a labor of love, 
and I thank you for that. You are the stewards of some of the 
most hallowed and sacred grounds anywhere in the world, and we 
are grateful to you and to your dedication, and I say--when I 
say to you, I mean to you, General Leszczynski, and to all of 
you.

                        NORMANDY VISITOR CENTER

    General Nicholson. Thank you, sir.
    Mr. Edwards. Let me ask you about the Normandy Visitor 
Center. How many people do we estimate visit that a year? Any 
broad estimate?
    General Leszczynski. About 500,000 right now is the number 
of people that are actually going through that center a year, 
sir.

                             POINTE DU HOC

    Mr. Edwards. Okay. Secondly, in terms of the effort that 
you have made, this subcommittee has funded to prevent Pointe 
du Hoc from literally falling in the ocean, which, to me, would 
be akin to allowing the Statue of Liberty to fall into New York 
Harbor. How is that going? Are you now confident that that 
historic site, meaningful site, hallowed ground can be 
protected?
    General Nicholson. Yes.
    Mr. Edwards. So the technology is there. Now you are 
working and I know you have been working very closely with the 
French which you reference in your testimony. But the--the 
engineering, the technology is there. It is feasible. We have 
the cooperation, the partnership, and the resources. It can be 
done.
    General Nicholson. Well, I would say yes, but I would like 
to defer to the engineer who is really hands on that issue.
    Mr. Sole. Sir, as you know, Texas A&M----
    Mr. Edwards. For the record, could you identify yourself?
    Mr. Sole. Yes, sir. Tom Sole, director of engineering and 
maintenance for the American Battle Monuments Commission.
    Mr. Edwards. Tom, why don't you come up here a little 
closer to the microphone?
    Mr. Sole. Sir, as you know, Texas A&M spent a couple of 
years doing a very in-depth study of that site to examine the 
causes of the instability. Now all of their work has been 
reviewed by two French technical organizations to validate 
their work. And they have basically concluded that their work 
is sound, and so that has given us great confidence that, 
indeed, we are on the right path. And I think it has also given 
the French great confidence, and that is why they support it so 
strongly.
    I think the work is important not only because of the 
stability, but it also protects the historical nature of the 
site, as well as its environmental aspects, because it is an 
environmentally protected site for the French. So I think Texas 
A&M did a great study. They gave us great insights. And I think 
that right now the solution that they kind of laid out in their 
study is the one that we are pursuing, although we are going to 
go out to contractors soon to see what the contractors can 
actually do to give us the final solution. But we are confident 
that we will be able to remediate much of that----
    Mr. Edwards. Great, great.
    And I also salute you on your interpretive programs. I 
think you are right in referencing them as public diplomacy 
efforts. It is a way of reminding the world when they come 
visit our cemeteries overseas of the sacrifices Americans have 
made on behalf of the world.
    Mr. Wamp.
    Mr. Wamp. Well, two questions.
    General Nicholson, you look to me like you are thinner this 
year than you were last year, and my first question is did you 
mean to do that. [Laughter.]
    General Nicholson. You are very observant. Four pounds 
slimmer.
    Mr. Wamp. That is all?
    General Nicholson. Yes, I gave up whiskey for Lent. 
[Laughter.]
    Mr. Wamp. Well, being from Tennessee, I am not going to 
tell you what to do. [Laughter.]
    General Nicholson. Lent is over.
    Mr. Wamp. In the legislature in Tennessee about a month 
ago, they declared milk as the official drink for the State of 
Tennessee. And so, as I was traveling the state for 17 days, I 
made several points to tell folks that I didn't realize they 
started putting George Dickel and Jack Daniels in milk----
    [Laughter.]
    Mr. Wamp [continuing]. And it is the only way I could 
explain what they did, the legislature.

                        INTERPRETIVE TECHNIQUES

    You talked about interpretive techniques, and I have been 
at Pointe du Hoc, and I have been at Normandy, and it was one 
of the most moving experiences of my life. And, you know, I 
came back after seeing Theodore Roosevelt's cross at Normandy, 
and then I was at the Pentagon for the Medal of Honor 
recognition of both the father and the son, and that is just an 
extraordinary thing, tying our sacrifices together.
    But you talk about interpretive techniques, and I am 
interested because you talked about some of the things you are 
doing at Pointe du Hoc with the walkway and the panels. Are 
there other measures that you are going to do? What have you 
done at Normandy that is different for the visitor that is an 
experience that you might use in other places? Is it 
interactive? Are there kiosks? What is it? Because I haven't 
been back. I wish I could go a lot. But what interpretive 
techniques under your testimony are different?
    General Nicholson. Well, that is a good question, and I 
will ask Mike to give you the detail, but we are doing several 
things that you did mention on a different scale, not as 
intensively as at Normandy.
    Mike, you have been----
    Mr. Conley. Mike Conley, director of public affairs, 
American Battle Monuments Commission.
    Sir, in answer to the question, Normandy is the first of a 
kind for us. We have visitor buildings at all 24 of our 
cemeteries. If you have been to the cemeteries, you know that 
they are really throwbacks to the eras when the cemeteries were 
built. They are more like receiving rooms in a funeral parlor, 
and when you consider that the first visitors were the mothers 
and fathers and spouses of the war dead, that made a lot of 
sense. But as we start transitioning away from those 
generations, and trying to attract younger generations, trying 
to incorporate more modern techniques.
    When you go to the visitor center in Normandy, you will 
find very powerful films that tell the story. You will find 
campaign interactions where you can actually follow the flow of 
the divisions through the Normandy operation, the landing, then 
the ensuing operations, and then, the standard exhibit with 
text.
    But what we really tried to do is focus on individuals. You 
will find a series of vignettes on individuals buried in the 
cemetery or who served alongside of them and survived to try to 
allow people to make that personal connection. And what we are 
really trying to do--before we did the visitor center, clearly, 
going to Normandy was a moving, inspirational experience, but 
what we are now able to do is to provide the historical context 
for why that cemetery came to be put there, how and why those 
individuals buried there died, and for what they died, so that 
you really understand the context of that sacrifice.
    As the secretary said, we don't intend to build anything on 
that scale because, quite frankly, the visitorship at the other 
cemeteries wouldn't warrant that. But using the films, using 
the interactives, using the database searches, and using the 
personal anecdotal stories, we can still tell the story at all 
of our facilities, and that is the direction we are moving.
    Mr. Wamp. Without taking anything away from the raw and 
awesome simplicity of the site itself. I mean, that, to me, is 
the most overwhelming thing about Normandy, is just the 
crosses.
    Mr. Conley. Absolutely.
    General Nicholson. They don't take anything away from it.
    Mr. Wamp. Don't take anything away from that.
    Mr. Conley. In fact, the facility itself was intentionally 
designed to be set off by itself, low profile, so it did not in 
any way, architecturally, detract from the solemnity of the 
cemetery. And we know we get a million--about a million 
visitors to the cemetery. The executive director talked about 
half of those maybe going through the visitor center. That is 
okay. The destination is the cemetery, not the visitor center. 
The visitor center provides context for the visit to the 
cemetery.
    Mr. Wamp. That is great.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr.
    Mr. Farr. Well, I just visited your cemetery in Manila. I 
was just overwhelmed. It is on the most beautiful piece of real 
estate in all of the Philippines, and it is probably now the 
most valuable piece of real estate in the country. It is on a 
beautiful hill surrounded by cities.
    And I mean, I don't have any questions. I just want to tell 
you that it was--I loved the way all the battles of the South 
Pacific were displayed in art and tile, and it was fascinating. 
And then to look for your family names of ancestors you never 
knew that may have been related. I found it very touching and 
very, very powerful. I just wish we could get a cemetery built 
in my own district.
    Mr. Edwards. Does anyone else have a question or 
observation?
    Mr. Farr. General Nicholson always looks young, Mr. Wamp.
    Mr. Edwards. Absolutely.
    General Nicholson. Thank you.
    Mr. Edwards. Well, I don't have any additional oral 
questions. We may have some follow-up written questions, and, 
obviously, once you have officially released the 2010 
administration budget for ABMC, then please come back and let's 
sit down and talk with our staff and figure out what that 
budget implies and whether we need to adopt it or whether we 
need to add to it or do some fine-tuning.

                  FOREIGN CURRENCY FLUCTUATION ACCOUNT

    Mr. Farr. I do have one question.
    I was reading your testimony about the foreign currency 
fluctuation account. I was very interested in trying to help 
the Peace Corps out because we had to cut all the positions 
because of their costs overseas, with the valuation of the 
dollar. We never got that money in.
    It was about $17 million for the whole program, and we 
failed to get it in last year, and they had to cut a bunch of 
volunteers and then eliminate some programs. And I notice we 
did fund your account. Is that account a permanent account that 
just deals with fluctuation of the dollar?
    General Nicholson. Yes, but the chief financial officer can 
give you a real detailed explanation of that, but the answer is 
yes.
    Mr. Farr. Does it earn interest or anything? Is it a fenced 
account? I knew nothing about it, though. I just read the 
testimony.
    Mr. Gregory. Alan Gregory, the chief financial officer.
    Funding for our Foreign Currency Fluctuation Account is 
appropriated every year, and it has been for the last 4 or 5 
years. It was established by Congress in 1988 and seeded with 
$3 million, but up until that time, there wasn't much 
fluctuation, much need for use of a premium to operate 
overseas.
    As General Nicholson said in his testimony, about 80 
percent of our funding is spent overseas. We operate with a 
premium that costs, right now, 30 percent extra spend for goods 
and services and contracts overseas. So that the account 
stabilizes our cost requirements.
    And--but the way that the account works, we can move money 
from the foreign currency account to our Salaries and Expenses 
account. And if we ever needed to move it back, which we don't, 
we could move it back to the foreign currency account. The 
account doesn't draw interest. Our statute limits us from 
obligating directly from that account.
    Mr. Farr. So you just draw from the account. You have a 
maximum amount of money that you can draw.
    Mr. Gregory. That is correct.
    Mr. Farr. Thank you.
    Mr. Edwards. Any additional questions?
    If not, thank you both. Thanks to the entire staff and all 
your representatives for the work you do. Thank you.
    General Nicholson. Thank you, sir.
    Mr. Edwards. See you, General.
    General Nicholson. You bet.
    Mr. Edwards. Take care.
    Members, we are now going to review the Department of the 
Army's Civil Works Program for Cemeterial Expenses. Our witness 
today is Secretary Terrence Salt, Principal Deputy Assistant 
Secretary of the Army for Civil Works.
    Mr. Salt. Sir.
    Mr. Edwards. Secretary, it is good to have you here. And 
accompanying him, as we know before this subcommittee, Mr. John 
Metzler, the second generation of his family as superintendents 
of Arlington National Cemetery. We are grateful you are both 
here.
    And Mr. Secretary, I would like to recognize you for 5 
minutes of opening comments and we will certainly put your 
entire statement in the record.

                     Statement of Terrence C. Salt

    Mr. Salt. Thank you, sir. I would also--with me today also 
are Ms. Claudia Tornblom of our staff at the Army, Mr. John 
Parez, also from my staff and other staff from Arlington 
National Cemetery.
    Sir, since the administration has not yet released a 
detailed budget for fiscal year 2010, my testimony is limited 
to providing an update of our various ongoing projects and 
activities.
    Mr. Edwards. Oh, come on, you can tell us. [Laughter.]
    Mr. Salt. You have to ask me first.
    Mr. Edwards. We won't put you in an uncomfortable position. 
I understand.
    Mr. Salt. Sir, there are two items that are of particular 
significance that I would like to highlight for the 
subcommittee. The first is the Millennium Project which 
consists of the development of 36 acres of land into gravesite 
areas, roads, utilities and columbarium walls; actually 
approximatly 14,000 additional gravesites and 22,000 niches 
will be provided when this development is complete.
    In the long term, this project is very important to extend 
the useful life of Arlington Cemetery. In the short term, it 
will alleviate crowding at funeral services that is occurring 
in concentrated areas of the cemetery.
    The subcommittee staff recently visited the cemetery to get 
a first-hand look at this project. I certainly would extend an 
invitation to the entire subcommittee for an on-site briefing.
    As I made my trip the other day, there were 32 funerals 
going on and they are all concentrated in this one area. It is 
just a very concentrated part of the cemetery.
    The second item that we are considering is the development 
of a new master plan for Arlington Cemetery. The current master 
plan was published in 1998. Due to post-9/11 force protection 
issues regarding Fort Myer and other considerations, a new 
master plan is being considered to evaluate a full array of 
options to address the management of the cemetery in the 
future.
    The options would include capital development, land 
management, burial eligibility and consideration of another 
burial site. This master plan would be developed in a 
transparent process with the public and with full consultation 
with the Congress.
    In conclusion, I would like to thank the subcommittee for 
its strong support to maintain Arlington National Cemetery and 
the Soldiers' and Airmen's Home National Cemetery, to provide 
services for our many visitors, make capital investments needed 
to accommodate burials and most importantly, to preserve the 
dignity, serenity and traditions of the cemeteries for the 
nation.
    Thank you, Mr. Chairman, for the opportunity to testify on 
behalf of these cemeteries. We will be pleased to respond to 
your questions.
    [The prepared statement of Terrence C. Salt follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.214
    
    [GRAPHIC] [TIFF OMITTED] T0526C.215
    
    [GRAPHIC] [TIFF OMITTED] T0526C.216
    
    [GRAPHIC] [TIFF OMITTED] T0526C.217
    
    [GRAPHIC] [TIFF OMITTED] T0526C.218
    
    [GRAPHIC] [TIFF OMITTED] T0526C.219
    
    Mr. Edwards. Thank you, Mr. Secretary. And Mr. Metzler, 
again, thank you for you and your father's labor of love in 
Arlington Cemetery. What a legacy in life to be a steward in 
the most hallowed of hallowed grounds in our nation.
    I would like to begin by bringing up an issue that I know 
Secretary Geren has raised with each of you. And I would like 
to ask unanimous consent to have entered into the record two 
notes; one is a memorandum for the Assistant Secretary of the 
Army for Civil Works, subject ``Niche Wall at Arlington 
National Cemetery,'' from Secretary Geren and then the other is 
a letter to me from Secretary Geren on this issue.
    If there is no objection, we will enter that into the 
record. I would like to read part of the letter because frankly 
it reflects my thinking on this and then we will go from there.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0526C.220
    
    [GRAPHIC] [TIFF OMITTED] T0526C.221
    
    [GRAPHIC] [TIFF OMITTED] T0526C.222
    
    Mr. Edwards. Secretary Geren's letter in part says that 
Arlington National Cemetery is a treasure that is a final 
resting place of legions of our nation's most cherished sons 
and daughters. It is their final resting place, but it is that 
and more.
    It is our nation's most sacred memorial. A memorial to 
those who, but for their service and sacrifice, there would be 
no nation.
    In our stewardship of ANC we must do justice to both 
missions: honor the fallen and comfort their families, and 
maintain the memorial that is ANC so that it will forever speak 
to future generations of the debt we owe to those who have 
borne the battle for us.
    Pending the development of the new master plan, I have 
directed that any cemetery construction along the perimeter be 
accomplished in such a manner that the existing viewscapes must 
not be compromised further. I have done this to ensure that we 
properly consider and weigh both missions of Arlington, burial 
and memorial.
    Let me just say for now that I do not know all of the facts 
involved in the process of deciding to build the niche walls. I 
don't know all of the future plans. I intend to go out and 
visit in person sometime soon to go over that.
    I always, on any issue, maintain an open mind to hear all 
points of view and all facts before making any conclusions. But 
let me say, long before I spoke to Secretary Geren I have made 
it the habit for the last 5 years that every day when I drive 
to the Capitol rather than coming down George Washington 
Parkway, McLean to the 14th Street Bridge, I purposely exit at 
Memorial Bridge because I am inspired every single morning by 
the sight of that hallowed ground and those who hallow it.
    Long after I am gone, I want to be sure that tens and tens 
and tens of thousands of people who drive that road daily, many 
of them men and women who have served in the military and 
continuing to serve at the Pentagon, are not prohibited from 
being inspired as I feel inspired every single morning when I 
drive by the cemetery.
    And I just want to say and I am just speaking for myself 
here that I feel very, very strongly and we may consider 
putting this into our appropriation bill, too, but just what 
Secretary Geren has done that I would like to see no additional 
encumbrance of visual access to that hallowed ground from the 
public's point of view until we have had further discussions on 
it.
    And I know there is always a balance. I know there are 
sometimes competing needs, but I wouldn't want a wall built 
around Arlington Cemetery anymore than I would want a wall 
built around the Lincoln Memorial or the Jefferson Memorial or 
the U.S. Capitol. And frankly, of the four sites I consider 
Arlington Cemetery more hallowed than all the others.

                           MILLENNIUM PROJECT

    Having expressed for the record my strong and passionate 
views on this, I would welcome any insights you might have. But 
I would like to specifically ask you whether there is any 
intention in any way in the months ahead to move ahead with any 
additional construction other than that which has already been 
completed?
    Mr. Salt. At the present time, we have one project that is 
being worked on and that is the Millennium Project. Now the 
Millennium Project is adjacent to Fort Myer, inside of 
Arlington Cemetery to develop the last 36 acres of property 
that we have on the western side of the cemetery.
    That does call for a niche wall to be placed onto that 
boundary as well.
    Mr. Edwards. Do you have a map for the cemetery with you?
    Mr. Salt. I have maps--certainly.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.223
    
    Mr. Farr. What do you mean by niche wall?
    Mr. Salt. A traditional stone wall and on the inside has 
columbarium features so that you would be able to place remains 
at that location at the same time.
    Mr. Farr. But this is not a force protection wall?
    Mr. Salt. No. These are not force protection walls. If you 
go to the top of the map where you see the blue dots, number 
two, Fort Myer, that is the area that we are referring to. And 
that hash mark right below the blue dots, is the Millennium 
Project. Now this is a combination of three pieces of land, the 
old picnic area on Fort Myer, our old warehouse and then part 
of the National Park Service property which was transferred to 
us a few years ago.
    So this particular area has been designed. It has not been 
fully funded yet so we are working on that with our budget 
submissions to the committee. The rest of the cemetery as you 
look around it, these are all proposed areas and as you look 
where the solid red lines are we would not be able to put 
additional niche walls there. The existing wall would stay or 
it would be improved if you will. These are all very old walls. 
So only where you see the blue dots are potential areas for 
additional niche walls.
    Mr. Edwards. So significant areas. How high would that 
niche wall be in the Fort Myer area?
    Mr. Salt. Approximately six feet from the road and then 
when you go on the inside, it is a different height than it is 
on the outside.
    Mr. Edwards. Which is part of the problem. Some of the 
roads--depending on which side of the cemetery you are on, a 
six-foot wall might as well be a sixty-foot wall in terms of 
you know tens and tens if not hundreds of thousands of people a 
day having an opportunity to see this hallowed ground.
    Do you interpret, Mr. Metzler, or Mr. Secretary, do you 
interpret Secretary Geren's memorandum as a prohibition on the 
building of this niche wall until----
    Mr. Metzler. I think we obviously need to revisit the 
issue.
    Mr. Salt. Sir, I spoke to the Secretary this morning on 
this. I received his memo last night. To me it is very clear 
that my guidance and my direction to Jack will be that we build 
no niche walls that interfere with the viewscape.
    And so we will go back and we will re-look at all of our 
plans for niche walls and we will ensure that there are places 
where the road is, the terrain is such that you don't have a 
view of the cemetery anyway. And there are places where it 
would be appropriate to have a wall there with a niche wall.
    There are other places where the cemetery is lower, and a 
niche wall would interfere with the view that you were talking 
about. And that is what the secretary is talking about, right?
    Mr. Edwards. So your interpretation is the secretary--does 
the secretary's memorandum have policy effect?
    Mr. Salt. What, sir?
    Mr. Edwards. Or is it just seen as just a recommendation or 
is it seen as a policy that Secretary----
    Mr. Salt. No, this is direction; this is the policy 
direction.
    Mr. Edwards. So to be clear that means that as you 
interpret that directive of the secretary, this niche wall 
could not be built unless there is a change in the policy?
    Mr. Salt. Could not be built--only that part could be built 
that would not affect the existing viewscape. That would not 
affect, the point that you made earlier----
    Mr. Edwards. What would be the earliest possible time if 
you didn't have Secretary Geren's directive in place? Mr. 
Metzler, what would be the earliest possible time that the 
niche wall along the Fort Myer area would be built?
    Mr. Metzler. Well at the present time, there is a need for 
an additional $35 million to move forward with this project. So 
until that funding is in place, nothing would be done.
    Mr. Edwards. Okay.
    Mr. Metzler. It has been designed but no construction has 
been done.
    Mr. Edwards. Now am I correct in understanding that $35 
million would come from this subcommittee----
    Mr. Metzler. Yes, sir.
    Mr. Edwards [continuing]. Or do you have any other source 
of funding that would pay for that?
    Mr. Metzler. It would come from this committee.
    Mr. Edwards. Okay.
    Mr. Salt. And just in context, the funds for this year are 
largely for earthwork on the site and so I don't know what the 
schedule would be when you get to the wall, but it is in the 
out years which haven't been identified for funding yet, sir.
    Mr. Metzler. Sir, we are not going to put a wall up there.
    Mr. Edwards. I want to spend a lot of time on this but in 
the meantime until this full subcommittee has had a chance to 
carefully review this and listen to all perspectives and 
interests, I would like to see nothing further done. You know 
for example, this area along 110 to me that is one of the most 
moving areas of the cemetery to see. And I see that is a 
proposed wall there.
    Would that be proposed at six feet?
    Mr. Salt. It would be. I mean if we were to build any niche 
walls, the only height would be a six-foot height. That is the 
standard if you will for this type of development.
    Mr. Edwards. And the purpose of niche walls is to be able 
to place cremated remains there?
    Mr. Salt. That is correct, and to continue the life of the 
cemetery for burial.
    Mr. Edwards. Well that is the intended purpose. The 
intended or unintended result is to block visual access to this 
hallowed grounds for an awful lot of Americans.
    Mr. Salt. Well, the Secretary's guidance says we are not to 
do that and so we are not going to--and there are two parts of 
it. There is the initial part of don't--we are instructed, we 
are directed not to build any walls that would interfere with 
that view. And number two, as I mentioned in my testimony or my 
oral statement about the master plan, that we will be looking 
at options in the master plan that would also try and address 
that.
    Mr. Edwards. Okay. And I hope again I know you are--I am so 
grateful to both of you for your dedicated stewardship over 
Arlington National Cemetery. And I know, as you know, one goal 
is to provide as much possible space for as many possible 
burials.
    But I hope in the master planning, I hope part of the 
process takes into account that important value of this 
hallowed ground is to be a cherished memorial for Americans and 
an awful lot of them, tourists and otherwise. People working at 
the Pentagon drive by that every day. And add me to that list. 
They are inspired every single day.
    But anyway I think you answered my question. I appreciate 
that and I look forward to sitting down with you and talking 
about it.
    Mr. Wamp.
    Mr. Wamp. Well I had also talked to Secretary Geren, Mr. 
Chairman, and your words, your sentiment and your inquiry were 
exactly mine. So I have really nothing else to add except that 
everything you said was exactly where I was going, exactly what 
I was going to say.
    But I also feel like there is a keen awareness of the 
sensitivity of this for everyone, but I do think we all play a 
role to make sure that the right thing is done over time. And I 
think you said it extremely well and I stand with you 100 
percent.
    Mr. Edwards. Thank you, Mr. Wamp. Mr. Farr.
    Mr. Farr. Thank you. In this master plan, do you have to 
adjust anything for force protection requirements?
    Mr. Salt. I will start and then I will let Mr. Metzler 
finish. The existing master plan included some assumptions for 
land acquisition at Fort Myer that had been affected by BRAC 
decisions and force protection requirements at Fort Myer. And 
so that is one of the key reasons for the initiation of a new 
master plan to deal with that change.
    Mr. Farr. There is one type that call for force protection. 
As we get others, it is sort of risk analysis and they are 
fortressing in the middle of my town.
    Mr. Salt. Sir, this is more of a consolidation of joint----
    Mr. Farr. So it is all dealing with you having to comply 
with all of the security----
    Mr. Salt. Sir, it is mainly facilities required as a result 
of the BRAC process and the consolidation of facilities at Fort 
Myer and to operational requirements that are needed for those 
facilities. Now----
    Mr. Farr. That is not additional security.
    Mr. Salt. If I may, sir? Inside the cemetery we are not 
dealing with force protection issues. We are not hardening the 
cemetery.
    Mr. Farr. Okay.
    Mr. Salt. It is the result of Fort Myer and what they are 
concerned about is they are our neighbor and we share a fence 
line. So what Fort Myer does has an effect on us. Some of the 
lands that we may have looked at in the previous master plan 
that may have been potential expansion areas now are being used 
as setback areas and they don't want to develop that land 
because of their needs for force protection.
    It has nothing to do with Arlington Cemetery----
    Mr. Farr. But they are not going to use that land, right? 
They are just going to leave it as a setback.
    Mr. Salt. Part of it is they are going to use as their 
mission on Fort Myer is changing since the master plan was 
developed in 1998 and part of it is that they----
    Mr. Farr. But do you still have to then or you have to 
access the cemetery through Fort Myer.
    Mr. Salt. We do. We have a checkpoint----
    Mr. Farr. So if they make it more difficult to get into 
Fort Myer, it is going to make it more difficult to get into 
the cemetery.
    Mr. Salt. As Fort Myer improves its force protection, the 
people who are entering the cemetery through Fort Myer have to 
go through whatever Fort Myer sets up to get to the cemetery.
    Mr. Farr. And as I read here, you expect in fiscal year 
2009 an estimated 4,170 interments. And you don't do those on 
weekends, do you?
    Mr. Metzler. No, sir. We are averaging about 27 funerals a 
day.
    Mr. Farr. Yes. And you are going to have, you know between 
17 and 27 a day assuming you do it every single day of the 
week----
    Mr. Metzler. Yes, sir.
    Mr. Farr [continuing]. For a year. And all of those targets 
as I have had to do have been at two funerals out there. I mean 
isn't there another way to get into the cemetery. Isn't there a 
better way to get the families and parties into the cemetery?
    Mr. Metzler. The challenge is when you use Fort Myer for 
your funeral at the chapel or for your reception after the 
funeral, you have got-----
    Mr. Farr. (OFF MIKE)
    Mr. Metzler. Right. And you are forced to go onto the Fort 
Myer property, and then do whatever force protection issues 
they have. If you stay in the cemetery or if you only just go 
to the chapel and don't go back to Fort Myer, then it is much 
easier to go in through the cemetery and you don't have to go 
through the vehicle inspection and all the things Fort Myer 
makes you do.
    Mr. Farr. I know I have heard various officials tell me 
what they think. I think the purpose of the master plan is to 
flush all of that out and to come back to the committee to have 
a public process to go through these very issues. And our part 
of it is the cemetery master plan process. Some of the issues 
you are raising are concerning.
    Okay. The security that the base is going through is one-
size-fits-all and it just doesn't make sense. To require these 
people and families to come in to go through the military 
checkpoint--I mean it wasn't very hard for us but I had a 
congressional flight.
    I hope in the master plan you will think about that access 
and egress. Maybe the chapel ought to be in your domain and not 
in the force domain.
    Mr. Metzler. Well it was the reception afterwards back at 
the officer's club or back to the community center. That 
presents its own unique problem because then you are trying to 
get back to the cemetery----
    Mr. Farr. Why don't we build one for you?
    Mr. Metzler. Sir, whatever your direction--I mean that 
typically is not what we do. That is typically not our mission 
to have receptions and such at the cemetery.
    Mr. Farr. But it is also awkward there. You have got a 
club. It has, you know, it has got a bunch of rooms in it and 
there are other parties going on.
    Mr. Metzler. I guess the overall challenge, too, is we have 
very limited space left in the cemetery, and our focus has been 
to try to maintain the open space that you have for burial and 
not get distracted from other things that would take away from 
it.
    Mr. Farr. I guess it is a good thing we are going to do a 
master plan.
    Mr. Metzler. Sir.
    Mr. Farr. Thank you----
    Mr. Metzler. Thank you.
    Mr. Edwards. Can I ask, who will be on the master plan 
committee? Do you actually have names of members of that 
committee now?
    Mr. Salt. I don't know that we do.
    Mr. Metzler. We don't. What the normal process would be is 
that we would hire the Baltimore Corps of Engineers to develop 
a master plan. In turn, they would hire engineers, landscape 
architects, the right team. They would put a team together, 
issue them a contract and then we would go through a set of 
specifications where we would address the various issues that 
this master plan should address.
    Mr. Edwards. And will there be military retirees on this? 
Will there be----
    Mr. Metzler. It will be stakeholders. We would--once we 
developed a team, we would then develop a list of stakeholders 
and that would include local representatives, obviously this 
committee and anyone else who is showing an interest. We have 
had other stakeholder meetings in the past and we would dust 
those lists off and incorporate those individuals as well.
    The National Park Service, the Commission of Fine Arts, 
National Capital Planning Commission are typically members of 
this committee.
    Mr. Edwards. If you can keep us in close touch, Mr. 
Metzler, with, you know, how that process is going, who is 
involved at each stage, when you know who is involved. I would 
love to stay involved in that.

                      TOMB OF THE UNKNOWN SOLDIER

    And my final question is what is the status of the Tomb of 
the Unknown Soldier and potential renovations there?
    Mr. Salt. Sir, we are planning this year to grout/re-grout 
the cracks. Later this spring, Mr. Metzler will go to inspect a 
possible block of marble that is being considered as--possibly 
be donated. We are not sure about that yet. But this----
    The intention is to possibly bring it back and to store it 
in a secure site. Obviously, there is a lot of interest and 
views as to that; the issue as to what we might do with that. 
And we have made no decision beyond seeing that this particular 
block is suitable or not.
    Mr. Edwards. Okay----
    Mr. Wamp. I have no additional questions----
    Mr. Edwards. Well, let me end as I began. Thank each of you 
for your----

                            BURIAL EXPENSES

    Mr. Farr. Excuse me, sorry. I just wanted to ask you 
whether the burial expense is adequate? If not, is $300, is 
that an adequate amount? And it may be outside your lane but--
--
    Mr. Metzler. It actually does not apply to us at Arlington 
Cemetery. We charge no money for anything that is done inside 
the cemetery. An honorable discharged veteran who is entitled 
to a ground burial at Arlington Cemetery is not charged nor is 
their family charged.
    So everything we do at the cemetery is a benefit without 
cost to them.
    Mr. Salt. What you are referring to is if you bury someone 
in a private cemetery, the Department of Veterans Affairs, if 
you are eligible, would pay up to $300.
    Mr. Edwards. In fact, that raises a quick question I would 
like to ask. Do I understand that Secretary Geren or the Army 
may have changed the policy in terms of burial of enlisted 
personnel?
    Mr. Metzler. What has changed, is not the burial policy for 
enlisted personnel, but the military honors.
    Mr. Edwards. The military honors? Okay.
    Mr. Metzler. On January 2nd, 2009, Secretary Geren issued a 
policy that directed us that anyone who was killed in the line 
of duty by the enemy would now be entitled to full military 
honors if the family so chose. The difference between full 
military honors and standard honors, if I will, standard honors 
would be the firing party, the casket team and the bugler.
    If you were to have full honors, it would be the Caisson 
Military Band and an escort in addition to the elements of 
standard honors.
    Mr. Edwards. And that is all paid for by you.
    Mr. Metzler. It is all paid for by the Department of the 
Army. So again, there is no cost to the family.
    Mr. Edwards. Is that in every cemetery or just----
    Mr. Metzler. Arlington Cemetery is only the one that has 
that opportunity to provide those honors.
    Mr. Edwards. Prior to that policy change, you could have 
died in combat; If you were enlisted receive posthumously the 
medal of honor but you would not have been given----
    Mr. Metzler. Well the medal of honor was one area----
    Mr. Edwards. That was an exception.
    Mr. Metzler. That was an exception.
    Mr. Edwards. Silver Star and you would not get full 
military honors.
    Mr. Metzler. That is correct. You would get the standard 
honors based upon your rank for enlisted people, firing party, 
casket team, bugler.
    Mr. Edwards. Are there any budget implications for your 
budget on that policy----
    Mr. Metzler. No.
    Mr. Edwards. Okay.
    Mr. Metzler. It is really a scheduling issue for us.
    Mr. Edwards. Okay. Well again let me just end as I began. 
Thank you both for your dedicated service to protecting this 
hallowed ground. And we are grateful you are here and look 
forward to following up with you on the wall issue.
    Mr. Salt. Certainly.
    Mr. Edwards. Thank you.
    Mr. Salt. Thank you, sir.
    Mr. Metzler. Look forward to your visit.
    Mr. Edwards. Thank you.
    Mr. Metzler. Just make sure it is a vertical visit.
    Mr. Edwards. Mr. Cox, welcome. Welcome back. Is it Mr. 
McManus?
    Mr. McManus. Yes, sir.
    Mr. Edwards. Thank you. Welcome to our subcommittee.
    Members will now have testimony, Armed Forces Retirement 
Home. The witness, once again before the subcommittee, will be 
Mr. Timothy C. Cox, the Chief Operating Officer, and he is 
accompanied by Mr. Steven McManus, the Chief Financial Officer.
    Mr. Cox, good to have you back. Your entire testimony will 
be submitted for the record, but I would like to recognize you 
for 5 minutes for any summary comments you would care to make.
    Mr. Cox. Great. I do have some. Just trying to turn off my 
phone here so it doesn't go off, right? Thank you.
    Mr. Edwards. You bet.

                        Statement of Timothy Cox

    Mr. Cox. Mr. Chairman, members of the committee, as the 
Chief Operating Officer of the Armed Forces Retirement Home, I 
thank you for the opportunity to appear before you today.
    Since the administration has not cleared me to discuss the 
detailed fiscal year 2010 appropriation request, we can only 
talk about the work that is ongoing within our home. I also 
want to update you on our progress that we evolved to meet the 
needs of a next generation of heroes.
    AFRH is modernizing to promote this aging-in-place 
philosophy and to uphold the central promise to care for our 
residents. Under our controls and financial performance--couple 
of points for you--we are particularly proud that, for the 
fiscal year 2008, AFRH has once again received an unqualified 
audit opinion from an independent external auditor.
    This marks the fourth consecutive year AFRH has received 
this distinction through our partnership with the Bureau of 
Public Debt, starting in the middle of 2004, our financial 
statements have had no material weaknesses since our very first 
audit in 2005. Our successful audits are a reflection of 
renewed emphasis on internal controls.
    We experienced a stable financial year throughout 2008 
despite an array of changing economic conditions all around us. 
We have consistently shown market growth in our trust fund over 
several years. In fiscal year 2008, the trust fund balance 
reached $167 million, and is expected to reach $171 million in 
2009. This is quite a rebound from its lowest level of $94 
million in 2003.
    The Scott project we discussed last year: we continue to 
need modernization in the D.C. campus--$5.6 million in trust 
fund money was requested, and approved, to begin planning for 
the design/build phase of our dormitory called Scott, built in 
1954 and has had no major renovations since that point.
    Completion of the Scott project will provide significant 
operational savings. About 54 percent of O&M now go into that 
building on our campus.
    We appreciate the $800,000 asked and provided--appropriated 
to us by Congress in fiscal year 2008 for the study of funding 
sources for the trust fund to determine the long-term viability 
of that trust. Thanks to your support, we are modernizing our 
Washington campus and rebuilding our Gulfport campus. Our team 
of key experts, consultants, through government as well as 
private industry, the final design concept for Scott, rather 
than rehab, as we talked about last year, is to replace.
    Replacing it with a new commons building and a new health 
center, it shrinks our campus and also gives us a building that 
will be LEED-certified at least silver, if not higher, and 
reduced the footprint of that building by about half, which is 
appropriate for the size of who we are.
    The opening of Gulfport is also part of our ongoing 
efforts. I am pleased to let you know that we remain within 
budget and on track for a July 2010 completion and resident 
occupancy in October 2010.
    Design is 100 percent complete. Finishes and final color 
selections are being reviewed. Furniture, fixtures and 
equipment procurement packages are being prepared. We had a 
topping-off party for construction workers, community leaders 
and others on February 27th.
    An update on our master plan here in D.C.: External forces 
are at work in our local, as well as global economy. We are 
mindful of these developments and want to update you on where 
we are for that financial challenge in our master plan.
    We reached a major milestone in 2008 with the approval of 
our master plan from the National Capital Planning Commission. 
However, with the changing market, new challenges came up. We 
had selected a professional preferred developer, and we decided 
to stop negotiations because the benefit to the veterans was 
diminished in what they were offering us.
    So we have a plan that is approved. We don't have an 
agreement. We didn't have an agreement with the developer. At 
this point, we are talking with the two hospitals that are 
neighbors to see if we should just do our master plan by parcel 
rather than doing it all at once.
    And last point, we recently were awarded a 5-year 
accreditation for the first time by the Commission on 
Accreditation of Rehabilitation Facilities, known as CARF, a 
nationally recognized agency responsible for accrediting 
facilities and providing continuing care retirement 
communities.
    This, along with the DOD Inspector General's Office 
preparing to come in this September, because the DOD Inspector 
General is required to come on the years we don't have a 
national accredited body accreditation inspection. They will 
come in September to do the same thing.
    And I thank you, committee members and all of Congress, for 
all the support you give us, and I am honored to serve the 
veterans.
    [The prepared statement of Timothy Cox follows:]

    [GRAPHIC] [TIFF OMITTED] T0526C.224
    
    [GRAPHIC] [TIFF OMITTED] T0526C.225
    
    [GRAPHIC] [TIFF OMITTED] T0526C.226
    
    [GRAPHIC] [TIFF OMITTED] T0526C.227
    
    [GRAPHIC] [TIFF OMITTED] T0526C.228
    
    [GRAPHIC] [TIFF OMITTED] T0526C.229
    
    [GRAPHIC] [TIFF OMITTED] T0526C.230
    
    [GRAPHIC] [TIFF OMITTED] T0526C.231
    
    [GRAPHIC] [TIFF OMITTED] T0526C.232
    
    [GRAPHIC] [TIFF OMITTED] T0526C.233
    
    [GRAPHIC] [TIFF OMITTED] T0526C.234
    
                            HOMELESS VETERANS

    Mr. Edwards. Great. Thank you, Mr. Cox, for your testimony.
    Mr. Cox. You are welcome.
    Mr. Edwards. Where are we on the homeless issue that came 
up last year?
    Mr. Cox. About the homeless issue that came up last year; 
those residents were all placed in appropriate D.C. facilities 
with the voucher that Councilman Barry worked on for them. So 
they aren't in the temporary building anymore on our campus, 
and all have been placed.
    Mr. Edwards. Okay.

                  REVENUES FROM WASHINGTON, D.C. SITE

    On the development issue at the Washington site, you 
weren't projecting any revenues from that until 2013 or 2014.
    Mr. Cox. 2014. That is correct.
    Mr. Edwards. So it doesn't put any immediate financial 
pressure on you. You don't feel any immediate financial 
pressure to do a fire sale agreement?
    Mr. Cox. None whatsoever.
    Mr. Edwards. I mean, it would be good for a developer to do 
a deal in a down market, but not good for the----
    Mr. Cox. Correct. No, and that is why we backed off. It 
wasn't a fair deal for the veterans that we serve.
    Mr. Edwards. Okay, so you feel no further pressure to do a 
deal until you feel----
    Mr. Cox. No. We did our long-range study through 2018, and 
we show a dip because of potential funding that may come out of 
that for a project we can't talk about. But through 2018, we 
see the curve going back up.
    Mr. Edwards. Okay.
    Mr. Cox. So yes, so we can very well sit on that, and that 
is where you are going on that, and not have to develop it at 
this point.
    Mr. Edwards. Good.
    Mr. Wamp.

                             WAITING LISTS

    Mr. Wamp. Well, I have been at both of these sites. I was 
down on the Speaker's trip when we went to the Gulfport site, 
and I was amazed at how impressive it was, even after the 
storm, and I knew we were building it back. Now, we built it 
back with supplemental funding, right?
    Mr. Cox. That is correct, sir. We did.
    Mr. Wamp. And it houses how many veterans when you re-open 
July 2010?
    Mr. Cox. Five hundred eight-six.
    Mr. Wamp. About 586. And the waiting list is how long?
    Mr. Cox. We have four different categories of a waiting 
list. One-A and B are people who lived in Gulfport and moved up 
with us since the beginning. Two and three are the categories 
of people who maybe didn't move with us, but came back. We had 
a deadline that they had to live in D.C., so we would move them 
back by December of last year.
    And then, category three are people who were there but 
chose to live somewhere else because they left before Katrina. 
Category four is just a waiting list. We have over 600 people 
on those four waiting lists.
    Mr. Wamp. Right. So, it is a prized possession in the 
veteran community to be able to go there and live.
    Mr. Cox. Yes.
    Mr. Wamp. And it is probably 10 times nicer than it was 
before, and it was nice before.
    Mr. Cox. It is, 100 percent. The rooms are----
    Mr. Wamp. It was built back under these new hurricane 
standards, I assume?
    Mr. Cox. Hurricane V standards? Yes.
    Mr. Wamp. And everything else on the Coast there is, too, 
probably by now, including all the casinos that are now all 
masonry and built to last?
    Mr. Cox. When I was down there at the end of February, it 
looked like everyone is building up at least a level for a 
wash-through.
    Mr. Wamp. And so what kind of waiting list do you have on 
the Washington side?
    Mr. Cox. Washington, about 6-month's worth. And again, 
Washington now we have a thousand. When Gulfport goes back, we 
will do the new Scott project, it will be about 600 here, 600 
there.

                           HOMELESS VETERANS

    Mr. Wamp. Now, the other issue that came up last year, and 
this is my last question, the overall homeless issue, not just 
Washington, D.C. Sam Farr and I have talked a whole lot at 
these meetings about how unfortunate it is, whether the number 
is 140,000 or 100,000 or 180,000. It is somewhere in that range 
of homeless veterans down on the streets of our country.
    But beyond the two facilities that you run and that we 
support, any other action to try to open up other facilities or 
modify other facilities for the veteran population that is on 
the streets?
    Mr. Cox. Because we are an independent agency, we don't go 
through the VA for those things. But we actually have some 
proposals through DOD to talk about changing our way to be able 
to appropriately serve many more veterans.
    Mr. Wamp. Okay. That is all I have.
    Thank you, Mr. Chairman.
    Mr. Edwards. Okay. Thank you, Mr. Wamp.
    Sam.
    Mr. Farr. In dealing with DOD, can you work on that? I 
mean, I don't know what the answer is. I know that some of our 
local communities build homeless shelters. And I mean, for a 
small community, we have done an incredible job out of local 
money, but I have heard that they can't get reimbursement 
because of some kind of veteran department issue.
    And it seems to me, if we are going to be dealing with 
permanent care of veterans, whether it be done in the homes or 
being done by somebody else providing it, there ought to be 
some way of giving some financial aid for that housing cost.
    You know what we do with people that are on the street, 
when you can get them into care, what you do is you enroll 
them, even if they are indigent. It is indigent care. There is 
money to pay for that. They may qualify for Medicaid, and the 
providers want to get that reimbursement.
    But to me--and maybe I need to do some more homework in 
this area, but I think that we don't do that for homeless 
veterans. They may be eligible for the healthcare needs, but 
they are not eligible for the housing needs.
    Mr. Cox. That is correct.
    And unfortunately for us, Congress set the four criteria of 
admission. So if they don't fit our four criteria of admission, 
we can't help them no matter what, because our rules are pretty 
narrow.
    But there are several ways, and we actually have some 
suggested legislative language out there.
    Mr. Farr. (OFF MIKE)
    Mr. Cox. In DOD, as a ULB right now.
    Mr. Farr. Can you get me some copies of that?
    Mr. Cox. As soon as I know--yes, I can. I can.
    Mr. Farr. Thank you.
    Mr. Cox. As a draft? Just as a draft from my agency?
    Mr. Farr. Yes. Yes.
    Mr. Cox. Yes.
    Mr. Farr. Thank you.
    Mr. Cox. You are welcome. Thank you.
    Mr. Edwards. Do you need additional questions?
    Mr. Wamp. No.

                           GULFPORT FACILITY

    Mr. Edwards. You answered several of my questions. And the 
one question--just one last question about Gulfport. The cost 
of rebuilding that is how much?
    Mr. Cox. The cost is $240 million, of which $20 million 
will come from the trust fund, because we were going to build 
64 new units, and we set aside that money in the trust fund. We 
did the design work, but we didn't start that building, so 
Congress asked if we would contribute that toward it.
    We haven't contributed that toward yet because that is the 
last part to go, but so far they are on budget, and the budget 
is expected to use that money.
    Mr. Edwards. They are on budget?
    Mr. Cox. Yes, so they are on that budget, and the $20 
million is part of that budget.
    Mr. Edwards. Okay. Future hurricanes, as you referenced 
earlier, it will be able to withstand the wind and floods?
    Mr. Cox. Yes. Category five, so that is wind and as well as 
floods.
    Mr. McManus. I believe it is 35-feet high.
    Mr. Edwards. Is it, 35-foot tidal swell?
    Mr. McManus. Where the main body is. It will wash through. 
There is stuff on the ground level. I will call it the ground 
level, but it will wash through that.
    Mr. Cox. There is no living. There is no kitchen. There is 
no storage like we had in the old facility. Our generators are 
much higher up than that. So we should be able to survive.
    Mr. Wamp. The problem is, now that the barrier islands are 
gone, every storm that comes ashore is going to be devastating 
because you are right there.
    Mr. Cox. Right.
    Mr. Wamp. The barrier islands is what used to slow it down 
as it came in and allowed for less protection, but they don't 
have any choice. If you stay there, you have to build there 
now.
    Mr. Cox. Well, we have a lot of gun-shy residents who 
actually--staff was working with Camp Shelby down there to look 
at a place to have safe evacuation when it is a hurricane 
category three or more. And of course, there is a funding 
issue, things like that, but they certainly have the space to 
do it. Because we could survive, like you said, in the 
building, but there will be no support services if it is a bad 
storm. So we don't want----
    Mr. Wamp. With all due respect, you all need to see this 
building. Anybody that qualifies would be crazy not to go.
    Mr. Cox. Thank you. We appreciate your support. Thank you 
very much. We have worked hard to get there. We look forward to 
hosting any time.
    Mr. Wamp. Great.
    Mr. Edwards. I have no additional questions. We will have 
some written questions to follow up with.
    Mr. Cox. Great.
    Mr. Edwards. But if the members have no other additional 
questions, we will stand adjourned until tomorrow morning, when 
we have General Petraeus.
    Mr. Wamp. In the other room, in the big room.
    Mr. Edwards. Yes, in the big room.
    Thank you.
    Mr. Cox. Thank you.
    [Clerk's note.--Questions for the record submitted by 
Congressman Wamp.]

                                  CAVC

    Question. Could you explain further the temporary increase in 
judges for CAVC? Is there a reason why the increase in judges is 
temporary and not permanent?
    Response. The statute governing the composition of the Court (38 
U.S.C. Sec. 7253(a)) states that the Court shall be composed of ``not 
more than seven judges.'' That provision, however, was amended in 
October 2008 to authorize the number of judges on the Court to increase 
to not more than 9, effective December 31, 2009. That amendment makes 
the expansion temporary by also stating: ``Effective as of January 1, 
2013, an appointment may not be made to the Court if the appointment 
would result in there being more judges of the Court than the 
authorized number of judges of the Court specified in subsection (a).''
    When requesting authorization from Congress for additional judges, 
the Court did not request that these positions be temporary. My 
understanding is that there was some disagreement as to this request, 
and the temporary provision was the result of a compromise. There is 
precedent in some Article III courts for having temporary judgeships. 
The Court will certainly assess its needs as the sunset provision 
approaches, although based on current trends we do not anticipate a 
decrease in the number of appeals filed over the next several years.

                          New CAVC Courthouse

    You say in your testimony that GSA is looking into a property that 
it owns in Southeast D.C. for the new courthouse.
    Question. When do you anticipate their study on that property to be 
complete?
    Response. Although we do not yet have a time line of events, in May 
2009 the Court transferred $7 million to the General Services 
Administration (GSA) and I met with the GSA Regional Commissioner for 
the National Capital Region to discuss the ``next steps.'' GSA reported 
to me that over the next several months it will draft a ``scope of 
work'' document, identify a project manager, identify the specific 
requirements for the program, and set out a milestone schedule for the 
project. The GSA project manager will then orchestrate necessary 
studies including the development potential of the parcel in Southwest, 
D.C.; a massing study to determine possible setback and building site 
configurations; and an investigation into possible soil contamination 
on this site and 50 526 1955 any necessary environmental remediation. 
During this same time, the Court will engage the services of an in-
house project manager who will oversee the Court's participation in the 
process. Accordingly, it is my hope that in the fall of 2009 we will 
have a much clearer sense of the project costs and timing.
    Question. The GSA also recommended that the CAVC courts be located 
near other Federal courts. Have all location options near other Federal 
courts been ruled out as possible locations for a new courthouse?
    Response. Over the past 5 years the Court has worked, both in 
collaboration with GSA and independently, to investigate possible 
courthouse sites in the Judiciary Square vicinity. That search has 
included consideration of commercial, federal, and D.C. owned buildings 
and land, keeping open the possibility of new construction or 
refurbishing or retrofitting an existing structure. Although we have 
investigated several potential sites, no option adequately meets the 
project goals of providing an appropriate setting to convey the 
Nation's gratitude and commitment to veterans in a courthouse of 
adequate size, with appropriate accessability and security, in a 
fiscally responsible manner.
    When I met with the GSA Regional Commissioner last month I 
discussed this subject with him. We discussed the unique configuration 
and build out requirements of any courthouse, and how the Court's 
unique space and layout requirements make finding and retrofitting an 
existing office building a challenging and expensive proposal. GSA 
assured me, however, that until a location is definitively selected, 
they will continue to assess other potentially suitable sites in the 
Judiciary Square area.
    Question. When would you be able to give us a cost estimate for the 
construction of the new courthouse?
    Response: Because of the unforeseeable contingencies and studies 
that may be involved in the advanced planning stage we are currently 
in, I am not able to predict when I will have a cost estimate for the 
courthouse construction. As previously stated in my testimony and in my 
written response above, I am hopeful that by the start of fiscal year 
2010 I will have received from GSA a more concrete sense of the costs 
and timing of the project, and I will certainly provide these details 
to the Committee as soon as I get them.

          Electronic Management/Electronic Case Filing System

    The electronic management and filing system went live 7 months ago.
    Question. How many of your cases use this system?
    Response. The Court's electronic Case Management/Electronic Case 
Filing (CM/ECF) system has 2 components--case management and case 
filing. All cases currently pending at the Court use CM/ECF; however, 
to what degree depends on the parties.
    As to the case filing component, as of October 2008 when CM/ECF was 
fully implemented, all represented parties, absent a waiver from the 
Clerk, are required to register as ``Filing Users'' and to 
electronically file all documents with the Court. These documents 
become a part of and are accessible through the Court's electronic case 
record. The Secretary of VA, who is a represented party in every case, 
is always a Filing User and required to file electronically.
    Self-represented appellants, unless they are granted permission by 
the Clerk to become a Filing User, are required to file all pleadings 
and documents conventionally. The Court then scans those documents to 
create an electronic record that is entered into CM/ECF and that may be 
electronically accessed. The Court transmits its orders and decisions 
to Filing Users electronically through CM/ECF. For self-represented 
parties, the Court prints its orders or decisions and serves them in 
hard copy. Generally, between 20-25% of the Court's cases include a 
self-represented appellant. Therefore, in approximately 75% of our 
pending cases, all filings are received electronically and all 
decisions are issued electronically. With regard to the case management 
component, the Court uses CM/ECF for every pending appeal.
    Question. How has it helped in managing the Court's caseload more 
efficiently?
    Response: The Court and its practitioners have seen several gains 
since implementation of CM/ECF. Both have benefitted from reduced 
mailing and courier costs, and the reduced Court storage space now 
needed to retain records has been a welcome hiatus for our public 
office, which has been bursting at the seams for several years. The 
benefits to all users of remote 24-hour filing access, the opportunity 
for multiple simultaneous authorized users, and the efficiencies of 
instant filing and notification are self evident and allow our 
employees and practitioners more flexibility in ``when'' and ``where'' 
they can accomplish tasks. We are confident that as our staff and 
members of the Court's bar become more familiar with CM/ECF, we will 
reap further administrative benefits.
    Question. How many more cases will the courts be able to handle 
this year due to the electronic management/electronic case filing 
system being in place?
    Response. The Court currently ``handles'' all appeals that are 
filed, and as stated above, all current cases are entered into CM/ECF. 
Thus, the phrasing of this question does not request an accurate 
measure of the benefits of CM/ECF. Although perhaps not easily 
quantified, the goal of CM/ECF is to create smoother case processing 
for the parties and the Court. It is our hope that we will then see a 
reduction in the overall time from case filing to case disposition, 
resulting in shorter waits for veterans to receive decisions on their 
appeals. It is our hope that the efficiencies of electronic filing will 
save resources and also enable Court employees and practitioners to 
complete tasks more quickly and efficiently.

      American Battle Monuments Commission FY 2010 Budget Request

    Question. Now that the dollar has rebounded somewhat against the 
euro can you tell the Committee how much the Commission will use under 
the Foreign Currency Fluctuation Account for the current year?
    ABMC Response. Since the annualized trend of the US Dollar and the 
Euro is expected to be slightly lower than estimated, the Commission 
expects to use approximately $15,500,000 from its Foreign Currency 
Fluctuation Account to offset exchange rate losses and to satisfy 
expenditures relating to our overseas operations during FY 2009.
    Question. What is the FY 2010 estimate for the Foreign Currency 
Fluctuation Account?
    ABMC Response. Based on amount requested by the Commission for its 
FY 2010 Salaries and Expenses Account, the Commission estimates that it 
will need $17,100,000 appropriated in FY 2010 to replenish its Foreign 
Currency Fluctuation Account.
    Question. How many projects, including maintenance, were planned 
for FY 2009 at our European battle monuments?
    ABMC Response. ABMC currently has 71 projects planned at all sites 
for FY 2009.
    Question. Will a stronger dollar allow the Commission to increase 
the number of projects that it will carry out in FY 2009 at our 
European battle monuments? If so, how many?
    ABMC Response.
    No. The number of projects that the Commission can initiate is 
dependent on the level of funding appropriated into our Salaries and 
Expenses Account.
    The purpose of the Commission's Foreign Currency Fluctuation 
Account (FCFA) is to offset the cost of exchange rate imbalances. If, 
however, the Commission did not have access to funds in its FCFA to 
offset currency exchange rate imbalances, then the relative strength or 
weakness of the US Dollar would have a profound affect on the number of 
projects that could be undertaken during the fiscal year.

      DoD Cemeterial Expenses/Arlington National Cemetery/FY 2010

                              OVERCROWDING

    Question. Last year Mr. Metzler testified that mitigating the 
overcrowding of ceremonies was a high priority for ANC. With an average 
of 27 funerals per day, this is understandable. How has that situation 
changed, if at all?
    Answer. Mitigation of overcrowding, primarily of funeral services, 
remains a high priority for ANC. The number of funerals and ceremonies 
has remained about the same over the past year. ANC continues to have 
an average of 27 funerals per day and over 3,000 ceremonies a year. 
Overcrowding is primarily a problem with funeral services (not the 
other ceremonies) that are held from Monday through Friday because the 
funerals are concentrated in the southeast corner of the cemetery where 
most of the open land is available for in-ground burials and where 
niches are located for the placement of cremated remains. Construction 
of the Millennium Project has begun in the northwest corner of the 
cemetery and Phase II is scheduled to be awarded this fiscal year (FY 
2009). However, based on the current schedule, this project will take 
approximately seven years to complete. Until the project is completed, 
overcrowding will continue to increase.

                          TOMB OF THE UNKNOWNS

    In your testimony, you mention that the Army is looking at a 
donated block of marble to replace the block currently on the tomb. The 
August report on the condition of the current block stated that it was 
unknown when the current marble block would be beyond repair; however, 
it also stated that the kind and size of marble needed may not be 
available further down the road.
    Question. If the donated marble meets the requirements, what would 
happen next?
    Answer. If the donated marble is determined to be suitable as a 
potential replacement for the original block of marble, the Army 
intends to take possession of the donated marble in order to secure and 
protect it. However, no decision to replace the original marble has 
been made, and any such decision will be made in accordance with the 
provisions of Section 106 of the National Historic Preservation Act.
    Question. If it is to be replaced, what would happen to the block 
currently on the tomb?
    Answer. No decision regarding the disposition of the existing 
marble has been made, should replacement be selected for the long-term 
treatment of the Tomb Monument. Any decision regarding the disposition 
of the existing marble will be made in accordance with the provisions 
of Section 106 of the National Historic Preservation Act.

          TOTAL CEMETERY MANAGEMENT SYSTEM/DIGITIZING RECORDS

    Question. The idea of digitizing records at Arlington is a great 
one. Where does Arlington stand on the implementation of the Total 
Cemetery Management System?
    Answer. The Total Cemetery Management System is approximately 35 
percent complete. Version 3 of the Interment Scheduling System will be 
launched in July 2009. This system will upgrade ANC's funeral 
scheduling application that will allow ANC to provide funeral tasks to 
the military services electronically and to order headstones from the 
Department of Veterans Affairs in an automated manner. Completed 
projects also include the scanning of all burial records and grave 
cards. All of the cemetery burial records have been entered into a 
database and will be used for the next phase of the plan.
    Question. As of today, is there a way for the public to look up 
records and/or geographical information of burial sites electronically? 
If not, is that something ANC is considering?
    Answer. Currently the public can look up burial records that date 
from April 1999 to the present by using a locator/kiosk in the 
visitor's center. The system provides the location but does not provide 
geographical information at this time.
    In FY 2010 ANC will start a triple validation process to validate 
burial records, grave cards and burial maps against the actual physical 
location of each gravesite. Each grave site will be able to be located 
by using the Global Positioning System. After the project is complete 
this data will be available for the public on the ANC website.

                         WASHINGTON D.C. CAMPUS

    Question. Your testimony states that the partnership with a 
developer at the Washington Campus fell through. What is your plan 
going forward for the mixed-use development at the Washington Campus?
    Answer. The approved AFRH Master Plan will serve as the blueprint 
for the redevelopment of the AFRH campus. At this time, AFRH is seeking 
development partners for implementing the plan, and is considering 
numerous options, including incremental development of the site with 
multiple developers. Despite the difficult market conditions, there is 
still significant interest in the site from the development community, 
and AFRH is diligently working to assess the best opportunity to move 
forward with.

                SCOTT DORMITORY RENOVATION (D.C. CAMPUS)

    Question. How will the DC Campus handle the rebuild of the Scott 
Dormitory with the least disruption to the Washington campus 
population?
    Answer. Working with the Resident Advisory Committee (RAC) we are 
forming new committees for the Gulfport Stand up and Scott Projects. 
These committees will serve as a voice for the residents and be 
critical to our efforts. Coordination will be critical and, because the 
two projects are so interconnected, many of our same staff members will 
be working on both projects. Again, good communication will be 
extremely important in keeping these two projects balanced and moving 
forward. The Scott Project, unlike moving into the new facility in 
Gulfport, will involve the movement of residents and services from the 
Scott building while it is being demolished, and establishing temporary 
quarters or places of operation. Demolition and construction will be 
taking place around us, as we go about the business of our day, so we 
will stress and be mindful of safety. Placement of services such as 
dining, the wellness center, the library and other activities will be 
temporarily displaced to our Sheridan Dormitory and Sherman building, 
which are easily accessible to residents. We will use multiple means of 
communication, such as the newly established committees, our in-house 
television station ``Channel-99'' for updated information, the Weekly 
Bulletin, monthly Communicator, AFRH website, and flyers and notices 
will be used to get the word out about changes going on in and around 
our Home.
    Question. In your testimony you alluded that the Gulfport facility 
will be reopening at about the same time the Scott Dormitory will be 
closing for renovations. Do you intend to move any residents from the 
Scott Dormitory to Gulfport?
    Answer. Yes. Over 200 prior Gulfport residents have requested to 
move back to Gulfport. These residents have rooms in both our Scott and 
Sheridan dormitories.

                           ADMISSION CRITERIA

    Question. Last year you testified that spouses are not allowed to 
come into a facility unless they independently qualify. Has there been 
a re-evaluation of the criteria by the Armed Services Committee?
    Answer. No, to the best of our knowledge there has not been a re-
evaluation of the criteria for spouses by the Armed Services Committee.

                            FRAUD AND ABUSE

    Question. Last year there was concern about healthcare management 
and oversight to GAO which led to the development of the fraud and 
abuse hotline. How many calls has the hotline received in the last 
year?
    Answer. The AFRH hotline has received 13 calls for assistance or to 
report an allegation of fraud, waste or abuse from May 2008-May 2009. 
In all cases, either assistance was rendered or an investigation was 
conducted to bring each case to a resolution. The AFRH hotline was 
initially established in 2004, prior to the concern that was reported 
to the GAO. Reports of fraud, waste or abuse can be reported through 
the AFRH hotline, email or face-to-face to the AFRH Inspector General. 
Information pertaining to the reporting of fraud, waste and abuse is 
posted in every common area in the buildings at the AFRH, as well as on 
the AFRH website.
    Question. What is the annual cost to operate the hotline?
    Answer. The annual cost to maintain the AFRH hotline is $192.60.

                          FINANCIAL STABILITY

    Question. With regard to your financial stability, how has the 
current economic situation affected your facilities?
    Answer. The current economic situation will slow Trust Fund growth, 
but should have limited impact on our facilities as a result of reduced 
infrastructure costs.
    Over the years AFRH grew and spread across over 272 acres of 
infrastructure and historical buildings. The infrastructure was 
engulfing our resources and funding. Multiple studies had been 
completed between 1995 and 2002. Every study focused on the excessive 
cost at the Washington Home and recommended changes for success. At the 
heart of each study, results focused at excessive staffing and 
infrastructure costs. Over the past five years AFRH redefined our 
``footprint'' on the Washington Campus. Our buildings began to serve 
multiple purposes. Administration buildings were vacated. Slowly we 
vacated numerous buildings totalling over 600 thousand square feet 
across 102 acres. After completion of the Scott Project we will have 
vacated over one million square feet. By reducing our ``footprint'' we 
began to realize savings we had not experienced before. The overall 
impact was sustained growth to the Trust Fund. In five years we have 
been able to grow the Trust Fund by $73 million with a Fiscal Year 2008 
ending balance of $167 million.

[GRAPHIC] [TIFF OMITTED] T0526C.235

                                          Friday, April 24, 2009.  

                            CENTRAL COMMAND


                                WITNESS

GENERAL DAVID H. PETRAEUS, COMMANDER, U.S. CENTRAL COMMAND, UNITED 
    STATES ARMY

                       Statement of the Chairman

    Mr. Edwards. Good morning. I would like to call the House 
Military Construction and Veterans Affairs Appropriations 
Subcommittee to order.
    General Petraeus, welcome to our subcommittee. It is good 
to have you here. I want to thank you for your 35 years of 
distinguished military service to our Nation and especially for 
your leadership at this time of great challenge in such a 
critical region of the world.
    The purpose of today's hearing is twofold. First, we want 
to hear General Petraeus' strategic overview of operations in 
Central Command's Area of Responsibility. This information will 
assist the subcommittee as we begin to mark up the fiscal year 
2009 Supplemental Appropriations bill and the 2010 Military 
Construction Appropriations bill. Second, we want to review the 
$947 million supplemental request by the administration for 
military construction funding for CENTCOM. Of the 45 projects 
requested, all but one are to be located in Afghanistan.
    I would like to recognize our ranking member, Mr. Wamp, for 
his opening comments.

                Statement of the Ranking Minority Member

    Mr. Wamp. Well, I want to thank the chairman first for this 
hearing and for his leadership here on the Military 
Construction and Veterans Affairs Subcommittee. Most of all, I 
thank General Petraeus for his presence here today.
    I want to thank you on behalf of all the people of 
Tennessee where you have a storied history as well, everything 
from commanding the Screaming Eagles of the 101st Airborne to 
having the surgery at the hands of Senator Bill Frist and a 
little bit of everything, I think, in between.
    I have had the privilege in the last 15 years to meet kings 
and to become personal friends with prime ministers and with 
Presidents and to hold Mother Teresa's hands and pray with her 
in the Capitol, and I consider your presence here today one of 
those high moments in my service. We are honored. You are one 
of America's greatest living citizens, and we are so grateful 
for your service. You are the premiere soldier of our 
generation, and we thank you for what you have done and for 
what you continue to do and for your willingness to head up 
CENTCOM at a critical moment where success is imperative and 
where our presence in the world is very necessary. I thank you, 
and I look forward to your testimony and to the questions and 
answers. On behalf of everyone on our side and on our 
subcommittee and in the Congress, we will stand with you in a 
bipartisan and unified way until you are successful on every 
front.
    Thank you, General.
    Mr. Edwards. Well stated. Thank you, Mr. Wamp.
    General Petraeus, your full written statement will be 
submitted for the record. Now I would like to recognize you for 
any opening comments you care to make.

                 Statement of General David H. Petraeus

    General Petraeus. Well, thank you, Mr. Chairman, 
Congressman Wamp, and members of the subcommittee. Thank you, 
not just for the opportunity to provide an update on the 
situation in the U.S. Central Command Area of Responsibility, 
but thanks to each of you for all that you have done for our 
soldiers and their families over the years, in recent years in 
particular.
    I would like to begin this morning by discussing the way 
ahead in Afghanistan and Pakistan, as these countries contain 
the most pressing transnational extremist threat in the world 
and, in view of that, pose the most urgent problems set in the 
Central Command Area of Responsibility. I will then discuss 
Iraq and the status of our major efforts elsewhere in the Area 
of Responsibility.
    Disrupting and ultimately defeating al Qaeda and the other 
extremist elements in Pakistan and Afghanistan and reversing 
the downward security spiral seen in key parts of these 
countries will require sustained substantial commitment. The 
strategy described by President Obama several weeks ago 
constitutes such a commitment. Although the additional 
resources will be applied in different ways on either side of 
the Durand Line, Afghanistan and Pakistan comprise a single 
theater that requires comprehensive whole of governments 
approaches that are closely coordinated.
    This morning, I will briefly discuss the military aspects 
of the new strategy, noting, however, that, while additional 
military forces clearly are necessary, they will not by 
themselves be sufficient to achieve our objective.
    It is equally important that the civilian requirements for 
Afghanistan and Pakistan be fully met. To that end, it is 
essential that the respective civilian elements be provided the 
resources necessary to implement this strategy. In particular, 
I urge Congress to fully fund the State Department, USAID, the 
Office of Coordinator for Reconstruction and Stabilization, and 
the interagency Civilian Response Corps to enable this overall 
strategy.
    Achieving objectives in Afghanistan requires a 
comprehensive counterinsurgency approach, and that is what 
General David McKiernan and ISAF are endeavoring to execute 
with the additional U.S. and Coalition resources being 
committed.
    The additional forces will provide an increased capability 
to secure and serve the people, to pursue the extremists, to 
support the development of host nation security forces, to 
reduce the illegal narcotics industry, and to help develop the 
Afghan capabilities needed to increase the legitimacy of the 
national and Afghan local governance. These forces will also, 
together with the additional NATO elements committed for the 
election security force, work with Afghan elements to help 
secure the national elections in late August and to help ensure 
that those elections are seen as free, fair, and legitimate in 
the eyes of the Afghan people.
    A major focus of our efforts in Afghanistan is building the 
Afghan security forces so that they are capable of assuming 
full responsibility for their country's security over time. 
Your support for generating, training and equipping Afghan 
national security forces continues to be critical to our long-
term success, just as your support has proven to be of such 
importance in the case of the development of Iraqi security 
forces.
    As was the case in Iraq, additional forces will only be a 
value if they are employed properly. It is vital that they be 
seen as good guests and good partners; not as would-be 
conquerors or superiors, but as formidable warriors who also do 
all possible to avoid civilian casualties in the course of 
combat operations.
    As additional elements deploy, it will also be essential 
that our commanders and elements strive for unity of effort at 
all levels and integrate our security efforts into the broader 
plans to promote Afghan governance and economic development. We 
recognize the enormous sacrifices of the Afghan security forces 
since 2002 and by the Afghan people over the past three 
decades, and we will continue working with our Afghan partners 
to build the trust of the people and, with security, to provide 
them with new opportunities.
    The increase in our forces in Afghanistan has created new 
critical infrastructure requirements. Expanded contingency 
construction authorities for Afghanistan and across the AOR 
serve as important interim solutions because they push 
construction decision-making authority to our engaged 
commanders in the field.
    We appreciate your support for expanded CCA, and increasing 
the operations and maintenance construction threshold for minor 
construction in support of combat operations would also be 
helpful.
    The situation in Pakistan is, of course, closely linked to 
that of Afghanistan. The extremists that have established 
sanctuaries in Pakistan's rugged border areas not only 
contribute to the deterioration of security in eastern and 
southern Afghanistan, but they also pose an ever more serious 
threat to Pakistan's very existence. Al Qaeda's senior 
leadership and other transnational extremist elements are 
located in Pakistan and have carried out an increasing number 
of suicide bombings and other attacks. In addition, they have 
carried out terrorist attacks in India, in Afghanistan, and in 
various other countries outside the region, including the 
United Kingdom, and they have continued efforts to carry out 
attacks in our homeland.
    In response to the increased concern over extremist 
activity, the Pakistan military has stepped up operations in 
parts of the tribal areas. Everyone recognizes, however, that 
much further work is required, and the events of recent days 
underscore that point. Given our relationship with Pakistan and 
its military over the years, it is important that the United 
States be seen as a reliable ally in assisting with that work.
    The Pakistani military has been fighting a tough battle 
against extremists for more than 7 years. They have sacrificed 
much and have suffered very tough losses in this campaign, and 
they deserve our support.
    The U.S. military will focus its assistance in two main 
areas:
    First, we will expand our partnership with the Pakistani 
military and help it build its counterinsurgency capabilities 
by providing training, equipment and assistance. We will also 
expand our exchange programs to build stronger relationships 
with Pakistani leaders at all levels.
    Second, we will help promote closer cooperation across the 
Afghan-Pakistan border by providing training, equipment, 
facilities, and intelligence capabilities and by bringing 
together Afghan and Pakistani military officers to enable 
coordination between the forces on either side of the border. 
These efforts will support the timely sharing of intelligence 
information and will help to coordinate the operations of the 
two forces.
    These efforts to build the capacity of the Pakistani 
military would be aided substantially by the Pakistan 
Counterinsurgency Capability Fund. Pakistan is a unique 
situation that requires unique and nuanced authorities. 
Ambassador Holbrooke and I have determined that we need both 
foreign military financing and PCCF to accomplish our mission, 
along with the other categories, such as 1206, 1207 and 1208. 
PCCF will allow us to focus, as well as expand our security 
development plan with Pakistan.
    In addition, we support the continued use of Coalition 
support funds as a tool for supporting the operations of our 
Pakistani partners as they confront extremists who operate in 
Afghanistan as well as in Pakistan, and we believe the 
expansion of outreach and exchange programs will enable the 
establishment of stronger relationships with Pakistani leaders 
at all levels as well.
    Within the counterinsurgency construct we have laid out for 
Afghanistan and together with the support provided to Pakistan, 
we will, of course, continue to support the targeting, 
disruption, and pursuit of the leadership basis and support 
groups of al Qaeda and other transnational extremist groups 
operating in the region. We will also work with our partners to 
challenge the legitimacy of the terrorist methods, practices 
and ideologies, helping our partners address legitimate 
grievances to win over reconcilable elements of the population 
and supporting promotion of the broad-based economic and 
governmental development that is a necessary part of such an 
effort.
    As we increase our focus on and efforts in Afghanistan and 
Pakistan, we must not lose sight of other important missions in 
the CENTCOM AOR. There has, for example, been substantial 
progress in Iraq, but numerous challenges still confront its 
leaders and its people, and we have seen some of those in the 
past couple of days. Although al Qaeda and other extremist 
elements in Iraq have been reduced significantly, they do pose 
a continued threat to security and stability and, again, we 
have seen that recently.
    Beyond that, lingering ethnic and sectarian mistrust, 
tensions between political parties, the return of displaced 
persons, large detainee releases, new budget challenges, and 
the integration of the Sons of Iraq, as well as other issues, 
remind us that the progress there is still fragile and 
reversible, though less so than when I left Iraq last fall, 
especially given the conduct of provincial elections in late 
January and the recent election of the Council of 
Representatives Speaker.
    Despite the many challenges, the progress in Iraq, 
especially the steady development of the Iraqi security forces, 
has enabled the continued transition of security responsibility 
to Iraqi elements and has enabled further reductions of 
Coalition forces and the steady withdrawal of our units from 
urban areas. We are, thus, on track in implementing the 
security agreement with the Government of Iraq and in executing 
the strategy laid out by the President at Camp Lejeune.
    A vital element in our effort in Iraq has been 
congressional support for a variety of equipment and resource 
needs, and I want to take this opportunity to thank you for 
that. In particular, your support for the rapid fielding of 
mine-resistant, ambush-protected vehicles and various types of 
unmanned aerial vehicles, as well as for the important 
individual equipment and for the Commanders Emergency Response 
Fund, has been of enormous importance to our troopers. Your 
continued support for these programs, capabilities and 
equipment, as well as for the expanded intelligence and IED 
defeat capabilities, will continue to be important as we expand 
our operations in Afghanistan.
    Iran remains a major concern in the CENTCOM AOR. It 
continues to carry out destabilizing activities in the region, 
including the training, funding and arming of militant proxies 
active in Lebanon, Gaza and Iraq. It also continues its 
development of nuclear capabilities and missile systems that 
many assess are connected to the pursuit of nuclear weapons and 
delivery means.
    In response, we are working with partner states in the 
region to build their capabilities and to strengthen 
cooperative security arrangements, especially in the area of 
shared early warning, air and missile defense, and the 
establishment of common operational pictures.
    Iran's actions and rhetoric have, in fact, prompted our 
partners in the Gulf to seek closer relationships with us than 
we have had with some of them in some decades. We are also 
helping to bolster the capabilities of the security forces in 
Egypt, Lebanon, Jordan, Yemen, the Gulf States, and the Central 
Asian States to help them deal with threats to their security, 
which range from al Qaeda to robust militia and organized 
criminal elements.
    In addition, we are working with partner nations to counter 
piracy, to combat illegal narcotics production and trafficking, 
and to interdict arms smuggling activities that threaten 
stability and the rule of law and often provide funding for 
extremists. Much of this work is performed through an expanding 
network of bilateral and multilateral cooperative arrangements 
established to address common challenges and to pursue shared 
objectives.
    As we strengthen this network, we strive to provide our 
partners with responsive security assistance, technical 
expertise and resources for training, educating and equipping 
their forces, and for improving security facilities and 
infrastructure. Exceptional funding programs that provide 
training, equipment, and infrastructure for our partner 
security forces enabled our successes in Iraq, and are of prime 
importance if we are to achieve comparable progress in Pakistan 
and Afghanistan. Lebanon and Yemen also warrant similar 
attention. We believe significant gains result from these 
activities, and we appreciate your support for them.
    Finally, in all of these endeavors, we seek to foster 
comprehensive approaches by ensuring that military efforts are 
fully integrated with broader diplomatic, economic and 
developmental efforts. We are working closely, for example, 
with former Senator Mitchell and Ambassador Ross as they 
undertake important responsibilities as Special Envoys in the 
same way that we are working together with Ambassador Holbrook 
and the United States Ambassadors in our region.
    In conclusion, there will be nothing easy about the way 
ahead in Afghanistan or Pakistan or in many of the other tasks 
in the Central Command area. Much hard work lies before us, but 
it is clear that achieving the objectives of these missions is 
vital, and it is equally clear that these endeavors will 
require sustained substantial commitment and unity of effort of 
all involved.
    Over 215,000 soldiers, sailors, airmen, marines, and Coast 
Guardsmen are currently serving in the CENTCOM Area of 
Responsibility. Together with our many civilian partners, they 
have been the central element in the progress we have made in 
Iraq and in several other areas, and they will be the key to 
achieving progress in Afghanistan and Pakistan and in the many 
other locations where serious work is also being done.
    These wonderful Americans and their fellow troopers around 
the world constitute the most capable military in the history 
of our Nation. They have soldiered magnificently against tough 
enemies during challenging operations in punishing terrain and 
extreme weather, and they and their families have made great 
sacrifices since 9/11, as I know the members of this 
subcommittee know very well. Nothing means more to these great 
Americans than the sense that those back home appreciate their 
service and their sacrifice.
    In view of that, I want to conclude this morning by noting 
my gratitude for the extraordinary support the American people 
have provided to our military men and women and their families 
and by thanking the members of this subcommittee for your 
unflagging support and abiding concern for our troopers and 
their families as well.
    Thank you very much.
    Mr. Edwards. Thank you, General Petraeus.
    [The prepared statement of General David H. Petraeus 
follows:]

[GRAPHIC] [TIFF OMITTED] T0526C.236

[GRAPHIC] [TIFF OMITTED] T0526C.237

[GRAPHIC] [TIFF OMITTED] T0526C.238

[GRAPHIC] [TIFF OMITTED] T0526C.239

[GRAPHIC] [TIFF OMITTED] T0526C.240

[GRAPHIC] [TIFF OMITTED] T0526C.241

[GRAPHIC] [TIFF OMITTED] T0526C.242

[GRAPHIC] [TIFF OMITTED] T0526C.243

[GRAPHIC] [TIFF OMITTED] T0526C.244

[GRAPHIC] [TIFF OMITTED] T0526C.245

[GRAPHIC] [TIFF OMITTED] T0526C.246

[GRAPHIC] [TIFF OMITTED] T0526C.247

[GRAPHIC] [TIFF OMITTED] T0526C.248

[GRAPHIC] [TIFF OMITTED] T0526C.249

[GRAPHIC] [TIFF OMITTED] T0526C.250

[GRAPHIC] [TIFF OMITTED] T0526C.251

[GRAPHIC] [TIFF OMITTED] T0526C.252

[GRAPHIC] [TIFF OMITTED] T0526C.253

[GRAPHIC] [TIFF OMITTED] T0526C.254

[GRAPHIC] [TIFF OMITTED] T0526C.255

[GRAPHIC] [TIFF OMITTED] T0526C.256

[GRAPHIC] [TIFF OMITTED] T0526C.257

[GRAPHIC] [TIFF OMITTED] T0526C.258

[GRAPHIC] [TIFF OMITTED] T0526C.259

[GRAPHIC] [TIFF OMITTED] T0526C.260

[GRAPHIC] [TIFF OMITTED] T0526C.261

[GRAPHIC] [TIFF OMITTED] T0526C.262

[GRAPHIC] [TIFF OMITTED] T0526C.263

[GRAPHIC] [TIFF OMITTED] T0526C.264

[GRAPHIC] [TIFF OMITTED] T0526C.265

[GRAPHIC] [TIFF OMITTED] T0526C.266

[GRAPHIC] [TIFF OMITTED] T0526C.267

[GRAPHIC] [TIFF OMITTED] T0526C.268

[GRAPHIC] [TIFF OMITTED] T0526C.269

[GRAPHIC] [TIFF OMITTED] T0526C.270

[GRAPHIC] [TIFF OMITTED] T0526C.271

[GRAPHIC] [TIFF OMITTED] T0526C.272

[GRAPHIC] [TIFF OMITTED] T0526C.273

[GRAPHIC] [TIFF OMITTED] T0526C.274

[GRAPHIC] [TIFF OMITTED] T0526C.275

[GRAPHIC] [TIFF OMITTED] T0526C.276

[GRAPHIC] [TIFF OMITTED] T0526C.277

    Mr. Edwards. In terms of the process, we will abide by the 
5-minute rule, which will include the time for the questions, 
comments and the answer.
    General, if I gavel you down, please finish the thought. So 
if a member wants a 15-second answer, he or she can ask a 4.75-
minute question, but we will try to adhere to that in order to 
maximize the number of questions, of answers, and discussion.
    To all here, let me say everyone is welcome. This is a 
public, unclassified hearing. We welcome everyone. I would only 
ask that you respect the process itself, and allow the 
testimony to move ahead expeditiously.

                              AFGHANISTAN

    General Petraeus, let me begin my questions with the issue 
of enduring installations in Afghanistan. Our policy in Iraq 
was to have, technically, no permanent U.S. bases. Obviously, 
concrete lasts a long time, but the idea was that we would not 
be permanently in Iraq, and we wanted the world and the Iraqis 
to understand that. There has been some discussion of 
potentially two enduring installations in Afghanistan.
    If that is correct, if that is the policy, could you 
explain whether the term ``enduring'' means physically the 
construction of the bases will be such that they might last for 
decades, whether we are there or not; or does ``enduring'' mean 
you would expect a permanent U.S. presence in Afghanistan?
    General Petraeus. It would be the former, Mr. Chairman.
    Again, the fact that concrete might endure a lot of C-17 
landings and hopefully endure beyond our departure, in fact, 
does not reflect any kind of commitment to an enduring basis or 
enduring presence.
    Mr. Edwards. Okay. Good. May I ask you about benchmarks? 
Where are you in terms of public benchmarks so that a year from 
now, this subcommittee and the Congress, 2 years from now or 3 
years from now, can judge whether we are making the progress 
that we would hope to make in Afghanistan?
    General Petraeus. There is, in fact, a process ongoing, Mr. 
Chairman, in the administration to develop a set of benchmarks 
that will be done in consultation with the Congress. It is an 
interagency effort. We have visibility involvement in that from 
CENTCOM. The Intelligence Community is also very highly 
involved with it. I talked to Admiral Blair about it, for 
example, the other day, and at that point it had been agreed 
with all the interagency and on the Hill, and I am sure that 
those will be brought forward.
    Mr. Edwards. Okay. On military construction vis-a-vis the 
supplemental appropriation bill, I will never ask you in public 
whether the funding request is adequate. The request has been 
made. That is official administration policy.
    I would like to ask you, in terms of process between now 
and the time we get to the conference report on the 
supplemental appropriation bill, if conditions change in Iraq 
or Afghanistan in a way that you would on short notice see need 
for new construction projects that were not envisioned when you 
put together the supplemental request, would you feel at ease 
to make those additional proposals to the subcommittee?
    General Petraeus. I would, Mr. Chairman.
    Mr. Edwards. Okay. Great.
    Finally, let me ask, in terms of roads, much of your 
supplemental construction request for Afghanistan is for roads. 
Are roads in your opinion an effective way to protect the lives 
of our troops from IEDs?
    General Petraeus. First of all, roads are important in a 
host of different ways, not just to ensure that you can spot 
where it has been disrupted and an IED has been planted, but 
also in terms of the comment that, where the road ends, the 
insurgency begins. Of course, with the ability of the road to 
tie together the revival of commerce and business and so forth, 
Afghanistan, for example, has substantial mineral reserves. The 
challenge is their extraction and then getting them to the 
market that could use them. So, again, roads are important.
    With respect, Mr. Chairman, let us provide you, again, if 
we could, those items that will be constructed with the 
supplemental funds in particular, because the bulk of them 
really, I think it is correct to say, are for logistical 
infrastructure. I suspect we are putting as much concrete into 
runways as we are into ramp space and pads for sleeping 
accommodations for our troopers and mess halls and so forth, 
actually, as we are with that. I think the funding for roads 
may be a good bit more on the AID side and in other categories, 
actually, than in the construction, which we are really doing 
to accommodate the additional forces that are coming into 
Afghanistan.
    Mr. Edwards. Great. Thank you, General.
    Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    General Petraeus, two days ago at Harvard and in your 
testimony today, you seem to feel the need to prepare Americans 
for the next 12 to 18 months as we transition from Iraq to 
Afghanistan. You have mentioned the issue in Pakistan, Somali 
pirates, Iran, other elements in the region.
    Can you lay out what our objectives are and what Americans 
can expect in the next 12 to 18 months, particularly in 
Afghanistan? If we are successful with this surge of troops, 
what are the opportunities that we might see there in terms of 
longer-term security when we are successful?
    General Petraeus. Congressman, our foremost objective in 
Afghanistan is to ensure that transnational extremists are not 
able to reestablish the kinds of bases and safe havens that 
they had and from which they were able to conduct the 9/11 
attacks. That is, obviously, a vital national interest for us 
that was highlighted very clearly in the President's 
explanation of the strategy for Afghanistan and Pakistan.
    Again, it is imperative that we ensure that conditions not 
return to the way that they were where, again, transnational 
extremists were able to establish that kind of presence--
training camps, essentially--the global headquarters, if you 
will, for that particular movement.
    Clearly the security situation has deteriorated in 
Afghanistan over the course of the last 2 years, particularly 
in certain areas of the Pashtun insurgency, the Pashtun belt in 
eastern and in especially southern Afghanistan. It is important 
that we stabilize those areas, that we arrest the downward 
spiral of security and, indeed, then roll back in some respects 
and improve the security for the Afghan people so that the 
other progress--and there has been considerably a great amount 
of other progress, whether it is in telecommunications, again, 
road construction, access to health care, the spread of 
education, you name it--but in many areas of this, in 
particular Pashtun, insurgency has been challenged and/or 
reversed.
    To do that, we are obviously deploying additional forces. 
We are accelerating the development of the Afghan National Army 
and its expansion. There will be an increase in the police 
forces, and there is an increase in the NATO security forces as 
well, especially for the upcoming elections that will be held 
on 20 August.
    As all of these forces are brought to bear on this problem 
and on this situation, they are going to have to take away from 
the Taliban, take away from the extremist syndicate in the 
east, safe havens and sanctuaries that have been established in 
some cases in league with the illegal narcotics industry and 
traffickers. As in Iraq with the surge, when we deployed 
additional forces and those forces began fighting to take back 
those sanctuaries and safe havens that al Qaeda in Iraq and 
some of the militia extremists had established, they will fight 
back; and so this will be a tough road that lies ahead, but it 
is also a vitally important road that lies ahead.
    Mr. Wamp. Mr. Chairman, I will come back during the next 
round. I do not want to exceed my 5 minutes.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman.
    General, thank you for your public service, for your career 
and particularly for your emphasis on academic training.
    I began my public service in the Peace Corps. I now 
represent the Naval Postgraduate School and the Defense 
Language Institute. I have been very interested in my years in 
Congress to try to create a civilian capability in the U.S. 
government made up of the best and brightest civilians we have 
to do stabilization work. I authored the Reconstruction and 
Stabilization Civilian Management Act, that you have mentioned, 
to authorize the State Department to set up the coordinator for 
reconstruction and stabilization, and we created this Civilian 
Response Corps.
    I just want to personally thank you. We would not have 
gotten that bill out of the Senate if you had not made the 
phone call to a certain Senator, and it amazed me because I did 
not know you were aware of the bill. It was Senator Coburn, 
actually, who told me that you had made a call, and I want to 
just personally thank you, because I really think you 
appreciate and understand the need to build this civilian 
capability.
    General Abizaid, years ago before this committee, said 
something that I think was really profound. He said, America 
will never be able to sustain the peace until we learn to cross 
the cultural divide.
    I think you understand that extremely well, probably better 
than anybody else, as to what it takes to cross that cultural 
divide. So my question is, has the military and CENTCOM Area of 
Responsibility worked or partnered with the State Department's 
Office of Coordinator for Reconstruction and Stabilization? To 
your knowledge, what is your assessment of the work that they 
are doing? Is it slow in getting started, particularly in being 
able to pull together a Civilian Response Corps? Do you have 
some ideas for the training expertise that you think they ought 
to have?
    General Petraeus. Well, Congressman, I am actually very 
strongly committed to this, as you noted, and we are working 
with the Office. We did seek to encourage people to support its 
construction, and the reason is that, frankly, when I was on 
the ground as a division commander, as a major general in 
northern Iraq, I turned around and said: Okay, where are all 
these folks who were going to help us, who were talking to us 
when we were down in Kuwait before we went through the berm? 
Where are all the experts? Where are all the assistants?
    There were not many. In fact, there were none for a while, 
and the pool that eventually emerged was thin, I think, and 
that is why our soldiers ended up doing nation building. It was 
necessary. We embraced it. We had to do it. We got after it.
    We appreciate your enabling us with CERP, for example--
which proved to be a hugely important component of that because 
we had such a vastly greater capability and capacity to 
actually do nation building than did the elements of our 
government that arguably could be said to actually have that as 
their primary mission rather than as an additional duty.
    So, again, we want the Office to succeed. We want the 
Civilian Response Corps to grow rapidly, to expand. We want to 
see the kind of education, training and preparation for 
deployment that I think we have worked very hard in the 
military and have had a reasonable degree of success with.
    Although I want to go on with this because, as you may 
know, I actually supervised DLI when I was the commander of the 
Combined Arm Center, we were in charge of all of the 
commissioned and noncommissioned officer education courses, the 
National Training Center scenarios, the doctrine. That is how 
we were able to do the Counterinsurgency Field Manual. DLI was 
actually under us in that role, and I was a huge proponent of 
it. And frankly, we desperately need the language skills; and 
to that degree, the cultural skills are also trained out there 
because, as you know, it takes more than just a sheer academic 
knowledge of the language. You have to have an understanding of 
the context and the culture in which you actually employ that 
language.
    I actually went to Admiral Blair the other day after we did 
the CENTCOM assessment, the overall assessment that we took 
several months to do with a couple hundred people looking at 
the overall region, the subregions, the functional areas. In 
the functional area of intelligence, the major finding was that 
we do not have the capacity nor do we have the capability in 
the Afghanistan and Pakistan region in particular, and we 
shared that with Secretary Gates; with the chairman of the 
Joint Chiefs, Admiral Mullen; and with Admiral Blair.
    Admiral Blair is going to take steps to appoint a very 
senior individual to oversee that effort. He agrees with it 
completely. As you know, he also has a very strong commitment 
to learning as well as doing. He is a Rhodes scholar and, 
again, an extraordinary and intelligent man on top of all the 
other qualities. So we need to expand that.
    We also, actually, need to expand just the basic knowledge 
of Afghanistan and Pakistan among our forces. We were, over 
time, able to do this in Iraq. We were able to have recurring 
assignments, repeat tours, bring units back, sometimes actually 
where they served before, and to develop the kind of nuanced 
and granular understanding that eventually enabled us to do the 
kind of sophisticated reconciliation processes that turned out 
to be so important in Iraq.
    Some of those will necessarily have to take place in 
Afghanistan. You cannot kill or capture your way out of an 
industrial-strength insurgency such as we had in Iraq or such 
as exists in Afghanistan.
    So, again, you have to have that kind of real feel and 
appreciation and sophisticated understanding of the local 
context, and that can only come by experience, by study, by 
continued learning, and by capturing information and sharing 
it.
    We will take steps, in fact, to develop this pool of people 
and then to try to keep them in that field while still ensuring 
their professional development and promotion and so forth. Over 
the long term, we have to get very serious about the true long-
term development so we are not just filling slots right now and 
then keeping them in it for the short midterm. We need to make 
a much bigger commitment. And I think that is reflected in 
Secretary Gates' overall concept for the defense budget. It was 
also reflected in guidance that he gave last year to develop 
the real language expertise and the cultural understanding and, 
again, the assignment process that allows us to develop the 
experts in the State Department, in AID and in the military, so 
that we can be as effective as is possible in local conditions.
    Mr. Farr. Thank you.
    Mr. Edwards. Judge Carter.

                                TALIBAN

    Mr. Carter. Thank you, Mr. Chairman.
    General, welcome. We are really proud to have you here 
today.
    General, there is a story out today that the Taliban forces 
consolidated control of two northwestern Pakistan districts and 
went into a third district. These districts are within 60 miles 
of Islamabad. Do you have the necessary tools to counter the 
Taliban as they move closer to the capital city? Your comments 
on this.
    General Petraeus. Well, Congressman, first of all this 
highlights, I think, and it underscores the importance of what 
Secretary Clinton has said on the Hill in the past 2 days, and 
that is the imperative that the Pakistani leaders not only 
recognize that the most important, most pressing threat to the 
very existence of their country, is the threat posed by the 
internal extremists and groups such as the Taliban and the 
syndicate of extremists in the Federally Administered Tribal 
Areas. That is the most pressing threat that they face right 
now.
    Not only is it important to get that, if you will, 
intellectually, but then of course you have to act on it. The 
institutions have to reflect that. Military forces, over time, 
have to be configured for that kind of fight, for that kind of 
threat, rather than strictly focused on the conventional threat 
that has been traditionally the focus of the military to their 
east, in India.
    In fact, one reason that we have requested the Pakistani 
Counterinsurgency Capability Fund is to have a source of 
funding similar to that provided by the Iraqi Security Forces 
Fund or the Afghan Security Forces Fund that has the 
flexibility and responsiveness that the Office of Defense, 
Representative, Pakistan, needs in the same way that the 
training equip elements had, again, in Iraq and Afghanistan. 
That does not mean that we do not need, again, the traditional 
mechanisms with the same kinds of authorities for DoD when it 
comes to 1206, 1207, 1208. We do not need Coalition support 
funds or FMF or access to FMS. All the rest of these are 
certainly very much needed. IMET, again, is another one.
    The fact is we need, again, a source of funds that has this 
responsiveness, that has the flexibility, that can enable us to 
focus the effort on the training and equipping and development 
of forces that will conduct counterinsurgency operations as 
their primary objective. And we have been doing that on a small 
scale, providing assistance to the forces, for example, of the 
Frontier Corps and to the 11th Army Corps, which are the 
elements operating mostly in the Federally Administered Tribal 
Areas and in the Northwest Frontier Province.
    In fact, there was a small element of those forces, 300 to 
350 members of the Frontier Corps, that moved to Buner, which 
is one of these districts in which the Taliban had located. So 
this capability will help us enormously. Again, that is why we 
requested it.
    Mr. Carter. Do you perceive that there is a will to start a 
change of direction in as far as the counterinsurgency effort 
is concerned so that our money will be well invested?
    General Petraeus. Well, there is certainly a will on the 
ground among those troopers who are fighting, again, in the 
FATA. I mean they know what this enemy represents, and they 
have sustained very substantial losses. So, again, the 
Pakistani Army has taken significant losses in this fight over 
a number of years now, and that is why in my statement I said 
they deserve our support. They not only need it. I think they 
have earned our support.
    What we need to see, of course, over the weeks and months 
ahead, is the kind of whole-of-government approach that would 
result from a complete commitment by the Pakistani senior 
leaders to enable their forces. So, again, you do not have a 
situation where it is only the Frontier Corps and the Army that 
are doing counterinsurgency operations. That is not possible. 
Again, military by itself cannot do it, and they are actually 
studying our counterinsurgency manual. Their director of the 
joint staff is working with their interagency to develop a 
counterinsurgency concept and policy. There is encouragement in 
that. But, again, what has to happen is we have to see that 
actually manifest itself. We have to see it operationalized 
over time and to see the kind of commitment and will that will 
be necessary to face up to what is, again, an existential 
threat to Pakistan.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Judge Carter.
    Mr. Salazar.

                  AGRICULTURE POTENTIAL IN AFGHANISTAN

    Mr. Salazar. Thank you, Mr. Chairman.
    General, thank you so much for everything you do for this 
country. We are very proud of you.
    I was an Army man myself and never got to the four stars, 
but I was an enlisted man.
    Mr. Dicks. You got to Congress, though.
    Mr. Salazar. Yes.
    Let me just ask you--I know, the last time that we were in 
Iraq and you were still there, we visited about the potential 
in Afghanistan in reference to agriculture. I understand that 
we have to build an economy before you can actually really 
build a society.
    Could you maybe comment about that potential and what you 
are seeing and what role the USDA could actually have in 
helping you achieve those goals?
    General Petraeus. Well, it could have an enormous role. In 
fact, Ambassador Holbrooke and I are very seized with the 
agricultural potential in Afghanistan and in helping them 
redevelop it. As you know, this was once a very fertile country 
until it entered 30-plus years of war. The irrigation systems, 
the vineyards, the fields--all of these that take years or 
sometimes decades to fully mature and develop--were destroyed 
over the course of that time. And there has been an enormous 
effort to rebuild those, but it still has a very long way to 
go.
    So we are very keen to see the kind of interagency support 
for this that can help it. But we have already, in fact, again 
gone to our uniformed services. In this case, the National 
Guard stepped forward and said, you know, we have folks in our 
ranks in agricultural States who are willing to volunteer to 
give their agricultural expertise to the Afghan people and to 
the Afghan farmers. These agricultural teams have been of 
enormous help and of enormous value over there. In many cases, 
these are true agricultural experts. They are both farmers and 
academic experts who can do the kind of soil analysis, crop 
analysis and then end-to-end market analysis that could enable 
real progress if we can ensure that the security situation does 
not disrupt it.
    So, again, Ambassador Holbrooke and I are very, very keen 
on this. It is a recurring theme if you hear him talk about 
Afghanistan, and we hope very much that the interagency can 
contribute substantially to it.
    Mr. Salazar. Well, thank you very much.
    Mr. Chairman, I yield back so that other members can ask 
questions.
    Mr. Edwards. Okay. Mr. Dicks.
    Mr. Dicks. Thank you, General. I am sorry I missed you at 
the Defense Appropriations Subcommittee. I have a subcommittee 
that I have to chair myself, so there was a total conflict.
    I remember going over with Congressman Lewis in 2003 when 
you were commanding the 101st, and then came back in 2007 when 
you were getting ready to do the surge with General Odierno. I 
just want to compliment you on your extraordinary work. If we 
had followed the lead of what you were trying to do in the 
north throughout the country, I think we would have been in 
better shape.

                      ILLEGAL DRUGS IN AFGHANISTAN

    I want to ask you one thing about the drug issue, you know, 
the heroin. I see this as just a cancer that is in Afghanistan, 
and we have not been dealing with this forthrightly, I believe. 
And I hope that the new administration is going to have an 
aggressive strategy to deal with this issue.
    The other thing I will mention, just to follow up on Mr. 
Farr, is I have been a supporter of the Olmstead program, of 
which General Abizaid took a year off as an Army officer, went 
to a country, learned the language, learned the culture. And I 
thought this was such a great program. Then I asked the Army 
how many people are in the Olmstead program. I think they said 
six or seven. So that is of concern.
    Because of Mr. Edwards' sharp eye on time, I would like to 
know what you think about this piracy problem. What do you 
think we should do about it? How do we respond to this?
    Thank you.
    General Petraeus. Sir, first of all, the illegal narcotics 
industry in Afghanistan is a cancer, and it not only eats at 
the rule of law of Afghanistan and provides substantial 
resources to the insurgency, as do some other activities, but 
it is one of the top two or three primary sources of funding 
for the insurgency. It also, of course, causes enormous 
problems throughout the entire region. It is, in fact, one of 
those areas in which we actually have common interests with 
Iran and with Russia and certainly with all of the other Asian 
states, none of whom want to see the already substantial 
numbers of addicts that they have in their countries increase 
nor to see the expansion of the illegal aspects of this and the 
Mafia-related types of activity that it gives rise to.
    By the way, with respect to these opportunities for our 
soldiers to go to foreign countries for school and experience 
and to graduate school and all the rest of that, really to 
provide them, out of their intellectual comfort zone 
experiences, which are so important when you are doing the kind 
of work that our troopers are doing in Iraq, Afghanistan and 
Pakistan, I hope that as our end strength increases and as we 
are able to bring our numbers down in Iraq that, again, our 
officers, in particular, can take more advantage of this, but 
also some of our noncommissioned officers and warrant officers 
as well.

                                 PIRACY

    With respect to piracy, there are a number of actions that 
need to be taken. Among them, it is important that the maritime 
shipping industries get more serious about this problem. I have 
just reviewed with Vice Admiral Gortney, who is the Naval 
component commander for Central Command--it is his forces, by 
the way, that were on the Bainbridge that were augmented by the 
Navy SEALS.
    Mr. Dicks. And we want to compliment the SEALS and the 
whole operation.
    General Petraeus. So they did a magnificent job.
    The work by the crew of the Bainbridge, by the conventional 
sailors and our special operations sailors was fantastic, and I 
saw some of their leaders yesterday, I might add.
    With respect to this problem which, of course, stems from 
the fact that you have an ungoverned space, essentially, at 
this point in time, and that has severe poverty and economic 
problems and a lack of rule of law and all the rest of that, 
those are the conditions, of course, that give rise to this 
kind of illegal activity. But we need the maritime shipping 
companies to do more than they have.
    We started off by saying, if you would just speed up when 
the pirates approach you, that will help. If you take evasive 
action, that is even better. If you unbolt the ladder that 
allows the pirates to climb onto your ship before you set sail, 
you get extra credit for that. These were not being taken 
before. This was strictly viewed as a business proposition up 
until recently. They figured, well, we will go park if, you 
know, only less than 1 percent of the ships get pirated. 
Anyway, if it is, they have insurance, and it would just go and 
park off Somalia, and they would negotiate.
    Well, that price is going up, and of course the violence is 
going up, and the pirates have moved farther and farther and 
farther out. As you know, originally it was in the Gulf of 
Aden, just south of Yemen and between the Horn of Africa. Now 
they are as far out as 450 nautical miles off the coast of 
Somalia proper.
    So I think that they are going to have to take a very hard 
look at not just taking additional defensive preparations in 
terms of just simple things like Concertina wire to make it 
hard to climb over the side or, again, up over a railing, but 
also in looking at the employment of armed guards or security 
forces on those. We have put them on many of the ships that 
have our equipment on them. Again, I think that is something 
that they are going to have to look hard at.
    There is no way that the limited number of vessels from the 
U.S., the Coalition maritime force that we have, NATO, EU, and 
even others is going to be enough, given the thousands of 
vessels that transit that area and the vast size of it. There 
are disputes about how many times the size of Texas that 
actually is. I would defer to the Chairman on that. Again, this 
is a problem that we have to get much more serious with.
    Also, you can do a risk analysis. You can look at the ship. 
There are certain characteristics of a ship that make them more 
vulnerable to piracy. Again, I think the maritime shipping 
industry is going to have to look very hard at whether they 
keep those ships going through these particular waters. And 
there is a variety of others. We are going to do a review of 
this with the leadership in the Pentagon over the course of the 
next couple of weeks and with the interagency, and then we will 
propose going back.
    Mr. Dicks. What about training the crews?
    General Petraeus. Well, sir, you could. Of course, some 
crews have been trained. You heard about that in the case of 
this Maersk ship.
    Mr. Dicks. Yes.
    General Petraeus. The arming of crews is another aspect. Of 
course, they need to be trained in the use of those weapons 
then as well. That has to be another element of this. 
Certainly, the defensive preparations can work. You can have 
water hoses and others that can make it more difficult. But as 
someone observed the other day, it is tough to be on the end of 
a water hose if the other guy is on the end of an RPG. So you 
have got to think your way through that calculation as well.
    Mr. Dicks. I yield back my remaining time.

                        INTERAGENCY INVOLVEMENT

    Mr. Edwards. I thank the gentleman.
    General Petraeus, you have spoken today in your testimony, 
orally and in writing, and repeatedly that you cannot win a 
counterinsurgency effort by simply a military effort alone. You 
have to have civilian support. You have to win the hearts and 
minds of the people of that region or of that country.
    You spoke of the need for full funding of State Department, 
USAID, perhaps USDA, the Department of Commerce, and other 
programs. Is funding the constraint? I guess what I would ask 
is: If you have the funding, do we still have problems with 
getting those people from those particular agencies to go to 
Iraq and Afghanistan?
    General Petraeus. It is a mix, Mr. Chairman. Based on my 
experience when I was a commander in Iraq and, before that, the 
training equip commander--because we drew on a number of the 
different interagency elements during that time--there are 
certain organizations that are ready to help.
    I have to single out the Department of Homeland Security, 
for example, which was willing to provide border tactical 
officers, customs agents, and other experts on border security, 
which was something that was desperately needed in Iraq, even 
as it is of course needed in our own country. But they had 
those assets. They had the capabilities. They were willing to 
provide them, but they ran into both authority and 
authorization issues.
    I think they did not have the funding for it, and I am not 
sure they had the authority to shift other funding to do that. 
So, in some cases, we were able to use training equip moneys 
for that, because it fit the language that was provided by 
Congress for that; but in other cases, we did not, and we just 
had challenges with that.
    There are other cases with other interagency elements where 
they just do not have the capacity to provide the people, and 
that, I think, is a serious challenge. It may well be.
    There have been reports, public reports--and I think that 
Under Secretary of Defense Flournoy talked in a conference 
about this the other day--that as the augmentation of civilian 
members of the effort in Afghanistan goes forward, that it may 
be necessary to provide some uniformed members to augment that 
effort. We had to do that in Iraq as you will recall. You know, 
it is just a lot faster to give someone in the military an 
order, one who is already prepared for deployment and who has 
weapons training, preparation and so forth, or who can get that 
in relatively short order, than it is to bring someone in from 
the outside and go through the entire process and clearances 
and everything else if they are contracted or hired in some 
other fashion. So it may be. That is certainly an option that 
Secretary Gates is looking at, although there has not been a 
commitment or numbers assigned to it yet.
    Mr. Edwards. Do you have any kind of broad estimate today 
in Afghanistan and in Iraq, if you had all of the civilian 
employees from the various Federal agencies--USDA, the 
Department of Commerce--as to how many military troops you 
could free up for their military mission?
    General Petraeus. I think, in truth, that freeing up would 
be relatively small in number because, again, if you come back 
just for example to the agricultural area, we could send home a 
few agriculture teams if we had more agricultural experts. In 
many cases, though, I think what it would do is it would enable 
our soldiers to focus more on their primary responsibilities of 
providing for the security of the people, securing and serving 
the people, and focus less on these other duties that they end 
up having to get into because of the lack of additional 
capacity in the civilian arena.

                              AFGHANISTAN

    Mr. Edwards. Clearly, our goal ultimately is to have the 
people of Iraq and Afghanistan be self-sufficient and providing 
for their own security. It has taken an awfully long time to 
try to build up the forces, the police and security forces in 
Iraq.
    Is there any reason to believe, for whatever differences or 
learning curves or experiences in Afghanistan, that we will be 
able to move that process forward more quickly than has 
occurred in Iraq?
    General Petraeus. Well, we have certainly tried to take 
lessons from Iraq and apply them appropriately with an 
understanding of the significant differences in Afghanistan. In 
many respects, Afghanistan represents a more difficult problem 
set. It does not have a number of the blessings that Iraq has 
in terms of the sheer oil, gas, land of two rivers, the human 
capital that Iraq built up over the years, the muscle memory of 
a strong government, albeit one that was corrupted over time by 
Saddam Hussein. But, again, it had a large number of advantages 
and extraordinary natural blessings in comparison to 
Afghanistan, which is much more, obviously, landlocked, 
mountainous, rugged, rural, with a 70 to 80 percent illiteracy 
rate. You have the challenging situation of policemen who 
cannot read or comprehend the laws that they are enforcing. 
These kinds of difficulties make Afghanistan very, very hard.
    We have seen that, and we will continue to see that. This 
is why up front I said this is going to take a sustained 
substantial commitment, and I have provided that in each of the 
testimonies that I have had on this, and certainly to the 
military and civilian leadership of our country.
    Mr. Edwards. Thank you.
    Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    To follow up on that line of questioning, General, there is 
no question the surge was successful in Iraq and that great 
gains have been made, but your testimony said that those gains 
are ``fragile and reversible.'' As I said to you earlier today 
in my office, my nephew is a marine right now, and I am 
interested in the question of Iraq.
    There was a bombing there yesterday of significant 
proportion, still. Yet some Members who have been there in the 
last 3 weeks have said that the policing versus the warfighting 
is the primary problem, and that law enforcement there is more 
the issue than a lack of our warfighting capabilities.
    So, as we transition more and more out of Iraq and into 
Afghanistan, give us a feeling, from your perspective, of how 
much security and warfighting capability is still necessary for 
us in Iraq to leave it in the condition that those security 
forces in Iraq will be able to maintain the progress that has 
been made so that it is not fragile and reversible.
    General Petraeus. Well, that is a very good question. 
Again, obviously, there has been, clearly, very substantial 
progress in Iraq. When you go from 160 attacks per day to now 
an average of 10 to 15, obviously that represents a significant 
degree of progress.
    Having said that, for all the reasons that I mentioned in 
my opening statement, which include the resilience of al Qaeda 
in Iraq--although considerably diminished, it retains a 
capability, and it does retain a desire to reestablish its 
networks, and it does periodically still have the capability to 
carry out the kind of horrific attacks that it carried out 
yesterday.
    I talked to General Odierno, in fact, not long before 
coming over here. They are obviously going through the 
intelligence, doing, you know, a very, very rigorous job of 
trying to determine which network was reestablished, how it was 
able to carry out the attacks that it did. In some respects, 
some of this is actually a bit of the result of the relaxed 
security, to some degree, over the very, very tight security 
and the innumerable checkpoints and walls and barriers and all 
the rest of that, some of which has been taken down over time 
as, in fact, the security has been improved.
    General Petraeus. And so, maintaining the vigilance and the 
discipline in the actions, particularly of local Iraqi Security 
Forces who are the ones on the checkpoints and securing these 
very sensitive locations, is very important.
    We have seen in this case, we do know that, for example, a 
network that provides foreign fighters from Tunisia through 
Syria to Iraq was reactivated or reestablished after the 
foreign fighter network inside Iraq was damaged very 
significantly over the course of the last 6 months or so. And 
we know that, for example, four of the suicide bombers in the 
past couple of weeks were Tunisians and we captured one of the 
facilitators. There may be some others that have come through.
    Again, this is the kind of intelligence focus that is 
taking place to determine again what network has been able to 
carry these out and what actions need to be taken against them.
    Those actions will be taken though with considerably larger 
and more capable Iraqi Security Forces. They are carrying out 
the vast majority of the security operations at this point. We 
are well into the process of withdrawing additional forces, the 
remaining coalition forces going home, gradually coming out of 
the cities in anticipation of the deadline this summer in the 
security agreement, and continuing on with the other aspects of 
security agreement.
    The Iraqi Security Forces number some 600,000 now. Again 
they are considerably more capable than they were just a couple 
of years ago. But there will be continued attacks of this type 
over time. It is going to take a considerable time for Iraq to 
eliminate all of the remaining elements and you see in fact in 
that region periodic attacks of this type even in countries in 
which there are relatively small cells of extremists, and so 
forth.
    So this is why we say the progress continues to be fragile 
and reversible, and it is why we say that it requires continued 
vigilance and continued effort. And again we think the policy 
adopted for this is the appropriate one, it is something that 
General Odierno and I and Ambassador Crocker supported.
    Mr. Wamp. I want to pursue Pakistan and FATA, but I will do 
that on the third round.
    Mr. Edwards. Okay. Mr. Farr.
    Mr. Farr. Mr. Chairman, I want to continue with the 
discussion of crossing that cultural divide. I think you are 
able to understand the need to do that better than anyone. It's 
ironic that there are protest signs in this room that say ``no 
military solution'', and you are essentially saying the same. 
There is no military solution. It has got to be a civilian 
solution, and we need to work on diplomacy and it ought to be 
in the future words, not war.
    So this hearing is really in the interest of trying to find 
how do we for the first time really begin that transition of 
developing the civilian capacity.
    The Naval Postgraduate School has a center for post 
conflict stabilization and reconstruction. Where they do 
exercises with people from the U.N. and NGOs, U.S. civilian 
agencies and military, and foreign military officers. The 
exercises try to find out help plan how you really do 
stabilization and reconstruction in a war torn areas.
    There is also a course being offered to military officers 
in that field, but there is very little interest in going into 
it because there is no MOS. There is nothing to do with this 
degree and expertise that you are developing. Yet you 
established in your answer to the first question that there is 
lack of expertise. I think we agree we need to develop it, but 
the Department of Defense is not yet there in developing the 
career path for these specialists.
    Are you using FAOs, and are they well trained? Is there 
something beyond that specific to linguistic and culturally 
expertise, region by region around the world? And do these 
teams train together so that they--as we do in a disaster 
mitigation--can go in and do the ounce of prevention before we 
need the pound of cure.
    I am interested in your thoughts about how we can further 
develop that professionalism. And is the State Department 
coordinator for reconstruction in dialogue with you?
    General Petraeus. The answer to that is yes. If I could go 
back, because you have actually touched on an area that I have 
enormous interest in actually. When you talk about changing an 
institution, which is what we are talking about here, to 
appreciate the need for a particular skill set in vastly 
greater number than we have right now. Any time you change an 
institution, though, you need the big ideas and then you have 
to of course educate the organization on the big ideas and 
hopefully they embrace the big ideas. And if they don't, you 
help them put their arms around the big ideas and squeeze them 
with them.
    And then you implement the big ideas, if you will, in the 
military we practice them, sometimes we implement them in real 
operations if those are ongoing, as they are right now, and 
then you have a feedback mechanism. And we actually proposed an 
interagency engine of change in a briefing one time to an 
interagency--and I would be happy to provide that whole 
briefing to you--on how you would go about that.
    We were talking about actually getting the interagency to 
embrace the concept of counterinsurgency because in my view and 
another the biggest of the big ideas that came out of the 
CENTCOM assessment was that the construct, the intellectual 
construct for the war on terror, at least within the CENTCOM 
area of responsibility, needs to be a counterinsurgency 
construct, not a narrow counterterrorism construct, 
counterterrorism being, as you know, special mission units, 
precise intelligence, intelligence agency activities, and very 
specific operations. It needs to be much broader than that. It 
needs to be not just special operations forces, but 
conventional forces, indigenous forces, and it needs to be 
broader that that. It needs to be economic, political, 
diplomatic, informational, educational and all the rest of 
that. And that is the ANACONDA slide that we briefed to the 
Congress in April of 2008 when we were explaining that within 
Iraq you couldn't do in al Qaeda in Iraq with just 
counterterrorism forces. It took a holistic approach. It takes 
corrections, too, by the way, because you have to separate the 
irreconcilables from the reconcilables there as well.
    But I think what you are talking about, I mean, you have 
the big ideas right there, and the question is how to get the 
institution in a sense educated, the organizations educated on 
them and then to actually implement them, and then to follow it 
up and have lessons learned, then to help you refine the big 
ideas and the education of those and any implementation.
    With respect to the FAOs, we do have very good FAO 
programs. They involve language training, oftentime in a 
country or a region before they actually serve, and then 
repetitive tours in those. If anything, though, I think we have 
to be careful not to eat our young in this field, and make sure 
they don't run up against glass ceilings where all of a sudden 
they can advance to a certain point but now they can't go 
beyond that. There are exceptions to that and some significant 
ones, and I think we have to ensure that we do enable that kind 
of opportunity and embrace again people who have had these out 
of their intellectual comfort zone experiences.
    As you may recall, 2 years ago there was a promotion board, 
and the Secretary was pretty clear about who was on the board, 
and there was a reason I think to ensure that certain kinds of 
officers were in fact selected, although of course there is 
very clear instructions, there is a legal process, and so 
forth.
    So we have to again ensure that there is real opportunity 
for these individuals that they feel highly valid. It is ironic 
that just yesterday afternoon I sent an e-mail to the Chief of 
Staff at CENTCOM down in Tampa, and I said I want you to look 
at the coding, the personnel coding, of the spots in the J5 
section, which is plans and policy and strategy, and make sure 
that they are FAO slot coded so that we are using the FAOs and 
the experts, so we don't bring in somebody who has never been 
the country and is all of a sudden the country director for our 
plans and policy. Instead, we need the folks that are the 
experts.
    Now you need both of course, and you also need the 
operational experience piece has to inform this, and we have to 
get a balance in there as well. But again obviously this is 
something that I feel pretty strongly about, and I appreciate 
the opportunity to----
    Mr. Farr. The point is you are going to need some career 
development there and you are going to need some of those MOSs, 
as you say, developed.
    General Petraeus. Sir, again when it comes to the conflict 
prevention that one I have to put my thinking cap on and figure 
out. We are actually pretty good now in the FAO field, and 
again there is a revamping in the Army personnel system some 
years back that again does pretty well up to certain levels. 
But we have to take it beyond those levels, I think, as well.
    Mr. Edwards. Thank you. Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman. General Petraeus, I 
like to read history and I have been reading a little bit of 
Afghanistan history, it seems to me that the Afghan people 
don't like invaders very much, and they certainly don't like 
conquerors, the entire population turns on the conqueror. I 
think the junkyard Soviet equipment that is in Afghanistan 
today gives a pretty good indication of that.
    As we ramp up forces in Afghanistan, how do we do that 
without giving that perception that we are an invader. I think 
right now we are still perceived as a helper, but I think that 
is a fine line that has to be walked. I am asking you if you 
perceive any indication of that in Afghanistan and in turn what 
assets or infrastructure you might need to assist us, assist 
our forces so that we are able to continue to be perceived as 
helpers and not as invaders.
    General Petraeus. Well, you are exactly right, Congressman, 
that the Afghan people do not take kindly to conquerors and 
they have shown that over the centuries. And so that is why it 
is not just having additional forces, it is employing those 
forces properly. And they cannot be seen to be there as 
invaders or conquerors. They have to be there to be seen as 
helping to secure and serve the people, to be partners and, 
while being tough warriors, still being very sensitive, for 
example, to civilian casualties, which is probably the single 
most important issue and the single most challenging issue and 
sensitive, because in fact the Taliban in particular will 
literally create conditions in which there is a high prospect 
of civilian casualties, disregarding the risk that they are 
putting the civilian population of a local area to by their 
actions in certain occasions.
    So it is something that we have to be keenly sensitive to. 
And in fact General McKiernan and I issued tactical directives 
on this issue. And his recently released counterinsurgency 
guidance highlights this, I think we gave a copy of this to all 
the members before the hearing. If not, I will make sure that 
we get it to you right after this.
    Mr. Carter. The last time I was over there, the only smiles 
I got from people were when they were traveling down a new 
highway that was being built or under construction and then you 
saw it. They don't smile a whole lot over there, but they were 
smiling about that. So I happen to agree with the discussion 
that as we ramp up our forces and we do them intelligently, and 
I trust you very much to do that, we also need to make sure 
that they think we are there to help because then it will be 
different. Alexander the Great was the first one to learn this 
lesson, and everybody has been learning it ever since.
    General Petraeus. Absolutely right.
    Mr. Edwards. Judge, thank you. Mr. Salazar.
    Mr. Salazar. General, the transition from our soldiers in 
Iraq to Afghanistan, what additional training are you putting 
them through? I know we face different challenges and the 
preparedness may not be the same as what it was in Iraq. We are 
fighting in different territory. Could you address the 
challenges that we might have? And how can we help you better 
prepare our soldiers for that?
    General Petraeus. Well, Congressman, we actually--the best 
example of this I think is to look at the National Training 
Center at Ft. Irwin, California, which is one of the primary 
sites at which we prepare units. That is where we conduct the--
in a sense the final exercise, graduation exercise, the 
culmination to the road to deployment, which now starts, by the 
way, with a counterinsurgency seminar, and that has been the 
case now for a couple of years. And that seminar is tweaked, 
but then the entire road to deployment is tweaked to have an 
Afghan focus, rather than an Iraq focus.
    At the National Training Center it is a much more rural 
setting for these kinds of exercises, rather than for in Iraq 
where we have literally built up a lot of small urban areas in 
the desert, in the Mojave Desert, to get them up into the 
mountains there more, out again in the Mojave Desert which has 
some pretty good little peaks out there as well. Everything is 
done and I mean literally of course we have Afghan natives, 
often Afghan Americans, but the Afghan Americans replace the 
Iraqi Americans. In every respect that we can, we try to 
replicate the situation in Afghanistan rather than of course 
the situation in Iraq.
    Needless to say, there are always going to be limits. We 
haven't found a way to bring 10,000 and 12,000 foot peaks into 
the Mojave Desert, but they do have again have several thousand 
foot peaks out there and they can get the sense of that as 
well.
    There are language differences again for those that are 
going to get some of the language training; the cultural 
training again is obviously different. And again this is all 
hugely important, because what worked in Iraq where we 
literally would move into a neighborhood, right into the 
neighborhood, right into a deserted house or a deserted factory 
or a looted governmental facility. In Afghanistan out in those 
rural areas that is not done, and so you literally have to sit 
with the tribal elders, with the local mullahs, and work out an 
arrangement. Typically we provide the security, the persistent 
security presence that is so important in partnership with the 
Afghan forces by being just outside a village rather than right 
in the center of it.
    So again, that is the kind of changes that we make to 
ensure their soldiers are prepared for that.
    Now in some cases we have had to send soldiers literally 
from Iraq to Afghan, in some other cases to divert them from a 
deployment plan from Iraq to Afghanistan. Needless to say, the 
sooner we can do it the better, but inevitably there are 
requirements that emerge, and we just went through that. We 
just had a period where General McKiernan requested additional 
forces and those that had the sufficient dwell, the only ones 
were either in Iraq or en route to Iraq, and we had to make 
some very, very tough decisions, and we did it in coordination 
with General Odierno and with General McKiernan in full 
visibility to the Secretary and the Chairman, but at the end of 
the day had to make some very difficult choices and had to send 
3,500 or so over in a couple of different decisions of so-
called enablers. And these are the very highest demand, low 
density elements, construction engineers again to get the 
infrastructure going, route clearance teams, joint tactical air 
controllers, military working dogs, a whole host of 
intelligence, command and control, and other elements that 
again with dwell time the only place we could find them was in 
Iraq or en route to Iraq and we had to divert some of those to 
Afghanistan.
    This, by the way, is what the Secretary's budget is 
designed to address. His budget is, as has been observed, a 
warfighter's budget and it gets at the shortages and the 
enablers in particular, these forces that everyone needs.
    I met with the Special Operations Command Commander 
yesterday, Admiral Olson, and the most important topic of that 
conversation was again these enablers that the special 
operations forces need from the conventional side to help their 
forces be effective. They are also the same ones that are 
needed by conventional units to ensure that they can be 
effective.
    And again, that is the concept of the Secretary's budget. 
Also, then those items that everybody can't get enough of, such 
as intelligence, surveillance, and reconnaissance platforms, 
and a variety of other intelligence-related items.
    Mr. Edwards. Mr. Dicks.
    Mr. Dicks. Secretary Gates said--when he was out at Camp 
Lejeune, he said that the civilian side of this equation is not 
coming into place. This is the same problem we had, as you 
talked about earlier, in Iraq.
    General Petraeus. Right.
    Mr. Dicks. And now the same thing is happening in 
Afghanistan, according to Secretary Gates. How do we deal with 
this? How do we get the State Department and these other 
agencies to come up with the people that we need or are we 
going to just have to rely on reservists to volunteer? How do 
we deal with this?
    General Petraeus. Well, in part this is again Vice Chairman 
Farr's point of developing the capability and the capacity, 
much greater of each in the interagency, and in particular in 
those agencies that have as their primary mission some of the 
tasks that we were having to do with folks in uniform. That is 
the first issue.
    Mr. Dicks. Is there anybody inside the government to get 
people together to try to work out a strategy about how we are 
going to do this?
    General Petraeus. Sir, that is going on. Again, this is 
very much ongoing. It started, I think, a couple of years ago. 
In fact, I think this conference that I talked about at which 
we presented the idea of the interagency engine of change was 
in fact one of the early catalysts for that overall effort, and 
it is actually gradually coming together.
    But the other issue, that is an issue of just having the 
sheer capacity and capability. The other effort is then having 
the deployability on fairly short notice, and that is a quality 
that the military has of course that is fairly unique. We have 
that ability to either take someone who is already serving or 
could be called up on very short notice and in a very smooth 
deployment process. They already have all their paperwork done 
and clearances and basic levels of training and equipment and 
everything else. And you can just add to that, relatively short 
order, as you know, put them through an existing deployment 
process and then get them down range. And that is part of that, 
the overall effort that needs to be looked at as well.

                                PAKISTAN

    Mr. Dicks. Now, you know there was a lot of objection on 
our side when the government of Pakistan made this arrangement 
in Swat and put their forces in the barracks. Are those forces 
still in the barracks in Swat? And is this what has led to this 
collapse?
    General Petraeus. Well, there was an agreement again to 
allow essentially sharia law, and at the heart of the dispute 
had to do with the lack of what is termed speedy justice, and 
there was a complete and utter dissatisfaction with the pace of 
resolution of relatively small level conflicts, but ones that 
were tying local communities in knots. And that was not 
provided, and over time that led to, that was the cause on 
which the Taliban was able to build, among some others. In 
fact, there is a very good article, I think in the New York 
Times the other day, that talked about the other social 
situations, inequities, and so forth, that persisted there on 
which the Taliban was able to play and to generate local 
support for them assuming greater control over the area than 
the governmental authorities whose control was eroding.
    And then it was also pursued with some considerable 
employment of threats, force, intimidation, murder, and so 
forth. All of that combined to enable them to get in a position 
where they could push this agreement through, and then the 
greater political dynamics in Pakistan led eventually, after 
considerable stalling and regret, I think frankly, to an 
agreement to it.
    And then the big concern after that was the movement beyond 
that particular Swat district into Buner and some of the other 
areas, from which they supposedly have now withdrawn with the 
arrival of the Frontier Corps Forces.

                                  IRAQ

    Mr. Dicks. I am going to give you this article. I am not 
going to get into it, but it says rape, beatings and bribery, 
Iraqi Police out of control. The London Times story of April 
24th. It sounds very, very discouraging about their police 
force, their security people.
    General Petraeus. Well, again the police in Iraq do have 
first of all a checkered history. They were part of the 
sectarian violence, as you will recall. The national police 
when we went in with the surge in very short order, with Prime 
Minister Maliki's action really, not just his support, but he 
was the one that pushed this through, replaced the national 
police commander, both division commander, every brigade 
commander, and 80 percent of the battalion commanders, and then 
had to replace those replacements a couple of times in some 
instances.
    Over time they became a considerably better force and a 
much more effective force, but the memories that some of them 
have of how to do things are bad, and the practices that were 
employed in history, going back into the time of Saddam and so 
forth, which is what many of them know, those are certainly not 
in line with the rule of law as we understand it and as the 
Iraqis want to implement. And so again there is no question 
that there is more work that needs to be done.
    Having said that, I think it is only fair to acknowledge 
the enormous sacrifices that have been made by the Iraqi 
security forces as they have taken considerably many times more 
casualties than our forces have in the course of the effort to 
reduce the security threats and challenges in that country.
    Mr. Dicks. Thank you, Mr. Chairman.

                               KYRGYZSTAN

    Mr. Edwards. Thank you, Mr. Dicks.
    General and members, I believe we have time for one more 
round of questions, and let me begin by asking regarding the 
supplemental appropriation request. There is a $30 million 
request for Kyrgyzstan, given that government's decision to 
remove U.S. forces from Hamas airbase. Can you tell me what the 
rationale is for that request?
    General Petraeus. First of all, Chairman, if of course it 
came that we were to leave obviously we would not invest in 
that particular air traffic control improvement. I don't want 
to get ahead of things, but we need to give this time still, I 
guess would be the best way to say.
    Mr. Edwards. Okay, that answers the question. There was 
another additional $36 million funded last year from our 
subcommittee to improve the airfield there, and that has been 
put on hold, as I understand. So if there is an opportunity to 
continue discussions with the government----
    General Petraeus. It is our hope, Chairman. In fact, it is 
our hope that actually all parties in the region, and this 
includes Russia, could see that the great game, the new great 
game in the Central Asian states should be replaced with a 
broad partnership against transnational extremism and the 
illegal narcotics activities. It is in everyone's interest to 
unite in that effort, and we think that that can be done. There 
are some signs of recognition of that. Certainly I visited 
every one of the Central Asian states as part of the effort to 
establish the northern distribution network with--together with 
the TRANSCOM Commander who did a phenomenal job with his team 
there and our joint logistics teams.
    We have now, for example, three different routes into 
Afghanistan from the north. Russia is allowing--two of those 
routes go through Russia. They will ultimately end up going 
through Uzbekistan, which why it was important I had that visit 
that I talked to you about in your office. And it is our hope 
that all the countries again in the region are going to see the 
wisdom of working together against these common threats rather 
than competing for influence in a continuation of a zero sum 
approach that has characterized activities in the region in the 
past.

                       DRAWDOWN OF TROOPS IN IRAQ

    Mr. Edwards. Thank you. My last question would be in 
regards to the drawdown of U.S. forces in Iraq. Do you have a 
timetable at this point of when our forces will be out of 
various locations in Iraq? And also what is the implication in 
terms of Camp Victory, for example? Do we still have some 
forces there or will all forces be removed from Camp Victory?
    General Petraeus. Sir, we are actually in the process right 
now. There is quite an aggressive process of either handing off 
to Iraqis, after removing everything that we can that would be 
serviceable and useful and so forth and all of that process, of 
either handing off to Iraqis or closing out in some cases the 
dozens and dozens of patrol bases, combat outposts, joint 
security stations, and so forth, that we built during the surge 
and during the embrace of the counterinsurgency principles 
about securing the people by living with them.
    For example, in Baghdad alone we created 77 additional 
locations in which our forces were located to ensure the 
security of the people with our Iraqi partners. And we do 
indeed with a very detailed schedule that shows when we will 
either close out or hand off these various small installations. 
We are doing that with some of the bigger and medium size as 
well and gradually pulling to some of the--and I don't use the 
term ``enduring'' to imply again an enduring commitment or an 
enduring presence, but again there are places in which we will 
be until our eventual withdrawal from Iraq. And of course you 
are familiar with the time line in the security agreement in 
that regard.
    Mr. Edwards. Right. Thank you. Mr. Wamp.

                                 INDIA

    Mr. Wamp. To set up my final question, let me say that we 
heard from the Pacific Command a few weeks ago how pleased we 
were with India's response to what happened in Mumbai on their 
western edge.
    But then Pakistan on your eastern edge is my greatest 
concern in the world having been on the ground there a few 
months ago, because they are the sixth largest country in the 
world they have nuclear weapons and from Zardari to Gilani the 
leadership is not as secure as it should be. And as a result 
you get to the FATA and you see sharia law and you talked about 
the education levels. The closer to the heart of the troubled 
areas you get, the less they are educated. I mean it goes down 
to a level at which they are frankly not at all educated.
    So knowing your capabilities and your success and I think I 
am reading clearly what our Commander in Chief desires, I 
believe you can win in Afghanistan, but what concerns me is the 
FATA, and how in the world you ever leave that situation secure 
enough that, speaking of fragile and reversible, you would not 
invest this kind of commitment in Afghanistan and ultimately 
have to leave it even more fragile and reversible. And I know 
that is a $64,000 question, but that is my last one.
    General Petraeus. Well, Congressman, it is very important, 
first of all, to come back to what you highlighted at the 
outset. In fact, there are people who have rightly said that 
Ambassador Holbrooke's title should be Afghanistan, Pakistan 
and India. Now let me just tell you his portfolio very much 
includes India, and in fact the Central Asian states and the 
other neighbors there. But it is very important to reduce the 
tensions between India and Pakistan so that again Pakistan can 
both intellectually and physically focus on the most pressing 
threat to their existence, which again is the internal 
extremist threat rather than the traditional threat of India, 
and especially when you look at the number of forces tied up 
with that, the percentage of their defense budget that is 
devoted again to that standoff in the same way that we sort of 
had a standoff with the Warsaw Pact for so many years.
    India did indeed show impressive restraint in the wake of 
the Mumbai attacks. That was a 9/11 moment for them, and in 
fact they did not ratchet up the tensions. And in fact, I think 
many observers correctly assessed that they played a very 
constructive role in avoiding further increase in tensions that 
might have been understandable, in fact, given the death 
inflicted on their innocent civilians in their financial 
capital.
    Ambassador Holbrooke and I have in fact met with the Indian 
National Security Adviser, the Indian Foreign Minister, others. 
And we obviously work very closely with the PACOM Commander 
when we are doing this on the military side. But Ambassador 
Holbrooke's first trip to the region, for example, didn't 
include just Afghanistan and Pakistan; it then continued on 
into India. He had my deputy with him for those and then it 
brought the PACOM deputy out in fact to do the final two stops. 
So we worked that very hard.
    But we should observe that the Lashkar-e-Taiba, LET, that 
carried out the Mumbai attacks, again we think they are trying 
to do more damage and they are trying to carry out additional 
attacks. And one would think that again extremists that are 
trying to cause that kind of tension and also to take the focus 
off of the internal extremist threat would indeed strive to do 
that.
    The FATA, as you mentioned, is indeed the location of al 
Qaeda senior leadership headquarters. It is the location for 
the other transnational extremist groups that form the 
syndicate with them. That is the syndicate that is of most 
concern outside the borders of Pakistan. It certainly causes 
significant problems in Afghanistan, although obviously the 
Afghan Taliban is also a huge concern, as are some other 
elements. But it is the organization that of course has carried 
out attacks in the U.K. And is trying to plan and execute 
attacks in other countries, including our own.
    And over time, dealing with that, again is going to become 
a real bellwether, if you will, for the--not just the capacity 
and capability of the Pakistani forces, but also frankly the 
seriousness of the overall effort focusing on the internal 
extremist challenge that they face and that we all face.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. General, I was impressed 
with your opening remark asking this committee to make sure 
that we fully fund the State Department's needs as well as the 
Department of Defense. Unfortunately, that account is not in 
this committee, and I hope that you will make that same 
recommendation to Mr. Murtha's committee.
    General Petraeus. I did, sir.
    Mr. Farr. I don't know whether you are going to be up here 
before Chairwoman Lowey's committee. She is the Chair of 
Appropriation Subcommittee on State Department and the Foreign 
Ops.
    General Petraeus. Right.
    Mr. Farr. That is where the money is. I am interested in 
following through to build that civilian capability. I don't 
know what is in the President's budget. We haven't seen those 
numbers yet. But it seems to me that we are right on the edge 
of developing that skill set.
    A couple of questions. What are the skills that you need 
from your civilian partners that you don't have right now? Is 
it numbers or is it specific skills? And secondly, you have of 
the 215,000 military personnel serving in CENTCOM, many of 
those are National Guard and Reserves. Do those folks receive 
the same kind of cultural awareness and foreign language 
training that the active duty soldiers and officers receive?
    So essentially what I am looking at here is the skill 
development both from the military side and from the civilian 
side that will enable you to make this transition, working 
ourselves out of Afghanistan and out of Iraq?
    General Petraeus. Mr. Vice Chairman, again I think you are 
right that there is recognition of the need for these skills 
for the capability, for the capacity. And in answer to your 
question, I think we need all of the above. I mean, we need, 
clearly need more numbers, but in those numbers we need 
individuals that have the kind of technical expertise in 
certain functional areas. So in some cases it will be health, 
it might be education, it may be local governance, there will 
be financial kinds of treasury skills, and again really all of 
the different governmental organizations. And then as you work 
your way on out to local levels, again sufficient expertise for 
those, but then to be effective in another culture it is not 
enough to know about those functional areas or have that 
technical expertise for our system or our cultures. It is 
important to know how they work in the culture in which you are 
actually going to operate. So there has to be this--and it has 
to be very significant in some cases. For example, in the Iraq 
situation, Iraq has a very good legal code actually. Yes, 
Saddam perverted it for his own use during his time as the 
leader there, but the basic foundation was quite solid, but we 
needed the expertise in it. I mean we literally needed people 
who were certified, you know, the equivalent of the Iraqi bar 
or something like that, but we needed some of them from our own 
side. And then it was an enormous plus if you could get someone 
who had all of that and was a near native Iraqi Arabic speaker, 
and that is sort of the trifecta when you get that, and those 
individuals are extraordinarily valuable.
    Now, with respect to the preparation of our reserve 
components, we certainly do provide culture and language and 
that kind of thing. But again, I can't sit here and say that an 
active force in which there is a yearlong, say, road to 
deployment, that all of that that is done during that time can 
be compressed into the shorter period of preparation for our 
reserve component units. And I think we have to just be again 
forthright as we assess that to ourselves, and then ensure that 
we provide them everything that we can as they are in their 
final preparation, in their left seat, right seat ride, and 
then in their early months because they will develop expertise. 
The fact is once you are down range and you look at a soldier, 
airman or Marine, there is no difference. You can't look at 
someone, you can't even see them operate and say necessarily 
this is clearly a reservist.
    Mr. Farr. The Post yesterday said that we were perhaps 
going to use the Guard and Reserves as the civilian----
    General Petraeus. Oh, I am sorry, that is a different--I 
thought you were talking about just in strictly the military 
tasks. I was talking about combat--unit combat service support, 
what have you.
    No, there is--and we did do this for Iraq as well. In our 
Reserves in particular, but in the National Guard as well, but 
in the Reserves we have people that actually are city 
administrators, they are certainly lawyers. We have 
construction expertise in those units. It is really 
extraordinary and of course they do it full time. So you take 
someone who really does this all the time, put them in uniform. 
But you do then need to give them the kind of preparation that 
is required, and that is something again that we work to do, 
but I am sure that we could do that better frankly. Again, 
there has to be an investment in them.
    We have a limit with the reserve clock, and we have to keep 
that in mind, and I think that we have limited it to a year 
right now. And so every bit that we take off the front end of 
that for predeployment, you are going to pay back in terms of 
the amount of time on the ground. And so you have to do a real 
weighing again of the risks. Is it better to get the individual 
out there, allow him or her to get on the ground and just 
experience it, and learn on the job, and particularly if you 
can get a long right seat, left seat ride where the person he 
or she is are replacing is going to be there. That is the ideal 
situation, I think.
    Mr. Edwards. I am going to have to ask the police to remove 
anyone who would interrupt the proceedings. I appreciate the 
respect with which the citizens here have allowed us to 
continue on with this hearing.
    Judge Carter.

                                KASHMIR

    Mr. Carter. Thank you, Mr. Chairman. General Petraeus, 
going back to what Mr. Wamp was talking to you about, it seems 
that someone has some vested interest in keeping the Kashmir 
dispute, the old historical dispute between India and Pakistan, 
going because of the Mumbai attack and others. As we were 
talking before, I was thinking, is there anything we could do 
to beef up of the Pakistani forces for counterinsurgency if we 
could get an international diplomatic effort to try to solve 
the issue in Kashmir?
    General Petraeus. I think that that is--first of all, it is 
something that is being looked at, and of course if you could 
resolve that conundrum or even again reduce the tensions, again 
that could contribute to an ability to focus more again 
intellectually as well just sheer forces physically on the 
internal extremist threat.
    Now there are some organizations though that of course want 
to prolong that. They have built their existence on the basis 
of the need, if you will, to continue to carry out violent 
activities. So again, if that could be done, frankly in the 
same way that we look at the Mideast peace process, frankly. 
That colors everything that takes place in the CENTCOM AOR, 
certainly in the western portion of it. And we are very 
encouraged frankly to see the appointment of Senator Mitchell, 
met with him on several occasions already, and supporting very 
significantly one of his deputies as well.
    The kinds of political overarching issues that so affect 
everything that we do, when those can be resolved or even 
attended to, they can help enormously.
    Mr. Carter. I agree, that seems to be something that ought 
to be tried. This is a quick final question, as we draw down in 
Iraq, there is going to be some presence that is going to be, 
at least some kind of short-term presence of American troops 
over there. Are we leaving enough infrastructure in place for 
them to have the recreational, medical and housing facilities 
they are going to need?
    General Petraeus. Absolutely, absolutely. Look, I have to 
tell you that the medical infrastructure in particular that you 
all have provided for our soldiers, sailors, airmen and Marines 
has been extraordinary. And I think the number now is something 
like 90 percent of those who are hit survive, which is the 
highest in history, and it is because of advances of course in 
battlefield medicine, but also the facilities that are 
available within that golden hour and the whole Medevac process 
and the equipment and training of our medical personnel.
    As you may know, we have also provided a substantial number 
of additional helicopters to Afghanistan because of concerns in 
fact that we ensure that we have that same kind of 
responsiveness there, which is even more challenging given the 
very rugged terrain and the high altitude. And one of the large 
elements of the additional forces is an entire combat aviation 
brigade, of which we only had one in the country before, and 
then also some additional Medevac aircraft on top of that 
particular brigade.
    Mr. Carter. Thank you very much for this really tough job 
that you are doing. We appreciate it.
    Mr. Edwards. Thank you, Judge Carter. Mr. Salazar.
    Mr. Salazar. Mr. Chairman, I don't really have any more 
questions. I just wanted to thank the General. Thank you very 
much for your service.
    And I will yield my time to you, Mr. Chairman, if you have 
any additional questions.
    Mr. Edwards. Thank you, Mr. Salazar. And thank you all, all 
members for being here. General Petraeus, thank you for your 
service. And I would like to finish my comments as you finished 
your opening testimony by saluting the men and women who serve 
under you and your command, not only those who wear the 
uniform, but those married to the uniform and the children who 
sacrifice every day. And how grateful I am that because of them 
and because of leaders such as yourself, we live in a country 
where citizens can come to an open forum and even in their own 
way express their personal opinions that might agree or 
disagree with the opinions of those of us that sit on this 
subcommittee.
    Thank you. And any way we can continue to work together 
please let us know. The committee now stands adjourned. Thank 
you, General.
[GRAPHIC] [TIFF OMITTED] T0526D.001

                                            Wednesday, May 6, 2009.

                              ARMY BUDGET


                                WITNESS

GENERAL GEORGE W. CASEY, JR., ARMY CHIEF OF STAFF

                       Statement of the Chairman

    Mr. Edwards [presiding]. Good morning to everyone. I would 
like to call the subcommittee to order. We are privileged today 
to have with us the 36th Chief of Staff of the Army, General 
Casey, and also the Deputy Assistant Secretary of the Army--
thank you very much for being here today.
    I am going to be keeping it very brief in my opening 
statement just so we can maximize time for questions and 
answers.
    Chief, let me thank you for your leadership during such a 
critical and challenging time for the Army. I don't know of any 
other institution, public or private, that could have handled 
facing multiple warfronts, transformation, growing the 
institution as much as growing the forces has meant to the 
Army--global reposition, that amount of change, given we are 
facing multiple warfronts, it is a real testament to you and 
every soldier that serves under your command, from general 
officers and to privates. And we thank you and everyone you 
represent here by your presence here today.
    It is good to have you both here, and we look forward to 
the testimony and questions and answers.
    At this point I would like to recognize Mr. Wamp our 
ranking member.

                Statement of the Ranking Minority Member

    Mr. Wamp. Thank you, Mr. Chairman.
    General Casey, Secretary--thank you for being here, thank 
you for what you do for every soldier in the United States 
Army. They have taken more casualties, done more, growing 
still, asymetrical, many challenges. You have served us 
incredibly well.
    General Casey, you are a good man. I appreciate our 
relationship. We have had a good one. And it carries forward. I 
know that we can't talk about everything in the budget request 
today, but I am looking forward to hearing as much as we can 
hear today.
    I need to say for the record, Mr. Chairman, that tomorrow 
morning, 8:30, my son graduates from college in Knoxville, 
Tennessee. And there is really bad weather coming tonight, and 
I may have to miss the hearing this afternoon, in order to make 
sure that I am there. If I have to crawl, I am going to be 
there--we will make sure that we have someone in this chair 
this afternoon in the event I am not here. I want to say, for 
the record, early, it is for a good cause--thank you Mr. 
Chairman.
    Mr. Edwards. You bet. Congratulations. Thank you, and I 
congratulate you for putting first things first for your 
family.
    You have been an incredible partner in this entire process. 
I don't think you have ever missed a committee hearing----
    Mr. Wamp. Not yet.
    Mr. Edwards [continuing]. For the entire time serving 
together as partners. I wish you a safe, safe trip.
    General Casey, your full testimony will be submitted, 
without objection, for the record, but I would like to 
recognize you now for any opening comments you care to make.

               Statement of General George W. Casey, Jr.

    General Casey. Thank you very much, Mr. Chairman--Thank you 
for the kind words on the performance of the men and women of 
your Army, but I will tell you, we couldn't do what we have 
done were it not for the support of this committee. And I 
welcome the opportunity to give you an update on what we have 
done over the last year and to talk a little bit about a way 
ahead.
    You may recall from last year's testimony that I said that 
the Army was out of balance, and I have really been saying that 
since the summer of 2007. And by ``out of balance,'' I mean 
that we are so weighed down by our current demands that we 
can't do the things that we know we need to do to sustain this 
all volunteer force for the long haul and restore strategic 
flexibility to do other things.
    In 2007 we put ourselves on a plan to put ourselves back in 
balance by the end of 2011, and it centered on four 
imperatives: sustain our soldiers and families, continue to 
prepare our soldiers for success in the current conflict, reset 
them--when they return, and then continue to transform for our 
uncertain future.
    I would like to just give you an update where we are on the 
six major objectives that will put us back in balance and then 
say a little bit about some programs we have in each of the 
imperatives. First of all, our first objective was to finish 
our directed growth that the President directed in February, 
2007--taking the active Army to 547,000 and increasing the 
Guard and Reserve by 8,000 and 2,000, respectively.
    Originally our plan was to complete that by 2012. With the 
Secretary of Defense's support we moved it to 2010. I can tell 
you that as of today, each of the components of the Army has 
met their end-strength targets, and that is a big lift for us. 
Now, we still have to build units to put about 20,000 of those 
soldiers in, but having completed that growth is very important 
for us.
    Two other aspects to that: First of all, one of the reasons 
it is important is it allows us to begin moving off the stop-
loss this year, and the Secretary of Defense has announced our 
plan to do that, and the Reserves will begin coming off, 
deploying units to that stop-loss in August, the Guard in 
September, and the active force in January of 2010.
    Mr. Edwards. So it means you can't call up Congress----
    General Casey. This is one of our key objectives, because 
all along, as we convert to modular organizations operating on 
a rotation cycle, our goal has been to be able to deploy units 
without stoporders. And so we will meet that goal, I believe, 
by 2011.
    The other thing I know may cause some concern to the 
members of this committee--as part of this budget the secretary 
has announced that we will not build the last three brigade 
combat teams that we were originally scheduled to build.
    Members of the committee should know that there has been no 
final decision on where those brigades will come from, and we 
will address that as part of the ongoing quadrennial defense 
review as part of our overall force mix discussions. And we 
recognize that some of the communities that were expecting to 
receive those units have already made some significant 
investments, and we surely will take that into consideration as 
we finalize our decisions.
    Second key point, and that is to increase the time the 
units spend at home between deployments, and this is critically 
important from three perspectives: One, it gives them time to 
recover; two, it allows them to have a more stable preparation 
period for the next deployment; and three, frankly, it gives 
them even more time to equip and train them so that they are 
properly trained and equipped.
    Originally, I expected with our growth and holding demand 
steady at about 15 brigades. I expected that we would not quite 
get to 1 year out, 2 years back in 2011.
    With the president's drawdown plan, if that is implemented 
as scheduled, we would get to almost 2\1/2\ years back in 2011. 
And that is a very positive thing for us, because if we have to 
increase the time the soldiers spend at home if we are going to 
sustain this for the long haul.
    Third, we are well on track and moving ourselves away from 
Cold War formations and organizations to organizations that are 
far more relevant for the operations that we are conducting 
today. We are 85 percent done with the conversion of the Army 
to modular organizations. That is about 300 brigades that have 
been or will be converted by 2011. We are 85 percent done with 
that.
    We are almost two-thirds of the way through rebalancing our 
force away from Cold War formations, again, to formations more 
relevant in the 21st century. An example--we have stood down 
around 200 tank companies, artillery companies, and 
interdefense companies. And we have stood up an equivalent 
number of engineers, military police, special forces, and civil 
affairs units. It is their units that have been directing that 
today.
    Together, that is the largest organizational transformation 
of the Army since World War II, and it has been done at a 
period where we are deploying 150,000 soldiers over and back 
every year. So it is a significant accomplishment, and we are 
on track to deliver on that.
    Fourth, we are posturing ourselves and we are putting the 
whole Army on a rotational cycle, much like the Navy and the 
Marine Corps have been on for quite a while. This is a big 
change for us.
    Before September 11th we were largely a garrison-based Army 
that lived to train. Now we are rotating on a cycle, and we are 
going to have to sustain this rotation for a long time to 
ensure that we can provide trained and ready units for whatever 
contingencies come up, but also to give soldiers and families a 
predictable and stable deployment level, and we are on our way 
to doing that.
    Fifth, we are about halfway through our basing and 
realignment effort, and I think the committee knows what a 
significant accomplishment this is because when you take 
realignment and closure, and the modular and the growth of the 
Army, that affects about 380,000 soldiers' families and 
civilians--and again, your timely funding of all of those 
accounts has enabled us to keep this on track. All of that is 
very tightly and closely interwoven.
    And lastly of it all, is to restore strategic flexibility, 
and to have units trained for the full range of missions. And 
the longer we have units at home--18 months or more--the more 
they will have time to begin training for other things.
    So I would tell you that we have made good progress toward 
all six of our objectives, but we are not out of the woods yet. 
And I expect the next 12 to 18 months to continue to be tough 
as we actually increase the number of forces we have deployed 
as we shift from Iraq to Afghanistan--
    So that is just an assessment of where we are: good 
progress, but not out of the woods yet.
    A few quick words on each of the imperatives: First of all, 
sustaining soldiers and families. This is the area where the 
military construction budget really, really makes a difference, 
and the support that we get in housing, barracks, child 
development centers, youth service centers, work transitioning 
units, and administrative facilities, is absolutely critical, 
and it sends such a strong signal to the men and women of the 
Army and all the armed forces that the country is concerned 
about their welfare.
    And so this budget gives us what we need from the military 
construction side to continue to put this Army back in balance 
by 2011. We continue our focus on families. In October 2007 we 
issued the Army Family Covenant and we doubled the amount of 
money we put towards family programs. We have sustained that 
investment in the 2010 budget.
    On the prepare side, we have continued to make great 
progress in equipping our soldiers and training them for the 
realities of combat they are going to encounter. I will tell 
you, probably the most significant accomplishment since the 
last time I spoke to you is the fielding of almost 10,000 MRAPS 
in Iraq and Afghanistan.
    And I was in Afghanistan a week or so ago, and got direct 
testimony from the soldiers about the value of it. Sometimes 
they don't like the way they handle off road, but anyone who 
has been blown up with an IED and survived thinks they are 
pretty good. We have got enough there now where we are actually 
beginning to bring some back to the United States for training, 
and that is an important plus.
    On the reset: We have adopted a 6-month reset model, where 
the soldiers come home and they basically stand down for 6 
months and they are manned and equipped at a level that 
begins--starting their training at the end of that period. This 
is part of putting the whole Army on this rotational model, and 
we are making pretty good progress with that.
    Lastly, transforming: We believe that we, as a country, are 
facing an era of what I call persistent conflict: protracted 
confrontation among state, non-state, and individual actors who 
are going to continue to use violence to accomplish their 
political and ideological objectives.
    And we are posturing the Army to deal with that. And I 
believe we are going to have a substantial number of ground 
forces--Army and Marine Corps--deployed for the next decade or 
so. And so we have to set ourselves up to do that.
    And we are building a versatile mix of brigade combat teams 
and enablers that can leverage mobility, protection, 
information, and intelligence in precision buyers to accomplish 
any mission across the spectrum, and we are well on our way to 
being able to do that.
    Let me just wrap up here by saying that the secretary of 
the Army and I have designated this year as the year of the 
non-commissioned officer. Because as we looked around the Army 
it was clear to us that our non-commissioned officers are the 
glue that is holding this force together at a critical time and 
allowing us to accomplish the near-impossible every day. And 
one of the members of this committee is non-commissioned 
officer Bill Young--he is an Army non-commissioned officer--and 
hopefully you can all join us on the 19th of May when we 
recognize all the members of Congress who have been non-
commissioned officers over at Fort Myer.
    To give you an example of a non-commissioned officer that 
we have today, let me just tell you a story about a young 
sergeant who won the Distinguished Service Cross for his 
actions in Baghdad in April of 2007--Staff Sergeant Christopher 
Waiters. He was on a patrol when a Bradley in front of him hit 
an improvised explosive devise and caught fire.
    He suppressed the enemy that was surrounding the site, 
realized there were two men trapped inside that burning 
Bradley, ran across 100 yards from the Stryker, pulled two of 
them out and dragged them back to his Bradley all under fire. 
He realized after he treated them that there was still another 
soldier left on the vehicle.
    He ran back into the burning vehicle, this time while the 
ammunition was cooking off off inside. He found the soldier 
dead.
    Back to his vehicle, picked up a body bag, and went back 
and recovered his fallen comrade and dragged him out of the 
burning vehicle. That is the kind of men and women that you 
have in your armed forces--and that is the kind of non-
commissioned officers that we have in our Army.
    So thanks very much, Mr. Chairman and all of you, and I 
look forward to taking your questions.
    [The prepared statement of George W. Casey, Jr., follows:]

    [GRAPHIC] [TIFF OMITTED] T0526D.002
    
    [GRAPHIC] [TIFF OMITTED] T0526D.003
    
    [GRAPHIC] [TIFF OMITTED] T0526D.004
    
    [GRAPHIC] [TIFF OMITTED] T0526D.005
    
    [GRAPHIC] [TIFF OMITTED] T0526D.006
    
    [GRAPHIC] [TIFF OMITTED] T0526D.007
    
    [GRAPHIC] [TIFF OMITTED] T0526D.008
    
    [GRAPHIC] [TIFF OMITTED] T0526D.009
    
    [GRAPHIC] [TIFF OMITTED] T0526D.010
    
    [GRAPHIC] [TIFF OMITTED] T0526D.011
    
    [GRAPHIC] [TIFF OMITTED] T0526D.012
    
    [GRAPHIC] [TIFF OMITTED] T0526D.013
    
    [GRAPHIC] [TIFF OMITTED] T0526D.014
    
    [GRAPHIC] [TIFF OMITTED] T0526D.015
    
    Mr. Edwards. Thank you, General Casey. And what a 
compelling story of heroism, which is one of the reasons the 
members of this subcommittee are so deeply committed to quality 
of life issue, to see that soldiers and their families are 
treated with the dignity that they have earned and deserve.

                          BRIGADE COMBAT TEAMS

    I may start with the questions, and we will use a 5-minute 
rule here today, as we do, traditionally, in this committee. 
Let me ask your thoughts in terms of how we handle military 
construction for fiscal year 2010, given we have had the 
uncertainties of 45 brigade combat teams that you referenced, 
rather than 48, and then we have the uncertainty of what the 
Army is going to do with the two brigade combat teams in 
Germany, whether they will be left in Germany or not.
    Certainly the last thing we want to do--well, two things we 
don't want to do: We don't want to have troops come back home 
and not have housing for them and quality facilities for them; 
at the same time, we don't want to spend money for housing or 
other facilities that won't be needed. Can you tell me what the 
timing in the QDR is and whether the administration's 2010 
budget is going to somehow take into account the possibility of 
not needing certain facilities that have been projected?
    General Casey. We are very cognizant of the timing of the 
funding, especially for the projects that are on there in 2010. 
What I would ask, Chairman, is that we work with the committee 
here to figure out which one of those budgets need to continue, 
because they are all the requirement on all three of those 
installations for forces that are on the books for later--for 
2011, 2012, and the out years.
    And I believe we can work together to prudently look at 
what is on the books and determine what needs to continue and 
what doesn't. But I would ask that we guard against the notion 
that just because those three brigades may not go to those 
bases, we should take all that money and put it someplace 
else--there are still valid construction requirements on all 
those installations that can be met though projects that are on 
the books. So I just ask to work with you----
    Mr. Edwards. We would like to work with you. If there is 
anything we can do--smart planning, things that have to be 
done, whether or not a combat team moves to an installation or 
not--to start construction on a housing project, for example--
--
    General Casey. I would hope--by the summer--we would have a 
much clearer picture of where we are with regard to the base--
--
    Mr. Edwards. By the end of the summer--and then the time of 
the QDR--when does that QDR----
    General Casey. Yes, yes. It is not due back here until 
February of 2010, but there is a push to get it done by the end 
of the summer so that we can influence the 2011 budget. So, we 
will see where that goes. We need to come to closure on this, 
and we recognize that.
    Mr. Edwards. My second and last question on this first 
round is--Army hospitals. I am very proud of the fact that this 
subcommittee has taken initiative--not the Senate or the 
administration, but this subcommittee has taken the initiative 
to modernize our Army hospital system, our DOD hospital system.
    In the last 10 months we have put in two separate bills 
$2.3 billion for new hospitals. As you know, Riley and Denning 
and Hood have been selected for those three projects for the 
Army. We are looking at making an effort in the supplemental 
appropriation bill and additional funding for more hospital 
modernization.
    My question to you would be, is there still a need out 
there. Certainly Bliss is going to be going immensely, and I 
don't know how a hospital designed for 18,000 soldiers can meet 
all the health care needs of installations two or three times 
that size. I visited Knox, where, you know, they had 400 
soldiers in the middle of the summer, and through the cafeteria 
and then outside to get an MRI because the hospital 
infrastructure is so old it can't even support an MRI.

                               HOSPITALS

    Could you address, generally, is there still a need for 
more modernization of Army hospitals out there?
    General Casey. There is. And I will tell you that the 
committee's efforts in this regard are recognized across the 
Army. And when you look at five hospitals over the last 25 
years, and five in the last 2--speaks volumes to what you have 
been able to do for our soldiers and their families. So we very 
much appreciate that.
    As you mentioned, as we look to the future our priorities 
are Fort Bliss--phase one of that is funding for women and 
child care center, and that is wonderful--but we need to look 
at the long-term replacement for Beaumont medical facility out 
there.
    You also mentioned Hood. There is a phase one program on 
that, and I believe we need to continue that. As you know, that 
is one of our larger bases there that supports quite a large 
number of families.
    Our third priority would be upgrading Landstuhl to allow 
them to accomplish a UCOM, AFRICOM, and Central Command mission 
that they do. We are not looking for the wholesale 
refurbishment of the hospital there, but they perform 
significant mission for those three combatant commands because 
of where they are located in Germany.
    And then lastly, Fort Irwin and Fort Knox would be our 
fourth and fifth priority. Fort Irwin because of its isolated 
location and Fort Knox because of the state of its facility 
that you already mentioned. But, yes, there is still a need 
there.
    Mr. Edwards. Thank you very much.
    Zach.

                         UNFUNDED REQUIREMENTS

    Mr. Wamp. General Casey, I know you can't talk about some 
of the specifics--but is there anything that is a priority for 
you that is not in this request?
    General Casey. Not an immediate priority, Congressman. As I 
said, this 2010 request BRAC military construction what is in 
there for family housing allows us the flexibility to keep our 
plan on track with--obviously anything like barracks, training 
barracks, family housing, is going to get done over time, but 
right now I believe we are funded at an appropriate track.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Wamp. You talked about BRAC--in your opening statement, 
is there anything on BRAC from the Army's perspective that we 
need to know about? We had studies, hearings a month ago where 
our 2011 deadline is going to be met for the most part, but 
there are some sites that are going to slip, somewhat. We found 
that out along the way. But from your perspective, BRAC is on 
track, and the Army has what it needs in terms of the 
realignment?
    General Casey. We do. And the only thing I would ask the 
committee to look at is, we need the 2010 BRAC funding on 
schedule. If we get that on schedule we will meet the target.
    Mr. Wamp. On time.
    General Casey. On time--in October.

                     SUSTAINABLE PERFORMANCE RATIO

    Mr. Wamp. And you talked about predictable performance. 
Catch us up. We had General Petraeus several weeks ago and how 
the Commander in Chief made the decision that he has made 
relative to Iraq and Afghanistan. Catch us up on what you 
foresee where ratios of performance for men and women in the 
United States Army, this year, next year, the year after. I 
know last year you said 3 to 1 is what is sustainable. We are 
nowhere near that. When do we get there? When can we get to a 
more sustainable performance ratio for our troops based on the 
new paradigm in the Obama administration based on the published 
statements that we know or the changes that we have already 
seen?
    General Casey. I alluded to that a bit in my opening 
statement, Congressman, but our original plan was that we would 
sustain about 15 brigade deployed--based on that plan and on 
our growth--we estimated that we would get not quite to 1 year 
out, 2 years back ratio.
    If we execute the President's plan, we will actually, we 
would be about the same in 2009, in terms of ratio--we will 
actually get almost to 2 years back and almost to 2\1/2\ years 
back in 2011. It doesn't quite get us to the 1 to 3 that I 
would like to be at, but it gets us to a more sustainable ratio 
faster than I thought we would. Now, you always think that 
there is something else out there, and we know that other 
combatant commanders have requirements for forces to do things 
that they have not been able to meet because they have been 
deployed in Iraq and Afghanistan.
    So that is where we have work to balance. But right now, 
knock on wood, draw-down plan executed about on schedule--we 
are in a much better position from a ratio--than we would have 
been without it.
    Mr. Wamp. That is it for me.
    Mr. Edwards. Thank you.
    Mr. Farr.

    IMPACT OF DECLINING CONSTRUCTION COSTS ON MILITARY CONSTRUCTION 
                                PROJECTS

    Mr. Farr. Thank you very much, Mr. Chairman.
    Thank you, General Casey, for your lifelong career and 
public service in the military and for your leadership, and 
frankly, for your really well and concise briefing of the 
committee this morning. I wanted to follow up on the chairman's 
question on the FYDP. Is there going to be some slippage of 
construction projects that will be needed in a timely fashion.
    When will we know that, because what we have been able to 
do in the past is move other projects up? And I guess 
intertwined with that is, what is the impact of the economy on 
this as far as the decline in construction? How is that 
affecting the cost of military construction?
    I think it was just last year that you were talking about 
the fact that the prices of materials had just accelerated 
along far greater than the bids and expectations, and I 
wondered, now, is that a reverse now? Are those prices coming 
down? Is it more affordable to do construction now?
    General Casey. If I could ask you to take the second part 
of that question--on the first part. What we would like to be 
able to do is sit down with the committee and look at the 
installations. And that these three brigade combat teams are 
going to go to and identify the projects that need to continue. 
Basically, could be in effect, going forward from the out 
years--still needed to billet soldiers and units at those 
installations. And then probably by the end of summer, I would 
hope, we would be able to come back with a final, a more final 
basing plan. So that we could effect the rest of this. But we 
would like to work with you on that as we go forward.
    Mr. Farr. When do you think we will know that? I mean, 
before our final markup?
    General Casey. When do you plan to mark?
    Mr. Edwards. Well, we don't know for sure, but our goal, 
for the reasons you have mentioned in terms of the importance 
of timing, our goal is to definitely have a bill to the 
president by the first of October. So we will do markup 
possibly some time this month. Do we have a date set up? Okay, 
more likely, then, June, for markup, but we will still have 
time in conference committee to adjust that as late as, 
potentially, September.
    General Casey. I would think that by September we should be 
able to have a more concise laydown of where we are going to go 
with this. I believe that we can work together to do the right 
thing for the--and the installations--and the soldiers so those 
places are not at a disadvantage.

              JOINT DOD-VA CLINIC IN MONTEREY, CALIFORNIA

    Mr. Farr. We believe so strongly in the quality of life and 
talk about it in this committee. We have probably 6,000 or 
7,000 uniformed people on the Monterey Peninsula who are either 
going to DLI or to the Naval Postgraduate School. And we have 
been trying to develop a joint clinic with the Veterans 
Administration and DOD. I would really appreciate it if you 
could put in a good word--this clinic is really cost effective. 
The Army is doing a cost analysis right now. The VA is going to 
build it, and I would really love to see it as a joint clinic. 
But there are questions of whether you are going to do this 
jointly.
    It makes a lot of sense to be built right in the footprint 
of where the Army community is, where the military community 
is, and it really is part of providing full service to the 
families of the soldiers there.
    General Casey. I know that we have been looking at it. I 
know there was a team out there in April--working with the V.A. 
I am told that by June we should be able to take this to the 
next level.
    Mr. Farr. Okay. Thank you. By June?
    General Casey. By June, that is what I am told.
    Mr. Farr. Maybe you can put in a good word and move it up a 
little. Thank you.
    I have some other questions regarding DLI, and Naval post-
graduate school, but I will put those in the next round.
    Mr. Edwards. Thank you.
    Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    General Casey, first of all I want to say how glad I was to 
see you in Germany--and had a nice visit, and that was very 
nice.
    General Casey. Were you on the broken plane?
    Mr. Carter. I was on the broken plane. We appreciate the 
visit we had.
    We thank you for what you do. You do a great job.
    I think this is part of what they are saying, I couldn't 
hear what people were saying on this and, so I guess I am 
getting old.

                        ARMY FUNDING PRIORITIES

    The--expenditures we are talking about--BRAC implementation 
grow the Army, and FCS--I couldn't hear what you were saying. 
You were talking about prioritization of those sometime in the 
fall, so we can get some idea of how the Army will prioritize 
these major programs?
    General Casey. I would tell you, Congressman--BRAC is the 
law, so we are going to do that before we do anything else. But 
I would tell you, the BRAC, the new posturing, the growth of 
the Army, and the modular conversions are all so tightly 
intertwined and on such a tight schedule of units deploying 
over and back that it is really hard to prioritize beyond that. 
And we are really at the point now where we are executing, and 
any change to the priority or inside of that model has second-
and third-order effects; it just will drive us crazy. So we are 
in execution mode right now, and all of this is so closely tied 
together, and we can deliver on the schedule that we are 
looking for here, getting BRAC done by 2011.

                      ARMY POLICY ON PROSELYTIZING

    Mr. Carter. Well, I appreciate that answer. I guess they 
are all priorities, is what you are saying, and that tells us 
where we have to go. And I appreciate that. I am going to have 
to recognize the quality of life issue that came up today in 
conversation in a meeting I had. About the fact that the United 
States Army seized a bunch of bibles--in Afghanistan and 
destroyed them. Can you tell me the Army's policy on destroying 
religious works of all faiths?
    General Casey. I am not familiar with the event. Our policy 
in the Army is certainly not to destroy bibles. The issue----
    Mr. Carter. Actually--I raise the issue with a soldier who 
shipped bibles to Afghanistan--he brought them to a bible 
study--printed in the Afghan language--they were seized and 
shredded and burned, I understand. So I was wondering if there 
is a policy to destroy religious works if they are being used 
for proselytizing?
    General Casey. I would absolutely check on that.
    Mr. Carter. We need to be fair across the board with all 
religious documents. I do have a problem with destruction of 
these bibles.
    General Casey. I will look into it and get back to you----
    Mr. Edwards. Is that all--okay.
    Mr. Salazar.

                              AFGHANISTAN

    Mr. Salazar. Thank you, Mr. Chairman.
    And General Casey, thank you so much for your service to 
our country. I think you and I have visited a little bit about, 
you know, what your thoughts are on the stay in Afghanistan, 
how long it has going to be, or what your thoughts are on that.
    Do you see us building permanent medical facilities in 
Afghanistan over the next few years? And also, if you could 
also address, during this transition time do we have adequate 
medical facilities to treat our soldiers--warriors?
    General Casey. I don't see us building any permanent 
facilities in Afghanistan. I believe we may upgrade some of the 
medical facilities that are there now to a more durable 
commission. But our policy is not to build any permanent 
facilities.
    With regard to your other question--is there adequate 
medical support there--I believe there is, and I believe with 
the addition of the additional troops there will be sufficient 
medical assets that come in with them to make sure that all 
soldiers in Afghanistan have adequate medical support.
    You should know that we have been working on issue on 
Medivac and whether or not the same--there was a similar 
standard in Afghanistan to Iraq and what the ongoing combat--
brigade--there are additional medical evacuation helicopters 
with that unit that will help us to get the ratios--and so, we 
the services, pride themselves in their battlefield medical 
care. And 90 percent of the men and women who make it to a 
medical facility survive their injuries. And it is major 
improvement, and it is absolutely critical to sustain this 
force over the long haul. And so I am confident that we will 
have the appropriate medical facilities there for all of the 
forces that go in.
    Mr. Salazar. And, sir, do you think we are doing an 
adequate job of transition of our soldiers here and training 
them properly to go to the new front of Afghanistan? I mean, it 
is a kind of different warfare than it was in Iraq, so----
    General Casey. I do. In fact, I was at the joint-readiness 
training center less than a month ago looking at one of the 
units that had been remissioned from Iraq to Afghanistan. And I 
just visited in Afghanistan the 3rd brigade of the 10th 
mountain, who was the first unit to be remissioned from Iraq to 
Afghanistan, and they were already there. And we were able to 
adapt their training plan after they had been through their 
major training exercise, to give them the skills they needed. 
And the leaders that I have talked to have felt that they have 
had the skills to succeed in Afghanistan.
    The environments are different, but the ways of operating 
and the tactics are quite similar. And the other thing that 
helped the 3rd brigade of the 10th mountain was that a third of 
the folks had been there before. And so they understood the 
environment. We continually adapt our training at our training 
centers to ensure that they stay relevant to the environment 
the soldiers are going to. I am confident that our soldiers are 
getting the training that they need.
    Mr. Salazar. Well, we appreciate that very much. And also, 
I just want to commend you on the importance of our soldiers 
being able to stay home for a certain period of time before 
they are redeployed, and I do appreciate that very much. I know 
it is really important to many of our troops.
    Once again, thank you very much, and I yield back.
    Mr. Edwards. Thank you, Mr. Salazar.
    Mr. Crenshaw.

                          JOINT CARGO AIRCRAFT

    Mr. Crenshaw. Thank you, Mr. Chairman. General, thank you 
for your service. It is awkward since you don't have the 
numbers for the--this year's budget. It is a little 
disappointing--we are going to hear from the Navy this 
afternoon too without having budget numbers.
    I know you can't talk specifically about things, but I want 
to ask you--there is a program called the Joint Cargo 
Aircraft--and it is about a $3 billion program. There are a lot 
of rumors flying around that it is only going to be funded at 
maybe half the level--half as many airplanes as originally 
talked about. And it is a joint program between the Army and 
the Air Force, and the Army, it is probably more important, and 
I think the Air Force is going to be in charge, and the rumor 
is that the Army should be in charge--that you have to have as 
many planes under the supervision of the Air Force. But, can 
you tell us, how, in your view, what requirements, what needs 
that the Joint Cargo Aircraft (JCA) fill.
    General Casey. I can't, and you are right, I can't confirm 
or deny the rumors. The requirement was designed to fill what 
we call the last tactical mile. The ability to get into a 
smaller airfield than a C-130 with supplies to resupply our 
brigades. That requirement for the Army still exists. I will 
tell you my personal view, and it is one I have shared with the 
chief of staff of the Air Force, is that I don't, the Army, I 
don't necessarily need to fly those missions; I just need to 
have the service. And so there has been the discussion, really 
for the last 18 months or so between us and the Air Force about 
what is the best way to do this. And we have not resolved that, 
but we are continuing toward that.
    Mr. Crenshaw. We would, I guess, in Afghanistan, it would 
be, in places like that, really important----
    General Casey. Absolutely.
    Mr. Crenshaw. The helicopters--they don't do it as well--
there is so much demand----
    General Casey. We are spending about $8 million a month to 
contract with that type of aircraft support in Afghanistan. And 
so, again, the requirements exist.
    Mr. Crenshaw. So nothing is really--nothing has changed in 
terms of your requirements and needs.
    General Casey. That is correct.

                          ARMY NATIONAL GUARD

    Mr. Crenshaw. Thank you. A quick question about the 
National Guard. Actually, about how important they are to the 
Army's all-volunteer force. And their undertaking a lot of 
missions that we didn't ever imagine them undergoing. It is an 
incredible job. And also I can tell you, from states like 
Florida, they have a lot of work that they need to take care of 
back home, in terms of disaster relief, hurricanes. I don't 
think we would have recovered from the hurricanes we had had it 
not been for the National Guard.
    Can you tell us--we talked about the equiping levels for 
the National Guard--to about 60 percent. Has any progress been 
made? And what would you say the equipment level is today?
    General Casey. Progress has been made, Congressman. And I 
would just tell you that we could not do what we are doing 
today without the contribution of our Guard and reserves. And 
there are, I believe the average is between 60 and 70,000 
Guardsmen and reservists mobilized over the last year. And it 
has been that way for several years--45 percent of our Guard 
and reserve are combat veterans. That is a fundamental 
equivalent. And we are working closely with the Guard, 
particulary, on their equipment. We have developed a program of 
identifying what we call ``dual-use equipment.'' And that is 
equipment that we need to work on mission, but also used for 
state needs. And that has been our priority. And I want to say 
we are about 80 percent--so we have got to about 80 percent of 
the dual-use equipment average across all of the states. We are 
headed toward at least 90 percent, and we believe when we get 
there, that combined with something that we are trying to do--
and this is really hard--but we are trying to array the Guard 
units on the rotation chart in a way that leaves a sufficient 
proportion of soldiers in every state in the event of state 
emergencies.
    And that is a Rubix Cube. So I commit to working on that. 
It is not going to be 100 percent. But those two things, I 
think, combined, are going to give the governors the support 
they need to do missions while we continue to employ the Guard 
overseas.
    Mr. Crenshaw. Thank you very much.
    Thank you, Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Bishop.

                              AFGHANISTAN

    Mr. Bishop. Thank you very much.
    Welcome, again, General. I would like to follow up on Mr. 
Crenshaw's inquiry regarding the C-27, the Army and the Air 
Force.
    You mentioned $8 million a month for contractors. Is that 
adequate in order to provide a timely supply for our troops, 
particularly in Afghanistan?
    General Casey. Our troops are getting the supplies that 
they need.
    Mr. Bishop. At the additional expense?
    General Casey. At additional expense. And frankly, we are 
doing a lot of it with our CH-47 helicopters. And so, any kind 
of fixed-wing support takes the load off of our helicopters. 
Now with the new aviation brigade going into Afghanistan, there 
will be more of those available, as well.
    I am not concerned with an immediate problem of improving 
support to our troops in Afghanistan. They are getting the 
support that they need, and that is a good thing.
    Mr. Bishop. All right. We will visit at another time.

                      BASE REALIGNMENT AND CLOSURE

    Back to BRAC. In your testimony you describe in detail how 
important BRAC is to the effectiveness of the Army for the 
future, and I agree with you. But I am concerned that the 
Department of the Army has somewhat ignored and underfunded 
some of the major infrastructure needs, particularly school 
construction for communities, that are upticked as a result of 
BRAC.
    This has grown repeatedly urgent as the time comes and as 
our troops are beginning to move and their families are 
beginning to move. Yet we still seem to be in a logjam with the 
Department of Defense and what they are doing to help these 
communities with school constructions. Can you tell me whether 
the department really feels that it is its responsibility or is 
it being passed off to somebody else? Because it would seem 
that there is a moral responsibility on our part and on the 
department's part to help these local communities.
    General Casey. Well, we don't have a direct role in--all of 
these installations that are affected by BRAC--what I have is a 
very good joint effort between the base and the community in 
terms of identifying numbers of children coming in and out.
    Mr. Bishop. Right. But the amount of Impact Aid is 
minuscule compared to what the community needs are, and that is 
the point. The Education Subcommittee controls Impact Aid; 
Defense and MILCON deal with the other parts of the logistics.
    Somehow we must break that logjam. I think this 
subcommittee, along with Defense, is really working on it, but 
I just want to keep it on the table.
    Let me move to another----
    General Casey. And are very supportive of that, because 
educating our children is a critical element in terms of 
sustaining this force.
    Mr. Bishop. That is quality of life, and it relates to a 
lot of the other issues--suicide and mental health for child 
dependents of our military.

                               HOSPITALS

    The other matter I want to touch upon is the recently 
funded rebuilding of Martin Army Community Hospital, which is 
one of the oldest in the Army's ongoing inventory. There is a 
large veterans population in that area, and Mr. Farr mentioned 
the co-location of DoD and V.A. facilities.
    We have been in discussions with V.A. as well as with the 
Army about the possibility of expanding the mission of Martin 
Army to be a co-located hospital for the DoD, the Fort Benning 
community for active duty and retired and families, as well as 
for V.A. Can I get you to put in a good word for that, also?
    General Casey. As a result of the war transition effort, we 
work very closely with all of our hospitals in the Veterans 
Administration. I am not particularly familiar with the 
relationship at Fort Benning, but I will put in a good word for 
that.
    Mr. Bishop. We have talked with the military medical folks 
and the V.A. medical folks about it. They all seem to consider 
it an idea worth exploring. An inquiry by you as chief of staff 
of the Army would be helpful, and certainly a good word, sir.
    Mr. Edwards. Thank you.
    Mr. Dicks.
    Mr. Dicks. Thank you, General. I am sorry I missed your 
opening statement.
    First of all, I wanted to say that we appreciate very much 
the funding for the Warriors in Transition Complex at Fort 
Lewis.
    I guess it is in the supplemental, right Mr. Chairman?
    Mr. Edwards. That is correct.
    Mr. Dicks. In the supplemental. And, you know, we have the 
same problem out at Fort Lewis that Congressman Bishop is 
talking about. We have a growing force; we have schools that 
were built by, I think, the military. I think we have the 
Office of Economic Adjustment coming out there.
    These schools now are 50 or 60 years old, and they need to 
be repaired, or they need to be fixed or replaced. So I think 
this is a bigger issue than can be handled by Impact Aid in the 
defense budget, which is about, what is it--$15 million. That 
is not anywhere near adequate to take care of the problem.
    So I am concerned that we have to focus on this. You know, 
whether we have to go into authorization or how we have to do 
this, but we are getting to a point where these schools are no 
longer adequate, and these are the schools that the Soldiers' 
children are going to.
    And there have been issues about ownership, that some of 
them are owned by the Department of Education and some of them 
are owned by the local school district. The bottom line is, 
this is now becoming a problem that I think deserves your 
attention. So I want to weigh in with this, because it is a big 
problem at Fort Lewis.
    The other thing I just wanted to mention, something I have 
been interested in over the years, is the George and Carol 
Olmsted Foundation. Are you aware of this? Olmsted. O-L-M-S-T-
E-D.
    As of 2008, the foundation has a goal of selecting 10 
officers each from the Army, Navy, and Air Force and five from 
the Marine Corps. I think they selected a smaller group. But I 
would just mention some things about the Olmsted scholars. 
Abizaid was an Olmsted scholar.
    They learn a foreign language fluently, experience a 
foreign culture in depth--they spend a year in the country--
study formal subjects broadly, earn a master's degree 
routinely, travel a foreign country and region extensively, 
meet foreign citizens continually, and understand fully how 
others view the United States, and prepare thoroughly to be 
effective as future leaders, Abizaid being an example. What do 
you think of this program?
    General Casey. I think it is a great program. I think it is 
one of a number of programs that we are actively seeking to put 
our junior officers in. Because as we look at the complexities 
of the security environment that we are facing now, and we are 
sure to continue to face in the future, we need leaders that 
aren't just competent in their core proficiencies, but are 
broad enough to do a range of things. And everything you 
mentioned that those fellows do, it speaks of a broad vision. 
And that is exactly the type of officer that we are trying to 
create.
    Mr. Dicks. Is the foundation completely supported by the 
family foundation, or does the government put some money into 
this?
    General Casey. I don't know the answer to that. I can find 
out.
    Mr. Dicks. It just seems to me this is a worthy program. 
This might be something that would benefit from some federal 
support--and no one has ever asked me to even consider this--
but, I think this is a great program. I think for a small 
investment we might be able to ensure this opportunity is 
available even if the value of the foundation declines because 
of the economic circumstances. It might be something that we 
can help from the Government's perspective. But you take a look 
at that.
    What about future combat system? You have been a huge 
supporter of it. You know, the Secretary of Defense has made 
certain statements. What can you tell us about where we are 
with this program?
    General Casey. I can't tell you more than the secretary has 
said publicly until you get the budget. But he has directed us 
to continue with what we call the spin outs. Basically, 
continue with the network and anything in the program except 
for the manned ground vehicle--and he has directed us to stop 
the manned ground vehicle and relook the requirement and then 
restart it. And so that is what we are doing. As you can see 
from his statements, he was not convinced that we had fully 
taken into account the lessons of 7 years at war in building 
the manned ground vehicle.
    Again, he supports every other element of the program but 
that. And so that is the direction that we will proceed. And we 
are on a track to redo that requirement, starting from a blank 
piece of paper--not completely blank--because we have leveraged 
significant technological insights from the program. And we 
know what the safe technology with respect to any kind of 
ground vehicle technology. So we will build on that, and we 
will develop a requirement by the end of this year and put it 
out for contract. Meanwhile, we will continue with the rest of 
the program. We feel the rest of the program will affect all of 
our brigade combat teams, which I think was one of the major 
sticking points when we started in this program. We intended to 
spend an awful lot of money for fewer than 15 brigade combat 
teams. And as we looked at that ourselves, that didn't appear 
to be the right way to go. So now we are affecting every 
brigade combat team in the Army with the technologies that have 
come out of this program. So we have got an awful lot of good 
out of this. We will get a ground combat vehicle from the 
program with the restart.
    Mr. Dicks. Thank you.

                       DRAWDOWN OF TROOPS IN IRAQ

    Mr. Edwards. Thank you, Mr. Dicks.
    We will now begin the second round.
    General Casey, let me ask about the present timing of the 
drawdown of soldiers from Iraq. I assume that was not built in 
the fiscal year 2009 budget request, because the new president 
still was not in office and had not put in place the policy 
that we have.
    Did the fiscal year 2010 budget assume the present drawdown 
rates of our troops in Iraq, mitigated by the buildup in 
Afghanistan, in terms of troop housing and barracks? 
Fundamentally, what I want to get to is this: Are we are going 
to have troops coming back from Iraq that don't have barracks 
to live in and adequate housing?
    General Casey. No, let me explain. First of all, the 
assumptions in the 2010 OCO take into account the--levels of 
the drawdown. I am pretty sure of that. We are actually 
getting, this week, from General Odierno, the specifics of, and 
we will then take that back and put it against our construction 
plans and to do exactly what you say. I can't tell you 100 
percent that we are there yet because we are just getting the 
specifics of the details.
    Mr. Edwards. By the way, for the record, one of the reasons 
sometimes we have these so-called commercial earmarks is, 
military conditions change from the time the administration 
budget is put together and our commanders on the ground support 
the need for adjusted budgets, but because it wasn't in the 
formal annual administration budget request it is defined as an 
``earmark,'' and some of the citizens against government waste 
groups then accuse Congress of adding unneeded projects. So, I 
couldn't pass up that opportunity to get that into the record.

                               IMPACT AID

    On Impact Aid, let me just follow up on what Mr. Bishop 
said and Mr. Dicks said, because I know Judge Carter has faced 
the same situation at Fort Hood as I did when I had the 
privilege of representing Fort Hood. We have been kicking this 
can around, and nothing has really happened as a result.
    I remember at Fort Hood, for example, the cities of Killeen 
and Copperas Cove literally were at the state maximum tax rate 
allowed by state law. They couldn't increase the tax rate 
anymore, and so while Impact Aid provides funding once the 
students are in school and buy Part A, Part B reimbursement, 
there is not part of Impact Aid that has any significant 
funding for construction.
    And perhaps we need to work with the Department of Health 
and Human Services, or the Health and Human Services 
Appropriations Committee to figure a way through this, because 
while it is not under our jurisdiction, it certainly, as you 
have referenced, it certainly impacts the morale of Army 
families. They come back home from their third tour of duty in 
Iraq and their kids are having to sit in a classroom of 45 
students rather than 25 students because there just wasn't the 
local construction budget.
    So I hope we can work through this. I think there has been 
a lot of talk about this over the last couple of years. I think 
the problems are real; I have just not seen any solutions yet, 
and your leadership would help there.
    Finally--I will wait until the third round, if we get to 
that, because there is not enough time. My question in the 
third round would just be to get your general analysis, having 
commanded both the national forces in Iraq, 2004 to 2007, what 
is your overall analysis is of where we are in Afghanistan and 
Pakistan. But I will defer that to the third round.
    Mr. Wamp.

                         UNSOLICITED ASSISTANCE

    Mr. Wamp. In January when I visited General Chiarelli--your 
lovely wife, General Casey, and others, where we discussed the 
statutory impediments to outside groups, nonprofits, and 
businesses, in our country that want to help both wounded 
warriers and military families. And it was actually said as we 
were talking about ways for our free enterprise system, besides 
the employers of the Guard or reservists, that very much want 
to help our military families, knowing that this is an ongoing 
struggle with unsustainable rotations in deployment. And they 
want to help.
    Apparently, there are still some impediments in the 
statute. And I was wondering if this is the year for us to try 
to include language or even a new free-standing bill that would 
actually break down some of those barriers so that outside 
entities can support our military if they want to. Now, we have 
asked the Army to give us some language, and we have looked at 
it. But there is still concern, I think, about sole source 
contracting, and things that they are afraid it might violate. 
And so, Public Law 109-148 in DoD 5500 7-R--enables injured and 
ill service members and their family members to receive 
unsolicited gifts from nonfederal entities.
    We know this is law and no one argues this, but apparently 
it is not enough. And that is what I want to try to get through 
here. So we want to know what else the Congress can do to 
remove these barriers to enable support. And then ask you, 
General Casey, if you are able, when things are provided, to 
provide logistics or transportation, lets say, if somebody 
gives Little Debbie snack cakes. I don't know, that is what my 
district does. But are you then able to support the transfer of 
these goods to our military families or to our wounded 
warriers.
    Those are two groups that I know from listening that a lot 
of people want to help. But apparently there are some 
impediments in the law. And are we at a point yet of knowing 
exactly how we can take that down. I know that the language 
that you provided basically gives the authority to the 
secretary to allow these things----
    General Casey. You are exactly right. And I would like to 
work with you to figure out what we need to do to change it. 
Because I get this all the time, traveling all around the 
country. Folks want to help. And we tie ourselves in knots 
because of the laws that you refer to.
    I would like to work with you personally to break these 
barriers down. Because we have been doing this 7 years, and we 
ought to be able to figure it out.
    Mr. Wamp. And I still think the biggest issue is solicited 
versus nonsolicited. I mean you can't go out ethically and ask 
for a bunch of stuff. But if comes unsolicited, I mean, that is 
where there is just a pent-up demand of assistance. And I know 
that we can take more help. And when I go out and meet the 
military families, there are a whole lot of needs that a lot of 
people could fill without us having to appropriate the money. 
And I sure would like to help close this. Mr. Secretary, do you 
have a comment on this?
    Voice. We will take it back and work on it. The appearance 
of conflict issue--we haven't crossed----
    General Casey. Let's do this. It will take us--we have been 
playing with this for too long.
    Mr. Wamp. Let's try to do it this year. We have the same 
problem here. The pendulum swings back and forth. So long as 
there is transparency. It is ridiculous that we can't go to 
lunch with certain people, but that is the way it is. The 
pendulum swings back and forth. Let's try to find some logical 
middle ground. And then write some language that allows these 
outside groups to contribute to these unbelievable Americans 
and their families. Which is the main thing we are all about is 
the families. You have got the troops under your command, we 
are supposed to support these families. This is one way to do 
it.
    Okay. We will work together. Thank you.
    Mr. Edwards. Thank you, Mr. Wamp. Good idea.
    Mr. Farr.
    Mr. Farr. Yes, just to follow up on that. I hope you will 
look into donations, for example, like books for schools, if 
there is space available on aircraft.
    We really had a hard time getting some books to schools in 
the Peace Corps. Sometimes the military could take it and other 
times it couldn't. I would appreciate it if you looked into 
that.

                           LANGUAGE TRAINING

    We have had some interesting hearings. We had General 
Abizaid here a few years ago, and he said something really 
profound that I think you would agree with. He told the 
committee that we can not win the peace until we learn to cross 
the cultural divide.
    And there is a lot of, ``Now, interesting, but how do we 
cross the culture divide?'' One is by understanding the 
languages and the country.
    General Patraeus was here a couple weeks ago and saying the 
same thing. There is this whole of government effort to build 
the civilian reconstruction and stabilization corps, and corps 
competency.
    The military and the Army, for a long time, has had foreign 
area officers, FAOs. The Naval Postgraduate School in Monterey 
has a center for FAOs. Do you know where you are training Army 
FAOs and is there any possibility that you could look into 
sending more of those folks to the Naval Postgraduate School? 
With the Defense Language Institute also located in Monterey, 
albeit with different missions--the Defense Language school is 
for basic language training, whereas the Naval Postgraduate 
School is post-graduate education.
    We also have a Center for Stabilization and Reconstruction 
Studies there so it seems to me, that we need to get them all 
integrated and what we need is the Mos. I wonder if you have 
any thoughts on, do you know where the FAOs are trained now by 
the Army?
    General Casey. Well, as a former FAO, I can speak from 
personal experience. I was originally, actually, scheduled to 
go to BLI for Japanese language training right out of grad 
school. And about half way through grad school I get changed to 
go to Yokohama, at the foreign service institute there, to 
study the Japanese language there. I didn't wind up going, but 
that is the kind of the things that we do. I will get back to 
you with exactly where we train our candidates for language 
training, but I think we try to----
    Mr. Farr. It is not just language training. It is the area 
studies as well.
    General Casey. For example, in my area of studies, I went 
to--and I would prefer to do that because of the exposure that 
it gives to things outside the military. And, I know we 
graduate students at a lot of different schools.
    Mr. Farr. The Navy school has been curious to why the Army 
hasn't sent more students.
    General Casey. We actually, special forces has a program 
where they send special forces out there----
    Mr. Farr. The other issue, I was briefed on earlier in this 
year by the Army civilian leadership is that in the out-year 
projections for the DLI starting in 2011 and 2012, there is 
going to be a student enrollment decline. I can't imagine why 
there would be declining enrollment in a time when we need 
these languages more than ever. And to grow the Army, I think 
this is part of your ad,----
    General Casey. My staff passed that on, and I checked it, 
and there is no----
    Mr. Farr. It is a rumor?
    General Casey. I would categorize it as a rumor. Again, I 
checked the data and was told that they are not expecting to be 
in decline.
    Mr. Farr. I would hope that we would be growing linguists. 
How do you feel about this contracting out for linguists. This 
is becoming very controversial.
    General Casey. Right now, I don't think we have any choice; 
I guess we build up our pool of people who have the critical 
attributes. One of the interesting programs that we have just 
started here is being able to enlist with us soldiers, people 
who are green card holders, who have critical language skills 
in the critical areas. And bring them, and allow them to come 
in immediately for citizenship. And I just enlisted about a 
dozen of those folks up in Times Square in New York about a 
month ago. These are folks that have, out of a dozen, there 
were four masters and eight baccalaureate degrees. And they all 
spoke at least two languages. So it is a good deal.
    Mr. Farr. Good. Congratulations. I appreciate that.
    Mr. Edwards. Thank you, Mr. Farr.
    Members, just to clarify the order of questioning on round 
two, we will go to Mr. Crenshaw next, then Mr. Dicks, then 
Judge Carter, and then Mr. Bishop.
    Mr. Crenshaw.
    Mr. Crenshaw. I have nothing to add.
    Mr. Edwards. Mr. Dicks.
    Mr. Dicks. Why don't we go to Mr. Bishop? I think he was 
ahead of me.
    Mr. Edwards. Okay. In round two we base it on what order 
you appear, but if you----
    Mr. Dicks. I would yield to him.
    Mr. Edwards. Mr. Bishop.
    Mr. Dicks. He had a grimace that I was worried about. 
[Laughter.]
    Mr. Edwards. Mr. Bishop.

      EVACUATION TIME FOR WOUNDED SOLDIERS IN AFGHANISTAN VS. IRAQ

    Mr. Bishop. I was unaware of the grimace. But thank you, 
Mr. Dicks, for yielding.
    General Casey, I would like to ask you to discuss for a 
moment the medical evacuation pertaining to our wounded 
warriors in Afghanistan as compared to Iraq. For some time now, 
we have been aware of the fact that, because of the terrain and 
the district's requirements in Afghanistan, the evacuation time 
to get wounded warriors to the hospital is significantly longer 
in Afghanistan than in Iraq.
    We were informed that steps were undertaken to shorten that 
timeframe. Could you update us on where we stand on that now? 
How will that be impacted by the additional flow of troops?
    General Casey. This is something that the secretary of the 
Army actually picked up on, oh, 5, 6 months ago. And, frankly, 
there were not enough helicopters in Afghanistan to allow them 
to meet the standards. But having done this in Iraq, it is just 
a function of helicopters. It is where you position your 
surgical teams, and it is how you risk assess every mission.
    And so with the deployment of the second combat aviation 
brigade into Afghanistan, the resources that they need to bring 
the time from pickup to the level one station will come down. 
So we will be in much better balance.
    Mr. Bishop. You have had to utilize, for the Army and the 
Marine Corps, call service like Air Force medevac units. Is 
that not so?
    General Casey. Sure. We want to use all of the capabilities 
that are available to us.
    Mr. Bishop. That will deplete the capacity for those 
particular units to perform their Air Force missions, would it 
not? Do we need to concentrate more on that? Do we have enough 
personnel? Do we need more people to specialize in that in the 
Army, or do you think that the joint supply is okay? The Air 
Force is now beginning to be stretched also, with regard to the 
deployments of medevac units, which takes them away from some 
of the other missions that they have been working on.
    General Casey. I can't speak for the Air Force, but I--two 
months ago directed a study of--basically it was a relook of 
the whole Army aviation package, based on the lessons that we 
have learned in the last 5 years. We did one in 2003. And that 
was pretty good. But boy, as you suggest, we have learned an 
awful lot over the last 5 years, and so I thought we needed to 
take a look at it and update it, and medical evacuations by 
helicopters is one of the elements.
    Mr. Bishop. Thank you, sir.
    Mr. Edwards. Thank you, Mr. Bishop.
    Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    General Casey, back to what Mr. Crenshaw was talking about 
a minute ago. We have just come back from a dialogue with the 
EU, and it proves that we are still the sole military aircraft 
for manned troops for NATO and the EU, many of which have a 
large portion of that duty, but doesn't the United States 
military provide that service for our allies?
    General Casey. I can't speak to whether we do it for all 
the allies. I know we do it for some allies. That is why I 
couldn't speak to the scope of what you were addressing.

                    MILITARY HOME SALES AND BENEFITS

    Mr. Carter. But there is a conversation in the EU about 
whether or not they should start buying those kinds of 
airplanes.
    Another thing, I met with some folks on Saturday night, and 
they were talking about home ownership among our soldiers--and 
the fact that they are being transferred. We recently put 
together a mortgage package that was passed through this 
Congress,--and it is my understanding that language in the 
package--restricts our soldiers from qualifying to get the 
$8,000 new house benefit because they lived in the old house 
less than 3 years.
    They are being transferred because of BRAC and other 
reasons. They bought a house less than three years ago and are 
having a hard time disposing of that house. Then they move to 
the new base and they are not getting the benefits of the 
mortgage package that we in Congress put together. I was 
wondering if you had heard of anything about the saleability of 
their homes, and if they could take advantage of some of the 
benefits we put forward in our most recent mortgage package or 
their inability to utilize those benefits?
    General Casey. I have not heard that specific problem. I 
have heard of folks having challenges, particularly with that 
July 2006 date, where you had to buy your house prior to that--
--
    Mr. Carter. The fact that you have to have bought the house 
before that. That is a real issue because an awful lot of them 
bought after then, and yet they are required to move and sell 
and get back into the market.
    General Casey. Yes. I have heard that. I know that we are 
working on the implementation instructions in the Army Corps of 
Engineers, there is the executive agent for the department, and 
I think we expect to have those things out shortly.
    Mr. Carter. You think that should be something we should 
address, maybe try to amend what we did?
    General Casey. Let me get you the particulars so that we 
don't launch on something here that is maybe taken care of in 
the instructions.
    Mr. Carter. Okay. Very good. Thank you.
    Mr. Edwards. Mr. Carter, any questions? Okay.
    Now the very sensitive and emphatic Mr. Dicks is 
recognized.
    Mr. Dicks. Thank you. Thank you.
    General, on page two of your statement you go though a 
discussion of the situation we are facing with failing states 
and terrorism, and we know that our forces are being trained 
for counterinsurgency, basically. What isn't being done? I 
mean, when you talk about readiness to fight a major 
conventional war, do we have any unit in the Army that is 
training to do that, or is everybody training for 
counterinsurgency?
    General Casey. No. The majority of folks are working on 
counterinsurgency. But, in Korea, I visited the----
    Mr. Dicks. Yes. Of course.
    General Casey [continuing]. Standard North Korean scenario, 
conventional scenario. I visited them up in December and saw 
their after action revue. Recently, General Sharp conducted at 
one of his major annual exercises, the 3rd Corps from Fort 
Hood, went over there and played the counter-attacking corps. 
And so we are taking the opportunities when we can to keep 
those high-end conventional skills trained.
    Mr. Dicks. But it is pretty minimal, at this juncture----
    General Casey. Absolutely.
    Mr. Dicks. I mean, of these 45 brigades, how many of them 
have trained for full spectrum warfare, or conventional 
warfare?
    General Casey. By--first of all, at low levels, company 
platoon and below, combat is pretty much combat, and so, we 
have a combat-seasoned force. And boy, there is great, great 
value in that. Where you get into the significant differences 
is at battalion level, lieutenant colonel level, colonel level 
and above. Where in counterinsurgency operations things play 
out very slowly, and you have to figure out trends over time 
rather than making snap decisions against an ememy formation 
that is attacking you. And you mass your fires very precisely 
against individual targets, where in conventional war you mass 
them against enemies and enemy formation. Those are the high-
end integration skills that we are not training.
    Mr. Dicks. Things like artillery, I think, would that be 
part of----
    General Casey. Artillery integration is a great example of 
that. And so as we get more time at home, what I have told the 
Army is that if you are home for 18 months or less stay focused 
on the regular warfare. If you are home for 18 months or more, 
take some time to rekindle your conventional warfighting 
skills. But to do it in simulation because we have very good 
simulation--do it in a way that doesn't drag the troops back 
out to the field, unnecessarily.
    And so, we will, as we expand our time at home, we will 
gradually rekindle those skills. But it will be faster, because 
this is combat-seasoned force.
    Mr. Dicks. I have no further questions, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Dicks.
    Members, I think we have time for one more round. I still 
want to ask about Afghanistan-Pakistan, but something Mr. Wamp 
was talking about, citizens who want to help, prompted me to 
think about something I have wondered about for some time now, 
and I am not sure of the answer. Is there any federal program, 
or DOD program that ensures college tuition for the children of 
the troops killed in combat or in service of the country?
    General Casey. Beyond the V.A. benefits that come for 
schooling in general, I couldn't say that there is one----
    Mr. Edwards. So if they haven't qualified with the new G.I 
bill--maybe they died, maybe they are a private and maybe they 
died after only 2 years of active duty, and they wouldn't 
qualify for the new G.I. bill.
    I was just at an event several weeks ago where we dedicated 
a new Post Office in honor of the Marine veteran Sergeant John 
David Fry, and after he finished his tour of duty in Iraq, 
seven days from going home, he volunteered to go out and 
diffuse one more bomb--and the third bomb he diffused the enemy 
had hidden another bomb underneath that third bomb, and after 
serving, finishing his duty, his bags were packed, he gave his 
life for the country, his three children, all of whom were 
under the age of 10 when he died what about their college 
education if they choose to go to college.
    So I may follow up on that. It wouldn't be under the direct 
jurisdiction of this committee, but again, this committee is so 
committed to quality of life issues. So it is something that 
maybe we could put together a public or a public-private 
partnership on that.

                        AFGHANISTAN AND PAKISTAN

    With the 3 minutes I have, I know that is not much time, 
but could you give us an overview of your analysis of where we 
are in Afghanistan and in Pakistan?
    General Casey. Well, I think what we are seeing in 
Afghanistan are the beginnings of the shift of emphasis from 
Iraq--emphasis of priority from Iraq to Afghanistan. The first 
of the brigades that were sent in to ensure that, to secure 
elections this August, is already on the ground there--and I 
must say, the folks on the ground there did a great job of 
preparing their bases, preparing their equipment, because they 
came in on the planes, got on their equipment, and went right 
into the fight, and made a significant difference.
    Down south, in the Khandahar area, the forces are 
continuing to come in. They will be in there prior to the 
August elections.
    Based on my experience, I believe that we have put 
sufficient forces there to ensure that there are secure 
elections in August. And I think that that will be a big plus 
for the Afghanis.
    As I look to the future, the Afghan army is about, size-
wise, is about where the Iraqi army was in 2005. They are the 
same size country and about the same size population. The 
police, in Iraq, in 2005, were about a year behind the army. In 
Afghanistan, they are several years behind the army. So we have 
a way to go to build up their security forces. There has been 
money put against that, so I would expect that to proceed. I 
expect it will take us 3 to 5 years to bring the Afghan 
security forces to the point where they can take over. And the 
additional forces that we have there plus the existing Afghan 
forces, I think, can hold the levels of violence down to 
acceptable levels so that progress there can continue.
    On the civil side, and there has been some discussion about 
the civil support here, I mean, we need the political and 
economic investments there to move the whole process forward. 
We have all been saying for years, you are not going to do this 
by military means, alone. And we need that political and 
economic investment to help them move along.
    Afghanistan is a several decade proposition. So my thought 
is that we need to bring the Afghan security forces to the 
point where they can take over.
    Mr. Edwards. Just to clarify, you don't mean massive or 
significant numbers of U.S. troops being in Afghanistan for 
several decades?
    General Casey. I don't. But that is what I am saying. We 
have to bring the Afghan security forces up so that we don't 
have to do that.
    Mr. Edwards. Right.
    General Casey. You mentioned Pakistan. That is a critical 
part of the Afghan-Pakistan strategy. It is a much tougher nut, 
on the one hand because of the Pakistani desires for 
sovereignty. It is a sovereign country. And so they are 
wrestling with how much of our help they can accept. And they 
are going to have to do things their own way. And so it will 
just be a tougher challenge. My Pakistani counterpart was here 
a month or so ago. We had some discussions, and he is focused 
on doing more in the frontier provinces there against the 
terrorists. You read the papers like I do, and you can see what 
is happening there now. It is something that we all have to 
watch carefully.
    That is probably the toughest change that we have on the 
security front for the country.
    Mr. Edwards. Thank you for your overview. I know it is 
limited time, but that overview is very helpful.
    Mr. Wamp.

                           CASUALTIES IN IRAQ

    Mr. Wamp. General Petraeus said to us--based on the 
increase in troops in Afghanistan the situation will get worse 
before it gets better.
    [Off mike]
    How many KIAs have we had since Memorial Day--how many 
combat related? Are we still sustaining in Iraq? It seems like 
the bombings are mostly directed at civilians and not 
necessarily our troops.
    General Casey. The casualties in Iraq are significantly 
down. I can't tell you in exact numbers, but everybody sees 
that, that they are significantly down. We are over 4,000 
killed and 31,000 wounded since the war started there. And we 
all appreciate the sacrifices of the men and women both in Iraq 
and in Afghanistan. As you suggest, the casualties in Iraq are 
down substantially from where they were a year ago.
    Mr. Wamp. That is all I have, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr.

                                  IMET

    Mr. Farr. I had one question. It was interesting reading 
your background. How important to our Defense Department is the 
International Military Education Training program, where 
foreign officers come to study here?
    General Casey. It is hugely important. Every time I have a 
foreign counterpart visit, they ask for more folks. And I have 
focused on getting majors into CGSC and getting lieutenant 
colonels and colonels into our war college.
    Mr. Farr. General Patraeus said the same thing, and 
everybody says the same thing. The problem we have is that 
program for foreign military officers that is not funded by the 
Defense Department. It is funded by the State Department. We 
passed a budget that really squeezed the State Department's 
budget. And I just told Norm that maybe we ought to use some 
Defense money to pay for the IMET program.
    General Casey. General--from the Pakistani--chief of staff, 
is a graduate of Leavenworth. We just inducted him in the 
Leavenworth hall of fame. And he went out there, I think with 
10, 12 of his classmates, and inducted him in. And that is the 
kind of relationships that we have--well, we just got lucky on 
that one. But there are many, many more like that out there.
    Mr. Farr. Well, the king of Jordan studied at the Naval 
Postgraduate School under that program--and I think it has 
incredible benefits, and I would hope that you might want to 
speak to Secretary Clinton about it because it is in her 
budget. And we need to figure out a way to get that program 
funded and without squeezing other programs.
    Along that same line, we have created--the military got 
ahead of the State Department in being able to create this 
Center for Training Stabilization and Reconstruction using 
NGOs, using our civilian forces and military, both ours and 
foreign military officers.
    You have got to come see this program. Send more officers 
for training.
    What is interesting is the Postgraduate School has this 
course set up for getting a Master's degree in S&R, and there 
is a lot of interest particularly for officers coming back from 
Afghanistan and Iraq, because they see this program as a good 
career investment.
    The problem is the military hasn't created an MOS for thie 
career parth. And what I keep hearing is, we have got people 
who want to come and then they look at the future and they say, 
``I got a master's degree and this incredible background. Where 
do I go?''
    General Patraeus said it is a real problem for him because 
they want to get that training. And I wondered if you would 
look into that. I talked to Secretary Chu about it and he said, 
``You know, you have just got to figure out a way to--career in 
MOS''--it is like an FAO----
    General Casey. It is kind of civil affairs.
    Mr. Farr. But it is not.
    General Casey. But it is not exactly----
    Mr. Farr. I would appreciate it if you could look into 
trying to get an MOS for people that have a master's degree in 
Stabilization and Reconstruction studies.
    Mr. Edwards. Thank you----
    Mr. Crenshaw.
    Mr. Bishop.

                                AFRICOM

    Mr. Bishop. Thank you very much, Mr. Chairman.
    Let me just ask you about the Africa Command, AFRICOM. Last 
budget cycle I think we funded some renovations to the 
headquarters in Germany, which were not all expended, as I 
understand, partially, because there is no decision made 
regarding whether the headquarters there will be permanent.
    I understand that the construction money will remain there. 
I am told by General Ward that regardless of whether AFRICOM 
moves to another location for headquarters, some utilization 
will be made of facilities there, thus justifying leaving that 
construction money in place. Of course, I am concerned about 
how that construction money will be spent. Also there were 
conditions for the ARCs--the area centers within Africa 
Command--but none of those countries was willing to allow us to 
do it; I understand whatever construction funds are there for 
those are not expended either.
    What do you see as the developing importance of the Africa 
Command, and how do you see the military construction needs 
developing in light of the 3-D policy--defense, diplomacy, and 
development? How will that impact us in terms of funding 
construction?
    General Casey. I think the short answer is--I don't know. 
But I was with General Ward in Mombasa, Kenya 10 days ago. And 
we were participating in a seminar with troops of armies from 
Kazakhstan all the way down to--and it was a handoff meeting 
between the African countries from Central Command, who were 
now moving over to Africa Command.
    And he personally has been all over that continent talking 
to the leadership, explaining to them that Africa Command does. 
And I thing you know they got off to kind of a rough start 
because people thought we were coming in to take over. And he 
has been tamping that down, and I think making very good 
progress.
    I went from there up to Djibouti to the Joint Task Force on 
Africa. And there are about 1,400 folks there and they are 
affecting every country in the Horn of Africa by deploying 
small teams of, really, noncommissioned officers, out there--
treating cattle, treating people, drilling wells, and it struck 
me that that is the role of AFRICOM. I think that is where----
    Mr. Bishop. For development and diplomacy?
    General Casey. Development and diplomacy. But small numbers 
making a big difference, and I have been very impressed with 
that. We talked briefly about the long-term plans for the 
headquarters, and I think, at best, I think that they are not 
done. At that time, Kip didn't give me any indication that they 
were any closer to finding a place to go. Either for 
headquarters or for the regional commands on the continent. So 
I think that will probably be some time. But I don't want to 
speak for him.
    Mr. Bishop. Thank you.
    Mr. Edwards. Members, any additional questions----
    If not, General Casey, thank you for your distinguished 39 
years of service in the Army and your leadership as the chief 
of staff of the Army. You were here as a resource witness 
today, and we know how hard you have worked every day on behalf 
of the quality of life and military construction issues that we 
deal with, so we look forward to continuing to work with you.
    Thank you both for being here. We are adjourned.
                                            Wednesday, May 6, 2009.

                  U.S. NAVY, U.S. MARINE CORPS BUDGET

                               WITNESSES

ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL OPERATIONS
GENERAL JAMES T. CONWAY, COMMANDANT OF THE MARINE CORPS

                       Statement of the Chairman

    Mr. Edwards [presiding]. I will call the subcommittee to 
order.
    And, Admiral Roughead, General Conway, thank you both for 
being back here. You certainly don't need any introduction to 
this subcommittee.
    The only thing I would add to that is just, on behalf of 
our subcommittee and my family and all our families, thank you 
both for your incredible lifetimes of service and leadership to 
our country. We are deeply grateful to you.
    And, by the way, you would have been thrilled. Right after 
our morning meeting with General Casey, we had 32 World War II 
veterans in Texas that had come to Washington.
    There is a group that helped pay for them to come and see 
the World War II memorial, those that have never been here, 
never seen the World War II memorial. And I now know how we won 
World War II. Those guys are incredible, incredible--but you 
carry on in that tradition. And thank you.
    I would like to recognize Mr. Crenshaw, the ranking member, 
for any comments he would care to make.

                Statement of the Ranking Minority Member

    Mr. Crenshaw. Thank you, Mr. Chairman.
    I just want to add my words of welcome to you all. General, 
Admiral, thank you for your years of service.
    For me, in my district, the Navy and the Marines have a 
strong presence, I get to see these guys from time to time. And 
I appreciate all you do for the Navy and Marine Corps 
community.
    I think this subcommittee, everyone knows, tries to work 
together in a bipartisan way. Last year, we finished on time, 
and we look forward to doing that again.
    I must say, I am a little disappointed that we are having 
this hearing when we don't have the Fiscal Year 2010 budget 
request, but that is just a function of the way things are 
going. But I am sure we will have a good discussion, and I look 
forward to working with you all to develop the kind of bills 
that we have in the past that provide for the families and men 
and women, our heroes.
    So thank you again. And I look forward to your testimony 
and questions.
    Thank you.
    Mr. Edwards. Thank you.
    And for the record, your full testimony will be submitted 
for the record. I would like to recognize Admiral Roughead for 
any opening comments you would care to make.
    Admiral Roughead. Yes, sir.
    Mr. Edwards. And then we will get into questions and 
answers.
    Admiral Roughead. Yes, sir.
    Mr. Edwards. Thank you.

                     Statement of Admiral Roughead

    Admiral Roughead. Chairman Edwards, thank you. And--Mr. 
Crenshaw, thank you.
    Mr. Crenshaw. You can call me the ranking member. 
[Laughter.]
    Admiral Roughead. Okay, the ranking member. I will do that.
    Mr. Crenshaw. You know, I don't get called that very often.
    Admiral Roughead. I will intersperse my comments many 
times. But it really is my honor to appear before you today and 
represent the dedicated Sailors and the civilians and our 
families of the United States Navy.
    And I appreciate the opportunity to testify about our 
Navy's shore infrastructure and how essential it is to carrying 
out our Navy's mission. Our families thrive, and our Sailors 
deploy, and our ships sail from our infrastructure ashore.
    For years, our increased operational demand, rising 
manpower costs, and aging fleet has compelled us to underfund 
shore readiness. Today, as a result our future shore readiness, 
particularly the recent recapitalization of our infrastructure, 
lags behind where I would like to be.
    This year's military construction budget prioritizes 
critical requirements focusing on fleet readiness, quality-of-
life issues, the elimination of excess infrastructure, quality 
standards across all installations, the maintenance required to 
achieve service life and low life-cycle costs, and, finally, 
the integration and refinement of shore planning capabilities 
and processes.
    On the issue of quality of life for our Sailors, Navy 
civilians, and Navy families, I am very thankful for your 
support and pleased with the progress that we have made in 
housing for our families. I am also extremely pleased to report 
the opening of our first unaccompanied housing privatization 
project, Pacific Beacon in San Diego.
    These quarters, Pacific Beacon, are the best enlisted 
bachelor quarters I have ever seen in my time in the Navy. With 
your support this year, we will construct new bachelor housing 
at Naval Air Station North Island, as well.
    I also want to thank you for your strong support for Navy 
children. Our Navy is leveraging Overseas Contingency 
Operations funding, the American Recovery and Reinvestment Act, 
and the fiscal year 2009 budget to build 17 new childcare 
development centers.
    In addition, with commercial contracts and military-
certified in-home care, we will be able to increase childcare 
spaces by 7,000 and respond to requests for childcare within 3 
months and at 25,000 hours childcare and youth services, a 
resource that is invaluable to the families of our deployed 
Sailors.
    Beyond quality of life, our bases must adequately support 
the most sophisticated fleet in the world. We will perform 
major repairs for drydocks, Navy operational support center 
facilities, barracks, airfields, and utility infrastructure 
throughout the Navy to keep our shore facilities ready. These 
projects are possible thanks to your tremendous support 
throughout the--or through the ARRA.
    I will also be personally involved as we conduct our 
Quadrennial Defense Review, as the Navy considers Naval Station 
Mayport as a carrier homeport. This review in no way diminishes 
my support for either Norfolk or--of course, none of our 
infrastructure or equipment would run without energy. We have 
focused on energy-related projects that will develop 
alternative and renewable energy sources and improve energy 
efficiency in all of our facilities.
    Most recently, the Recovery Act has enabled us to begin 
installation of advanced photovoltaic systems in Hampton Roads. 
We are going to continue to invest in energy research and 
development.
    With the 2010 budget, we will have the necessary resources 
to maintain the readiness of the fleet.
    I thank you again for your time today and for your 
continued support of our 600,000 Sailors, civilians, and our 
families who support us back at home.
    Mr. Edwards. Thank you, Admiral.
    [The prepared statement of Admiral Roughead follows:]

    [GRAPHIC] [TIFF OMITTED] T0526D.016
    
    [GRAPHIC] [TIFF OMITTED] T0526D.017
    
    [GRAPHIC] [TIFF OMITTED] T0526D.018
    
    [GRAPHIC] [TIFF OMITTED] T0526D.019
    
    [GRAPHIC] [TIFF OMITTED] T0526D.020
    
    [GRAPHIC] [TIFF OMITTED] T0526D.021
    
    [GRAPHIC] [TIFF OMITTED] T0526D.022
    
    [GRAPHIC] [TIFF OMITTED] T0526D.023
    
    Mr. Edwards. General Conway.

                  Statement of General James T. Conway

    General Conway. Sure. Chairman Edwards, ranking member, and 
distinguished members of the Subcommittee on Military 
Construction, Veterans Affairs, and Related Agencies. Thank you 
for the opportunity to report to you on the state of your 
Marine Corps.
    Our pledge is always to provide you a candid and honest 
assessment, and it is in that spirit that I appear before you 
today.
    Since testimony before your committee last year, progress 
in the Anbar Province in Iraq has been tremendous. Indeed, we 
think our Marines there are moving into the most long-awaited 
phase of operations, the reset of our equipment and 
redeployment of the force.
    In February, we had a Change of Command of the Multi-
National Force-West in Anbar province. The commander of the 
Multi-National Corps, who was present at the event, commented 
that he believed this will be the last rotation of Marines in 
Iraq. We tend to agree.
    Having recently returned from a trip in theater, I am 
pleased to report to you that the magnificent performance of 
our young Marines and Sailors in the province, regardless of 
their task, continues.
    In Afghanistan, however, the Taliban have increased their 
activity. The 2nd Marine Expeditionary Brigade, a force that 
will number over 10,000 Marines and Sailors, is en route and 
will meet the 30 May latest arrival date.
    The 2nd MEB is deploying as a Marine Air-Ground Task force. 
They will operate under Regional Command South, primarily in 
the Helmand province, where 93 percent of the country's opium 
is harvested and where the Taliban have been most active. This 
part of the country also includes a wide open stretch of border 
with Pakistan.
    We consider the operating environment in Afghanistan as 
well suited to our expeditionary ethos of being fast, austere 
and lethal, with emphasis on the austere. As our numbers grow 
in Afghanistan, Marines and their families have refocused their 
resolve to yet another crisis area on the map.
    There are many challenges ahead, but your Marines 
understand the effects of operations there will make this 
country safer.
    Our force remains resilient, despite an average deployment 
to dwell tempo that is slightly better than 1 to 1 in most 
occupational specialties. With your support, our growth of the 
force by 27,000 Marines has proceeded ahead of schedule. We 
will easily reach the level of 202,100 Marines in our active 
component before the end of the fiscal year.
    Our growth has been achieved with no change in standards. 
Indeed, more than 96 percent of the young men and women who 
enlisted in our Corps during fiscal year 2008 had earned their 
high school diploma, a rate that exceeded the standard for the 
Department of Defense, at 90 percent, and our own self-imposed 
higher standard of 95 percent.
    We attribute our accelerated growth to four factors: 
quality recruiting; exceptional retention levels; reduced 
attrition; and, not least, an incredible generation of young 
Americans out there who welcome the opportunity to fight for 
this country.
    The growth of our force does not just include personnel. It 
includes infrastructure, as well. In the past, we have placed 
operational priorities ahead of good housing for all Marines. 
With your support, we have recently been able to reverse that 
trend by expanding our efforts in military construction.
    Our warriors have no hesitation about life in an austere 
and expeditionary environment when deployed; however, they want 
their families to enjoy quality housing, schools and facilities 
while they are away. Single Marines rightfully expect to have 
clean and comfortable quarters when they are back home.
    Our number-one priority in military construction is now 
building new barracks to provide adequate bachelor housing for 
our entire force by 2014. We do appreciate the continued 
support of Congress toward this effort.
    We are deeply committed to the care and welfare of our 
wounded and their families. Our Wounded Warrior Regiment 
reflects this commitment through all phases of recovery.
    To assist in the rehabilitation and transition of our 
wounded, injured or ill, and their families, we have a Wounded 
Warrior Battalion on both coasts, at Camp Pendleton and Camp 
Lejeune. The headquarters of our Wounded Warrior Regiment is in 
Quantico. I would like to thank you all for your personal 
visits to our wounded warriors around the country and also 
overseas.
    Our great young patriots have responded magnificently and 
have written their own page in history. They know, as they go 
into harm's way, that our country is behind them. Military 
construction that is commensurate with their needs and 
demonstrates a commitment to their families and is a tangible 
way of recognizing their sacrifice.
    On their behalf, I thank you for your enduring support. We 
pledge to be good stewards of the resources you provide and 
remain committed to the defense of this great land.
    Thank you once again for the opportunity to report to you 
today, sir.
    [The prepared statement of General James T. Conway 
follows:]

[GRAPHIC] [TIFF OMITTED] T0526D.024

[GRAPHIC] [TIFF OMITTED] T0526D.025

[GRAPHIC] [TIFF OMITTED] T0526D.026

[GRAPHIC] [TIFF OMITTED] T0526D.027

[GRAPHIC] [TIFF OMITTED] T0526D.028

[GRAPHIC] [TIFF OMITTED] T0526D.029

[GRAPHIC] [TIFF OMITTED] T0526D.030

[GRAPHIC] [TIFF OMITTED] T0526D.031

[GRAPHIC] [TIFF OMITTED] T0526D.032

[GRAPHIC] [TIFF OMITTED] T0526D.033

[GRAPHIC] [TIFF OMITTED] T0526D.034

[GRAPHIC] [TIFF OMITTED] T0526D.035

[GRAPHIC] [TIFF OMITTED] T0526D.036

[GRAPHIC] [TIFF OMITTED] T0526D.037

    Mr. Edwards. General Conway, thank you. And I am going to 
take part of my opening 5 minutes just to mention the name of a 
great Marine. You mentioned al Anbar Province, and--great young 
Marine in my mind. We dedicated a post office in his honor just 
a few weeks ago in my district, just a few miles from where I 
live, Marine Gunnery Sergeant John David Fry.
    And he was a demolition expert, went out during his time in 
Iraq--I think he defused literally hundreds of bombs. And he 
had his bags packed, was less than 7 days away from coming 
home, had three children under the age of 10. And the call came 
in asking for a volunteer to go out to al Anbar Province and 
defuse some bombs that had been located at a roadside there.
    And he went out. And the third bomb he defused had a fourth 
bomb hidden underneath, which killed him. And as I looked at 
his three young children that day at the post office, I just 
thought this was why every one of us is so dedicated to 
supporting the quality of life for these great Americans.
    We know we can't ever begin to replace those little 
children's father or that widow's husband, but we are going to 
do everything we can to provide the kind of quality of life 
that their families deserve. So thank you.
    I know that reflects the kind of spirit that we see in the 
Navy and the Marines throughout our country and throughout the 
world.

                           INADEQUATE HOUSING

    I just have one question that I would begin of each of you, 
and that is, do you have a number in terms of number of 
barracks and/or family homes that don't meet your respective 
Navy or Marine standards for----
    Admiral Roughead. Yes, sir. We, in the area of our family 
housing, have made the investments that we will be able to 
rectify all of the inadequate housing with the investments that 
we have made. So family housing, we are in good shape.
    With respect to the substandard category for our 
unaccompanied housing, I put that at about 42 percent. And that 
doesn't mean that the accommodations are unsanitary or unsafe. 
They may be not sized properly or the square footage that we 
want, but I put the number at 42 percent of bachelor enlisted 
housing.
    Mr. Edwards. And on the present budget glide path, when do 
you think the money will be committed to bring those up to 
standard?
    Admiral Roughead. My intention, Mr. Chairman, is that we 
will have that done by 2016.
    Mr. Edwards. I hope, with some good luck, maybe this 
committee could compress that. I certainly hope so.
    Admiral Roughead. Yes, sir. Thank you very much.
    Mr. Edwards. Thank you.
    General Conway. Sir, about 96 percent of our family housing 
at this point is PPV (Public-Private Venture). Of those units 
transferred, approximately 4,400 remain that are considered 
inadequate and these are being renovated, replaced or otherwise 
demolished by our partners. When completed in 2014, there will 
be no PPV housing units deemed inadequate. Of the remaining 
Marine Corps owned inventory, only two would by definition be 
considered inadequate. These are General Officer quarters, 
deemed inadequate by definition that they require more than 
$50,000 for repairs, but are fully habitable.
    And we estimate that we have roughly 2,700 spaces which 
constitutes less than 4 percent of our total inventory that we 
would label as inadequate. As I said in the statement and as 
you have heard me say before, that has become a real priority 
for us, because we have waited until we were in extremis, I 
think, to respond to needs.
    We have over the FYDP about $1.52 billion of requests for 
construction associated with our barracks and family housing. 
If those requests are supported, then we will solve our 
problem, we think, by the end of the 5-year plan.
    Mr. Edwards. In fact, Admiral Roughead, if you wouldn't 
mind, if you could give me a similar number for the Navy. What 
would it take to get all of your bachelor's quarters up to 
Navy's standards?
    Admiral Roughead. Yes, sir.
    Mr. Edwards. It would sure be nice for us to know what that 
goal is. And perhaps we can compress some of these----
    Admiral Roughead. Sir, the figures that we are using is on 
or about $85 million in MILCON and then about $80 million a 
year throughout the FYDP for the maintenance costs that would 
be associated. So it is not an insignificant amount of money.
    Mr. Edwards. Okay. Thank you. Thank you for that.
    Admiral Roughead. Yes, sir.
    Mr. Edwards. Mr. Crenshaw.

          HOMEPORTING NUCLEAR CARRIER AT NAVAL STATION MAYPORT

    Mr. Crenshaw. Thank you, Mr. Chairman.
    Mr. Edwards. Not only the ranking member this afternoon, 
but a great member of this subcommittee.
    Mr. Crenshaw. Thank you very much.
    We are going to start out, Admiral Roughead, you mentioned 
in your opening statement the decision that the Navy made to 
homeport a nuclear carrier at Naval Station Mayport.
    And I know you made that decision after a 2.5-year study. 
You weighed all the strategic, operational, environmental 
consequences of the decision.
    And that report stated in pretty strong language that it is 
in the best interest of national security to have a second 
nuclear carrier homeport on the East Coast and that Naval 
Station Mayport was the best place to do that.
    I was a little disappointed--I got a call right before 
Easter from the Deputy Secretary of Defense that said that, in 
spite of the Navy's decision, that that decision was going to 
be further reviewed as part of the Quadrennial Defense Review, 
(QDR), which is disappointing, because of all the study had 
gone into, decisions made.
    Last time I got a phone call like that was right before 
Christmas a few years ago, when the former Deputy of Secretary 
of Defense, who at the time was the Secretary of the Navy, 
called me to say that they were thinking about decommissioning 
one of the carriers and it could very well be the one that was 
in Mayport,--so when I get these kind of phone calls right 
before holidays, I have a new policy at my office now. They 
don't accept calls from high-ranking military officials 
anywhere near a holiday.
    But I know that the nuclear homeporting decision is going 
to be made as part of that QDR. And we don't know exactly when 
we are going to get that. And we don't know whether there will 
be some budget requests this time, because we haven't seen it 
yet, in terms of some of the upgrades needed.
    But if you don't mind, I wanted to ask you just a couple of 
questions about that.
    But, Mr. Chairman, I wanted to just see if it is possible 
to submit the Navy Record of Decision in final Environmental 
Impact Statement on the proposed homeporting of additional 
surface ships at Naval Station Mayport, Florida, in the 
official record?
    Mr. Edwards. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0526D.038
    
    [GRAPHIC] [TIFF OMITTED] T0526D.039
    
    [GRAPHIC] [TIFF OMITTED] T0526D.040
    
    [GRAPHIC] [TIFF OMITTED] T0526D.041
    
    [GRAPHIC] [TIFF OMITTED] T0526D.042
    
    [GRAPHIC] [TIFF OMITTED] T0526D.043
    
    [GRAPHIC] [TIFF OMITTED] T0526D.044
    
    [GRAPHIC] [TIFF OMITTED] T0526D.045
    
    [GRAPHIC] [TIFF OMITTED] T0526D.046
    
    [GRAPHIC] [TIFF OMITTED] T0526D.047
    
    [GRAPHIC] [TIFF OMITTED] T0526D.048
    
    [GRAPHIC] [TIFF OMITTED] T0526D.049
    
    [GRAPHIC] [TIFF OMITTED] T0526D.050
    
    [GRAPHIC] [TIFF OMITTED] T0526D.051
    
    [GRAPHIC] [TIFF OMITTED] T0526D.052
    
    [GRAPHIC] [TIFF OMITTED] T0526D.053
    
    [GRAPHIC] [TIFF OMITTED] T0526D.054
    
    [GRAPHIC] [TIFF OMITTED] T0526D.055
    
    [GRAPHIC] [TIFF OMITTED] T0526D.056
    
    [GRAPHIC] [TIFF OMITTED] T0526D.057
    
    [GRAPHIC] [TIFF OMITTED] T0526D.058
    
    [GRAPHIC] [TIFF OMITTED] T0526D.059
    
    [GRAPHIC] [TIFF OMITTED] T0526D.060
    
    [GRAPHIC] [TIFF OMITTED] T0526D.061
    
    [GRAPHIC] [TIFF OMITTED] T0526D.062
    
    [GRAPHIC] [TIFF OMITTED] T0526D.063
    
    [GRAPHIC] [TIFF OMITTED] T0526D.064
    
    [GRAPHIC] [TIFF OMITTED] T0526D.065
    
    [GRAPHIC] [TIFF OMITTED] T0526D.066
    
    [GRAPHIC] [TIFF OMITTED] T0526D.067
    
    [GRAPHIC] [TIFF OMITTED] T0526D.068
    
    [GRAPHIC] [TIFF OMITTED] T0526D.069
    
    Mr. Crenshaw. I am going to give you a couple of quotes 
from that report and just to see if that is still your view, if 
that is okay with you, sir.
    One, there is a quote that says, ``Homeporting a nuclear 
carrier at Mayport would reduce risks to fleet resources in the 
event of a natural disaster, manmade calamity, or attack by 
foreign nations or terrorists.'' Now, do you still believe that 
statement to be accurate?
    Admiral Roughead. Yes, sir, I do.
    Mr. Crenshaw. I don't want to sound like a lawyer, but it 
is hard for you to comment on a lot of these things, because 
they involve a bunch of FY 10 budget requests.
    Just two more questions. One other quote, it says, ``The 
aircraft carriers of the United States Navy are vital strategic 
assets that serve our national interest in both peace and war. 
The President calls upon them for their unique ability to 
provide both deterrence and combat support in times of 
crisis.''
    ``Utilizing Naval Station Mayport to homeport a CVN 
enhancing operational readiness. Operational readiness is 
fundamental to the Navy's mission and obligation to the 
commander-in-chief.''
    And I guess my question is: Do you still believe that 
statement is accurate and correct?
    Admiral Roughead. Yes, sir. I believe the ability for us to 
have flexibility in the positioning of our force is a good 
thing. Much of my perspective is based on having commanded out 
in the Pacific, where there were several options for basing a 
variety of our ships out there. And I think that flexibility is 
a very good thing.
    Mr. Crenshaw. And this last statement alludes to that, as 
well. It says--the quote is, ``The consolidation of CVN 
capabilities in the Hampton Roads on the East Coast presents a 
unique set of risks. CVNs assigned to the West Coast are spread 
among three homeports. Maintenance and repair infrastructure 
exists at three locations, as well.''
    ``As a result, there are strategic operations available to 
Pacific Fleet CVNs should a catastrophic event occur. By 
contrast, Naval Station Norfolk is a homeport to all five of 
the CVNs assigned to the Atlantic Fleet, and the Hampton Roads 
area is the only East Coast location where CVN maintenance and 
repair infrastructure exists.''
    ``It's the only location in the U.S. capable of CVN 
construction and refueling. There are no strategic options 
available outside the Hampton Roads area for Atlantic Fleet 
CVNs should a catastrophic event occur.''
    And so the question, again, is: Is that still your view? Is 
that accurate?
    Admiral Roughead. Yes, sir, it is accurate. All of our 
nuclear carrier infrastructure is now--on the East Coast--is 
now all in the Hampton Roads area.
    Mr. Crenshaw. And time for one more question? Before I came 
to Congress, I was involved in providing financing for various 
companies around the country. And one of the things that we 
always used to look at was a cost-benefit analysis, and it 
involved evaluating risk.
    And so the question, based on that report that took 2.5 
years to come up with and was very thorough, the question 
becomes, when you decide--and we don't know the number yet, 
because we don't have the budget request, but, it is not 
inconsequential the amount of money that it is going to take to 
upgrade Mayport to be the homeport for a nuclear carrier.
    But is cost part of your risk analysis? I think I have 
figured up somehow, if you take the total cost of our carrier 
fleet, the total cost for MILCON and recurring cost is less 
than 1 percent. It would be less than 1 percent of the total 
value of our aircraft carrier fleet that you would be spending 
to avoid some of the risks that you talked about.
    Does that make sense to you in a cost-benefit analysis?
    Admiral Roughead. Yes, sir. Those are the similar numbers 
to what we looked at as we were going through our analysis. 
And, clearly, I think the QDR will dig into those numbers, and 
the analysis will be further examined.
    But those are the similar numbers that we developed as we 
were going through our----
    Mr. Crenshaw. And I assume all that will be part of the QDR 
review, all the hours--that is great. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Dicks.
    Mr. Dicks. Admiral and General, good to see you again.
    Tell me, what was the--where did the Mayport CVN 
homeporting decision--how did that get started? What is the 
history behind this?
    Admiral Roughead. Well, the history behind it, Mr. Dicks, 
as I mentioned, having served out in the Pacific, and put some 
thought into the strategic dispersal of our forces out there, 
and I was involved in the decision as to where the additional 
aircraft carrier that was moving to the Pacific would go.
    So when I came back to the East Coast, to Fleet Forces 
Command, and then on to my current position as Chief of Naval 
Operations, I wanted to take a look at not just the 
distribution of our forces throughout the Navy, but also a 
similar look on the East Coast.
    And that is when I got into looking at where the various 
types of ships were based and particularly the aircraft 
carriers, because of the one base structure that we used in 
Norfolk. So that----
    Mr. Dicks. Well, I think that is a very legitimate matter. 
We are all concerned about military construction costs, how 
much it costs to do these things. But I think what we did on 
the West Coast was the right decision. So I better understand 
it.

                                  GUAM

    Congresswoman Bordallo--I have been meeting with her, 
trying to help her a little bit, as Chairman of the Interior 
and Environment Subcommittee. Guam is going to be under a great 
deal of pressure, and I am very concerned about it.
    I understand that the Joint Guam Program Office held an 
industry forum on Guam last week. You know, we are going to put 
a lot of troops into Guam, and I am just worried that we may 
not have the infrastructure there to deal with it.
    And, you know, and people would say, ``Well, the government 
of Guam should do it.'' They may not be capable financially of 
doing it.
    Has anybody looked at this from the Navy? And the Marine 
Corps is involved in this, too.
    Do you have any concern about this?
    Admiral Roughead. Well, my interests for Guam are primarily 
to be able to support the Marine Corps, but also an interest 
that I have in some flexibility for carrier--what I call a hub, 
where you could put a carrier in for short periods of time that 
would be operating out in the western Pacific. But I think the 
bulk of the----
    Mr. Dicks. You have got the SSGNs there, too, coming in.
    Admiral Roughead. We do. The SSGNs come in. But the bulk of 
the activity is----
    Mr. Dicks. The Marine Corps.
    Admiral Roughead [continuing]. Really supported by the 
Marine Corps, so I----
    General Conway. Sir, there are several issues, as you 
highlight. And it is going to be examined, I believe, in the 
Quadrennial Defense Review. This whole issue of global laydown 
is one of the topic matters, and there is a group already 
working it.
    The question will be, how much overseas infrastructure can 
the Nation afford? There are issues in Korea. There are issues 
in Europe and, of course, the Guamanian issue.
    Our estimate is that the early estimates are way short. We 
have talked in terms of $4 billion cost to the U.S. government. 
We think it is going to be much more than that when you look at 
all the considerations, infrastructure, training opportunity, 
all those types of things.
    So I think--in the first instance, the Department is going 
to have to come away with a prioritized list and a certainty 
with regard to what--more of a certainty as to what those costs 
may be.
    You are exactly right with regard to the ability of Guam to 
support our early estimates. And these are also some of the 
JGPO estimates, is that to stay on the timeline that we are on, 
which would have completion roughly around 2014, that there 
needs to be about $3 billion a year of contractual effort that 
goes into work there.
    Our estimate is that the territory itself can only do about 
half of that. So we are already concerned that we are not going 
to make the timelines that are established out there.
    And there are other issues. We are going to put potentially 
8,000 to 10,000 Marines out in the middle of the Pacific. We 
have got to make sure we can train out there.
    Mr. Dicks. Right.
    General Conway. The USD policy has promised us that they 
will see to our concerns and that the proper EIS will be 
accomplished before we conduct some of those moves that would 
land us in a place without the ability to train.
    But we are concerned about that. And we are going to engage 
very strongly, I can assure you, in the QDR with those 
concerns.
    Mr. Dicks. And some of these are pretty serious 
environmental issues. They have got a dump that has to be 
closed down and a number of other things. I just was worried, 
that, you know, we are really committed to Guam, apparently, 
and it doesn't look to me like they have the capability to do 
all the things that I think we are expecting them to do.
    So I hope you all will get the Department motivated to look 
at this. And I just want to also say that, on the housing, we 
still--we don't have anybody living on--I mean, the enlisted 
people still living on--what were those things?
    The one at Birmingham was called the ``Guppy.'' You know, 
this is where they--the Sailors, when they came in, they get 
off the ship. They go there. I think we have them all in 
barracks now.
    Admiral Roughead. Well, we--throughout the Navy, we do not 
have all of our Sailors who are afloat, we do not have spaces 
for them ashore, all of them. At the end of the----
    Mr. Dicks. What is the shortfall?
    Admiral Roughead. It will be 5,000, Navy-wide, at the end 
of 2010. So we have a plan to make the investments in bringing 
our Sailors ashore. We will be investing in that throughout the 
FYDP, and the objective is to get all of our Sailors off the 
ships by 2016 so that all of our Sailors who are afloat have a 
place ashore.
    Mr. Dicks. Has my time expired?
    Mr. Edwards. Yes.
    Mr. Farr and then Mr. Kennedy.

                  STABILIZATION AND RECONSTRUCTION MOS

    Mr. Farr. Thank you very much, Mr. Chairman.
    General Conway and Admiral Roughead, thank you very much 
for your service and for your leadership. Welcome to the 
committee where every member thinks they are a garrison 
commander.
    I want to commend your leadership and mention that in 
previous hearings we have had here--Admiral Mullen before you 
and General Petraeus--we have created a Center for 
Stabilization and Reconstruction studies at the Naval 
Postgraduate School.
    Its capability--it has been doing a lot of gaming in the 
sense of bringing together NGOs, international NGOs, U.N., our 
military, foreign officers that are there through the IMET 
program, and so on, to look at how you deal with issues of 
stabilization and reconstruction.
    NPS has designed a training program and offers a master's 
degree in it. We are finding a lot of officers who are coming 
out of Iraq and Afghanistan who really want to get into this 
career. It is a new career.
    But the Defense Department hasn't created an MOS for it 
yet. And General Petraeus was saying we really need these skill 
sets.
    And I know you have indicated your interest. I am asking 
all the combatant commanders and the commanders here to do what 
it takes to create a career path.
    I have talked to Secretary Chu about trying to get a sub-
specialty code designation for stabilization and reconstruction 
career positions. I had hoped that you could bring that up as 
an issue to discuss, because the desire to get the training and 
master's degree is there, but why get it if you don't have a 
career path?

                   S&R AND FAO EDUCATION AND TRAINING

    And it is kind of intertwined with the FAOs. And I know the 
Navy and Marine Corps are sending students to NPS for FAOs 
education. But I don't think that there is any requirement that 
they go through this stabilization and reconstruction training.
    I think there needs some sort of leadership here to bring 
the two together. They are both at the same school. Well, one 
is funded under Homeland Security. Excuse me. The Stabilization 
and Reconstruction program is funded by an earmark. And the FAO 
is in your budget.
    I would like to see how the Navy could bring those two 
programs together using the Center for Stabilization and 
Reconstruction as part of the curricula for your FAO positions.
    And, also, I am asking the Navy to POM the Center for 
Civil-Military Relations. It is of high value to you.
    So if you could look into that, I would appreciate it.
    I wondered if you know whether the demand for Navy FAOs 
matches the number of students that are in the pipeline. 
Admiral Mullen's was encouraging people to get this training, 
and then--I don't know. Do you----
    Admiral Roughead. Well, we have placed a significant 
emphasis on our Foreign Area Officer (FAO) program. And we 
have----
    Mr. Farr. These are Foreign Area Officers.
    Admiral Roughead. Foreign Area Officers. And their training 
will be a combination of language training and then 
assignments. I know that, within the Navy, I have caused our 
major headquarters to look at restructuring their organization 
so that we have a career path flow for Foreign Area Officers.
    I have been in the Navy long enough to have seen us attempt 
FAO programs on a couple of occasions, and they have not 
succeeded simply because we didn't provide for the career 
progression for these young men and women who have a passion 
for the regions in which they are going to work and then not 
being able to realize the type of career progression.
    So we are working on that. But I am pleased with where we 
are with our FAO program. In fact, we are getting ready to do 
another screening board for FAOs here in June to select another 
group of Foreign Area Officers. And I believe that we are on a 
good path----
    Mr. Farr. Would you be able to name the naval postgraduate 
school the Center for FAO Education, if you could designate 
that. I don't know what it takes, but----
    Admiral Roughead. Sir, well, I would say--we don't send all 
of our officers to P.G. school. Some----
    Mr. Farr. Go to regular----
    Admiral Roughead [continuing]. Go to other colleges and 
universities. And then, as we get into, particularly in the FAO 
program, I think being able to tailor where those individuals 
can go based on their backgrounds, future assignments.
    But I do believe that the post-graduate school is an 
extraordinary capability----
    Mr. Farr. See, you have the DLI there, the Defense Language 
Institute.
    Admiral Roughead. Exactly. Yes, sir.
    Mr. Farr. Monterey Institute of International Studies----
    Admiral Roughead. Yes, sir.
    Mr. Farr. You have this consortium of intellectual capacity 
in Monterey that could really do well in producing the 
curriculum and adjusting it to global needs. And if you created 
the FAO center there, I think we could really get a better bang 
for our buck.
    Admiral Roughead. Yes, sir.
    General Conway. I certainly support the idea, sir, of the 
stabilization and reconstruction degree. And I think that we--
our approach is a little different. Because our commanders have 
wound up doing this so often in the absence of other elements 
of American power, we tend to decentralize the effort, and we 
give everybody some.
    I could still see the value of a special staff officer that 
had this MOS, though, and this capability. So we certainly, I 
think, want to take a look at that.
    Mr. Farr. Thank you.
    General Conway. Our FAOs go to different places for 
language school. Many do go out to NPG, but some study right 
here in Washington, D.C. So we would have to look at 
percentages, I think, before we could perhaps build the lever 
on that beam, a center for all FAOs, unless we have different 
qualifications or qualities in our officers.
    Mr. Farr. Thank you very much.
    Mr. Edwards. Thank you.
    Mr. Kennedy.

                                DDG-1000

    Mr. Kennedy. Thank you, Chairman.
    Thank you, and welcome. Admiral Roughead, it is a pleasure 
seeing you. General Conway, thank you both for your service to 
your country.
    Admiral Roughead, first, if you could, just comment briefly 
on General Gates' plan to truncate the DDG-1000, complete the 
third ship, and what you envision to be the future service 
combatant moving forward with the technology that we have 
invested in so far in that ship. How do you foresee us moving 
forward for the Navy, in terms of that future service combatant 
ship?
    Admiral Roughead. Yes, sir. As you know, Secretary Gates, 
in his announcement, he mentioned the truncation of three ships 
and then the restart of DDG-51 line. And that also included an 
alignment of the work, the construction work, with the ships, 
the DDG-1000s going to bath for construction, to be able to 
take advantage of the efficiencies that are there.
    As I have discussed before--and we have had the opportunity 
to talk about it--I think the technologies that are in the DDG-
1000 are going to help us inform not just future combatant 
classes, but I think we will be able to inform other ship 
classes with that.
    Improvements that can be made to the DDG-51 will also allow 
us to take that information, what we learned from the DDG-1000, 
and help us better approach future combatant designs. So that 
is how I see that playing out in the future.

                     NAVY EDUCATIONAL INSTITUTIONS

    Mr. Kennedy. Terrific. I know what a champion you are of 
education. Obviously, professional development is so crucial.
    Can you tell us a little bit about how you see the 
evolution of professional education in the Navy, as we see 
special warfare becoming so much a bigger part of modern 
warfare, and how your leadership is bringing in and ushering in 
a whole new sense of kind of strategic thinking, in terms of 
the individual Sailor, and how they have critical development 
skills and how they have leadership training skills and the 
importance of having that as opposed to just the doctrine 
training that they have had maybe in the past?
    Admiral Roughead. Yes, sir. And I am very proud of the 
institutions that are in the United States Navy that get to 
that. All the service--or all the services have their Service 
Academies, and I am very proud of what we have done with the 
Naval Academy.
    But what we have done with the Postgraduate School of what 
I call raising all boats, let the rising tide raise all boats, 
getting some more structure at postgraduate schools, standing 
it up as a Naval Station so that we can focus on the 
educational and development process and work the infrastructure 
with another piece.
    But I am also extraordinarily proud of what we have been 
able to do with our Naval War College, which I consider to be 
the center of maritime thought in the world and naval thought 
in the world. We have at the War College established a new look 
at the operational level of war, the training that we have 
going on there.
    We have put significant emphasis into our international 
program at the War College. And in fact, just last week, I 
hosted all of the international students here in Washington. 
That experience and what we are able to expose our personnel to 
is absolutely extraordinary.
    And as you know, we are going to be hosting the 
International Seapower Symposium up in Newport, make all of 
that as part of an educational process.
    What we have also done in Newport is that we have taken our 
Senior Enlisted Academy and aligned it more with the War 
College. Not that I am trying to teach every master chief how 
to become the greatest strategic thinker in the world, but 
rather to be able to take that educational and intellectual 
effort that takes place at the War College and have our senior 
enlisted benefit from that.
    We are also incentivizing additional language capability 
among our force. We talked about the FAO program and aligning 
our command structure so that, when somebody comes out of the 
field, they have a place to go and apply that which they have 
learned.
    So I think that the way that we are coming at our 
intellectual and development of our Sailors is to take those--
what I consider to be three extraordinary institutions--and 
make sure that we are looking at them as a set, resourcing them 
in ways that allows them to maximize the value they have to the 
Navy and the nation.
    And so that is what my approach has been. And I think, in 
the year-and-a-half that I have been CNO, we have made some 
significant changes at the Postgraduate School. We have made 
some significant changes at the War College.
    But it all has to tie together, and that is what I have 
charged my Vice Chief of Naval Operations who now sits on a 
coordinating board to make sure that we are not just doing 
each's, but that we have this incredible capability and we are 
using it in unison.
    Mr. Kennedy. Well, I really, again, once again, appreciate 
your service. And thank you for that description. I think you 
are absolutely right. It is really proving to be a big success.
    I also appreciate your work for diversity in the Navy and 
in the special forces, too, seeing the importance of that, and 
it is being reflected, and it is very important. Thank you.
    Mr. Edwards. Thank you, Mr. Kennedy.
    Mr. Crenshaw.

                HIGH RATE OF DEPLOYMENT IMPACT ON MORALE

    Mr. Crenshaw. Thank you. This is maybe a question for both 
of you all. This higher rate of deployment, obviously, impacts 
the Soldiers, the Sailors, their families, the equipment, 
operational facilities.
    And so the first question, I think, is just maybe could you 
comment on how the morale of the Sailors and the troops have 
been impacted by this high rate of deployment? Let's start 
with----
    General Conway. Sir, we are pretty pleased. We check about 
a dozen what I call indicators or metric each month to 
determine resiliency of the force, and we are pretty pleased 
with what we see.
    Now, I would offer that we have some cultural advantages 
over the Army, which is the other ground force and whose 
deployment to dwell approximates ours. And we do 7-month 
deployments, and our troops really like that. Our families 
really like that.
    And after a Marine has been in the operational forces for 
about 3, maybe 4 years, we rotate them out to do something 
else. We send them to the headquarters or to a training command 
or to recruit or something else. And that is giving them a 
break and having them spend some time with his family and his 
children, so that when he comes back at the end of that time, 
he is sort of raring to go. And that seems to be working very 
well for us.
    The leading-edge indicators, I think, as to whether or not 
we are accomplishing what we want to do are re-enlistments of 
both the first-term force and the career force. And I can point 
to with some pride, I think, that we closed out our first-term 
re-enlistments 2 months ago, and last month we closed out our 
career force. That is on the fiscal year.
    So halfway through the fiscal year, you know, we are 
getting all of those that we want. And those numbers are way up 
compared to what they used to be. They used to be about 25 
percent of the first-term force. Now it is about 35 percent.
    So it tells me, the families are happy. They are enduring 
it well. They sense that we care. We are building the types of 
things to make quality of life satisfactory for them. And so 
that is sort of the good news side of the story.
    Now, I will tell you that there are some trends that we see 
with--very recently with divorce, which is slightly up this 
year. In the 7 war years thus far, we have led the other 
Services with the lowest percentage of divorces, but suddenly 
this year we are leading them in the other direction. And I 
want to watch that closely.
    Suicides were up last year. It runs a bit of a sine wave, 
but last year we had 42 suicides, most of them as a result of 
failed relationships.
    And I will be honest with you: just in preparation for 
coming before this committee, I note apparently alarming rise 
in what we consider driving under the influence. So it may be 
that our Marines are drinking more.
    Whether or not that is related to dep tempo and the war, I 
don't know yet. The DUI at this point encompasses two 
categories. One is, you know, you had too many sips of 
champagne on the way back from the wedding and you got pulled 
over because one of your lights was out. The other one is, if 
you had a .20 and you in no way should have been on the road. 
We have got to cull those stats down to see what is what here.
    But there are a couple of things that we have got to dig 
into to make sure that we keep a resilient force and we don't 
embarrass ourselves.
    Mr. Crenshaw. Admiral.
    Admiral Roughead. We watch our deployment ratios very 
closely. And for us, by and large throughout the Navy, we are 
deploying and providing the time back home for our Sailors that 
meets a very good standard for us.
    There are some communities that we have that are being 
pressed harder than others. Clearly, our SEALs are very busy. 
Explosive ordnance disposal are busy. Intelligence officers are 
in great demand, because they are able to support more than 
just the Navy.
    But I am pleased with what we have been doing and how the 
tone of the force is reflected in surveys that we do quite 
frequently.
    Similar to General Conway, good positive trends. Retention 
is extraordinarily high. Attrition is down. I will also tell 
you that the economy is a factor in that. But we see trends 
that really go beyond the economy.
    In our case, for some of the things that General Conway 
mentioned, we have seen a slight rise in suicides. And in the 
month of February, we had more than we had seen in any given 
month, but now we are back down to the norm.
    So I have a group that looks at that from many different 
perspectives, and we are trying to better understand it, 
because our suicide demographic is very different than the 
other services. It tends to be more senior. And we are getting 
our arms around that.
    We have seen significant declines in vehicular accidents, 
remarkable declines in vehicular accidents. And we have also, 
you know, contrary to the Marine Corps, we have seen a drop in 
our DUIs in recent months.
    So the trends that I see are good. And the tone of the 
force is good. I never take it for granted. We always have to 
be looking, and then, whenever we begin to see an indication, 
we have to get into it, peel the onion back, and figure out 
what is going on.
    Mr. Crenshaw. When you have got these kind of strains in 
terms of deployment, does it leave you in a position, say, with 
infrastructure or operational facilities where you are asking 
for funds for higher combat priorities? Do you sense there is 
any less money for some of the infrastructure or some of the 
facilities?
    It is a question I would ask you--I can't ask you to 
comment on a budget request, but are there things that aren't 
in there that maybe ought to be there because of the way the 
priorities are right now, in terms of combat deployment?
    Admiral Roughead. Well, I would say that the--through what 
this committee has been able to do, you know, taking care of 
our kids is huge. And what you have allowed us to be able to do 
to increase the number of childcare facilities is significant.
    We have taken extra money because of the strains that we 
have seen not just on deployments, but also kind of 
anticipating the economic effects on our force. We have 
increased in our Family Service Centers the number of 
counselors, and we have seen the utilization of those 
counselors go up. And as a result of that, we have seen our 
people, I believe, making better decisions.
    So we are trying to lead the target, get the things in 
place that allow our families and Sailors to better address the 
issues that they face as a member of the U.S. military and just 
as an American citizen.
    So I think we have been able to target those investments in 
ways that we have been able to minimize and mitigate some of 
these pressures that they are under.
    General Conway. I will give you a two-part answer, sir. 
There is not a Marine that wears this uniform that doesn't want 
to go to Afghanistan now, and that includes our married guys.
    But we realize all along that the families are the most 
brittle part of this whole equation. I mean, the Marine will go 
do what he is trained to do, but our families determine whether 
or not we keep that resilient force because, if they are going 
back to Texas, they put young Johnny in a heck of a strain, you 
know, to decide, does he go or stay?
    So we have probably put more resources than ever before 
against our families and against quality of life and 
professional family readiness officers, increased childcare 
center, base infrastructure that makes quality of life that 
much better, you know, while the Marine is gone.
    And it sent a strong signal. I mean, it is a psychological 
signal as well as a tangible signal when they see that crane, 
you know, over the site.
    But all in all, I think it has been very healthy for us. 
And it is because money has been made available, I think, 
commensurately recognizing the need.
    Mr. Crenshaw. Thank you.
    Mr. Edwards. Thank you.

                  DOD HEALTH CARE SYSTEM MODERNIZATION

    General Conway, this subcommittee--and I am proud of this--
took the initiative to see that we need to recapitalize, 
modernize our DoD health care system. So it wasn't an OMB 
request, but it was this committee's request. I think it 
reflected the needs we were being told by commanders in the 
field for new hospitals.
    Part of that $2.2 billion is going to Pendleton and 
Lejeune, as you know. Would you just say for the record whether 
that money is needed and those hospitals do need modernization? 
And will that be a significant service to your Marines and 
their families?
    General Conway. Happy to do so, sir, because it is a 
tremendous, first of all, capacity that our families will be 
able to take advantage of at our two major bases throughout the 
whole Marine Corps.
    Secondly--and it gets back to the ranking member's 
question--it sends a tremendous signal to our families that, 
hey, we get it.
    The Navy is doing wonderful work for us, forward-deployed 
as they are, with the docs and the corpsmen. They are right 
where we need them to be.
    But in the meantime, our families are suffering a little 
bit. The specialty doctor that is tough for the Navy to 
contract to go to Jacksonville, North Carolina, is just not 
always there.
    The lines are longer for virtually any kind of care because 
the numbers of providers are less. So I think that these 
hospitals are going to be tremendous adds to our Marine Corps 
and Navy community that live there with us. And it is money, I 
think, very wisely spent, is the way I would categorize it.
    Mr. Edwards. Thank you for that.

                                  GUAM

    My final question would be to follow up on Mr. Dicks' 
questions about Guam. The increased cost for infrastructure at 
Guam, has that been reflected in deliberations on the fiscal 
year 2010 budget request? I know you can't tell us what is in 
that budget request officially, but will those numbers reflect 
that additional cost? Or is there going to have to be more work 
done and then later adaptation to what the real costs are going 
to be?
    General Conway. You are right, sir. We were asked not to 
speak about the budget. I think it drops soon, and we will be 
able to talk more.
    But there was X amount of money that was applied to Guam. 
And I think that money is--pending the discussion and QDR.
    Mr. Edwards. Right.
    General Conway. I think, again, as I answered Congressman 
Dicks' question, there are competing priorities. The department 
is going to have to decide, in conjunction with the national 
treaties and agreements and so forth, which should take 
priority and which need to be funded.
    So the real costs are in the out-years. And so nothing, I 
think it is fair to say, would be done in 2010 that would 
anchor us one way or another. So the QDR discussion, I think in 
that regard, is very timely.
    Mr. Edwards. Good. Thank you.
    Mr. Farr.

           INTERNATIONAL MILITARY EDUCATION TRAINING PROGRAM

    Mr. Farr. How important is it to both of you to have the 
International Military Education Training program, where we 
bring foreign officers to study at----
    Admiral Roughead. Hugely, Mr. Farr. There, in my mind, as 
we seek to work with other militaries around the world, there 
is probably no other program that allows us to be able to 
develop the types of relationships that we need with foreign 
militaries.
    I was in the Pacific when the tsunami of 2004 hit. As you 
know, we had had a hiatus with our IMET with Indonesia. That 
was the largest relief operation the U.S. military has ever 
undertaken, and we had people that we knew, that we had worked 
with, that we had built up trust with in the various countries 
in the region that we could call. And it set the wheels in 
motion.
    When we tried to contact individuals in Indonesia, it was 
as if we didn't even know where to start. And it is the trust. 
You cannot--there isn't--the only switch there is for trust is 
to turn it off, but you just can't flick a switch and turn 
trust on. It is built over time. It is built over lifetimes. 
And I can't endorse IMET enough.
    Mr. Farr. Our problem is it is funded through the State 
Department, not through the Department of Defense. And that 
budget has been so squeezed and competes for everything else 
the State Department is doing. I just passed a note to Mr. 
Dicks that I think it is important for the DoD to fund it.
    General Conway. If I can, sir, I will emphasize the point 
with a negative. I visited General Kiyani twice in Pakistan. 
And it is considered that we have lost, in his terms, a 
generation of Pakistani officers who have cordial or even 
friendly relationships with the United States because we did 
not do that for a number of years with the country of Pakistan. 
Now, look to how important that country is to us today.
    The military undergirds relationships when, you know, our 
relationships with other nations may be rather sine wave. That 
military connectivity is always there. It is always pretty 
good. And it sometimes takes time, but it almost invariably 
comes back. That is the value to it.
    And where it does not occur, such as in a situation like 
Pakistan, we find ourselves scrambling to try to regain it. And 
there is always going to be a little bit of reluctance do that 
because the trust just isn't there.
    Mr. Farr. Well, I hope that you will also make your 
concerns known to Secretary Clinton, whose budget has it.
    You have the Cooperative Strategy for the 21st Century 
Seapower, which speaks to fostering and sustaining cooperative 
relationships with international partners. I wondered what you 
are doing to increase the student enrollment in that program. 
They both go to the War College, following up on Congressman 
Kennedy's statement, and to the Naval Postgraduate School, and 
what we need to do to get more countries to be sending students 
to that program.
    Admiral Roughead. Sir, I would say that it is--when I look 
at the navies with whom we work, I encourage them to take 
advantage of the Postgraduate School. For many of the 
countries, that can be a fairly expensive proposition. So I 
think, you know, how we can reach out to those countries who 
perhaps don't have the resources and then how they can be 
funded----
    Mr. Farr. And that is funded separately from IMET, right? 
That is in your domain, in the Defense Department's domain?
    Admiral Roughead. I would like to get back to you on all of 
the specifics, because there are many different--I have someone 
to lay out all of the various funding mechanisms that we have 
to engage with foreign countries. And it becomes a pretty 
complex roadmap.
    But I think there is--what we do at the Postgraduate School 
is important, the international program at the War College. We 
have started our Surface Warfare Officer's School, an 
international course for department heads. That is extremely 
important, because that brings them in at the lieutenant level. 
That means that they have a whole career of having a 
relationship with the United States Navy.
    I have also invited navies to participate in even some of 
our shorter courses, executive business courses, where we can 
bring some of their young leaders in to see how we do things 
within our Navy and in the business of the Navy.
    We also have foreign officers that go through flight 
training. So we are always looking for opportunities to do 
that. Moreover, we have been deploying ships--for example, 
right now, off the west coast of Africa, we have one of our 
large amphibious ships that we call Africa Partnership Station. 
For 6 months, it is working with the regional navies there.
    The hospital ship USNS Comfort is now on its way down into 
South America. All of those add up in this building trust and 
building cooperation that I think is so important for our 
future and for the future of all countries around the world.
    General Conway. That is the point I would make, sir. It 
needs to be outside just the formal education process. It has 
to be constant. It has to be in earnest, and you have got to 
work at it.
    We recently had a sea-basing conference, which we think is 
an exciting new concept, and we invited 16 different nations to 
come in, because we think that coalition warfare is the way of 
the future and that they ought to understand what we are doing 
and see if it has value to them.
    I think in every case we got good comments from these 
people in terms of how they might see the value of seabasing, 
how they might plug in, and it has caused us to alter our 
thinking some, in terms of how we would fold in a coalition 
type of effort.
    So it is those types of things just repetitively across the 
calendar and throughout the Services that I think really start 
to cement those bonds.
    Mr. Farr. Well, I appreciate it that support I have learned 
in Congress that we always fund warfare, but when you get down 
to the educational component, that is at the bottom.
    And I think what is becoming increasingly clear in the last 
few years is that we need to plus up our education, the 
relevancy of education, and the training to go with it. And it 
is a challenge because it is not the way we designed these 
programs to be on top rather than on bottom. And I think it is 
going to take your leadership to prioritize it.
    Mr. Edwards. Thank you. Well said.
    Mr. Dicks.
    Mr. Dicks. Admiral, I wanted to also say, we appreciate 
your coming out to the state of Washington on a couple visits. 
And it has been very well received out there.
    And, at the Bangor base, we not only have a lot of Sailors, 
but we have some very good Marines, by the way, General.
    General Conway. I was out there about 2 months ago.
    Mr. Dicks. Yes, and they have increased the numbers out 
there because of the security issues. And it is very 
interesting to see how you are protecting those submarines 
going in and out of the Trident Base. I think it is a good 
plan.

                              USS HARTFORD

    Let me ask you this, Admiral--what plans does the Navy have 
in place for repair and return to service of the USS Hartford?
    Admiral Roughead. The USS Hartford is making her way back 
from the gulf. She is in the Mediterranean right now. USS 
Hartford is the submarine that collided with the USS New 
Orleans.
    And we have been looking at a series of options for her and 
the cost of that repair to her. And she will likely be repaired 
in a private facility. That is the way we are leaning now. And 
the contractual vehicles will be firmed up.
    Mr. Dicks. The submarine force has realigned its focus to 
the Pacific AOR by implementing a 60/40 split on homeporting 
plans. Does the surface force intend any kind of similar 
realignment?
    Admiral Roughead. What we have looked at, Mr. Dicks, as you 
know, we have realigned our carriers, realigning the 
submarines. This look that I did on our strategic posture, we 
believe that the surface ships right now are about right.

                              MAINTENANCE

    Mr. Dicks. Okay. A recent INSURV inspection indicated that 
Navy maintenance at its currently funded level may not be 
keeping pace with the increasing strains imposed by our tempo 
of operations. Does the Navy intend to increase its--well, you 
can't talk about that. I mean, are you concerned about that? Do 
you think we are keeping up with naval maintenance?
    Admiral Roughead. What I would say, sir, is that the INSURV 
report that is being discussed in the press is one that is on 
its way up to me now. But when you look at some of the 
information, the trends and the performance is not alarming. It 
is pretty consistent with where we have been.
    But one of the things that we have done, a few years ago, 
we did away with the organization that took an engineering life 
cycle approach to our surface ship maintenance. We have a very 
structured way of looking at our aircraft carrier maintenance. 
We have a very structured way of looking at our submarine 
maintenance. And we stopped doing that with the surface ships.
    Because of some things that I was seeing as a fleet 
commander and then coming into this position, I have re-
established that structure and that organization, and we are 
now going to be putting our conventional surface ships into 
that engineered approach.
    I do believe that, once we get into that, it will likely 
indicate that we will be seeing more resources required for 
ship maintenance. But I want it based on a good engineering 
approach.
    Mr. Dicks. And one final thing. You know, I come from 
Bremerton, Washington. We have the shipyard there. You know, I 
think we have done a lot on buildings and there is a lot of 
concern about earthquakes in our part of the world. That is 
serious--but I worry a little bit about it. Are we modernizing 
the shipyards with the kind of equipment that is necessary to 
do the work in the future years? Do you think we are putting 
enough into that, I mean, kind of the infrastructure of these 
yards?
    Admiral Roughead. I believe that our investment plans for 
our industrial facilities are keeping pace with the ships that 
we are doing, the types of maintenance that we are doing. We 
are always looking for new technologies, better ways to do it.
    And I think as those technologies and approaches become 
available, we should take advantage of it, because we have to 
look at total life cycle cost. We simply just can't ignore 
that.
    So I will continue to look to ensure that we are making the 
right investments for our shipyards.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Dicks.
    Mr. Kennedy.
    Mr. Kennedy. Thank you.
    I have two parochial questions, but some general ones, too. 
The general ones are on the Medical Corps, whether you have 
concerns about whether you are getting enough doctors, nurses, 
and so forth in the Medical Corps to serve your Sailors and 
Marines.
    Admiral Roughead. Yes, sir. A couple of years ago, we were 
challenged with our medical recruiting. That has turned. We put 
a tremendous amount of effort into that, and we are seeing 
really good numbers this year.
    Mr. Kennedy. Good.
    Admiral Roughead. So, again, we have to keep on that. Plus, 
we are also growing our medical capabilities for Marine Corps 
growth.
    Mr. Kennedy. Terrific.
    Admiral Roughead. So right now, we are doing quite well.

                               EDUCATION

    Mr. Kennedy. You know, my good friend, Sam Farr, was 
talking about it, education. It seems as though we do so much 
to educate the best and brightest in our country in the 
military. It would be so great to think about ways to keep them 
in some way after they leave the military and tying them into 
civil service of some kind and ways of--and education system 
and tying them to our communities.
    I know so many of them continue to serve our communities in 
so many ways. But to make sure that we keep track, we are 
trying to navigate the transparency just in medical records 
between, obviously, the active DoD and the V.A. But it would 
also be great to have transparency between our servicemen and 
women who we have invested so much in and we put such great 
stock in, as the continuing assets that they are for our 
country, after they have served us in the armed forces, to 
continue to be there as an asset, if you will, in civilian life 
in some form.
    With this great, new national service bill that we passed, 
it might be interesting for us to look at ways that we might be 
able to tap into all that they have to offer, in terms of the 
great education that they have received and all that they have 
to offer, in terms of their experience leadership-wise, you 
know, and education-wise.
    When you think about all of the young people in our 
communities who could benefit from them as role models, it 
would just be tremendous. I know just in the mentoring area, we 
are working so hard in our inner cities to tie up some of our--
you know, young people into mentors in the community, if we 
could just facilitate, if you will, some of these veterans with 
some of these kids who are, maybe in need of a role model.
    It would just be terrific. And it might not be anything 
more than just making that introduction to a local Boys and 
Girls Club or something of that sort.
    I know that the Junior ROTC program is fantastic in my--
Newport you would think is, white bread and America's first 
resort. We have the highest public housing in the state, and it 
is the greatest opportunity for kids who never would ever--you 
would never have the opportunity to see the ocean, to get out 
there and go sailing all summer long.
    And if it weren't for the Navy's base there, there are many 
kids in the inner city, and they consider Newport inner city. 
They would not otherwise go to the shoreline.
    We actually have kids from Providence come down and 
participate in the Navy ROTC program, never would otherwise 
have a chance, in a state that is called the Ocean State, to 
participate in being able to sail on Narragansett Bay.
    They learn discipline, and they learn leadership, and they 
get an introduction to the United States Navy. So I would just 
encourage continued Navy ROTC. To the extent that you can do it 
in areas where there isn't maybe, easy access for, folks that 
may have a legacy of Navy--maybe like my community--but maybe 
other communities of diversity, that would be great, because we 
all know that we need to have more diversity wherever we can, 
especially for the newer demands on our Navy that will 
invariably come in the developing world.
    We need to look like the developing world that we are going 
to be going into and, working in. With the countries that we 
are going to go to, we need to look like those countries that 
we are going to be going into.
    And so it basically behooves us to inculcate early that--
and I can tell you, 85 percent, 90 percent of my applications 
for the Naval Academy are all legacy kids who have been--whose 
parents and grandparents and great-grandparents were in the 
Navy. And that is great.
    But I want to see more kids from the inner city who have 
never heard or had one of their family members been in the Navy 
before think about the Navy as an opportunity in terms of their 
future and the opportunities that it holds out.
    If the Navy ROTC was out there more, I guarantee that more 
of them would think about the Navy as an opportunity.
    Admiral Roughead. Sir, if I could, this past year--because 
I share your passion on this--I took some money from our 
personnel account and I stood up 20 additional Junior Navy 
ROTC----
    Mr. Kennedy. Thank you so much.
    Admiral Roughead. A modest number, but we targeted those 
areas that you are talking about exactly. Where can we allow 
young men and women to see the Navy, see the opportunity that 
the Navy offers? Whether they elect to come in or not, that is 
their decision. But at least they are exposed to it.
    We also sponsor a program called Starbase Atlantis----
    Mr. Kennedy. Yes.
    Admiral Roughead [continuing]. That brings middle-school 
kids in to expose them to space and aviation.
    And there is another program that I am very interested in 
working with the initial organizers of it. It is called Naval 
Operations Deep Submergence, where you take middle-school kids 
and teach them about what it takes to operate submarines, not 
the warfare aspect, but navigation and oceanography and things 
like that, because I really do believe that we have great 
things to offer young people.
    Those are the ways we do it. And I have been able to 
realign some money, and I am very pleased to----
    Mr. Kennedy. Thank you so much. Thank you so much.
    Mr. Edwards. Thank you, Mr. Chairman.
    Members, let me ask you. We can do this two ways. We can 
submit any additional questions in writing and adjourn. There 
will be three votes. Or, if anyone has a question you would 
like to follow up with in person, I will be glad to come back.
    What is your----
    Mr. Crenshaw. I would be happy to submit the questions in 
writing.
    Mr. Edwards. Anybody have any questions you would like to 
ask them first?
    If not, Admiral Roughead, thank you.
    General Conway, thank you for----
    Admiral Roughead. And, Mr. Chairman, if I could, earlier 
question I said that we would be beyond our substandard BDQs by 
2016. That is when we are going to have everybody ashore. And I 
would like to take for the record when we will have cleared 
that, but I just wanted to correct that before----
    Mr. Edwards. Thank you for that.
    We stand adjourned.

    [Questions for the record submitted by Chairman Edwards to 
Admiral Roughead]

                                Barracks

    Question. Will you formulate a master plan for buying down the 42 
percent of barracks that have been assessed as substandard? When will 
such a plan be completed?
    Answer. I will formulate a master plan to address substandard 
barracks in PR-11. My objective is to eliminate substandard barracks by 
2020, however that will depend upon balancing available funding with 
competing Navy priorities.
    Question. What is the Navy's definition of standard barracks?
    Answer. The Navy uses the DoD standard for permanent party 
barracks, which sets a minimum of 90 square feet per person and 
requires each Service member to have his or her own sleeping room.
    Question. Do you have a target date for bringing Homeport Ashore 
barracks up to the DoD standard of 90 square feet per person?
    Answer. Our current priority is to achieve the Homeport Ashore goal 
of getting all Sailors currently living aboard ships into 
accommodations ashore by 2016 at the Interim Assignment Policy (IAP) 
standard of 55 square feet per person. The Navy's long-term bachelor 
housing goal is to comply with the DoD standard of providing a private 
sleeping room for each Sailor at a minimum of 90 square feet per 
person. Our plan to achieve that standard will be developed in POM12.
    Question. Will you seek an expansion of barracks PPV authority 
beyond the three authorized projects?
    Answer. To date, the Navy has executed two of the three authorized 
PPV pilot projects and is conducting a business case analysis to 
determine the most cost effective approach to meeting projected 
Bachelor Housing requirements through the third PPV project. The 
business case analysis will inform future decisions regarding 
additional PPV authority.

                       East Coast CVN Homeporting

    Question. With regard to CVN homeporting on the east coast, what 
specifically will the QDR address? Is it simply a question of 
validating the Navy's preferred alternative?
    Answer. The 2010 QDR will address the need for strategic dispersal 
of the carrier force in the broad context of future threats, future 
Navy force structure, and cost effectiveness.
    Question. What is the Navy's most up-to-date one-time cost estimate 
of implementing the preferred alternative? Please break down your 
response by military construction, OMN, PCS, etc.
    Answer. The Final Environmental Impact Statement, issued in 2008, 
estimated one-time MILCON costs for implementing the preferred 
alternative at $456M, including:
          P-187; Dredging ($48M)
          P-186; Foxtrot Wharf Improvements ($39M)
          P-250; Controlled Industrial Facility ($139M)
          P-251; Ship Maintenance Support Facilities ($157M)
          P-502A; Parking Garage ($28M) and P-503; Road Improvements 
        ($15M)
          Planning and Design ($30M)
    P-187 channel dredging would provide dredging of Wharf F, the 
Mayport turning basin, entrance channel and Jacksonville Harbor Bar Cut 
3 to a depth of 52 ft to allow safe navigation and vessel 
maneuverability for all ships that currently dock at Naval Station 
Mayport. The cost of this project was updated and included in the 
FY2010 President's Budget Submission for $46.303M.
    In addition to the one-time MILCON costs, there is an estimated 
$85M one-time maintenance cost for Management & Industrial Plant 
Equipment and an estimated $24M one-time cost for Permanent Change of 
Station associated with relocating personnel.
    Question. What are the new recurring costs of the preferred 
alternative?
    Answer. The Final Environmental Impact Statement, issued in 2008, 
estimated the total recurring costs would be $20.4M. This amount 
includes Sustainment, Restoration, and Modernization/Base Operating 
Support (SRM/BOS), operations, and maintenance costs and also reflects 
a reduction in BAH as compared to housing the CVN ship's crew in 
Mayport area vice Norfolk area.

                              End Strength

    Question. On April 6, 2009, Secretary of Defense Gates announced a 
series of budget and policy decisions for the Department, which 
included a decision to halt reductions in Navy end strength. What was 
the Navy's planned end strength, and how does the decision by Secretary 
Gates affect that?
    Answer. In FY09, Navy's active duty end strength was on a planned 
glideslope to 322,000 personnel by the end of FY13. The FY10 National 
Defense Authorization Request seeks to stabilize the force at an active 
duty end strength authorization of 328,800 personnel for Navy.

     Outlying Landing Field for East Coast Carrier Landing Practice

    Question. When does the Navy expect to produce a Record of Decision 
for the new OLF site in Virginia/North Carolina?
    Answer. A Record of Decision for the new OLF is currently planned 
for the latter half of 2010. Navy is currently working with multiple 
federal and state agencies to complete data collection and analysis to 
ensure we have done the due diligence necessary to make an informed 
decision.
    Question. What is the Navy's target date for commencing operations 
at the new OLF?
    Answer. The target date for commencing operations at the new OLF is 
CY 2015.

    [Questions for the record from Chairman Edwards to General 
Conway]

                                Barracks

    Question. What is your total deficit (after accounting for all 
currently funded military construction) of adequate barracks spaces?
    Answer. The Marine Corps' total requirement for bachelor enlisted 
quarters (BEQ) is 93,300 spaces. With the $1.168B and over 12,000 
spaces funded by Congress in FY 2009, the Marine Corps' remaining 
adequate BEQ space deficit is approximately 7,000.
    Question. As you noted in your testimony, you will meet your target 
end-strength of 202,000 by the end of fiscal year 2009. Clearly the 
Grow the Force military construction program has not proceeded at the 
same pace. How will you accommodate the bigger force until the GTF 
MILCON program is fully completed? Will you seek to accelerate your 
barracks modernization program?
    Answer. The Marine Corps is handling the acceleration of its force 
growth through use of temporary facilities and other measures such as 
delaying demolition of older facilities. With the increased retention 
rates, the enlisted demographic within the Marine Corps has shifted to 
a more senior force with the ability to live on the economy. 
Additionally, at their discretion, local commanders may use tools such 
as allowing junior NCOs to live on the economy or assigning more than 
two Marines per room for temporary periods. Current deployment cycles 
have also helped alleviate ``space crunches'' across our installations.
    The Marine Corps is accelerating its barracks modernization program 
and will soon reap the benefit of an aggressive FY 2008 and FY 2009 
construction schedule.
    Question. Do you have a standard for training barracks? If so, what 
is the deficit of adequate training barracks spaces, and what is the 
estimated MILCON requirement to buy this down?
    Answer. An adequate barracks for recruits is an open-bay barracks 
in good repair.
    Congress has provided both MCRD Parris Island and MCRD San Diego 
Military Construction funding in FY 2009 for Recruit Barracks. At MCRD 
Parris Island the funding will complete the replacement of the 3rd 
Recruit Battalion barracks and provide additional recruit barracks 
spaces that will support the increased throughput generated by our end-
strength growth. At MCRD San Diego the Recruit Support Barracks and the 
Recruit Remedial Fitness Center will free-up recruit barracks space at 
MCRD San Diego by consolidating injured recruits into their own 
barracks. We are grateful for the additional recruit barracks you added 
to our program in FY 2009.
    Approximately $140 million in Military Construction is proposed in 
FY 2010 to complete the improvements at our recruit depots to fully 
support recruit quality of life. These improvements include two 
additional barracks projects and a new mess hall proposed at Camp 
Pendleton, Edson Range (where we also train recruits from MCRD San 
Diego) as well as a mess hall addition at MCRD San Diego. Thank you in 
advance for your support of our FY 2010 program.
    At the completion of these projects (approximately 2012) all 
barracks at MCRD Parris Island and MCRD San Diego and Edson Range at 
Camp Pendleton should be adequate.

                                  Guam

    Question. You stated in your assessment that the U.S. MILCON share 
of the realignment of Marines from Okinawa to Guam will be ``much 
more'' than $4 billion. What specific needs have been underestimated, 
in your opinion?
    Answer. It is important to understand the context of the original 
$10.27B cost for relocating Marines to Guam. This cost estimate 
represents only the infrastructure and facilities development costs for 
the relocating Marines. It was developed at the very early stages of 
the proposed relocation before any significant planning had occurred or 
comprehensive assessment of the existing conditions on Guam, including 
detailed project site locations or engineering and environmental data.
    As planning has advanced, we have been able to more completely 
identify many of the costs involved in the relocation. These costs 
remain fluid as we continue our planning and environmental efforts. 
With regards to construction costs, for example, the compressed 
construction timeline (7 years to 4) along with the need to import many 
of the construction workers requires workforce housing and logistics 
support for the massive workforce that will be required on Guam during 
the short duration construction build up. This is anticipated to cost 
approximately 8% of the primary and supporting facilities costs. 
Additional construction costs include the new Navy requirement that all 
new facilities in the Department of Navy be constructed to a LEED 
(Leadership in Energy and Environmental Design) Silver certification. 
This requirement typically increases the facilities construction costs 
by approximately 8.5%. There is also a Guam Gross Receipt Tax assessed 
on all construction projects. This may result in an assessment of 4% on 
the sum costs of the total primary and support facilities for all 
construction projects. Finally, as the planning develops, it appears as 
if the project will require major improvements to existing roads and 
utilities.
    In addition to these additional construction costs, as we have 
evaluated alternatives and assessed their various impacts as a 
consequence of preparing the Environmental Impact Study, we may have 
unknown mitigation costs and the need to acquire additional land to 
insure adequate training capacity for the force laydown for the 
associated training ranges and infrastructure, and to compensate for 
environmentally protected lands. Finally, there are the numerous 
requests by GovGuam that remain undefined, with much or all of the 
discussions being interagency.
    It is anticipated that the net change from all of the above will 
add up to several billion dollars in construction costs over the 
original $10.27B estimate. Since GOJ's investment is capped, all 
additional construction costs will be funded via the U.S. government.
    Question. What specific questions will the QDR address with respect 
to the Guam realignment?
    Answer. The SECDEF has directed the QDR's Global Posture working 
group to consider two issues related to the Guam realignment: 1) The 
Asia-Pacific Training shortfall, to include shortfalls on Guam, as well 
as, joint training shortfalls across the Pacific and 2) Grow the Force 
implications on the Guam agreements and PACOM.

                             Blount Island

    Question. The Marine Corps has indicated a need for about $125 
million in MILCON improvements to Blount Island. What is the importance 
of this installation and the identified requirements?
    Answer. Blount Island is a national strategic asset and key to 
Marine Corps expeditionary capability and future force regeneration.
    The Marine Corps' acquisition of Blount Island in 2004 offered the 
Marine Corps substantial opportunity for realizing the full potential 
of the installation and its logistics support facilities. The Marine 
Corps has already expanded the use of the installation from its 
traditional role as the ``home of United States Marine Corps 
prepositioning'' to service as the logistics hub for all Marine Corps 
equipment returning from OIF/OEF. Additionally, it has most recently 
served as the deployment platform for Marine Corps equipment deploying 
to OEF utilizing the facility as the Seaport of Embarkation as well as 
the Seaport of Disembarkation.
    Blount Island will play a major role in Marine Corps equipment 
reset efforts. The most important facility requirements to support 
reset efforts at Blount Island include approximately $155 million of 
projects to improve existing operational capacity and maintenance 
operations, provide adequate storage and supply space to properly 
account for equipment, improve efficiency of ship on load and off load 
operations, and increase throughput capacity.
    These construction projects are tied directly to the war effort and 
are consistent with the projected volume. Construction improvements 
include wash rack expansion, hardstand expansion, container staging 
space, warehousing, hazardous material handling, expansion and 
improvements to ship berthing and additional depth dredging in order to 
accommodate larger ships. These requirements were previously identified 
in the installation's long range facilities plan to improve the 
installation's efficiency in executing its preposition mission. 
However, these projects are needed sooner to support critical near term 
reset efforts.
                                           Wednesday, May 13, 2009.

                     SECRETARY OF VETERANS AFFAIRS

                                WITNESS

HON. ERIC SHINSEKI, SECRETARY OF VETERANS AFFAIRS

                       Statement of the Chairman

    Mr. Edwards [presiding]. I would like to call the committee 
to order and want to welcome Secretary Shinseki and your 
leadership team to our subcommittee. It is good to have all of 
you here, and thank you for the work you do on behalf of 
America's veterans.
    The purpose of today's hearing is to hear the 
administration's budget request for fiscal year 2010. We have 
seen the raw numbers on that and look forward to hearing some 
of the specific details behind those budget numbers.
    I will make a very brief opening comment before recognizing 
Mr. Wamp and Mr. Lewis for any opening comments they would care 
to make.
    Let me begin by saying, it is the responsibility of this 
subcommittee to ensure that we are not only saying thanks to 
our heroes, but providing for their earned needs, as well. I am 
proud of the work this subcommittee has done on a bipartisan 
basis since January of 2007.
    I want to thank Mr. Wamp for his close partnership a every 
step of the way.
    With this, we have been able to increase health care and 
benefits funding for veterans over the past 2 years by $17.7 
billion, $9.9 billion more than requested by the 
administration. These funding increases will mean a number of 
things: improved access to needed health care services at our 
V.A. medical facilities. It will mean all Operation Iraqi 
Freedom and Operation Enduring Freedom veterans will be 
screened for post-traumatic stress disorder and traumatic brain 
injury.
    The increase will mean that the Department of Veterans 
Affairs will be able to address its significant backlog in 
facilities maintenance to ensure that our veterans are cared 
for in a safe and healthy environment.
    It will mean fewer veterans will be homeless, and I know we 
all long for the day where there is not one homeless veteran on 
any street of any city in America.
    Our increases over the past few years will mean our 
veterans will receive the benefits they have earned much sooner 
than otherwise. And it will mean that this generation of 
veterans will receive a greater education benefit than at any 
time in our history.
    Yet, despite all of that work together, we know that much 
work remains to be done.
    I would like to, again, thank all the members of this 
subcommittee on both sides of the aisle for our work over the 
past 2 years and look forward to continuing that work together 
as we craft in the weeks ahead the fiscal year 2010 budget for 
the Department of Veterans Affairs.
    The administration's budget request for fiscal year 2010 
totals on the discretionary side $53 billion and an additional 
$55.8 billion in mandatory spending. On the discretionary side 
of the ledger, the amount requested represents an increase of 
$5.4 billion over the fiscal year 2009 appropriation, an 
increase of over 11 percent.
    And, again, we look forward to hearing more of the details 
and the rationale behind those budget proposals.
    At this time, it is my privilege to represent our partner 
in this effort, Mr. Wamp, our ranking member, for any comments 
he would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Well, thank you, Mr. Chairman, for your 
leadership and for that partnership.
    And, Mr. Secretary, I always like it when you come, because 
we get to come to the big room here as opposed to the smaller 
room over in the Capitol, as much as we enjoy that.
    And I want to first applaud President Obama for your 
selection, which I think was a very wise one and an early one. 
And, of course, you had a long and storied history before the 
Military Construction and Veterans Affairs Subcommittee here in 
all aspects of your life. And for your whole team, we are 
grateful for your service to our country.
    I also want to say that I thought that Secretary Peake did 
a very good job. Both of you have unique skill sets and 
experience and knowledge and understanding that is very, very 
helpful to all of our veterans. And I think, frankly, this is 
somewhat of a seamless transition, even though change is 
underway.
    I also want to say what I said to a group of realtors that 
were just in my office when they asked me about this privilege 
I have to be the ranking member on the subcommittee that I am 
grateful that, in a bipartisan way, we can say that we are 
doing more and more for our veterans, in terms of funding, 
creating efficiencies and more accountability in the V.A., and 
in a bipartisan way we have met at the water's edge, so to 
speak, on this issue and continue to do so.
    And I applaud our chairman and the leadership of the 
Congress and the executive branch over the last 3 years 
particularly, as is manifested in this budget request, making a 
greater commitment to our nation's veterans at a time where it 
says all the right things and it actually does all the right 
things.
    And there are many fears out there that our country is not 
honoring our veterans. And I can actually look people in the 
eye today and say, ``That is changing rapidly.'' And I really 
believe that. And that is a good thing.
    Now, in your testimony, Mr. Secretary, you mentioned 28 
times some form of the word ``transformation.'' So I want to 
ask you a little later about that, because I do think that 
sweeping changes are still in order and I do like that spirit 
that you are coming in, that you want to change things and 
transform the V.A.
    I am a little puzzled still about what this 
administration's position is on advanced appropriations. We, as 
appropriators, think that there is a lot of value in this 
annual process of scrutinizing budget requests and that, 
frankly, that is how you bring accountability. And without it, 
the executive branch could just run the country without any 
oversight from the people, which was guaranteed under the 
Constitution.
    And I would like for you to clarify that as we go through 
today and then maybe even speak to some of the new positions 
that you have proposed and created in the V.A.
    The V.A. is a very necessary, very necessary agency, but it 
is a large bureaucracy. And one thing I would like to see is 
that it doesn't get any larger when we have so many new and 
efficient ways to deliver health care, particularly to our 
nation's veterans. Growing programs might not necessarily be 
the way.
    But having said all of that, I just can't thank you enough 
for your service to our country for so many years in so many 
different, very valuable ways. And I do stand united with the 
leadership of this Congress, committed to every man and woman 
that you represent as you sit here and testify today.
    And I yield back.
    Mr. Edwards. Thank you, Mr. Wamp, for your comments and for 
your work day in, day out on behalf of America's veterans.
    It is certainly a privilege when we have the opportunity to 
have the ranking member of the full committee, Mr. Lewis, here. 
He is no stranger to anyone who has ever worn our nation's 
uniform, because he has spent so many years of his life in 
Congress fighting for servicemen and women, their families, our 
veterans, and their families.
    He is now the ranking member of the full committee, having 
served as chairman of the full committee, chairman of the 
Defense Appropriations Subcommittee.
    And, Mr. Lewis, we are honored to have you here, and I 
would like to recognize you for any opening comments you care 
to make.
    Mr. Lewis. Thank you very much, Mr. Chairman.
    I don't intend to make an extended statement, except to say 
that, unfortunately, I am going to have to go to the Rules 
Committee in a while--the supplemental appropriations bill on 
the floor tomorrow.
    But I did want to come to recognize the great people who 
are beginning to lead this agency in a new direction. I think 
my colleagues would be interested to know that the first time I 
met Eric Shinseki was when he--the day he was being sworn in as 
chief of the Army. And he and his wife, Patty, and Arlene and I 
have become friends over these many years.
    I really do believe he has the experience and the 
capability of giving an entirely new direction to the agency, 
which I think really does need that new direction.
    So it is a pleasure to be with you. I may have a chance to 
ask a couple of questions in a moment.
    Thank you.
    Mr. Edwards. Thank you, Mr. Lewis.
    General Shinseki is no stranger to this subcommittee or any 
of us on the committee, but this is his first time here as 
Secretary Shinseki. So, for the record, let me briefly 
introduce him in saying that he is the seventh secretary of 
veterans affairs, sworn in on January 21, 2009.
    As Mr. Lewis referenced, he served as chief of staff with 
the United States Army from June 21st of 1999 until June 11th 
of 2003. He retired from active duty on August 1st of 2003 
after 38 years of service.
    And thank you and Patty both for those many years of 
service to our Army.
    His previous assignments as a leader in the Army included 
commanding general, U.S. Army Europe and 7th Army, commanding 
general of NATO Land Forces Central Europe, commander of the 
NATO-led stabilization force in Bosnia-Herzegovina.
    He served two distinguished tours of service in Vietnam and 
has a degree from West Point, 1965, and a master's degree from 
Duke University.
    And as Mr. Lewis referenced, his wife, Patty, I think their 
family commitment to our troops and their families is indicated 
by her leadership in creating the Military Childhood Education 
Coalition, which has been a very, very important and effective 
voice on behalf of the children of our servicemen and women who 
make so many sacrifices every day, even as we speak.
    Mr. Secretary, your full printed testimony will be 
submitted, without objection, into the record. I would like to 
recognize you now. Thank you for bringing your leadership team 
with you. I would like to recognize you now for any opening 
comments you would care to make.

              Statement of the Honorable Eric K. Shinseki

    Secretary Shinseki. Thank you very much, Mr. Chairman.
    And thank you Ranking Member Wamp and the other 
distinguished members of this committee, for holding this 
hearing and allowing us to be here.
    And, Mr. Wamp, thank you for those kind remarks for Jim 
Peake. He is an old friend. I picked him to be the Army Surgeon 
General while I was still serving, never regretted that choice, 
and he went on to do great things here. I am honored to be 
following him and continuing many of the good things he 
started.
    I am pleased, also, to be joined today by V.A.'s senior 
leadership. Mr. Chairman and members of the committee, if you 
don't mind, I would like to take a moment to introduce them.
    I will begin on my far left, Undersecretary Pat Dunne from 
Benefits Administration. Next to me, Dr. Gerald Cross, acting 
Undersecretary for Health, Acting Assistant Secretary for 
Management Rita Reed, Acting Undersecretary Steve Muro from the 
National Cemetery Administration, and Acting Assistant 
Secretary Steph Warren from the Office of Information and 
Technology.
    I thought having all of us here would enable us to address 
many of the questions that may come up today.
    I would also like to acknowledge the leaders of our 
Veterans Service Organizations who are also part of the 
audience and partners and advocates for our nation's veterans.
    We thank you for this opportunity to present the 
President's 2010 budget for the Department of Veterans Affairs. 
Let me also thank you for your unwavering support, as the 
chairman indicated, on this committee for our veterans through 
previous generous appropriations to our budget and for the 
stimulus funds you authorized for the department.
    V.A. has begun to lay down the groundwork to implement 
President Obama's charge to us to transform V.A. into a 21st-
century organization. V.A.'s 2010 budget request increases 
V.A.'s resources to nearly $113 billion, up 15 percent from our 
2009 resource level, the largest percentage increase for V.A. 
requested by a president in over 30 years.
    With this budget, V.A.'s transformation begins by 
increasing our investment in information technology, by 
undertaking organizational reforms, by ramping up the training 
and leader development of our workforce, and by other 
initiatives which are intended to improve the ways in which we 
serve veterans. These are essential if we are going to improve 
client services and enhance responsiveness to veterans' needs.
    Information technology is vital to achieving the 
president's vision for a 21st-century V.A. I.T. enables almost 
everything we do at Veterans Affairs. More than $3.3 billion in 
funding is needed to support our I.T. requirements and will 
allow V.A. to invest in new and emerging technologies to create 
an informational backbone which will enable efficient, 
effective and client-focused services.
    The 2010 budget provides resources to establish a new 
office for the Assistant Secretary for Acquisition, Logistics 
and Construction, the importance of which is underscored not 
only by the budget's $1.9 billion in capital funding to 
resource it, but by the more than $13 billion in products, 
services and V.A. contracts that are handled each year. We need 
this office to bring all of that together in a smart way.
    There are few higher priorities before us than to ensure a 
seamless transition from active military service to civilian 
life. V.A. will continue to collaborate with the Department of 
Defense on transition initiatives, including development and 
implementation of a joint, virtual, lifetime electronic record, 
a presidential priority.
    This budget request funds health care for a new and 
changing veteran demographic. Women veterans, for example, are 
increasingly reliant on V.A. The budget provides $183 million 
to meet their specific health care needs.
    The budget includes $440 million to improve access to care 
for veterans in rural and highly rural areas and $5.9 billion 
for both institutional and non-institutional, long-term care 
services.
    This budget makes important commitments to newly qualified 
priority group eight veterans and to the expanding numbers of 
combat veterans from ongoing operations. We are requesting $2.1 
billion to meet the health care needs of veterans who served in 
Iraq and Afghanistan.
    And thanks to the leadership shown by Congress and the 
commitment expressed by President Obama, we will implement an 
expansion of eligibility to health care for priority group 
eight veterans beginning in this summer through the next 4 
years, implemented over time.
    Our 2010 budget requests nearly $4.6 billion for expanded 
outreach and enhanced services for mental health and traumatic 
brain injuries. This budget also provides $47.4 billion in 
total resources for V.A. medical care, an 11 percent increase 
over the 2009 resource level.
    And, importantly, it increases V.A.'s investments in 
research, patient-centered health care, and technology to 
support our commitment to client-focused health care services.
    The president is committed to expanding proven programs, 
which include joint initiatives with other cabinet agencies and 
nonprofit organizations to combat homelessness and requests 
$3.2 billion to address the estimated 154,000 veterans who 
sleep on our streets every night.
    The $1.8 billion provided to the Veterans Benefits 
Administration is 25 percent higher than in 2009. Our primary 
focus is to strengthen our investments in a paperless 
infrastructure to leverage ways to decrease waiting times for 
veterans' claims processing.
    V.A. provides continuity of care until veterans are laid to 
rest. To properly honor them, the president's budget request 
includes $242 million in operations and maintenance funding for 
the National Cemetery Administration.
    Veterans are V.A.'s sole reason for existence. In today's 
challenging fiscal and economic environment, we must be 
diligent stewards of every dollar if we are to deliver timely, 
high-quality benefits and services to the men and women we 
serve.
    While we recognize that the growth in funding requested for 
2010 is significant, we also acknowledge our responsibility for 
being accountable and showing measurable returns on this 
investment.
    Mr. Chairman and members of the committee, I assure you I 
will do everything possible to ensure that the funds Congress 
appropriates will be used to improve the quality of life for 
veterans and the efficiency of our operations.
    Thank you, and I look forward to your questions.
    [The prepared statement of the Honorable Eric K. Shinseki 
follows:]

[GRAPHIC] [TIFF OMITTED] T0526D.070

[GRAPHIC] [TIFF OMITTED] T0526D.071

[GRAPHIC] [TIFF OMITTED] T0526D.072

[GRAPHIC] [TIFF OMITTED] T0526D.073

[GRAPHIC] [TIFF OMITTED] T0526D.074

[GRAPHIC] [TIFF OMITTED] T0526D.075

[GRAPHIC] [TIFF OMITTED] T0526D.076

[GRAPHIC] [TIFF OMITTED] T0526D.077

[GRAPHIC] [TIFF OMITTED] T0526D.078

[GRAPHIC] [TIFF OMITTED] T0526D.079

[GRAPHIC] [TIFF OMITTED] T0526D.080

[GRAPHIC] [TIFF OMITTED] T0526D.081

[GRAPHIC] [TIFF OMITTED] T0526D.082

[GRAPHIC] [TIFF OMITTED] T0526D.083

[GRAPHIC] [TIFF OMITTED] T0526D.084

[GRAPHIC] [TIFF OMITTED] T0526D.085

[GRAPHIC] [TIFF OMITTED] T0526D.086

[GRAPHIC] [TIFF OMITTED] T0526D.087

[GRAPHIC] [TIFF OMITTED] T0526D.088

[GRAPHIC] [TIFF OMITTED] T0526D.089

[GRAPHIC] [TIFF OMITTED] T0526D.090

    Mr. Edwards. Mr. Secretary, thank you very much.
    We will begin questioning under the 5-minute rule.
    Mr. Lewis, I know you have responsibilities at the Rules 
Committee. I don't know how tight that schedule is, but I would 
be happy to recognize you if you would like to begin the 
questions, which would free you up to----
    Mr. Lewis. Let's go to the ranking member. Regular order is 
fine.
    Mr. Edwards. Are you sure?
    All right, I will begin with Mr. Wamp.
    Go ahead, Mr. Wamp.

                             TRANSFORMATION

    Mr. Wamp. Well, I just want to jump right in with what I 
said, Mr. Secretary, on the transformation and exactly how you 
see that playing out. You know, my history here goes back to 
having high expectations with CARES and what it might lead to 
and had hoped that maybe, by perception at least, some of the 
more antiquated facilities in places like the Northeast, where 
veterans still live, but more used to live, and then they move 
to places like where I live, where the land is cheap, and water 
is abundant, and the climate is good, and--a little Chamber of 
Commerce promotion there, but we are growing in our veteran 
population in the southeast, in the mountains and lakes of East 
Tennessee.
    And we don't have the facilities that they do in other 
parts of the country. And as I said to you in my office when 
you honored me and came last week, we had hoped that CARES 
might lead to more facilities. I know that the CBOC approach is 
very helpful, very good. Super CBOCs move in more and more 
programs and benefits into the super CBOCs for the veterans.
    But how does the transformation, you know, from CARES to 
what your plans are now going forward, how does it play out? 
What are the big initiatives? How does it shape the 
infrastructure and the face of the V.A. for the veteran, in 
terms of what they will see and the benefits that they will 
actually derive?
    Secretary Shinseki. I would say transformation is a 
journey. It is hard to describe it as a destination. And I will 
tell you where we are starting.
    We start by looking at everything we do, every line of 
operation, to make sure we understand what the relationship is 
to the mission we have, which is care of veterans.
    And we know we have some hiccups here. We don't process 
claims quickly enough; there is an inordinate amount of waiting 
time for veterans.
    We know that--at least in our house, I.T. is sort of the 
elephant. So much of what we do is tied to I.T., whether it is 
electronic health records, which has been a tremendous shot in 
the arm for not just V.A.'s medical services, but for folks who 
have also borrowed that electronic health record, it has been 
very helpful.
    But there are so many other aspects of what we do in V.A. 
that is still paperbound and caught up in processes. We don't 
know how to get beyond that until we put in I.T. backbone that 
fully links what we do and what we say we should be doing.
    Part of looking internally is also looking at ourselves and 
ensuring that--I wouldn't call it efficiencies, but it is that 
what we do day to day counts towards the execution of that 
mission. I can tell you that, in the 3 months here since our 
arrival--we cancelled some conferences and meetings that didn't 
quite meet that definition.
    And so we have begun to strip away some of those probably 
good ideas at one time and maybe a good idea at some time in 
the future, but for right now, for where we are and what we 
expect out of our own organization, we are challenging all the 
assumptions about what we do, how we spend money, and what the 
payoff for the mission is.
    Internal to that look is looking at how we develop our 
people. The V.A. is not unlike some of our service departments 
where people come in at an entry level and stay for a career, 
20, 30 years. I met a lady who was in the elevator the other 
day that has been there 50 years.
    The challenge to us is to understand that we have a 
development process, a training program, an education effort 
that takes people who are going to be with us for that extended 
period of time and grow them, leader development skills, and 
prepare them for upward mobility in the organization so that we 
are gaining from their experience of serving with us.
    Nothing magical here. Good organizations do this. They 
invest in their human resource element, they grow their talent, 
and they benefit over time from those investments. I think that 
is the start point.
    We have asked questions about why 40 years after Vietnam we 
are still adjudicating Agent Orange, why 20 years after the 
Gulf War we are still wrestling with Gulf War illness. My sense 
is that these answers are best derived--at least we think that 
historically we felt that they are best derived through the 
scientific method, which is collecting a lot of data, writing 
papers, having discussion, and at some point agreeing that this 
is probably service-connected.
    Unfortunately, that invests a lot of time. Veterans, on the 
other hand, don't have all that time. About 3 years into their 
first reunion after combat operations--Agent Orange stopped 
being used in Vietnam in 1970--my sense is, the veterans who 
sat around the table and compared personal notes realized they 
had afflictions that were similar, and probably came to a 
conclusion much faster that something was wrong.
    It has just taken us much longer to come to the same 
conclusion. And over that 40 years, we have acknowledged that 
soft tissue sarcoma, respiratory cancers, on and on and on, 
are, yes, tied to Agent Orange.
    So part of challenging our assumptions is going to be, is 
this the way we want to continue to do this? Because we know 
where history has brought us, still adjudicating Parkinson's 
disease today as a connection to Agent Orange.
    If it is the way we choose to continue to do this, then 20 
and 40 years from now, the injuries from this war will still be 
being adjudicated. And I think we owe veterans a better 
response, a quicker response. And this is part of this effort 
to transform--it is to challenge the assumptions we have been 
operating with for 40 years.
    Mr. Wamp. I will follow up in the next round.
    Mr. Edwards. Okay. Thank you, Mr. Wamp.
    Mr. Farr.

                            INTEROPERABILITY

    Mr. Farr. Thank you very much, Mr. Chairman.
    And I want to follow up on Mr. Wamp's questioning. We are 
really going to miss him when he leaves this committee. He 
really, I think, senses where the rubber meets the road.
    I just want to think through the big picture. A person 
cannot be in your files in the veterans department unless you 
have first been in the files of the Department of Defense, 
right? I mean, it is an assumption that there is a starting 
point in the Department of Defense, and after you get out of 
the Department of Defense, you get into the Department of 
Veterans Affairs.
    So a lot of the initial data is really there. And it seems 
to me that is the area that the VA is very much aware of, but 
we in Congress need to know more how we can push to make that 
data interoperable.
    Interoperability is a big word around here. You coined it 
many years ago in the military, then it got into the civilian 
side through law enforcement. Essentially, it means you could 
have communication that works between law enforcement and fire 
and other kind of first responders.
    I think it is also now carried to the next phase of 
information sharing. It seems to me that we have not yet made 
the Department of Defense's information interoperable with the 
Department of Veterans Affairs.
    You told us the VA is the world leader in setting up 
electronic medical data, and yet when you go to get all the 
medical information from DoD their files won't move over.
    I am really interested because, as I see Operation Enduring 
Freedom and Operation Iraqi Freedom, soldiers come back--and 
they are going to go back to these communities all over the 
United States and in our territories--are you assessing what 
that impact is going to be on the ground? And how do you do 
that?
    And, for example, if you decide to build a CBOC clinic that 
Mr. Wamp was talking about, how long does it take to get that 
clinic online? What can we do to make sure that this process 
can be improved? How does the V.A. handle the excesses in 
demands in the meantime?
    And if, indeed, we were going to provide services to 
priority six, seven and eight veterans in fiscal year 2010, 
would there be sufficient funding for the CBOCs to handle the 
increased demand? And how long would it take the V.A. to meet 
that demand?
    Secretary Shinseki. Let me take the question about CBOCs. 
The amount of time I think is a function of--it depends, the 
size of the facility and the demand. It can be as quickly as a 
couple of years start to finish in the process, where patients 
are being seen. I think 2 years, there is a fast-track method 
for doing this.
    But otherwise, if it is a normal, routine decision to stand 
up a CBOC and it fits into a pattern, it will go into the queue 
and could be a little longer than that.
    Mr. Farr. Yes. Will every veteran you receive, say, for 
medical purposes have with them the military medical record?
    Secretary Shinseki. First of all, Mr. Farr, not every 
member of the military leaving the service necessarily comes to 
enroll as a veteran. And hence, this is part of the effort--to 
answer your question, they do have one--my recollection of my 
own time, we carried around our own paper set of records as a 
backup.
    Both DOD and V.A. have electronic health records, but they 
are not totally integrated. You can take information out of 
one, but they are not totally useful in terms of passing 
records.
    Having said that, however, Secretary Gates and I have 
personally been working on this issue. We have met four, maybe 
five times and have set into motion the process by which our 
agreement to create something called uniform registration, 
where a member joining one of the military services today is 
automatically registered----
    Mr. Farr. That is cool.
    Secretary Shinseki [continuing]. In the V.A----
    Mr. Farr. That is smart.
    Secretary Shinseki [continuing]. That decision, that 
agreement between us is really a forcing function for both 
departments to put their assets and their brain power together 
to come up with that single, joint virtual electronic record 
that President Obama publicly announced here a couple of weeks 
ago with both Secretary Gates and I present.
    The intent is to have exactly what is being described here, 
and this is the seamless transition. The problem has been that 
seamlessness between midnight or the day the uniform comes off 
and 8 o'clock the next morning doesn't exist. And so we are 
attacking it over time.
    When that youngster puts on the uniform, some have asked, 
why is the V.A. reaching so early to create this joint record? 
Well, when that youngster puts on the uniform, servicemen's 
group life insurance that is mandatory for every member in 
uniform, administered by the V.A., if that youngster chooses to 
take out a college loan and get education on their own, 
administered by the V.A., guaranteed home loans, administered 
by the V.A.
    So the perception that you suddenly become a veteran with 
entitlements to benefits and services when the uniform comes 
off is a little misleading. Those entitlements are there well 
before that, which argues that we ought to have this sharing of 
information. As we do this, we will begin to solve some of the 
issues that you are----
    Mr. Farr. And then to bring those CBOCs online, how long 
does that take?
    Dr. Cross. There are several types of CBOCs. If we were 
doing what we call an outreach clinic, which is really run by 
the VISN, the regional command, so to speak, they can do that 
fairly quickly, perhaps even in less than a year, and have a 
small part-time clinic and a leased facility located in that 
area.
    But typically, as the secretary said, a couple of years in 
the planning process, the budgeting process, hiring, setting up 
the clinic, getting the outreach to our veteran population to 
let them know where it is going to be situated and so forth.
    And may I say, sir, I am a patient at the V.A. And you talk 
about the interoperability. Progress has been made. And on my 
last visit, they pulled up my military record and my lab tests 
from when I was in Georgia as a soldier and compared it to my 
current test, and that was very valuable.
    Mr. Edwards. Thank you, Mr. Farr.
    Mr. Lewis.

                           HOMELESS VETERANS

    Mr. Lewis. Thank you very much, Mr. Chairman.
    Some years ago, Mr. Chairman, I had the privilege of 
essentially chairing a piece of this committee when I was 
responsible for V.A.-HUD. And during those days, I probably 
didn't have the best relationships with the VSOs as I might 
have wanted, in no small part because it was my view that, 
while we had very fine bipartisan support here within the 
Congress to get funding for veterans' efforts, servicing our 
veterans, we had great difficulty following the money down to 
where the veterans lived, to the hospitals, et cetera.
    And the VSOs did a great job here with us, but the need for 
following to the community and insisting that there be real 
change has taken a long time. I am pleased to say there has 
been progress there.
    It took us a long time, for example, within our committee, 
also, to get the Navy and Marine Corps to be able to 
communicate with each other. We have made progress there, but 
we are far from perfect, so that the effort that you are 
talking about, communicating with those who are serving the 
soldier in uniform and the veteran who overnight changes his 
position, is a very worthwhile effort, but a very, very big 
challenge.
    I must say that, in your testimony and in the chairman's 
comments of concern about the homeless, there is demonstration 
there of an area where we might make great, great progress. In 
California, we made a big change, because we used to solve 
people's mental problems by throwing them in hospitals. We 
decided that we would make it tougher to put people in 
hospitals with the promise that there would be clinics in the 
communities where they could get their medication and thereby 
begin to rebuild their lives. We made it tough to enter the 
hospitals. We never built the clinics.
    This is a place where, in terms of the homeless, your 
administration could have a huge, huge effect, if we take our 
basic hospital system and make clinics more readily available 
with a design to deal with those soldiers who long served who 
now are in a desperate circumstance, we might get a very 
significant percentage of those homeless off the street.
    So I would be interested in your reaction to that. And I 
think you know--it is my intention to have us work very closely 
together. Thank you.
    Secretary Shinseki. Mr. Lewis, thank you for that question.
    The homeless issue is a particularly vexing one. I mean, I 
can tell you that 154,000 veterans are homeless tonight--today, 
men and women, and veterans from every generation, including 
the ones who are currently in operation in Afghanistan and 
Iraq, so that is devastating, this area is.
    Our effort is to prevent the first step of homelessness. 
And so it isn't just about, going and finding the ones that are 
on the street today. It is, what are we doing with VBA's home 
loans to prevent foreclosures and working with veterans who are 
in the financial tough times, sometimes not of their making, 
just the economic conditions, giving them every option to stay 
in their habitations? If we can do that, we have prevented that 
first step.
    But once we are dealing with folks who are homeless, they 
fall in a category of joblessness, homelessness, depression, 
substance abuse, potential suicide. Veterans lead the country 
in those statistics.
    And in the past several years, we have been successful in 
reducing the homeless number. And this is an estimate; I will 
grant you that. It is 240,000 down to 154,000 today.
    We have made progress and we think we have some good ideas 
on how to break the cycle of homelessness, 80 percent of them 
after the first year are still living--after they finish our 2-
year program--are still living successfully independently.
    So we think we have opportunities here, and we do intend to 
go after that. We are putting $3.2 billion against this area in 
2010 budget. But we know we can't do it alone.
    This is one of those issues that sitting in an office in 
Washington with a 1,000-mile screwdriver to fine-tune something 
does not work. We have to reach out and create partnerships 
with people in the communities that deal with these issues. 
Every community in this country has part and parcel this larger 
issue.
    Twenty-six million dollars we are going to use to partner 
with Housing and Urban Development, with Labor, with Education, 
Health and Human Services, Small Business Administration to put 
together a package of tools in which we get folks off the 
street, we wean them off whatever substance may be there, and 
then we begin the process of bettering this 80 percent record a 
year later.
    Mr. Lewis. I believe that the veterans base of personnel 
could be a fabulous place, of course, to make breakthroughs 
relative to medical research, providing better service to all 
Americans, but particularly to veterans. Like you, veterans 
often come out of service and their paper--all their background 
stuff is in paper in a folder.
    Well, it wasn't so long ago in my own veterans hospital 
that our staff found that veterans were walking around the 
hospitals with those same folders and there was no real 
information base. They didn't get service because the records 
weren't straight and nobody could ever find them.
    That is changed. It is very significant that we have seen 
that change.
    Well, I would hope that we recognize that dollars do not 
reflect all of our solutions. And if we can better coordinate, 
as you suggest, with NIH, with the research hospitals, as the 
Pettis Memorial Hospital does with Loma Linda, the work they 
are doing in terms of breakthroughs for prostate cancer and 
breast cancer treatment, for example, is pretty phenomenal, and 
it is because of the exercising of work between the veterans 
being served and research hospitals.
    So with that, the thrust of your testimony is very pleasing 
to me, and I would hope you would exercise those pathways.
    Secretary Shinseki. Thank you. Thank you, sir.
    Mr. Edwards. Thank you, Mr. Lewis.
    Mr. Israel.
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to follow up on Mr. Lewis' 
eloquent words about homeless veterans. And, Mr. Secretary, I 
want to thank you for visiting my office 2 weeks ago. I enjoyed 
the visit immensely.
    You know, when we talk about 154,000 homeless veterans, I 
think it is important to put a face on that, because it doesn't 
really resonate. People can't appreciate the scope of the 
problem unless they understand what a homeless veteran is all 
about.
    And I told you the story, Mr. Secretary, of Joe Sukup, who 
came to my office on Long Island. He had fought in Vietnam, had 
PTSD, received medals from his service in combat in Vietnam, 
but ended up living in a truck, and on Valentine's Day, on a 
snowy night, decided to kill himself.
    And whether it was divine intervention or maybe something 
else, he decided to drive to the Northport V.A. And he went 
into the Northport V.A., and he said, ``I was thinking of 
killing myself tonight.'' And a caseworker there said, ``Joe, 
we are going to help you.''
    And to this day, he would say that is the first time 
somebody from government said, ``We are going to help you.'' 
And they put him on a trajectory to get help, and we got him 
his retroactive payments. And Joe Sukup is actually now, Mr. 
Chairman, organizing clinics for veterans on Long Island who 
have PTSD.
    So that is a story of failure turned to success, but that 
is only 1 out of 154,000.
    I commend you, Mr. Secretary, and the administration for 
putting this critical focus into homeless veterans. One of the 
concerns I have is that $3.2 billion, is it enough? Of the $3.2 
billion, $2.7 billion is going to health care and $500 million 
will go to supportive services.
    In a climate of tight budgets and fiscal responsibility, I 
understand the pressures to make sure that we are safeguarding 
every dollar. But it seems to me that homeless veterans ought 
to be an absolute priority. And are there other things that we 
could be doing, in your view?
    Are there innovations that we should be looking at? Could 
you do more if this committee or subcommittee were to increase 
the level of resources that you have to make sure that all of 
the Joe Sukups are being treated, identified, and put on the 
trajectory that he found?
    Dr. Cross. Sir, I appreciate those remarks. There is always 
more that can be done. Our view is that no veteran should be 
homeless, no veteran needs to be homeless. We have the programs 
that, if we can bring them to bear for that veteran, we can do 
something about that.
    The core issues, of course, are mental health and substance 
abuse, and those are what we have to address. That is the 
typical reason why they are homeless.
    Two broad categories of things that we are doing relate to 
Grant and Per Diem and the work that we are doing there, but 
particularly I want you to know that in transition housing we 
are moving from--we now have 11,000 beds and are expanding over 
the next several years to 15,000 beds.
    And in the HUD-VASH program, our plans are right now----
    Mr. Israel. I am sorry. The HUD----
    Dr. Cross. HUD-VASH, V-A-S-H.
    Mr. Israel. Okay.
    Dr. Cross. Expanding from about 10,000 to about 20,000 in 
the near term, I think that will make a difference. And as the 
secretary said, I think we have already made some progress over 
the past couple of years as we measure it, and it is hard to 
measure it.
    But this is something that we are committed to and that 
everyone of us, I think, on the staff feel that no veteran 
should be on the street.
    Secretary Shinseki. Mr. Israel, if I could follow up, I 
think the reason that the allocation of funds goes the way 
described here is so much of it what appears to be medical 
services, it is because that is the first step in beginning the 
process of recovery.
    If we can't get through the substance abuse and some of the 
other mental health issues that may be present, it is hard to 
get to the education, the job counseling, and the rest of this. 
And so it essentially begins as a sort of a medical services 
issue.
    Mr. Israel. Well, I appreciate that, Mr. Secretary. I know 
this is a front-end investment, and I am sure that most, if not 
all, of my colleagues are interested in continuing to work very 
closely with you so that we can grow our focus on homeless 
veterans from here on.
    And I thank you very much for your leadership.
    Mr. Edwards. Thank you, Mr. Israel.
    Mr. Crenshaw.

                             TRANSFORMATION

    Mr. Crenshaw. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for being here today. I know 
that you have got a tremendous background of dedication and 
taking care of the men and women in uniform, and I know you are 
going to take that same dedication and commitment in this new 
job. So thank you for all of that.
    And it is really good to hear you talk about 
transformation. There is an old saying that change is 
inevitable, but growth is optional. And I think you recognize 
that in the sense that, change is going to come, but it is what 
you do with that kind of change.
    And I think the growth part is the transformational part. 
And I think, as you pointed out, when you have got a big 
bureaucracy like you have got, you have got to start looking at 
yourself and looking from within.
    And one of the things I saw that you are going to have is a 
new office of the Assistant Secretary for Acquisition, 
Construction and Logistics.
    And so I wanted to ask you, in terms of this 
transformation, this new office, this new department, can you 
tell us what your, view of the role it will play. Maybe tell us 
what some of the functions are that are being taken care of by 
existing departments--and, obviously, some are going to be 
brand new--and then maybe talk about how, what kind of control 
you will have within that to make sure that it is conducting 
oversight.
    Secretary Shinseki. This is to formalize a new office that 
was stood up here recently where acquisition, logistics and 
construction are co-located as a subject area.
    We contract in a variety of places. We do acquisition in 
different formats and different places. And we need a single 
point where we can see what our priorities are, how the money 
is being invested, and what the returns are. Right now, that is 
a little difficult to see.
    And I am used to a structured acquisition process in which 
there are objectives to be met prior to a decision to acquire 
something and then there are deliverables over time.
    When you don't have that kind of a process, you go 3 or 4, 
10 years, and you find out something doesn't work. And there 
has been just one too many example of that in the history of 
our experience. And we need not to do that anymore.
    And we need to put together a disciplined acquisition 
process where all of this comes together, you have to make your 
case for why this is important, what it is going to cost, and 
then deliver. But it is to discipline our processes.
    We are looking at 16 people for this--to be added to this 
office, to create this new office for the assistant secretary. 
And we have provided some budget resources for them to begin to 
stand up the office.
    But it is to discipline our process that covers 152 
hospitals, 755 outpatient clinics, 230 vet centers, and 50 
mobile vans, and 57 regional offices. We need to discipline the 
way we see our priorities and also how we spend money on 
acquisition.
    Mr. Crenshaw. So it would be fair to say right now, some of 
that happens, but it is piecemeal, and this is trying to bring 
things together, have one office specifically review and 
analyze all those projects and bring about a better result?
    Well, thank you, sir. And I think that is a great program.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Salazar.

                    FITZSIMMONS ARMY MEDICAL CENTER

    Mr. Salazar. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here. And 
appreciate all your hard work over the last several years and 
your dedication to this country, and always want to tell you 
that I appreciate your promptness when we call you for a 
meeting or a phone call, as well as Undersecretary Muro.
    Let me just ask you--and thank you, first of all, for the 
Fitzsimmons Army Hospital. I guess we will be breaking ground 
on that shortly, or you have already broken ground? And can you 
tell me where we are on the fiscal year 2010 budget for that 
facility?
    Secretary Shinseki. This is the Denver hospital?
    Mr. Salazar. Fitzsimmons, yes, sir.
    Dr. Cross. Sir, we have for funding for 2010 $119 million 
in the budget. Future funding would be $493 million. And that 
is the information.

                          INFORMATION SECURITY

    Mr. Salazar. Okay. I do appreciate that.
    And one other thing. I know that my work through the 
Veterans Affairs Committee over the last several years, we have 
encountered some problems in V.A. with identity theft or with 
identity compromise, where we had lost those computers--one of 
the members.
    With your push on I.T., what are we doing as far as 
cybersecurity? Could one of you address that?
    Dr. Cross. We are working closely, sir, with our I.T. 
colleagues to make sure that security among our physician staff 
and our nurses, where that hasn't always been the foremost 
concern that they have focused on, it does become something 
that they think about, that we make it a part of our culture.
    And I think that is the key for us. We are making a 
difference in terms of the people who use the I.T. in terms of 
their culture, making this something that they think about that 
is a routine part of their practice every day. And that has 
been a bit painful at times, but we are working through that, 
and I think we have made some progress.
    Mr. Salazar. So are you committing certain resources to the 
security portion of the I.T.?
    Mr. Warren. Yes, sir. To give you a laydown on how we are 
approaching information--how we are dealing with cybersecurity 
and information protection at the department, there is 
approximately $120 million in the fiscal year 2010 request to 
fund those programs, not just at the technical level of putting 
systems and controls into place, but also training for the 
staff, so having annual security awareness training and privacy 
training for all employees at the department so they understand 
that obligation to be a steward of the veterans' data.
    The approach that we have taken is fixing the liabilities 
that we are aware of, the things that have been identified as a 
result of I.G. investigations, of GAO audits, monitoring our 
systems to understand if we are in an insecure condition and 
what we need to do to protect it.
    So active monitoring, we have a network and security 
operations center that monitors 24/7 what is happening at our 
perimeter, are folks doing bad things, and then responding to 
that.
    We are standardizing our desktop computers and our systems 
to make sure that, when things get out of balance, when you 
have all these different unique systems, it is hard to protect 
them. So standardizing those so we can put the controls in 
place to make sure we are able to secure them and secure them 
at a reasonable cost.
    We are controlling the use of sensitive data in terms of 
tracking where it is and putting policies and procedures in 
place to make sure that the employees understand, if you are 
sending something that has personally identifiable information 
in it, we need to encrypt it when you send it and you do not 
send it off to somebody who is not an employee or is not 
authorized to access it.
    Again, I spoke to enhancing training and awareness, a very 
active engagement with the staff, national training programs, 
videos, trying to be creative in reaching out to the V.A. 
employees so they understand it is very, very important to 
husband that information and to protect it.
    We are also making sure that, as we develop new systems, 
that we are building security into them, that they are not an 
afterthought.
    Hopefully that gives you a sense of how we are taking on 
information protection at the department, sir.
    Mr. Salazar. So how have you changed it from or has it been 
changed from, you know, 2 years ago?
    Mr. Warren. The way we have taken on your question of what 
has changed, when the incidents took place, there was a dearth 
of policy, in terms of how you should approach it. It was very 
fragmented. So with some areas, it was understood how you need 
to deal with it. In those areas, there may have been policy, 
but no procedure, or even folks not doing what they needed to 
do.
    So tremendous effort went into making sure policies were 
put in place to explain to folks obligations, and then 
procedures to change how we do things, and then down to the 
level of at the sites making the changes and fixing the 
systems.
    I have a dashboard on my desk that tracks all the open 
findings and progress made location by location, where are 
they, so I have a constant update, what is happening, and if I 
see things going out of kilter, being able to reach in and say, 
``You are missing your focus here. You need to get into that.''
    Secretary Shinseki. Mr. Chairman, I would just add a 
comment here to Mr. Salazar's questions. Two things: We begin 
our day, 8 o'clock every morning, with an update on exactly 
these kinds of issues. It is a daily brief on where we stand, 
what do we have to do the rest of the day to assure information 
security and our links are working?
    If I might, let me go back to the question you initially 
asked about Denver, just give you a little more information: 
$119 million this year, but in the near future, in order to 
stay on our timelines to deliver that hospital by summer of 
2013, we will have to work project funding for another $493 
million in order to complete the project.
    Site acquisition is complete. They begin moving dirt 
shortly, if they haven't already started. Vertical construction 
begins fiscal year 2010.
    Mr. Salazar. Thank you, sir.
    Mr. Edwards. Thank you, Mr. Salazar.
    Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman.

              MEDICAL CARE FOR VETERANS IN RURAL LOCATIONS

    Mr. Secretary, it was great talking to you in the office 
the other day. When we were talking, we spoke about the 
possibility of adjusting the rural clinic eligibility circles, 
bringing the V.A. health services to more underserved 
communities like Stephenville, Texas. We also spoke about the 
possibility of use of part-time or mobile outpatient clinics.
    I see the budget includes a request of $440 million to 
continue improving access to medical care for veterans in rural 
areas. Can you talk about how that money will be spent toward 
the goal of bringing services to rural veterans without having 
them to drive 100 miles or more? Is there a plan to utilize 
some of that funding to re-analyze the VHA strategic planning 
process through which the community-based outpatient clinics' 
locations are selected?
    Secretary Shinseki. I can't answer specifically for that 
location, but I will have a better answer for you.
    Mr. Carter. Well, really I am just looking at a rural 
veterans in general, and what plans do you have for those folks 
who are a little outside the circle?
    Secretary Shinseki. Yes, I just would like to tell you that 
the budget includes $440 million to improve access to medical 
care for veterans in rural and highly rural areas, including 
the use of health resource centers that may be available out 
there or mobile clinics, rural health consultants, and outreach 
clinics.
    And the whole intent is to ensure that we are not medical 
center--and that has been the migration over the last decade. 
Great medical centers, but then, how do we get that moved out 
to where veterans live?
    And there are three definitions that sort of, in the V.A., 
governs the geography of this country. There is urban; there is 
rural; and there is highly rural. So two-thirds of our 
definitions acknowledge the fact that we are dealing with an 
unusual circumstance, smaller numbers, but we still owe them 
the services we provide in the urban centers, and this is part 
of our attempt here to close that gap.
    Mr. Carter. I not only have an interest in this area 
because of what we talked about with Stephenville, but on the 
Transportation Subcommittee, of which I am a member, we 
discussed the servicing of rural areas with a transportation 
network, up on the East Coast and the New England area, and it 
is really designed to get veterans places, because they are 
scattered out in small counties around everywhere. And they use 
a bus system.
    I sat down with a map of Texas, and in reality, there would 
be no profitable bus system that could go pick up one veteran 
in one county in the western part of our state.
    So we have got to be aware that there are a lot of veterans 
in west Texas, but they are scattered out over a wide area.
    I thank you for what you can do, and we discussed it at 
length in my office. W have to take care of the veterans that 
also like to buy land and get away from things, as a lot of 
them do, but we are still responsible for their health care.
    So I know you will keep that on the front burner.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Judge Carter.
    I believe we have time for Mr. Dicks to finish his 
questions before we need to recess for three votes.
    Mr. Dicks.
    Mr. Dicks. Mr. Secretary, we have a great confidence in 
you, and I appreciated our chance to talk the other day. And I 
also appreciate the fact that we put in a clinic in Port 
Angeles, Washington. It is not a full-fledged clinic, but it is 
a partial clinic. We have one in Bremerton, too.
    A lot of veterans, though, have to get up at 2 o'clock in 
the morning up at Clallam Bay and drive all the way to Port 
Angeles, all the way down across the Hood Canal Bridge into 
Seattle. It takes about 5 or 6 hours. And all they have is a 
volunteer--to drive the truck.
    So I don't know if we can do any better than that. I think 
we put--I think the administration put money in here to keep 
working on this rural issue. People really appreciated the 
clinic. We didn't have one in Port Angeles, so for a lot of 
those people, being able to go there was a big step forward.
    I think there was also a clinic--another small area at the 
Elwha, an Indian reservation. They just put in a new health 
care clinic, and we are using that as well.

                                BACKLOG

    You and I talked about backlog. And I know there has been a 
tremendous effort to get the backlog under control. What is the 
backlog on people who were trying to get in to the hospitals--
and how long do they have to wait? I am sure it is different by 
district or VISN area. And I think we are VISN 21.
    Do you have any idea what those numbers are?
    Dr. Cross. Yes, sir, we do. We measure nationwide. We 
measure by VISN and by locality. And I can certainly have my 
staff or I go over it with your staff any time and give you the 
very specific numbers that we have.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0526D.091
    
    [GRAPHIC] [TIFF OMITTED] T0526D.092
    
    But our standards are for mental health that a new patient 
is to be evaluated within 24 hours. And that may be done by 
phone or it may be done in person, and that is 7 days a week, 
and that is our standard.
    Our second standard is that, once that is done, they are to 
have a comprehensive mental health evaluation by a mental 
health clinician within 14 days.
    We are measuring that right now. And across the board, 
including your area, 95 percent of the time we are meeting that 
standard of 14 days.
    Now, for primary care and specialty care, across the board 
right now, it is running 97 percent and 98 percent, primary 
care 98 percent, specialty about 97 percent, meeting our 30-day 
standard.
    Mr. Dicks. Well, that is good. I know you are working on 
that and trying to keep that at a high level, which we 
appreciate.

                              HOMELESSNESS

    You know, we just built or revitalized a facility at 
Retsil, Washington, and I know they now have a capability to 
handle some homeless veterans. Do you do that a lot with the 
states, I mean, when they are building their veterans homes, 
state veterans homes, to have them make it accessible to 
homeless veterans? Or should we be doing that?
    Dr. Cross. Well, we have a couple of programs. We have the 
Per Diem program, where we work with a local community to 
provide transitional housing, and then we work with the HUD-
VASH program to provide vouchers for what we want to be long-
term solutions.
    Mr. Dicks. See, this is a state veterans home.
    Dr. Cross. State veterans nursing homes are based on 
medical conditions and those situations more so than being 
homeless.
    Mr. Dicks. Well, in this one, they must have worked out 
some way to do it, because they do have homeless veterans 
there, as well. I think using the existing facilities, if you 
can, makes sense. This was a $35 million upgrade of this 
facility. It is a very nice facility.
    Secretary Shinseki. We have used a number of venues using 
excess capacity, and dedicating it to a homeless population is 
one. Another is, we partner with some of the nonprofits out 
there, Catholic charities. You know, in Chicago we have got a 
terrific partnership working, and it just so happens that that 
homeless shelter is next door to one of our outpatient clinics.
    So the availability of health care for those homeless 
veterans, good fit. And then, on a second floor, we have a vet 
center, which is run by vets, and so they have this camaraderie 
effect. And inside the vet center, there is a bank of computers 
for job searchers in which there is a counselor helping folks 
with that part of it.
    So dealing with the homeless issue has many hats to it. And 
we find great success when we can bring to include folks in the 
community together to help us. We get a better return on the 
investment.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Dicks.
    Members, we have got about 6 minutes, but not many members 
have voted yet, so we have got time to get over. We will stay 
in recess until after the end of the third vote. If we could 
try to get back as soon as possible, for those that can come 
back, we would appreciate that.
    Thank you
    [Recess.]
    Mr. Edwards. I would like to call the committee back to 
order.
    Mr. Secretary, thank you, and all of you, for the 
inconvenience of having us go vote. I have often said this job 
would be a good job if it weren't for having to vote. But we 
appreciate you staying here.

                         ADVANCE APPROPRIATION

    I would like to begin my first round of questioning by 
addressing the issue of forward-funding for the V.A. A decision 
has not been made as to whether in the fiscal year 2010 budget 
we will also include forward-funding to fiscal year 2011, but 
the administration supported that, and the budget resolution 
allows that.
    Mr. Wamp has raised a question that I would like you to 
address. I think it is a legitimate and important question to 
ask, and that is, what would be the impact of congressional 
oversight of the V.A. budgeting process if we went to forward-
funding like that?
    I would like to ask you, if we are going to do this, we 
obviously would need input, detailed input from the 
administration over the next few weeks as to what we would 
propose for fiscal year 2011. Could you say for the record 
where the V.A. is in that process of looking at a budget 
submission for fiscal year 2011?
    Secretary Shinseki. Mr. Chairman, I would just reinforce 
with you that both the President and I feel very strongly that 
funding for Veterans Affairs and the impact that has on our 
veterans who come to us for health care shouldn't be hindered.
    And, you know, timely budgets are a great thing, but if we 
look at our history, they are a rare event. And a continuing 
resolution has created a host of other issues for us. And for 
that reason, he and I have agreed that advanced appropriations 
is--you know, is a reasonable way to look at this.
    I think you know that, within the V.A., we have a modeling 
process that looks forward. It is based on the Milliman model. 
We contracted with them. This model looks out 20 years. And I 
would say year one is great. Year 20 is probably not worth 
much.
    But we have gone and looked back at the second year of that 
process, went back and looked at how the second-year modeling, 
compared to what was enacted and executed, very favorable. So 
we think we have the basic tools to be able to look beyond the 
first year.
    Timing and implementation--I mean, this would be 
significant. When we did take this step, we would hope that all 
the details had been worked out. And what I would like to do is 
come back and work with you and the committee and your staff on 
exactly what that implementation timeline would be so that it 
would be a good fit the first time we do it.
    But in terms of modeling, the information is there. For 84 
percent of, you know, what we do in VHA, that modeling is 
there. And then the other 16 percent, we have to do other 
efforts.
    Mr. Edwards. Okay. I would welcome that. And the sooner you 
could do it, the better, once you have the data you need, 
because if we are to implement this for fiscal year 2010 and 
2011, we would have to see those numbers pretty quickly.
    In fact, you know, taking a look at those numbers might 
allow us to determine which way we want to go. If we feel good 
about the numbers and believe we could continue oversight with 
the V.A., despite a 2-year budget, then we might move ahead. If 
we feel the numbers are rushed and not well put together, then 
it might cause us to second-guess that.
    And Mr. Wamp might want to have some follow-up comments on 
that.
    I would like to read one thing into the record that usually 
we don't talk about. Mr. Muro, with Memorial Affairs and your 
representation of that important part of the V.A., I am very 
proud--and I hope everyone that works in Memorial Affairs at 
the V.A. is proud of the fact that, according to the records I 
have, that the V.A.'s national cemetery system has received the 
highest rating in customer satisfaction for any federal agency 
or private-sector corporation ever surveyed as part of the 
American Customer Satisfaction Index, a 95 out of a possible 
100 points.
    Is that a correct statement of the facts? And when did that 
rating occur, if it is?
    Secretary Shinseki. I would just like to affirm that that 
is accurate, but let me let the individual who is responsible 
for much of that provide some detail.
    Mr. Muro. Thank you. Thank you, Chairman.
    Yes, it is accurate. And we actually accomplished it two 
times, in 2005 and in 2007.
    Mr. Edwards. Well, I want to compliment you. And please 
pass on this subcommittee's compliments to everyone who had a 
hand in earning that level of respect from--I am sure the vast 
majority of those in customer satisfaction survey were family 
members of veterans. And what a great show of respect to our 
service men and women.
    In a town where you only make the front page of the 
Washington Post if you have done something wrong, how 
refreshing it is to be able to at least speak publicly in this 
committee hearing about the V.A. having done something that no 
other federal agency or private-sector corporation has done.
    Thank you. And I salute you in the V.A. and its employees 
for that.
    My final question will be asked in the next round. I am 
going to try to follow the 5-minute rule.
    I would like to recognize Mr. Wamp for any questions he 
might have.
    Mr. Wamp. Well, thank you, Mr. Chairman.
    I have basically three lines of short questions, but I want 
to first read into the record quotes from the GAO study, April 
29, 2009, about advanced appropriations, just so the committee 
and the secretary can absorb what an independent analysis of 
this request might entail.
    It says the provision of advanced appropriations would 
``use up'' discretionary budget authority for the next year and 
so limit Congress's flexibility to respond to changing 
priorities and needs. While providing funds for 2 years in a 
single appropriations act provides certainty about some funds, 
the longer projection period increases the uncertainty of the 
data and projections used.
    If V.A. is expected to submit its budget proposal for 
health care for 2 years and lead time for the second year would 
be 30 months, this additional lead time increases the 
uncertainty of the estimates and could worsen the challenges 
V.A. already faces when formulating its health care budget.
    It says providing advanced appropriations will not mitigate 
or solve the problems we have reported on regarding data, 
calculations, or assumptions in developing V.A.'s health care 
budget, nor will it address any link between cost growth and 
program design. Congressional oversight will continue to be 
critical.
    So you make a great point, but just because the Congress 
has not done its job funding programs in a timely manner 
doesn't mean you have to go and change the constitutional 
process of annual oversight and appropriations from the 
legislative branch.
    I think we need to be real careful here, but I also think 
we need to use this as an incentive with the leadership to 
remind them, relative to these most important Americans, the 
men and women who put themselves in harm's way on our behalf 
and stand between a threat and our civilian population, the 
most important Americans cannot have their needs met unless we 
do our work on time.
    And this chairman has done that. And this leadership right 
now has done that. But it has to continue or this becomes a 
real wedge issue between the executive branch and the 
legislative branch.
    And I know, when we were in the majority, I was more 
inclined, obviously, to try to support the administration, all 
their requests, and now you have that burden, Mr. Chairman. But 
I hope that you will remember always the importance of this 
legislative prerogative. And it is not just a prerogative. It 
is a requirement. So that is all I will say about advanced 
appropriations.

                             TRANSFORMATION

    Let me go back briefly to the transformation piece that you 
were talking about, because when you were answering my first 
question, I got a lot of process response on the 
transformation, and I am really looking more for the bigger 
piece, like contracting. I want to know where that fits in to 
any transformation you have.
    And I used to think of contracting--of adding options to 
veterans' toolbox for their benefits. And I am not talking 
about a voucher, because I know that is like taboo, but I know 
that my veterans will say this in Chattanooga, Tennessee: 
``Man, we love our outpatient clinic, and it is better than 
ever, and they are so needed, and we get great benefits, and 
you are expanding it, and thank you, and we love it, and we 
need it, and don't take that away.''
    And they say, ``And the hospital in Murfreesboro is 
necessary. They do just about everything. And you have got 
long-term care, and mental health services.'' And you talked 
about one of your employees. There is a person in the long-term 
care wing of Murfreesboro that has been there over 60 years. A 
person has been in that hospital for over 60 years.
    So it is an amazing benefit. So I am not talking about in 
any way eroding the V.A. delivery system, because that should 
be guaranteed for our veterans that they have this. But there 
are cases where contracting makes a whole lot more sense than 
driving 2 hours to get inpatient care. And it is a huge burden 
on the family to have to drive 2 hours to see their loved one 
who is inpatient, receiving the treatment.
    And if we are not going to build new facilities because we 
can't, and because the new model is, take the health care 
system to the veterans through CBOCs and the new facilities, 
okay, I understand that, but what about those other cases where 
contracting services are creating an additional option for the 
veteran makes more sense, is that part of your transformation?
    Dr. Cross. A couple of comments----
    Secretary Shinseki. I will bat clean-up here.
    Dr. Cross. A couple of comments related to that. The 
transformational model that will have an impact on this is the 
HCC, the health care center, an example of that being in 
Harlingen, Texas. And the idea is that we shouldn't have to 
drive 5 hours to get to get a colonoscopy.
    Mr. Wamp. Right.
    Dr. Cross. And, by the way, if you have to go through the 
preparation for that and then drive 5 miles, that is not a good 
day. So if you are having a heart attack or something like 
that, in this HCC concept, you would get it taken care of 
locally, because that is a time-related element.
    If you have something like a knee replacement or something 
that can be scheduled, that is scheduled long in advance, you 
make all of the arrangements, well, certainly we would want to 
centralize that on a regional basis and take care of that for 
the veteran.
    But it is a combination of those factors: working with the 
local community, but still preserving the veteran system--
health care system in its regional basis, providing primary 
care locally, as well.
    So it is primary care locally, time-sensitive things go to 
the local community in that HCC concept, other things that are 
planned long in advance can be regionalized.
    Mr. Wamp. Are you keeping a healthy inventory of 
specialists in the V.A., from radiologists to other people that 
you need? How is that going?
    Dr. Cross. Well, thanks to Congress and the physician and 
dentist pay bill, we have been very, very successful and had 
the best years in hiring for the past couple of years that we 
have ever had, as far as I know. And I think last year we 
hired, at least for part time, over--probably about 1,500 
physicians and over 4,000 nurses.
    Mr. Wamp. Wow.
    Secretary Shinseki. Mr. Wamp, if I could just add to that, 
if we were to go up 50,000 feet and look down on our health 
care delivery system, I hope that what you would see are, a 
population of veterans and then, within that, a medical center, 
first-rate medical center some place in the midst, and then a 
health care center that is a step below that, and the 
difference being all the same services are provided and just no 
inpatient care.
    And then, below that, the large outpatient clinics, and 
then the community-based and veterans, and then--vet centers, 
and then the mobile vans, all of that intending to address the 
problem you are talking about, which is access. And for the 
last decade-plus, the effort has been to reach out.
    In those communities where patients would have trouble 
making the drive, be it in the wintertime or be it anytime just 
because of the long distances to get to the medical center 
where specialized and inpatient care is available, there is an 
opportunity to provide on a fee-basis arrangement contracting 
in the community, where a quality hospital may also provide 
inpatient services, and so that arrangement is there.
    I guess the only hitch here is that we would try to provide 
V.A. services, because we know what our standard is and we are 
pretty meticulous about it. But where that standard is also 
available in a community and it is to the benefit of the 
veteran not to have to make that drive, I mean, that option is 
there. And we do, do that.
    There are some communities and rural areas where they don't 
have that capability. And so we try to put a larger facility in 
that area or, ultimately, you know, we have to ask them to make 
that long drive for just the inpatient care.
    Ninety-five percent of what veterans would need on a day-
to-day basis--shots, lab work, medication, x-rays--is handled 
by any of these other than medical center facilities. So the 
attempt is to address those needs and those concerns.

                         ADVANCE APPROPRIATION

    Mr. Edwards. Mr. Farr, before I recognize you, I would like 
to follow up on something Mr. Wamp said, a couple of points 
that I think were very important, one on the advanced funding. 
I think that is an important decision to make, and I would 
reiterate, we have not made that decision. And I think we need 
to sit down with our respective staffs and go through that, 
once we see some numbers on what fiscal year 2011 would look 
like, and then talk about the question, do we delete our 
oversight authority?
    And on the second point--that I think is a good point--when 
you say there is a natural tendency as a Democratic chairman of 
this subcommittee to want to work with the administration, I 
think I would use the analogy of a spring scrimmage for 
football, a college football team. They are all on the same 
team, but to make themselves better, they play against each 
other and challenge each other in spring scrimmage.
    And so, while I have the greatest respect for everyone at 
this table and have known Secretary Shinseki since he was at 
1st Cav Division at Fort Hood, what we are--maybe 90 percent of 
the time we are absolutely partners on the same team, on the 
same side of the line, I do take seriously, as I think we all 
should, the relative balance, checks and balances our founding 
fathers intended in the Constitution.
    So I think we ought to be very vigorous on a bipartisan 
basis in not necessarily attacking, but in challenging the 
administration to show the facts, show the data.
    And one area that you brought up, I think, would be a 
perfect example is with some of the proposals, the innovations 
to bring about transformation, you do propose several new 
offices. And I would hope, at the end of the first year, there 
would be some metrics by which we could judge. Do we just 
create new bureaucratic positions, or did they actually meet 
metrics of saving taxpayers' dollars?
    I am glad the ranking member brought up these points. I 
think they are both very important points, and I look forward 
to working with you on that.
    Secretary Shinseki. Mr. Chairman, may I just add----
    Mr. Edwards. Please, Mr. Secretary.
    Secretary Shinseki [continuing]. I would just offer to 
you--and, you know, to Mr. Wamp's point, there is great value 
in the competitive arena where people with initiatives and want 
to compete for funding need to come and present their case. You 
know, I couldn't--I am a firm believer in that based on 
previous jobs I have had.
    But I do think that you would expect me not to take the 
attitude that, if advanced appropriations were to be enacted, 
that there is a bye on the second year. You would expect and 
you could count on me to provide the arguments for what 
validates what is being asked for in that second year. You will 
have a chance to look at that. It is a competitive process.
    I would also offer that, as good as we might put together 
this implementation plan, the second year is always challenged 
with the unknowns, you know, whether it is an H1N1 virus or 
whether it is a Katrina. And so I would look for an opportunity 
to find a way to create a mechanism for the second year that 
could be adjusting for those unknowns, unanticipated, or maybe 
even bonehead calls. What we want to do is get it right for our 
veterans.
    Mr. Edwards. Thank you, Mr. Secretary.
    Mr. Farr.

                            VA/DOD JOINTNESS

    Mr. Farr. Thank you.
    I am very pleased to see that Admiral Dunne is here. 
Admiral Dunne was the superintendent, the commander of the 
Naval Postgraduate School in Monterey before his retirement. 
And what I want to----
    Mr. Edwards. Is that in your district?
    Mr. Farr. You wouldn't know that, would you? It is probably 
mentioned in every hearing.
    What we have at former Fort Ord is the Defense Manpower 
Data Center. And I don't know if anybody in V.A. knows about 
it, but it is essentially the Department of Defense's one-stop 
for every kind of information need on any personnel in the 
Defense Department and the families of the soldiers and the 
defense contractors who are maybe overseas.
    And it seems to me that that I.T. is something that maybe 
the veterans department could work on. I am really keen on 
jointness, because essentially--and I am working on how we can 
work with you on this--I mean, the Defense Department has the 
luxury of essentially operating out of bases. So all the 
personnel are assigned to a base, and they operate out of a 
base.
    But when people get out of the Defense Department and go 
into the veterans department, they are scattered all over the 
world. And then your line of support isn't on campus, on base. 
Your line of support is in the community.
    And I think that is the thing that Mr. Wamp and I are 
really keen on, is how can we integrate more what is good in a 
community, sort of in the civilian sector on community support 
systems and specialists that are there. Then, when veterans do 
need some help, we don't have to go hundreds of miles in order 
to get that help. We could find that there are resources in 
their own community.
    And along those lines, what I would just like to have you 
comment on, we still have over 6,000 uniformed personnel on the 
Monterey peninsula either at the Defense Language Institute or 
the Naval Postgraduate School, or at the Navy lab, or at the 
Fleet Numerical. I mean, it adds up. We have seven different 
military footprints on the Monterey peninsula.
    We have just finished all the housing on the RCI housing, 
and we are now trying to do a joint clinic with the DOD. And 
the V.A. is leading the effort here.
    And I would just like to have you tell us the importance of 
meeting this critical, unmet health care need for both the 
local veterans population and the active-duty dependent 
beneficiaries through using your new health care center 
facilities act, the private-sector funding. I mean, I know you 
have mentioned that.
    But what I see is, we couldn't get this facility built 
without using that modality, because the line to be in the FYDP 
would take too long, several years. And we are going to incur a 
lot of costs, unnecessary costs.
    And with this critical ability to get it privately funded, 
it just seems to me a win-win. And I wondered if you had any 
comments now, that doesn't work in every community, but where 
you do have significant Defense Department presence and a 
significant veterans community living there, we ought to have 
that jointness.
    They have the jointness when they go on to base to use the 
privileges of the P.X. or use the privileges of a gas station. 
But they don't have that, privileges to go into a joint medical 
facility.
    Secretary Shinseki. Well, I will let Dr. Cross talk about 
the Fort Ord health care system. But I would just lead into 
this by saying, we have a history of DOD-V.A. joint facilities. 
We do it in New Mexico with the Air Force; Alaska with the Air 
Force; Leavenworth, Kansas; El Paso, Texas, with the Army; Key 
West, Florida.
    So there are a number of these that suggest we have a 
history of doing this and doing this well. And in the case of 
Chicago, Great Lakes, Naval and Northern Chicago V.A. Medical 
Center, we have integrated it to the point where a V.A. 
director and an active, serving naval captain are working 
together. One is the director; the other is the vice director, 
if you will, fully integrated. And we hope that that 
partnership is going to, you know, go forward this fall.
    With that as background, we have some history here. We have 
some experience on how to do this right. Let me ask Dr. Cross 
to talk about the potential here.
    Mr. Farr. The key to this is you have a new methodology of 
having private-sector funding for the facility----
    Secretary Shinseki. Right.
    Mr. Farr [continuing]. Which is essentially what we did 
with RCI housing.
    Dr. Cross. Mr. Farr, there is good news here. And although 
this project did not go forward as a JIF project for a joint 
clinic between DOD and V.A., we are moving forward with this as 
a lease project in the V.A. 2010 budget. And this is to make it 
a new health care center, just as I was describing it for the 
Texas venture.
    And this project will construct a new health care center to 
provide primary care, specialty care, mental health, expanded 
diagnostics, and ambulatory surgery, and activation is expected 
probably by the end of fiscal year 2012.
    Mr. Farr. Admiral Dunne, it is nice to have you back on the 
team.
    Mr. Dunne. It is great to be here, sir. And I would like to 
take the opportunity to thank you for all your efforts to make 
sure that the Postgraduate School could celebrate its 100 years 
this year.
    Mr. Edwards. And, Admiral, let me assure you, he doesn't 
pass up an opportunity to emphasize the assets of that----
    Mr. Farr. You are all invited to the celebration.
    Mr. Edwards. Thank you, Mr. Farr.
    Mr. Carter.

                          CLAIMS ADJUDICATION

    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Secretary, I sent out 220,000 questionnaires to my 
constituents. And there was a line of that questionnaire that 
says, ``If you aren't able to communicate some of your 
concerns, you are welcome to call the congressman.''
    Last night, I spent my time talking to these constituents, 
and one of them was a veteran. In fact, there usually are quite 
a few veterans who take advantage of calling me or me calling 
them.
    And I promised him, if I ran into you all, I was going to 
talk to you about this, so I will. It is just luck that it 
happens to be today.
    He served in the military for 20 years or 30 years, and 
then went to work for the Texas Veterans Commission, which 
helps veterans work through the system. Now he is working a 
claim through the system for himself, and he says the 
perception is--he believes it to be a reality--that the people 
who process claims, adjudicate claims, are working on a 
piecework quota system that they have to do so many claims to 
get promoted to the next promotional level and they have to 
meet a quota every week.
    He is convinced that, when they get behind in the quota, 
that sometimes they just deny a claim to get the number of 
cases dealt with that week to meet their quota, which throws it 
into the appeals system, which then, he says, the V.A. can 
stretch out for a year or 2. In his case, it was almost 2 
years, to which he had only 60 days within which to reply.
    He thinks that something should be done about the fact that 
there is a quota on these case workers, which would cause them, 
rightfully or wrongfully, to think, ``Well, a couple of them 
that I just let slide by will be taken care of in the appellate 
process, but I will be able to get promoted.''
    I would like a comment, maybe from you or one of the other 
people, about whether that system or his perception of that 
system is a reality. He claims his issue was arthritis. The 
reason he questions this whole process is that he first went in 
for arthritis, they said traumatic arthritis. He appealed it 
and said, ``I have never had a trauma,'' and they did a restudy 
and came back and agreed with him. And they awarded him for 
arthritis in both his elbows and then later in his neck for 
congenital arthritis.
    Then it had moved into his shoulders. When he made this 
request, once again, he got ``traumatic arthritis'' and was 
thrown into the appeal system again. He said it was so easy to 
see, if they had just taken the time to read the records, that 
he had been through this whole process on his neck and both 
elbows, but he felt like they just did it because they were in 
a hurry and not because they were trying to deny him his claim 
for any other purpose, but they were just in a hurry.
    So I promised him I would raise this issue. I know it is 
specific to one veteran, but it is important to him, and I gave 
him my word.
    Mr. Dunne. Sir, even if one soldier feels that way, we have 
got more work to do. There is what is called a performance 
standard for the rating representatives that work in the 
regional offices, but there is also a quality standard.
    And part of that quality standard is that the cases that 
they work are reviewed periodically on a random basis. And if 
they were to deny a claim that otherwise should have been 
awarded, they would be held accountable for that. And so that 
information would be back to their supervisor and factored in, 
as well as the--simply the amount of cases that they do.
    So from a supervisory level, simply volume itself is not 
enough to achieve success. And we want to make sure that every 
veteran who comes to us to get their claim adjudicated, that we 
do it accurately, and that we do it right the first time, and 
that there is no need for our veterans to appeal because they 
feel that they didn't get a right--a properly adjudicated 
claim.
    Mr. Carter. I will call him tonight and tell him that.
    Mr. Dunne. Thank you, sir.
    Mr. Carter. You bet.
    Mr. Edwards. Thank you, Judge Carter.
    Mr. Kennedy.

                             MENTAL HEALTH

    Mr. Kennedy. Thank you, Mr. Chairman.
    Welcome, all of you.
    Mr. Secretary, welcome. Thank you.
    Secretary Shinseki, as you know, with Monday's tragic 
events at Camp Liberty underscoring the critical epidemic of 
mental illness amongst a number of our military and veterans, 
too, climbing suicide rates and shortage of mental health 
professionals and broken families seem to be common themes that 
are always appearing in our newspapers for our veterans and 
their families.
    And the stories are constantly--we cannot afford to wait 
any longer to staff up and reach out to those who are in need. 
Could you tell us, how, with the integration with the DOD, we 
are going to make sure that every single soldier that is going 
to have the face-to-face interview coming out of the Department 
of Defense, and every Guard and reservist and the like, to get 
a face-to-face interview, so that when they are coming into the 
V.A., we have a full assessment of their needs and are able to 
hopefully prevent any onset of PTSD from ever happening?
    Dr. Cross. A key point for us is, first of all, to make 
sure that we have the people, the expertise in place to take 
care of these veterans. And that is why, over the past several 
years, we have added almost 5,000 new mental health 
professionals. We have also expanded our vet centers.
    But regarding the interview, I think that is very key. And 
what we were finding was that, when they first got back from 
overseas, that if we talked to them right then, didn't get much 
of a response. They were focused on one thing and one thing 
only, and that was going home.
    Mr. Kennedy. Right.
    Dr. Cross. So DOD actually took the initiative to do 90 to 
180 days later the post-deployment health reappraisal. That was 
actually a very successful initiative.
    We wanted to buy into that, so I have taken our local V.A. 
staff and our vet center staff, but mostly our vet center 
staff, to be physically there, to be face to face with the 
individuals when the units go through the PDHRA. We have done 
boatloads of those now. They often end up making referrals 
right then and getting them arrangements to get them into care 
after that.
    They are much more sensitive at that point. You have a much 
better conversation, and it really did make a difference.
    Secretary Shinseki. Mr. Kennedy, may I just add to that?
    Mr. Kennedy. You bet.
    Secretary Shinseki. One of our efforts in establishing this 
relationship with DOD for the single joint electronic record is 
to, first of all, have a registration for every serving member 
in the military.
    Mr. Kennedy. Right.
    Secretary Shinseki. As you know, right now, not all who 
leave the service come to enroll with the V.A., but this would 
be automatic, so we now have a population that we can identify 
and deal with.
    And then, between DOD and the V.A., this face-to-face 
interview that you talk about is what we intend to do. Some of 
this may be done prior to the uniform coming off, but 
certainly, for those that have been to Iraq and Afghanistan, 
that is our priority, is to talk to them face to face and to 
get this identification and begin the tracking process, even if 
at that time there was no definite determination that PTSD was 
a factor. If it crops up 6 months later, at least we have got a 
point of reference to look back at.
    Veteran service-connected PTSD has increased from 120,000 
in 1999 to today we are carrying on our rolls 344,000 folks, 
not all of them Iraq-Afghan veterans. These are PTSD cases that 
have occurred over time. Vietnam veterans are probably the 
hardest hit with this factor, just didn't know enough, and they 
weren't being screened, and many of them are still carrying 
those burdens.
    Out of that number, as of February, about 53,000 Iraq and 
Afghanistan veterans have been validated for service-connected 
PTSD. So where we are able to get to that face-to-face, there 
are assets in our health care system to be able to make those 
determinations and begin the treatment process.
    What we do know is, if diagnosed, we can treat. If we 
treat, things generally get better. If we don't diagnose or 
treat, they don't. Invariably, they get worse.
    Mr. Kennedy. Obviously, we are in the midst of health care 
reform. I am told that the best treatment for PTSD is 
prevention and that it is really simply a matter of making sure 
that they don't get PTSD. There are real known protocols to 
take to keep people from falling into getting PTSD.
    Rather than waiting for them to get it and then come in and 
get treated, we ought to be pre-empting them from getting it by 
having a welcome home strategy for them, a plan of action, 
where we say, ``A, B, C, D, these are the things that we know 
work to make sure you get yourself back on the ground and 
rolling, and you get yourself surrounded by loved ones and 
friends and community and family, and welcomed back home 
properly.''
    When you follow this protocol, your incidents of PTSD will 
just drop, precipitously. And we just know that through the 
study of PTSD.
    But if you don't have those support systems in place, your 
incidence, the possibility of your suffering from PTSD is just 
going to skyrocket.
    Now, why we would wait, one way or another for a soldier or 
a veteran to fall into one of those categories where they are 
lucky enough either to have a supportive family or not so lucky 
enough to end up without a job, without a supportive community, 
and without--when we, the V.A., and our country can, set it up 
to me is beyond me, especially when it is going to be--cost us 
a fortune, just financially, let alone, morally we shouldn't be 
allowing it to get as far as that.
    We should have this set up in advance, where we connect 
them right away to whatever they need. We take the stigma right 
away from it. We just say, ``You know, here's the Rolodex. 
Here's the one, two, three, four.'' Then it is not about PTSD; 
it is about connecting, these are the things that we are told 
that make you, have the best chance ever of, getting your feet 
on the ground.
    That brings me to my next question is, why don't we have 
best practices for mental health in our health care system in 
the V.A.? We have best practices for every other health disease 
group in the V.A. health system but mental illnesses.
    Dr. Cross. We do.
    Mr. Kennedy. No, you don't. I have been to two dozen of 
your health clinics, and you do not have metrics base for 
substance abuse, PTSD, anything. You practice different types 
of treatment for substance abuse, for everything else. You 
don't have a one-size-fits-all for--in terms of programs that 
you know work that you take to scale like you would for MRSA, 
for cancer, for cardiovascular disease. The same does not hold 
true for mental health system-wide in your mental----
    Dr. Cross. I certainly agree with you, Mr. Kennedy, that 
one size doesn't fit all. That is why we do have different 
types of programs. We are leading the way. We worked with the 
Academy of Sciences to decide, what is the very best type of 
treatment for PTSD? We are the leader in that.
    Mr. Kennedy. And it is prevention, am I right?
    Dr. Cross. For treatment, it is exposure therapy.
    Mr. Kennedy. But it is prevention, to surround people--
people are the best solution to PTSD, loved ones, community, 
and we are doing nothing to prevent PTSD. You have got 
wonderful little clinics with 24 people in them. How are you 
going to--you can treat people when they have acute PTSD, but 
we have got to prevent them from getting PTSD to begin with.
    Dr. Cross. I certainly agree with that. And I think, 
actually, prevention occurs before deployment.
    Mr. Kennedy. Okay, all right. How is the aversion therapy 
going?
    Dr. Cross. We trained 1,600 of our providers in this, based 
on what the IOM recommended. And we are going to expand from 
there. We are going to be into the thousands.
    Mr. Kennedy. Good. Well, if you could submit to the 
committee how that is going and whether you feel like you are 
going to keep pace with the need, that would be great.
    Dr. Cross. I would be very pleased to do that.
    [The information follows:]

                               Responses

    1) Provide Rep. Kennedy a report on aversion therapy usage by VA.
    Aversion therapy involves repeated pairing of an unpleasant 
stimulus with production of an undesirable behavior, such as giving a 
patient in alcohol treatment an electric shock each time he or she 
tastes alcohol. The only aversion therapy we use is the drug disulfiram 
(Antabuse) in VA's alcohol treatment program. According to the 
Substance Abuse and Mental Health Services Administration (http://
www.dpt.samhsa.gov/medications/disulfiram.aspx), disulfiram is ``[t]he 
first drug ever approved for treating problem drinkers. Antabuse 
(disulfiram) interferes with the metabolism of alcohol, causing 
unpleasant side effects when alcohol is ingested.'' Although approved 
by the Food and Drug Administration, its use has largely been 
supplemented by other medications and therapies. However, some 
providers and patients find it useful. Over the past 12 months, VA 
filled 11,979 prescriptions for disulfiram for 3,741 Veterans.

    Mr. Kennedy. And, Mr. Chairman, if I could indulge just one 
more----
    Mr. Edwards. Okay.
    Mr. Kennedy [continuing]. Question, are you co-locating 
your TBI clinics with your other Centers of Excellence in 
epilepsy and the like, neuroscience clinics?
    Dr. Cross. We are working on some new Centers of Excellence 
for epilepsy. I think, in the plan that we have at the moment--
I am not sure if it is the final plan--at least one or two of 
them would be co-located with the polytrauma level one centers. 
Some other ones would probably be elsewhere.
    Mr. Kennedy. The only concern we have is, obviously, make 
the most of the dollars we are spending by co-locating those 
same neuroscientists.
    Dr. Cross. I think that is a good point. Appreciate that.
    Mr. Kennedy. Thank you, Mr. Chairman.

                               G.I. BILL

    Mr. Edwards. Thank you, Mr. Kennedy. Certainly an important 
area to explore.
    Mr. Secretary, could I ask, where are we on the 
implementation of the new G.I. Bill? Are we on time and 
schedule? Will veterans that have qualified for the G.I. 
benefits start receiving those on time this fall? And will they 
know soon enough to be able to make their plans for colleges or 
universities this fall?
    Secretary Shinseki. I am going to let Admiral Dunne provide 
the detail, but, Mr. Chairman, upfront, in answer to your 
question, very, very tight timeline. And I won't say lots of 
risk, but there is some risk in the process. And we learn 
something every time we put a new tool out there.
    But I have been to the training center. I can tell you that 
training has gone well. Highly motivated people, I asked them 
if they could do it. There was a standing, rousing applause.
    So on our end, you know, between leadership and providing 
the information technology that will enable us to do this first 
time as a manual process, assisted by computers, we are in a 
good line. The issue is, we have to keep that line going.
    Mr. Edwards. Okay.
    Mr. Dunne. Mr. Chairman, we are definitely--it was never 
any doubt that we had the right people to execute this program. 
And they have been working very, very hard since last summer.
    We brought on board 530 new people on schedule, and we 
trained them on schedule in order to be able to process claims. 
We were able to start processing claims on the 1st of May. We 
already have received over 20,000 claims. They are coming in at 
the rate of about 3,000 claims per day.
    And so we are very pleased with the response that we are 
getting from the veterans. We are doing everything possible, we 
think, to communicate with them and make sure that they know it 
is better to submit your application early, as the sooner we 
get it, the sooner we can act on it.
    And we are moving along with the testing of the other I.T. 
systems that we need. And perhaps Mr. Warren could add more on 
the I.T. side. But our folks are performing very well at this 
point, and we are pleased with the response from veterans.
    Mr. Edwards. So bottom line is, there should be no veteran 
who is qualified for the benefits who would have a problem 
getting approval of the funding for classes that start in the 
fall, unless there are some bumps along the way between now and 
the fall?
    Mr. Dunne. We expect that--we have got many challenges 
between now and the 1st of August, but we are on it every 
single day. And if a veteran gets his application, we are going 
to make sure that they get into class.

           HIRING OF VETERANS IN THE CLAIMS PROCESSING SYSTEM

    Mr. Edwards. Okay. Could I also ask you, while I have your 
time, to address, how many people have you hired in the claims 
processing system since, say, in the last 2 years? I know we 
have provided enough funding, I think, to provide as many--if 
you count the stimulus bill--it was as many as 6,000 or 7,000 
new claims processors.
    How many have you hired? How many yet to go? And I might 
ask also on that, are you out looking or are you exercising any 
outreach to look for combat veterans as potential employees, 
particularly wounded combat veterans, to serve as employees in 
the V.A. benefit system?
    Mr. Dunne. Absolutely, sir. The first increment in 
personnel, as you know, was 3,100. And we started that in 
January of 2007, and we have completed that phase.
    For 2009, we were authorized another 1,100, and we are in 
the process of hiring those now. We are about halfway through 
that hiring.
    In addition, as you mentioned, with the stimulus package, 
there was authorization for 1,500 temporary employees. We are 
in the process now of hiring those. We have got 44 who are 
already on board at the regional offices, another 86 who have 
report dates within the next 2 weeks. And the remainder of the 
jobs we are in the process of announcing and interviewing 
potential personnel.
    We are very anxious to--at any opportunity to hire a 
veteran into the V.A., because we know what good employees they 
are.
    Mr. Edwards. Right.
    Mr. Dunne. And when we have an announcement at one of our 
R.O.s, the first place they go is right to the VR&E office and 
see if there are any veterans who have completed their training 
and are perhaps interested in working in the R.O.
    I can tell you, as an example, I went to one of the RPOs 
after we hired the 530 folks for the G.I. Bill. And I asked how 
many in the room were veterans. And almost everybody in the 
room raised their hand. And I asked about the three that 
didn't, and they said, well, they are either relatives or 
dependents of veterans.
    So I think we can always do better, sir. We always need to 
make sure we keep that focus on, that we are looking for 
veterans. But I think we are doing pretty well.

                           VA SUICIDE HOTLINE

    Mr. Edwards. That is good to hear.
    And my final question in this round, Secretary Shinseki, 
would be as a follow up to Mr. Kennedy's questions about the 
mental health care issues and care.
    Obviously, suicide is of great concern to all of us. Could 
you update us on the status of the V.A. suicide hotline and how 
that is working?
    Dr. Cross. Sir, it is one of our most successful ventures, 
quite frankly. We have received 120,000 phone calls since it 
was opened in 2007. Over half of those phone calls, however, 
were not veterans. We still help them.
    Now, the key thing is----
    Mr. Edwards. How do they find out the number? How do they--
--
    Dr. Cross. The number--we tie it in--we decided not to go 
it alone with this. We tied in with Health and Human Services 
into an existing phone system. And so when you call up the 
number, 273-TALK----
    Mr. Edwards. How do you get that number? I am having a 
problem. I am literally thinking about committing suicide. How 
do I get that 273-TALK number?
    Dr. Cross. We put it on the Internet. We put it on the 
buses. We put it on the Metro. We put it out to the VSOs. We 
put it on public service announcements. We have got Gary Sinise 
from ``Forrest Gump'' doing public service announcements, 
Deborah Norville--every way that we can, we are getting that 
number out. And it must be working, because 120,000 people have 
called.
    So they call the main number. And then it says, ``If you 
are calling about a veteran or you are a veteran, press one 
now.'' So 120,000 people pressed one.
    Then, out of that, the key number I would like you to 
remember, we have done over 3,000 rescues. What that means is, 
while the veteran was on the phone, while the caller was on the 
phone, we sent an ambulance or police to the location where 
they were at that very moment.
    And I have just--if you would bear with me for a moment----
    Mr. Edwards. Please. Take whatever time you need on this.
    Dr. Cross [continuing]. The most spectacular thing happened 
about 2 weeks ago. We got a call from a mother, and she was 
talking to her son through her computer using, I think, a 
program called Skype. And she was very upset, because her son 
told her on the computer he was going to commit suicide, had a 
gun in his hand.
    And she called the hotline, the V.A. hotline in 
Canandaigua, New York. And they called the Pentagon. The 
Pentagon worked with the local Red Cross and their contacts. 
And 20--I think it was roughly about 23 minutes later, she 
watched or heard while a person arrived, talked to her son, 
took the gun out of his hand. The soldier in this case was in 
Iraq.
    Mr. Edwards. Oh, my God. What an incredible story. Thank 
you. Thank you for that. And I am so glad to know that the 
hotline is being used and literally saving lives. Thank you for 
that.
    Mr. Farr. Can you just call 911 and get the same response?
    Dr. Cross. Well, they would get the police. But many of 
these cases that call the hotline are not calling because they 
are immediately suicidal. Some of them just want to talk. And 
then we put them in contact with our suicide prevention 
coordinators that we have now located at every one of our 
medical centers and sometimes several of them.
    I think our hotline is the best, because we--instead of 
using volunteers, we use psychologists, social workers, nurses 
who have mental health experience. These are people who are 
very experienced.
    The second reason why we are the best, I think--and I admit 
my pride in this--if it is one of our patients, we can pull up 
their record electronically while they are on the phone, and 
that has actually helped us save lives at times, because 
sometimes they didn't want to tell us exactly where they were 
at or what their situation was. And with a little detective 
work, we were able to trace that back.
    Mr. Edwards. Well, thank you for that. I hope those kind of 
positive stories of saving America's veterans and, in this 
case, an active-duty serviceman, those kind of stories need to 
be told.
    Mr. Wamp.

                         CLOSING OF CEMETERIES

    Mr. Wamp. Thank you, Mr. Chairman.
    My final question of the day is on the cemetery front. And, 
Mr. Muro, the chairman rightly gave you a high compliment 
earlier based on the customer satisfaction.
    And it is such a well-stewarded recognition, these national 
cemeteries across the country of the sacrifices that have been 
made. And they are solemn places. I will be there in 2 weeks to 
keynote the commemoration at Chattanooga National Cemetery for 
Memorial Day. And I am there often, several times a year.
    But our cemetery, which has Civil War soldiers and many, 
many storied internments there, is set to close on your 
schedule in 2019, which I used to think 2019 was a long time 
from now, but I used to think 2009 was a long time now, and it 
got here really fast.
    So that is a short period of time. Now, they have done 
studies of ways they could change things around and extend that 
somewhat, but there is also 15 acres that could be available 
next to it. And it can only grow in one direction because of 
streets and right-of-ways.
    I don't know if you specifically know about this issue, but 
I am interested overall in what the posture is of the V.A. This 
is something that, at a time of war, people are really keyed 
into. Are we going to guarantee this ultimate resting place? 
And I don't mean in the next state over. I mean in the area. I 
know you have like 100-mile, 120-mile circumference of each----
    Mr. Farr. Seventy-five miles.
    Mr. Wamp. Seventy-five miles. Okay, 75-mile circumference 
of where these could be. But this is obviously a national 
cemetery in Chattanooga, Tennessee, that would want to keep 
open and preserve.
    Can you give me an update about where we are with the 
study? Assistant Secretary Turk was very, very helpful, in the 
last administration. He came and physically toured the site. 
The city is willing to cooperate in any and every way to take 
the lead on assembling any land.
    [The information follows:]

    4) NCA should reach out to the local Veteran community to explain 
its plans for extending the service life of the Chattanooga National 
Cemetery.

                          NCA's Outreach Plan

    In the summer months following Memorial Day 2009, NCA plans to hold 
a series of Town Hall type briefings for the local community and 
stakeholders to explain the preplaced crypt process being implemented 
at the cemetery. This process will gain an additional 25 years service 
from the existing cemetery property, extending burial availability to 
the year 2044.
    In addition to cemetery and Memorial Service Network (MSN) staff, 
Subject Matter Experts from the NCA Office of Field Programs and Office 
of Construction Management will attend the briefings to explain the 
process and to answer community questions and concerns.

    I have almost seen a posture around the country as I have 
studied this that you wait until you are 5 years away from 
closure to begin to act. And, obviously, that is not the way to 
do business, in terms of long-term planning. It is much more 
beneficial to begin the process much in advance of closure so 
that you can take the necessary steps to actually secure the 
available land.
    Plus, if there is available land, you would want to secure 
it while it is still available before somebody goes and builds 
a new building on top of it.
    Do you know anything about the Chattanooga Cemetery 
expansion.
    Mr. Muro. Yes, sir. Right now, we actually have, because of 
our new burial policy and practice of pre-placed crypts, we 
actually have enough land to last an additional 25 years above 
2019 before we have to worry about looking for other land in 
the area.
    So we are good 2019 plus 25. And we are already going to 
start planning the process to install the crypts there so we 
don't run out. We try to stay--we have changed our policy. We 
are trying to stay 2 to 3 years ahead of closure or--so that we 
expand so that we don't close the cemetery.
    And if we are going to close because there is no further 
land to use, then we are looking for land. And last year, there 
was appropriation for funds for that. So we are trying to stay 
ahead of it.
    Mr. Wamp. Well, I appreciate that. I would say, with the 
VSOs in the room, that I hope you will communicate effectively 
with the VSOs so that their membership will understand what you 
are doing, because usually they don't find out except after 
they make enough noise and their member of Congress then 
engages as to what any policy may be that you were in the 
middle of enacting.
    And I can assure you that the veteran community that lives 
there, they don't really believe this extra 25 years within the 
fence because your stated closure date was 2019, and then, all 
of a sudden, kind of miraculously, well, they can start pulling 
rocks out of the ground and make room for more.
    So help us, if you will, convince the veteran population 
that you are going to stand behind keeping this cemetery open 
at all costs, because that is basically all they care about. 
Please assure them of that.
    And then, if there is any way to go forward to secure that 
land or even allow the city to hold the land until which time 
you need it, that would be wise if there is any possible way 
within your budget constraints to do so.
    We appreciate your cooperation on that, and I yield back, 
Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. I am amazed that Mr. 
Wamp and I have had the same questions on all day. I want to 
talk about veteran cemeteries. I want to also thank you for 
your career in this field and for your public service.
    Mr. Muro. You are welcome. Thank you.

                             VA CEMETERIES

    Mr. Farr. I would really encourage you, Mr. Secretary and 
staff, to look at this 75-mile policy. It has been in concrete 
for so long, and it is a dumb, dumb policy.
    The population of California lives along the coast. So in 
this wisdom of developing a 70-mile radius, and because of 
congressional earmarks, you are building your veteran 
cemeteries in the middle of the San Joaquin Valley. There is no 
history of military in the San Joaquin Valley. You are building 
three of them. One of them is already there. It is in Santa 
Nella, which is a truck stop, no hotels, no people, no town, no 
mayor, nothing.
    And we are within 75 miles of that, the Monterey peninsula, 
the oldest piece of military real estate in the United States. 
It started with Spanish occupation, the Presidio of Monterey. 
And Fort Ord, the land was acquired for the military in 1919, 
still has a military presence there and a huge veterans 
presence, and that is why you are going to build a clinic 
there.
    But we can't build a cemetery. We have had to go to the 
state of California. The state of California says, ``We don't 
do state cemeteries.'' So we are going to a third process, is 
we are going to try to get a private developer to put up money, 
we are going to give him some of the cemetery land, put enough 
money in the pot so that the state can file for a state 
application.
    Now, I want to just think outside the box a little bit, 
because I understand that--and I am sort of interested in 
this--that of the 128 cemeteries that you maintain in 39 states 
and Puerto Rico, as well as 33 lots and monument sites, it is 
the Department of Army that maintains two of the cemeteries, 
Arlington National Cemetery in Virginia and the U.S. Soldiers' 
and Airmen's Home National Cemetery in Washington, D.C.
    There are also a number of state cemeteries. And the 
Department of Interior maintains 14 veteran cemeteries. If I 
knew I could go to the Department of Interior and the 
Department of Army and maybe gotten them to build a cemetery, I 
would have done that, but I didn't know.
    I don't know why it is that, one, that all of these 
cemeteries aren't under just one--you know, under your 
department. Maybe administratively they are, but why are they 
being maintained by the Department of the Army and the 
Department of Interior?
    And why can't we think outside the box to figure out a 
solution? The land is there. The title is in the Department of 
Defense. The feasibility study for it is there. It is going to 
take us forever to find a third party to put up enough money to 
build the cemetery.
    You have got the Presidio Monterey, the Naval Postgraduate 
School. It is a destination, tourist area. People want to be 
there. There are a lot of people that are holding ashes in 
their home waiting for this cemetery to be built.
    And, I mean, this is where California history began. It 
began with military history. And it is still there. And I would 
like to try to see if we could work some way to work in a 
cemetery by your department or whether I have to go to the 
Department of Interior.
    Mr. Muro. Let me try to answer some of your questions, 
Congressman.
    First of all, San Joaquin Valley, when that cemetery was 
built, the national cemetery system could only build on 
property that was either donated or transferred from DOD. We 
didn't have the funds at that time to purchase land, so San 
Joaquin Valley, San Joaquin National Cemetery was a donated 
piece of property and----
    Mr. Farr. The Bureau of Reclamation?
    Mr. Muro. Correct. So that--hopefully that answers that 
one. In reference--
    Mr. Farr. When President Kennedy, his uncle, was president.
    Mr. Muro. Oh, all right.
    Mr. Farr. It had nothing to do with anything functional for 
a cemetery. It was just federal land in the middle of nowhere.
    Mr. Muro. Right. And it was donated.
    The other question, in reference to the Fort Ord cemetery 
and the state project that we worked with the state to build 
the other one, which is up in Redding, California, we are 
working closely with the state, and they do have an application 
in right now for that. So they are working with that 
organization to try to get it.
    Mr. Farr. For which?
    Mr. Muro. For Fort Ord.
    Mr. Farr. They have an application to you?
    Mr. Muro. Yes, they have got the pre-application in right 
now, and we are waiting on state legislation to pass it. And 
then we----
    Mr. Farr. No, wait a minute. State legislation passed it, 
saying that they have to put the money up into an account with 
the state before they will exercise it. And the Shasta veterans 
department, that was a state senator. He insisted that they 
couldn't pass a state budget unless they made that his cemetery 
and up in little, old Shasta County. In a weak moment, the 
legislature and the governor signed the bill, and then they 
hired him as the secretary for veterans affairs in California.
    So it was a real sweetheart deal. And the state said they 
would never do it again. And Schwarzenegger says they won't do 
state cemeteries, unless, in this case, the money is put up by 
the private sector.
    Mr. Muro. The other question was in reference to how V.A. 
received the cemeteries that we have. In 1973, Congress passed 
a law and transferred certain cemeteries over to V.A., was 
where we started, and kept--Army kept DOD in the Soldiers' 
Home.
    Mr. Farr. The Interior Department doesn't run any 
cemeteries?
    Mr. Muro. They run--yes, they have 14 total cemeteries. Two 
are open for internments; the rest are closed. They are Park 
Service.
    Mr. Farr. We will work on something, okay?
    Mr. Muro. Okay.
    Mr. Edwards. Thank you, Mr. Farr.
    Mr. Kennedy.

                  NATIONAL GUARD AND RESERVE BENEFITS

    Mr. Kennedy. Thank you, Mr. Chairman.
    If we could go back, Mr. Chairman, your question about 
mental health, extent of services. The concern I have is the 
Guard and Reserve, because their benefits really aren't as 
great as, obviously, the standing military.
    When they come out, they often don't have the access to the 
TRICARE benefits. When they go back to their job and so forth, 
they don't have access to the same benefits. And, of course, 
their dependents, their family don't have any access to 
benefits.
    And so the--the real question is, a lot of those families 
and Guard and Reservists are getting their services through 
states, through their community mental health centers and the 
like.
    What I am interested in is what we are going to do as a 
committee, given the fact that states are shedding all of their 
mental health services because they are all in a free fall 
economically, what are we going to do as a committee to respond 
to the need at these community mental health centers of those 
veterans who go into those community mental health centers 
looking for services?
    Because there are no services for them at the V.A., because 
they are ``weekend warriors,'' but they aren't. They are now 
part of our total force. But because of the nature of them 
being Guard and reservists, they don't enjoy the same package 
of benefits that the regular service does.
    So can you all kind of answer for me, what are we going to 
do about this whole new group of veterans that may not have all 
the service-connected injuries and the like that are going to 
allow them to get access to the V.A.? How are we going to 
manage to make sure they get the necessary health care that 
they need?
    Dr. Cross. I strongly agree with you that, yes, that is a 
real concern of ours, that the Reserve and National Guard come 
back, they don't go to a military post. They don't stay with 
their active-duty colleagues. They go off into the small 
communities across the nation and the cities, and that is where 
they live, and trying to return to their previous lives.
    Congress, working with the V.A., just fairly recently 
created a new benefit, and that was that returning from a 
combat deployment automatically granted 5 years of eligibility.
    Mr. Kennedy. Right.
    Dr. Cross. That was a tremendous help. And we really 
appreciated that.
    It did several things. It also expanded the dental 
capability by our timeframe, as well, from 90 to 180 days. That 
made a difference, because it gives time now for that new 
veteran to try and obtain eligibility through the C&P process, 
they have got plenty of time.
    They are still covered for their health care. They can 
still be seen and taken care of, as long as it is anything that 
is even quasi-related to their service overseas. And I want to 
thank you for that.
    Mr. Kennedy. Secretary Shinseki was talking about back in 
the Vietnam War, there was always a challenge to Agent Orange 
because there was a question, was this a real thing or not? 
With this war, the combination of TBI, post-traumatic stress 
disorder, being the signature wound, are we going to have a 
bureaucratic process of challenging veterans when they come in 
and saying, ``prove it''?
    Or are we going to have an assumption that, if they have 
been to three tours of duty, they have been out in their 
combat, they have been out on the driving outside the Green 
Zone every day, which we know would take any normal person, 
knowing that they are taking their lives in their hands every 
day when they drive outside that Green Zone, that that is going 
to put any normal person in a position where they could suffer 
from post-traumatic stress and say that they are going to be 
eligible for veterans benefits, access to the health care 
system?
    Dr. Cross. For the health care component, we are happy to 
see them. It is not a matter of trying to prove that they need 
to be seen. If they say they need to be seen, they need to be 
seen. And then, during that 5-year period, they have the 
eligibility to do so.
    Mr. Kennedy. Okay.
    Dr. Cross. And I think, as I mentioned earlier, that gives 
them time to engage with my colleagues in VBA, as well, to 
start the process.
    I will ask Admiral Dunne.
    Mr. Dunne. From the benefit side, we are, of course, 
charged with evaluating the need for compensation based on the 
medical evaluation that is provided.
    Mr. Kennedy. Right.
    Mr. Dunne. And we are looking very carefully right now at 
the process that we go through to--when a veteran claims PTSD, 
the evidentiary requirements that are in place, we are 
evaluating those to make sure that they are sufficient to 
ensure that, during the time period when they have straight 
access to VHA, that we are able to complete the medical 
evaluation that is required so that, if necessary, we can 
ensure that they get their compensation benefits in a timely 
manner.

                                VOUCHERS

    Mr. Kennedy. One of the concerns I hear about homeless vets 
is that, while we are increasing the number of permanent 
vouchers--and thank God. Finally we have permanent vouchers 
instead of these temporary vouchers for these endemically 
homeless vets.
    We need more support services for these vouchers. In other 
words, we need administrative personnel. I hear there are a lot 
of vouchers in a lot of these different places because there 
aren't enough staff on hand in various places to administer 
these vouchers and get the support services wrapped around 
these veterans who need these vouchers.
    One case in point, my cousin, Bobby Shriver, is on the 
council out in Santa Monica, says that there is a number of 
excess vouchers. I had a hard time believing it, knowing the 
number of homeless veterans out there. And he says it is 
because there are not enough veterans, staffed to help 
administer those vouchers. So maybe you could take a look at 
that.
    Secretary Shinseki. Let me take a look at that and then 
come back to you with an answer on----
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0526D.093
    
    [GRAPHIC] [TIFF OMITTED] T0526D.094
    
    [GRAPHIC] [TIFF OMITTED] T0526D.095
    
    Mr. Kennedy. And if you could----
    Secretary Shinseki. I was not aware of excess vouchers.
    Mr. Kennedy. Okay. If you could also look at what 
percentage of our V.A. medical centers, what the timeline it is 
for folks to get help for mental health services and what the 
shortage is for mental health professionals in all these 
outpatient clinics and mental health centers.
    We had those. There was a big study from--McClatchy did a 
couple of years ago about how long it took for someone to get 
served in a V.A. clinic. And in some places, it took X number 
of days. Other places, it took just a few days. And it would be 
nice to know kind of how that has gotten evened out, now that 
we have plused up the accounts.
    Secretary Shinseki. Sure.
    Mr. Kennedy. Thanks.

                         HEALTH CARE STANDARDS

    Mr. Edwards. Thank you, Mr. Kennedy.
    Members, I think we are getting close to a series of votes. 
And I only have two other quick points.
    One, I would like to ask Secretary Shinseki, either you or 
Secretary Warren, whomever is appropriate, to address the 
question of, as you are trying to develop DOD and V.A. medical 
records that can communicate with each other and be passed 
seamlessly back and forth, how does that work in with the 
country trying to set up some sort of national standard for 
private profit and nonprofit hospitals?
    I assume we won't have V.A. and DOD accepting one standard 
and the rest of the country going another way, because we need 
records to be able to transfer from a V.A. hospital or DOD 
hospital to a private hospital.
    And is the development of a national health care reform 
bill and a standard, does that slow down the DOD-V.A. process 
in coming up with a medical records, electronic record systems?
    Secretary Shinseki. This is an important question, Mr. 
Chairman. The agreement that Secretary Gates and I have made 
and which the President publicly announced, that there would be 
one standard, now begins the hard work of exactly what is an 
electronic record, what is the electronic health piece of it 
and what is the electronic administrative or personnel piece of 
it, what does it look like, and make that come together.
    There is great interest in doing this quickly. And part of 
the interest is to be able to come to an agreement on exactly 
that requirement and be able to share perhaps with HHS, ``Here 
is, you know--those of us who have been at this for a while, 
here's a good start point for you,'' so that there would be 
some synchronization, some linkage between the opportunities 
that they will have to decide for the rest of the country and 
the work that V.A. and DOD has already done for a couple of 
decades.
    A lot of hard lessons learned, some disappointing ones, but 
we have come a long ways here. And so as we create this single, 
joint, virtual electronic record, I think it is important for 
us to link in with the secretary at HHS and just offer up a 
model to consider.

                         HEALTH CARE INNOVATION

    Mr. Edwards. Thank you.
    And my final point would be this. We don't do earmarks in 
the V.A., in many ways that is very fortunate. But what happens 
as a result is that some of us, perhaps because we serve on 
this subcommittee, have private entities, entrepreneurs come to 
us and say, ``Here's a great idea that can help the V.A. 
provide better medical care at a less cost to taxpayers.''
    We don't really have the ability to evaluate whether those 
make sense. And maybe 9 out of 10 of those proposals wouldn't 
make any sense, but 1 out of 10 might be the one that could 
save the V.A. millions of dollars and help save lives and 
provide better care.
    Does the V.A. have a system for evaluating good ideas and 
separating those from bad ideas, in terms of health care 
innovation? And, secondly, on that same point, is there a 
system by which you can fund innovative ideas that might help 
the whole country without taking that money out of the hide of 
the O&M budget of the local V.A. hospital or the VISN?
    I could see that if I am a VISN director, and I don't want 
to take money out of my VISN or out of my hospital to fund what 
could be a national pilot program that could help the entire 
V.A. health care system.
    I haven't found a thorough process. Maybe I heard it at 
some point the secretary for health has some kind of a 
discretionary fund, but is there any kind of a formalized 
process for you?
    Mr. Kennedy. Effective research. We should have it in our 
CMS, too.
    Mr. Edwards. Do you have a system of comparative effective 
research at the V.A.?
    Secretary Shinseki. Actually, I am interested in what the 
acting undersecretary for health is going to say to answer this 
question.
    Mr. Edwards. Dr. Cross.
    Secretary Shinseki. But it is--just to eat into this, it is 
part of the reason why I am hoping that we will get your 
support in setting up an office for an assistant secretary for 
acquisition, so that we will have a single place where good 
ideas can come and be vetted and, you know, avoid being 
dissipated or being discouraged or frustrated, but where it 
gets a professional vetting, because right now these things do 
go on, but they go on in multiple places in the V.A.
    Mr. Edwards. Right. And is that, Mr. Secretary, where these 
ideas would be placed in the future, when you create that 
office?
    Secretary Shinseki. In the future. If we were able to stand 
up this office, this is where this kind of innovative thinking, 
creative thinking would have an opportunity to be aired, 
evaluated, and then shared.
    Mr. Edwards. Okay.
    Secretary Shinseki. Let me let Dr. Cross answer what we do 
today.
    Mr. Edwards. Okay.
    Dr. Cross. I am looking forward to hearing what I am going 
to say, as well. [Laughter]
    No, seriously, sir, there is some formal process. And let 
me--it is a little bit different from what you might expect.
    We do a lot of innovation, in terms of pharmaceutical, new 
drug treatments, new surgical treatments, vaccines, the herpes 
zoster vaccine, the shingles vaccine, worked with civilian 
medical schools and the V.A. to make that a reality. And it is 
now FDA approved and out there and used every day.
    We worked with DARPA. And you may have seen the ``60 
Minutes'' TV show recently where they talked about the DARPA 
arm that the V.A. is working with them on a new prosthetic, far 
more advanced than anything that we have seen before, an 
ability to manipulate objects.
    So in terms of research, we do a great deal too--you know, 
but particularly on the health side, it is really 
pharmaceuticals, new treatments, new devices. You know, 
sometimes----
    Mr. Edwards. What office evaluates those under the present 
system, without the new acquisitions office in place?
    Dr. Cross. What----
    Mr. Edwards. Is that the undersecretary's office? Do you 
have particular staff that do that? Or do you subcontract that 
out to various parts of the country within the V.A. system? How 
do you evaluate that?
    Dr. Cross. The kind of things I am talking about go through 
research protocols.
    Mr. Edwards. Right.
    Dr. Cross. And our research office handles that.
    Mr. Edwards. What if it is not a new drug, you know, it is 
somebody coming in with a system for telephoning veterans to be 
sure they take their drugs this morning and, if they don't call 
back--that is one that came into my office, for example. I have 
no idea whether it made sense or not.
    But, you know, and if the veteran doesn't call back, then 
it keeps calling them until they call back and say, ``Yes, I 
took my prescription drug this morning.'' I mean, how about 
that kind of device or other projects that aren't, you know, 
the kind that you mentioned?
    Dr. Cross. I think I know that project, by the way. Two 
ways that that happens. Number one is they go to the local 
facility, local VISN, and say, ``Listen, I'd like to try this 
out locally. Would you be interested?''
    Number two, they come to the central office and talk to 
some of my staff and say, ``Listen, I have got this great idea, 
this great product. Can I get a briefing?'' We do accept those 
briefings, and we do accept some of these proposals after the 
staff have looked at them to see if it makes sense.
    Mr. Edwards. Okay. In the future, will that go through the 
office of acquisitions? If, in the future, somebody like this 
calls our offices, who should we refer them to?
    Secretary Shinseki. That would be my preference, for all of 
this to come into one location, and then from there to be 
shared with the experts elsewhere on the staff.
    Mr. Edwards. Okay.
    Secretary Shinseki. A discipline process for evaluating the 
goodness--they are all good. They are well-intended. But where 
is the fit?
    Mr. Edwards. Okay. Thank you for that answer.
    Mr. Wamp, do you have any additional questions?
    Mr. Kennedy.

                              SERVICE DOGS

    Mr. Kennedy. Yes, Mr. Chairman, really cutting-edge piece 
of high tech, and that is dogs. We talked about, Mr. Chairman 
and Mr. Secretary, these dogs that help our veterans, 
particularly, not only the guide dogs for those who are 
physically impaired, but also those who are suffering from 
PTSD, that take them out, so they have to go out for a walk, 
help them calm their nerves when they are feeling an anxiety 
attack and the like, that they can be trained in the prisons by 
prisoners.
    What is your feeling about us expanding the use of these 
kinds of animal--use of animals to help out those many, many 
veterans that you have identified as, having issues, anxiety 
issues and PTSD issues?
    Dr. Cross. The answer I am going to give you is a little 
bit mixed, in terms of how we are responding to this. And so I 
want to be frank that this is how we are approaching it right 
now. I don't want to paint a picture that is different from 
reality in any way.
    Guide dogs have been part of our program for a long time. 
Everybody knows that. We will accept it and often support it.
    So now we are talking about a different category of dogs 
called service dogs. Service dogs, we support them in a limited 
fashion for physically and hearing disabled veterans under a 
case-by-case basis.
    We have worked with an organization--I believe it is called 
the Assistance Dogs International. And we have an information 
letter that we drafted to inform the field that only these 
accredited dogs organizations who do not charge for the dogs or 
their training should be utilized. V.A. then, in that 
circumstance, will pay the veterinary bills and any hardware 
the dog may require while performing the designated tasks.
    I don't know how many that we are supporting at this time. 
I don't think it is a large number, Mr. Kennedy, certainly not 
compared to guide dogs. But I would be happy to have our staff 
talk to you about this.
    Mr. Kennedy. That would be great. I would love to get a 
briefing on that. Thank you.
    [The information follows:]

    3) Provide Rep. Kennedy's staff a briefing on the dog assistance 
program for Veterans. (PCS)
    Thank you for your inquiry of the Department of Veterans Affairs 
(VA) regarding the provision of service dogs to our country's Veterans. 
The Prosthetic and Sensory Aids Service will be happy to provide a 
briefing at your staffs convenience. Please coordinate this request 
through VA's Office of Congressional and Legislative Affairs office. 
Below is a summary of our service dog program.
    VA has provided guide dogs specifically for the blind since 1961. 
In 2001, Public Law 107-135 provided VA the authority to provide 
service dogs for physically and hearing disabled Veterans. Over the 
past seven years, VA has studied the effectiveness of service dogs 
versus assistive devices. These studies focused on a dog's effect to a 
Veteran's health, function, mobility, and independence. These studies 
also focused on industry standards for service dogs, how the dogs are 
trained, and how a Veteran best learns to work with a dog. On January 
14, 2008, the Secretary of Veterans Affairs signed a decision memo 
approving a plan for the provision of service dogs to our nation's 
physically and hearing impaired Veterans.
    VA is working with an international accrediting body, Assistance 
Dogs International, to help develop standards for the provision of 
these dogs. In the interim, individuals are reviewed on a case-by-case 
basis and may be provided a service dog if they are able to demonstrate 
that a service dog would effectively perform a task that cannot be 
achieved through assistive technology or daily living aids. To remain 
consistent with the existing model of procurement in attaining guide 
dogs for the blind, VA will acquire service dogs through non-profit 
agencies who do not charge for their animals, services, or lodging. VA 
will provide veterinary care and hardware required for the dog to 
perform its tasks such as a harness or a backpack.

    Mr. Edwards. Well, with that, let me thank you all for 
being here.
    Secretary Shinseki, we look forward to working with you and 
each of you, Admiral Dunne, Dr. Cross, Secretary Reed, 
Secretary Muro, Secretary Warren. Thanks to each of you for 
your dedication to our veterans.
    And we may have finished our formal questioning, but one of 
our colleagues who has done so much on behalf of veterans, Mr. 
Buyer, from Indiana, who is the ranking member on the Veterans 
Affairs Committee, former chairman of the V.A. authorizing 
committee. And it is good to see Mr. Buyer here. And even saw 
in the Washington Post, I believe, today about new legislation 
you have introduced, Mr. Buyer, to help widows of those who 
have served in combat and given their lives for our country. We 
are glad to have you here and welcome you to this subcommittee 
any time you are here.
    So thank you for coming and what you do to support our 
servicemen and women, and particularly the members of the 
Guard. Thank you. We are honored to have you all here.
    With that, we will stand adjourned.
    Thank you, Mr. Secretary.
    [Questions for the record submitted by Chairman Edwards]

                    Construction Competition/Pricing

    Mr. Secretary, a recent New York Times article highlighted contract 
saving being experienced in the highway sector of the economy. In part, 
the article noted:
    ``Construction companies, hungry for work in the dismal economy, 
have slashed their prices to try to win the first round of public works 
projects being paid for by the federal stimulus package.
    ``Pennsylvania officials said contractors competing for their first 
round of road and bridge projects had offered bids 15 percent lower 
than the state had expected. Utah officials said some of their bids 
were coming in 25 percent lower than expected. And a bid to build a 
4.7-mile extension of Interstate 49 from Shreveport, LA, toward the 
Arkansas state line came in at $31.1 million, about $4.7 million less 
than the Louisiana Department of Transportation and Development had 
estimated the project would cost.
    ``Officials in many states see the low bids as a sign that they are 
in a buyer's market. A few years ago transportation officials in Utah, 
concerned that there was little competition for their construction 
work, put together a team to try to entice more companies to bid for 
the jobs. Now, as the first stimulus projects get under way, they are 
getting a half-dozen bids for each job--and many are coming in at 25 
percent below their estimates.''
    Question. Is the Department finding similar competition for 
construction jobs and a similar increase in the number of bidders on 
contracts? And are bids coming in at lower than your estimates for the 
work?
    Response. VA has been experiencing increased competition by firms 
competing for major construction contracts in about one-half of the 
markets where we have awarded major contracts during this fiscal year.
    The increased competition has produced favorable pricing which has 
enabled a contract award of the full design without taking any 
deductions. In some cases, where designs had been restrained to 
accommodate the prior robust economy, we are able to consider 
restoration of items previously deleted from the design.
    These recent experiences, coupled with periodic analysis being done 
in the markets where we will be planning to procure major construction 
services, have informed the estimates developed for the FY 2010 budget. 
For the estimates used in the FY 2010 budget, we have included 
significantly less escalation than would have been used in the FY 2009 
budget, for example.

                         Transformation Review

    Question. The budget submission includes funding for several 
programs that you have identified as part of the Department's 
transformation process. It is my understanding that the transformation 
review is still ongoing. It is likely that, as this review moves toward 
completion, additional issue will arise and changes to Departmental 
operations will be identified. How do you think this will impact the 
2010 budget request?
    Response. The comprehensive organizational and management reviews 
in process will generate additional transformation initiatives. 
Departmental leadership will apply conclusions from these activities 
that may result in adjustments to the budget request within the 2010 
topline during the next several months. The results of this ongoing 
management decision-making process--in partnership with Congress--will 
be a budget that starts VA down a path toward becoming a 21st Century 
organization.

                       Sustainability and Energy

    Question. The fiscal year 2009 budget request and subsequent 
appropriation included funding within the Construction, Major Projects 
account for ``sustainability and energy'' projects. This year there is 
no budget request for this effort. Can you tell me why there is not a 
budget request and what that tells us about the Department's energy 
efficiency program?
    Response: VA did not request this line item in FY 2010, as the 
sustainability and energy efficiency/renewable energy requirements of 
major projects are now factored directly into the project design and 
construction costs.
    The Department's Energy Program is very robust and continues to 
grow each year. For example, since 2006 VA has added approximately 90 
facility-level energy engineers to serve all VA facilities. VA 
benchmarks its medical and benefits office facilities quarterly using 
EPA's EnergyStar Portfolio Manager, and is one of the few organizations 
doing so via electronic data transfer. Twenty-seven VA medical centers 
have earned EnergyStar labels since 2002. Five VA facilities have won 
energy or water management awards since FY 2005.
    VA is committed to expanding the use of renewable energy and energy 
efficient technologies. In FYs 2009 and 2010, VA plans to obligate 
approximately $126M for the following types of energy projects:
          <bullet> Renewably-fueled cogeneration
          <bullet> Solar photovoltaic
          <bullet> Wind
          <bullet> Geothermal/ground source heat pump
          <bullet> Energy infrastructure improvements
          <bullet> Facility metering
          <bullet> Environmental management systems
    In addition, the American Recovery and Reinvestment Act of 2009 
provided the Department with $1 billion in the medical facilities 
account (for non-recurring maintenance projects). Approximately $400M 
(40%) of these funds will be dedicated to projects that feature an 
energy efficiency or renewable energy component.

                      Departmental Administration

    Question. The budget request for Departmental Administration has an 
increase of over 17% compared to the fiscal year 2009 appropriation, 
and an increase of about 6% in the number of full-time equivalent 
personnel. Included in personnel increases are increases of 45% in the 
Office of Policy and Planning and 31.5% increase in the Office of 
Congressional Affairs. What would justify such significant funding and 
personnel increases in administrative offices?
    Response. A significant portion of the funding and staffing 
increases in General Administration are needed to directly support a 
number of vital transformation initiatives. VA will create a reliable 
management infrastructure that expands or enhances corporate 
transparency at VA and places much greater focus on improved client 
services and enhanced responsiveness to the needs of Veterans and all 
VA stakeholders.
    Transformation initiatives supported by the 2010 budget are:
    <bullet> $8.5 million and 6 FTE to expand the VA-DoD Joint 
Collaboration Office in the Office of Policy and Planning. This office 
will provide oversight for the joint governance and strategic planning 
process, and provide analytical information to support analysis of 
policy and program issues that affect VA-DoD collaboration efforts, 
including joint responsibilities in the continuum of care and services 
from service member to Veteran status.
    <bullet> $1.5 million and 9 FTE to establish a Corporate Analysis 
and Evaluation function that would analyze investment options for the 
Secretary and provide an analytical basis for making investment 
decisions on current programs and new initiatives.
    <bullet> $645 thousand to fund the new Office of Acquisition, 
Construction, and Logistics which is responsible for overseeing the 
resources, services, and projects that comprise VA's capital facilities 
program, and directing the Department's acquisition and logistics 
activities (Supply Fund). The necessity of this office is highlighted 
by the $1.921 billion in capital funding in our 2010 budget request.
    <bullet> To implement VA's Paralympic program pursuant to Public 
Law 110-389, $5.5 million is budgeted for grants to local providers to 
help implement the program and for direct subsistence payments to 
participating Veterans and service members. This program will be 
administered by the Office of Public and Intergovernmental Affairs.
    <bullet> $2 million for Enterprise-wide training and Corporate-
level HR programs in the Office of Human Resources and Administration. 
VA's Corporate Senior Executive Management Office is being established 
to recruit, develop, and retain a cadre of people-centric and results-
oriented senior managers committed to serving Veterans and VA's 
mission. VA will also move forward on establishing a Human Resource 
Corporate Consulting Center. The corporate approach will allow VA to 
move from a transactional based process to a consulting center that 
provides expertise on training, adult learning, workforce and 
succession planning, performance measures and evaluation, and VA's 
business acumen.
    <bullet> $2.8 million and 24 FTE for crises management exercises 
and VA readiness programs in the Office of Security and Preparedness. 
This funding will allow VA to prepare and validate VA's ability to 
perform mission essential functions during crises; provide for a 
Personnel Security and Suitability Office to strengthen background 
investigations; strengthen VA's police inspections program; provide for 
a Personal Identity Verification (PIV) program office at Central 
Office; and strengthen VA's special access program for classified 
information.
    <bullet> $1.7 million and 12 FTE for the Office of Congressional 
and Legislative Affairs to be able to respond to Congress in a more 
timely way to the increasing number of requests from Congress and 
stakeholders.

                     Federal Recovery Coordinators

    Question. Witnesses at the House Veterans Affairs Committee hearing 
on April 28th indicated that there was a great need for the assistance 
of Federal Recovery Coordinators for our seriously injured veterans 
even after they had transitioned from the DoD health care system to the 
Veterans Health Administration.
    1. Can you tell me if the fiscal year 2010 budget submission 
includes funds for additional Federal Recovery Coordinators?
    Response. The FRCP received over $4.4 million from Patient Care 
Services (PCS) for Fiscal Year 2009. The funding from PCS enables FRCP 
to increase its budget should the need arise. This is the first year 
that FRCP's budget has been tracked independent of the PCS budget. As 
such, by the end of FY 09 we will know the total costs of this program, 
including travel and training. Right now, it would appear that FRCP's 
current funding of over $4.4 million is more than sufficient to support 
its current operations.
    Currently, FRCP has 14 Federal Recovery Coordinators. We are in the 
process of hiring a third FRC to fill a current vacancy in the National 
Naval Medical Center, Bethesda. This will fill all slots that are 
currently in place for the program. FRCP is constantly assessing its 
workload and with a weekly census of its clientele, is able to closely 
monitor if the program will need more FRCs. The funding permits such 
hiring should it be deemed necessary.
    2. Can you tell me if you plan to provide Federal Recovery 
Coordinators for all seriously injured veterans?
    Response. The program is designed to assist severely wounded, ill 
or injured recovering service members, Veterans, and their families 
access the care, services, and benefits provided through the various 
programs in the Departments of Defense and Veterans Affairs, other 
federal agencies, states, and private sector. Program eligibility 
criteria were approved by the Senior Oversight Committee and include 
those service members or veterans who are:
    1. Receiving acute care at military treatment facility;
    2. Diagnosed with:
          a. Spinal Cord Injury,
          b. Burns,
          c. Amputation,
          d. Visual Impairment,
          e. Traumatic Brain Injury (TBI), and
          f. Post Traumatic Stress Disorder (PTSD);
    3. Considered at risk for psychosocial complication;
    4. Self referred based on perceived ability to benefit from a 
recovery plan; and
    5. Command referral based on perceived ability to benefit from a 
recovery plan.
    In addition, the program has a strategy to reach out to those who 
went through the system prior to the program's inception and who might 
still benefit from a recovery plan and care coordination.

                            Medical Research

    Question. Mr. Secretary, I note that the budget request includes a 
substantial increase of $70 million this year for medical research, an 
increase of over 13%. The recent review of the Medical Research account 
by the VA Office of Inspector General confirmed that the research areas 
funded by the Department relate strongly to the diseases and injuries 
most prevalent in our Veterans population.
    1. Can you please discuss the Department's plan for the $70 million 
increase for Fiscal Year 2010 and how it relates to our Veteran 
populations? How do you measure the success of VA research?
    Response. VA's Office of Research and Development (ORD) funded 
studies are relevant to our Veteran populations and address research 
questions related to improved understanding, treating, and preventing 
diseases and injuries, as well as improving healthcare delivery and 
services. The additional funding requests are specifically targeted for 
areas of high importance in which further studies are necessary for 
specific needs including:
    <bullet> New research initiatives are planned that are related 
specifically to the newest Veterans returning from Afghanistan and Iraq 
(Operations Enduring Freedom (OEF) and Iraqi Freedom (OIF)), and VA 
requests $20 million above the current base spending of $279 million 
for this component. These initiatives will be directed towards further 
understanding and treating physical and mental health problems 
prevalent in OEF/OIF Veterans including National Guard and reserve 
populations; however, many of these studies will provide results that 
can be generalized to all Veterans, e.g., if a new therapy is shown 
effective for PTSD or TBI.
    <bullet> New initiatives are planned to increase research to 
improve access to healthcare and to better address rural healthcare 
needs. This effort will be relevant to all veteran populations who need 
readily available access to healthcare services wherever they live. 
This request represents a $14 million increase above the current base 
spending of $24 million.
    <bullet> Personalized medicine research initiatives represent an 
additional $14 million above the current base of $40 million. These 
studies will also be relevant to all veteran populations, as results 
will better inform both the basis for disease and an individual's 
treatment response to drugs that consider genetic make up. Discoveries 
from personalized medicine research will transform health care in the 
very near future, and research in this area will have a direct impact 
on the health of all Veteran populations.
    The remaining $22 million of the requested increase will cover pay 
raises and inflationary costs associated with conducting medical 
research.
    VA research success is measured both internally and externally. 
Internal evaluations include competitive renewals of programs that have 
been evaluated as successful, research audits, and inspections, e.g., 
recent OIG finding that VA research is strongly relevant to Veterans' 
needs. Examples of external evaluations include peer reviewed 
publications and evaluations by the Office of Management and Budget. An 
example of success from VA's research program is improved health care 
options for Veterans. Following ORD supported research on PTSD among 
women Veterans, VA's Office of Mental Health Services is now supporting 
a national rollout of training in a therapy called prolonged exposure 
therapy, which has shown real results in treating women Veterans who 
suffer from PTSD. Women who received this therapy were more likely to 
no longer meet PTSD diagnosis criteria and were more likely to achieve 
total remission.
    2. The Department of Defense has recently received significant 
increases in research funding for TBI, PTSD and prosthetics. What 
mechanism exists to ensure the two Departments leverage their research 
dollars to achieve the maximum impact in shared areas of interest?
    Response. While there is no formal mechanism for leveraging funding 
between the Department of Defense (DoD) and VA, both agencies have 
benefitted immensely from a close collaboration on research efforts in 
the areas of TBI, PTSD and prosthetics, which is fostered through 
regular meetings of VA and DoD research leadership and investigators 
alike. The following are some key examples of these collaborations, 
which are intended to prevent overlap in research funding and extend, 
as far as possible, the valuable resources allocated to the respective 
agencies for research:
    <bullet> VA ORD staff serve as advisors to the DoD research 
offices, developing requests for proposals in the area of TBI and PTSD, 
as well as provide advice for identifying key priority areas for 
funding announcements. VA has worked closely with DoD Center of 
Excellence for TBI and Psychological Health (DCOE) and Congressionally 
Designated Medical Research Programs (CDMRP) on developing research 
programs.
    <bullet> VA ORD staff serve as advisors on the Executive Advisory 
Board for the newly funded DoD Clinical Consortium and is thus informed 
about new clinical trial proposals and potential areas for 
collaboration. The Director of the Executive Advisory Board is a VA 
scientist.
    <bullet> The Deputy Chief of Research and Development serves on the 
Board of Directors for the Armed Forces Institute of Regenerative 
Medicine.
    <bullet> Key DoD research leaders participate actively in meetings 
of the VA National Research Advisory Council.
    <bullet> VA staff have attended the strategic planning meetings for 
the DCOE, including serving in working groups to develop research 
targets and goals.
    <bullet> VA staff regularly participate as reviewers for DoD 
scientific proposals--as peer review committee members, as secondary 
level reviewers, and as Integration Panel members. All of these roles 
serve to integrate the research efforts between the funding agencies.
    <bullet> VA and DoD have jointly sponsored large integration 
conferences for TBI and Psychological Health (PH). One recent effort 
was a conference designed for eight working groups to develop 
recommendations for common data elements for TBI and PH, so that data 
definitions and measures are more standardized across studies. The 
results of this conference will be available during FY2010.

                   Information Technology Procurement

    Question. Please provide the Committee with an assessment of the 
state of procurement at your department.
    Response. VA has implemented several significant steps to improve 
the state of its procurement operations. As of May 1, 2009, VA is 
midway through a process to implement several major organizational 
changes, many of which are derived from the results of a comprehensive 
study conducted by Pricewaterhouse Coopers (PwC). As a result of the 
study, VA is implementing a plan to improve both the efficiency and 
effectiveness of the acquisition function within VA. The major tenets 
of this plan are as follows:
    <bullet> Leadership: In an effort to consolidate one central 
authority for all VA acquisitions, the Secretary created the Office of 
Acquisition, Logistics and Construction. In addition, the Secretary has 
requested legislation to establish an Assistant Secretary who will 
oversee all Department-wide procurements.
    <bullet> Personnel: While not directly attributed to the study, VA 
established clearer lines of authority within the VA Central Office 
buying units. In addition to existing offices in Austin, TX; Hines, IL; 
Denver, CO; and Frederick, MD, a Technology Acquisition Center (TAC) in 
Eatontown, NJ was established to focus primarily on managing 
information technology (IT) contracts.
    <bullet> Training and Development: In August 2008, VA launched the 
first civilian acquisition academy, whose size and scope is second only 
to the Defense Acquisition University (DAU). Using OMB's Federal 
Acquisition Certification (FAC) standards, the Academy will focus on 
all aspects of acquisition workforce training which include: 
Contracting Officers, Contracting Officers' Technical Representatives 
(COTR), and Project and Program Managers (P/PM).
    Further, in FY 2010, VA will launch a Competency Assessment Center 
(CAC) as a precursor to any training and development. Ultimately, a key 
measure to assess effectiveness is the degree to which an acquisition 
professional closes a specific competency gap(s). The Office of 
Personnel Management is working closely with VA to develop the CAC 
since the concept revolutionizes the way VA (and government) targets 
training opportunities and tracks the competency of the workforce.
    <bullet> Technology: VA has enhanced its contract management 
systems with state-of-the-art technology in two primary areas. The 
first area is the contract writing system, which systematically guides 
contracting officers (CO) through the development of all contractual 
documents. COs are mandated to use this system for all contract actions 
over $25,000 and cannot issue a contract unless several key data fields 
are entered. These changes alone will significantly improve the quality 
of contracts and ability to track performance.
    The second change is with reporting capability. By adding business 
intelligence capability to the system, VA now has the ability to:
          a. Measure process efficiency (e.g., timeliness),
          b. Assess compliance with acquisition laws and policies, and
          c. Predict whether a specific program is behind schedule so 
        corrective action can be taken.
    These enhancements are being used successfully to manage and report 
progress on over 1,300 separate procurement actions under the American 
Recovery and Reinvestment Act (ARRA) of 2009. In FY 2010, the 
technology and process changes will be expanded to all procurements 
managed by VA. In the future, VA will integrate the contract management 
system with the Department's financial management systems to ensure 
that proper reconciliation is done between commitments and obligations.
    <bullet> Structures and Processes: As the second largest civilian 
federal agency, VA employs over 1,300 GS-1102 contracting officials, 
obligates over $15 billion annually, and processes nearly five million 
contract actions.\1\ Since 2003, VA has experienced exponential growth 
(see Table 2) in both contracting actions (98 percent) and obligations 
(280 percent).
---------------------------------------------------------------------------
    \1\ Based on FY 2007 data from the Federal Procurement Data 
System--Next Generation (FPDS-NG).
[GRAPHIC] [TIFF OMITTED] T0526D.096

    Conversely, the total number of GS-1102s has increased at a 
significantly lower rate.\2\ This growth in volume and obligations 
without an equivalent increase in the number of contracting officials 
has put a significant strain on the workforce and on the acquisition 
system.
---------------------------------------------------------------------------
    \2\ It is noteworthy that continued growth in dollar obligations 
and transactions is anticipated given the importance of VA's mission to 
serve America's growing Veteran population.
---------------------------------------------------------------------------
    Therefore, VA has instituted aggressive strategies to change its 
internal structures and processes to improve workflow efficiencies and 
to implement a staffing and workflow plan that improves the quantity 
and competency of its workforce. The primary goals are to ensure that:
    1. VA COs are highly competent and qualified to manage the 
burgeoning workload.
    2. VA is structured in a manner that reduces process inefficiencies 
and workload redundancies.
    Given that the Veterans Health Administration (VHA) manages nearly 
80% of all procurements within VA, one task in the PwC study was to 
recommend an optimum organizational structure to improve the quality 
and efficiency of VHA's procurement function. Of the several 
recommendations provided by PwC, VA adopted the one that realigns VHA's 
acquisition management function from a largely decentralized structure 
to a more centralized model. Under this recommendation, VHA's 
leadership hierarchy will consist of seasoned acquisition 
professionals.
    Headquartered in Washington, D.C. the new structure will have three 
regional directors with line authority over VHA field activities (e.g., 
Veterans Integrated Service Networks (VISNs)). This is a significant 
departure from the former decentralized organizational structure where 
the VISN procurement officers reported directly to local leadership. 
Under the new model, the Department's Senior Procurement Executive 
delegates all authority and has oversight responsibility over VHA's 
procurement operations.
    By creating a contracting-centric organization and reporting 
structure and requiring that senior VHA leaders be well trained and 
experienced in the procurement field, the quality of acquisition within 
VHA should improve significantly.
    In addition to the organizational realignment in VHA, VA realigned 
procurement operations within the VA Central Office (VACO). To help 
attract talent from those non-VA procurement professionals who may live 
in the Maryland area and do not want to commute into Washington, VACO's 
operations are being transitioned to our Center for Acquisition 
Innovation co-located with the VA Acquisition Academy facility in 
Frederick, MD. Table 4, submitted in response to question number 3, 
shows each buying unit, the FTE count, and the major customers.
    Eventually, all buying for VACO customers will reside in that 
facility. In addition, the aforementioned TAC in New Jersey will focus 
primarily on IT purchases, an area that will experience significant 
investment and growth over the next several years. The addition of the 
TAC will help to relieve the significant IT workload which currently 
resides in Austin, TX and the Cleveland Business Center.
    Under the realignment, the National Acquisition Center (NAC) in 
Hines, IL, will continue to focus on purchases for medical and surgical 
equipment through delegated federal supply schedule authority granted 
by the General Services Administration. The NAC supports the needs of 
VA hospitals as well as the Departments of Defense and Health and Human 
Services. Further, through a world-class intern program, which hires up 
to 30 interns annually, VA firmly believes that building a new 
generation of acquisition professionals is the soundest long-term 
strategy. This new talent will receive high quality training, 
development and on-the-job experience. The goal is to teach the interns 
new and innovative ways of managing procurements. More importantly, 
they will be nurtured and molded for increasingly complex leadership 
roles in the future.
    The major changes to the structures, processes, measurement systems 
and information technology represent transformational steps toward 
improving how goods and services are procured in VA.
    Question. I understand that some of the procurement offices (Austin 
and Cleveland) have stated that they will not handle any new 
information technology procurements for the remainder of FY 2009 
because they do not have the capacity. Is this true?
    Response. Historically, program offices have randomly assigned work 
to various acquisition offices without prior planning and acquisition 
strategy. A consolidated strategy has been developed to meet the 
priority information technology procurements for the remainder of FY 
2009. The Center for Acquisition Innovation (CAI), in Austin, TX, is 
slated to execute 111 contract actions for an approximate total of 
$355M for the remainder of FY 2009. However, executable requirements 
packages have not yet been received for some of these actions, 
jeopardizing the timely award and obligation of funds. CAI Austin, in 
coordination with interns from the VA Acquisition Academy, will 
additionally award several simplified acquisitions in support of the 
Office of Information Technology. CAI Austin does currently have 16 
vacancies and recruitment efforts are underway to identify and retain 
qualified contracting professionals. As requirements continue to 
emerge, there is a real possibility that we will need to work with GSA 
to accept contracting requirements to execute on behalf of VA.
    Question. For the record, please submit to the Committee a list of 
all procurement offices, which offices they service, as well as the 
number of filled positions and vacancies for each.
    Response. Profile of VA Workforce
    Table 3 shows the distribution of the GS-1102 operational 
contracting officers/specialists across the Department and the planned 
number of new full time equivalent (FTE) positions.

                           TABLE 3--TOTAL NUMBER OF GS-1102S BY FISCAL YEAR (2003-08)*
----------------------------------------------------------------------------------------------------------------
                                                                                           Total
                                                                                          increase      Total
               Category                  2003    2004    2005    2006    2007    2008     between     projected
                                                                                         2003-2008    for 2009*
----------------------------------------------------------------------------------------------------------------
Total GS-1102 Workforce...............     766     786     808     851     909    1167         +401        1407*
% increase from previous fiscal year..  ......     2.6     2.8     5.3     6.8    28.4         52.3        17.1*
----------------------------------------------------------------------------------------------------------------
*Includes 160 new positions at the TAC, 30 additional interns and approximately 50 positions in VHA.

    Table 4 provides a breakdown of the total number of contracting 
officials. Note that VHA represents over 65 percent of the total GS-
1102 workforce and approximately 82 percent of total dollars obligated.

                       TABLE 4--DISTRIBUTION OF THE GS-1102 WORKFORCE (AS OF MAY 1, 2009)
----------------------------------------------------------------------------------------------------------------
                                                                     Number of
                      Administration/Office                       authorized GS-     On board        Number of
                                                                       1102s                         vacancies
----------------------------------------------------------------------------------------------------------------
VACO \1\........................................................             407             192             215
VHA \2\.........................................................             871             739             132
CFM \3\.........................................................              17              15               2
VBA \4\.........................................................              24              23               1
NCA \5\.........................................................              19              16               3
                                                                 -----------------------------------------------
    TOTAL GS-1102s..............................................           1,338             985            353
----------------------------------------------------------------------------------------------------------------
\1\ Includes VACO staff offices, OALC Field elements (i.e., National Acquisition Center, Denver Acquisition and
  Logistic Center, and the Centers for Acquisition Innovation), VBA, VHA, and most major systems procurements
  for OIT.
\2\ Includes purchases for energy, local medical center procurements.
\3\ All major construction VA-wide.
\4\ Most buying is within the simplified purchasing threshold and orders under IDIQ contracts.
\5\ Manages services to support the national cemeteries and non-recurring maintenance.

    Question. I understand that an effort is underway to assess and 
prioritize IT procurements. What is the status of this effort, and what 
is the way forward to ensuring that crucial IT procurements are handled 
expeditiously?
    Response. As a result of recent meetings between the Office of 
Acquisition and Logistics (OAL) and the Office of Information 
Technology (OIT), we have identified 625 OIT requirements for an 
estimated $896M for FY 2009 execution. OIT Development has prioritized 
its requirements and continues to work with the OAL to ensure that all 
priority one requirements are assigned and executed. Joint acquisition 
planning and execution efforts are ongoing, and OAL is pursuing 
additional capacity through assisted acquisitions.
    Question. What is your FY 2010 request for the Office of 
Acquisition, Logistics, and Construction--how many new positions are 
you requesting? Is this adequate given the continued emphasis on 
complicated information technology procurements?
    Response. The Office of Acquisition, Logistics and Construction's 
(OALC) FY 2010 budget request is $50.7 million. Of this amount, $645 
thousand is to support the Office of the Executive Director OALC, and 
$50.1 million is to support the Office of Construction and Facilities 
Management (CFM). The requested budget authority is an increase of 
$5,485,000 from FY 2009 and adds 16 new FTE. The additional staff is to 
support the increased major construction and leasing workload in CFM.
    The Office of Acquisition and Logistics (OAL), which has the 
primary responsibility of supporting the information technology 
procurements, is funded through a self-sustaining revolving account 
known as the Supply Fund which is non-appropriated funds. The FY 2010 
budget reflects that the Supply Fund will support 662 FTE, an increase 
of 30 FTE over 2009. The increases are primarily due to the 
establishment of the Technology Acquisition Center and additional 
acquisition interns at the VA Acquisition Academy. These resources are 
adequate to meet our current information technology program and mission 
needs.

                     Technology Acquisition Center

    Question. I understand that your Department is working with the 
Department of Defense to establish a Technology Acquisition Center. 
Would you please give the Committee a brief overview of this new 
Center? What do you hope to gain from this activity, and when will it 
be fully operational? What is its mission--will it handle only IT-
related procurements?
    Response. VA has recognized for some time the need to increase its 
contracting officer population and has taken significant steps, both 
near term and long term, to accomplish this. In addition to enhancing 
its recruiting activities to draw from the ever-shrinking pool of 
trained contracting professionals in the Federal workplace, VA's most 
significant near term solution to increase quickly its number of 
seasoned contracting officers is both resourceful and unique.
    VA is establishing a Technology Acquisition Center (TAC) near Fort 
Monmouth, New Jersey. The U.S. Army post, Fort Monmouth, New Jersey, 
will be closed in 2011 under the Base Realignment and Closure (BRAC) 
2005 implementation plan. Fort Monmouth is home to one of the premier 
Contracting Centers in the Army. This contracting workforce contains an 
experienced core of contract specialists and other acquisition 
professionals that are dedicated to the acquisition of IT. VA has moved 
swiftly to hire the current Army acquisition staff that desire to 
remain in the area and continue their Federal service. By creating the 
TAC in Eatontown, NJ, VA will acquire the skills and abilities of 167 
acquisition professionals (over 80 of which are contract specialists) 
in a very short period of time. This initiative is expected to be fully 
staffed by August 2009 and the TAC will have three distinct functional 
areas. These areas include contracting; an Acquisition Rapid Response 
Office, which will assist in the development of acquisition documents; 
and a Program Management Office, which will assist VA Program Managers 
in the management of their programs. The staff will support the entire 
acquisition lifecycle, not just the contracting piece as is 
traditionally found in procurement organizations.

           Office of Information and Technology Hiring Freeze

    Question. Would you please tell the Committee why there is a hiring 
freeze, when it was instituted, and what impact it is having on the 
Department?
    Response. There has been a hiring freeze within OI&T beginning in 
early February 2009. The hiring freeze was implemented within OI&T 
because funding for payroll was insufficient to cover on-board staffing 
through the end of the fiscal year. As a result, VA requested a 
reprogramming of $28 million within the IT Systems appropriation to 
support payroll requirements. We appreciate the Committee's support of 
VA's reprogramming request. The Department could not maintain its 
strong commitment to Veterans to provide high quality and effective IT 
operational services and development without obtaining the $28 million 
reprogramming and lifting the hiring freeze.
    Question. For the record, would you please submit to the Committee 
a list of all offices within OI&T, as well as the number of filled 
positions and vacancies for each office?
    Response. The organizations within OI&T are as follows along with 
the current staffing on-board as of April 24, 2009, and current 
critical vacancies associated with each that have not been filled:
          <bullet> Office of the Assistant Secretary for Information & 
        Technology: 1 staff, 0 vacancy
          <bullet> Office of Quality, Performance & Oversight: 200 
        staff; 2 vacancies
          <bullet> Office of Information Protection & Risk Management: 
        580 staff; 29 vacancies
          <bullet> Office of IT Enterprise Strategy, Policy, Plans & 
        Programs: 44 staff: 7 vacancies
          <bullet> Office of IT Resource Management: 92 staff; 2 
        vacancies
          <bullet> Office of Enterprise Development: 879 staff; 53 
        vacancies
          <bullet> Office of Operations & Field Development: 4,965 
        staff; 250 vacancies
    Question. I am slightly perturbed at hearing about this hiring 
freeze, because we tried to help you last year. Last year, our 
Committee pointed out to VA that OI&T had a staffing requirement to 
hire 1,990 additional FTEs, most of these in the field providing IT 
support in the many medical centers. However, in responses back to the 
Committee, the Department stated that VA only needed ``to hire an 
additional 247 staff in FY08 . . .'' and you requested only 94 
additional FTE.
    Response. The 2010 budget request includes funding to support an 
additional 800 FTE. In addition, OI&T, as part of VA's transformation 
to the 21st Century review process, is completing a staffing analysis 
to determine/validate the staffing needs of OI&T. See Table 1 below.
    Question. I understand that your FY 2010 request includes funds to 
hire 600 more IT people for the field, and another 200 IT for the VA 
Central Office. Does your budget include enough funds to hire these 800 
new people? Is 800 new staff enough?
    Response. As shown in our budget submission to Congress, 600 FTE 
will support Enterprise Operations and Field Development IT support. 
Other field personnel include field development staff as well as field 
security and information protection staff. 25 FTE of the 800 FTE is 
attributable to VA Central Office. Sufficient funding is included in 
the FY 2010 budget request to fund 800 additional FTE as well as 
correct the payroll funding shortages (correcting the base) experienced 
in FY 2009. In addition, OI&T, as part of VA's transformation to the 
21st century review process, is completing a staffing analysis to 
determine/validate the staffing needs of OI&T.

                                  TABLE 1--OFFICE OF INFORMATION AND TECHNOLOGY
                                         [FY 2009-2010 FTE Distribution]
----------------------------------------------------------------------------------------------------------------
                                               FY 2009                          FY 2010                 Total
                                    FY 2009      FTE      FY 2009    FY 2010      FTE      FY 2010    increase/
                                     BA FTE     reimb.     total      BA FTE     reimb.     total      decrease
----------------------------------------------------------------------------------------------------------------
Enterprise Operations and Field        4,747      1,781      4,925      5,347        178      5,525          600
 Development (EOFD)..............
Enterprise Development...........        801         64        865        912         64        976          111
Information Protection & Risk            620          0        620        684          0        684           64
 Management (IPRM)...............
OI&T Corporate Administration....        370          0        370        395          0        395           25
                                  ------------------------------------------------------------------------------
    Total OI&T FTE...............      6,538        242      6,780      7,338        242      7,580          800
----------------------------------------------------------------------------------------------------------------

                   HealtheVet Integrated Master Plan

    Question. What is the status of this effort and when does VA expect 
to have a comprehensive Integrated Master Plan (IMP)?
    Response. For over 18 months, the Office of Information and 
Technology (OI&T) and Veterans Health Administration (VHA) have worked 
closely to develop a HealtheVet integrated program plan (IPP). In the 
wake of the issues that arose from the Replacement Scheduling 
Application (RSA), VA is engaging in a full review of all HealtheVet 
modules, materials, and plans. The outcome of this evaluation will 
provide VA sufficient information to establish authoritative completion 
dates for an Integrated Master Plan (IMP).
    Question. Do enhancements and modernization projects allow for more 
modular services or SOA type approach allowing for best of breed 
modules which could be internally developed or purchased and then 
integrated?
    Response. VA recognizes the many benefits of implementing Service 
Oriented Architecture (SOA) as part of enhancements and modernization 
projects, and moreover, is in the process of incorporating SOA into 
VA's planning and implementation activities. Implementing a service 
oriented architecture offers VA significant benefits from both a 
business and IT perspective. Among the major advantages of using SOA at 
VA are greater flexibility and efficiency, as well as quicker reactions 
to changing governance and compliance requirements and business 
processes.
    VA is currently in a strategic and sequential process of moving to 
a service oriented architecture. The first major instance of VA's use 
of SOA is within the long-term efforts of the Post-9/11 GI Bill 
implementation, commonly called the Chapter 33 program. The Chapter 33 
program will be the first reference implementation of SOA. VA is 
currently developing a detailed roadmap and plan for SOA 
implementation. VA anticipates completion of this roadmap by December 
2009.

Additional Questions From Chairman Edwards: Information and Technology 
                               Questions

    Question. What projects are underway that define the VA's approach 
to moving to a new hardware platform?
    Response. OI&T has projects underway on several fronts to replace 
the legacy hardware platform for the Veterans Health Information 
Systems and Technology Architecture (VistA). There are three primary 
components of the solutions which will be addressed separately. These 
are the application servers, those on which client sessions run, 
database servers, those which fetch data and return it to the client 
applications, and the storage platform which holds the patient data. 
Efforts to modernize these platform components are tightly integrated 
into the National Data Center Project (NDCP), and the sequencing of 
these initiatives is coordinated with the migration of VistA systems 
into the NDCP.
    The specifics of these projects to upgrade this hardware platform 
are as follows:
    Application Servers--testing has been completed on commodity x86 
server technology running both LINUX and Windows. Production systems 
running Windows are in place in VISN 23 and being finalized for testing 
in the data center environment in Region 4. Production systems running 
LINUX are in limited operation in the Sacramento Data Center. 
Regardless of the operating system chosen to run on these platforms the 
commodity nature of x86 platforms has been validated as providing 
exceptional stability and performance for this component of the VistA 
hardware solution.
    Database Servers--testing is underway for the migration of this 
component off of end-of-sale HP Alpha and on to Itanium technology. 
This strategy will allow OI&T to continue to leverage the OpenVMS 
operating system which offers the least complicated path for migration. 
A production instance of VistA at the Cleveland VAMC has been brought 
online with Itanium and is being evaluated. The results are early but 
impressive. OI&T has begun to explore alternative platforms for this 
hardware component to verify the best technology to provide this 
solution. Current plans are to continue with Itanium while analysis is 
completed.
    Storage--the current storage infrastructure utilized for VistA 
spans a series of mid-life and end-of-life technologies, based on when 
the last facility-based technical refresh was executed. These 
disparities will be addressed as VistA systems are migrated into data 
centers. The current storage platform in the data center solution is 
mid-life and has support and capacity for expansion, but is mid-tier 
and cannot effectively scale to meet future demand. Testing has been 
completed on an enterprise-class storage platform and funding to begin 
the implementation of this more technically appropriate solution has 
been budgeted in FY10.
    Question. What is the Plan to modernize VistA, and will this plan 
help coordinate software development efforts that would enable reuse of 
existing legacy VistA components deemed valuable to the organization?
    Response: HealtheVet is the technological plan to modernize VistA. 
Joint efforts between the internal Office of Information and Technology 
(OI&T) and Veterans Health Administration/Office of Health Information 
(VHA/OHI) have been established to validate and document the scope, 
business architecture and Service Oriented Architecture (SOA) for the 
HealtheVet System-of-Systems. These collaborative efforts are assisting 
with the development of a comprehensive strategic plan that will 
execute this major IT program, including cost models and respective 
Integrated Master Plan/Integrated Master Schedule (IMP/IMS) necessary 
to manage and sustain HealtheVet projects/products. Items in this plan 
will not only allow the organization to understand the necessary 
development efforts, but it will also eliminate duplication of 
functional services, ideally maximizing the resources at VA and of 
HealtheVet. At this time, we have identified some improvements to Vista 
Legacy to support the immediate and critical needs, as well as continue 
to define the future direction of HealtheVet.
    Question. Is the VA looking at commercial best practices for 
implementing clinical systems and integration of disparate systems in 
the private healthcare sector?
    Response. Yes. HealtheVet targets commercial best practices for 
implementation, integration and evaluation.
    Question. What is the incremental technology roadmap, starting in 
2009, for sequencing modernization of the hardware and software for IT 
modernization supporting VHA?
    Response. The slides at attachment 1 present a high-level 
technology roadmap for modernizing the software supporting VHA.
    Question. What is the plan for improving VHA's ability to acquire 
needed services like systems integration and customization for VistA 
enhancement as well as modernization?
    Response. VA's strategy for improving acquisition of systems 
integration and customization is shifting to address not only the 
acquisition process itself, but also new approaches to development and 
program management. VA is working to establish project management 
methods that center around agile development, frequent testing, and 
substantial end-user involvement. Several pilot projects are underway 
that utilize these processes, and initiatives like the HealtheVet 
governance model and HealtheVet Acquisition Strategy include heavy 
involvement from both technical and business staff.
    VA continues to face acquisition and staffing challenges, both of 
which impact program timelines. OI&T is working to adopt an Integrated 
Project Team approach to software development, which features not only 
technical, engineering, and business involvement, but also 
representatives of key functions including human resources and 
acquisitions. This approach engages acquisition staff earlier in the 
development process, facilitating a more strategic approach to the 
acquisition process that will help mitigate some of the challenges 
faced to date. Challenges to IT acquisition remain, however, and VA 
continues to investigate better and more permanent solutions to these 
issues.
    Question. What VA contract vehicles and VA contracting officers are 
available to support maintenance and modernization efforts for 
hardware, software and services?
    Response. Available VA contracts: Currently, VA has few 
``internal'' contract vehicles for the procurement of information 
technology (IT) hardware, software, and services. In accordance with 
federal acquisition regulations, VA makes maximum use of existing 
Government-wide Acquisition Contracts (GWACs) and the General Services 
Administration's (GSA) Federal Supply Schedules. Recently however, VA 
has determined that the award of enterprise wide contracts would 
enhance our ability to leverage our acquisition workforce and provide 
us the opportunity to establish better terms, conditions, and pricing 
than are generally available through existing non-VA contracts. VA 
intends to begin the process of developing these new contracts in 
fiscal year 2010.
    Current VA contracts include:
    a. Ten Global Information Technology Support Services (GITSS) 
Contracts--ordering contracts for a full array of IT services
    b. Blanket Purchasing Agreement (BPA) awarded under GSA IT Schedule 
70 for lease of desktop computers, monitors, maintenance and 
installation services
    c. Eight BPAs awarded under GSA IT Schedule 70 for VistA Contractor 
Services to maintain and support VistA legacy systems
    In addition to these VA-awarded contracts, VA makes significant use 
of the following GWACs and GSA contracts/schedules in acquiring IT 
hardware, software, and services:
    a. GSA Veterans Technology Services (VETS) GWAC, which is a 
``preferred'' source for acquiring IT services per VA policy
    b. NASA Solutions for Enterprise Wide Procurement (SEWP) IV GWAC, 
which is a mandatory source for acquiring VA hardware, software, 
maintenance and installation services per VA policy
    c. GSA Federal Supply Schedule 70 for IT equipment, software, and 
services. This is probably the most widely used IT procurement vehicle 
throughout the Federal government.
    VA contracting Officers: VA's Office of Acquisition and Logistics 
(OAL) is the principal contracting activity within VA for the 
procurement of hardware, software, and information technology (IT) 
services. Within OAL the main organizations focused on the procurement 
of IT are the Center for Acquisition Innovation (CAI), Austin, Texas 
campus; and the newly created Technology Acquisition Center (TAC), 
located in Eatontown, NJ.
    VA has recognized for some time the need to increase its 
contracting officer population and has taken significant steps, both 
near term and long term, to accomplish this. In addition to enhancing 
its recruiting activities to draw from the ever-shrinking pool of 
trained contracting professionals in the Federal workplace, VA's most 
significant near term solution to increase quickly its number of 
seasoned contracting officers is both resourceful and unique.
    The U.S. Army post, Fort Monmouth, New Jersey, will be closed in 
2011 under the Base Realignment and Closure (BRAC) 2005 implementation 
plan. Fort Monmouth is home to one of the premier Contracting Centers 
in the Army. This contracting workforce contains an experienced core of 
contract specialists and other acquisition professionals that are 
dedicated to the acquisition of IT. VA has moved swiftly to hire the 
current Army acquisition staff that desire to remain in the area and 
continue their Federal service. By creating the TAC in Eatontown, NJ, 
VA will acquire the skills and abilities of 167 acquisition 
professionals (over 80 of which are contract specialists) in a very 
short period of time. The TAC is expected to be fully staffed by August 
2009. The TAC will have three distinct functional areas. These areas 
include contracting, an Acquisition Rapid Response Office which will 
assist in the development of acquisition documents and a Program 
Management Office which will assist VA Program Managers in the 
management of their programs. The staff will support the entire 
acquisition lifecycle not just the contracting piece as is 
traditionally found in procurement organizations.
    Through the VA Acquisition Academy (VAAA) in Frederick, MD, VA is 
training a cadre of acquisition interns for the future. The first class 
of interns has successfully completed its first year of intensive 
acquisition training, while VA is in the process of selecting suitable 
candidates for its second intern class which is slated to start 
training during the Summer of 2009. The VAAA has made significant 
progress to ensure that future VA contract specialists/contracting 
officers have the requisite training and certifications to support 
critical program execution. In addition to the FAC-C training, the VAAA 
is developing a project and program management development program that 
exceeds the minimum FAC-Program/Project Management (FAC-P/PM) 
requirements. The VA's FAC-P/PM program will be applied learning based 
and address all levels of expertise with an expanded set of 
competencies to ensure the VA's project and program managers are 
capable of delivering the best value to the taxpayer. The VA's FAC-P/PM 
program is addressing information technology project/program management 
issues first.
    The combined strength of the CAI and TAC contracting activities 
will exceed 220 acquisition professionals focused on supporting the IT 
requirements of the Department. In conjunction with VA's continued 
recruitment and retention initiatives, and the development of its 
future acquisition workforce through the VAAA, this number is 
considered adequate.

    [Questions for the record submitted by Ranking Member Zach 
Wamp]

                             Transformation

    Question. How will this transformation occur? Will transformation 
occur in-house using policy directives set by you, or will you be 
working with this Committee and the authorizing Committee on 
legislative proposals to transform the VA? What role will Veterans 
groups have in the process?
    Response. The Department of Veterans Affairs (VA) has begun to lay 
down the groundwork for transforming into a 21st Century organization 
that is Veteran-centric, results-driven and forward-looking. The 
approach used to transform VA will employ leadership directives, 
suggestions from Veterans and their families, Veteran Service 
Organizations, employees, unions, and work with Congress and its key 
committees to develop and enact legislative proposals to accelerate and 
support transformation. Laying the foundation for transformation began 
during the presidential transition period in listening to the concerns 
and ideas from Congressional committee staff, Veteran Service 
Organizations, and VA employees. It continued in February when VA 
started developing a new vision statement with valuable input from key 
stakeholders. VA interviewed Senate and House authorizing and 
appropriating committee staff, conducted focus groups of Veterans and 
their family members, and surveyed over 16,000 VA employees to learn 
more about their vision and expectations for a transformed Department.
    Numerous ideas have been proposed by employees and other 
stakeholders. Several of these insights have been inserted into the 
work of the Transformation Task Force (TTF). The TTF drives the 
transformation initiatives through the VA governance process using an 
iterative approach so that each proposal can be discussed, improved, 
and ultimately approved. The governance process is a transparent method 
allowing every organization in the Department to participate in the 
decision making process on transformation initiatives.
    Question. Give us an example of something as it is at the VA today, 
and what it would look like under transformation?
    Response. The development and implementation of a joint, virtual, 
lifetime electronic record, which will ultimately contain 
administrative and medical information from the day an individual 
enters military service throughout their military career and after they 
leave the military. Today, VA relies on reams of paper, which is 
difficult to locate, housed in various locations, and is not integrated 
with data owned by the Department of Defense.
    This disparate and inefficient approach leads to negative 
experiences when Veterans interact with VA and the possibility for 
inaccurate responses and decisions. In the future, regardless of where 
a Veteran is located his or her complete record would be available for 
use by the Veteran, VA, and DoD.
    Question. Your testimony says that resources are included in the 
budget for this transformation that will take more than one year to 
complete. How much is in this budget that is directly tied to the 
transformation and what does it get us?
    Response. The FY10 budget request submitted to Congress includes 
funding to begin developing VA into a 21st Century organization. This 
includes $144 million to continue moving toward the President's goal of 
reforming the benefits claims process to make VA's claims decisions 
timely, accurate, and consistent through use of automated systems. It 
will strengthen service to Veterans by providing them the capability to 
apply for and manage their benefits on-line. It will also reduce the 
movement of paper files and further secure Veterans' personal 
information. As additional transformation initiatives are identified as 
a result of the organizational and management reviews, more funds 
within the budget topline will be denoted as part of the VA 
transformation over the next several months.
    Question. Does transformation buy us a new Assistant Secretary for 
Logistics, Acquisition and Construction? Is this just another layer of 
bureaucracy?
    Response. The FY2010 budget request contains funding for new 
approaches to meeting emerging needs that will change the way VA does 
its work. Funding for the new office of the Assistant Secretary for 
Acquisition, Logistics and Construction is one of these new approaches. 
Currently, VA contracts for goods and services in a variety of places, 
using a variety of methods, which leads to little available enterprise 
data about the use and purpose of funds. The new office of the 
Assistant Secretary for Acquisition, Logistics and Construction is 
designed to minimize added bureaucracy by elevating an existing office 
that is charged with managing this portfolio for the Department. 
Establishing the new office of the Assistant Secretary brings the 
needed discipline to VA's acquisition, logistics and construction 
processes, harvests efficiencies to spend VA budget dollars more 
effectively, and improves management results for all organizations in 
VA who use contracting services.

              Advanced Appropriations for VA Medical Care

    Question. When does the administration plan to submit its advance 
appropriations for medical care proposal to the Congress? What is the 
current thinking on what the proposal would be?
    Response. The VA is currently working to finalize the details in 
its plan for advanced appropriations. We will work with the Congress to 
execute the plan this year.

                    VA Information Technology Risks

    Question. How do you reconcile the substantial request for IT with 
the testimony the IG provided to this Committee just a few weeks ago 
that we should be concerned about VA's ability to effectively identify 
and manage its IT capital investments, and ensure that annual funding 
decisions make the best use of available IT resources?
    Response. VA will address OIG concerns through the implementation 
of an IT Multi-Year Programming Process. Our IT Multi-Year Programming 
Process begins with the Chief Information Officer (CIO) publishing 
official multi-year Programming Guidance, over his signature, to key 
business stakeholders and subordinate deputies. The Programming 
Guidance addresses investment priorities based on the VA Secretary's 
strategic goals and objectives in the respective out-years.
    Once new program or increased investment proposals are submitted to 
the Office of Information Technology (OI&T), the CIO convenes the 
Programming and Long-Term Issues Board (PLTIB), comprised of both 
business stakeholders and OI&T staff members, to deliberate and provide 
a Program proposal to the IT Leadership Board (ITLB), chaired by the VA 
Deputy Secretary. Once the ITLB approves the Multi-Year Program, budget 
year guidance is provided to the Budget and Near-Term Issues Board 
(BNTIB) to develop the VA Secretary's budget request for IT to the 
Office and Management and Budget (OMB). The BNTIB is comprised of 
essentially the same organizations (business stakeholders and OI&T 
staff members) as the PLTIB.
    This process lays out a capital investment planning process that 
provides a multi-year view, involves all stakeholders in the process, 
and ensures the oversight of the senior leadership in the Department 
regarding all long-term IT investment decisions.
    Question. If you could pick one, what is the highest priority 
increase in the VA IT Budget?
    Response. Providing post-9/11 GI benefits by August 2009 and 
supporting this initiative in FY 2010 remains the top IT priority. 
However, the funding request for Paperless Delivery of Veterans 
Benefits is the highest priority increase in the FY 2010 request, as 
the funding increased from $1.5 million in FY 2009 to $143.68 million 
in FY 2010, the largest funding increase for any single initiative in 
the budget request.
    Question. Do you believe that the proposed increase to the VA IT 
account will ``right-size'' the IT budget request and that you will not 
require a reprogramming of funds into IT in fiscal year 10?
    Response. At this time, the increase will support VA's OI&T budget 
requirements for FY 2010. The Secretary has initiated a transformation 
process to prepare the Department to operate in the 21st Century. This 
transformation process will take place over the next three months, and 
may identify a potential reallocation of resources to support new 
initiatives.
    Question. How does this budget request better meet the IT needs of 
VA?
    Response. With the resources requested for FY 2010, VA will 
strengthen collaboration with the Department of Defense with the goal 
of improving patient safety and care, and expediting benefit claims 
processing; automating the educational benefits assistance system to 
handle the expanded benefits passed in the Post 9-11 Veterans 
Educational Assistance Act of 2008; continue to develop Financial and 
Logistics Integrated Technology (FLITE) as the next generation core 
financial management system; and strengthen our IT workforce as well as 
our aging and fragile IT infrastructure.

                     VA IT Staffing (FTE) Question

    Question. How long will it take to hire, train, and fully integrate 
800 new FTEs into the VA IT organization?
    Response. It will take approximately a year to first hire, and then 
train and fully integrate 800 new FTEs into the VA OI&T organization.

                       VA Benefits Claims Backlog

    Question. Mr. Secretary you have been at the helm of the VA for a 
few months now, and undoubtedly you have heard from various 
constituencies about the claims backlog at the VA. Part of the issue is 
there seems to be an inconsistent definition of what a backlogged claim 
is exactly. We have put funding in this bill over the last two years to 
hire an additional 3,000 claims processors. What is the current claims 
rating backlog? Have you been able to establish a common definition?
    Response. The Veterans Benefits Administration's entire inventory 
of disability claims is frequently--and incorrectly--referred to as the 
``claims backlog.'' While there are approximately 400,000 claims in our 
inventory, the majority of these claims are not ``backlogged.'' The 
pending claims inventory is dynamic rather than static. It includes all 
claims received, whether pending for just a few hours or as long as six 
months. Completed claims are continuously removed from the inventory 
while new claims are added. We are averaging over 82,000 new claims 
added to the inventory each month during FY 2009.
    VBA's strategic target for completing disability claims is 125 
days. The target allows for necessary time awaiting evidence or 
expiration of statutory requirements including the Veterans Claims 
Assistance Act. VA defines ``claims backlog'' as the number of claims 
that have been pending longer than the 125-day goal. As of the end of 
April 2009, 138,415 claims (34% of the inventory) had been pending 
longer than 125 days and should therefore be considered ``backlogged.''
    Since 2007, the number of field claims processing employees has 
increased by more than 3,400 FTE. The increased staffing level is 
having an impact, and performance improvements are being achieved. The 
average days to complete claims Fiscal Year To Date (FYTD) 2009 is 164 
days, the lowest level since the hiring initiative began in January 
2007. In April, we completed over 86,000 claims in an average of 156 
days. Our production this fiscal year is 10 percent above the same 
period in FY 2008. However, while we are completing more claims, the 
incoming claims volume through April 2009 is up 13 percent over last 
year.

  Specialty Mental Health Care and Rural Health Outreach and Delivery

    Question. Why does the budget request propose to eliminate bill 
language in the Medical Services account that sets a spending floor of 
$3.8 billion for specialty mental health care and $250 million for a 
rural health outreach delivery and initiative?
    Response. A spending floor of $3.8 billion for specialty mental 
health care was not requested by the VA in the FY 2009 budget request, 
but was inserted by Congress in Public Law 110-329. The VA would prefer 
not to have a specific spending floor established in law but rather to 
ensure that the policies established in the Uniform Mental Health 
Services in VA Medical Centers and Clinics Handbook are extended to 
every Veteran to whom we provide mental health care. The FY 2010 budget 
request of $4.564 billion is our current estimate of the cost of that 
care.
    The bill language of $250 million for rural health was also not 
requested by the VA in the FY 2009 budget request but was inserted by 
Congress in Public Law 110-329. The VA would prefer not to have a 
specific spending floor established in law but to increase access to 
rural health services for those Veterans who live in rural and highly 
rural areas. The FY 2009 funding is available for obligation until 
September 30, 2010 (two year funds), and the VA anticipates that $60 
million of this amount will be obligated in FY 2009. The balance of 
$190 million will be obligated in FY 2010. The VA has requested an 
additional $250 million in the FY 2010 budget request, for a total of 
$440 million available for rural health initiatives in FY 2010.

                   Rural Health Outreach and Delivery

    Question. Please provide the Committee with the status of the Rural 
Health Outreach and Delivery program that was funded at $250 million 
for FY'09.
    Response.
    <bullet> December 2008: Office of Rural Health (ORH) allocated 
$21.75 million to Veterans Integrated Service Networks (VISNs).
    <bullet> On May 21, 2009, VA announced that it had provided $215 
million in competitive funding to improve services specifically 
designed for Veterans in rural and highly rural areas. After a careful 
review, the Office of Rural Health selected 74 programs, many of which 
were either national in scope or affected multiple states. The press 
release for the award of these projects is at attachment 2.
    Question. How much of the funding has been allocated? How much do 
you plan to allocate this fiscal year?
    Response. VA allocated $21.75 million in December of 2008 and will 
allocate the $215 million by mid-June 2009. We plan to obligate $60 
million of the $250 million by the end of FY 2009.
    Question. For the record, please provide FY '09 funding allocations 
by state and provide a short summary of Rural Health outreach and 
delivery initiative projects that have been/will be funded for FY 09.
    Response. The $215 million for the rural health initiatives at 
attachment 3 was distributed by Veterans Integrated Service Network 
(VISN) and Program Office. A short summary of the Rural Health outreach 
and delivery initiative projects is at attachment 4. A state-by-state 
breakdown is not available at this point.
    Question. How do you justify increasing this program by 663 percent 
in fiscal year 2010 when you only expect to spend about $60 million out 
of the $250 million appropriation in fiscal year 2009?
    Response. The Department's budget reflects the obligation of FY 
2009 appropriated funds for rural health initiatives over a two-year 
period. VA appreciates the operational flexibility Congress has 
provided to ensure the most effective use of these funds. VA is using a 
two-year execution process to allow for deliberate planning and 
execution. In FY 2009, we expect to provide $237 million to the VISNs 
and Program Office which represents 95 percent of the appropriated 
amount of $250 million. The remainder of $13 million (5 percent) will 
be provided to the VISNs and Program Office in FY 2010. However, we 
anticipate the VISNs/Program Office will only obligate $60 million of 
the funding they receive in FY 2009 and will obligate the remaining 
$190 million in FY 2010.
    Question. Does the VA have the capacity to effectively grow this 
program by such a large amount? Why has it taken so long to launch the 
FY'09 program?
    Response. Yes, ORH has this capacity, as shown by the fact that the 
office has completed the establishment of a rigorous selection process 
for rural health initiatives.
    The FY 2009 program took more time because the office had to create 
the process to ensure VISNs and VAMCs, as well as VHA program offices 
submit projects and programs using very strict established guidelines. 
ORH also created a very rigorous review to identify the most innovative 
projects to enhance the health care of rural Veterans. Now that ORH has 
a proven process for selection, FY 2010 obligation/execution will begin 
earlier in the fiscal year.

                        Chattanooga CBOC Report

    Question. The VA completed a report that said that the VA (TVHS) 
was going to initiate efforts to re-establish contractual relationship 
with local hospitals for some, if not most inpatient services in the 
Chattanooga area. I know that the target date for the issuance of that 
solicitation was October 1, 2008 but that slipped to April 3, 2009. Can 
you tell me what the current status is of the solicitation and has the 
contract been finalized? Please provide the contract deliverables for 
the record.
    Response. The contract has not been finalized; however, the 
contract proposed statement of work and other initial documents were 
completed on April 3, 2009. Currently, the solicitation is under 
development, and once completed will go through the required review 
process for legal and technical approval prior to being issued for 
bids. The anticipated release of the solicitation is in August 2009.

Post-9/11 GI Bill Implementation Questions; Submitted by Ranking Member 
                                  Wamp

    Question. What are the issues that caused the delay?
    Response. During a National Training exercise conducted on March 
25, 2009, the Chapter 33 Front End Tool (FET) returned error messages 
which caused many users to lose access to the system. The errors began 
when the number of concurrent users exceeded 400. Modifications were 
made to the server and database the evening of March 25. On March 26 
two additional exercises took place. In the first exercise, error 
messages which caused many users to lose access to the system began 
when the number for concurrent users reached 500. Further modifications 
were made to the server and database before the second exercise that 
afternoon. During the second exercise, the number of concurrent users 
peaked at around 560. Only isolated error messages were reported.
    Question. How is the VA working to resolve those issues or have 
they been resolved?
    Response. The issue has been resolved.
    Question. Has the testing of phase 1 development and deployment 
been completed?
    Response. Phase I of the Front End Tool (FET), was successfully 
deployed on March 9, 2009, to the four Regional Processing Offices 
(Atlanta, Buffalo, Muskogee, and St. Louis) delivering the capability 
to accept applications and electronically store eligibility and 
entitlement information that claims examiners enter manually. Phase I 
of the Front End Tool was completed on April 10. Beta testing was 
complete on April 17.
    Question. What were the results?
    Response. The deployment was successful. The performance issue with 
the FET Phase I was resolved and tests show response times within or 
below the acceptable range of 5-8 seconds.
    Question. Is there a comprehensive staffing plan in place?
    Response. Yes, there is an Integrated Project Team in place.
    Question. When will the Long Term Solution be put in place for 
distributing these benefits?
    Response. The Long Term Solution is scheduled to be put in place 
for distributing benefits by November 2010.
    Question. How does the budget request better meet the VA's needs in 
meeting the processing needs under the new GI Bill?
    Response. VA recognizes the difficult economic choices our Veterans 
must make every day and seeks continued improvement in providing 
quality service and secure access to our Veterans. As such, 
implementation of Chapter 33 strives to ease the reentry of new 
Veterans into civilian life by providing timely and accurate decisions 
on education claims and continue payments at appropriate levels to 
enhance Veterans' and service members' ability to achieve educational 
and career goals.
    The IT solution for the Chapter 33 program is of critical 
importance to VA. The budget request will ensure that resources can be 
consistently and seamlessly applied to the program's initiatives, which 
is on target to meet the interim solution's August 1, 2009, deadline. 
With the funding included in the budget request, VA resources and the 
Chapter 33 IPT will continue to work to ensure that the long-term 
solution is deployed in FY 2011. Planned accomplishments for FY 2010 
include developing and testing the long-term solution.

                      VA/DoD Interoperability Plan

    Question. What are the key interoperability issues facing VA and 
DoD at this time?
    Response. The key interoperability issues facing VA and DoD include 
working to meet the mandate for full interoperability required in 
Section 1635 of the National Defense Authorization Act (NDAA). 
Additionally, VA and DoD are working to build upon the already 
significant progress achieved toward sharing electronic health 
information. This work includes enhancing the types of clinical 
information shared through current data exchanges, such as the 
Bidirectional Health Information Exchange (BHIE). This work also 
includes identifying and implementing more robust data standards that 
will support sharing interoperable information.
    For the long term, VA and DoD are working to implement the Virtual 
Lifetime Electronic Record to improve the integration of health, 
benefits and personnel data to better support the full continuum of DoD 
and VA shared operations (e.g., health care, disability adjudication 
and claims processing, personnel and pay issues). This work will rely 
in part, on updating existing infrastructure and technology, and 
identifying and implementing a common services and architecture 
approach.
    Question. How are you working with the DoD to resolve them?
    Response. To resolve key interoperability issues, per the mandate 
contained in the 2008 NDAA, VA and DoD formed the DoD/VA Interagency 
Program Office (IPO) in 2008. The IPO is operational and providing 
joint management oversight of health and administrative 
interoperability activities. The IPO works closely with the execution 
offices within the departments to identify potential risks involving 
the coordination, approval and development of information sharing 
requirements and key interoperability activities, including development 
and implementation.
    In addition to the coordinated working relationships between VA, 
DoD and the IPO, the departments remain fully aligned with the national 
efforts led by the Department of Health and Human Services and the 
National Coordinator for Health Information Technology. VA and DoD 
partner with both government and private sector resources to identify 
and/or define information standards that will support nationwide 
interoperability of health information. Additionally, the departments 
continue to provide staff to key working groups within standards 
development organizations and industry led panels to ensure that VA/DoD 
accomplishments are fully leveraged in national efforts.
    Joint initiatives that are identified and approved are managed at 
the highest levels of both Departments by the DoD/VA Joint Executive 
Council and the Joint Strategic Plan (JSP). The JSP contains those 
milestones and measures by which senior leadership can ensure the 
Departments continue to make forward progress toward achieving 
interoperability goals.
    Question. Has there been any progress in hiring the Director and 
Deputy Director at the Integrated Program Office?
    Response. Yes, in VA, the formal hiring solicitation for the Deputy 
Director closed on April 17 and resulted in the identification of 
several qualified candidates. VA officials are now convening a Senior 
Executive Panel that will conduct interviews and select a final 
candidate.
    Question. Will the VA and DoD have full interoperability by 
September 30, 2009 as required by law?
    Response. Yes. VA and DoD are on target to meet the September 30, 
2009, ``full interoperability'' target mandated by the FY 2008 National 
Defense Authorization Act, Section 1635. VA and DoD have already 
achieved a level of health information interoperability unprecedented 
by other providers. To define ``full interoperability,'' VA and DoD 
formed an interagency board of VA and DoD clinicians to identify the 
capabilities necessary to support the full continuum of health care 
between DoD and VA. This board, the Interagency Clinical Informatics 
Board (ICIB), determined that DoD and VA are already sharing almost all 
essential health information in viewable electronic format through 
existing data exchanges (e.g., FHIE, BHIE and CHDR). To achieve ``full 
interoperability'', the ICIB determined that six additional 
capabilities must be achieved. Of the six capabilities, VA and DoD have 
achieved the initial capability for two; the other four capabilities 
are in progress.
    <bullet> Initial capability completed:
          <bullet> Social History--begin sharing the social history 
        data that is currently captured in the DoD HER with the VA--
        initial capability completed.
          <bullet> Separation Physical Exams--Provide initial 
        capability to share DoD electronic health record information 
        that supports the separation physical exam processes with the 
        VA--initial capability completed.
    <bullet> Remaining capabilities on target:
          <bullet> Expansion of Questionnaires/Self-Assessment Tools--
        provide all Periodic Health Assessment data stored in the DoD 
        electronic record to the VA in such a fashion that questions 
        are associated with the responses--requirements completed.
          <bullet> Expansion of Essentris implementation in DoD--DoD 
        expansion of Essentris to at least one additional site in each 
        military medical department--ongoing.
          <bullet> Demonstration of initial Trusted Partnership 
        Gateways (Secure Network to Support Health Data Exchange)--
        Demonstrate the operation of the Partnership Gateways in 
        support of joint DoD-VA health information sharing--migration 
        to two gateways completed.
          <bullet> Document Scanning (initial capability)--Demonstrate 
        an initial capability for scanning medical documents of service 
        members into the DoD electronic health record and forwarding 
        those documents electronically to the VA--ongoing.
                                             Tuesday, May 19, 2009.

                         DEPARTMENT OF DEFENSE

                               WITNESSES

ROBERT F. HALE, COMPTROLLER
WAYNE ARNY, DEPUTY UNDERSECRETARY OF DEFENSE (INSTALLATIONS AND 
    ENVIRONMENT)

                       Statement of the Chairman

    Mr. Edwards [presiding]. I would like to call the committee 
to order and want to thank Secretary Arny and Secretary Hale 
for being here. We know how busy you are these days.
    I think the subject matter of this hearing is very 
important to discuss: the Department of Defense fiscal year 
2010 budget request for military construction, family housing, 
BRAC, and other programs under our jurisdiction.
    I want to thank you both for your long-time service to our 
country and our military and our military families.
    And, Secretary Arny, I don't know if we know how much 
longer you are going to be in your position, whatever time 
period it is, you spent a lifetime here, with 40 years of 
service to our military and our country, and I want to thank 
you for that.
    And through this position and your previous position 
overseeing installations and the environment for the Navy, you 
literally have done something many of us don't do in Congress 
most days or most lifetimes, and that is leave a lasting impact 
that will improve the quality of life for some great Americans 
20, 30, 40 years from now, when we are old men on canes--so if 
that is not what public service is all about, I don't know what 
is. I think it is.
    So thank you for that. And I wanted to say that today.
    At this point, I would like to recognize our ranking 
member, Mr. Crenshaw.

          Statement of the Ranking Minority Member (presiding)

    Mr. Crenshaw. Thank you, Mr. Chairman.
    And thank you both for being here today.
    And I will dispense with most of my opening statement, but 
I wanted to--when I read, Mr. Hale's testimony, the points that 
you did--the FY10 budget is going to be talking about, one, 
reaffirming commitment to take care of our all-volunteer force. 
I think that is great.
    Rebalancing programs to institutionalize and enhance 
capabilities to fight today's wars and defend against scenarios 
we are likely to face in years ahead.
    And, finally, reforming how and what we buy with a 
fundamental overhaul in the way that DoD makes procurements and 
acquisitions and in contracting.
    And I want to ask you a little later on, you know, exactly 
what that means and what the impacts are, but the one thing, 
Mr. Chairman, that I am concerned about and--I think it is 
probably something you are concerned about, too, that we have 
all these projects that we are going to consider today, but we 
don't know how they fit into the so-called FYDP, the future 
years defense plan.
    And as I understand it, this may be the first time that we 
have had to consider projects that we are going to consider for 
this year's budget, but we don't know how they are going to fit 
in long range. So I am going to ask the witnesses--and I think 
they will probably tell us--how all that fits in, because what 
we don't want to do is end up--I would hate to see a project 
today that we don't see as part of a 5-year plan or a future 
plan.
    So we are looking forward to the testimony, looking forward 
to working with you all. And, again, thank you for your 
service. And this subcommittee is committed to getting our work 
done on time and meeting the needs of our military. And thank 
you for the role you play in that.
    Mr. Edwards. Thank you, Mr. Crenshaw. And I do look forward 
to getting into the issues that you raised.
    I won't offer a long introduction, but since this is 
Secretary Hale's first visit to our subcommittee in his present 
position, let me just mention, by way of background: he served 
as the Assistant Secretary of the Air Force for Financial 
Management and Comptroller, 1994 to 2001, led the national 
security division of the Congressional Budget Office for 12 
years, and served for 3 years in the Navy as an active-duty 
officer, and former executive director of the American Society 
of Military Comptrollers, graduate of Stanford, and holds an 
MBA from George Washington.
    And in terms of introducing Secretary Arny, this is his 
third appearance this year before our subcommittee. The only 
thing I am going to add to what I have said is this: Thank you 
for continuing your legacy of your family's service to the 
country, with your two sons serving in the Navy.
    Where are they stationed right now?
    Mr. Arny. The oldest is here in town getting ready to go to 
Warsaw as a naval attache in a year-and-a-half, and the other 
is in the pipeline to be the commanding officer of----
    Mr. Edwards. That is great. I have two sons and hope I can 
be as proud of them someday in their career choices as you have 
a right to be of your sons.
    Both of your testimonies will be submitted for the record, 
but I would like to recognize each of you for an opening 
statement for any summary comments you care to make----

                      Statement of Robert F. Hale

    Mr. Hale. Can I start by associating myself with your 
remarks about Mr. Arny? Wayne has been very helpful for a lot 
of years, but also in the last few months. And I appreciate his 
staying around, particularly appreciate him being here today 
with all the knowledge he has.
    I want to start by thanking the committee for all the 
things you have done on behalf of the men and women in our 
armed forces. We really do depend on members of Congress to get 
the resources we need to meet our nation's national security 
requirements, and it is appreciated.
    I am going to provide just a very brief overview of the 
overall budget with a focus on military construction, and then 
I will ask Mr. Arny to give you a few more details.
    As you know, the President's base budget asks for $533.8 
billion of discretionary budget authority, a $20.5 billion 
increase or, 4 percent, which after you adjust for inflation, 
amounts to a 2.1 percent increase.
    This is a reform budget. I have worked with defense budgets 
for a long time now, several decades, and I know we sometimes 
use that term loosely or other similar terms, but I believe 
this budget is one of a handful that really does qualify as a 
reform budget. If it is enacted, I think it will change the way 
we do business in the Department of Defense.
    The base budget puts into action the three key themes that 
Mr. Crenshaw mentioned. Let me just add a little meat to them. 
It does reaffirm our commitment to take care of people, 
particularly the all-volunteer force, clearly, the highest 
priority of Secretary Gates and the chairman.
    For example, it fully funds personnel costs of a larger 
force in the base budget, avoiding--or minimizing the kind of 
more volatile wartime budget. Second, the budget reshapes 
priorities to focus on the kinds of wars we are fighting today, 
especially regulation and conventional, but maintains a balance 
of conventional capability.
    We have added personnel to special operations with 
significant increases in intelligence, surveillance and 
reconnaissance. And, of course, there is a cost to those 
initiatives. The budget does complete the program of record and 
terminates production of the F-22 and C-17 aircraft.
    And, third, it reforms what we buy and how we buy. There is 
a personnel side to that, and we can talk more about this, but 
increasing the capability of our Acquisition Corps is a key 
theme in this budget, as well as moving the pendulum back in 
terms of the focus or the use of contractors; therefore, we 
have an in-sourcing initiative in this budget.
    And there is a hardware side to changing kind of what we 
buy, looking at troubled programs, and we have--where we felt 
we had enough information, chosen to terminate a number of 
them, and do some major restructurings, like the missile 
defense program and Future Combat Systems.
    Turning to military construction, the Department requests 
$23 billion for MILCON and family housing. I think this request 
assists or supports all of the themes, but perhaps particularly 
taking care of people and the reshaping and modernizing.
    Overall, the request represents an 8.4 percent decline in 
military construction. That sounds ominous, but it really 
reflects successful achievements in the Base Realignment and 
Closure account as well as housing privitization. The BRAC 
request is down by 14.8 percent, and family housing is down 38 
percent, as a result of housing privatization success. If you 
take out those two categories, there is a 3.1 percent increase 
in the MILCON, portion.
    The Department's base budget meets our key goal for 
military construction: investing in facilities that support and 
grow the force. We are close to completing that goal. The force 
has grown. The Army and Marine Corps have their target end 
strength, barracks brigade complexes, and quality-of-life 
projects funded in this request.
    The request also includes significant investment in 
recapitalizing medical facilities and schools, and a 
substantial investment in what we call a global defense 
posture, which includes moving 8,000 Marines from Okinawa to 
Guam.
    Before I leave the base budget, let me mention the FYDP 
issue. We want to provide a FYDP; however, we don't have a plan 
beyond fiscal year 2010, and this is not without precedent. It 
happened in 2001 and also in 1993. We need to complete the 
Quadrennial Defense Review and the fall program budget review 
in order to develop a 5-year plan. We will submit one next year 
in its entirety, but for the moment we don't have one. I also 
wanted to talk about a couple other portions of the budget.
    The overseas contingency operations, or OCO--I like to call 
it Washington's newest acronym--we are asking for $130 billion 
for overseas contingency operations. This is part of the 
budget. It is not a supplemental. We do not plan on submitting 
a supplemental in fiscal 2010. But if policies or the wartime 
situation changes, we need to retain the authority to recommend 
one, if we need it.
    The OCO budget includes $1.4 billion for military 
construction, all for projects in Afghanistan. Given the 
limited pre-existing infrastructure over there, we need to do a 
lot, construct facilities to sustain, protect and house the 
troops. The request funds operational facilities, runways, 
parking aprons, and the like.
    I also want to express my gratitude to the Congress for the 
$7.4 billion we received in the American Recovery and 
Reinvestment Act, ARRA, easier to call it the stimulus bill; 
$4.3 billion for facilities--and modernization, $2.2 billion 
for military construction, homeowners assistance program, and 
some energy investments, as well.
    This funding will allow us to improve facilities we 
wouldn't have been able to do otherwise. And I am happy to 
report that there are 4,200 projects identified for stimulus 
funding in DoD in all 50 states, a few territories, and the 
District of Columbia. All the projects have been identified, 
and we are moving as quickly as we can to implement them.
    Projects will not only stimulate the economy; they will 
also improve, we think, quality of life and let us catch up on 
some of the backlogs--or reduce them, I should say--that we 
wouldn't have otherwise been able to do.
    And lastly, Mr. Chairman, I remind the committee that we 
recently submitted--and now both houses have acted on or the 
House has acted on in the supplemental request--covering the 
remaining expenses of the war effort for 2009.
    There is $0.9 billion in MILCON in there for Afghanistan 
and another $1.4 billion for a variety of critical construction 
improvements, such as more warrior in transition complexes.
    We stand by to assist members and staff however we can on 
the supplemental and on the fiscal 2010 request. And to help 
our troops, we ask that you enact it by Memorial Day or as soon 
thereafter as you can.
    Again, on behalf of the men and women of the department, 
let me thank all of you for your strong support and thank you 
for the opportunity to testify. After Mr. Arny's statement, I 
will be glad to try to answer your questions.
    [The prepared statement of Robert F. Hale follows:]

    [GRAPHIC] [TIFF OMITTED] T0526E.001
    
    [GRAPHIC] [TIFF OMITTED] T0526E.002
    
    [GRAPHIC] [TIFF OMITTED] T0526E.003
    
    [GRAPHIC] [TIFF OMITTED] T0526E.004
    
    Mr. Edwards. Mr. Hale, thank you very much.
    Secretary Arny.

                        Statement of Wayne Arny

    Mr. Arny. Chairman Edwards--I am honored to appear before 
you today. I am just going to make some summary comments.
    In the last 10 to 20 years, the Department has come a long 
way in improving the facilities and infrastructure in which our 
military and civilian workforce and their families work and 
live. And we could not have progressed as far as we have 
without the continuing support of Congress and in particular 
this subcommittee.
    Today, we manage over 500,000 facilities worth over $700 
billion located on approximately 29 million acres. In 
comparison, about 10 years ago, we had 115,000 more facilities, 
which is in part a testament to our continuing efforts to 
right-size the Department's infrastructure--to match our 
operational needs.
    The principal program that has allowed us to do that has 
been the Base Realignment and Closure (BRAC) authority. And 
using that, over the entire round, we have closed 121 major 
installations and realigned 79 major ones after five rounds.
    In the 2005 round alone, we affected over 800 locations 
that included 24 major closures, 24 major realignments, and 765 
lesser actions. As of the fiscal year 2010 request, BRAC 
represents a $35.2 billion investment just over the period 2006 
to 2011 and $4 billion in annual savings after full 
implementation.
    However, it is not enough just to close bases and move 
functions. At the same time, we have to try to focus on how we 
conduct business so as to become more efficient caretakers of 
the taxpayers' resources.
    An excellent example of our efforts towards efficiency is 
joint basing. As part of BRAC 2005, we were required to form 12 
new joint bases from 26 separate existing locations so that 
installation management functions will be provided by one 
component, not two or three, as it is currently.
    The joint basing implementation process is complicated. 
Almost 50 different areas of responsibilities on these bases 
have been identified for consolidation, including food 
services, environmental management, child and youth programs, 
facility maintenance, and many others, but I can report that we 
are well on the way to achieving success.
    In January 2008, we began issuing a series of joint basing 
implementation guidance documents and, for the first time, 
established a set of common definitions and standards for the 
installation support to be provided at each joint base.
    We established a schedule that was divided into 12 planned 
bases, joint bases, into two implementation phases. Each joint 
base will develop a detailed implementation plan, including the 
personnel and financial arrangements for the combined base.
    Five joint bases involving 11 installations were placed 
into phase one with an October 2009 milestone established for 
full implementation, which includes the transfer of personnel 
and funds to work the joint base.
    The remaining seven joint bases, involving five 
installations, were placed into phase two with an October 2009 
Initial Operational Capability (IOC). The services have 
assigned implementations for all five phase one installations. 
We have reached IOC on those installations and are scheduled--
on schedule for reaching Full Operational Capability (FOC).
    The remaining seven joint bases will reach IOC this October 
and meet FOC milestones in October 2010, way ahead of the 
statutory deadline in December 2011.
    And this is just the beginning of where I see the 
Department going in the application and full funding of common 
levels of service across all our bases and between all the 
services.
    Switching to housing, a decade ago, we maintained over 
300,000 family housing units, two-thirds of which were deemed 
inadequate by the Military Departments. At the time, most 
people felt that only--Services could provide housing that our 
families needed, but with your help and vision, we put housing 
privatization authorities in place.
    The private sector responded by delivering modern, 
affordable housing and, with appropriate oversight, we ensured 
the federal government's needs are met. With this year's 
request, over 98 percent of DoD's housing inventory in the 
United States will be funded for privatization.
    With regard to barracks, it was about 17 years ago that the 
Military Departments began an ambitious modernization program 
to increase the privacy and amenities in permanent party 
bachelor housing funding. Using military construction funding 
and a traditional government-owned business model, much 
progress has been made, but there is still a need for almost 
$15 billion to complete the permanent party buyout.
    Even at the current program end state, a single family--a 
single member quarters will pale in comparison to family 
housing, due in part to building designs that do not have the 
space and amenities of comparable private-sector housing and 
also due to the challenges in adequately funding facility 
sustainment.
    For these reasons, we are looking to see how we can 
leverage the success of family housing privatization by tapping 
into private-sector experience to build, revitalize, operate 
and maintain our bachelor housing.
    We have seen recent innovative concepts where the Army has 
added bachelor officer quarters and senior enlisted bachelor 
quarters to its existing family housing privatization efforts 
at Fort Bragg, Fort Stewart, Fort Drum, and Fort Irwin. A fifth 
project is planned for Fort Bliss.
    In contrast to the Army, the Navy is mainly focused on--
focusing its--on company housing privatization efforts to bring 
shipboard junior enlisted sailors ashore using a special pilot 
authority.
    The first unaccompanied housing project was awarded in 
December 2006 in San Diego. The second was executed December 
2007 in Hampton Roads, Virginia. And a third project is 
underway in the Jacksonville Mayport area that is under 
consideration.
    Both of the awarded Navy projects--pilot projects have 
demonstrated that, with the authority to pay junior enlisted 
members less than full housing allowance, privatization of 
single junior enlisted housing is less costly on a life cycle 
basis than a traditional government-owned model.
    I view this as just a starting point and ask for the 
subcommittee's support in the department's continued progress 
in shifting towards those models.
    This year's budget signals another banner year for 
installations with about $23 billion in military construction 
and about $8 billion in facility sustainment, restoration and 
modernization. The $23 billion in military construction program 
is very robust, especially compared to the $8 billion to $9 
billion levels we were receiving just about 10 years ago.
    Similarly, our sustainment budget this year is also more 
robust as compared to 10 years ago. In those days, we used a 
percentage of unsubstantiated maintenance and repair backlog to 
come up with our budget request, but it didn't work.
    Although much remains to be done, we have already made 
steady headway over the last decade to improve the overall 
condition of our facilities' inventory by using a programmatic 
model. The development and use of the facility sustainment 
model has given us a sound target to measure our sustainment 
budget, and we have been able to defend for the first time our 
requirements and increase overall funding in spite of 
significant competing demands.
    Recapitalization is more challenging. We moved away from 
believing a single recap rate expressed in years applied across 
a myriad of categories could provide a funding level that was 
rational or defendable. We witnessed separate initiatives, like 
what--when I was the Navy secretary, I personally observed the 
inaccuracy of the recap rate as Hurricane Ivan hit Pensacola, 
Florida.
    The sudden infusion of restoration funds skewed the recap 
rate for the Navy to a lower number than the targeted 67 years, 
and yet we all knew that the condition of the rest of the 
Navy's facilities across the board did not improve.
    Since I was dissatisfied with the previous 67-year metric--
and others were, as well--I asked my staff to go back to basics 
and reopen the dialogue on facility condition indices that the 
Federal Real Property Advisory Group mandated federal agencies 
including their real property records. These quality ratings, 
or Q ratings, represent the health of our facilities. And I 
firmly believe they have been long ignored.
    This summer, my staff will be working with the Military 
Departments and Defense Agencies to set up program guidelines 
for determining which facilities require priority for funding, 
reassessing how Q ratings are conducted and their frequency, 
and, most importantly, re-establishing how the department views 
and uses master planning at the installation level.
    Also, in cooperation with our policy secretary, the Joint 
Staff, the combatant commands, and the services, we hope to 
initiate joint installation master plans at each overseas COCOM 
region, as well.
    In closing, Mr. Chairman, I sincerely thank you for this 
opportunity to highlight the Department's management of 
installation assets. And we are ready to take questions.
    [The prepared statement of Wayne Arny follows:]

    [GRAPHIC] [TIFF OMITTED] T0526E.005
    
    [GRAPHIC] [TIFF OMITTED] T0526E.006
    
    [GRAPHIC] [TIFF OMITTED] T0526E.007
    
    [GRAPHIC] [TIFF OMITTED] T0526E.008
    
    [GRAPHIC] [TIFF OMITTED] T0526E.009
    
    [GRAPHIC] [TIFF OMITTED] T0526E.010
    
    [GRAPHIC] [TIFF OMITTED] T0526E.011
    
    [GRAPHIC] [TIFF OMITTED] T0526E.012
    
    [GRAPHIC] [TIFF OMITTED] T0526E.013
    
    [GRAPHIC] [TIFF OMITTED] T0526E.014
    
    [GRAPHIC] [TIFF OMITTED] T0526E.015
    
    [GRAPHIC] [TIFF OMITTED] T0526E.016
    
    [GRAPHIC] [TIFF OMITTED] T0526E.017
    
    [GRAPHIC] [TIFF OMITTED] T0526E.018
    
    [GRAPHIC] [TIFF OMITTED] T0526E.019
    
    [GRAPHIC] [TIFF OMITTED] T0526E.020
    
    [GRAPHIC] [TIFF OMITTED] T0526E.021
    
    [GRAPHIC] [TIFF OMITTED] T0526E.022
    
    [GRAPHIC] [TIFF OMITTED] T0526E.023
    
    [GRAPHIC] [TIFF OMITTED] T0526E.024
    
    [GRAPHIC] [TIFF OMITTED] T0526E.025
    
    [GRAPHIC] [TIFF OMITTED] T0526E.026
    
    [GRAPHIC] [TIFF OMITTED] T0526E.027
    
    [GRAPHIC] [TIFF OMITTED] T0526E.028
    
    [GRAPHIC] [TIFF OMITTED] T0526E.029
    
    [GRAPHIC] [TIFF OMITTED] T0526E.030
    
    [GRAPHIC] [TIFF OMITTED] T0526E.031
    
    [GRAPHIC] [TIFF OMITTED] T0526E.032
    
    [GRAPHIC] [TIFF OMITTED] T0526E.033
    
    [GRAPHIC] [TIFF OMITTED] T0526E.034
    
    [GRAPHIC] [TIFF OMITTED] T0526E.035
    
    [GRAPHIC] [TIFF OMITTED] T0526E.036
    
    [GRAPHIC] [TIFF OMITTED] T0526E.037
    
    [GRAPHIC] [TIFF OMITTED] T0526E.038
    
    [GRAPHIC] [TIFF OMITTED] T0526E.039
    
    [GRAPHIC] [TIFF OMITTED] T0526E.040
    
    [GRAPHIC] [TIFF OMITTED] T0526E.041
    
    [GRAPHIC] [TIFF OMITTED] T0526E.042
    
    [GRAPHIC] [TIFF OMITTED] T0526E.043
    
                                  FYDP

    Mr. Edwards. Thank you. Thank you, Secretary Arny. Thank 
you for all your work leading to so many of the improvements 
that you referenced in your opening comments.
    Secretary Hale, let me begin by asking you, do we not have 
a FYDP because the administration wants to propose a reformed 
defense budget and, therefore, it didn't want to basically put 
into place the FYDP? Obviously, there is a FYDP within the 
system that the administration could have projected in this 
budget proposal.
    Is it you are afraid of locking in--was the 
administration----
    Mr. Hale. No.
    Mr. Edwards [continuing]. Not wanting to lock in to the 
status quo and that is why it didn't put forth a FYDP?
    Mr. Hale. No. I mean, the problem is, we feel we need to go 
through the quadrennial review and the program budget review in 
the fall in order to develop a FYDP. We don't have a plan 
beyond fiscal 2010 that is worked out. Obviously, we have 
extrapolations off last year that we are using as a base, but 
none of them accord to either fiscal guidance or the out-year 
policies of the secretary. So they don't represent current 
administration policy.
    You know, there is a time element to this, to be candid 
with you. It takes 6 to 9 months to do this typically. We had 
about 3. You have a choice. Either don't do a very good job, to 
be honest, or an in-depth job, and this secretary clearly 
wanted to make changes. And that meant, I think, we needed to 
focus on fiscal 2010.
    As I mentioned, the same thing happened in 1993 and 2001, 
where there was not a current FYDP submitted. I understand it 
is a problem. If I had it, I would be glad to give it to you. 
It is not that we are trying to withhold it. We don't have it.
    Mr. Edwards. Does the law not require it, 10 U.S.C. Code 
221?
    Mr. Hale. It does, and I like to obey laws. But I just 
don't have a plan. I mean, I suppose if we were pressed hard 
enough, we would say, go back to 2009. You have that one. It is 
just that it doesn't reflect current policy or fiscal guidance. 
That is the best we have.
    Mr. Edwards. We are going to have to work closely with the 
administration then. Because it makes it difficult when you 
have a request for, you know, $800 million for an NSA project, 
we don't know what the end cost is or what future requests are 
coming in. It does create some problems.
    Mr. Hale. We can certainly try to work with you on a 
project-by-project basis. I mean, I think MILCON is an area 
where it is particularly helpful to have a FYDP for a variety 
of reasons. If I had one, I would give it to you.
    Mr. Edwards. As well, there are certain areas that changes 
are going to be made. There are other enduring installations 
where you know what you are going to do, regardless of what the 
Quadrennial Defense Review----
    Mr. Hale. I think we can work with you on a case-by-case 
basis and try to provide information.
    Mr. Edwards. All right. All right.

                      BASE REALIGNMENT AND CLOSURE

    Let me ask you about BRAC, Secretary Arny. The original 
proposal was $21.1 billion. The proposal you mentioned today, 
the budget number is at $35 billion-plus. Why did we go from 
$21 billion to $35 billion?
    Mr. Arny. Yes, sir.
    Mr. Edwards. By the way, as you are looking at those 
numbers, I saw in the testimony--the written testimony that it 
said the model used for projecting the original costs for BRAC 
wasn't intended to be a budget-accurate model. I don't recall 
ever being told that in the process.
    Maybe we ought to put a huge asterisk on BRAC--going to 
say, ``Here is our budget projection. This is the cost we will 
use to determine a cost-benefit analysis, but this isn't''--we 
know there always has to be fine-tuning. We live in the real 
world, and we respect that, but to go from $21 billion to $35 
billion is----
    Mr. Arny. Let me explain----
    Mr. Edwards [continuing]. A huge increment.
    Mr. Arny. A lot of that--it does not have to do with the 
Cost of Base Realignment Actions (COBRA) model. Now, the COBRA 
model is not budget level in that a particular bill--what it is 
designed to do is compare apples to apples in a short period of 
time. So when the folks studying BRAC say, ``Okay, I am going 
to build an admin building,'' so the model gives them, you 
know, an admin building, and they can say, ``Okay, if I go to 
this base, I need this kind of admin building. If I go to 
another, I need another one.'' They can compare apples to 
apples.
    Now, because when you look at adjusting COBRA for the model 
output for inflation, of the $14.3 billion, that was $1.3 
billion. So we had a problem in that COBRA locked us into, I 
think, 2003. So by the time we got--when we are working the 
2006 budget, those numbers were 3 years old. So we had regular 
inflation to account for.
    Also, the building that we ``designed'' with the COBRA 
model doesn't have the refinements of location that, when the 
engineers go out to actually design the building, we will get 
cost increases because of that.
    But let me hit the big number. Of the $14.3 billion, $10 
billion of the number--so almost--probably 70 percent of it--
was for the construction of additional facilities that were not 
included in the initial BRAC we had.
    We had the forces coming back from Europe, which were not 
included in BRAC, plus, for instance, at Bethesda, we added 
almost $1 billion to Bethesda for wounded warrior and items 
like that that were not part of the original BRAC model.
    So I can give you the specifics. We had program management 
costs that are not included in BRAC. It was like $600 million. 
And another thing we do not include is environmental, because 
we never include environmental in making a decision of whether 
or not to keep a base open or to close it for a couple of 
reasons.
    One is, we have the responsibility of cleaning it up no 
matter. Secondly, we don't want people to--you know, you could 
envision where they might try to pollute a base in order to 
have to get it--to keep it off the BRAC closure list. So we 
just take that out.
    And there was--I think the environment was--environmental 
restoration was almost $500 million. And we had extraordinary 
construction industry inflation, if you recall, during that 
time, especially at some of the Navy locations down in the 
southeast that amounted to another $1 billion.
    But, again, $10 billion out of the $14.3 billion was 
because we added construction for other capabilities to the 
BRAC bill that were not part of the BRAC decisions.
    Mr. Edwards. Well, it makes me wonder if we underestimated 
the facilities that were needed. And I want to go on. We are 
going to try to stick as close to the 5-minute rule as we can.
    But one of the things I might ask you in the second round 
or third round of questions would be, what lessons learned do 
we take? Maybe we will be digesting BRAC 2005 for the next 
decade.
    And there may not be another round in the next decade. Who 
knows? But if there is, it seems a lot like this is fresh in 
our mind. We can come up with all the rationales, but we ought 
to bill those changes into future BRAC models so that--I mean, 
if you are going to do a--if BRAC is based on a cost-benefit 
analysis and your costs are off by nearly 100 percent, then, 
you know, that would change even some of the decisions you 
would make.
    So I would welcome your ideas, having gone through this 
process, or your suggestions for the future.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Let me just go back with the FYDP. My concern is that we 
end up having projects in the President's request that, by the 
time you finish the FYDP, they are not part of the FYDP 
anymore. So I guess the question is, are you fairly certain 
that all the projects that are in the request this year will 
still be in that--plan?
    Mr. Hale. Well, first, it is my understanding that, for 
projects that are in 2010, the budget documents will give you 
the full out-year costs of them. And if they don't, then we 
will supply those.
    Are you thinking of phase-funded projects, Mr. Crenshaw?
    Mr. Crenshaw. No, just in general. I mean, as long--well, 
there will be--the future requirements will be part of the----
    Mr. Hale. If we started something--and especially if it is 
phase-funded, that, I think--plans for the out-years. And, yes, 
I would anticipate we will finish it. I mean, we are not going 
to stop in the middle.
    The problem is--and I know you used the FYDP, and it is 
good that you used the FYDP to look for the changes you might 
make--not that we advocate those changes--but if you are 
considering them, I understand that is a problem. And the only 
thing I----
    Mr. Crenshaw. Well, how do you decide what the requests are 
this year?
    Mr. Hale. For 2010? Well, we went through a full review on 
fiscal 2010 in all parts of the budget. And if you would like, 
I can go through that process, but it certainly included 
military construction.
    So what you have in fiscal 2010 is worked out. It is 
consistent with the administration's priorities. It is 
consistent with the budget guidelines. So that is done, and we 
hope you accept it. But it is 2011 and beyond that are the 
problem.
    Mr. Crenshaw. But if you looked at the 2009 FYDP, are there 
projects in your request that were not part----
    Mr. Hale. I am sure there are. I mean, there are always 
lots of puts and takes.
    Mr. Crenshaw. So I would assume there are not some things 
that were in----
    Mr. Hale. Yes, I am sure. I am sure. I mean, it--
unfortunately, the 2009 FYDP is--I just can't sit here and say 
it is consistent with the administration's policy, not 
necessarily.
    Mr. Crenshaw. I understand. Everything is going to----
    Mr. Hale. On the other hand, there are some projects in 
there I am sure that we will go forward with, too.
    Mr. Crenshaw. But you are going to overhaul----
    Mr. Hale. We will make changes.
    Mr. Arny. But, also, Congressman, there were--and I don't 
know the specifics, but I will venture a wild guess that there 
were projects in the 2010 column of the 2009 FYDP that those of 
us who were putting the budget together before the 
administration came in, changed when it went to 2010, as well.
    So I am convinced we probably did not accept the 2010 
column when we moved it from the 2009 FYDP to the 2010 FYDP.
    Mr. Crenshaw. Could we just, for the record, have those--
the projects that were in the FY09 FYDP that aren't included in 
the FY10 budget and then that are included that were not in?
    Mr. Hale. What I can give you is the 2009 FYDP.
    Mr. Crenshaw. No, just for the record.
    Mr. Hale. Well, but if what you had in mind--I mean, there 
were some notional plans done at the end of the last 
administration. And those are just that, notional. And I think 
those are pre-decisional, in our view. So that information I 
wouldn't want to supply.
    We can give you the 2009 FYDP. We will give you the out-
year costs of anything that is in the 2010 budget. If it is 
phase-funded, we owe you, I think, a description of how the 
phases would be carried out, because, after all, we are asking 
you to approve the first phase.
    Beyond that, the only thing I can suggest is if you have 
particular projects, come to us and we will try to give you our 
best sense.
    Mr. Crenshaw. The only thing I am trying to get at is if 
there is going to be an overhaul of what we have bought and how 
we buy it and how that affects the MILCON projects. Can you 
give us an example of this?

                               WORKFORCE

    Mr. Hale. I actually was thinking about that last night 
when I wrote this. And I don't--it is not MILCON that we are 
primarily looking at in terms of process.
    It is more the Acquisition Corps. And there is a people 
side of it, as I mentioned. We need to rebuild or reinvigorate 
our Acquisition Corps. We are going to add about 20,000 
government civilians over the next 5 years to the Acquisition 
Corps, so I am adding about 9,000, adding to its size, the rest 
replacing contractors. And we are also looking at an in-
sourcing initiative.
    Although contractors are and will always remain important 
to the Department, we think the pendulum swung too far in terms 
of their use. So we are for contractor support services moving 
back from the level of about 39 percent today to more like 26 
percent.
    I am not aware of any significant MILCON process changes--
--
    Mr. Crenshaw. I got you.
    Mr. Hale [continuing]. That are being considered.
    Mr. Crenshaw. Great.
    Well, thank you. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Farr.

                           SUPPORT TO ALLIES

    Mr. Farr. Well, thank you very much, Mr. Chairman.
    Congratulations--filling some incredible shoes in the 
history of that job.
    Wayne Arny, thank you for coming back and being here today.
    I just wanted to make a comment that we have one of the 
projects at the Defense Language Institute that is on that 
FYDP. It has fallen off, but in discussions with your staff, 
there is perhaps a way of getting it back on.
    I want to shift to something else. I have been consistent 
in all my hearings here with all of the combatant commanders on 
several programs that I am interested in, and a lot of them are 
based at the Naval Postgraduate School in Monterey, California.
    We have this incredibly equipped military force that can go 
anywhere at any time and do anything that it needs to do, but 
has a very difficult time winning the hearts and minds.
    One of the programs that we do have in this country that is 
very impressive is the International Military Education 
Training program, where we bring foreign officers over. For 
example, the king of Jordan had a semester at the Naval 
Postgraduate School.
    That program, I didn't know until this year, is not funded 
through DoD, yet it only benefits the Department of Defense, 
NATO, and our allies around the world. It is educating foreign 
military officers.
    It is funded under State Department, which is a very 
underfunded budget.
    And according to the people who administer IMET, a lot of 
poorer countries are not able to participate. If you are a 
wealthier country, you pay full scale to come. If you are a 
poorer country, we subsidize it. Unfortunately, there are just 
fewer and fewer foreign military officers because of lack of 
financial resources, not because of lack of interest in the 
program.
    And I wondered if there was any way DoD budget could 
provide additional resources to IMET, if there has been any 
thought about transferring some DoD money over to the State 
Department?
    Mr. Hale. Well, I can answer the question broadly. I can't 
go to the specifics; I will need to take that one for the 
record.
    [The information follows:]

    The International Military Education and Training (IMET) Program is 
one of the State Department's foreign assistance programs. 
Specifically, it is a security assistance program authorized by the 
Foreign Assistance Act of 1961, as amended, and funded through 
Department of State's annual Foreign Operations Appropriation. Like 
other security assistance programs, IMET is funded by the Department of 
State (DoS) and executed by DoD.
    Without specific authority, DoD cannot transfer money to DoS for 
the IMET program. Such authority currently does not exist. DoD's 
ability to transfer funds to other agencies for non-DoD missions is 
very limited.
    However, DoD can use its own limited authorities and appropriations 
to conduct specific training and education for foreign military 
personnel in certain areas such as training and education provided 
under the Combating Terrorism Fellowship Program (CTFP).
    As Secretary Gates has said on many occasions, the United States 
should provide more resources to the State Department for programs like 
IMET. IMET is very important at multiple levels throughout DoD. Your 
effort to increase funding within the IMET account is the best way to 
accomplish this objective.
    It is imperative that we make every attempt to tie DoD programs, 
such as CTFP, to DoD's mission, which is narrower than that of DoS 
under the IMET program.
    I recommend you support the Department of State in securing 
additional resources for IMET and to support funding for DoD programs 
that support capacity-building required to maintain Combatant Commander 
missions and other DoD objectives.

    But the Secretary of Defense, Secretary Gates, has been 
emphatic in saying that he believes there needs to be more 
funding on the state side. He is thinking not so much IMET, but 
more broadly in terms of support to our allies who are working 
with us in our various wartime activities.
    And he went so far--I believe he made a call--he is proud 
of saying this, so I don't think he would mind repeating it 
during the budget resolution, asking that the budget be 
protected. I think he was at least partially successful.
    On IMET, I need to take that one for the record. I am not 
aware----
    Mr. Farr. I am not even sure why it is in the State 
Department. It seems like it ought to be a DoD function. But, 
anyway, it is----
    Mr. Hale. Well, I think we execute it, obviously, or do the 
training. It must be on a reimbursable basis. Is that----
    Mr. Farr. It is a highly successful program, and it is 
suffering, and we shouldn't let it suffer in this time of 
international friendship building.
    The other thing that I wanted to talk to you about was a 
program to train civilians. We have a lot of civilian 
capabilities in the military reservists.
    And General Petraeus talked about using those Reserves and 
Guardsmen who have specific skills--skills that would help in 
Iraq and Afghanistan.
    Is there any program being developed in DoD to use the 
Guard and Reserve force, first of all, and secondly, how you 
would coordinate them with the civilians that the State 
Department and other federal agencies are putting together as 
part of a whole of government stabilization and reconstruction 
effort?
    Mr. Hale. The answer there is yes, and in particular with 
regard to Afghanistan. We are actively looking at using some 
Reserve personnel and perhaps some of our own civilians to--we 
call it the civilian surge--to provide assistance in 
Afghanistan and everything from agricultural support to 
financial support.
    I am trying to figure out the numbers and working with the 
State Department on kind of who pays what----
    Mr. Farr. So you are coordinating that? There is going to 
be some transfer? You have a soldier going in there because of 
the security issues, but the win-win can be the soldier and 
that civilian surge.
    Right behind that soldier is somebody coming out of the 
State Department--USAID or other appropriate federal agencies--
who could assume those responsibilities. Is there beginning to 
be a coordination of those----
    Mr. Hale. We think that is starting to happen. I mean, I 
notice a great deal more--certainly, there is a lot more of 
what we call soft-power funding now that really didn't exist 
when I was in the building the last time. And consequently, I 
think we are starting to work more closely with the State 
Department.
    We have a ways to go, to be candid, in terms of full 
coordination. And some of that debate is being played out with 
regard to the Pakistan counterinsurgency fund right now in the 
Congress.
    Mr. Farr. But what I----
    Mr. Hale. We are committed to doing it better. And I think 
we are moving in that direction.
    Mr. Farr. I would really appreciate it if you would look 
into this and see if additional resources are needed for this 
transfer to civilian agencies. The manpower DoD is providing--
the military reservists who are carrying out the civilian 
surge--need to transition to civilians being coordinated by the 
State Department.
    Mr. Hale. Right. Just if I can add one more point that may 
be relevant here. On the military side, my understanding is--
and we will use this authority--that we can pay reserves to 
provide civilian skills. We can pay those out of the DoD 
budget.
    There are civilian employees. I think, unless we got 
specific authorization, we would probably need to be reimbursed 
by the State Department.
    But we are working with them. I am meeting later this week, 
actually, with some of my counterparts at the State Department 
just to try to, frankly, get to know them better and to try to 
build up our capability to work with them financially. And, of 
course, our policy organization works a lot with the State 
Department.
    Mr. Farr. But we need some interoperability.
    Mr. Hale. I hear you. We have a ways to go. I mean, your 
point is well taken.
    Mr. Edwards. Thank you, Mr. Farr.
    Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Thank you for what you 
do for our country.

                     HOMEOWNERS ASSISTANCE PROGRAM

    Mr. Arny, the DoD guidance for Homeowners' Assistance 
Program, HAP, to permanent change of station, PCS, or BRAC-
related military home sales require soldiers to have purchased 
their home prior to July the 1st, 2006. When I asked about this 
issue during the March 12th family troop housing hearing, the 
response I received was that the stimulus request was put 
together in a short amount of time and that issues like this 
could be resolved in the rulemaking process.
    However, it appears as though this criteria has survived 
and is now part of the guidance portion of the DoD HAP Web 
site. This is of great concern for numerous soldiers at Fort 
Hood who have to sell their homes to move to Fort Carson with 
the 4th Infantry Division. I am sure the problem will also 
detrimentally impact other BRAC-affected installations and 
numerous soldiers, sailors and airmen throughout the DoD who 
have to PCS.
    Can you explain the rationale for using the date? And how 
many BRAC- and PCS-affected soldiers do you anticipate this 
criteria may exclude from HAP assistance?
    Mr. Arny. The date that we were given was statutory, so we 
had no control over that, although I believe it was kind of the 
peak of the market, but I am not sure. I would have to get back 
to you on why they chose that date, but it was the date----
    [The information follows:]

    July 1, 2006 is the cut-off date identified in the statute. The 
Standard & Poor's (S&P)/Case-Shiller and the Federal Housing Finance 
Agency (FHFA) Home Price Indices indicated a sustained, rapid, and 
steep decline from peak home price levels in early 2006. People who 
bought homes before this date were buying during a rising or stable 
market and could not reasonably have known how or when home prices 
would decline. Conversely, individuals who bought homes starting in 
July 2006 knew (or should have known) that the national home market was 
in a broad and steep decline.

    Mr. Edwards. And if I could clarify--language DoD gave the 
Congress in putting together the bill, so Congress----
    Mr. Carter. Was it?
    Mr. Edwards [continuing]. Wrote in the date and statute 
that--suggestion----
    Mr. Carter. From DoD?
    Mr. Arny. I will check on it, because there is, if I 
recall, in the many briefings we have had on this, there was a 
logic to that.
    What we tried to do in allocating the funding for that is 
to prioritize the recipients. Priority one was wounded warriors 
and surviving spouses of military personnel killed in action. 
Second was BRAC.
    Now, the HAP program has been around for a while. It was 
used in prior BRAC rounds, was my experience with it. But in 
those rounds, in order to qualify for HAP, you had to prove 
that the downturn in the market was caused by the BRAC 
decision.
    In this round, because, first of all, the markets were down 
all over, so you--the lawyers would not attest that a 
particular downturn was due to just BRAC--it may have been due 
to the general market--so there was confusion there.
    Secondly, in prior rounds, most of our closures were due to 
a base being closed. I mean, most of the market impact was due 
to a base being totally closed. This was the first round where 
we had a number of movements from a base that stayed open to 
another base that was already open. So this, I think, helps 
bring some equity within the BRAC range.
    Then, third priority was people on Permanent Change of 
Station (PCS) orders. Now, you will notice in the HAP 
regulations for PCS orders only, I think the deadline was 
December? December 31st is the deadline for the move. So the 
system is not perfect. There will be some haves and have-nots. 
But we tried to catch people who were affected in those three 
areas.
    You have to be in a market using a general standard that is 
acceptable across--you have to be in a market that dropped by 
10 percent over that period of time. And surprisingly, some 
markets did not. And your own home has to have gone down by 10 
percent before you qualify.
    Now, we do not make up 100 percent. We make up 90 percent 
of the loss, and that loss goes from the price you bought it to 
the price you sold it--other aspects of that.
    Because we retain money to--in the pot to make sure we 
cover all the wounded warriors and their surviving spouses and 
also BRAC--we will get the PCS orders first.
    I will also say that this is--we have no numbers to go on. 
These are just pure estimates from the Corps of Engineers who 
does the HAP program for the department. They are the executive 
agency.
    So a lot of this is guesswork in terms of--calculated 
guesswork. I was given--here are the numbers. We think there 
will be 540--again, pure estimates--in wounded warriors and 
surviving spouses, 3,000 for BRAC, and 4,500 for PCS.
    Now, what we have also said is we are going to continue 
meeting on a monthly basis and taking a look at the corps' data 
as they begin to execute the program to see if we are meeting 
trends or exceeding trends. And we will come back to you to let 
you know which way it is going. We are trying to do our best--
the program. And, again, I will come back to you on the 2006 
date.
    Mr. Carter. Well, I think I understand your analysis of it, 
but I am going to start with that date of July the 1st, 2006. 
How can you make an estimate of a market's decline or increase, 
where the peak is, in this so-called recession we are in right 
now, it just hit Texas about 2 weeks ago, okay?
    So, if you are going to set a deadline based upon what 
happened on the East Coast, Florida, and the West Coast, then 
that day would have been so askew to have anything to do with 
Texas, because it would have been about 8 to 10 months off.
    We are just now starting to feel the effects of this 
economic decline that we are seeing in the country right now. 
Someone should do a market analysis on a regional basis, to 
make a determination of a drop-dead date, because there is no 
way you can compare the West Coast real estate market with 
anybody else's real estate market in the United States.
    It is just so skewed on the West Coast. Florida is close to 
the same position. The real estate market in Florida goes 
through the ceiling and sometimes it goes through the floor. It 
went through the floor a long time before we had any reduction 
in cost in central Texas, where Fort Hood is located, which is 
what I care about.
    Secondly, you are talking about these soldiers who are 
standing up in harm's way on our behalf, you are talking about 
their credit rating. You are talking about what it does to 
their next possibility of buying private housing at the next 
stop.
    With the analysis we made with our presentation to BRAC, 
there is a substantial difference between the housing market at 
Fort Hood, Texas, than Fort Carson. It is like a 20 percent or 
30 percent difference in the market.
    So those who qualify in Texas with decent enough credit to 
qualify, they are looking at a 30 percent increase to even 
attempt to qualify in Colorado. Then if they fall after the 
drop-dead date, they have credit issues.
    I just wonder how we are protecting those soldiers and how 
they cannot be worrying about themselves and their families 
while they are standing over kicking in doors in foreign 
country.
    Mr. Arny. Well, as to your--as to the problem with going 
from one area to another, there is a higher--I faced that as a 
junior officer. We all wrestle with that.
    But in terms of your credit rating, what we have tried to 
do as fairly as we could is provide some relief, because--and 
it was surprising to me--if a soldier goes bankrupt, declares 
bankruptcy, then he is in danger of losing his clearance, which 
I find amazing.
    I am working to try and get that changed. I mean, it is a 
legal proceeding. You go into it. You should not lose your--as 
a matter of fact, I would think if you are that close to 
bankruptcy, you need to use those legal procedures in order to 
protect yourself and your family, that should not be a 
detriment to you and--in your clearance and stuff.
    So we are trying to prevent that from happening and also 
trying to change those rules.
    Let me ask the Corps of Engineers to come over, and we will 
come over with them, to give you a specific briefing on how we 
got that. We know it is not perfect, and we are going to have 
to refine it as we go along, but we thought it was at least a 
good start at trying to protect some of the soldiers and 
sailors----
    Mr. Carter. Because it looks like to me that maybe you 
could work out some kind of recapture of the department's money 
if you more liberalize this program, because ultimately, I am 
talking to realtors who are telling me that we have thousands 
of soldiers that are going to be affected by this at Fort Hood 
because of that date and that the real boom of the market in 
Texas came after that date.
    Our soldiers were closing and getting into those houses 
after that date. They can't do anything with it. It would seem 
to me, those houses are going to be stagnant on the market for 
a while, but it is not going to be forever.
    When that market comes back and those houses are resold, 
maybe the department could figure out a way that would capture 
some of the money that they used to protect the soldier, as he 
made that move. It is not his fault that they made a decision 
to move him to Colorado. That decision certainly wasn't his.
    I think it is a crime to create a class of people to whom 
we would be automatically saying, ``Congratulations, you are in 
the Army. You get to go bankrupt.''
    When we fight a war, we recruit soldiers, but we retain 
families.
    Mr. Arny. Well, we will look at the Fort Hood situation, 
because----
    Mr. Carter. I am not just talking about Fort Hood. I just 
happen to live there and am dealing with that. I know our 
market very well.
    I am sure that market isn't the same in Florida, because 
they have real issues in the Florida market. You can buy condos 
now for about $125,000 that sold close to $1 million a while 
back.
    There is a lot going on in the world, and we need to start 
thinking about how we are going to really care about what 
happens to our soldiers and our military.
    Mr. Arny. I was reminded that date is statutory, so we will 
take a look at the effect.
    Mr. Carter. As the chairman points out, that statutory--
provided by the Department of Defense.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Judge Carter.
    Mr. Bishop.

                      SCHOOL CONSTRUCTION FUNDING

    Mr. Bishop. Thank you very much, Mr. Chairman. And let me 
welcome you gentlemen to the committee.
    Mr. Arny, once again, I am still concerned about BRAC and 
the impact that it has on our communities living at Fort Sill, 
Fort Bliss, Fort Bragg, Fort Lewis, and, of course, Fort 
Benning that I represent, among the many that will be impacted 
upwards, in terms of BRAC and the influx of personnel and 
dependent children for schools.
    Mr. Arny, when you were here before, I think it was after I 
had left the room. You were asked about DoD and the authority 
to pay for community improvements such as schools. You did not 
believe that DoD had any authority to do that.
    You were going to verify that. Have you found that to be 
the case?
    Mr. Arny. We do not have the authority.
    Mr. Bishop. I respectfully disagree with you. I believe the 
law is found at 10 U.S.C. 2391(b)(2) for community impact 
assistance. And the funds do flow through the Office of 
Economic Adjustment to communities, as long as DoD gives the 
money to OEA.
    The authority is there. In fact, it has been done in, with 
respect to Kings Bay in the fiscal year 1991.
    That bill contained $10.3 million for construction of off-
base schools at the Kings Bay submarine base. It resulted in 
approximately $60 million of construction. There was extensive 
testimony by then-Representative Lindsay Thomas before the 
Armed Services Committee justifying that.
    In your BRAC account for the 2005 closure, you reduced your 
request from 2009 of $9 billion to $7.5 billion, roughly. We 
are very, very concerned about the impact on communities 
affected by this influx.
    I don't know how you reconcile the lack of authority with 
that particular code section and the precedent.
    Mr. Arny. Well, sir, because I did check on the Kings Bay, 
and that was done strictly through special legislation that was 
in addition to 10 U.S.C. 2931, 2931's grant authority, which we 
use quite frequently for planning money for communities all 
over the country, but we are not allowed to build schools.
    Mr. Bishop. Sir, it says the Secretary of Defense may make 
grants, conclude cooperative agreements, and supplement funds 
under federal programs administered by agencies other than the 
Department of Defense in order to assist state and local 
governments in planning community adjustments and economic 
diversification.
    Mr. Arny. I agree with you on that. And----
    Mr. Bishop. Not just planning money.
    Mr. Arny. Grants for--and most of that was economic 
planning and--to the adjustment, but not to build schools. 
Kings Bay was specifically--if it is put in legislation, we 
will build it. But Kings Bay was specifically put in 
legislation that we did not request.
    Mr. Bishop. Are suggesting that we simply need to get the 
authorizing legislation?
    Mr. Arny. Yes, sir.
    Mr. Bishop. I am----
    Mr. Arny. I understand. And I have gone through this a 
number of times with my folks. And the Kings Bay one was the 
only one we found where we built the school outside of the 
DoDEA system. And that was on--strictly done by legislation 
outside of our normal process.
    Mr. Bishop. We will revisit that, sir, because there are a 
number of communities across the country that are impacted--
that are very concerned--who have come to us and said, ``This 
is something that the Department of Defense has visited upon 
us. We are not complaining, but we need help.'' The Office of 
Economic Adjustment was set up to provide that help.
    Mr. Arny. Yes, sir, it was. And they work for me. But they 
are set up to--and they provide tons of grants to communities 
for planning--bases that are closed, but bases that are 
realigned. And that--like I say, their money is quite 
extensive.
    Mr. Bishop. But (b)(2) says community impact assistance or 
special impact assistance is not otherwise available, meaning 
they can't pay. It says it is not just for planning.
    Mr. Arny. I believe it is historically what we have done is 
mostly planning and getting ready for the----
    Mr. Bishop. But it is not that you didn't have the 
authority. Rather, you interpreted planning in that limited way 
so that you didn't have to do it based on your interpretation, 
not that it couldn't have been----
    Mr. Arny. We have--in a number of situations of which I am 
familiar, we have provided land for schools. We have allowed 
community schools to build on our bases. But we have never 
built those schools, unless they were in the DoDEA system, both 
in the United States and obviously overseas.
    Mr. Bishop. Except in the case of Kings Bay.
    Mr. Arny. Which we had special legislation.
    Mr. Edwards. Any additional questions?
    Mr. Bishop. No, sir. We will probably need to revisit that 
and work with the authorizers to make sure that we can 
collectively--with the appropriate subcommittees and 
authorizing committees--get the necessary legislation. This is 
a big problem not just for our area, but for a number of areas 
across the country.
    Mr. Edwards. In fact, I might follow up, Mr. Hale, and say 
that since this is your first time before our subcommittee in 
your position, this is an issue that has come up repeatedly.
    And, obviously, communities that are upsizing are thrilled, 
but I saw in years past when I represented Hood before 
Congressman Carter started representing it, that you had 
literally the local communities that have a low income tax 
base, and they were at the state mandated maximum for the local 
property taxes.
    So even if they were willing to double their local taxes, 
they couldn't raise their taxes one dime. And a lot of the 
impact aid, particularly part A, if it is on post, starts 
reimbursing at a significant amount once the students start the 
school there, there is just not the help there for these 
communities to build the schools.
    And it seems to me that the Pentagon's approach is then, 
you know what? That is the community's responsibility. But the 
problem is that people who pay the price are the service men 
and women, many of whom are on their third tour of duty in Iraq 
and Afghanistan, when they move to a base that has been BRAC 
increased.
    And if I were such a parent and all of a sudden my third-
grade kid were put in a classroom with 45 students or put in 
some makeshift classroom, it would certainly impact my morale. 
And somehow we have to just stop kicking this can down the road 
and take action. We would like to do it with the 
administration's help and ideas.
    What would be a rational approach? You know, you could 
perhaps even maybe forward-fund impact aid, which comes through 
to primary education, and perhaps the school districts have to 
repay that over time. But they need the upfront help on the 
construction costs.
    I think Congress may just take the initiative and move 
ahead on this. But if I could just say, if we could get 
cooperation from the administration, we would like to do this 
in a rational, reasonable way. We don't want the Pentagon 
building every new school at every military installation, but 
there are certain circumstances.
    When you have Bliss going from--well, more than doubling or 
tripling in size, you have Benning increasing in size, it seems 
to me we could put parameters around it, and that is where we 
would welcome your help. Without that help, we may just do what 
Congress does, take the initiative, do the best we can.
    But I think we could do a better job----
    Mr. Bishop. Mr. Chairman?
    Mr. Edwards [continuing]. So if people could work with us 
on that, we would welcome that.
    Yes, Mr. Bishop.
    Mr. Bishop. Mr. Chairman, the particular law that was cited 
does have some parameters in terms of the number of personnel 
that are added to extend the size of the bases, which provides 
some degree of definition regarding how much of an impact there 
has to be in order for the Office of Economic Adjustment to 
step in, in these circumstances.
    As the chairman correctly suggests, if we were to work 
closely and cooperatively with the department, I am sure that 
we could formulate some workable criteria by which we could do 
that.
    Mr. Edwards. If you will take that responsibility, grab any 
other members that have a direct interest in it, let's see if 
we can work cooperatively with the administration and get some 
help there. But either way, let's try to move forward.
    Mr. Hale. I understand your point. I mean, I would ask for 
parameters. There are limits on what we can spend, so if we 
spend it here, we are going to have to do something--something 
somewhere else.
    Mr. Edwards. Right. Well, we look forward to working with 
you.
    We don't want to keep putting this off, because the BRAC 
bases are about, you know, about to explode.

                       LESSONS LEARNED FROM BRAC

    So, Secretary Arny, let me just take a minute-and-a-half or 
so in the time I have remaining on my second round of 
questions, go back to BRAC and lessons learned. What lessons 
could we apply, in terms of the factors that caused this to go 
from $21 billion to $35 billion on the BRAC estimates?
    How can we apply those lessons to any future BRAC rounds? 
We need a 20 percent, you know, fudge factor to say, 
historically, the real costs have been 20 percent more than the 
COBRA model. I could see us a few years from now just going 
back to the COBRA model and making the same mistakes again.
    Mr. Arny. One point I missed in my earlier discussion is 
that the decisions were based on the military value, not on the 
cost particularly. Cost was secondary to the military value of 
the particular base.
    Mr. Edwards. Was cost ignored or cost a factor?
    Mr. Arny. No, cost was not ignored. It was a factor, and it 
is compared, because you do look at--you know, will you save 
something by going from X to Y? I won't name the particular 
bases, but a friend of mine who ended up being significant in 
the BRAC called about a particular base and said their military 
value is higher than another base over here. And I said, ``But 
the problem with Base A is it is not in the middle of the 
Pacific Ocean.''
    So it is location. It is the military--it is the----
    Mr. Edwards. Sure.
    Mr. Arny [continuing]. Military value for the services. 
And, again, I go back to, of the $14 billion increase from the 
$21 billion--I mean, to the $34 billion or whatever, $35.4 
billion, is $10 billion of that was cost that we added to it 
that you should take out of your comparison, because they were 
things that not----
    Mr. Edwards. What, were they training facilities needed 
that weren't in BRAC? Or were they administrative offices, 
those----
    Mr. Arny. No, they were--if we had done--if we had taken 
the $10 billion out, it would have--and built that--what the 
$10 billion was for, a huge portion of that was for forces 
coming from overseas, which are not part of your BRAC 
discussion.
    BRAC is only in the 50 states and the territories of the 
United States. So we----
    Mr. Edwards. But you are saying the overseas movement, that 
all those costs are included in the $35 billion figure?
    Mr. Arny. Yes. Yes, sir, that we did during this--for this 
part of this round. We may move other things outside of that, 
but--and I could probably give you--I know we have plenty of 
data. I could show you which of those moves were.
    Mr. Edwards. In fact, could you send us the list of what 
specific facilities add up to the $10 billion?
    Mr. Arny. Yes, sir.
    [The information follows:]

    The FY 2010 President's Budget request will reflect an investment 
of $35.2B over the FY06-11 implementation period ($34.2B for 
appropriation within the BRAC Account, $0.8B funded by the Army and 
National Geospatial-Intelligence Agency from outside the Account, and 
$0.3B for the FY09 supplemental request). This is a $14.1B (67%) 
increase over the original $21.1B estimate which supported BRAC 2005 
decision making.
    While the dynamics causing the $14.1B delta overlap and are, 
therefore, not discrete, they can be characterized/estimated as 
follows:

Adjusting the ``COBRA'' model output for inflation................ $1.3B
Additional inflation from slower implementation of this round 
    compared to the faster profiles of the previous rounds assumed 
    in COBRA......................................................  0.5B
Extraordinary construction industry inflation since 2005..........  1.0B
Environmental restoration not included in COBRA...................  0.4B
Program Management Costs not included in COBRA....................  0.6B
Additional O&M to support fact of life cost increases.............  0.2B
Construction for additional facilities to enhance capabilities 
    and/or address deficiencies--BRAC as a recapitalization engine 10.1B
                                                                  ______
    Total......................................................... 14.1B

    A breakdown of the $10.1 B where BRAC is used as a recapitalization 
engine by improving facility configuration, equipment and capabilities 
is as follows:
    <bullet> The Army increased its implementation investment by about 
$4.0B, about half to recapitalize infrastructure to support larger Army 
units, training ranges, and Quality of Life with the remainder for 
furnishings and information technology. Adjusting that amount to 
correct for double counting the factors above yields an actual increase 
of about $2.9B.
    <bullet> When the Army submitted its FY10 Budget Estimate 
Submittal, it reflected the need for an additional $800M in FY10 MilCon 
construction. Reasons for this cost growth include: an increase in unit 
costs (42 percent); and increase in construction scope (21 percent); 
additional requirements (14 percent); and, other increases associated 
with land acquisition and the shifting of MilCon projects between 
fiscal years. They subsequently added an additional $53M in new MilCon 
requirements for Fort Lee.
    <bullet> The Navy and the Air Force added approximately $0.8B and 
$0.4B, respectively, to support facility scope increases and operations 
and maintenance activities (such as funding information technology 
improvements, and equipment purchases).
    <bullet> Defense Agencies experienced similar facility and support 
cost increases:
          <bullet> WHS added about $0.8B for scope and additional 
        facilities for relocating OSD organizations to Fort Belvoir 
        (parking, remote delivery facility).
          <bullet> National Geospatial-Intelligence Agency added 
        approximately $0.7B for specialized equipment and facility 
        outfitting costs.
          <bullet> DLA added approximately $0.5B for information 
        technology improvements, additional storage facilities, and 
        disposal of excess inventory.
          <bullet> TMA increased its funding by $2.4B for larger, 
        specialized medical facilities and their outfitting costs in 
        the NCR and the San Antonio medical complex.
          <bullet> Scope increases to enhance and accelerate the 
        schedule for the Walter Reed initiative add $0.7B, primarily 
        for construction/renovation at Bethesda and Fort Belvoir.

    Mr. Edwards. In fact, if you had the information on just 
the full cost overrun, how much was inflation. You know, I am 
not here to beat up anybody. BRAC is an imperfect process. And 
you are right: Military strategy drives it. But I don't think 
we can ignore the cost factors, and you are not suggesting we 
should.
    But, for example, it is close to home to me. You have Fort 
Hood that is an underutilized installation. And if we knew what 
the full--and the BRAC commission knew what some of the full 
costs were of making some of these changes, who knows? It might 
have saved taxpayers a few billion dollars by fully utilizing 
the present installation rather than expanding some others.
    And could I ask, why are they now considered BRAC-related 
and funded through BRAC as opposed to regular MILCON, the 
overseas budget items?
    Mr. Arny. What my counsel says is that the BRAC round 
prepared--because we knew they were coming, and so we prepared 
for it, but they weren't actually part of the BRAC decisions. 
So we knew the forces were coming in, so that we were to 
prepare the bases. And let me get you a more specific----
    Mr. Edwards. I am not here to beat up on anybody for what 
happened in the past. A lot of good things have happened from 
BRAC. But I think we need to--as the military often does, 
lessons learned and apply that.
    Mr. Arny. And I do believe that one of the lessons learned 
is we have to--we have to go into it understanding that the 
COBRA model is going to be 2 or 3 or 4 years late in terms of 
inflation and those factors, and just because of when you 
freeze the model to make your decision and when you actually 
have to start building buildings.
    We have another factor of--I think it was $500 million, in 
that we made assumptions in the planning that we would do 
construction early. But in order to fit it in properly, the 
construction moved a couple years later. So there is another 
$500 million just because you delayed. It wasn't money you 
didn't--you know, you had to spend more because inflation had 
caught up with you.
    And I will give you those factors. But I really do think 
that the $10 billion represented decisions that were made that 
were not in those continental states and territory issues where 
you are bringing forces in.
    You know that the base--that the BRAC commission--or the 
BRAC in the building is looking at, are we going to have room 
at these particular facilities to bring them? But those 
facilities were not included as part of the U.S.----
    Mr. Edwards. So you are saying we had, in effect, $4 
billion----
    Mr. Arny. Yes.
    Mr. Edwards [continuing]. Cost run in BRAC rather than $14 
billion or $15 billion?
    Mr. Arny. And of the $4.3 billion, $1.3 billion was 
adjusting the model for inflation from the time we froze it 
until the time we did it.
    Mr. Edwards. I think OMB dictated a ridiculous inflation 
factor that didn't pass the laugh test. Does OMB still 
determine inflation factors for military construction?
    Mr. Hale. Yes, they do. Unfortunately, we have solved that 
problem, though, Mr. Chairman, with the recession, I am afraid.
    Mr. Edwards. Yes.
    Mr. Hale. At least temporarily, but, yes, I mean, we 
generally follow OMB's inflation factors. What is 
extraordinary----
    Mr. Edwards [continuing]. Of the time when oil prices were 
$4 a gallon, and that drove everything else up, and it didn't 
even pass any----
    Mr. Arny. What we have done is worked with them to get them 
to allow us to do more parametric planning before we put our 
stuff in the budget and accept that inflation.
    And, again, part of the problem during BRAC was, we hadn't 
done a lot of parametric. We were doing stuff on the fly. And 
so they said, look, you can only use--unless you have hard 
data, you can only use a flat inflation rate. And that hurt us 
in some----
    Mr. Edwards. If I could ask, if time permits and resources 
permit, if before you leave your present position, if you could 
do a summary, to give us a sense of your lessons learned so 
that we can benefit from the next BRAC round, if there is one. 
Thank you.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    And, Mr. Arny, you would probably be disappointed if I 
didn't ask you a question about Naval Station Mayport, which is 
in my district.

                                AFRICOM

    But before I do that, just a quick question about AFRICOM. 
In fiscal year 2008, we put $20 million--they were going to fix 
up some of the facilities at Stuttgart. And that was going to 
be headquarters for AFRICOM.
    And I have heard rumblings that was going to be moved to 
Africa. Can either one of you all give us what your plans for 
the future are? Because I don't know if that money has been 
spent or if we are going to need some more money for a new 
headquarters, but give us your idea of where we are headed.
    Mr. Hale. Well, let me comment on it. I think there is no 
question that they would like to move their command to the 
theater of operation. I mean, there are political issues there 
that need to be resolved, and I don't think they have been, so 
I--maybe, Wayne, you can discuss the funding at Stuttgart.
    Mr. Arny. I can get you a specific funding number, but that 
number was used to convert buildings so they could move into 
the space. And now the building is going--and we will look at 
it in the QDR--on where is the ultimate location to have 
AFRICOM?
    I agree with Mr. Hale. Everybody would love to have it in 
Africa, but since this is--you are taking your dependents and 
stuff, there are very few places that you could do that kind of 
command. And if you have CENTCOM in southern Florida managing 
the war halfway around the world, there are a number of places 
you could put the command and still be effective. So that money 
is pretty well--if there is a change, there will be 
additional----
    Mr. Hale. And it won't be next year. It will be a longer 
timeframe. Because I am told there is $100 million we have 
spent in Stuttgart, including $25 million in fiscal 2009 
provides temporary facilities that will take care of them until 
some more permanent arrangement is made.

                       MAYPORT NAVAL AIR STATION

    Mr. Crenshaw. Right. Well, I was hoping I wouldn't ask any 
more questions about Mayport because, I think as you all know, 
the Navy conducted a 2.5-year study, looked at the 
environmental impact, strategic impact, concluded that, in 
pretty strong language, 115-page, that we ought to have another 
nuclear carrier homeport on the East Coast that can handle a 
nuclear carrier, Mayport should be the place.
    The CNO submitted his report. The Secretary of Navy signed 
a Record of Decision--Secretary Gates wrote a letter saying we 
have three homeports on the West Coast for nuclear carriers. It 
certainly makes sense to do it on the East Coast.
    And then, about a month ago, I got a call from the new 
Deputy Secretary of Defense, who said we are going to put that 
decision under the QDR. And I said, ``Well, you are not 
reversing the decision?'' He says, no, we are just going to put 
it under the QDR. I said, ``Well, wasn't there already a record 
of decision?'' He said, yes, but we view that as a 
recommendation.
    So I thought it was over and I was never going to have to 
ask you a question about it, but so it is still a question. And 
I was disappointed to learn that, but that is the way it is.
    Is the QDR going to be the firm and final decision to that 
question of whether we need a second nuclear homeport?
    Mr. Hale. I think we will make a decision. I mean, we need 
to decide one way or another and move ahead.
    The secretary has said that he stands by his letter, but 
the fact that the price seems to be increasing substantially 
led us to believe that we should look at this again.
    There is $46.3 million, if I recall correctly, of dredging 
money in the fiscal 2010 budget, so carriers will be able to 
get in and out. The question is, do we build a repair facility 
that will allow it to be a true homeport? That could be quite 
expensive. Hence, part of the reason that we would like to look 
at it again. But, yes, I expect we will make a decision.
    Mr. Crenshaw. Where does it fit? I know the QDRs are 
generally pretty--they are a general report. And I am a little 
concerned that it maybe--that it is not going to fit----
    Mr. Hale. Well----
    Mr. Crenshaw. Here is the big question: If that decision 
doesn't come out, when you are ready for the FY 2011 budget, 
and let's assume that they reaffirmed what they decided all 
along, then you have lost a year-and-a-half, because there is 
some planning and design money that is on hold right now.
    So, A, where does it fit? And, B, will we know something--
because as I understand it, the key to--you have a preliminary 
answer in general sometime late summer, early fall, that if you 
said, yes, that was the right decision, if you made that 
decision, you would only lose about 6 months, in terms of the 
plan design. If you wait until February and submit the 2011 
budget, you would lose a year-and-a-half.
    So, A, where does it fit? And, B, do you think we will know 
something in time to keep on track?
    Mr. Hale. I would anticipate--I mean, the QDR, we hope it 
will provide recommendations by July to feed into the fall 
program and budget review. But I think the final decision, as 
most final decisions, are made in that fall program budget 
review.
    So I think we probably won't have a final decision on 
Mayport until the fiscal 2011 budget. And we may lose some 
time, I understand, but that would be my expectation. But I 
think, by 2011, we need to make a decision one way or the 
other----
    Mr. Crenshaw [continuing]. Was--is it $46 million or--I 
think that the estimate was $48 million for the dredging and 
some--obviously, there are some other costs. And there is, $46 
million in this year's request----
    Mr. Hale. $46.3 million, you are right.
    Mr. Crenshaw. Is that a better estimate than $48 million? 
Any particular reason why it is not what was in the EIS?
    Mr. Hale. I need help.
    Mr. Crenshaw. Probably just--maybe a better--estimate.
    Mr. Hale. We will get that one for the record. I am not 
sure. I mean, I assume it is based on the corps' estimate. I 
hope so. That was the intent.
    [The information follows:]

    The original estimate of $48 million for dredging was modified due 
to a pricing adjustment by the Department, and was subsequently 
requested at $46.3 million in FY 2010.

    Mr. Crenshaw. There is also money in the request, as I 
understand it, to upgrade one of the wharfs, not the one that 
would be the maintenance wharf, but the other wharf.
    And in just--again, for the record, I think right now a 
nuclear carrier could spend the night at Mayport.
    Mr. Hale. I am told they can only get out at high tide. 
That sounds like not a very good arrangement, so----
    Mr. Crenshaw. It was just--one was just there to pick up 
some folks to go to Norfolk, but I don't think the question on 
the EIS was whether or not you can park one overnight. I think 
it was a question of whether you ought not put all your eggs in 
one basket, that you ought to have----
    Mr. Hale. I understand. I mean, this is a first step that 
would at least give us some emergency berthing for them if 
something bad happened at Norfolk. And that was the intent of 
the dredging and allow you to get in and out with confidence.
    But I think you can expect a decision with the 2011 budget.
    Mr. Crenshaw. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Farr.

          CENTER FOR STABILIZATION AND RECONSTRUCTION STUDIES

    Mr. Farr. Thank you, Mr. Chairman. I appreciate getting 
back to some of these issues that are on the cost of these 
programs and how they can be better programs.
    The fiscal year 2009 National Defense Authorization Act 
specifically named the Center for Stabilization and 
Reconstruction Studies (CSRS) at the Naval Postgraduate School 
as one of two existing public institutions that will provide 
training for the newly established active response corps, the 
standby response corps, and the civilian response corps, the 
whole government of field components of the State Department's 
Office of Coordinator for Reconstruction and Stabilization.
    And since DoD policy recognizes the need for the 
stabilization, reconstruction, education and training and CSRS 
is the only classroom that brings together all the actors who 
are in the field together, the military, the civilian agency 
partners, the foreign military, the NGOs, and the I.O.s, can 
you help me get this POM'd? Because it has had to survive on an 
earmark.
    Mr. Hale. Well, you know, help in the sense of get it 
introduced? Yes. Help in the sense of, say, ``Absolutely you 
have to do this''? I think that is not the right solution for 
the comptroller. I mean, it needs to compete with others. And I 
don't know enough about this one specifically to know why it 
has not made it.
    But I don't want to sit across the table from you and tell 
you I am going to go and say, ``You absolutely have to fund 
this.'' I think that wouldn't be appropriate to my job.
    Mr. Farr. Well, can you tell me how that process works, to 
work with it? You know, the combatant commanders come in here--
--
    Mr. Hale. Sure. I mean, there are a number of inputs into--
normally we do a bottom-up process with the services making 
proposals. And I could speak in more detail from the Air Force, 
since I was there for many years. That one comes up through 
their commands. There are a series of review processes.
    Mr. Farr. Is this something Admiral Roughead has to do? Or 
it is a----
    Mr. Hale. Well, he can certainly play a role.
    Mr. Farr [continuing]. School within a school that has 
all----
    Mr. Hale. Again, he can certainly play a role. But I would 
hope he would say, if he were sitting here, the same thing, 
that he would want to hear what other priorities there are.
    Mr. Farr. Well, as you have heard, everybody loves it and 
talks about it, but then it comes back to having to get an 
earmark.
    Well, we will have some further discussions about it.
    Mr. Hale. Okay.
    Mr. Farr. Also, I don't know if you are aware, but the 
House of Representatives has created--I guess it is a 
relatively new committee. It is called the House Democracy 
Assistance Commission. It is not a standing committee of the 
House, but its role is to work with our counterparts in other 
countries, those countries' congress members, so to speak.
    We also have learned that the Center for Civil-Military 
Relations at the Naval Postgraduate School has a highly 
relevant expertise and connections with all the countries that 
HDAC is assisting. What I want to know is how we can bridge the 
gap between your shop and specifically the Center for Civil 
Military Relations and HDAC, because you have developed a lot 
of education and research.
    Members of Congress are working with the legislatures in 
Mongolia, East Timor, Indonesia, which is a big IMET program 
now, and Colombia, Haiti, Liberia, and others.
    So with each of these countries, the Civil-Mil Center 
already has relationships. So I am trying to see how we might 
get a better bang for the buck.
    Mr. Hale. If I understand you right, you are looking to use 
an existing program and have this committee have access to it 
or----
    Mr. Farr. Yes, I think CCMR can be very helpful to the work 
of HDAC but CCMR needs to get reimbursed.
    Mr. Hale. Okay. Well, have them get a hold of my 
legislative folks, Blaine Aaron and Pam Bain, and we will 
figure out how we can get you in touch with the right people. I 
mean, there is no reason we shouldn't try to be helpful.
    Mr. Farr. I am not chairman of the committee, but----
    Mr. Edwards. You are pretty close.
    Mr. Farr [continuing]. But David Price is. And he is, I 
know, keen on that.
    Mr. Hale. Glad to try to be helpful.

                       DEFENSE LANGUAGE INSTITUTE

    Mr. Farr. Another question the Army is funding this private 
company called the Rosetta Stone, which is a Web-based foreign 
language program.
    Several years ago, the Army briefed that DLI, the Defense 
Language Institute, which is your training center for foreign 
languages, and develops the teaching material and the 
evaluation materials--would provide oversight for the Rosetta 
Stone to make sure Rosetta Stone meets the military needs.
    And we were just told by the Commandant running the school 
that the DLI does not have oversight over the Rosetta Stone. 
There is a lot of money being spent for this contract for 
Rosetta Stone. And I don't know how beneficial it is.
    Because DLI is really good at developing the quality and 
the effectiveness of language training, I am just interested in 
ensuring that Rosetta Stone is supporting the mission 
requirements and maybe requiring DLI at least to have some role 
in it.
    Mr. Hale. I am going to need to take that one for the 
record. I am not familiar with it, but I understand your point. 
Let's see if we can find out who has oversight on this issue.
     [The information follows:]

    Two organizations within the Army provide oversight of the Rosetta 
Stone <SUP>'</SUP> program. The Program Executive Office Enterprise 
Information Systems (PEO-EIS) is responsible for the delivery of 
commercially-developed online training programs for our Soldiers. The 
Army's Director of Training, also the Army's Senior Language Authority 
(Brigadier General Richard C. Longo), is responsible to ensure online 
language training provides the necessary content to meet the needs of 
the Army. The Senior Language Authority (SLA) is advised by his staff 
(including seasoned foreign language professionals) and the Army 
Language and Culture Enterprise (ALCE). The purpose of the ALCE is to 
provide advice to the Army SLA on all matters pertaining to foreign 
language and cultural training. The Defense Language Institute, Foreign 
Language Center is a principal member of the ALCE.
    Rosetta Stone <SUP>'</SUP> is a commercial-off-the-shelf (COTS) 
training program available to all Active, Reserve and National Guard 
Soldiers, and Army Civilians and has the potential for well over one 
million users. Employing the COTS software required neither R&D 
resource expenditure nor delay in the immediate execution/deployment of 
foreign language training online. The intent of this online language 
program in e-Learning is to provide foreign language familiarization 
instruction to the non-linguist. The latest cumulative statistics 
(April 2009) show 219,904 unique registered users, 208 average daily 
new registrations, and a total of 1,095,419 hours logged training 
online. During the month of March 2009, over 3,500 users studied the 
``war zone'' languages of Arabic, Pashto, and Farsi. Additionally, hard 
discs with multiple user site licenses are shipped to requesting units 
for use in theater where no Internet access is available. Rosetta Stone 
<SUP>'</SUP> developed a military Arabic module for inclusion in the 
Army program that is not available to commercial customers.
    By offering Rosetta Stone <SUP>'</SUP> on Army e-Learning, Soldiers 
have a tool at their disposal for enhancing their operational skills as 
well as a tool for self-development. Courses offered through e-Learning 
are tracked by the Army Training Requirements and Resources System 
(ATRRS). Upon successful completion of Rosetta Stone <SUP>'</SUP> 
modules Soldiers earn points toward promotion to the ranks of Sergeant 
and Staff Sergeant. A total of 31 language courses are available 
including English. The English module has experienced over 36,000 users 
and 65,281 hours. This is a valuable tool for Soldiers who speak 
English as a second language to improve their skills.
    As an aside, the contract for online foreign language training is 
currently out for proposals. Throughout the contract process we will 
continue to provide online language instruction to the non-linguist. 
The future vendor will be selected based upon a fair and open 
competition process.

                          OVERSEAS HEALTH CARE

    Mr. Farr. And do we have any reports--would your office 
have any reports on the health care for civilian contractors in 
Iraq and Afghanistan? The Washington Post came out saying that 
the cost is more than $1 million a month for private 
contractors providing health care to our military.
    Mr. Hale. I am going to need to check that one, too. I am 
sorry. You are asking me questions I just don't know. And that 
is probably our personnel and readiness folks.
    [The information follows:]

    The military provides emergency healthcare for all US personnel--
soldier, sailors, airmen, marines, civilian employees and government 
contractor employees--at theater medical treatment facilities. While 
some legacy contracts still permit ``free'' healthcare to contractor 
employees, all contracts are being standardized to comply with the 
policy that allows for the provision of, and seeking reimbursement for, 
emergency healthcare. The provision of healthcare in theater is a 
military Service specific responsibility, funded with Overseas 
Contingency Operations funding, and as such requires the Services to 
develop billing process, protocols, data systems, info systems, etc. 
that do not currently exist. The Comptroller and Assistant Secretary of 
Defense (Health Affairs), the stateside medical billing experts, are 
assisting the Services in developing the process to ensure that 
prospective and retrospective billing can occur. The implementation of 
this new process and the enforcement of contracting terms that comply 
with the policy will ensure that the Department is fully reimbursed for 
the provision of these medical services. Since DoD policy does not 
permit provision of primary care services, several large contractors 
have established primary care clinics in theater, and may have tried to 
pass on the costs to the DoD. To date, any costs to establish these 
clinics would be imbedded in the overall contracts and not easily 
identifiable. The contracting officers are aware of this practice and 
continue to look for any indication that these costs are being passed 
thru to the DoD.

    Mr. Farr. Well, part of it was that the DoD had failed to 
collect payment for over the last 2 years from military 
contractors for the emergency and primary health care. I guess 
we are providing--they have their own----
    Mr. Hale. Right, we provide it there.
    Mr. Farr [continuing]. They have it in their own contracts, 
in their own health care programs, but we are providing for 
them----
    Mr. Hale. That part I should be able to check out. I mean, 
that is an accounts receivable. And I know we have had problems 
collecting, not necessarily just from those contractors----
    Mr. Farr. But you are trying to collect from them?
    Mr. Hale. Yes, I mean, we track our accounts receivable 
regularly. You may not think of that, but we do. We have a 
number of people who owe us money.
    Mr. Farr [continuing]. Didn't know whether you had any--
indicate whether any effort had been made to collect that.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Sam.

                          INCREMENTAL FUNDING

    Secretary Hale, let me ask you about incremental funding 
versus phased funding. Tell me what the administration's new 
policy is and how that differs from the past and why you are 
putting----
    Mr. Hale. Well, I don't think it is a new policy. I mean, 
first off, I support full funding in almost all cases. I think 
it is the right way for both the Department of Defense and 
Congress, in that it insists on transparency and 
accountability. It forces us to face the full costs.
    You know, there are probably rare circumstances, but I 
think they should be rare, where we have pursued incremental 
funding and, maybe even rarer, phased funding, although I 
think, particularly in the phased funding, we have to worry 
about whether we are affecting the efficiency of the operation 
and we are building four air conditioners rather than one 
because we are doing it in a phase is something we want to 
avoid.
    But, in general, I believe we should fully fund military 
construction projects, in the Department of Defense budget. I 
would like to see the Congress do it, too.
    Mr. Edwards. We might need some more discussions on that, 
because--well, for various reasons. But in terms of the phased 
funding, you said you would like to avoid phased funding 
whenever possible, but I think for the new health care facility 
down at Lackland, you know, you have four distinct phases. And 
I asked some of the people involved, does that literally affect 
the architecture of the building itself?
    And yes. I mean, you literally have to--four--as they are 
proposing, four separate buildings now. And in San Antonio, 
where land is relatively cheap, maybe in abundance, maybe that 
is not all the problem, although I don't know. In a theoretical 
case, someone is going from primary case over to inpatient, I 
am not sure I want to walk out in 103-degree heat in San 
Antonio if I am a wounded warrior, military service man or 
woman, or their families.
    Have you had a chance to look at the phased funding and 
maybe use that as an example of, does this really make sense? 
And I am not a building contractor. I was in commercial real 
estate for a little bit back in the 1980s, but not enough to 
learn the economics of contracting.
    But I had to think that, you know, if I were to use an 
analogy, contracting out to get somebody to fill the foundation 
for my new home, and then, when that is finished, getting 
somebody to build the walls, and then somebody else to build 
the roof would be far more expensive than being able to make 
that commitment up front and taking advantage of economies of 
scale.
    And it seems to be just the opposite of the--what the 
administration has proposed and Congress is looking at on V.A. 
funding. We want, you know, the economic advantages of knowing 
what is going to be funded and not.
    Any thoughts? I know it is not perfect no matter which 
alternative you pursue, but do you have some----
    Mr. Hale. Well, let me answer in general, and then I am 
going to ask if you talk about Lackland, because I don't know 
the details. I said, I believe we should fully fund these 
projects up front. There may be rare circumstances where 
something is so large that it would cause such spikes in the 
budget as to be a problem, but I would like to avoid 
incremental funding and I think, in general, phase-funding.
    So let me ask you, Wayne, if you would comment on Lackland.
    Mr. Arny. Well, Lackland was a case where it was 
originally--again, I agree with Mr. Hale. If we could fund the 
whole thing right up front, it would be the best way to do it.
    But we were told not to do an incremental funding, so in 
order to make it fit in the--within the budget constraints we 
had, and given that we could do complete phases--and you won't 
have to walk outside; there will be walkways between them--it 
was designed as four phases.
    Mr. Edwards. OMB, I guess, has adopted this policy of no 
incremental funding, perhaps in rare cases. Instead of having 
incremental funding, where you could have some economies of 
scale, going to phase-funding? I don't understand that 
rationale there.
    Mr. Arny. We are stuck between a rock and a hard place.
    Mr. Edwards. Sure. I understand.
    Mr. Arny. Again, we would not have phased funded this--
funded Lackland. Part of it is to avoid our phases, keep the 
phases small enough that, when it comes to the Hill, they don't 
get chopped and used for something else.
    Ideally, the total of this would get $72 million--call it 
$450 million--$467 million. We would rather just--fund that in 
one year, and let it spend out.
    And, frankly, as I have mentioned to you before, prior to 
coming into the MILCON world, I just assumed no one did 
incremental funding. In the 1980s, we tried to incrementally 
fund the carrier, and we were kicked out of the Senate.
    And so when I found that we were doing incremental funding, 
I was a little surprised, but I will say--and I have tried to 
convince OMB--that it does work in the MILCON world. They want 
to stick with no incremental funding.
    So in this particular case, with a building in which you 
can--thank you--we pay like a 5-percent premium, but we can 
phase this building, because we have the land available to 
stretch out. They will be connected. No one will be walking 
outside.
    I think where you are really going to see it hurt us is 
when we send over, probably in 2011--we have a big nuclear pier 
up in Congressman Dicks' district that is probably going to be 
$600 million, $700 million, $800 million.
    And I have talked to the Navy. And something like that--I 
said, ``Why can't you phase it? Give me 100 feet every year or 
whatever.'' They said, ``No, I can't. That is not the way we 
build piers. We set all the pilings in. And at the end of a 
phase, it is not complete and usable.''
    Mr. Edwards. Right.
    Mr. Arny. Whereas, with the hospital at Lackland, each 
phase will be complete and usable.
    Mr. Edwards. Okay. We might need to talk to OMB. You know, 
I will give you an example of where the philosophy of no 
incremental has hurt. We are so badly undercapitalized, in 
terms of hospital modernization, in DoD. And the reason was, 
Secretary England said, nobody ever presented to me in any of 
these supplementals since the Iraq war began a need to do a 
hospital at their base, so I concluded we just didn't need any 
new DoD hospitals.
    The reason is that commander would have been laughed out of 
the room or kicked out of the room for offering a $500 million, 
$1 billion project in one year in a supplemental. Consequently, 
we have service men and women being taken care of in hospitals 
that are so damn old that they can't even put MRI machines at 
Fort Knox. They have to go out in 95-degree heat in the summer 
and over to a trailer, their wounded soldier out there.
    So I don't know. I guess we need to sit down with OMB. And 
is this an OMB policy basically?
    Mr. Arny. Yes, sir.
    Mr. Hale. Yes.
    Mr. Arny. Again, we could adapt to no incremental funding, 
because we said no incremental funding, and we know, because as 
you well know, we put an $800 million project into the budget, 
when it comes over to Congress, Congress has said--all four 
committees have said--subcommittees have said, ``It is our 
prerogative to incrementally fund.''
    And so the danger we face is we know that, you know, out of 
an $800 million project, $650 million is going to go someplace 
else, and then next year we are going to have to cough up that 
money again.
    Mr. Edwards. Right.
    Mr. Arny. We will go either way.

                           INADEQUATE HOUSING

    Mr. Edwards. Well, we will follow up on that.
    And one last thing if I could ask your shop to do, I want 
to support the new administration. I also want to hold them 
accountable. Could your folks put together as accurate as you 
possibly can the number of actual troops living, their families 
or singles, living in housing that doesn't meet the respective 
service's standards?
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0526E.044
    
    [GRAPHIC] [TIFF OMITTED] T0526E.045
    
    We kind of get numbers all over the place. If you could get 
me a hard number. I am not interested in whether the process is 
in place to build them a new home 15 years from now or 5 years 
from now. It seems to me that should be the metric we ought to 
look at each year. Are they living in housing?
    For example, in your testimony, when you said, 95 percent 
with this year's budget will be housing--and I assume you were 
talking about family housing----
    Mr. Arny. Yes.
    Mr. Edwards [continuing]. Will be funded for modernization. 
I don't know how that applies to, say, Chaffee Village at Fort 
Hood, which I visited recently. And, I mean, I went into these 
houses and they were not anything I would want my family living 
in, much less a family sacrificing as much as our soldiers.
    And if it weren't for the base commander taking that issue 
up and pushing it and renegotiating with--the plan was to 
modernize--to build those new homes in the year 2032.
    So I come to this committee and I hear, you know, we are 98 
percent funded for modernization, I go out in the real world, 
and I see----
    Mr. Arny. Let me check--I asked on the Chaffee housing, 
because I asked about that. And, in fact, we may not--it may 
not be required after a certain period of time.
    And I know in San Diego, the Navy faced a problem where 
we--we can't do this all in--we can't do all the modernization 
in a week. And the Marine Corps especially was in bad shape, 
but the Navy out in San Diego had some bad housing, real 
housing that actually got some bad press.
    And I had been out there right before. And it wasn't the 
best housing, but the private-sector partner had gone through 
and had cleaned it up, put new appliances, done carpeting, done 
painting, and what was missed in the article was the families 
that chose to go into Cabreo knew ahead of time that, if you 
choose to go into Cabreo--which doesn't meet our standards, but 
we are trying to do the best we can--you have first choice as 
we build the new buildings.
    So we are trying to make sure everybody is accommodated as 
we make the shift. I mean, Congressman Farr is seeing what we 
have done with the housing out in Monterey. So it is not all 
there yet, but we are getting there.
    Mr. Edwards. I think we have made tremendous progress in 
family housing, and, clearly, barracks is an area we are 
farther behind. It seems like every service has a different 
number, every witness has a different number. Some of the 
numbers assume, well, based on the present process, there is 
funding available----
    Mr. Arny. That is exactly why I changed. The money is in 
place. I know how you feel about that. I don't want to say that 
everybody is living in a perfect house. They are not, and we 
are moving there. But we have the money to privatize 98 percent 
of our housing in the United States. So some of it is not going 
to get privatized because it is in really oddball locations, 
but there is not much left that is not going to be privatized.
    Mr. Edwards. Chaffee Village has been scheduled for 2032. 
And that--they had some money for fixing it up a little bit, 
but you talk about, you know, a waste of money. Fixing up those 
houses, in my opinion, was truly a waste.
    Part of the reason I want the metric is we ought to be able 
to tell the taxpayers all the improvements we have made and how 
many fewer. But it seems like we need to have one clear 
definition.
    To the service man or woman and their family, the only 
thing that matters is, am I living in a decent house or not? 
The process doesn't matter. The plans might matter in the 
future, but today it is, am I living in decent housing or not?
    Do we have the ability to provide those numbers? ``Are you 
today living in decent housing or not?''
    Mr. Arny. We can tell if it is inadequate or adequate by 
the service's standards.
    Mr. Edwards. Even though I disagree with the service's 
standards, at least so we have a metric, and each year we can 
clearly compare apples to apples and oranges to oranges.
    Mr. Arny. Yes, sir----
    Mr. Edwards. Okay, thank you.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.

                          JOINT CARGO AIRCRAFT

    Let me ask you all about this joint cargo aircraft program 
I think between the Army and the Air Force. They were going to 
buy 16 of those new aircraft, and then the request this year, I 
think, in the budget is for 8. And I was told that they are 
going to transfer, I guess, the control from the Army to the 
Air Force. I don't know if that has been done or not. And then 
there was going to be an assessment of the overall program.
    And I guess the question is, what is the assessment going 
to involve? Are they going to conclude--is that going to be 
part of the QDR? Will they conclude we ought to buy the 
original 16 or we are not going to buy--we are only going to 
buy 8?
    I mean, what is going to be involved in that assessment? 
What is the reason for the assessment? And when will that kind 
of be finalized?
    Mr. Hale. Well, first, we won't change the fiscal 2010 
budget. The issue is the overall objective.
    First, I think this is a good news story. We had the chief 
of staff of the Army actually go to the chief of staff of the 
Air Force and say, ``This is an issue, and I think you can do 
better, or at least I would like you to take over,'' because, 
frankly, we have underutilized C-130s in the United States Air 
Force today.
    And if I remember the figure right, the C-130s can land at 
about 99 percent of the runways that can be used by the C-27, 
the JCA aircraft. So the Air Force is going to be able to 
achieve some commonalities that will benefit the taxpayers.
    With that in mind, we lowered the overall inventory 
objective for the JCA from 78 to 38. That decision may get 
revisited in the QDR, that is the overall inventory objective. 
And I realize there are some important basing decisions here. I 
am mindful of that issue.
    But from the taxpayer standpoint, I think what we are doing 
is getting better utilization of the overall assets that the 
Air Force or the DoD has available. And that, in my mind, and I 
think in Secretary Gates' mind, is a good news story.
    Mr. Crenshaw. One of the--I know we had General Casey 
before us. And we were kind of ramping up in Afghanistan. I 
can't remember the exact figure, but I think he said we are 
spending about $8 million a month leasing kind of airplanes 
that are like the joint cargo. And that is a lot of money.
    And so I guess you have the National Guard. If C-130s can 
do all that, I don't know why they are not doing it right now. 
But maybe I think I would just be interested in hearing what 
the rationale--it is kind of like the aircraft carrier, when 
you say, ``Well, we may have changed our mind.''
    Nobody said you changed your mind. You just said, ``We are 
just going to further review it.'' And then people say, ``Well, 
maybe the cost has gone up.'' I don't know of anybody that said 
the cost has gone up. I have heard it from you, but the Navy 
did a study. They went through the cost--I mean, have they 
changed their minds, said, ``No, it is going to cost more 
than''--when I hear you say--I hadn't heard--I think I heard--
--
    Mr. Hale. That is in Mayport now, right?
    Mr. Crenshaw. In terms of change in--the Joint Cargo 
Aircraft (JCA). You say, ``Well, we are going to build 16. No, 
we only need 8, because C-130s do it.'' But we are leasing 
planes that do what the (JCA) is going to do.
    It just confuses me a little bit to hear you say--maybe 
explain to me--where did the change in costs come from, whether 
it is--we will say the (JCA), and also the nuclear carrier in 
Mayport. Where did the change occur in terms of the cost?
    Mr. Hale. I mean, my understanding on Mayport is that our 
latest cost estimates are significantly higher. And----
    [The information follows:]

    I would like to retract my statement, ``I mean, my understanding on 
Mayport is that our latest cost estimates are significantly higher.'' I 
misspoke. Our cost estimates for Mayport are not significantly higher.
    The FY 2010 President's Budget request for the Joint Cargo Aircraft 
program reduced the total number of JCA from 78 to 38 and transferred 
the direct support airlift mission supporting Army's Time-Sensitive/
Mission-Critical (TS/MC) air delivery to the Air Force. These changes 
maximize the robust capabilities of our existing C-130 fleet and ensure 
that the Department meets all intra-theater airlift requirements. 
Adjusting roles and missions and assigning the Air Force greater 
responsibility for delivering Army time-sensitive, mission-critical 
cargo will free up Army assets such as CH-47 helicopters and crews that 
are critically needed for tasks that only rotary aircraft can perform. 
The FY 2010 President's Budget acknowledges that changes in the way the 
Air Force and Army operate will yield efficiencies that reduce the 
requirement for combined Army-Air Force intra-theater airlift compared 
to how we execute today. The budget reflects improved effectiveness, 
increased joint synergy and minimized duplication of effort between the 
Services to maximize the utilization of the Department's intra-theater 
airlift assets.

    Mr. Crenshaw. But did you--tell me about those costs. Did 
you do a new study?
    Mr. Hale. I am not sure. I will need to--anybody--do you 
know the Mayport situation in terms of the----
    Mr. Crenshaw. I would love--if you could supply those new 
cost estimates to the committee----
    Mr. Hale. Sure.
    Mr. Crenshaw [continuing]. Show the new costs?
    Mr. Hale. We will be glad to.
    Mr. Crenshaw. Because I think they considered the costs, 
and they said, ``Look, you know, it is expensive, but we are 
talking about national security.''
    Mr. Hale. Right.
    Mr. Crenshaw. And to make sure that we keep our carrier 
fleet safe, we think it is a good idea----
    Mr. Hale. Let me also run down the leasing in Afghanistan. 
You may be thinking of the--we are leasing some commercial 
aircraft to provide communications capability. And I am not 
sure that is something the Sherpas could do, but I need to 
check----
    Mr. Crenshaw. Yes, I just remember him talking about that 
we are doing more in Afghanistan.
    But I think we are all trying to save taxpayers' dollars. 
And if there is a demand--for any kind of cargo craft, whether 
it is a National Guard--I know in Florida they do a great job. 
They bring in supplies, hurricanes, things like that. And they 
feel like there is a need for that. But I don't know if that is 
built into the requirements document for that kind of aircraft.
    But that would be great, if you could, just to help us get 
a better idea of what all these costs are.
    Mr. Arny. Also, sir, in answer to your earlier question, we 
did--for 2010, we do a repair to wharf Charlie at $29.7 
million.
    Mr. Crenshaw. And that--I think that is the Charlie wharf 
where, a carrier just was there to come in--so that thing--I 
know that is in the budget for that repair. And I think the 
maintenance wharf is--and the controlled industrial still--
those are the big items that, I don't think their costs--I am 
not aware of any new study that said the costs had gone up, but 
if there is one, we would love to see it.
    Thank you.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Farr.
    Mr. Farr. Yes, just a couple questions. Thank you very 
much.
    Mr. Arny, in our discussion on how much money could be used 
for cleaning up closed BRAC bases, I think you indicated that 
the department was maxed out and the capacity out there was 
being fully utilized.
    We received a letter--Chairman Edwards received a letter on 
May 12th laying out what the capacity was by the National 
Association of Ordnance and Explosive Waste contracts. I think 
what you indicated is that the amount is about--approximately 
$500 million that is allocated, but the capacity for clean-up 
within the industry is currently about $1.5 billion, about 
three times as much as we are putting out.
    It is just that if we are looking at the future and 
thinking that we are meeting capacity, we are not. And, you 
know, a lot of it is from--where the little bases are 
interested in getting them cleaned up.
    The other thing I wanted to revisit with you is the 
Treasure Island, because you said something that struck me last 
time that I thought was very interesting, that they couldn't 
qualify for an EDC because there weren't enough permanent jobs 
being created. How many permanent jobs does one need to create 
to get an EDC?
    Mr. Arny. I believe--I don't know the numbers of that.
    Mr. Farr. Is there a threshold?
    Mr. Arny. Under the rule--we will work with you on this. 
But under the rules, they had to have permanent jobs and a 
last--because they initially were looking at a no-cost EDC.
    Mr. Farr. Yes.
    Mr. Arny. So let me get back to the record.
    [The information follows:]

    In determining whether to grant an Economic Development Conveyance 
(EDC), the Secretary concerned is to determine whether the EDC is 
needed for purposes of job generation, including the extent of short- 
and long-term job generation. There is not a threshold or a minimum job 
creation requirement for an EDC due to the considerable variability of 
our surplus properties and local markets impacting redevelopment 
activity. Rather, the Secretary concerned has discretion and 
flexibility to structure an EDC that can be tailored to local needs to 
assist local job creation/recovery activities and base redevelopment. 
This is done in close collaboration with the Local Redevelopment 
Authority (LRA). Specifically, as set forth in the governing regulation 
(32 CFR 174), the Secretary concerned will consider the following 
factors, as appropriate, in evaluating the application and the terms 
and conditions of the proposed transfer:
    (1) Adverse economic impact of closure or realignment on the region 
and potential for economic recovery through an EDC.
    (2) Extent of short- and long-term job generation.
    (3) Consistency with the entire redevelopment plan.
    (4) Financial feasibility of the development, including market 
analysis and need and extent of proposed infrastructure and other 
investments.
    (5) Extent of state and local investment, level of risk incurred, 
and the LRA's ability to implement the plan.
    (6) Current local and regional real estate market conditions.
    (7) Incorporation of other Federal agency interests and concerns, 
and applicability of, and conflicts with, other Federal surplus 
property disposal authorities.
    (8) Relationship to the overall Military Department disposal plan 
for the installation.
    (9) Economic benefit to the Federal Government, including 
protection and maintenance cost savings and anticipated consideration 
from the transfer.
    (10) Compliance with applicable Federal, state, interstate, and 
local laws and regulations.

    Mr. Farr. I have an--they say that they can get--they are 
going to have 2,629 permanent jobs. Those are not--in addition 
to whatever the construction jobs, which are huge.
    And I think you indicated maybe it was when we were walking 
back to the office that there wasn't any firm appraisal on 
Treasure Island.
    Mr. Arny. There is a firm Navy appraisal, yes, sir.
    Mr. Farr. There is a GSA-confirmed appraisal.
    Mr. Arny. Right.
    Mr. Farr. We are--$250 million?
    Mr. Arny. Yes, sir.
    Mr. Farr. Which I think the city has offered to pay. This 
is what I understand. It is not in my district, but it is up 
the street a little bit. But they----
    Mr. Arny. I don't believe so, but let me get back to you on 
the details of that.
    [The information follows:]

    The City of San Francisco has not offered to pay the appraised Fair 
Market Value of $250M for Naval Station Treasure Island. The Navy has 
offered payment terms at below market interest rates for the appraised 
Fair Market Value to be paid starting in the later years of development 
and paid over a period of two to three years. The City's compensation 
offers have been centered on profit participation models where the Navy 
is compensated after the developer realizes an 18-25% profit. The City 
has offered to take over the remaining limited environmental work, 
estimated at $19.3M, as part of the compensation under profit 
participation models. Nevertheless, the Navy believes that the models 
of profit participation offered by the City would likely result in 
little or no return for the Federal Taxpayer.

    Mr. Farr. We want to try to get this thing moving.
    Mr. Arny. Yes, sir.
    Mr. Farr. That is it. Thank you.

                              BRAC SAVINGS

    Mr. Edwards. My last question will just be for the record. 
Secretary Arny, you mentioned that there are $4 billion in 
annual BRAC savings. I haven't looked at those numbers in quite 
a while. My general recollection is that we know the costs of 
BRAC are very hard, building buildings, moving people. The 
savings sometime are a little bit soft, in terms of 
efficiencies.
    But someone came up with that $4 billion number. Could you 
please ask your office to send over to our subcommittee the 
list of how that $4 billion figure is derived? If we are saving 
that much in the real world, we need to brag about it. If we 
are not, we need to know that.
    And, Mr. Crenshaw, do you have any additional questions?

                       GUARD AND RESERVE FUNDING

    Mr. Crenshaw. Just real quick. The Guard and Reserve I 
noticed last year was like $1.5 billion. This year it is down 
to $1 billion. That is $500 million less, 30 percent reduction. 
And they are still pretty active.
    A, what is the reason for that? B, is there anything this 
subcommittee can do, you know, to kind of help in that regard? 
Is it----
    Mr. Hale. I think if you go back and look at the trimble, 
we actually submitted for the Guard last year--we have 
increased that amount. The Congress typically does add money 
for the Guard, which is your prerogative. And so we submitted, 
I think, a little less than a billion in 2009. You made it $1.5 
billion.
    We have increased our submission, because we feel it is the 
right amount for the Guard. I understand that we propose, you 
dispose.
    Mr. Crenshaw. Got you. I think we ought to--I didn't 
realize that we had bumped it pretty good, but I think that is 
something we ought to think about, because--I think they are 
still very, very involved. Unless there is some kind of 
reduction in their operation, they are going to need that kind 
of support.
    Mr. Edwards. You bet. You know, and I think traditionally 
over the years administrations, Republican and Democrats alike, 
tended to underfund Guard and Reserve MILCON knowing Congress 
would add to it. The problem is, with the budget situation 
being what it is, it is more and more difficult for us to, you 
know, routinely add $1 billion, $1.5 billion----
    Mr. Hale. I do--at least say for the record, we don't think 
we underfunded. I understand.
    Mr. Edwards. I understand.
    Mr. Farr. Are any of those--interoperable, Guard, Reserve 
and active duty? So can you go train on a National Guard base? 
Does it meet your standards?
    Mr. Arny. I think it depends. I mean, I had to leave my own 
plane in Savannah International. And there were a huge--it is a 
C-130 Guard operation, and there were a huge number of F-15s 
and F-16s that were doing exercises out of there. And right 
down the road, there is the Hunter Army Airfield. So they are 
training.
    Mr. Farr. Well, I am sure the Air Guard is, because they 
are constantly flying, but it seems to me that those bases in 
my district--I have a Reserve base, I have a Guard base, I have 
an active duty base. And I don't know that they are even----
    Mr. Arny. I know, when I was on active duty, we would go 
from base to base and get training. And sometimes you would 
have to pre-position equipment, like our F-4s couldn't use Air 
Force F-4 starters, but we would train at other people's bases. 
It depends on the facilities and what you are looking for. You 
don't necessarily go to your own base.
    Mr. Farr. No, but I think it is a MILCON responsibility--
maybe there is some report language we can look at to see 
whether these bases are interoperable rather than just 
expanding them, getting them to be used more efficiently.
    Mr. Arny. We did an entire air wing operation----
    Mr. Edwards. Makes sense.
    Mr. Arny [continuing]. Out of Naval Station Mayport. I 
mean, we have the entire airway, because the ship sank at the 
pier, but that is another story. [Laughter.]
    Mr. Edwards. Any other additional questions? If not, let me 
finish as we began.
    Thank you both for being here and for what you are doing 
for our country. Secretary Arny, we wish you Godspeed and all 
the best to you. And let your sons know we appreciate their 
service to the country, as well. Thank you for the legacy you 
leave through your many years of public service.
    And, Secretary Hale, we look forward to working dollars and 
cents with you in the years ahead.
    Mr. Hale. Thank you.
    Mr. Edwards. Thank you.
    We stand adjourned.
    [Questions for the record submitted by Chairman Edwards:]

                               Inflation

    Question. For the record, what is the construction price inflation 
factor built into your FY 2010 budget request, and how does this 
compare to the rates used by the private sector and other Federal 
agencies?
    Answer. The construction price inflation factor built into the FY 
2010 budget request is 1.5 percent for FY 2010. The annual inflation 
rates used by other federal agencies (as reported to DoD) range from 
2.6 percent to 9.0 percent. Engineering News-Record (a common industry 
source for cost indices) predicted an increase of 1.8 percent for its 
Building Cost Index for calendar year 2008 (published in December 
2007), and a decrease of 0.5 percent for calendar year 2009 (published 
in December 2008).

                            Missile Defense

    Question. Congress approved $151 million in FY 2009 to begin 
construction of the bases that constitute the Ballistic Missile Defense 
``third site'' in Europe. By last year's estimates, about $690 million 
was required to complete construction. I understand that you are not 
requesting additional funds for this initiative in FY 2010, as the 2009 
funds have not spent due to a lack of parliamentary approval from the 
host nations. What is your intention going forward on this project?
    Answer. The Department is currently conducting the Ballistic 
Missile Defense Review (BMDR) which will, among other things, review 
the rationale and requirements for the third site and explore 
alternatives that may exist. No final decisions have been made. The FY 
2010 budget preserves the Administration's flexibility to arrive at a 
future decision on missile defense in Europe. Remaining FY 2009 funding 
will be sufficient for the Missile Defense Agency (MDA) to begin work 
on the sites in the Czech Republic and Poland, should the 
Administration make the decision to do so.
    Initial review results will be available later this year and a 
final report will be submitted to Congress in January 2010.

                Overseas Contingency Operations Request

    Question. The FY10 request includes $1.4 billion in additional 
MILCON projects for what is now called Overseas Contingency Operations, 
or OCO. Nearly all of this money is specifically for Afghanistan. 
However, there is also $192 million for 11 MILCON projects in 
Afghanistan included in the regular part of the budget. How do you 
determine which Afghanistan projects are included in the main base 
budget, and which are included to the OCO?
    Answer. The construction projects in the FY 2010 base budget 
support peace time mission requirements at locations where we expect to 
have a presence after the contingency operations, such as Bagram in 
Afghanistan and Camp Arifjan in Kuwait. The Afghanistan construction 
projects in the FY 2010 OCO request are synchronized to the troop 
announcements made by the President and reflect requirements driven by 
wartime urgency. Although some of these requirements are at enduring 
locations (Bagram and Kandahar), these projects are in direct support 
of troop announcements/movements or require acceleration in support of 
troop increases/movements. For example, the housing at Bagram in 
support of the enduring requirements for the base population is funded 
in the base budget. However, the troop housing to support the force 
increase is funded in the OCO request.

                                  BRAC

    Question. During the hearing, you suggested that the overseas-to-
U.S. realignments encompassed in the Global Defense Posture Review 
should not be included in a comparison between the original COBRA 
estimates for BRAC and the current estimates. Yet the Department 
incorporated these realignments and their costs into the BRAC program 
primarily through Recommendation #10, Operational Army (IGPBS) and 
Recommendation #4 for Fort Bragg. Could you please clarify what you 
meant by this statement?
    Answer. Yes, to the extent the costs associated with these 
recommendations result from stateside relocation activities, they have 
been incorporated into the BRAC program. The costs associated with 
closing overseas units and transportation of forces to U.S. soil have 
not been charged to the BRAC account, but rather have been more 
appropriately absorbed by the operational accounts.
                                           Wednesday, May 20, 2009.

 FISCAL YEAR 2010 AIR FORCE MILITARY CONSTRUCTION, FAMILY HOUSING AND 
                 BASE REALIGNMENT AND CLOSURE PROGRAMS

                               WITNESSES

GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF, USAF
MAJOR GENERAL DEL EULBERG, THE AIR FORCE CIVIL ENGINEER, USAF

                       Statement of the Chairman

    Mr. Edwards [presiding]. I would like to call the 
subcommittee to order.
    General Schwartz, General Eulberg, thank you both for being 
here.
    And, General Eulberg, I see in my notes that you are 
retiring this summer after 36 years?
    General Eulberg. Sir, 35 in uniform.
    Mr. Edwards. Thirty-five, 35 years of military service. And 
I want to thank, on behalf of all of us in Congress, you and 
your family for your service to our country over those years. 
You made a real difference, and we salute you for that service. 
And thank you for being here today.
    General Eulberg. Thank you, sir.
    Mr. Edwards. I would like to just make a few very brief 
opening comments, and then I am going to turn to Zach Wamp, our 
ranking member, for any opening comments he would care to make. 
And then we will proceed with the testimony.
    We are here today to receive testimony in the Air Force's 
fiscal year 2010 budget request for military construction, 
family housing, and BRAC.
    Over 1 year ago, the prior chief of staff of the Air Force 
told this subcommittee that the Air Force had chosen to accept 
what he called ``manageable risk'' in facilities and 
infrastructure funding.
    Although the active Air Force military construction request 
of $1.145 billion represents an increase over both the fiscal 
year 2009 request and the fiscal year 2009 enacted level, it is 
still more than $200 million short of what last year's FYDP 
projected for 2010. It, therefore, would appear to me that the 
Air Force is still accepting some degree of risk in facilities 
to meet other priorities.
    I also am concerned that the Guard and Reserve MILCON 
budgets are not keeping pace with the possible needs out there.
    The Air Force certainly has many challenges and budget 
issues to balance, so my goal today is to hope to better 
understand the Air Force's views in relation to MILCON and 
family housing in the context of all the other pressing needs 
that you have.
    Before I introduce our witnesses, I would like to turn to 
Mr. Wamp, our ranking member, for any comments.

                Statement of the Ranking Minority Member

    Mr. Wamp. Thank you, Mr. Chairman. Let me thank you for 
your extraordinary leadership.
    I welcome the chief today and certainly commend General 
Eulberg for his outstanding career.
    I want to thank Mr. Crenshaw, in his absence, for subbing 
for me yesterday and for your understanding, Mr. Chairman. I 
happened to have my 24th wedding anniversary Monday night, and 
as many of those as I have missed over the last 15 years, I got 
one in.
    Mr. Edwards. You should not miss any of those for any 
committee hearing.
    Mr. Wamp. It was very worthwhile, and I am grateful for the 
opportunity. I just want to say briefly--I don't want to repeat 
anything the Chairman just said, looking at the reduced funding 
levels I too am concerned about the level of risk the Air Force 
is taking on.
    I want to thank the Air Force for all that they do and 
continue to do for our national capability. And I want to 
especially thank you for allowing one of your finest, Major 
Juan Alvarez, over my right shoulder, to actually help staff me 
this year.
    He has served the Air Force and his country extremely well 
and certainly gives me a full and new, even better appreciation 
of the United States Air Force and the quality of the men and 
women that serve our country through the United States Air 
Force.
    So thanks for your presence today. I look forward to a good 
hearing.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    General Schwartz, since this is your first time before our 
subcommittee in your position, let me just read into the record 
a very brief introduction.
    General Schwartz, Chief of Staff of the United States Air 
Force, became Chief of Staff in August of 2008. He has served 
for 36 years--that is where I got the 36 years, Major General 
Eulberg--36 years of service since graduating from the Air 
Force Academy in 1973.
    And thank you, General Schwartz, for those years of service 
and leadership.
    He previously has served as commander, U.S. Transportation 
Command, director of the Joint Staff, commander of the 11th Air 
Force, Deputy Commander-in-Chief of Special Operations Command, 
Commander of the 16th Special Operations Wing.
    And he is a command pilot with more than 4,400 hours in C-
130s, MH-53s, and MH-60s. It is a little bit different from the 
1,100 hours I have in a single-engine Cessna 210. General 
Schwartz also served in Operations Desert Shield and Desert 
Storm.
    I want to, again, welcome both of you to the committee. We 
will accept for the record your complete statements, but I 
would like to recognize you now, General Schwartz, for any 
opening comments you care to make.

                Statement of General Norton A. Schwartz

    General Schwartz. Thank you, Mr. Chairman and Congressman 
Wamp.
    Thank you very much for allowing me to appear before you 
today. The Air Force is dedicated to its role as a trusted 
member of the armed forces.
    And our infrastructure investment strategy supports our 
core functions and ensures that the investments reflect 
stewardship of the taxpayer's dollar and achieves strategic 
balance in our current fiscal circumstances through five 
priorities, the first of which is reinvigorating our nuclear 
enterprise; the second is partnering with the joint coalition 
team to win today's fight; third, to develop and care for our 
Airmen, their families, and importantly, our wounded; fourth, 
to modernize our air and space inventories and training 
capabilities; and, finally, to recapture acquisition 
excellence.
    With this in mind, I would like to update you on military 
construction, family housing, and BRAC as a part of our 
comprehensive strategy to support the national defense with 
global vigilance, reach, and power.
    As you indicated earlier, I am accompanied by Del Eulberg, 
our Air Force Civil Engineer, and I will have a few more 
comments, if I may, at the conclusion of my remarks on that, as 
well, who will sort of round out the details of the strategy.
    And as we continue to focus today on today's fight and to 
modernize our air and space inventories for tomorrow's 
challenges, we recognize that we cannot lose focus on critical 
Air Force infrastructure programs.
    Air Force installations are key to delivering game-changing 
air, space and cyber capabilities to our combatant commanders. 
And our fiscal year 2010 investments directly contribute to 
maintaining the infrastructure necessary to accomplish these 
many missions.
    At the same time, we are committed to quality of service 
for our people. And that is consistent with the contributions 
and sacrifices they make on behalf of our nation.
    While the fiscal year 2010 budget for MILCON, BRAC, and 
family housing and facility maintenance requests is in the 
neighborhood of, as you indicated, $1.5 billion or thereabouts 
for MILCON and $4.9 billion for the entire program, which is 
somewhat less than last year's projection, we intend to 
mitigate the difference in MILCON and facility maintenance by 
intensifying our efforts in restoration and modernization of 
existing plans, and managing our resources from an enterprise 
portfolio perspective, optimizing facility utilization.
    In addition to targeted demolition and aggressive energy 
saving initiatives, we will continue to privatize family 
housing and modernize dormitories, as well, to assure Airmen's 
quality of service.
    Air Force MILCON, family housing, and BRAC initiatives will 
continue to directly support these overall priorities that I 
outlined for you, sir. And we appreciate and we thank you for 
your continuing support of our Air Force, and particularly our 
Airmen and their families, who are devoted, I think, to 
defending the nation.
    I do look forward to your questions. With your permission, 
sir, I would like to make off-script comments.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0526E.046
    
    [GRAPHIC] [TIFF OMITTED] T0526E.047
    
    [GRAPHIC] [TIFF OMITTED] T0526E.048
    
    [GRAPHIC] [TIFF OMITTED] T0526E.049
    
    [GRAPHIC] [TIFF OMITTED] T0526E.050
    
    [GRAPHIC] [TIFF OMITTED] T0526E.051
    
    [GRAPHIC] [TIFF OMITTED] T0526E.052
    
    [GRAPHIC] [TIFF OMITTED] T0526E.053
    
    [GRAPHIC] [TIFF OMITTED] T0526E.054
    
    [GRAPHIC] [TIFF OMITTED] T0526E.055
    
    [GRAPHIC] [TIFF OMITTED] T0526E.056
    
    [GRAPHIC] [TIFF OMITTED] T0526E.057
    
    [GRAPHIC] [TIFF OMITTED] T0526E.058
    
    [GRAPHIC] [TIFF OMITTED] T0526E.059
    
    [GRAPHIC] [TIFF OMITTED] T0526E.060
    
    [GRAPHIC] [TIFF OMITTED] T0526E.061
    
    [GRAPHIC] [TIFF OMITTED] T0526E.062
    
    [GRAPHIC] [TIFF OMITTED] T0526E.063
    
    Mr. Edwards. Okay.
    General Schwartz. One relates to an observation for your 
consideration, as I have traveled since moving into this 
position last August, that on two trips to the U.S. Central 
Command Area of Responsibility, on both occasions, the 
limitation--the threshold of $750,000 for construction in the 
contingency areas is too low. I would ask you to consider--and 
Del can reinforce this--that in the neighborhood of $2 million 
to $3 million is probably the right threshold for--given the 
cost of construction, the availability of the material, and so 
on, not asking for broader application of that elevated 
threshold, but simply to the warfighting AOR.
    The second point, sir, is, as you indicated, Del moves on 
here shortly. He has brought a fact-based, analytical approach 
to our civil engineering discipline, leadership to our 
engineers and explosive ordnance disposal personnel.
    His service has been truly notable, and Suzie and I honor 
your service, as well. In fact, Del's wife is packing out 
today, as he is here testifying before the committee, so 
another indication of how this is a team sport.
    So, Mr. Chairman, again, thank you for your compliment. And 
I double your compliment to Major General Eulberg, sir.
    Thank you.
    Mr. Edwards. Thank you, General Schwartz for your 
leadership and service, for your comments today, and for 
honoring General Eulberg.
    General Eulberg, most of us in Congress realize that, the 
day after we retire, announce our retirement, the question then 
about us is, who is going to replace us? And we are forgotten 
pretty quickly. You will have left a legacy, in terms of 
housing, quality of life, as well as training facilities that 
will be serving our servicemen and women for decades to come.
    So thank you to you and your family for the difference that 
you have made.

                           INADEQUATE HOUSING

    As we begin questioning, I might ask a question I like to 
routinely ask all of our service chiefs and civil engineers, 
and that is, do you have a number, in terms of how many Air 
Force personnel are living in housing, whether it is barracks 
or family homes, that are determined as inadequate, using the 
Air Force's own standards? Not how many are planned to be 
brought up to adequate, or the funding is in the pipeline, or 
the process is ongoing, but, as of tonight, how many Air Force 
families and single personnel would be going to bed in a home 
or a barracks that doesn't meet your standards?
    General Eulberg. Sir, if I might address that question. As 
you are well aware, each time we testify before this committee, 
who has great support for our quality of service of our Airmen 
and their family, both of the dormitory plan, as well the 
housing, the Air Force has a dormitory master plan that we 
update every 3 to 4 years, as well as a family housing master 
plan that formed the basis for assessments of existing homes, 
as well as the investment needed to ensure that they are up to 
the standards that our Airmen and their families deserve.
    So with that as a preamble, we have just updated our dorm 
master plan for 2008 and our family housing master plan, which 
allows us to answer that question specifically.
    In the 2008 family housing master plan, we have 9,000 homes 
that are currently inadequate, of which----
    Mr. Dicks. That people are living in?
    General Eulberg. Yes, sir. And we have a plan most of 
which--the majority of those homes have already been funded. In 
fact, they all have been funded either with the overseas 
investment that we are making in this upcoming fiscal year, as 
well as what we have funded with housing privatization.
    We have a significant effort in the coming year with funds 
that we already have to privatize roughly 16,000 homes. And 
with that, we will have taken care of all inadequate family 
housing that are currently a part of the family housing master 
plan.
    Mr. Edwards. Can I ask you about that point----
    General Eulberg. Yes, sir.
    Mr. Edwards [continuing]. Barracks? For example, we had 
testimony regarding the Army, and they said, "Oh, you know, we 
are taking care of these needs with the funding that we have."
    But I visited Fort Hood recently, and they always call it 
Chaffee Village. And under the public-private family housing 
partnership program, it wasn't scheduled--those homes weren't 
scheduled for demolition until the year 2032.
    So you could say we have a plan in place to take care of 
all the soldiers of Fort Hood to see they are living in 
adequate housing, but if you look at the details of it, that is 
not very comforting to somebody that hears Chaffee Village 
won't be improved until 2032. And those homes, in my opinion, 
probably should have been torn down already.
    When you say they have been funded or plans to fund, did 
you mean that the dollars are in the pipeline to see that, 
within, what, the next 2, 3 years, or next couple of years, or 
next year, that they would all be living in housing that meets 
Air Force standards?
    General Eulberg. Yes, sir. Great question. Let me just go 
back and correct my last statement.
    I had 9,000 right, but there are 9,000 scheduled for 
privatization and about 2,000 overseas. So the total is 11,000. 
I apologize.
    Mr. Edwards. Okay. No, that is okay.
    General Eulberg. I had 9,000 in my head----
    Mr. Edwards. All right.
    General Eulberg. But your question is a good one, in terms 
of, how long does it take once funding is in the pipeline? What 
we have found is it takes, on privatization, the developer 
typically is given seven years for a development plan to take 
place.
    What we have seen over the last decade is the privatization 
developer accelerates construction and renovation and our 
average is about four years. Right now, our plan is that we 
will have all inadequates' construction complete by 2015.
    Mr. Edwards. 2015?
    General Eulberg. Yes, sir.
    Mr. Edwards. Is that for families and barracks?
    General Eulberg. No, sir, just families.
    Mr. Edwards. Just families, okay. And then since I 
interrupted you on the family housing issue, in terms of 
barracks, what are the numbers?
    General Eulberg. Yes, sir. Let me just back up. The 
dormitory master plan was just completed. We have 966 
dormitories in the United States Air Force. Of those, 106 are 
categorized as tier one dormitories.
    We do a tiering system. Tier one is our worst condition 
dormitories, which we would classify as inadequate, 106.
    Now, as I testified last year--and as you have been and the 
committee has been a great supporter in dormitories--in our 
2004 dorm master plan, we were on a glide path to do away with 
all inadequates by this year, which we accomplished based on 
that plan. So the commitment to our single Airmen remains as 
strong as ever.
    So what we did in the proceeding years is expanded the 
criteria in our dorm master plan. We have added a permanent 
party officer living in unaccompanied housing, as well as 
contractors, because contractors--all you have to do is visit 
Thule Air Base, Greenland, which is supported by contractors. 
They have been there, part of the mission, for a very long 
time. And so we have to address those living conditions, as 
well, especially in remote and isolated places like Thule Air 
Base, Greenland.
    So by adding those additional categories to our dorm master 
plan, we have 106 dormitories that are currently inadequate. 
Out of the----
    Mr. Edwards. That is not 106 individual units; that is 106 
dorms.
    General Eulberg. Dormitories. Yes, sir.
    Mr. Edwards. So that could be--how many rooms would that 
actually be, just approximately?
    General Eulberg. Sir, it varies. We build them on different 
sizes. Usually it is--our standard is 96 rooms per dormitory. 
Now, sometimes they are larger. For example, as you know, our 
request includes pipeline dormitories, as well as normal 
dormitories.
    Mr. Edwards. But using that number, approximately 
ballpark--we don't need the exact number--10,000?
    General Eulberg. Yes, sir.
    Mr. Edwards. Personnel living in inadequate?
    General Eulberg. Yes, sir, that is inadequate, ballpark 
figure. We will submit for the record the exact number. But 
that is roughly the figure.
    [The information follows:]

                  Airmen Living in Inadequate Quarters

    3,140 Airmen are living in Tier 1 ``inadequate'' dormitories. 400 
contractors are living in Tier 1 ``inadequate'' dormitories. The Air 
Force has 8,000 bed spaces in eight Basic Military Training dormitories 
at Lackland Air Force Base, Texas that are designated Tier 1 
``inadequate.''
    The Tier 1 designation means that the facility has reached the end 
of its useful life and is scheduled to be replaced or renovated. The 
Tier 1 designation is not an indication of habitability. Tier 1 
dormitories are maintained to be safe and comfortable.

    Mr. Edwards. Well, thanks to you, the numbers are a lot 
less than they were several years ago. I know we salute the 
progress for that. But we want to keep track of those that are 
still living in inadequate dorms or houses today, the fact that 
we made progress doesn't mean much to you, other than maybe the 
guy down the street has a better home than you do. But thank 
you.
    You were going to say something else?
    General Eulberg. Yes, sir, if you don't mind. The Air Force 
has invested about $1.4 billion in dormitories in the last nine 
years. We have another $1.3 billion programmed in the Future 
Years Defense Plan (FYDP). But it doesn't stop there, in 
military construction, now.
    We have also developed what we would call a bridging 
strategy, is where we have targeted restoration and 
modernization funding against those dormitories to ensure we 
don't take risk in that area. As you saw in the preceding four 
years, we had some deterioration in the condition of 
facilities, so we want to make sure we stop that.
    So what has happened, since the end of last fiscal year, 
the Air Force has invested $188 million in the last year alone 
in O&M dollars, maintenance and repair funds. We have also set 
aside $100 million a year for the next two years in O&M 
restoration and modernization funds with a $50 million from 
then on out in the FYDP.
    These will be targeted towards the tier one dorms that I 
discussed earlier, so what we are doing is a balanced approach 
between O&M, maintenance and repair funds, and MILCON funds to 
make sure that we stay on top of this critical quality of 
service area.
    General Schwartz. The strategy, I guess, could be explained 
in a few words, is that the good ones stay good.
    Mr. Edwards. Right. That is important, obviously.
    My last question would be, you said 2015 is a scheduled 
date to have everybody in standard family housing or better, 
adequate housing. What would be the date for the dorms at your 
present glide path?
    General Eulberg. Sir, we have the same goal. By 2015, we 
will have all inadequate dorms addressed either through 
military construction or O&M funding, with one exception.
    Right now, the funding that we have in will address all of 
them except for Thule Air Base, and that is the unknown. Of the 
106 inadequate dorms in our inventory today, 41 are at Thule 
Air Base. And we have asked for some help from the Army Corps 
of Engineers to come up with a new design standard, because our 
standard dorms for Airmen, the quad concept, does not work at 
Thule Air Base, Greenland.
    And so we have asked for some help. That was built in 1951, 
as you may know, sir, and that is a unique environment. So we 
have asked for some support from the corps on coming up with a 
standard just for Thule Air Base.
    So with that as a caveat, not knowing when we are going to 
be able to do that and how much the cost is, by 2015, we will 
have----
    Mr. Edwards. We will see if we can get Mr. Dicks up there 
in February to take a look at that.
    Mr. Dicks. I will be glad to--I have been there.
    Mr. Edwards. In February?
    Mr. Dicks. We went to the North Pole.
    Mr. Edwards. Thanks.
    Thank you very much, General.
    Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    For the second straight year, Chief, the request has been 
explained lower in somewhat the same verbiage. When you say 
``mitigate potential shortfalls in MILCON facilities and 
maintenance funding by bolstering our restoration and 
modernization programs as much as possible,'' it almost sounds 
like one of our press releases when something back home doesn't 
go right, the way we explain it.
    And I just wondered if this is a Pentagon, or OMB decision. 
What filter is this coming through? I know that is a tough 
question for you to ask.
    General Schwartz. No, it is our approach. And this didn't 
have anybody else's English on it.
    You know, the budget--our facility effort here is part of a 
larger tapestry of trying to deal with both people issues--that 
is clearly the first priority--modernization demands and so on.
    And so we think we have achieved a reasonable balance. And 
it is true. If we had more funds, we might well invest 
additional resources in infrastructure. But as you are well 
aware, we have to make choices. And I think that the way we 
have postured infrastructure certainly is solid relative to 
some of the other choices we have made, let's say, on the 
innovation side.
    So I think this is a responsible proposal for your 
consideration, sir.

                      GUARD AND RESERVE COMPONENTS

    Mr. Wamp. Well, you give a good report on housing. And I 
applaud your leadership there, given the resources that you are 
working with.
    Let me ask you about reserve components, particularly. You 
have 30,000 Airmen total deployed as part of Operation Enduring 
Freedom and Iraqi Freedom. The Air National Guard provides 
almost half of the Air Force's tactical airlift support, combat 
communication functions, aeromedical evacuations, and aerial 
refueling, and has total responsibility for air defense of the 
United States.
    The Reserves, 33 flying wings, 7 groups, across 63 
locations, 100 percent of the Air Force aerial spray and 
weather reconnaissance capabilities, 60 percent of aeromedical 
evac, 46 percent strategic airlift capability.
    And according to the Commission on National Guard and 
Reserve, the shares of the total U.S. Air Force budget, though, 
for the Guard and Reserve are 6 percent and 3 percent.
    So, based on your operationalized reserve components and 
their contributions to this persistent conflict, what 
guarantees are in place to ensure that both the Guard and 
Reserve MILCON requirements are carved out and represent a fair 
and equitable share of the entire construction request?
    General Schwartz. There are three approaches on this that I 
think are worthy of note. The first and most important is, if 
there is new mission, if it is Air National Guard--and, for 
example, there are several new unmanned aircraft systems--new 
mission requirements for which the Air National Guard in 
California and in Arizona, if I recall correctly, are getting 
MILCON. New mission gets MILCON regardless, without 
consideration to component.
    The second aspect of this has to do with the amount of 
physical plant. Now, when you are maintaining plant, you know, 
we have an approach to try to maintain investment as a 
percentage of the plant replacement value. And we do, I think, 
a credible job in ensuring that the Air National Guard, as well 
as the Air Force Reserve, obtain their fair share, if you will, 
of that plant replacement value, relative to what the active 
duty receives, too.
    The third part, I think, is that there are new efforts 
underway that really will make this problem less of an issue as 
we go forward. It is called the Total Force Initiative. And, 
for example, where the active duty and the Air National Guard 
or the active-duty Reserves share the same facilities, whether 
it be security forces or whether it be flying operations or 
what have you, that the days of independent facilities on the 
same installation are behind us.
    And so where the components increasingly share facilities, 
they will have exactly the same--you know, enjoy the same 
quality of service as does their other component. Those are the 
three major pieces of our effort, sir.
    Mr. Wamp. Mr. Chairman, I have other questions, but I will 
wait for the next round. We have three other members on the 
other end of the table.
    Mr. Edwards. Mr. Dicks.

                              JOINT BASING

    Mr. Dicks. Thank you, Mr. Chairman.
    And, General, good to see you again. I appreciated your 
coming by to have a conversation.
    Let me ask one general question. In our state of 
Washington, McChord Air Force Base and Fort Lewis are going to 
be combined into a joint base. And I know the Air Force had 
some concerns about this; Secretary Anderson came in to see me 
several times.
    Can you kind of give us a status on this and how the Air 
Force feels about these joint bases? And the concerns that were 
expressed, about whether this would adversely affect your 
ability to do your mission? And I would just like to know kind 
of how you feel since you have taken over about this issue.
    General Schwartz. We start big and get small----
    Mr. Dicks. Right.
    General Schwartz [continuing]. Sir. I favor those bases. It 
never made sense to me on why we would have at Fort Dix, and 
McGuire Air Force Base, or at McChord Air Force Base and Fort 
Lewis, or other--Fort Bragg and Pope Air Force Base, 
essentially adjacent installations, why we would have two 
separate refuse contracts or two separate this or two separate 
that, when there was the opportunity to have one contract that 
served the adjacent military installation, presumably at some 
savings to the taxpayer.
    Mr. Dicks. Right.
    General Schwartz. And there are many opportunities in this 
regard, which I think are certainly a positive outcome from 
joint basing.
    Additionally, the reality is that each of the services is 
looking for ways to maximize their installation dollar. And 
partnering is a good strategy for achieving that outcome.
    Now, the bottom line is, is that the platform--that, for 
the Air Force, for sure--and this is probably what former 
Assistant Secretary Anderson shared with you earlier--is that 
our Air Force bases typically are the platforms from which we 
operate, you know, the Army to a somewhat lesser extent, the 
Navy to a somewhat lesser extent, so we worry about our 
airfields and the places from which we project the nation's 
power.
    And early on, before this thing matured, there were some 
issues with regard to, how prominent would mission be on a 
joint base? Would it be accorded the same prominence that we 
felt was necessary?
    I think we have--the process has matured. We now have 
common output standards for--that all the Services must meet, 
regardless of who is in charge. And as you are aware, sir, 
there are six joint base initiatives, six of which the Air 
Force is in charge and six of which others have.
    And in the case of Fort Lewis specifically, there was a 
recent meeting in April where the two teams had reached 
agreement. They will forward the memorandum of agreement, which 
codifies this understanding between the two installations, on 
who does what, who is in charge of what, who invests, who 
supports, and so on, will come to the building at the end of 
this month for final approval.
    And my sense is that we are on the right glide path. I will 
be candid: There was some anxiety that a three-star over a 
colonel in the chemistry was--might be a problem. I think we 
have sort of settled that.
    You know, there is--we have enough attention on--the Army 
has made an extra effort to ensure that the colonel commander 
of the 62nd Wing at McChord Air Force Base has full access over 
at Fort Lewis and can have his needs in the base and the Air 
Force requirements presented and dealt with in a responsible 
way.
    So long answer to your short question is, my sense is, we 
are on a good glide path there. And I favor the joint basing 
initiatives.
    Mr. Dicks. Good.
    General Schwartz. Yes, sir.

                          MODULAR CONSTRUCTION

    Mr. Dicks. Let me ask one quick question concerning modular 
construction, The Army is using it. We are using it at Fort 
Lewis. It looks fantastic. Now, there has been some issue 
raised about how long it will last. What is your take on that, 
General?
    General Eulberg. Sir, as you well know, modular 
construction has improved drastically in the last 10 years. And 
so it just depends on a lot of factors on whether or not you 
use it. The Army is pushing it for a number of reasons.
    Mr. Dicks. They are doing it at Fort Lewis, and they are 
probably going to do it at McChord, I would think.
    Mr. Edwards. What kind----
    Mr. Dicks. It looks fantastic. I went in these units. 
General Soriano and the wives of the sergeants, they have said 
it is the best housing they have ever had over 25 or 30 years 
in the Army.
    General Eulberg. Sir, if you are specifically talking about 
the housing at McChord-Lewis, as you know, through your 
leadership, we now have a joint venture, if you will, with 
McChord Air Force Base part of Fort Lewis.
    The construction there, they had some early on issues with 
modular construction at Fort Lewis. The developer has corrected 
those problems. We are getting a quality product, and the Air 
Force is very happy with it.
    Mr. Dicks. So you think this will be okay for McChord, too?
    General Eulberg. Yes, sir, we do. As a matter of fact, we 
have 150 Army families living in Air Force houses now. And as 
you know----
    Mr. Dicks. See, I wouldn't let them tear them down, 
General. I just thought that the numbers of houses to be 
demolished were too extreme. It was like 900 units. They were 
going to go to 250, and I said, no, wait. You have too many 
people who want this housing. And now the Army is in that 
housing, and some of them, we had to take down, but we worked 
it out.
    General Schwartz. And this is what----
    Mr. Dicks. It wasn't easy, by the way.
    General Schwartz. No, sir, I understand.
    Mr. Dicks. It was like the Air Force was fighting the last 
battle. [Laughter.]
    General Schwartz. As is often--change is difficult. I mean, 
change is hard. And, you know, you have to get the right people 
with the right mindset and the right oversight.
    Mr. Dicks. I told the colonel out there, I said, ``Have you 
ever been to Fort Lewis? Have you ever seen this housing?'' And 
he said, ``No.'' And this is--he told me later, he said, ``I 
drove down there, and I was prepared just to hate this housing, 
and it was terrific.''
    General Schwartz. One quick input, sir, just quickly. 
Modular also has a potential place in administrative spaces. 
And, again, it depends on how long you want the thing to last, 
what its purpose is, and so on. So, again----
    Mr. Dicks. What about that, on the life cycle? Is there a 
difference between modular and other forms of construction, in 
terms of how long they last?
    General Eulberg. Sir, as a general rule, modular has 
sustainment issues over the life cycle. Yes, sir. And so there 
is----
    Mr. Dicks. But this new stuff--it looked pretty good to me.
    General Eulberg. Yes, sir. It is. And as I mentioned, a lot 
of the quality issues, which you join certain parts of the 
building together, is a critical aspect. And they have worked 
all those issues out. So I don't anticipate any long-term 
problems.
    Mr. Dicks. Good.
    Thank you, Mr. Chairman.
    Mr. Edwards. How much cheaper is it to build a modular 
home, the ones we are talking about, compared to the 
conventional construction?
    General Eulberg. Sir, it depends on location. However, as a 
general rule, it is cheaper, anywhere from 8 percent to 10 
percent cheaper.
    Mr. Edwards. Eight percent to 10 percent cheaper?
    General Eulberg. Yes, sir.
    Mr. Edwards. Okay, thank you.
    Mr. Dicks. It was cheaper in this case, but people thought 
it was better than anything they had ever had before.
    Mr. Edwards. That is good to hear. Thank you, Mr. Dicks.
    Mr. Crenshaw.

                          JOINT CARGO AIRCRAFT

    Mr. Crenshaw. Thank you, Mr. Chairman.
    And thank you all for being here today. I just have a 
question about Joint Cargo Aircraft that originally was the 
Army and the Air Force program together. And the 2010 budget 
made some major changes, transferred, as I understand it, from 
the Army to you all to head it up, and that they reduced the 
number of planes they were going to buy by half.
    And I think they wanted to buy 16 this year, and now the 
request is for 8, and then, again, transferring the program to 
you all. But they said that there was going to be an assessment 
done.
    And I wondered, well, what is the assessment going to do? 
Is it going to tell you how many you should buy? Or is that 
going to come in the QDR? But why all those changes and what do 
you think is going to be the outcome?
    General Schwartz. Congressman, thanks for the question--
what is going to transpire is a couple of things. First of all, 
the Army and the Air Force have to get together on 
fundamentals, which is transferring program responsibility. 
That is not an instantaneous effort. That probably won't occur 
until the fall of 2010.
    So the Army is going to continue in the lead on the 
procurement actions for this program, and we will be on their 
wing. And then later, in 2010, there will be a transfer of 
responsibility.
    The other aspect of this is how the Air Force will support 
the Army. In the end, that is what this is about. It is time-
sensitive, mission-critical re-supply of elements, and we 
typically as an Air Force have operated on the notion of 
something called general support.
    General support is a very efficient way to run a railroad, 
if you will. You look for full airplanes or the fullest 
possible airplanes. You run an airline in a way to be as 
effective and as efficient as you can.
    On the other hand, direct support is dedicated support to a 
particular maneuver unit, typically. And that maybe is not as 
efficient, but it satisfies the need of that maneuver 
commander.
    We need to be flexible as an Air Force enough to do both. 
And my commitment to General George Casey from the Army was 
that, if this thing unfolds as it has, as the Secretary of 
Defense decided, we will do the direct support mission in the 
fashion you need it done, not the way we are comfortable doing 
it necessarily, but the way you need it done. That is the 
second piece.
    The third piece--and I know there is a lot of angst about 
this--there are 18 locations that had some stake in the Joint 
Cargo Aircraft (JCA), 12 Army National Guard and 6 Air National 
Guard.
    And, obviously, when we went from 78 aircraft to 38, there 
was some concern about what the footprint is going to be. And 
we don't know the answer to that yet; that is still under 
discussion both between ourselves, the Army, and the National 
Guard Bureau, General Craig McKinley.
    But I can tell you that the number 38, it is not less than 
that. There will be ample opportunity through the QDR and in 
follow-on efforts here that we have to do to decide what the 
right number is.
    The Secretary of Defense's view was that we could use 
existing C-130s to do some of this work. He is probably right. 
But we need to confirm how much that is. I am not sure it is 
just 38 JCAs. So there is still more----
    Mr. Crenshaw. So there is still--because again, we heard 
yesterday--from Mr. Hale, the new DoD Comptroller, he said--I 
asked him a similar question. He said, ``Well, 99 percent of 
the work can be done by C-130s.'' And I am thinking----
    General Schwartz. If that were the case, you know, the 
helicopters wouldn't be working as hard as they are and we 
wouldn't have quite as much contract lift----
    Mr. Crenshaw. That is the other thing General Casey said 
when he was here. I think they are spending $8 million a month 
leasing this kind of aircraft--and, of course, I think General 
Casey would say, look, it is not my job to figure it out. I 
just know what I need.
    General Schwartz. That is right.
    Mr. Crenshaw. And somebody else has to decide whether to 
build them or lease them. But if we are spending that much 
money, then I think your point is that we are probably going to 
need them.
    General Schwartz. The number 38 basically came from 
replacing the existing C-23 Sherpas. So there are 42 Sherpas in 
the inventory; 38 was considered a fair sort of replacement. 
Whether it is more than 38, though, I think it is still to be--
--
    Mr. Crenshaw. But is that--do you know--I don't know what 
assessment means, we are going to assess it. Do you think they 
will come up with this assessment before the QDR?
    General Schwartz. It will certainly be a result that will 
affect the fiscal year 2011 budget process.
    Mr. Crenshaw. I got you.
    General Schwartz. Without a doubt.
    Mr. Crenshaw. Thank you very much.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Bishop.

                          MOODY AIR FORCE BASE

    Mr. Bishop. Thank you very much.
    Welcome, Generals. I am particularly interested in Moody 
Air Force Base. We have had a number of difficulties down there 
with the construction of the privatized housing at Moody, a 
real, real problem, especially for some of the subcontractors 
who were not paid. And, of course, the completion has been 
delayed.
    It is my understanding that it is back on track now and 
that some local contractors are being utilized to fulfill many 
of the work opportunities resulting from the contract.
    Can you give us an update on the status of how the claims 
under the previous contract were resolved, and what the current 
status is of the performance and the completion of the project? 
Are small or disadvantaged contractors being utilized? Overall 
in the Air Force, to what extent are small and disadvantaged 
contractors utilized?
    General Schwartz. Go ahead, Del. Why don't you----
    General Eulberg. Sir, thank you for that question. And as 
you know, there is a long history with this project, and we 
have now awarded a new one. There was--or rather a sale of the 
project. It is called the Air Force Falcon Group. And they took 
over the--or the sale took place in November of last year.
    It is part of a four-base group. Moody is one of them. All 
the claims associated with all four bases that have been 
justified through the contracting process and legal process, 
all claims have been paid.
    And the good news, also, is, is the contractor is making 
great progress at all four bases, both Hanscom, Little Rock, 
and Moody, and Patrick Air Force Bases. And specifically at 
Moody Air Force Base, they are completing the site work on 
units that were stopped in progress by American Eagle, so those 
are underway.
    General Schwartz. Same is true at Little Rock Air Force 
Base.
    General Eulberg. Same thing at Little Rock, Hanscom, and 
Patrick Air Force Bases. So great progress, and the contractor 
is doing a good job with all of that.
    Sir, does that address your question?
    Mr. Bishop. Yes. I understand from the local folks that 
there are local contractors participating as subs.
    General Eulberg. Yes, sir, there are.
    Mr. Bishop. Regarding utilization of small and 
disadvantaged businesses, I would be interested in hearing what 
is happening at Moody and what is happening overall in the Air 
Force there.
    General Eulberg. Sir, we will have to take that for the 
record.
    General Schwartz. We will get that back to you, the exact 
performance, both respect--with respect to this particular 
project, but more broadly.
    [The information follows:]

             Small and Disadvantaged Contractor Utilization

    Housing privatization is authorized by the 1996 National Defense 
Authorization Act (Public Law 104-106). Projects under housing 
privatization are real estate transactions, and not federal contracts; 
therefore, they are not subject to Federal Acquisition Regulations. 
Although the project owners, which are private businesses, may 
subcontract with small and disadvantaged businesses, there is no 
obligation to do so, nor are they required to provide the Federal 
Government with information regarding the extent to which their 
subcontractors are small and disadvantaged businesses. In these 
circumstances, the Air Force has no authority to mandate quotas or 
goals, or direct project owners to utilize small and disadvantaged 
businesses on housing privatization projects.
    The data below represents the Air Force utilization, in contracted 
dollars, for small businesses (SB) and small disadvantaged businesses 
(SDB) at Moody Air Force Base, Georgia and Air Force wide for fiscal 
year 2008 and fiscal year 2009 year to date (YTD):

----------------------------------------------------------------------------------------------------------------
                                       Eligible dollars      Awarded to SB       %        Awarded SDB        %
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2008:
    Moody AFB.......................         $48,743,916         $39,638,936    81.3         $19,621,069    40.3
    Air Force Wide..................      57,181,926,908       9,345,356,505    16.3       3,556,482,418     6.2
*Fiscal Year 2009 YTD:
    Moody AFB.......................          27,446,624          19,968,129    72.7           6,957,782    25.4
    Air Force Wide..................      40,909,206,246       5,197,461,346    12.7       1,843,956,787    4.5
----------------------------------------------------------------------------------------------------------------
* The Small Business and Small Disadvantaged Business utilization percentages for the first nine months of
  fiscal year 2009 closely match the utilization percentages for the first nine months of fiscal year 2008.


    Mr. Bishop. Thank you. I appreciate that.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Bishop.
    Mr. Berry.
    Mr. Berry. Thank you, Mr. Chairman.
    First of all, thank you for your service. General Schwartz, 
I noticed you did two tours at Little Rock.
    General Schwartz. I did.
    Mr. Berry. It is good to hear that----
    General Schwartz. I married--my wife comes from Little 
Rock.
    Mr. Berry. Is that right?
    General Schwartz. That is right.
    Mr. Berry. Well, I trust she turned out to be a good 
Arkansas girl.
    General Schwartz. She is still a Razorback fan and, in 
fact--Razorback football----
    [Laughter.]
    Mr. Berry. But we do appreciate your concern and commitment 
to the quality of life of our men and women in uniform. We 
appreciate that very much. It is good to hear that we have 
pretty much resolved the issues with that American Eagle crowd.
    General Schwartz. Yes, sir.
    Mr. Berry. It is good to know that it is back on track and 
moving in a good direction. We appreciate what you do for 
Little Rock Air Force Base. And I know that the men and women 
that serve there appreciate it very much, and we thank you.

                       NUCLEAR-RELATED FACILITIES

    Mr. Edwards. Thank you, Mr. Berry.
    General Schwartz, in your written testimony, you talked 
about one of your priorities is to reinvigorate the Air Force 
nuclear enterprise. And you say, ``A critical aspect to this 
effort includes the infrastructure and facilities providing 
that necessary life cycle installation support to this vital 
mission.''
    I think you go on to say you are conducting facility 
condition assessments of all nuclear-related facilities. Could 
you--obviously, this is a terribly important responsibility of 
the Air Force. We are all aware of some of the issues that 
cropped up over the past year.
    So where are you in that assessment? And is any of that 
incorporated into your 2010 military construction budget? Or 
will additional facilities or improvements in facilities be 
pushed out to the 2011 or later budgets?
    General Schwartz. I think the short answer on the mission 
facilities specifically, launch facilities and so on, that 
assessment is complete but we are still working assessments for 
weapons storage areas and other nuclear related facilities. We 
know the status of each of our missile launch facilities that 
control facilities that are associated with it and so on, and 
likewise at the bomber bases.
    And we are okay on those mission facilities. In other 
words, there is no major requirement other than maintenance and 
standard maintenance required for those at the moment.
    There are a couple of areas that are not in the MILCON. 
Now, there is $45 million in the 2010 proposal, recommendation 
to you, for this particular mission area. About four items are 
included in that.
    And, for example, at Minot Air Force Base, there is a 
training facility MILCON, and also at Minot Air Force Base, 
there is a munitions item involved. But there is also a 
substantial commitment of $73 million, if I recall correctly, 
that is related to and involves both security, armored 
vehicles, weapons related expenses, and minor facilities 
renovation related to the weapons storage area at Barksdale Air 
Force Base.
    We are reopening the weapons storage area at Barksdale Air 
Force Base. And that is not MILCON dollars. That will be 
essentially O&M or aircraft procurement, sort of special 
equipment dollars.
    But that is the angle that we are on. We have assessed the 
mission facilities. We know what the status is. We have a plan 
for maintaining those facilities and in the longer term, 
perhaps, to replace them. It is not required right now. Right 
now, the focus is on getting Barksdale Air Force Base re-
established with its weapons storage area, for example, and 
taking care of some of the needs at Minot Air Force Base.
    F.E. Warren Air Force Base and Malmstrom Air Force Base are 
okay for the moment, sir.
    Mr. Edwards. Okay. So there are no important, immediate 
needs out there? I would ask if those needs arise, given the 
pre-eminence of that responsibility to be good stewards of our 
nuclear weapons, if there are any needs that pop up after the 
2010 budget has been put to rest, please----
    General Schwartz. Understood.
    Mr. Edwards [continuing]. Please let us know, because we 
know that does happen when you have to start putting these 
requests together months, if not a year, a year-and-a-half 
before, and things change. And particularly in that area, we 
don't want to cut any corners.
    General Schwartz. And we won't cut corners.
    Mr. Edwards. We don't have time to get into all the details 
of storage of nuclear bombs. We are in an unclassified setting, 
so there are probably some things you can't say.
    But normally would you have tactical weapons in the same 
storage area as nuclear weapons? Normally those would be----
    General Schwartz. Segregated.
    Mr. Edwards. We segregate them.
    General Schwartz. Absolutely.
    Mr. Edwards. So you have all the----
    General Schwartz [continuing]. And you have training 
devices also separated from the real ones, which was a problem 
we had in one of the episodes last year. So, you know, that was 
not so much a facility issue as it was a compliance issue----
    Mr. Edwards. Okay. Okay. So subject to any additional 
concerns that are raised by an ongoing review of facilities and 
operations, you have what you need, in terms off facilities----
    General Schwartz. We do.
    Mr. Edwards [continuing]. To protect our nuclear stockpile?
    General Schwartz. And, in fact, in the broader sense, we 
made sure that 100 percent of the requirements, whether it be 
for facilities or operations, or whatever it was, training, you 
name it, 100 percent funded.
    Mr. Edwards. Okay.
    General Schwartz. So, I mean, we were not going to take any 
risks there for obvious reasons.
    Mr. Edwards. Thank you.
    I reserve my other questions for additional rounds.
    Mr. Wamp.

                              ENGINEERING

    Mr. Wamp. General Eulberg, while we have you, I want to 
hear from you about engineers. Obviously, this budget--and the 
chief is right having you here to present this budget. This is 
principally an engineering budget. And I think you have 60,000 
people within the Air Force Civil Engineering career field, and 
you have 3,000 civil engineers deployed between Iraq and 
Afghanistan.
    I represent the Y-12 National Security Complex, speaking of 
the nuclear piece of the deterrent. But we have a guy there 
named Kevin Smith, who has done an extraordinary job of 
bringing young people into the military with a commitment that, 
if you go and serve and get your training at the highest level, 
you have a job here when you come back.
    And we had the STEM initiative on science, math and 
engineering, where we are just grossly deficient as a nation. 
And I would think the United States Air Force may be better 
than any other organization that is prepared to help us meet 
those needs through the training, the experience that you 
actually provide.
    Give us the state of engineering right now, as you go off 
into the sunset, I hope to enjoy the rest of your service to 
others, but that has got to be a big thing, especially in your 
heart, given your background.
    General Eulberg. Sir, thank you very much for that 
question.
    We do have 60,000 personnel assigned in Air Force Civil 
Engineering. They are part of an Air Force team and also part 
of a joint team. And as you mentioned, we do have 3,000 
engineers deployed currently in the area of responsibility 
doing various missions, 43 percent of which are doing joint 
expeditionary tasking alongside their other Service brethren.
    So it is truly a joint undertaking. There has been a number 
of initiatives on the joint side that--with the other 
engineering services chiefs, we have been able to make great 
headway in the last couple years.
    But the civil engineering corps, as you know, is about half 
civilians, and as well as enlisted and officer corps, and as 
well as our contracting partners. And we are able to do what we 
can, is because it is a team of civilians, military, as well as 
contracting support.
    So as we go forward, I will tell you, I am very, very proud 
of the Air Force engineering community and their contributions 
to the missions that our nation has asked us to perform. The 
dedication of the young men and women are just phenomenal. We 
have a number of wounded warriors coming back, as well as those 
killed in action----
    General Schwartz. In fact, I met one on Sunday evening who 
came back who was in explosive ordnance disposal, a young man 
who stepped on a landmine dealing with unexploded ordnance in 
Afghanistan, an engineer. And he is thankful that his wife was 
with him. It was good to get him back.
    But it is an example of what these kids are doing. They are 
on almost a one-to-one dwell. In other words, for the period of 
time they are deployed, that is with their home, and they are 
back into it again. That is a high-stress career field.
    They are highly valued, particularly now as we build in 
Afghanistan. There is not enough concrete in that country to 
put the air down, and it is not just Air Force air. It is Army 
air. It is Marine Corps air.
    And so, in particular, the engineers are, again, with their 
brothers, the Seabees and the Army folks, again, they are doing 
horizontal construction. And I think it is a tribute, again, 
that, you know, the people like me tend to get the credit for 
what happens, you know, flying airplanes or whatever it is. And 
the truth of the matter is, it is the--you know, it is the 
folks that lay concrete that make is possible.
    Mr. Wamp. But, General Eulberg, are more young airmen 
interested in the engineering side than in the past? Do we see 
a trend there?
    General Eulberg. Sir, we have been very fortunate in the 
Air Force, is that we have been able to meet all of our 
recruitment targets and accessions across all enlisted Air 
Force Specialty Codes (AFSCs), as well as in the officer corps. 
And so we have been able to maintain that.
    And so I don't see any problem in that. We went through a 
retention issue a couple of years ago, where we had less than 
50 percent of our captains staying in. It has improved since 
then. But I don't see any major problems now or in the future, 
sir.
    General Schwartz. Just one example, Congressman. The new 
Chief Master Sergeant of the Air Force, Chief Roy, who will 
take over the responsibilities at the end of June, is a civil 
engineering guy, just a case in point. That is where he started 
out.

                               DONATIONS

    Mr. Wamp. General Schwartz, I have asked all of our 
services about this problem that I learned of from General 
Casey, and that is some of the kind of regulatory hurdles of 
just--of benefits being provided to wounded warriors and our 
military from the private sector. And you have probably heard 
about this.
    But the joint ethics regulation enables injured and ill-
served members and their families and their members to receive 
unsolicited gifts from non-federal entities.
    Do you know of anything else that Congress can do to remove 
barriers to enable support for our wounded warriors from non-
federal entities? And are you able to provide minimal 
logistical support--transportation, donated items, warehousing, 
or donated gifts--to assist these entities when they provide 
resources to our wounded warriors?
    General Schwartz. Congressman, I think there is a balance 
in this. There are some things we don't do. We don't solicit. 
We can't do that. And, likewise, we don't take cash donations. 
I mean, there are some things we won't do.
    But absent those sort of black-and-white sort of 
distinctions, what we do now is simply run the proposal by our 
ethics people. And unless there is some, you know, cause for 
concern, we are okay, we are good to go.
    So the way we practice this is the obvious things we--you 
know, that are black and white, we won't do. And then we do 
engage our ethics counselors to make sure that it is okay.
    Now, with respect to transportation, I do have some 
experience in this area. You know, we can't package things and 
so on. We can deliver stuff to the theater--there are certain 
exceptions to that, for example--movements, and if we move some 
stuff to Afghanistan for Afghan refugees, and we will probably 
do the same thing for Pakistan here coming up.
    But in terms of donations for things that go forward, we do 
provide minimal logistics support. And I think, you know, there 
is no lack of willingness to do so.
    Again, it is just trying to make sure that we don't favor 
one category of donation or one agency more than another. I 
think that is the basic sensitivity.
    Mr. Wamp. Let me just say, as I close, I am in my final 
term, eighth term here in the House, and I have not done too 
much traveling, but I have done a significant amount. And I 
think it is important that members of Congress fight through 
the public disdain for that, because it is important that we 
have 535 ambassadors for our country around the world, instead 
of just the executive branch, making friends and building 
relationships and understanding needs.
    And so I have probably done a moderate amount of travel, 
but I just want to thank all the men and women of the United 
States Air Force for the way that they deal with members of 
Congress, as we go and see the world.
    You know, we are criticized for it, but it is unfortunate 
that we are, because it is really, really important. And the 
United States Air Force just does an extraordinary job taking 
us places that we need to be.
    And I have been to tough places like Islamabad, and it is 
sometimes not easy to get in and out. But I have never had a 
bad experience, and I have always been amazed. So I am 
grateful.
    General Schwartz. Well, sir, it is our Service. It is what 
we do. I would mention, though, that I agree with you.
    And I travel some, as well, because you do not--someone 
once said that Washington, DC is the only city in the country 
that is surrounded on all sides by reality. And so the effort 
to get out of town and get ground truths is vital for me and, 
of course, vital----
    Mr. Wamp. Thank you, Chief. Well said.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Berry.
    And let the record show that Mr. Berry, in his previous 
comments, said that, in good years and bad years, he is always 
with the Razorbacks. Right? All right. I just want to be sure 
the transcript--accurate statement that the gentleman----
    [Laughter.]

                        LACKLAND AIR FORCE BASE

    General Schwartz, let me ask you about Lackland, where you 
do your training for your Airmen. As I understand, earlier this 
week, the Air Force announced that the preferred site for the 
24th Air Force would be Lackland. Could you further explain 
where we are on that process? And then add to that, at what 
point we would know whether there are any additional military 
construction needs tied into that decision?
    General Schwartz. Sir, the key thing is that we announced 
last week that, as you indicated, that Lackland Air Force Base 
is our preferred alternative--Colorado Springs, Peterson Air 
Force Base, is a viable alternative for environmental 
assessment purposes. That environmental assessment is underway, 
and we should have that back in the July timeframe.
    And as you are aware, I know that there is a 30-day comment 
period which follows the finalization of the environmental 
assessment. And then, at that point, if there are no major 
hiccups, in the August timeframe, we will finalize the 
decision.
    The process we have in the Air Force--and, frankly, it is a 
maturing process--what we do, we have a set of criteria that we 
use to sort of examine options for bedding down either a new 
mission or relocated mission.
    And it includes things like mission synergy that is one 
place more conducive to performing the mission than another. 
What are the facilities on an installation that could 
accommodate it at least cost? Is there transportation access? 
Is there human capital on the installation or in the adjacent 
community that would, again, support that particular mission?
    Those are the kinds of considerations. And what we do is, 
we go to the major command that is responsible for that 
activity, in this case, the Air Force Space Command. And they 
got the criteria. They gave the Secretary of the Air Force and 
myself a short list of installations that they felt were in the 
ballpark with those criteria.
    And there were six. And we went out and subsequently, after 
the secretary brought into those six, to do actual site surveys 
to assess physically the capacity of the installation to absorb 
the mission, and so on and so forth.
    That comes back up through the major command as a 
recommendation, and, based on a criteria and a way to sort of 
objectively score the assets and the liabilities of each of the 
installations, comes back up to the headquarters for an 
executive review, and then ultimately the Secretary of the Air 
Force and I get together to make a call on what we think is the 
best place.
    And as you indicated, Lackland Air Force Base, San Antonio, 
was identified as the--what we think is the best place for this 
new mission, subject to environmental analysis and so on.
    What I would also like to mention, though--and this came 
out of the preceding announcement on Global Strike Command, 
that--in an effort to be transparent and open, one of the 
unintended consequences of that was we began--when we had this 
shortlist, we have created an incentive, unintentionally, for 
communities to compete against each other. And that is not a 
good thing.
    And so what we are trying to do is to figure out a way to 
be open and transparent, but to manage expectations in a way 
that it doesn't force communities to mobilize and spend funds, 
and do lots of different things to try to persuade us where to 
go. That is not a good thing.
    And so what we are going to try to do is thread the needle 
on this, be objective, be as transparent as we can, and also 
keep folks sort of breathing through their noses on not being 
too aggressive in trying to market or sell their communities, I 
mean, because what we want to avoid having a situation where 
people feel like they desperately lost. And so we want to 
manage this in a way that minimizes that likelihood.
    So it is objective, sir. It does--the senior leadership 
does apply some judgment. We did that in the global strike 
case. And it was--the 24th Air Force case was much more clear-
cut. The scoring was not close. And, therefore we made that 
announcement.
    And, again, we think that we will have--the environmental 
assessment for Global Strike Command was complete on the 12th 
of May. We put that out for a 30-day comment period. So mid-
June, we should have a final on global strike. And I would say 
probably mid-August, toward the end of August, we will have a 
final on the 24th Air Force.
    Mr. Edwards. Okay, mid-July. Thank you.
    So you don't foresee, then, any MILCON requests----
    General Schwartz. No.
    Mr. Edwards [continuing]. Tied into that need for fiscal 
year 2010?
    General Schwartz. If there is anything--yes, sir, if there 
is anything that we didn't get in that initial site survey, it 
will be in 2011.
    Mr. Edwards. Okay.
    General Schwartz. Part of the decision process was 
minimizing MILCON requirements.
    Mr. Edwards. Okay.

                      BASE REALIGNMENT AND CLOSURE

    My final question deals with BRAC. I am constantly learning 
new aspects of BRAC. Let me just hypothetically say you are at 
one installation, and BRAC 2005 moves you to another 
installation.
    The BRAC process itself didn't necessarily require the 
Department of Defense, did it, to replace hangar for hangar, 
facility for facility? I mean, for example, you could have X 
number of aircraft with hangars at your present site in some 
location in the world or in the country--say it is CONUS--and 
then you are asked to move to another location.
    Does the BRAC process, by requirement, have to replace that 
same number of hangars? Or could you end up being--whether it 
is hangars or whether it is other facilities, if we were fully 
funding BRAC, you could still end up short facilities that you 
need. Is that my understanding?
    General Schwartz. Well, I can only--and Del probably can 
give you the expert advice on this--but in my personal 
experience, when we were at Scott Air Force Base at U.S. 
Transportation Command and one of the BRAC moves was the Army 
component to U.S. Transportation Command--it is called the 
Surface Deployment and Distribution Command--and relocated from 
three spots in Virginia to Scott Air Force Base, Illinois.
    Mr. Edwards. Right.
    General Schwartz. That was a fully-funded initiative, but 
the definition of that initiative took some negotiation. You 
know, there is some push-and-pull involved in that.
    And all I can tell you is that we ended up with an $84 
million facility at Scott Air Force Base for the new Army 
command and some growth that we had within U.S. Transportation 
Command that was quite satisfactory.
    And, Del, would you like to expand on that?
    General Eulberg. Yes, sir, if I might. Sir, relative to the 
BRAC process, as you know, when we worked with the commission 
and developed the recommendations for BRAC, it is done with a 
very small planning staff, and they make assumptions to the 
best of their ability.
    But one of the fundamental assumptions is, it is not a one-
for-one ``build here, move there'' or ``move here and 
replicate.'' It is based on capacity.
    And so the services spend a lot of time analyzing and 
providing input to say, ``What is the capacity of this 
particular base to accept a new mission?'' So that analysis is 
quite rigorous. However, it is based on assumptions.
    And, as General Schwartz mentioned, whenever the final list 
is released, we go out and actually then begin the detailed 
site surveys. And that is where you begin to actually leverage 
some great ideas.
    And I was personally involved with U.S. TRANSCOM and the 
consolidation efforts there. And a lot of great ideas came 
forward as a result of that to make it even more effective.
    And so bottom line is that is why we have--and I appreciate 
the Congress's support on this--BRAC is not line-item managed, 
per se, like the MILCON budget. And that gives the Services 
some flexibility to leverage great ideas and to put the funding 
where it is most needed.
    But as a general rule, the business plans as developed are 
fully funded. And there is some give-and-take, but----
    Mr. Edwards. And to be clear, the definition of fully 
funded might mean that you have some unfunded needs when you 
move to a new installation? For example, you are doing 
maintenance on aircraft outside. That is not a good idea in 
most parts of the country, so that, in effect, BRAC--we are 
trying--the point I am trying to get to, we are trying to take 
lessons learned from BRAC so we can apply those to the future.
    So am I correct in understanding that maybe one of the 
things Congress should do is look at the projected BRAC costs 
and maybe question whether you are really building all the 
hangars you need at the new station? You can call it fully 
funded, that is semantics.
    It is not truly fully funded in the real world outside of 
Washington, DC, if you have needs, basic needs, hangar space, 
administrative space, other things?
    General Eulberg. Sir, you are fully funded relative to the 
business plans and the assumptions made at the time, fully 
funded. And as you rightfully point out, one--as I mentioned, 
there are some great ideas under--General Schwartz, when he was 
USTRANSCOM commander, came up with good ideas on how to 
consolidate a number of functions. Those were different 
assumptions than just moving people, so it required additional 
funds. And so we did an internal process.
    But you highlight a great point, if the process was a 
little more open--because this is a multiyear effort. And as 
you move major units around, you discover things that weren't 
part of the business plan up front.
    And I will give you just a real simple example. You move an 
Army unit to a base that requires a whole motor pool complex. 
So your road structure, your gates have to be realigned.
    Mr. Edwards. Right.
    General Eulberg. Well, if you didn't catch that up front, 
then you are going to have to give up mission facilities in 
order to provide the infrastructure. So if there was a way we 
could provide updates to Congress that would allow that process 
to be adjusted, without opening the entire BRAC legislation, it 
would be most helpful.
    Mr. Edwards. Thank you for that, that insight. Thank you.
    Mr. Dicks.

                            NUCLEAR WEAPONS

    Mr. Dicks. One of the issues that I know has been very 
important to you, General, is improving the way the Air Force 
handles nuclear weapons. I don't know if you have talked about 
this or not yet.
    Mr. Edwards. We talked some about it. I asked him, but 
proceed----
    Mr. Dicks. McChord Air Force Base took an exam up there and 
did very well on this nuclear issue. And I know that Secretary 
Gates has made this an ultimately high priority.
    So could you tell us a little bit about how you are 
approaching this, you and the secretary, to get this thing 
under control?
    General Schwartz. Sir, there are three major components to 
it, but, again, to start at the strategic level. Over time, we 
lost focus on this mission, and there are lots of reasons for 
it, I mean, some of which are understandable.
    We had two wars going on in the U.S. Central Command Area 
of Responsibility. We had, within our Air Force being deployed, 
had greater acceptance and a sense of value than being deployed 
in place, like the folks who do the missile work in Montana, 
Wyoming, and North Dakota. And, frankly--and this was 
department-wide--the whole notion of deterrence sort of had 
less traction than it has had in the past.
    And for those reasons and a number of others, we, frankly, 
got a little too casual. We lost the discipline and the focus 
needed to do this right. I mean, perfection is the standard, 
and good intentions are not good enough in this mission area. 
You have to perform.
    So one of the things we did, Congressman Dicks, was to re-
emphasize the cultural piece of this, compliance. You know, you 
don't want to stifle imagination or stifle innovation, but 
there are some things in the Air Force where you do it the Air 
Force way. And that is certainly true in the nuclear realm. So 
that was one part.
    The other part was establishing this command we spoke of 
earlier of the Global Strike Command. Global Strike Command 
will consolidate all the nuclear parts, operational pieces of 
the Air Force, into one organization, both the missile piece 
and the bomber piece. It will have a single three-star 
commander who will be responsible and accountable for nuclear 
readiness.
    Mr. Dicks. So you are going to bring all the weapons there, 
all the missiles--not the missiles. They are in the silos.
    General Schwartz. Right, right. And----
    Mr. Dicks. But there are some----
    General Schwartz. And the wings, and the operations, the 
folks that do the nuclear operations, both in the missile wings 
and the bomber wings, will be subordinate to this major 
command.
    The second piece of this was recognizing that there was a 
sustainment part to this nuclear business, as well as the 
operations. We had sustainment distributed in four commands in 
the Air Force. Bad idea.
    So we consolidated that, as well, in an organization called 
the Nuclear Weapons Center at Kirtland Air Force Base in New 
Mexico. And the end result now is that you have one accountable 
party on the operations side, one accountable party on the 
sustainment side, and their two belly buttons are very close 
together. They are the folks that will keep us pristine in the 
nuclear mission.
    Mr. Dicks. There weren't any issues, really, with the 
missiles----
    General Schwartz. No.
    Mr. Dicks [continuing]. The silo-based missiles?
    General Schwartz. No, sir. There was not. This was a 
process, procedures and compliance issue with respect to--one 
of the occasions, you will recall, we moved weapons from Minot 
Air Force Base to Barksdale Air Force Base, Louisiana----
    Mr. Dicks. Right.
    General Schwartz [continuing]. And lost track of them. Not 
a good thing. And then the second incident had to do with what 
we call--it is--I forget the exact name. In other words, these 
are nuclear-related materials, but they are not nuclear 
themselves, that this was the thing about the fuses that went 
to Taiwan, you may recall.
    Mr. Dicks. Right.
    General Schwartz. They weren't nuclear themselves, but they 
were related to a weapon. And so, you know, they get the same 
attention, except this time. Well, no more of that.
    And in another example of what we have done, over time, we 
allowed the Defense Logistics Agency to take over some of the 
responsibility for logistics oversight of that material. No 
more. We are bringing it back into the Air Force at two 
dedicated facilities at Ogden Air Logistics Center, at Hill Air 
Force Base, and at Tinker Air Logistics Center in Oklahoma 
City.
    And we are managing all that ourselves now, not contracting 
out to anybody else. We are accountable. We are going to do it.
    Those are the major features, sir, of how we are going 
about to rectify the problems and to sustain the culture that 
we need.
    Mr. Dicks. Did the Air Force do this by itself? Or did it 
have oversight from the Department of Defense?
    General Schwartz. These were largely internal initiatives 
which certainly were vetted all the way up to the Secretary of 
the Air Force and brought into by the Secretary of Defense. 
And, incidentally, there were a couple of outside panels, 
including the Schlesinger panel, that I am sure you are aware 
of----
    Mr. Dicks. Right.
    General Schwartz. They vetted this, as well, and indicated 
that they thought this was a sound strategy.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Dicks.
    Mr. Wamp, do you have any additional questions?
    I have no further questions, so, General Schwartz, thank 
you again for being here today and your leadership.
    General Eulberg, we hope we got you out early enough to go 
back and help your wife pack up boxes. I don't know what is 
worse, packing boxes at home or testifying before Congress. But 
thanks to your 36 years of service. And we wish you all the 
best, and Godspeed in the years ahead.
    And we will stand adjourned.
    [Questions for the record submitted by Chairman Edwards:]

                        Infrastructure Footprint

    Your ``20/20'' plan to reduce both footprint and installation 
funding requirements 20 percent by 2020 indicates that the Air Force 
has an excess of infrastructure.
    Question. Do you believe that the Air Force has an excess 
infrastructure footprint?
    Answer. Yes, the results of initial space utilization surveys in 
several major commands indicate the Air Force has excess infrastructure 
footprint. The Air Force is proceeding with standardized service-wide 
space utilization surveys to more completely describe our 
infrastructure utilization. The estimated completion date of these 
surveys is the end of fiscal year 2010.
    Your ``20/20'' plan to reduce both footprint and installation 
funding requirements 20 percent by 2020 indicates that the Air Force 
has an excess of infrastructure.
    Question. If so, why did BRAC fail to reduce this excess?
    Answer. The Air Force fully intended to reduce excess 
infrastructure when it recommended the closure of ten installations 
(including three active duty installations: Cannon Air Force Base, New 
Mexico; Ellsworth Air Force Base, South Dakota; and Onizuka Air Force 
Station, California) and the realignment of sixty-two other 
installations to the 2005 Base Closure and Realignment Commission. 
However, during their deliberations and in its report to the President, 
the BRAC Commission altered the Air Force recommendation and kept two 
of the three active duty and many of the Reserve component 
installations open and fully manned.
    Your ``20/20'' plan to reduce both footprint and installation 
funding requirements 20 percent by 2020 indicates that the Air Force 
has an excess of infrastructure.
    Question. When you say that you plan to reduce ``resources 
required'' for installations, what specific Air Force accounts and 
activities are you looking at?
    Answer. When the Air Force plans to reduce ``resources required'' 
for installations, the Air Force is specifically referring to reduced 
costs associated with facilities operations, facilities sustainment and 
facilities restoration and modernization.
    Your ``20/20'' plan to reduce both footprint and installation 
funding requirements 20 percent by 2020 indicates that the Air Force 
has an excess of infrastructure.
    Question. Does your budget assume the savings leading to this 20 
percent reduction by 2020?
    Answer. The Air Force budget request does not reflect savings based 
on the ``20/20 by 2020'' plan. The ``20/20 by 2020'' plan is an 
acknowledgement of excess inventory and the lack of operations and 
maintenance funding to properly care for all of it. Over the past few 
years, the Air Force's budget has assumed greater risk in 
infrastructure funding as it moved operations and maintenance to fund 
the recapitalization of our weapons systems. As a result of these 
funding reductions, the Air Force established the ``20/20 by 2020'' 
goal as part of the 2008 Air Force Civil Engineer Strategic Plan. The 
goal is to offset the reduction in funds available for installation 
support activities by achieving efficiencies and reducing by 20 percent 
the Air Force physical plant that requires funds by 2020.

                         Air Sovereignty Alert

    The GAO released a report this year raising concerns about the Air 
Force's management of the Air Sovereignty Alert (ASA) mission. The GAO 
found that the Air Force had failed to treat ASA as a ``steady state'' 
mission for the purposes of planning and budgeting in accordance with 
DoD guidance. The GAO further found that 45 percent of ASA unit 
commanders identified ``facilities'' as a significant factor affecting 
their ability to perform this mission.
    Question. Has the Air Force identified all of the facility 
requirements needed to support this mission?
    Answer. There are 18 Air Sovereignty Alert locations. Two of those 
locations will transition to the F-22 aircraft and four of those 
locations will transition to the F-15 Golden Eagles (F-15s with 
electronically scanned radar, infrared search and track, etc.). The 
decision on the other 12 locations is not final, but it looks like they 
should be F-35 locations, provided there is a high enough production 
rate in the program. At this point in time, we are addressing our 
facility issues through our standard military construction processes. 
Projects proposed in support of these sites compete against other 
existing military construction requirements on an annual basis for 
funding.
    The GAO released a report this year raising concerns about the Air 
Force's management of the Air Sovereignty Alert (ASA) mission. The GAO 
found that the Air Force had failed to treat ASA as a ``steady state'' 
mission for the purposes of planning and budgeting in accordance with 
DoD guidance. The GAO further found that 45 percent of ASA unit 
commanders identified ``facilities'' as a significant factor affecting 
their ability to perform this mission.
    Question. Has the Air Force identified all of the facility 
requirements needed to support this mission?
    Answer. No. The Air Force developed an Air Sovereignty Alert site 
activation guide identifying recommended facilities standards, but a 
comprehensive study to assess the facility requirements has not yet 
been undertaken at existing sites against these recommended standards.
    The GAO released a report this year raising concerns about the Air 
Force's management of the Air Sovereignty Alert (ASA) mission. The GAO 
found that the Air Force had failed to treat ASA as a ``steady state'' 
mission for the purposes of planning and budgeting in accordance with 
DoD guidance. The GAO further found that 45 percent of ASA unit 
commanders identified ``facilities'' as a significant factor affecting 
their ability to perform this mission.
    Question. How much MILCON is requested in the FY10 budget for ASA 
facilities?
    Answer. There are two projects supporting the Air Sovereignty Alert 
mission in the fiscal year 2010 Air Force military construction 
program. The munitions storage area at Andrews Air Force Base, Maryland 
has one active Air Force project and one Air National Guard project 
which both support the ASA mission at a total cost of $23.3 million.

                           Air Force Road Map

    The GAO released a report this year raising concerns about the Air 
Force's management of the Air Sovereignty Alert (ASA) mission. The GAO 
found that the Air Force had failed to treat ASA as a ``steady state'' 
mission for the purposes of planning and budgeting in accordance with 
DoD guidance. The GAO further found that 45 percent of ASA unit 
commanders identified ``facilities'' as a significant factor affecting 
their ability to perform this mission.
    Question. Has the Air Force updated this document, and if not, does 
it intend to update this document to reflect changes in aircraft 
procurement since that date?
    Answer. The Air Force generated ``Road Maps'' for 2009, but the 
data has not been updated to reflect fiscal year 2010 changes. 
Currently, the Air Force is finalizing the data for the force structure 
announcement which will reflect changes in manpower and aircraft, State 
by State. The announcement is scheduled to be released later this 
summer.

[GRAPHIC] [TIFF OMITTED] T0526E.064

[GRAPHIC] [TIFF OMITTED] T0526E.065

[GRAPHIC] [TIFF OMITTED] T0526E.066

[GRAPHIC] [TIFF OMITTED] T0526E.067

[GRAPHIC] [TIFF OMITTED] T0526E.068


 
                           W I T N E S S E S

                               ----------
                                                                   Page
Appel, Stanley...................................................   784
Arny, Wayne..............................................237, 558, 1284
Baker, Kerry.....................................................   899
Barnes, Joe......................................................   728
Billings, Kevin..................................................   269
Blake, Carl......................................................   854
Bottene, Cinzia..................................................   791
Campbell, Patrick................................................   778
Casey, General George W., Jr.....................................  1061
Casscells, S. Ward...............................................   503
Cohoon, Barbara..................................................   674
Conway, General James T..........................................  1114
Cox, Timothy C...................................................   962
Craddock, General Bantz J........................................   374
Daigh, John Jr...................................................   129
Eastin, Kenneth D..............................................248, 577
Ferguson, Kathleen...............................................   600
Finn, Belinda....................................................   149
Greene, Chief Judge William P., Jr...............................   918
Hale, Robert F...................................................  1276
Houlemard, Michael...............................................   801
Jones, Rick......................................................   742
Keating, Admiral Timothy J.......................................   317
Kelley, Raymond..................................................   867
Kelly, Heather...................................................   713
Kent, Sergeant Major Carlton W...................................    29
Kussman, Michael J...............................................   488
Maupin, John E., Jr..............................................   757
McKinley, Chief Master Sergeant Rodney J.........................    62
Melvin, Valerie..................................................   152
Needham, Christopher.............................................   881
Nicholson, Brigadier General John W..............................   930
Nolan, Stephan J.................................................   693
Penn, B.J......................................................259, 589
Petraeus, General David H........................................   987
Preston, Sergeant Major Kenneth O................................     7
Redmond, Ben.....................................................   814
Regan, Maureen...................................................   150
Robertson, Steve.................................................   829
Roman-Rodriguez, Jesse...........................................   722
Roughead, Admiral Gary...........................................  1104
Salt, Terrence C.................................................   941
Schwartz, General Norton A.......................................  1363
Sharp, General Walter L..........................................   329
Shinseki, the Honorable Eric.....................................  1188
Streim, Joel E...................................................   661
Toews, Galen B...................................................   654
West, Chief Master Petty Officer Rick D..........................    48
Williamson, Randall B............................................   130

 
                               I N D E X

                               __________

                            QUALITY OF LIFE

                                                                   Page
Accessibility and Availability of Healthcare.....................    85
Army Family Action Plan..........................................   104
Army Medical Action Plan.........................................   119
Basic Allowance for Housing......................................   107
Chairman, Statement of...........................................     1
Cross-Cultural Exchange--Horn of Africa..........................   112
Cross-Cultural Training..........................................   100
Demobilization Process...........................................    96
Education Benefits...............................................    93
Family Housing, Aging............................................   109
Family Programs..................................................   120
Financial Assistance Programs....................................    98
Guard and Reserve Morale and Cohesion............................    84
Guard and Reserve Quality of Life Issues.........................    96
Guard and Reserve, Employer Support for..........................    97
Healthcare.......................................................   103
Homeowners Assistance Program....................................    89
Homeport Ashore..................................................    99
Housing Entitlements, Single Soldier.............................   126
Housing for Redeploying Soldiers.................................   124
Housing Privatization............................................   111
Iraq, Rebuilding.................................................   103
Kent, Prepared Statement of Sergeant Major Carlton W.............    30
Kent, Statement of Sergeant Major Carlton W......................    29
McKinley, Prepared Statement of Chief Master Sergeant Rodney J...    65
McKinley, Statement of Chief Master Sergeant Rodney J............    62
Mental Health Counseling.........................................    86
MilCon...........................................................    97
Post Traumatic Stress Disorder...................................    85
Preston, Prepared Statement of Sergeant Major Kenneth O..........    10
Preston, Statement of Sergeant Major Kenneth O...................     7
Quality of Life Issues, Top......................................   106
Ranking Minority Member, Statement of............................     2
RCI Housing......................................................   123
Recruiting.......................................................    82
Soldier Fitness, Comprehensive...................................   119
Suicide Prevention..............................................92, 118
Suicide Rates....................................................    81
TRICARE Provider.................................................   115
TRICARE..........................................................   104
Web-Based Psychological Counseling...............................    91
West, Prepared Statement of Chief Master Petty Officer Rick D....    50
West, Statement of Chief Master Petty Officer Rick D.............    48

                        REVIEW OF VA CHALLENGES

Accountability Goals.............................................   162
Audits...........................................................   137
Backlog of Benefits Claims.......................................   222
Benefits Claims Processing.......................................   209
Budget Estimates.................................................   136
Chairman, Statement of the.......................................   127
Claims Processors, Hiring of.....................................   161
Community-Based Outpatient Clinics, Vet Centers, and Contracted 
  Care...........................................................   211
Community-Based Outreach Clinics................135, 139, 143, 147, 223
Daigh, Statement of John D.......................................   129
Data Security....................................................   162
DoD/VA Computable Data...........................................   213
DoD/VA Transition to Care........................................   212
Electronic Medical Records.......................................   144
Enrollment.......................................................   159
Federal Information Security Management..........................   215
Fee-for-Service Care.............................................   164
Finn, Statement of Belinda J.....................................   149
G.I. Bill, New.................................................160, 209
Health Care Center Facilities....................................   224
Homeless Veterans................................................   140
Identity Theft...................................................   137
Interoperability.................................................   155
Joint Incentive Fund.............................................   225
Melvin, Prepared Statement of Valerie C..........................   193
Melvin, Statement of Valerie C...................................   152
Mental Health Resources, Access to...............................   225
Multiple Award Schedule Advisory Panels........................158, 164
Post Traumatic Stress Disorder...................................   133
Prepared Statement of Office of Inspector General................   166
Prescription Drugs...............................................   153
Ranking Minority Member, Statement of............................   128
Regan, Statement of Maureen T....................................   150
Telemedicine...................................................138, 147
Transition Assistance for OEF/OIF Veterans.......................   210
VA Information Technology Risks..................................   214
VA Medical Procedure Problems....................................   134
VBA Claims Processing Operations.................................   213
Williamson, Prepared Statement of Randall B......................   177
Williamson, Statement of Randall B...............................   130

                        FAMILY AND TROOP HOUSING

Air Force Housing................................................   295
Arny, Prepared Statement of Wayne................................   239
Arny, Statement of Wayne.........................................   237
Barracks..................................................290, 296, 308
Billings, Prepared Statement of Kevin W..........................   271
Billings, Statement of Kevin W...................................   269
Chairman, Statement of...........................................   235
Committee Support................................................   293
Eastin, Prepared Statement of Kenneth D..........................   250
Eastin, Statement of Kenneth D...................................   248
Eglin AFB Housing Privatization..................................   284
Family Housing...................................................   307
Financial Challenges.............................................   289
Fort Huachuca/Yuma Proving Ground RCI............................   308
FSRM Funding for Barracks........................................   312
Government-Owned Family Housing..................................   312
Grow the Force...................................................   286
Guaranteed Loss..................................................   303
Guard and Reserve................................................   310
Homeowners Assistance Program....................................   300
Housing Privatization Standardization............................   283
Housing Services.................................................   308
Housing, Inadequate..............................................   287
Housing, Privatized..............................................   282
Investments......................................................   286
Korea Housing....................................................   302
Marine Corps Barracks Modernization/Growing the Force............   305
Market Liquidity.................................................   302
Navy Unaccompanied Housing.......................................   304
Non-Military on Base Housing.....................................   283
Penn, Prepared Statement of B.J..................................   261
Penn, Statement of B.J...........................................   259
Pinon Canyon.....................................................   284
Privatization of Army Lodging....................................   312
Ranking Minority Member..........................................   235
Standard Housing, Dollar Amount Needed...........................   297
Stimulus Funding.................................................   287
Warrior Transition...............................................   311
Wounded Warrior Barracks.........................................   306

                            PACIFIC COMMAND

Accompanied Tours to Korea.....................................361, 364
Chairman, Statement of...........................................   315
Command-Sponsored Families.......................................   371
Guam Buildup.....................................................   365
Guam.............................................................   357
Humphreys Housing Opportunity Program............................   370
Keating, Prepared Statement of Admiral Timothy J.................   320
Keating, Statement of Admiral Timothy J..........................   317
Korea............................................................   356
Korea, Force Levels in...........................................   371
Naval Postgraduate School and Cooperation with Other Countries on 
  Search and Rescue..............................................   354
Naval Postgraduate School Diversity..............................   353
North Korea and Oceanic Cooperation..............................   351
Nuclear Powered Aircraft in Japan................................   355
Okinawa to Guam, Moving Troops from..............................   348
Ranking Minority Member, Statement of............................   315
Realignment, Status of...........................................   370
Schools..........................................................   362
Sharp, Prepared Statement of General Walter L....................   332
Sharp, Statement of General Walter L.............................   329
South Pacific, Resources to the..................................   361
U.S. Forces Korea Tour Normalization.............................   348
U.S. Dollar, Impact on the Value of..............................   359

                            EUROPEAN COMMAND

Afghanistan...............................................467, 471, 474
Ballistic Missile Defense--European Site.........................   459
Chairman, Statement of...........................................   373
Command Structure at EUCOM.......................................   473
Craddock, Prepared Statement of General Bantz J..................   376
Craddock, Statement of General Bantz J...........................   374
DoD Education Needs in Europe....................................   475
DoDEA Schools in Europe..........................................   482
Economic Downturn................................................   461
Force Levels/Demands in Europe...................................   480
Germany, Military Construction Implications in...................   453
Infrastructure, Deployment and En Route..........................   483
International Military Education in Training.....................   458
Missile Defense..................................................   485
NATO Contributions...............................................   463
NATO Security Investment Program.................................   486
NATO.............................................................   470
Privatized Housing/Quality of Life...............................   477
Quality of Life................................................455, 477
Ranking Minority Member, Statement of............................   373
Stabilization Corps..............................................   464
Tajikistan.......................................................   476

                       DOD/VA MEDICAL TRANSITION

AHLTA--Upcoming Changes..........................................   545
Casscells, Prepared Statement of S. Ward.........................   505
Casscells, Statement of S. Ward..................................   503
Chairman, Statement of...........................................   487
Congressioal Support.............................................   549
Continuum of Care................................................   540
Disability Evaluation System Pilot Program.....................530, 536
DoD/VA Data Sharing--Interoperability............................   545
DoD/VA Data Sharing..............................................   531
DoD/VA Health Care Collaboration in Monterey.....................   547
DoD/VA Medical Facilities........................................   528
Electronic Health Records........................................   537
Interoperability.................................................   543
Joint DoD/VA Facilities..........................................   534
Kussman, Prepared Statement of Michael J.........................   491
Kussman, Statement of Michael J..................................   488
Medical BRAC in the National Capital Region......................   532
Mental Health Professionals......................................   546
Mental Health....................................................   529
Network of Care Website..........................................   553
Ranking Minority Member, Statement of............................   488
Telemedicine.....................................................   543
Warrior Transition Units.........................................   538
Wounded Warriors/Military Families, Public Assistance to.........   552

                      BASE REALIGNMENT AND CLOSURE

Arny, Prepared Statement of Wayne................................   561
Arny, Statement of Wayne.........................................   558
Bethesda and Fort Belvoir, Congestion at.........................   636
Billings, Prepared Statement of Kevin W..........................   602
BRAC Acres Pending Disposal......................................   632
BRAC Implementation..............................................   644
BRAC Money.......................................................   628
Brigade Combat Teams.............................................   621
Chairman, Statement of...........................................   555
Cleanup..........................................................   629
COBRA..........................................................626, 641
Communities, BRAC..............................................619, 622
Community Support and Quality of Life Projects...................   644
Cost Estimates for BRAC..........................................   613
Defense Access Roads.............................................   643
Discrete BRAC Actions............................................   645
Eastin, Prepared Statement of Kenneth D..........................   579
Eastin, Statement of Kenneth D...................................   577
EDC..............................................................   633
Eglin AFB--Initial Joint Training Site for the Joint Strike 
  Fighter........................................................   641
Eglin AFB--Relocation of the 7th Special Forces Group............   642
Ferguson, Statement of Kathleen..................................   600
Fiscal Year 2009 Army BRAC 2005 Construction Projects............   646
Fixed Deadline...................................................   616
Fort Detrick.....................................................   643
Fort Ord.........................................................   617
FUDS.............................................................   638
Impact Aid.......................................................   624
Infrastructure...................................................   618
Joint Basing.....................................................   641
Lessons Learned................................................614, 625
Milan Army Ammunition Plant......................................   644
Milan Arsenal....................................................   635
Navy Business Plans..............................................   646
Penn, Prepared Statement of B.J..................................   591
Penn, Statement of B.J...........................................   589
Ranking Minority Member, Statement of............................   556
San Antonio Military Medical Center..............................   641
Savings and Reduction in Excess Infrastructure...................   643
Statutory BRAC Deadline..........................................   640
Surveys and Investigations Report................................   614
Treasure Island...........................................618, 632, 638
Vision Center of Excellence......................................   634

                           OUTSIDE WITNESSES

Appel, Statement of Stanley......................................   784
Baker, Statement of Kerry........................................   899
Barnes, Statement of Joe.........................................   728
Blake, Statement of Carl.........................................   854
Bottene, Statement of Cinzia.....................................   791
Campbell, Statement of Patrick...................................   778
Chairman, Statement of...........................................   653
Cohoon, Statement of Barbara.....................................   674
Houlemard, Statement of Michael..................................   801
Jones, Statement of Rick.........................................   742
Kelley, Statement of Raymond.....................................   867
Kelly, Statement of Heather......................................   713
Maupin, Statement of John E., Jr.................................   757
Needham, Statement of Christopher................................   881
Nolan, Statement of Stephen J....................................   693
Ranking Minority Member, Statement of............................   653
Redmond, Statement of Ben........................................   814
Robertson, Statement of Steve....................................   829
Roman-Rodriguez, Statement of Jesse..............................   722
Streim, Statement of Joel E......................................   661
Toews, Statement of Galen B......................................   654

                            COURT OF APPEALS

Case Filings, Decrease in........................................   930
CAVC Courthouse, New.............................................   979
CAVC.............................................................   979
Chairman, Statement of...........................................   917
Electronic Management/Electronic Case Filing System..............   980
Greene, Prepared Statement of Chief Judge William P., Jr.........   919
Greene, Statement of Chief Judge William P., Jr..................   918
Judges, Increase in..............................................   930
Ranking Minority Member..........................................   917
Renovating Existing Building.....................................   929

                  AMERICAN BATTLE MONUMENTS COMMISSION

American Battle Monuments Commission FY 2010 Budget Request......   981
DoD Cemeterial Expenses/Arlington National Cemetery/FY 2010 
  Overcrowding...................................................   981
Foreign Currency Fluctuation Account.............................   940
Interpretive Techniques..........................................   938
Nicholson, Prepared Statement of John W..........................   933
Nicholson, Statement of John W...................................   930
Normandy Visitor Center..........................................   937
Pointe du Hoc....................................................   937
Tomb of the Unknowns.............................................   982
Total Cemetery Management System/Digitizing Records..............   982

                       CEMETERIAL EXPENSES, ARMY

Burial Expenses..................................................   961
Millenium Project................................................   953
Salt, Prepared Statement of Terrence C...........................   943
Salt, Statement of Terrence C....................................   941
Tomb of the Unknown Soldier......................................   960

                      ARMED FORCES RETIREMENT HOME

Admission Criteria...............................................   983
Cox, Prepared Statement of Timothy C.............................   964
Cox, Statement of Timothy C......................................   962
Financial Stability..............................................   983
Fraud and Abuse..................................................   983
Gulfport Facility................................................   978
Homeless Veterans..............................................976, 977
Scott Dormitory Renovation (D.C. Campus).........................   982
Waiting Lists....................................................   976
Washington, D.C. Campus..........................................   982
Washington, D.C. Site, Revenues from.............................   976

                            CENTRAL COMMAND

Afghanistan..................................................1034, 1044
Afghanistan, Agriculture Potential...............................  1040
Afghanistan, Illegal Drugs in....................................  1041
Chairman, Statement of...........................................   986
India............................................................  1053
Interagency Involvement..........................................  1043
Iraq.............................................................  1051
Iraq, Drawdown of Troops.........................................  1053
Kashmir..........................................................  1056
Kyrgystan........................................................  1052
Pakistan.........................................................  1051
Petraeus, Prepared Statement of General David H..................   992
Petraeus, Statement of General David H...........................   987
Piracy...........................................................  1041
Ranking Minority Member..........................................   986
Taliban..........................................................  1038

                              ARMY BUDGET

Afghanistan and Pakistan.........................................  1097
Afghanistan..................................................1084, 1086
AFRICOM..........................................................  1100
Army Funding Priorities..........................................  1083
Army National Guard..............................................  1086
Army Policy of Proselytizing.....................................  1083
Base Realignment and Closure.................................1081, 1087
Brigade Combat Teams.............................................  1079
Casey, Prepared Statement of General George W., Jr...............  1065
Casey, Statement of General George W., Jr........................  1061
Chairman, Statement of...........................................  1060
Declining Construction Costs on Military Construction Projects, 
  Impact of......................................................  1082
Hospitals....................................................1080, 1087
IMET.............................................................  1098
Impact Aid.......................................................  1090
Iraq, Casualties in..............................................  1098
Iraq, Drawdown of Troops in......................................  1090
Joint Cargo Aircraft.............................................  1085
Joint DoD/VA Clinic in Monterey, California......................  1082
Language Training................................................  1092
Military Home Sales and Benefits.................................  1095
Ranking Minority Member, Statement of............................  1060
Sustainable Performance Ratio....................................  1081
Unfunded Requirements............................................  1080
Unsolicited Assistance...........................................  1091
Wounded Warriors in Afghanistan vs. Iraq, Evacuation Time........  1094

                      NAVY AND MARINE CORPS BUDGET

Barracks.....................................................1181, 1182
Blount Island....................................................  1184
Chairman, Statement of...........................................  1103
Conway, Prepared Statement of General James T....................  1116
Conway, Statement of General James T.............................  1114
DDG-1000.........................................................  1170
DoD Health Care System Modernization.............................  1174
East Coast CVN Homeporting.......................................  1182
Education........................................................  1179
End Strength.....................................................  1182
Guam...................................................1166, 1175, 1183
Housing, Inadequate..............................................  1130
International Military Education Training Program................  1175
Maintenance......................................................  1178
Morale, High Rate of Deployment Impact on........................  1172
Naval Station Mayport, Homeporting Nuclear Carrier at............  1131
Navy Educational Institutions....................................  1171
Outlying Landing Field for East Coast Carrier Landing Practice...  1182
Ranking Minority Member, Statement of............................  1103
Roughead, Prepared Statement of Admiral Gary.....................  1106
Roughead, Statement of Admiral Gary..............................  1104
S&R and FAO Education and Training...............................  1169
Stabilization and Reconstruction MOS.............................  1168
USS Hartford.....................................................  1178

                            VETERANS AFFAIRS

Advance Appropriation........................................1228, 1232
Advance Appropriations for VA Medical Care.......................  1269
Backlog..........................................................  1224
Cemeteries, Closing of...........................................  1242
Cemeteries, VA...................................................  1244
Chairman, Statement of...........................................  1185
Chattanooga CBOC Report..........................................  1271
Claims Adjudication..............................................  1235
Claims Processing System, Hiring of Veterans in..................  1240
Construction Competition Pricing.................................  1256
Departmental Administration......................................  1257
Federal Recovery Coordinators....................................  1258
Fitzsimmons Army Medical Center..................................  1220
G.I. Bill........................................................  1239
Health Care Innovation...........................................  1253
Health Care Standards............................................  1252
HealtheVet Integrated Master Plan................................  1265
Homeless Veterans................................................  1216
Homelessness.....................................................  1227
Information Security.............................................  1220
Information Technology Procurement...............................  1260
Interoperability.................................................  1214
Jointness........................................................  1233
Medical Care for Veterans in Rural Locations.....................  1222
Medical Research.................................................  1259
Mental Health....................................................  1236
National Guard and Reserve Benefits..............................  1246
NCA's Outreach Plan..............................................  1243
Office of Information and Technology Hiring Freeze...............  1264
Post-9/11 GI Bill Implementation.................................  1271
Ranking Minority Member, Statement of............................  1186
Rural Health Outreach and Delivery...............................  1270
Service Dogs.....................................................  1255
Shinseki, Prepared Statement of the Honorable Eric...............  1191
Shinseki, Statement of the Honorable Eric........................  1188
Specialty Mental Health Care and Rural Health Outreach and 
  Delivery.......................................................  1270
Suicide Hotline..................................................  1241
Sustainability and Energy........................................  1257
Technology Acquisition Center....................................  1263
Transformation Review............................................  1257
Transformation...................................1212, 1219, 1230, 1268
VA Benefits Claims Backlog.......................................  1270
VA Information Technology Risks..................................  1269
VA IT Staffing...................................................  1270
VA/DoD Interoperability Plan.....................................  1272
Vouchers.........................................................  1248

                            BUDGET OVERVIEW

AFRICOM..........................................................  1342
Allies, Support to...............................................  1330
Arny, Prepared Statement of Wayne................................  1287
Arny, Statement of Wayne.........................................  1284
Base Realignment and Closure Savings.............................  1358
Base Realignment and Closure.................................1327, 1360
Base Realignment and Closure, Lesson Learned.....................  1339
Center for Stabilization and Reconstruction Studies..............  1344
Chairman, Statement of...........................................  1275
Defense Language Institute.......................................  1346
FYDP.........................................................1326, 1328
Guard and Reserve Funding........................................  1358
Hale, Prepared Statement of Robert F.............................  1280
Hale, Statement of Robert F......................................  1276
Homeowners Assistance Program....................................  1332
Housing, Inadequate..............................................  1350
Incremental Funding..............................................  1347
Inflation........................................................  1359
Joint Cargo Aircraft.............................................  1354
Mayport Naval Air Station........................................  1342
Missile Defense..................................................  1359
Overseas Contingency Operations Request..........................  1360
Overseas Health Care.............................................  1347
Ranking Minority Member..........................................  1275
School Construction Funding......................................  1336
Workforce........................................................  1329

                            AIR FORCE BUDGET

Base Realignment and Closure.....................................  1400
Chairman, Statement of...........................................  1361
Contractor Utilization, Small and Disadvantaged..................  1393
Donations........................................................  1397
Engineering......................................................  1396
Guard and Reserve Components.....................................  1387
Housing, Inadequate..............................................  1383
Infrastructure Footprint.........................................  1404
Joint Basing.....................................................  1388
Joint Cargo Aircraft.............................................  1391
Lackland Air Force Base..........................................  1399
Modular Construction.............................................  1389
Moody Air Force Base, Georgia....................................  1392
Nuclear Weapons..................................................  1402
Nuclear-Related Facilities.......................................  1394
Ranking Minority Member, Statement of............................  1362
Schwartz, Prepared Statement of General Norton A.................  1365
Schwartz, Statement of General Norton A..........................  1363

                                  <all>
</pre></body></html>
